Case No.

In The
Supreme Court of the United States
___
SCOTT ERIK STAFNE
Petitioner,

v.

BANK OF NEW YORK MELLON,
A NEW YORK BANKING CORPORATION
Respondents.
On Petition for Writ of Certiorari to the United States
Court of Appeals for the Ninth Circuit.

_______________
APPENDIX

_______________
SCOTT E. STAFNE Petitioner pro se
239 North Olympic Avenue
Arlington, WA 98223
TELEPHONE: 360.403.8700
Email: Scott@Stafnelaw.com
March 8, 2021

TABLE OF APPENDICES
Appendix 1. Ninth Circuit Memorandum ......................................................................1–3
Appendix 2. United States District Court Amended Partial Judgment ......................... 4–5
Appendix 3. United States District Court Minute Order .............................................. 6–8
Appendix 4. United States District Court Minute Order .................................................. 9
Appendix 5. United States District Court Order ....................................................... 10–17
Appendix 6. United States District Court Order ...................................................... 18–26
Appendix 7. United States District Court Partial Judgment in a Civil Case ............. 27–28
Appendix 8. United States District Court Minute Order ........................................... 29–30
Appendix 9. Ninth Circuit Order ............................................................................. 31–32
Appendix 10. United States District Court Order ...........................................................33
Appendix 11. United States District Court Order Reviewing of Request to Recuse ... 34–37
Appendix 12. United States District Court Order Denying Motion for Reconsideration ......
.......................................................................................................................... 38–39
Appendix 13. United States District Court Minute Order ......................................... 40–43
Appendix 14. United States District Court Minute Order ......................................... 42–44
Appendix 15. United States District Court Minute Order ......................................... 44–46
Appendix 16. United States District Court Minute Order ......................................... 47–48
Appendix 17. Constitutional Provisions ................................................................... 49–56
Appendix 18. Ninth Circuit Order in Robertson ........................................................ 57–60
Appendix 19. Exhibit 1-Statutory Warranty Deed .................................................... 61–63
Appendix 20. Exhibit 2-Deed of Trust recorded in 2003 .......................................... 64–76
Appendix 21. Exhibit 5-Deed of Trust recorded in 2004 ........................................... 77–99
Appendix 22. Exhibit 6-Deed of Trust recorded 2005 ........................................... 100–18
Appendix 23. Exhibit 7- Deed of Trust in 2006 .......................................................119–25
Appendix 24. Exhibit 9Q Boundary Line Agreement .............................................. 126–39

Appendix 25. Exhibit 12-Assignment of Deed of Trust ........................................... 140–42
Appendix 26. Exhibit 13-Assignment of Deed of Trust ........................................... 143–45
Appendix 27. Exhibit 14- Corporate Assignment of Deed of Trust .......................... 146–47
Appendix 28. Exhibit 15-Assignment to Depositor 2015 ........................................ 148–49
Appendix 29. Exhibit 17-Assignment of Second Deed of Trust 2016 ...................... 150–52
Appendix 30. Exhibit 19-SLS Statement showing Depositor owns loan.................. 153–55
Appendix 31. Declaration of Cyndee Rae Estrada in Support of Stafne’s Factual FRCP
12(b)(1) ........................................................................................................... 156–58
Appendix 32. Exhibit 1- Estrada Declaration in Support of 12(b)(1) Motion ........... 159–60
Appendix 33. Plaintiff’s Opposition to Stafne’s Factual 12(b)(1) Motion ................ 161–77
Appendix 34. Declaration of Stafne in Support of Response to Motion to Substitute
Parties ............................................................................................................. 178–98
Appendix 35. Second Factual Motion to Dismiss Pursuant to FRCP 12(b)(1) ....... 199–220
Appendix 36. Motion to Substitute Real Party in Interest ...................................... 221–33
Appendix 37. Declaration of Johnson in Support of Motion to Substitute Real Party in
Interest ........................................................................................................... 234–36
Appendix 38. Declaration of attorney Burnside in Support of Motion to Substitute Real
Party in Interest .............................................................................................. 237–40
Appendix 39. Declaration of Janati in Support of Motion to Substitute Real Party in
Interest ........................................................................................................... 241–44
Appendix 40. Stafne’s Reply to Opposition to Motion to Prove Authority .............. 245–55
Appendix 41. Attorneys’ Opposition to Motion to Prove Authority ........................ 256–59
Appendix 42. Stafne’s Motion to Require Attorneys Prove Authority to Bring Lawsuit
........................................................................................................................ 260–68
Appendix 43. Declaration of Stafne in Support of Motion to Prove Authority ......... 269–72
Appendix 44. Stafne Answer and Affirmative Defenses ......................................... 273–84
Appendix 45. Supplemental Declaration ................................................................ 285–93
Appendix 46. Declaration, Exhibit 1- Affidavit of Attempted Service ..................... 294–96

Appendix 47. Stafne Declaration, Exhibit 2- Nationstar correspondence ................ 297–99
Appendix 48. Attorney’s Opposition to Motion to Dismiss for Lack of Subject-Matter
Jurisdiction ..................................................................................................... 300–17
Appendix 49. Stafne’s First Motion to Dismiss for Lack of Subject-Matter Jurisdiction
........................................................................................................................ 318–32
Appendix 50. Corporate Disclosure Statement ....................................................... 333–34
Appendix 51. Complaint ........................................................................................ 335–43
Appendix 52. Limited Power of Attorney ............................................................... 344–50
Appendix 53. Pooling and Servicing Agreement ................................................... 351–580
Appendix 54. Abrams v. Twin Falls Complaint filed in Snohomish County ............. 581–97
Appendix 55. Stafne’s Reply to Opposition to Second FRCP 12(b)(1) Motion....... 598–611
Appendix 56. Attorney’s Response to Todd Stafne’s Boundary Line Arguments .....612–13

Case 2:16-cv-00077-TSZ Document 179 Filed 10/08/20 Page 1 of 3
APPENDIX 1
A1

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
OCT 8 2020

MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
BANK OF NEW YORK MELLON, a New
York banking corporation,

No.

U.S. COURT OF APPEALS

16-36032

D.C. No. 2:16-cv-00077-TSZ
Plaintiff-Appellee,
MEMORANDUM*

v.
SCOTT ERIK STAFNE, an individual;
MAYUMI OHATA STAFNE, in her
capacity as the personal representative of the
estate of Todd Stafne,
Defendants-Appellants.

Appeal from the United States District Court
for the Western District of Washington
Thomas S. Zilly, District Judge, Presiding
Submitted September 3, 2020**
Seattle, Washington
Before: McKEOWN and VANDYKE, Circuit Judges, and CALDWELL,***
District Judge.

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
***

The Honorable Karen K. Caldwell, United States District Judge for
the Eastern District of Kentucky, sitting by designation.

Case 2:16-cv-00077-TSZ Document 179 Filed 10/08/20 Page 2 of 3
A2

Scott Stafne and the Estate of Todd Stafne appeal the district court’s grant of
summary judgment to the Bank of New York Mellon (“BNYM”) in a judicial
foreclosure action. The parties are familiar with the facts and we do not repeat
them here. We have jurisdiction under 28 U.S.C. § 1291 and affirm.
We review de novo the district court’s determination of subject matter
jurisdiction. U.S. ex rel. Solis v. Millennium Pharm., Inc., 885 F.3d 623, 625 (9th
Cir. 2018). The district court had jurisdiction to hear the case. Stafne challenges
BNYM counsel’s ability to bring the case, but far from having “no relationship at
all” to their clients, Kowalski v. Tesmer, 543 U.S. 125, 131 (2004), the district
court found any suggestion that BNYM’s attorneys did not actually represent
BNYM to be so lacking in merit as to be frivolous. The same description applies
to Stafne’s argument that a missing definite article in “Bank of New York Mellon”
renders the litigant fictitious, depriving the court of jurisdiction. His argument that
the senior district judge who heard his case was a “retired judge” merely “acting as
an Article III judge in this case,” is without merit. Senior judges “are, of course,
life-tenured Article III judges.” Nguyen v. United States, 539 U.S. 69, 72 (2003).
Stafne has waived his argument as to party substitution by failing to raise it
in his opening brief, see In Re J.T. Thorpe, Inc., 870 F.3d 1121, 1124 (9th Cir.
2017), and did not preserve his argument regarding the timing of the sale of his
loan to BNYM by failing to raise it in opposition to summary judgment, Shakur v.

2

Case 2:16-cv-00077-TSZ Document 179 Filed 10/08/20 Page 3 of 3
A3

Schriro, 514 F.3d 878, 892 (9th Cir. 2008).
We review de novo the district court’s grant of summary judgment. Branch
Banking & Tr. Co. v. D.M.S.I., LLC, 871 F.3d 751, 759 (9th Cir. 2017). The
quitclaim deed to Todd Stafne, executed after the deed of trust, could not stave off
foreclosure, as it was subject to BNYM’s lien on the property. A quitclaim deed
conveys “only the grantor’s interest, subject to valid title claims and
encumbrances.” United States v. Spahi, 177 F.3d 748, 751–52 (9th Cir. 1999)
(citing Thorstad v. Fed. Way Water & Sewer Dist., 870 P.2d 1046, 1048 (Wash.
Ct. App. 1994)). The district court therefore properly granted summary judgment
to BNYM, and in doing so rightly dismissed Appellants’ counterclaims. The
Estate of Todd Stafne’s reliance on a separate state court case relating to the
property’s boundaries, notwithstanding its issuance after the district court’s
judgment in this case, is unavailing, and Appellants’ other arguments are without
merit.
AFFIRMED.1

1

Appellant’s Motion to Take Judicial Notice of Findings of Fact and Stipulated
Conclusions of Law (Dkt. 64) and Appellant’s Motion for Miscellaneous Relief
(Dkt. 93) are denied.
3

Case 2:16-cv-00077-TSZ Document 172 Filed 05/14/19 Page 1 of 2
APPENDIX 2
A4

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
BANK OF NEW YORK MELLON,
Plaintiff,

AMENDED
PARTIAL JUDGMENT
IN A CIVIL CASE
CASE NO. C16-77 TSZ

v.
SCOTT STAFNE; and MAYUMI
OHATA STAFNE, as Administrator
of the Estate of Todd Stafne,
Defendants.

Jury Verdict. This action came before the court for a trial by jury. The issues
have been tried and the jury has rendered its verdict.
X

Decision by Court. This action came on for consideration before the court. The
issues have been considered and a decision has been rendered.
THE COURT HAS ORDERED THAT
Plaintiff Bank of New York Mellon’s motions for summary judgment, docket
nos. 63 and 81, are GRANTED in part and DENIED in part. Having found no just
reason for delay, see Fed. R. Civ. P. 54(b), partial judgment is hereby ENTERED
in favor of plaintiff Bank of New York Mellon, a New York banking corporation,
in its capacity as trustee for Structured Asset Mortgage Investments II Trust,
Mortgage Pass-Through Certificates Series 2005-AR2, as follows:
The Deed of Trust recorded on March 15, 2005, as Snohomish County
Instrument No. 200503150879 (“Deed of Trust”), encumbering the parcel
of real property commonly known as 17207 155th Avenue Northeast, in
Arlington, Washington 98223-6726, and legally described as LOT 11,
SURVEY FOR TWIN FALLS, INC., AS RECORDED UNDER
RECORDING NO. 200110105002, RE-RECORDED TO CORRECT
SURVEY RECORDED UNDER RECORDING NO. 200111275007,
RECORDS OF SNOHOMISH COUNTY, BEING A PORTION OF THE
SOUTHEAST QUARTER OF SECTION 22 AND A PORTION OF THE
NORTHEAST QUARTER OF SECTION 27 ALL IN TOWNSHIP 31
NORTH, RANGE 6 EAST, W.M.; (ALSO KNOWNS AS LOT 11, THE

Case 2:16-cv-00077-TSZ Document 172 Filed 05/14/19 Page 2 of 2
A5

PLAT OF TWIN FALLS), TOGETHER WITH A NON EXCLUSIVE
EASEMENT FOR INGRESS, EGRESS AND UTILITIES AS
ESTABLISHED BY INSTRUMENT RECORDED UNDER
RECORDING NO. 9212160154; SITUATE IN THE COUNTY OF
SNOHOMISH, STATE OF WASHINGTON (the “Subject Property”), is
valid and subsisting, and prior and superior to any and all right, title,
interest, lien, and/or estate of defendants Scott Stafne and/or Mayumi Ohata
Stafne, as Administrator of the Estate of Todd Stafne in the Subject
Property.
Defendant Scott Stafne’s counterclaim to quiet title is DISMISSED with
prejudice. Defendant Todd Stafne’s counterclaims (to the extent they survived his
death) to quiet title and for declaratory judgment are DISMISSED with prejudice.
The Deed of Trust encumbering the Subject Property is judicially FORECLOSED,
and the Subject Property, or so much thereof as may be necessary to satisfy the
outstanding balance due to plaintiff Bank of New York Mellon, is ORDERED to
be sold by the Sheriff of Snohomish County in the manner provided by law,
including the publication of notice as required by RCW 6.21.030 and .040, and
subject to defendant Scott Stafne’s right of redemption for a one-year period
pursuant to RCW 6.23.010 and .020. The Sheriff may retain from the proceeds of
the sale his or her usual fees and costs, provided that the Sheriff promptly provides
an accounting of such amounts, and shall deposit the remaining balance of such
proceeds in the Registry of the Court.
Plaintiff Bank of New York Mellon may bid the amount owed by defendant Scott
Stafne or a lesser amount, and may become the purchaser at any sale of the
Subject Property. Notwithstanding RCW 6.21.110, upon the Sheriff’s return of
the certificate of sale, the Clerk shall take no action unless specifically ordered by
the Court. Plaintiff and/or the successful purchaser shall file an appropriate
motion to confirm the sale within fourteen (14) days after the sale, and shall note
such motion for the fourth Friday after filing. Any response and any reply shall be
due in accordance with Local Civil Rule 7(d)(3). The Court will determine the
amount of any deficiency under RCW 61.12.070 after the foreclosure sale has
occurred and been confirmed.
Dated this 14th day of May, 2019.

William M. McCool
Clerk
s/Karen Dews
Deputy Clerk

Case 2:16-cv-00077-TSZ Document 171 Filed 05/14/19 Page 1 of 3
APPENDIX 3
A6

1
2
3
4

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

5
6

BANK OF NEW YORK MELLON,

7
8
9
10

Plaintiff,
v.

C16-77 TSZ

SCOTT STAFNE; and MAYUMI
OHATA STAFNE, as Administrator of
the Estate of Todd Stafne,

11

MINUTE ORDER

Defendants.

12

The following Minute Order is made by direction of the Court, the Honorable
13 Thomas S. Zilly, United States District Judge:
(1)
The lawsuit captioned Stafne v. Zilly, et al., Case No. C17-1692 MHS
(W.D. Wash.), having been dismissed with prejudice, judgment having been entered in
that case, and the related post-judgment motions having been denied, the stay of this
15
matter is hereby LIFTED and this case is returned to the active docket.
14

16

(2)
Pursuant to a limited remand from the United States Court of Appeals for
the Ninth Circuit, docket no. 124, plaintiff’s motion to amend judgment, docket no. 120,
17 is DENIED in part and GRANTED in part as follows:
18
19
20
21
22

(a)
By Order entered December 7, 2016, docket no. 114, the Court
granted in part and denied in part two motions for summary judgment brought by
plaintiff Bank of New York Mellon (“BONY”), a New York banking corporation,
in its capacity as trustee for Structured Asset Mortgage Investments II Trust,
Mortgage Pass-Through Certificates Series 2005-AR2. See also Order (docket
no. 69) (substituting BONY for its parent corporation, Bank of New York Mellon,
a Delaware corporation). The Court rejected the theories underlying defendants
Scott Stafne’s and Todd Stafne’s counterclaims to quiet title and Todd Stafne’s
counterclaim for declaratory judgment, and dismissed the counterclaims with

23
MINUTE ORDER - 1

Case 2:16-cv-00077-TSZ Document 171 Filed 05/14/19 Page 2 of 3
A7

1

prejudice. The Court also ruled that plaintiff was entitled to a partial judgment
foreclosing the deed of trust dated March 9, 2005, and recorded in Snohomish
County on March 15, 2005, Ex. B to Compl. (docket no. 1-3), with respect to real
property owned by Scott Stafne, having the address of 17207 155th Ave NE, in
Arlington, Washington. The Court, however, denied as premature plaintiff’s
requests for a deficiency judgment, attorney’s fees, and costs. See Order at 6-7
(docket no. 114). Plaintiff’s motions for summary judgment did not mention and,
in the Order entered December 7, 2016, docket no. 114, the Court did not rule on
any interests in the property at issue other than those of plaintiff and defendants
Scott Stafne and Todd Stafne, who has since died. Plaintiff’s current request to
include in an amended partial judgment a foreclosure of interests 1 other than those
of defendants Scott Stafne and Mayumi Ohata Stafne, as Administrator of the
Estate of Todd Stafne, is therefore DENIED.

2
3
4
5
6
7

(b)
Plaintiff’s request to include in an amended partial judgment a
summary setting forth the principal balance of Scott Stafne’s indebtedness, the
interest calculated through December 7, 2016, and the amounts of various fees and
advances is also DENIED. Contrary to plaintiff’s contention, the summary it
seeks is not mandated by RCW 4.64.030(2)(a), which applies only to judgments
that provide “for the payment of money.” The Court’s Order entered December 7,
2016, docket no. 114, did not address the parties’ dispute concerning the amount
owed by Scott Stafne, and it did not award a particular sum to plaintiff. Plaintiff’s
motions for summary judgment recited an estimated amount due from Scott
Stafne, namely $1,049,928, see Pla.’s Mot. at 9 (docket no. 63); Pla.’s Mot. at 4
(docket no. 81); Janati Decl. at ¶ 4 (docket no. 65), but the proposed order plaintiff
submitted, docket no. 63-1, did not contain a sum certain. Instead, plaintiff asked
the Court to enter judgment “for the full amount due under the Note” and to award
a deficiency judgment in an amount be stated by plaintiff in a declaration after the
foreclosure sale of the property. The Court declined to do so, and plaintiff cannot
now obtain the relief that was previously denied by seeking to amend the partial
judgment in a manner that does not reflect the Court’s ruling.

8
9
10
11
12
13
14
15
16

(c)
Plaintiff’s request to include in an amended partial judgment a
direction that the proceeds of any sale of the real property be automatically applied
toward payment of the indebtedness at issue is DENIED. The Court instead

17
18
19
20

1

Real Time Resolutions, Inc. was originally named as a defendant in this action, but was
voluntarily dismissed by plaintiff based on an understanding that the deed of trust held by such
21 entity was reconveyed in 2016. See Notice of Voluntary Dismissal (docket no. 62). No other
entities with an interest in the real property at issue have been joined in this matter, and plaintiff
22 has made no representations concerning whether any such entities have been provided notice of
this litigation.

23
MINUTE ORDER - 2

Case 2:16-cv-00077-TSZ Document 171 Filed 05/14/19 Page 3 of 3
A8

1

ORDERS that, after deducting the usual fees and costs of the Snohomish County
Sheriff, the proceeds of any sale shall be deposited into the Registry of the Court.

2
3
4
5
6
7
8
9
10

(d)
Plaintiff’s request to amend the partial judgment to include certain
language concerning the status of the deed of trust, plaintiff’s right to bid and
become a purchaser at any sale of the property, and Scott Stafne’s right to redeem
the property for a one-year period is GRANTED. The form of the original partial
judgment was consistent with RCW 4.64.030(2)(b), which requires that a
judgment relating to the “right, title, or interest in real property” contain an
abbreviated legal description of the property at issue. The partial judgment
entered December 7, 2016, docket no. 115, contained the full legal description of
the property, as set forth in the deed of trust recorded on March 15, 2005, as
Snohomish County Instrument No. 200503150879, see Ex. B to Compl. (docket
no. 1-3). The original partial judgment, however, did not specify that defendants’
counterclaims were dismissed with prejudice, did not indicate that the deed of trust
is valid and subsisting, and prior and superior to any and all right, title, interest,
lien, and/or estate of Scott Stafne and/or Todd Stafne (or his heirs) in the property,
did not state that plaintiff could bid and become the purchaser at any sale, and did
not specify the redemption period. The Clerk is therefore DIRECTED to enter an
amended partial judgment in the form approved by the Court.

11

(3)
The Clerk is further DIRECTED to send a copy of this Minute Order and
the
Amended
Partial Judgment to all counsel of record and the United States Court of
12
Appeals for the Ninth Circuit (with reference to No. 16-36032).
13

Dated this 14th day of May, 2019.

14

William M. McCool
Clerk

15

s/Karen Dews
Deputy Clerk

16
17
18
19
20
21
22
23
MINUTE ORDER - 3

Case 2:16-cv-00077-TSZ Document 22 Filed 04/28/16 Page 1 of 1
APPENDIX 4
A9

1
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

2
3
4

BANK OF NEW YORK MELLON,
Plaintiff,

5
6
7

C16-77 TSZ
v.
MINUTE ORDER
SCOTT STAFNE, et al.,
Defendants.

8
9

The following Minute Order is made by direction of the Court, the Honorable
Thomas S. Zilly, United States District Judge:

10

(1)
Defendant’s motion to dismiss plaintiff’s claims for a lack of subject matter
jurisdiction, docket no. 11, is DENIED. Plaintiff Bank of New York Mellon, a Delaware
11 Corporation, has alleged facts that establish subject matter jurisdiction. See 28 U.S.C.
§ 1332.
12
(2)
Defendant’s request for the Court to abstain from deciding this case, docket
13 no. 11, is also DENIED. The principle underlying abstention doctrines exercised by
federal courts is based on “avoiding needless friction with state policies, whether the
14 policy relates to the enforcement of the criminal law … or the final authority of a state
court to interpret doubtful regulatory laws of the state.” Quackenbush v. Allstate Ins. Co.,
15 517 U.S. 706, 718 (1996). No such issue is implicated here. “The doctrine of prior
exclusive jurisdiction applies to a federal court’s jurisdiction over property only if a state
16 court has previously exercised jurisdiction over that same property and retains that
jurisdiction in a separate, concurrent proceeding.” Sexton v. NDEX W., LLC, 713 F.3d
17 533, 537 (9th Cir. 2013). No state court exercised jurisdiction over defendant’s property
prior to plaintiff filing its complaint in this Court.
18
(3)
The Clerk is directed to send a copy of this Minute Order to all counsel of
19 record.
20

Dated this 28th day of April, 2016.
William M. McCool
Clerk

21
22

s/Karen Dews
Deputy Clerk

23
MINUTE ORDER - 1

Case 2:16-cv-00077-TSZ Document 69 Filed 08/09/16 Page 1 of 8
APPENDIX 5
A 10

1
2
3
4
5

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

6
7
8
9

BANK OF NEW YORK MELLON, a
Delaware corporation, as trustee for
Structured Asset Mortgage
Investments II Trust, Mortgage PassThrough Certificates Series 2005-AR2,
C16-77-TSZ

10
11
12

Plaintiff,
ORDER
v.
SCOTT STAFNE, et al.,

13

Defendants.

14
THIS MATTER comes before the Court on various motions filed by both plaintiff
15
and defendant Scott Stafne. Stafne has filed a Motion to Prove Authority to Bring
16
Lawsuit, docket no. 28; a Motion to Dismiss Pursuant to FRCP 12(b)(1), docket no. 42;
17
and a Motion for Protective Order, docket no. 51. Plaintiff has filed a Motion to
18
Substitute Real Party in Interest, docket no. 36; and a Motion to Compel Discovery,
19
docket no. 40. The Court will address each motion in turn.
20
21
22
23
ORDER - 1

Case 2:16-cv-00077-TSZ Document 69 Filed 08/09/16 Page 2 of 8
A 11

1 Background
2

This is a simple case about a homeowner defaulting on his mortgage. Through

3 this latest series of motions, the focus has shifted onto which entity has the right to sue,
4 the attorney-client relationship, and standing and subject-matter jurisdiction. Put briefly,
5 Scott Stafne borrowed $800,000 from Countrywide Home Loans, Inc. in 2005 to finance
6 the purchase of a home in Arlington, Washington, executing a Deed of Trust and
7 promissory note. Countrywide subsequently transferred the note to JPMorgan Chase
8 Bank, N.A. (“Chase”), as then-trustee for Structured Asset Mortgage Investments II Trust
9 2005-AR2 (“SAMI”). In September 2006, Chase sold its trustee business for this type of
10 investment to the Bank of New York, thus transferring the trusteeship of SAMI to the
11 Bank of New York. The Bank of New York thereafter acquired via merger the Mellon
12 Financial Corporation and became the Bank of New York Mellon, from where much of
13 the current confusion springs. By 2009 Stafne fell into default on his debt, spurring
14 heavy correspondence between Countrywide, as servicer, and Stafne. By this point the
15 Bank of New York Mellon contracted with Nationstar as its attorney-in-fact to conduct
16 certain foreclosure business. Nationstar thereafter engaged plaintiff’s counsel to proceed
17 with a judicial foreclosure. The Court previously denied Stafne’s Motion to Dismiss For
18 Lack of Subject Matter Jurisdiction. See docket no. 22.
19 Discussion
20 A.

Motion to Substitute Real Party in Interest

21

The Court first addresses plaintiff’s motion to substitute the Bank of New York

22 Mellon, a New York corporation (“BONY”), in place of its corporate parent Bank of
23
ORDER - 2

Case 2:16-cv-00077-TSZ Document 69 Filed 08/09/16 Page 3 of 8
A 12

1 New York Mellon, a Delaware corporation (“BNYM”). See docket no. 36. This motion
2 arises out of a mistake by BNYM’s attorney-in-fact, Nationstar, as to which entity within
3 the Bank of New York Mellon corporate family was in fact the trustee for SAMI, and
4 thus the proper entity to sue. The genesis of the difficulty appears to be that Stafne’s
5 promissory note was eventually indorsed, somewhat ambiguously, to “The Bank of New
6 York Mellon F/K/A The Bank of New York, Successor Trustee, To JPMorgan Chase
7 Bank, As Trustee.” Janati Decl., docket no. 39, Ex. B. Nationstar subsequently
8 examined its internal records and saw that “The Bank of New York, Mellon Corporation”
9 was noted as the trustee of SAMI, concluding that this listing referred to BNYM.
10 Johnson Decl., docket no. 37, ¶ 4; Ex. A. Accordingly, the complaint was drawn up with
11 BNYM listed as plaintiff. After motion practice that attacked BNYM’s propriety as
12 plaintiff on different grounds, see docket no. 11, it came to light that BONY, not its
13 corporate parent BNYM, was the proper trustee of SAMI. Plaintiff brings this motion to
14 substitute BONY in its place.
Rule 17(a)(3) allows for the substitution of the real party in interest “as if [the

15

16 action] had been originally commenced by the real party in interest.” The rule “provides
17 a liberal standard for the substitution of the real party in interest,” Beaudu v. Starwood
18 Hotels & Resorts Worldwide, Inc., 2005 WL 1877344, *1 (W.D. Wash. Aug. 8, 2005), so
19 as to “prevent forfeiture of an action” when a “reasonable mistake has been made.”
20 United States for Use & Benefit of Wulff v. CMA, Inc., 890 F.2d 1070, 1074 (9th Cir.
21 1989).
22
23
ORDER - 3

Case 2:16-cv-00077-TSZ Document 69 Filed 08/09/16 Page 4 of 8
A 13

1

Despite the leniency of the rule and its salutary purpose, Stafne contends the suit

2 must be dismissed. Stafne’s argument flows as follows: BNYM is not the trustee for
3 SAMI which means it has no standing to sue, depriving this Court of subject-matter
4 jurisdiction, resulting in there being no case for BONY to substitute into. Put another
5 way, defendant argues that the fact BNYM is not the trustee creates a jurisdictional defect
6 that Rule 17 cannot repair. However, Stafne’s argument misapprehends the relationship
7 between standing and the merits. Courts regularly grant motions to substitute in the
8 correct corporate entity in analogous situations. See, e.g., Liberty Mut. Ins. Group v.
9 Panelized Structures, Inc., 2013 WL 760343, *3 (D. Nev. Feb. 26, 2013) (distinguishing
10 parent-subsidiary relationship from unrelated entities); Siemens USA Holdings, Inc. v.
11 United States, 960 F. Supp. 2d 221, 225 (D.D.C. 2013) (permitting corporate parent to
12 file motion to substitute in subsidiary). Defendant’s argument that BNYM lacks standing
13 to make such a motion “completely ignores the rule’s substitution provisions, which
14 specifically contemplate transfer from a non-party to the real party in interest without any
15 interruption of the proceedings.” Liberty Mut. Ins. Group., 2013 WL 760343 at *4.
16 Further, whether an entity has enforceable contractual rights relates to the merits, not
17 standing. Lindsey v. Starwood Hotels & Resorts Worldwide Inc., 409 Fed. App’x 77, 78
18 (9th Cir. 2010). The Court concludes that the wrong corporate entity was listed as
19 plaintiff due to a reasonable mistake that has not prejudiced any defendant. See United
20
21
22
23
ORDER - 4

Case 2:16-cv-00077-TSZ Document 69 Filed 08/09/16 Page 5 of 8
A 14

1 States for Use & Benefit of Wulff, 890 F.2d at 1074. Accepting Stafne’s argument would
2 result in a forfeiture, the very outcome that the drafters of Rule 17 strove to avoid.1
Accordingly, plaintiff’s motion, docket no. 36, is GRANTED.2 BONY is hereby

3

4 substituted in place of BNYM. The Clerk is DIRECTED to modify the caption to reflect
5 that the Bank of New York Mellon, a New York banking corporation, is substituted in
6 this action for Bank of New York Mellon, a Delaware corporation.
7 B.

Motion to Prove Authority to Bring Lawsuit

8

Stafne next moves to require plaintiff’s counsel, Davis Wright Tremaine

9 (“DWT”), to “provide proof of their authority to act as attorneys, pursuant to an attorney10 client relationship, with regard to” a slew of BNYM corporate entities. See docket no.
11
1

12
13
14
15
16
17
18

The two cases defendant relies upon are easily distinguishable. The first, Zurich
Insurance Co. v. Logitrans, Inc., 297 F.3d 528 (6th Cir. 2002), involved “sister
companies under the common ownership of a single corporate entity,” as opposed to a
parent-subsidiary relationship Id. at 533 (Gilman, J., concurring) (“In my opinion, any or
all of [real party in interest’s] direct or indirect owners … would have had constitutional
standing to bring suit against [defendant], even though none of these parent entities is the
real party in interest.”); see also 13A C. Wright & A. Miller, Federal Practice &
Procedure, § 3531 n.61 (3d ed. 2014) (describing the Zurich decision as “particularly
troubling”). The other, Cortlandt Street Recovery Corp. v. Hellas Telecommunications,
S.a.r.l, 790 F.3d 411 (2d Cir. 2015) merely observed the issue created by Zurich, with the
opinion’s author adding, in a separate concurrence, that Zurich “is not the law of this
[Second] Circuit, and … [I] express some doubt that it should be.” Id. at 425 (Sack, J.,
concurring).
2

The Court thus necessarily rejects defendant’s argument that BNYM is judicially
19 estopped from seeking to substitute BONY in its place. The Ninth Circuit has held that if
“incompatible positions are based not on chicanery, but only on inadvertence or mistake,
20 judicial estoppels does not apply.” Milton H. Greene Archives, Inc. v. Marilyn Monroe
LLC, 692 F.3d 983, 994 (9th Cir. 2012) (quoting Johnson v. Oregon, 141 F.3d 1361,
21 1369 (9th Cir. 1998)). There is no evidence BNYM sought to perpetrate a fraud on the
Court by its earlier representations that it was the trustee of SAMI, and the Court is
22 unsure how such a change in position inures to BNYM or BONY’s benefit.
23
ORDER - 5

Case 2:16-cv-00077-TSZ Document 69 Filed 08/09/16 Page 6 of 8
A 15

1 28. However, Stafne lacks a good-faith basis to argue that DWT lacks such a
2 relationship. Apparently Stafne has made this same argument in the past against DWT.
3 See Robertson v. GMAC Mortgage LLC, C12-2017-MJP, docket no. 82 (W.D. Wash.
4 Feb. 19, 2013) (Pechman, J.). Judge Pechman wrote that such a motion “is wholly
5 without merit, unnecessary and is frivolous.” Id. at *3. This Court agrees, and the
6 motion is DENIED.
7 C.

Motion to Compel

8

Plaintiff additionally moves to compel defendant Stafne to produce discovery in

9 response to its First Requests for Production of Documents and Requests for Admission
10 served on May 23, 2016. See docket no. 40; Burnside Decl., docket no. 41, ¶ 6. In his
11 response, Stafne states that his position is that he “does not have to go to the time and
12 expense of further discovery until this Court rules on DWT’s Motion to Substitute.”
13 Stafne’s Resp., docket no. 46, at 2. He then continues by addressing the merits of
14 BNYM’s motion to substitute, discussed supra. Even that discussion veers into an
15 argument founded on the statute of limitations.3 Nowhere, however, does Stafne provide
16 a basis for ignoring validly propounded discovery requests.
In his response to the Requests for Production (“RFPS”) Stafne by and large

17

18 responded that the “documents are available for inspection during reasonable office hours
19
20
3

The Court declines Stafne’s invitation to re-examine its previous findings as to diversity
21 jurisdiction. The only impact of granting BNYM’s motion to substitute is to replace one
diverse party, BNYM (a Delaware corporation), with another, BONY (a New York
22 corporation). This swap has no impact on the diversity calculus.
23
ORDER - 6

Case 2:16-cv-00077-TSZ Document 69 Filed 08/09/16 Page 7 of 8
A 16

1 upon reasonable notice.” See Burnside Decl., docket no. 41, Ex. F (Stafne’s Responses at
2 10). Plaintiff’s counsel agreed to send someone to Stafne’s office to copy documents on
3 Friday, June 24, 2016, but on the day before Stafne stated he would not be available and
4 would only permit DWT to make copies on his copier at a rate Stafne would determine.
5 Id. Ex. G. However, soon after plaintiff filed its motion to substitute Stafne wrote an
6 email informing plaintiff that he had decided to not turn over discovery because he would
7 shortly be filing a motion to dismiss for “constitutional imperfections.” Id. Ex. I.
8

A party objecting to discovery must either seek a protective order or provide

9 written objections. See In re Sulfuric Acid Antitrust Litig., 231 F.R.D. 331, 337 (N.D.
10 Cal. 2005). Stafne has done neither with respect to the RFPs. Plaintiff’s Motion to
11 Compel, docket no. 40, is GRANTED. The Court ORDERS defendant Scott Stafne to
12 produce all-non privileged, responsive documents to plaintiff’s counsel’s office by
13 5:00 pm on Wednesday, August 31, 2016. Stafne will bear the cost of making such
14 production.
15 D.

Motion to Dismiss

16

Defendant Stafne additionally brings a motion to dismiss for lack of subject matter

17 jurisdiction, once again arguing that DWT lacks an attorney-client relationship with a
18 plaintiff who has standing to sue. In addition, Stafne contends that the Power of Attorney
19 through which plaintiff engaged Nationstar (and thus through which Nationstar engaged
20 DWT) does not allow for DWT to invoke the Court’s jurisdiction. See docket no. 42. On
21 the whole, Stafne’s motion merely reiterates the same arguments that are the subject of
22 the pending motions, and thus it is DENIED for the reasons discussed above.
23
ORDER - 7

Case 2:16-cv-00077-TSZ Document 69 Filed 08/09/16 Page 8 of 8
A 17

1 E.

Motion for Protective Order

2

The last motion before the Court is by Stafne and entitled a “Motion for Protective

3 Order” to prevent the continuation of his deposition because, chiefly, “presently there is
4 no plaintiff with standing and/or any real party in interest bringing this case against
5 Stafne.” See docket no. 51. Thus, Stafne’s motion is in essence a recycling of his
6 previous argument that the Court lacks subject-matter jurisdiction because of the issues
7 discussed supra with regards to the real party in interest. As the Court has already
8 addressed those arguments, Stafne’s motion, docket no. 51, is DENIED.
9
10

IT IS SO ORDERED.
Dated this 9th day of August, 2016.

11

A

12
13

Thomas S. Zilly
United States District Judge

14
15
16
17
18
19
20
21
22
23
ORDER - 8

Case 2:16-cv-00077-TSZ Document 114 Filed 12/07/16 Page 1 of 9
APPENDIX 6
APPENDIX 6
A 18

1
2
3
4
5

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

6
7

BANK OF NEW YORK MELLON,

8
9
10

Plaintiff,

SCOTT STAFNE, et al.,

11
12
13
14
15
16
17
18
19
20
21
22

C16-77 TSZ

v.

ORDER

Defendants.
THIS MATTER comes before the Court on plaintiff’s motions for summary
judgment against Scott Stafne, docket no. 63, for summary judgment against Todd
Stafne, docket no. 81, for attorneys’ fees in connection with its successful motion to
compel, docket no. 73, and for relief from deadline, docket no. 110. The Court will
address each motion in turn.
Background
The facts of this case are simple and essentially undisputed. On March 9, 2005,
Defendant Scott Stafne borrowed $800,000 from Countrywide Home Loan, Inc.
(“Countrywide”) to refinance his purchase of residential property in Arlington,
Washington. Decl. of Fay Janati, Ex. B, docket no. 39-2. In connection with this loan,
Scott Stafne executed a promissory note (“Note”) and deed of trust. See id. at ¶ 1 (Note);

23
ORDER - 1

Case 2:16-cv-00077-TSZ Document 114 Filed 12/07/16 Page 2 of 9
A 19

1 see also Janati Decl, Ex. C, docket no. 39-3 (Deed of Trust). Under the terms of the
2 Note, Scott Stafne agreed to repay the principal and annual interest over a thirty year
3 period ending on April 1, 2035. Janati Decl., Ex. B at ¶ 2 & 3.
4

After the loan closed, Countrywide transferred the Note to JP Morgan Chase

5 Bank, N.A. (“JPMorgan”) who deposited Scott Stafne’s loan in an investment portfolio
6 known as the Structured Asset Mortgage Investments II Trust, Mortgage Pass-Through
7 Certificates Series 2005-AR2 (“SAMI Trust”). Plaintiff Bank of New York Mellon
8 (“BONY”) became the holder of the Note, as trustee for the SAMI Trust, when it
9 acquired the trustee operations of JPMorgan in 2006.1 See Decl. of Fred Burnside, Ex. F,
10 docket no. 64-6 at 34-35 (Purchase and Assumption Agreement § 2.1); Janati Decl., Ex.
11 F, docket no. 39-6 (Agreement of Resignation and Assumption). On August 31, 2007,
12 Scott Stafne recorded an executed quitclaim deed granting Todd Stafne a portion of the
13 property encumbered by the deed of trust.2 See Declaration of Jocelynne Fallgatter, Ex.
14 L, docket no. 98-12.
15

Scott Stafne was current on his loan payments through December of 2008, but

16 stopped payments in January of 2009, and has made no payments since that time. Second
17 Decl. of Fay Janati, docket no. 65 at ¶ 4. On February 17, 2009, Countrywide, as loan
18 servicer, issued a “Notice of Intent to Accelerate,” but later opted not to accelerate Scott
19
1

The Note was initially acquired by BONY’s predecessor, the Bank of New York. In 2008, the Bank of
New York was involved in a merger with Mellon Financial, and as a result the Bank of New York
changed its name to Bank of New York Mellon. Janati Decl., Ex. E, docket no. 39-5 (corporate name21 change documents).

20

2

Apparently, Scott Stafne and Todd Stafne executed a “virtually identical” quitclaim deed in April of

22 2010, see Pl.’s Mot. for Summ. J. Against Todd Stafne, docket no. 81 at 5, but this second quitclaim deed
23

has not been provided to the Court.

ORDER - 2

Case 2:16-cv-00077-TSZ Document 114 Filed 12/07/16 Page 3 of 9
A 20

1 Stafne’s debt and instead adjusted his minimum monthly payment. Second Janati Decl.,
2 Ex. F, docket no. 65-6 (Adjustable Rate Mortgage Payment Adjustment Notice). Scott
3 Stafne was sent five additional notices of default during the period between October 2012
4 and September 2015. Second Janati Decl., Ex. B, docket no. 65-2. Having received no
5 further payments, BONY elected to accelerate the entire debt and bring this suit for
6 judicial foreclosure on January 19, 2016. Complaint, docket no. 1 at ¶ 3.15. In response,
7 both Scott Stafne and Todd Stafne filed answers alleging counterclaims to quiet title. See
8 docket nos. 24 (Scott Stafne) and 25 (Todd Stafne).
9 Discussion
10 I.

BONY’s Motions for Summary Judgment

11

The Court shall grant summary judgment if no genuine issue of material fact exists

12 and the moving party is entitled to judgment as a matter of law. See Fed. R. Civ. P.
13 56(a). The moving party bears the initial burden of demonstrating the absence of a
14 genuine issue of material fact. Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986). A
15 fact is material if it might affect the outcome of the suit under the governing law.
16 Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986). To survive a motion for
17 summary judgment, the adverse party must present affirmative evidence, which “is to be
18 believed” and from which all “justifiable inferences” are to be favorably drawn. Id. at
19 255, 257. When the record, however, taken as a whole, could not lead a rational trier of
20 fact to find for the non-moving party, summary judgment is warranted. See Beard v.
21 Banks, 548 U.S. 521, 529 (2006) (“Rule 56(c) ‘mandates the entry of summary judgment,
22 after adequate time for discovery and upon motion, against a party who fails to make a
23
ORDER - 3

Case 2:16-cv-00077-TSZ Document 114 Filed 12/07/16 Page 4 of 9
A 21

1 showing sufficient to establish the existence of an element essential to that party’s case,
2 and on which that party will bear the burden of proof at trial.’” (quoting Celotex, 477
3 U.S. at 322)).
4

A.

5

BONY argues that it is entitled to summary judgment against Scott Stafne because

BONY’s Motion for Summary Judgment against Scott Stafne

6 the undisputed facts show that it is the holder of a promissory note secured by a valid
7 deed of trust and that Scott Stafne breached the terms of the note by failing to make the
8 required monthly payments.3 Judicial foreclosure is appropriate where the lender can
9 show a breach of the terms of the promissory note and deed of trust, notice, and failure to
10 cure. ING Bank v. Korn, 2011 WL 5326146, at *3 (W.D. Wash. Nov. 4, 2011) (citing
11 RCW 61.12.040). Here, it is undisputed that Scott Stafne breached the terms of the Note
12 by failing to make the required monthly payments, that BONY provided notice of default
13 and its intent to accelerate, and that Scott Stafne failed to cure prior to acceleration of the
14 debt. The Note defines default as the failure to “pay the full amount of each monthly
15 payment on the date it is due,” Janati Decl., Ex B, docket no. 39-2 at ¶ 7, and Scott Stafne
16 has not made any payments since December of 2008, Second Janati Decl., docket no. 39
17 at ¶ 4. Among other notices, Scott Stafne was issued a Notice of Default and Intent to
18 Accelerate in September of 2015, Second Janati Decl., Ex. B, docket no. 65-2 at 19-21,
19
3

Rather than oppose the motion, Scott Stafne invites the entry of “final judgment based on [his] failure to

20 respond to [plaintiff’s] motion for summary judgment,” docket no. 71 at ¶ 4. Scott Stafne erroneously

believes that responding to the merits of plaintiff’s motion will waive any challenges to the Court’s
21 subject-matter jurisdiction. Id. at ¶ 5. However, whether the Court has subject-matter jurisdiction over
this case is not an issue Scott Stafne can waive. See In re Kieslich, 258 F.3d 968, 970 (9th Cir. 2001).
Scott Stafne also argues in a surreply, docket no. 78, that his Notice of Appeal, docket no. 72, divests the
22 Court of the authority to rule on the pending motions. Setting aside Scott Stafne’s misunderstanding of
the relevant doctrine, the Ninth Circuit has dismissed his interlocutory appeal, docket no. 100.

23

ORDER - 4

Case 2:16-cv-00077-TSZ Document 114 Filed 12/07/16 Page 5 of 9
A 22

1 and BONY accelerated Scott Stafne’s debt by filing this suit in January of 2016 seeking
2 payment of the entire debt. See Complaint, docket no. 1 at ¶ 3.15. Scott Stafne has not
3 contested that he is in default on the Note or the amount owed thereunder.
4

Scott Stafne has, however, alleged counterclaims against plaintiff to quiet title to

5 the property based on the theory that the debt is time barred. See Answer, docket no. 24
6 at 7-11. Contrary to the allegations in his complaint, the statute of limitations does not
7 bar foreclosure. For a deed of trust, the six-year statute of limitations only begins to run
8 when the party is entitled to enforce the entire obligation imposed by the note, which, for
9 an installment note, occurs either when the note naturally matures or when the note is
10 accelerated. See Edmundson v. Bank of America, 194 Wn. App. 920, 930 (2016); see
11 also Washington Federal v. Azure Chelan LLC, 195 Wn. App. 644, 663 (2016) (“For a
12 deed of trust, the six-year statute of limitations begins to run when the party is entitled to
13 enforce the obligations of the note. This can occur either . . . when the note naturally
14 matures, or when the party accelerates the note . . . .”).
15

Scott Stafne’s counterclaim to quiet title alleges that the statute of limitations

16 began to accrue on February 17, 2009, when Countrywide sent its Notice of Intent to
17 Accelerate.4 To trigger acceleration, however, a creditor must clearly and unequivocally
18 indicate, by some affirmative action, that the option to accelerate has been exercised. See
19 Glassmaker v. Ricard, 23 Wn. App. 35, 37 (1979) (quoting Weinberg v. Naher, 51 Wash.
20
4

Scott Stafne also alleges that the 2007 “Suspended Payment Agreement” accelerated his loan, but the
document does nothing of the sort. Instead, the document provides “[i]f we previously notified you that
your loan is (or will be) accelerated and/or due in full, it remains accelerated and/or due in full . . . .”
22 Second Janati Decl., Ex. D, docket no. 65-4 at 4. Scott Stafne has provided no evidence, and indeed there
likely is none, that the debt was accelerated prior to the Suspended Payment Agreement.

21

23

ORDER - 5

Case 2:16-cv-00077-TSZ Document 114 Filed 12/07/16 Page 6 of 9
A 23

1 591, 594 (1909)). A statement of potential future action does not constitute the
2 affirmative action required to accelerate a debt. See Weinberg, 51 Wash. at 594 (holding
3 that letters which stated that “the loan will be called in” unless the debtor procured an
4 insurance policy payable to the creditor were insufficient to trigger acceleration because
5 the letters simply threatened to exercise the option to accelerate). Like the creditor in
6 Weinberg, Countrywide’s statement that it would accelerate the loan if the default was
7 not cured is a statement of potential future action and thus, was insufficient to trigger
8 acceleration of Stafne’s debt. In fact, Countrywide ultimately decided not to accelerate
9 Scott Stafne’s loan in 2009, and instead opted to adjust Scott Stafne’s minimum payment.
10 See Second Janati Decl., Ex. F, docket no. 65-6. It was not until BONY filed suit in
11 January of 2016 that BONY unequivocally accelerated Scott Stafne’s debt. Accordingly,
12 BONY’s action for judicial foreclosure is timely and its motion for summary judgment is
13 GRANTED in part. Scott Stafne’s counterclaim to quiet title is DISMISSED with
14 prejudice.
15

In addition to judicial foreclosure, BONY’s motion also seeks (1) a deficiency

16 judgment to recover any deficit between the proceeds of the sheriff’s sale and the amount
17 due under the Note; and (2) to recover expenses incurred in protecting its interests under
18 the Note and deed of trust, including reasonable attorney’s fees and costs. Although
19 BONY may be entitled to both, its requests are premature. The Court cannot determine
20 whether BONY is entitled to a deficiency judgment or the amount of that judgment
21 without knowing the sale price of the property and the total remaining debt after the sale
22 proceeds are applied. See RCW 61.12.070. Similarly, although both the note and the
23
ORDER - 6

Case 2:16-cv-00077-TSZ Document 114 Filed 12/07/16 Page 7 of 9
A 24

1 deed of trust provide that BONY is entitled to recover expenses, including attorneys’ fees
2 and costs, incurred in protecting its interests, see Janati Decl., Ex. B, docket no. 39-2 at
3 ¶ 7(E) (Note); Janati Decl., Ex. C, docket no. 39-3 at ¶ 9 (deed of trust), the total amount
4 of such expenses is uncertain at this time because BONY will likely incur additional
5 expenses in connection with executing the foreclosure sale. Accordingly, BONY’s
6 requests for a deficiency judgment and an award of attorneys’ fees and costs under the
7 Note and deed of trust are DENIED without prejudice. BONY may renew these requests
8 within fourteen (14) days of the date of the foreclosure sale.
9
10

B.

BONY’s Motion for Summary Judgment Against Todd Stafne

BONY also moves for summary judgment against Todd Stafne seeking dismissal

11 of his counterclaim to quiet title because, among other things, Todd Stafne took title to
12 the property granted to him by the 2007 quitclaim deed subject to the deed of trust.
13 Washington has adopted a “race-notice statute” that gives priority to those interests which
14 are recorded first. BAC Home Loans Servicing, LP v. Fulbright, 180 Wn.2d 754, 759
15 (2014). Interests acquired by quitclaim deed are subject to any encumbrances then
16 existing on the property and all rights which had been previously granted respecting it.
17 See Corning v. Aldo, 185 Wash. 570, 577 (1936). Here, the quitclaim deed granting
18 Todd Stafne a portion of the property encumbered by the deed of trust was recorded in
19 2007, well after the deed of trust was recorded in 2005. Because BONY’s deed of trust
20 was recorded prior to the quitclaim deed, Todd Stafne took title subject to BONY’s
21 existing lien on the property.
22
23
ORDER - 7

Case 2:16-cv-00077-TSZ Document 114 Filed 12/07/16 Page 8 of 9
A 25

1

Todd Stafne offers two meritless arguments in opposition to BONY’s motion for

2 summary judgment against him. First, Todd Stafne argues that Scott Stafne’s transfer of
3 a portion of the property by quitclaim deed in 2007 breached the terms of the deed of
4 trust and thus, BONY’s foreclosure action as to property owned by Todd Stafne is barred
5 by the statute of limitations. However, the relevant terms of the deed of trust provide that
6 breach of the covenant restricting transfer of the property simply results in an option to
7 accelerate the debt. See Janati Decl., Ex. C, docket no. 39-3 at ¶ 18. Moreover, the six8 year statute of limitations on a deed of trust does not begin to run until the installment
9 note naturally matures or the note is accelerated. See Washington Federal, 195 Wn. App.
10 at 663. As discussed above, BONY did not unequivocally exercise its option to
11 accelerate the debt until this action was filed in January of 2016. Thus, the statute of
12 limitations on the deed of trust did not begin to accrue until January of 2016. BONY’s
13 judicial foreclosure action is therefore timely.
14

Todd Stafne’s final argument is that he adversely possessed the property

15 quitclaimed to him by Scott Stafne. But in Washington, “adverse possession does not
16 extinguish a mortgage that pre-dates the adverse possession.” See 17 WILLIAM B.
17 STOEBUCK & JOHN W. WEAVER, WASH. PRAC. REAL ESTATE AND PROPERTY LAW § 8.6
18 (2d ed. 2004) (citing Thornely v. Andrews, 40 Wash. 580 (1905)). Here, the promissory
19 note and deed of trust were executed and recorded prior to Todd Stafne’s occupation of
20 the encumbered property and thus, his possession of that property cannot extinguish
21 BONY’s entitlement to foreclose under the deed of trust. Accordingly, BONY’s motion
22 for summary judgment against Todd Stafne is GRANTED and Todd Stafne’s
23
ORDER - 8

Case 2:16-cv-00077-TSZ Document 114 Filed 12/07/16 Page 9 of 9
A 26

1 counterclaims are DISMISSED with prejudice. Finding no just reason for delay, see Fed.
2 R. Civ. P. 54(b), the clerk is DIRECTED to enter partial judgment foreclosing the
3 property encumbered by the deed of trust.
4

In light of the Court’s rulings on BONY’s motions for summary judgment, the

5 trial date and all remaining deadlines are hereby STRICKEN. BONY’s motion for relief
6 from deadline, docket no. 110, is therefore DENIED as moot.
7 II.

BONY’s Motion for Attorneys’ Fees

8

BONY moves for attorneys’ fees and costs incurred in connection with its

9 successful motion to compel. See Plaintiff’s Motion for Attorneys’ Fees, docket no. 73.
10 As discussed above, BONY also claims it is entitled to expenses incurred in enforcing the
11 debt (which would likely include any fees incurred in connection with discovery motions)
12 under the terms of the promissory note and deed of trust. See Plaintiff’s Motion for
13 Summary Judgment, docket no. 63 at 29-30. For the sake of efficiency and consistency,
14 the Court declines to award fees piecemeal. Accordingly, Bank of New York Mellon’s
15 motion for attorney’s fees, docket no. 73, is DENIED without prejudice.
16

IT IS SO ORDERED.

17

Dated this 7th day of December, 2016.

18

A

19
20

Thomas S. Zilly
United States District Judge

21
22
23
ORDER - 9

Case 2:16-cv-00077-TSZ Document 115 Filed 12/07/16 Page 1 of 2
APPENDIX 7
A 27

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

BANK OF NEW YORK MELLON,
Plaintiff,

PARTIAL JUDGMENT IN A CIVIL
CASE
CASE NO. C16-77 TSZ

v.
SCOTT STAFNE, et al.,
Defendants.
Jury Verdict. This action came before the court for a trial by jury. The issues
have been tried and the jury has rendered its verdict.
X

Decision by Court. This action came on for consideration before the court. The
issues have been considered and a decision has been rendered.
THE COURT HAS ORDERED THAT
Plaintiff Bank of New York Mellon’s motions for summary judgment, docket
nos. 63 and 81, are GRANTED. Having found no just reason for delay, see Fed.
R. Civ. P. 54(b), partial judgment is hereby ENTERED in favor of plaintiff Bank
of New York Mellon as follows: any and all rights, title, and interest of defendants
Scott Stafne and Todd Stafne in the parcel of real property commonly known as
17207 155th Avenue Northeast, Arlington, Washington 98223-6726, and legally
described as LOT 11, SURVEY FOR TWIN FALLS, INC., AS RECORDED
UNDER RECORDING NO. 200110105002, RE-RECORDED TO CORRECT
SURVEY RECORDED UNDER RECORDING NO. 200111275007, RECORDS
OF SNOHOMISH COUNTY, BEING A PORTION OF THE SOUTHEAST
QUARTER OF SECTION 22 AND A PORTION OF THE NORTHEAST
QUARTER OF SECTION 27 ALL IN TOWNSHIP 31 NORTH, RANGE 6
EAST, W.M.; (ALSO KNOWNS AS LOT 11, THE PLAT OF TWIN FALLS),
TOGETHER WITH A NON EXCLUSIVE EASMENT FOR INGRESS, EGRESS
AND UTILITIES AS ESTABLISHED BY INSTRUMENT RECORDED
UNDER RECORDING NO. 9212160154; SITUATE IN THE COUNTY OF
SNOHOMISH, STATE OF WASHINGTON (the “Subject Property”), are
judicially foreclosed.

Case 2:16-cv-00077-TSZ Document 115 Filed 12/07/16 Page 2 of 2
A 28

The deed of trust encumbering the Subject Property, bearing Snohomish County
recording number 200503150879, is FORECLOSED, and the Subject Property is
ORDERED to be sold by the Sheriff of Snohomish County in the manner provided
by law. The Court will determine the amount of any deficiency under
RCW 61.12.070 after the foreclosure sale has occurred.
Dated this 7th day of December, 2016.

William M. McCool
Clerk
s/Karen Dews
Deputy Clerk

Case 2:16-cv-00077-TSZ Document 123 Filed 02/03/17 Page 1 of 2
APPENDIX 8
A 29

1
2
3
4
5

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

6
7

BANK OF NEW YORK MELLON,

8

Plaintiff,

9
10
11

SCOTT STAFNE AND TODD
STAFNE,

14
15
16
17
18
19
20

MINUTE ORDER

Defendants.

12
13

C16-77 TSZ

v.

The following Minute Order is made by direction of the Court, the Honorable
Thomas S. Zilly, United States District Judge:
(1)
Because Scott Stafne has filed a notice of appeal, docket no. 117,
appealing, inter alia, the Partial Judgment entered on December 7, 2016, docket no. 115,
the Court cannot amend the Partial Judgment without leave from the Ninth Circuit. See
Matter of Visioneering Const., 661 F.2d 119, 124 n. 6 (9th Cir. 1981) (“Once a notice of
appeal is filed jurisdiction is vested in the Court of Appeals, and the trial court thereafter
has no power to modify its judgment in the case . . . except by leave of the Court of
Appeals.” (citing Smith v. Lujan, 588 F.2d 1304, 1307 (9th Cir. 1979)); see also Fed. R.
Civ. P. 60(a) (“[A]fter an appeal has been docketed in the appellate court and while it is
pending, [a mistake in the judgment] may be corrected only with the appellate court’s
leave.”). Plaintiff having timely filed its motion to amend the judgment, docket no. 120,
the Court states pursuant to Federal Rule of Civil Procedure 62.1 that the Court would
grant plaintiff’s motion to amend the judgment to include the judgment summary
information identified by RCW 4.64.030 if the Ninth Circuit remands for that purpose.1

21
1

The Court notes that plaintiff’s motion to amend the judgment requests that the

22 judgment include the amount of interest owed by Scott Stafne through December 31, 2016. See
23
MINUTE ORDER - 1

Case 2:16-cv-00077-TSZ Document 123 Filed 02/03/17 Page 2 of 2
A 30

1 In issuing its judgment, the Court intended to enable plaintiff to foreclose on the property
encumbered by the deed of trust. In light of plaintiff’s representation that the Court’s
2 failure to include certain information required by RCW 4.64.030 prevents plaintiff from
registering and executing the judgment, thus precluding a foreclosure sale, amendment is
3 appropriate.2
(2)
Plaintiff is directed to promptly notify the Ninth Circuit Clerk under
Federal Rule of Appellate Procedure 12.1, that the district court would grant the motion
5 to amend.
4

6
7

(3)
The Clerk is directed to send a copy of this Minute Order to all counsel of
record and to the Ninth Circuit Court of Appeals.
Dated this 3rd day of February, 2017.

8
William M. McCool
Clerk

9
10

s/Karen Dews
Deputy Clerk

11
12
13
14
15
16
17
18
19
20

Decl. of Betty Johnson, docket no. 121 at ¶ 5. RCW 4.64.030(2)(a) provides, however, that the
21 judgment summary shall include “the interest owed to the date of the judgment.” Thus, the
Court would only amend the judgment to include accrued interest up to December 7, 2016, the
date judgment was entered.
2
22
The Court also notes that neither defendant has filed an opposition to plaintiff’s motion.

23
MINUTE ORDER - 2

Case: 16-36032, 04/20/2017, ID: 10404314, DktEntry: 18, Page 1 of 2
APPENDIX 9
A 31

FILED

UNITED STATES COURT OF APPEALS

APR 20 2017

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK

BANK OF NEW YORK MELLON, a New
York banking corporation,
Plaintiff-Appellee,
v.
SCOTT ERIK STAFNE, an individual and
TODD STAFNE, an individual,

No.

16-36032

U.S. COURT OF APPEALS

D.C. No. 2:16-cv-00077-TSZ
Western District of Washington,
Seattle
ORDER

Defendants-Appellants.
Before: SILVERMAN and HURWITZ, Circuit Judges.
Appellants’ motions to stay district court’s orders (Docket Entry
Nos. 5 and 7) pending appeal are denied. See Hilton v. Braunskill, 481 U.S. 770,
776 (1987).
Appellee’s motion for a limited remand (Docket Entry No. 9) is granted.
See Fed. R. App. P. 12.1(b). This appeal is remanded to the district court for the
limited purpose of enabling the district court to consider appellee’s motion to
amend the December 17, 2016 judgment.
Within 60 days after the date of this order or within 7 days after the district
court’s ruling on the motion to amend the judgment, whichever occurs first,
appellee shall file a report on the status of district court proceedings.
The briefing schedule established on March 22, 2017 is vacated.
LAB/MOATT

Case: 16-36032, 04/20/2017, ID: 10404314, DktEntry: 18, Page 2 of 2
A 32

Proceedings in this court shall be held in abeyance pending further court
order.

LAB/MOATT

2

Case 2:16-cv-00077-TSZ Document 136 Filed 06/01/17 Page 1 of 1
APPENDIX 10
A 33

1
2
3
4
5

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

6
7

BANK OF NEW YORK MELLON,

8
9
10
11

Plaintiff,
C16-77 TSZ

v.
SCOTT STAFNE AND TODD
STAFNE,

ORDER

Defendants.
12
13

THIS MATTER comes before the Court on defendant Scott Stafne’s motion for

14 recusal, docket no. 134. The Court declines to voluntarily recuse. Pursuant to Local
15 Civil Rule 3(f), the Clerk is DIRECTED to refer defendant Scott Stafne’s motion for
16 recusal, docket no. 134, to Chief Judge Ricardo S. Martinez or his designee.
17
18

IT IS SO ORDERED.
Dated this 1st day of June, 2017.

19

A

20

Thomas S. Zilly
United States District Judge

21
22
23
ORDER - 1

Case 2:16-cv-00077-TSZ Document 137 Filed 06/02/17 Page 1 of 4
APPENDIX 11
A 34
1
2
3
4
5

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

6
7

BANK OF NEW YORK, MELLON,

8

Plaintiff,

9

v.

10

CASE NO. C16-0077TSZ
ORDER ON REVIEW OF REQUEST
TO RECUSE

SCOTT STAFNE, et al.,

11

Defendants.

12
This action, requesting money judgment and foreclosure in connection to a promissory

13
14
15
16
17
18

note executed for the purchase of real property, was filed in January 2016. Dkt. #1. Defendant
Scott Stafne1 filed a Motion for Recusal on May 26, 2017. Dkt. #134. The Presiding Judge, the
Honorable Thomas S. Zilly, has declined to recuse himself and, in accordance with the Local
Rules of this District, referred the matter to the Undersigned for further review. Local Rules
W.D. Wash. LCR 3(e); Dkt. #136.
Pursuant to 28 U.S.C. § 455(a), a judge of the United States shall disqualify himself in

19
20

any proceeding in which his impartiality “might reasonably be questioned.” Federal judges also

21
1

Although Mr. Stafne is proceeding pro se in this action, it is worth noting that he is an
attorney with Stafne Trumbull LLC, and is admitted to practice in Washington State and before
23 this Court. Thus, he is presumed to be familiar with not only the substantive law pertaining to
the issues in the case against him, but also with Court Rules, procedures and statutory
24 provisions relevant to the assertions he makes in connection with this case.
22

ORDER ON REVIEW OF REQUEST TO RECUSE1

Case 2:16-cv-00077-TSZ Document 137 Filed 06/02/17 Page 2 of 4
A 35
1 shall disqualify themselves in circumstances where they have a personal bias or prejudice
2 concerning a party or personal knowledge of disputed evidentiary facts concerning the
3 proceeding. 28 U.S.C. § 455(b)(1).
4

Under both 28 U.S.C. §144 and 28 U.S.C. § 455, recusal of a federal judge is appropriate

5 if “a reasonable person with knowledge of all the facts would conclude that the judge’s
6 impartiality might reasonably be questioned.” Yagman v. Republic Insurance, 987 F.2d 622, 626
7 (9th Cir.1993). This is an objective inquiry concerned with whether there is the appearance of
8 bias, not whether there is bias in fact.

Preston v. United States, 923 F.2d 731, 734 (9th

9 Cir.1992); United States v. Conforte, 624 F.2d 869, 881 (9th Cir.1980). In Liteky v. United
10 States, 510 U.S. 540 (1994), the United States Supreme Court further explained the narrow basis
11 for recusal:
12
13
14
15
16
17
18
19
20
21
22
23

[J]udicial rulings alone almost never constitute a valid basis for a bias or
partiality motion. . . . [O]pinions formed by the judge on the basis of facts
introduced or events occurring in the course of the current proceedings, or
of prior proceedings, do not constitute a basis for a bias or partiality motion
unless they display a deep seated favoritism or antagonism that would make
fair judgment impossible. Thus, judicial remarks during the course of a trial
that are critical or disapproving of, or even hostile to, counsel, the parties, or
their cases, ordinarily do not support a bias or partiality challenge.
Id. at 555. Rather than focus on these applicable standards, Defendant instead asserts multiple
other grounds upon which he argues that Judge Zilly should recuse himself. All of his bases for
recusal are without merit.
First, without a scintilla of evidence in support, Defendant questions Judge Zilly’s
competency based on his alleged age (which Defendant has not actually correctly calculated).
Tacking together a series of generic quotes about deficits related to aging, Defendant attempts to
fashion an argument that equates Judge Zilly’s age with his fitness to discharge his duties. The

24
ORDER ON REVIEW OF REQUEST TO RECUSE2

Case 2:16-cv-00077-TSZ Document 137 Filed 06/02/17 Page 3 of 4
A 36
1 fact that Defendant fails to offer a shred of evidence from the record tending to indicate any
2 impairment on Judge Zilly’s part speaks for itself.
3

Second, Defendant attacks Judge Zilly’s fitness to preside over his case on the basis of

4 his “senior status,” which he alleges is a feature of the federal judicial system which allows
5 judges who meet the qualifications to “retire,” receive their pension and continue to serve the
6 courts in a voluntary capacity.2 Notably, Defendant fails to cite a single legal precedent tending
7 to establish that the fact of a presiding judge’s “senior status” has ever been held (in and of itself)
8 to constitute a proper basis for recusal.
9

Setting aside the complete lack of evidentiary or legal support for Judge Zilly’s age or

10 senior status as a basis for recusal, Defendant’s request is noteworthy for its lack of relevance to
11 the statute under which he might properly advocate for recusal. The statutory basis for recusal
12 exists only if “a reasonable person with knowledge of all the facts would conclude that the
13 judge’s impartiality might reasonably be questioned.” Yagman, 987 F.2d at 626; see 28 U.S.C.
14 §144 and 28 U.S.C. § 455. Defendant does not propound any evidence-based rationale which
15 ties Judge Zilly’s age or senior status to an issue of “impartiality” or “bias;” he simply wants to
16 argue – via innuendo and stereotype – that Judge Zilly is unfit to preside over his case. The law
17 requires more.
18

Lastly, it is clear that Defendant does not agree with a number of rulings made by Judge

19 Zilly which have not been in his favor.

A judge’s rulings do not constitute the requisite bias

20 under 28 U.S.C. § 144 or § 455 if prompted solely by information that the judge received in the
21
22

2

A simple internet search would have revealed the inaccuracy of Defendant Stafne’s
23 allegations. “Senior status” is a form of semi-retirement for United States federal judges that
allows them to receive the full salary of a judge but have the option to take a reduced caseload
24 (although many senior judges choose to maintain a full caseload).
ORDER ON REVIEW OF REQUEST TO RECUSE3

Case 2:16-cv-00077-TSZ Document 137 Filed 06/02/17 Page 4 of 4
A 37
1 context of the performance of his duties. Bias is almost never established simply because the
2 judge issued adverse rulings against a party.

If Defendant believes that Judge Zilly has

3 committed legal error in his rulings, he is entitled to make that argument on appeal to the Ninth
4 Circuit Court of Appeals. He is not entitled to claim “bias” on that basis, nor is he entitled to
5 recusal of the judge who made the rulings.
6

Accordingly, the Court finds no evidence upon which to reasonably question Judge

7 Zilly’s impartiality and AFFIRMS his denial of Defendant’s request that he recuse himself.
8

The Clerk SHALL provide copies of this order to Defendants and to all counsel of record.

9
10

Dated this 2nd day of June, 2017.

11

A

12

RICARDO S. MARTINEZ
CHIEF UNITED STATES DISTRICT JUDGE

13
14
15
16
17
18
19
20
21
22
23
24
ORDER ON REVIEW OF REQUEST TO RECUSE4

Case 2:16-cv-00077-TSZ Document 139 Filed 06/06/17 Page 1 of 2
APPENDIX 12
A 38
1
2
3
4
5

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

6
7
8
9
10
11

BANK OF NEW YORK, MELLON,
Plaintiff,
v.

CASE NO. C16-0077TSZ
ORDER DENYING MOTION FOR
RECONSIDERATION

SCOTT STAFNE, et al.,
Defendants.

12
13
14
15
16
17
18
19
20
21
22
23
24

THIS MATTER comes before the Court on Defendant Scott Stafne’s Motion for
Reconsideration, which asks the Court to reconsider its prior Order affirming Judge Zilly’s
refusal to recuse himself as the presiding judge in this case. Dkts. #137 and #138. For the
reasons discussed below, the Court DENIES the motion for reconsideration.
Mr. Stafne filed a Motion for Recusal on May 26, 2017. Dkt. #134. The Presiding
Judge, the Honorable Thomas S. Zilly, declined to recuse himself and, in accordance with the
Local Rules of this District, referred the matter to the Undersigned for further review. Local
Rules W.D. Wash. LCR 3(e); Dkt. #136. On June 2, 2017, the Undersigned affirmed Judge
Zilly’s decision. Dkt. #137. The Undersigned noted that Mr. Stafne had failed to offer any
evidence supporting his allegation that Judge Zilly suffered some form of mental impairment
simply because of his age. The Undersigned further noted that Mr. Stafne had incorrectly
assumed that Judge Zilly was serving in his capacity without being compensated simply by
ORDER DENYING MOTION FOR
RECONSIDERATION- 1

Case 2:16-cv-00077-TSZ Document 139 Filed 06/06/17 Page 2 of 2
A 39
1 virtue of having taken senior status, and that he failed to cite a single legal precedent tending to
2 establish that the fact of a presiding judge’s senior status has ever been held (in and of itself) to
3 constitute a proper basis for recusal.

Dkt. #137.

Mr. Stafne now argues that this Court

4 committed manifest error in its prior ruling because it failed to provide a complete analysis of his
5 allegation that volunteer, uncompensated judges may not serve as Article III judges.
6

“Motions for reconsideration are disfavored.” LCR 7(h). “The court will ordinarily

7 deny such motions in the absence of a showing of manifest error in the prior ruling or a
8 showing of new facts or legal authority which could not have been brought to its attention
9 earlier with reasonable diligence.”

LCR 7(h)(1).

In this case, Mr. Stafne presents no

10 persuasive argument that this Court committed manifest error in its prior Order, nor any new
11 facts or legal authority which could not have been brought to the Court’s attention earlier
12 without reasonable diligence. For these reasons, his motion for reconsideration (Dkt. #138) is
13 DENIED.
14

The Clerk SHALL provide copies of this order to Defendants and to all counsel of record.

15

Dated this 6 day of June, 2017.

16

A

17

RICARDO S. MARTINEZ
CHIEF UNITED STATES DISTRICT JUDGE

18
19
20
21
22
23
24
ORDER DENYING MOTION FOR
RECONSIDERATION- 2

Case 2:16-cv-00077-TSZ Document 140 Filed 06/06/17 Page 1 of 2
APPENDIX 13
A 40

1
2
3
4
5
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

6
7
8

BANK OF NEW YORK MELLON,
Plaintiff,

9
10
11

C16-77 TSZ

v.
SCOTT STAFNE AND TODD
STAFNE,

12

MINUTE ORDER

Defendants.

13

The following Minute Order is made by direction of the Court, the Honorable
14 Thomas S. Zilly, United States District Judge:
(1)
Having reviewed plaintiff’s proposed amended judgment, docket no. 126, it
appears that the proposed amended judgment includes an abbreviated legal description
16 that encompasses boundary lines which are inconsistent with the full legal description of
the property encompassed by the Deed of Trust. See Proposed Amended Judgment, at 3;
17 see also Response, docket no. 129. The parties are DIRECTED to submit supplemental
briefing addressing this discrepancy on or before June 13, 2017. The parties’
18 supplemental briefs shall not exceed ten (10) pages.
15

(2)
In addition, the parties’ supplemental briefs should address whether, in light
of the notice informing the Court that defendant Todd Stafne is now deceased, see Notice
20 of Deceased Defendant, docket no. 130, substitution of Todd Stafne’s successor or
representative pursuant to Fed. R. Civ. P. 25(a) is required prior to any ruling on
21 plaintiff’s motion to amend the judgment.
19

22
23
MINUTE ORDER - 1

Case 2:16-cv-00077-TSZ Document 140 Filed 06/06/17 Page 2 of 2
A 41

1
2

(3)
The Clerk is directed to send a copy of this Minute Order to defendants and
all counsel of record.
Dated this 6th day of June, 2017.

3
William M. McCool
Clerk

4
5

s/Karen Dews
Deputy Clerk

6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
MINUTE ORDER - 2

Case 2:16-cv-00077-TSZ Document 167 Filed 11/15/17 Page 1 of 2
APPENDIX 14
A 42

1
2
3
4
5

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

6
7

BANK OF NEW YORK MELLON,

8
9
10
11

Plaintiff,
v.

C16-77 TSZ

SCOTT STAFNE; and MAYUMI
OHATA STAFNE, as Administrator of
the Estate of Todd Stafne,

12

MINUTE ORDER

Defendants.

13

The following Minute Order is made by direction of the Court, the Honorable
Thomas
S. Zilly, United States District Judge:
14
15
16
17
18
19
20
21
22

(1)
By Order filed on April 20, 2017, docket no. 124, the United States Court
of Appeals for the Ninth Circuit remanded this matter for the limited purpose of enabling
this Court to consider plaintiff’s motion to amend judgment. Shortly thereafter, Todd
Stafne died, see Notice (docket no. 130), and a few months later, upon plaintiff’s motion,
Mayumi Ohata Stafne, as Administrator of the Estate of Todd Stafne, was substituted as a
defendant. Minute Order (docket no. 152). In the meanwhile, defendant Scott Stafne
unsuccessfully sought to disqualify the district judge presiding over this matter. See
Order (docket no. 137). Pursuant to the parties’ subsequent stipulation, the Court
postponed ruling on plaintiff’s motion to amend judgment for 60 days to allow the parties
to confer and propose an amended judgment on which they all agreed. Minute Order
(docket no. 163). On October 23, 2017, the parties filed a Joint Status Report, docket
no. 165, indicating that they need additional time to pursue settlement. The Court has
now been advised that defendant Scott Stafne has filed a lawsuit captioned Stafne v. Zilly,
et al., Case No. C17-1692-RSL, naming as defendants both the district judge presiding
over this matter and one of the two Circuit Judges who ordered the limited remand in

23
MINUTE ORDER - 1

Case 2:16-cv-00077-TSZ Document 167 Filed 11/15/17 Page 2 of 2
A 43

1 COA No. 16-36032. In light of these developments, the Court hereby STAYS this case
until further order.
2
(2)
The Clerk is directed to send a copy of this Minute Order to all counsel of
3 record and to the United States Court of Appeals for the Ninth Circuit.
4

Dated this 15th day of November, 2017.

5

William M. McCool
Clerk

6

s/Karen Dews
Deputy Clerk

7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
MINUTE ORDER - 2

Case 2:16-cv-00077-TSZ Document 171 Filed 05/14/19 Page 1 of 3
APPENDIX 15
A 44

1
2
3
4

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

5
6

BANK OF NEW YORK MELLON,

7
8
9
10

Plaintiff,
v.

C16-77 TSZ

SCOTT STAFNE; and MAYUMI
OHATA STAFNE, as Administrator of
the Estate of Todd Stafne,

11

MINUTE ORDER

Defendants.

12

The following Minute Order is made by direction of the Court, the Honorable
13 Thomas S. Zilly, United States District Judge:
(1)
The lawsuit captioned Stafne v. Zilly, et al., Case No. C17-1692 MHS
(W.D. Wash.), having been dismissed with prejudice, judgment having been entered in
that case, and the related post-judgment motions having been denied, the stay of this
15
matter is hereby LIFTED and this case is returned to the active docket.
14

16

(2)
Pursuant to a limited remand from the United States Court of Appeals for
the Ninth Circuit, docket no. 124, plaintiff’s motion to amend judgment, docket no. 120,
17 is DENIED in part and GRANTED in part as follows:
18
19
20
21
22

(a)
By Order entered December 7, 2016, docket no. 114, the Court
granted in part and denied in part two motions for summary judgment brought by
plaintiff Bank of New York Mellon (“BONY”), a New York banking corporation,
in its capacity as trustee for Structured Asset Mortgage Investments II Trust,
Mortgage Pass-Through Certificates Series 2005-AR2. See also Order (docket
no. 69) (substituting BONY for its parent corporation, Bank of New York Mellon,
a Delaware corporation). The Court rejected the theories underlying defendants
Scott Stafne’s and Todd Stafne’s counterclaims to quiet title and Todd Stafne’s
counterclaim for declaratory judgment, and dismissed the counterclaims with

23
MINUTE ORDER - 1

Case 2:16-cv-00077-TSZ Document 171 Filed 05/14/19 Page 2 of 3
A 45

1

prejudice. The Court also ruled that plaintiff was entitled to a partial judgment
foreclosing the deed of trust dated March 9, 2005, and recorded in Snohomish
County on March 15, 2005, Ex. B to Compl. (docket no. 1-3), with respect to real
property owned by Scott Stafne, having the address of 17207 155th Ave NE, in
Arlington, Washington. The Court, however, denied as premature plaintiff’s
requests for a deficiency judgment, attorney’s fees, and costs. See Order at 6-7
(docket no. 114). Plaintiff’s motions for summary judgment did not mention and,
in the Order entered December 7, 2016, docket no. 114, the Court did not rule on
any interests in the property at issue other than those of plaintiff and defendants
Scott Stafne and Todd Stafne, who has since died. Plaintiff’s current request to
include in an amended partial judgment a foreclosure of interests 1 other than those
of defendants Scott Stafne and Mayumi Ohata Stafne, as Administrator of the
Estate of Todd Stafne, is therefore DENIED.

2
3
4
5
6
7

(b)
Plaintiff’s request to include in an amended partial judgment a
summary setting forth the principal balance of Scott Stafne’s indebtedness, the
interest calculated through December 7, 2016, and the amounts of various fees and
advances is also DENIED. Contrary to plaintiff’s contention, the summary it
seeks is not mandated by RCW 4.64.030(2)(a), which applies only to judgments
that provide “for the payment of money.” The Court’s Order entered December 7,
2016, docket no. 114, did not address the parties’ dispute concerning the amount
owed by Scott Stafne, and it did not award a particular sum to plaintiff. Plaintiff’s
motions for summary judgment recited an estimated amount due from Scott
Stafne, namely $1,049,928, see Pla.’s Mot. at 9 (docket no. 63); Pla.’s Mot. at 4
(docket no. 81); Janati Decl. at ¶ 4 (docket no. 65), but the proposed order plaintiff
submitted, docket no. 63-1, did not contain a sum certain. Instead, plaintiff asked
the Court to enter judgment “for the full amount due under the Note” and to award
a deficiency judgment in an amount be stated by plaintiff in a declaration after the
foreclosure sale of the property. The Court declined to do so, and plaintiff cannot
now obtain the relief that was previously denied by seeking to amend the partial
judgment in a manner that does not reflect the Court’s ruling.

8
9
10
11
12
13
14
15
16

(c)
Plaintiff’s request to include in an amended partial judgment a
direction that the proceeds of any sale of the real property be automatically applied
toward payment of the indebtedness at issue is DENIED. The Court instead

17
18
19
20

1

Real Time Resolutions, Inc. was originally named as a defendant in this action, but was
voluntarily dismissed by plaintiff based on an understanding that the deed of trust held by such
21 entity was reconveyed in 2016. See Notice of Voluntary Dismissal (docket no. 62). No other
entities with an interest in the real property at issue have been joined in this matter, and plaintiff
22 has made no representations concerning whether any such entities have been provided notice of
this litigation.

23

MINUTE ORDER - 2

Case 2:16-cv-00077-TSZ Document 171 Filed 05/14/19 Page 3 of 3
A 46

1
2
3
4
5
6
7
8
9
10

ORDERS that, after deducting the usual fees and costs of the Snohomish County
Sheriff, the proceeds of any sale shall be deposited into the Registry of the Court.
(d)
Plaintiff’s request to amend the partial judgment to include certain
language concerning the status of the deed of trust, plaintiff’s right to bid and
become a purchaser at any sale of the property, and Scott Stafne’s right to redeem
the property for a one-year period is GRANTED. The form of the original partial
judgment was consistent with RCW 4.64.030(2)(b), which requires that a
judgment relating to the “right, title, or interest in real property” contain an
abbreviated legal description of the property at issue. The partial judgment
entered December 7, 2016, docket no. 115, contained the full legal description of
the property, as set forth in the deed of trust recorded on March 15, 2005, as
Snohomish County Instrument No. 200503150879, see Ex. B to Compl. (docket
no. 1-3). The original partial judgment, however, did not specify that defendants’
counterclaims were dismissed with prejudice, did not indicate that the deed of trust
is valid and subsisting, and prior and superior to any and all right, title, interest,
lien, and/or estate of Scott Stafne and/or Todd Stafne (or his heirs) in the property,
did not state that plaintiff could bid and become the purchaser at any sale, and did
not specify the redemption period. The Clerk is therefore DIRECTED to enter an
amended partial judgment in the form approved by the Court.

11

(3)
The Clerk is further DIRECTED to send a copy of this Minute Order and
the
Amended
Partial Judgment to all counsel of record and the United States Court of
12
Appeals for the Ninth Circuit (with reference to No. 16-36032).
13

Dated this 14th day of May, 2019.

14

William M. McCool
Clerk

15

s/Karen Dews
Deputy Clerk

16
17
18
19
20
21
22
23
MINUTE ORDER - 3

Case 2:16-cv-00077-TSZ Document 181 Filed 03/02/21 Page 1 of 2
APPENDIX 16
A 47

1
2
3
4
5

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

6
7
8

THE BANK OF NEW YORK
MELLON,
Plaintiff,

9
10
11
12

C16-77 TSZ

v.
SCOTT STAFNE; and MAYUMI
OHATA STAFNE, as Administrator of
the Estate of Todd Stafne,

MINUTE ORDER

Defendants.
13
14
15
16
17
18
19

The following Minute Order is made by direction of the Court, the Honorable
Thomas S. Zilly, United States District Judge:
(1)
On May 14, 2019, the Court entered an Amended Partial Judgment, docket
no. 172, ordering a judicial foreclosure of the Deed of Trust encumbering the Subject
Property, as described in the Amended Partial Judgment (docket no. 172 at 1–2); ordering
the Subject Property to be sold by the Sheriff of Snohomish County in a manner provided
by law; and ordering Plaintiff and/or the successful purchaser of the Subject Property to
file an appropriate motion to confirm the sale within fourteen (14) days after the sale. On
October 8, 2020, the United States Court of Appeals for the Ninth Circuit affirmed this
Court’s order and judgment, docket no. 179. On October 30, 2020, the mandate of the
Court of Appeals issued, docket no. 180.

20

(2)
Approximately four months having elapsed since the mandate issued, the
parties are DIRECTED to file a Joint Status Report on or before April 9, 2021, indicating
21 (i) the current status of the Subject Property and (ii) what steps, if any, the parties are
taking to effectuate the Sheriff’s sale of the Subject Property.
22
23
MINUTE ORDER - 1

Case 2:16-cv-00077-TSZ Document 181 Filed 03/02/21 Page 2 of 2
A 48

1

(3)
record.

The Clerk is directed to send a copy of this Minute Order to all counsel of

2
Dated this 2nd day of March, 2021.
3
William M. McCool
Clerk

4
5

s/Gail Glass
Deputy Clerk

6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
MINUTE ORDER - 2

APPENDIX 17
A 49
CONSTITUTIONAL PROVISIONS
ARTICLE III
SECTION ONE. The judicial Power of the United States, shall be vested in one supreme
Court, and in such inferior Courts as the Congress may from time to time ordain and
establish. The Judges, both of the supreme and inferior Courts, shall hold their Offices
during good Behaviour, and shall, at stated Times, receive for their Services, a
Compensation, which shall not be diminished during their Continuance in Office.
SECTION TWO. The judicial Power shall extend to all Cases, in Law and Equity, arising
under this Constitution, the Laws of the United States, and Treaties made, or which shall
be made, under their Authority;—to all Cases affecting Ambassadors, other public
ministers and Consuls;—to all Cases of admiralty and maritime Jurisdiction;—to
Controversies to which the United States shall be a Party;—to Controversies between two
or more States;—between a State and Citizens of another State;—between Citizens of
different States;—between Citizens of the same State claiming Lands under Grants of
different States, and between a State, or the Citizens thereof, and foreign States, Citizens
or Subjects.
ARTICLE V
The Congress, whenever two thirds of both Houses shall deem it necessary, shall propose
Amendments to this Constitution, or, on the Application of the Legislatures of two thirds
of the several States, shall call a Convention for proposing Amendments, which, in either
Case, shall be valid to all Intents and Purposes, as Part of this Constitution, when ratified
by the Legislatures of three fourths of the several States, or by Conventions in three fourths
thereof, as the one or the other Mode of Ratification may be proposed by the Congress;
Provided that no Amendment which may be made prior to the Year One thousand eight
hundred and eight shall in any Manner affect the first and fourth Clauses in the Ninth
Section of the first Article; and that no State, without its Consent, shall be deprived of its
equal Suffrage in the Senate.
STATUTES
28 U.S.C. § 371
(a) Any justice or judge of the United States appointed to hold office during good behavior
may retire from the office after attaining the age and meeting the service requirements,
whether continuous or otherwise, of subsection (c) and shall, during the remainder of his
lifetime, receive an annuity equal to the salary he was receiving at the time he retired.
(b)
(1)Any justice or judge of the United States appointed to hold office during good behavior
may retain the office but retire from regular active service after attaining the age and
meeting the service requirements, whether continuous or otherwise, of subsection (c) of

A 50
this section and shall, during the remainder of his or her lifetime, continue to receive the
salary of the office if he or she meets the requirements of subsection (e).
(2) In a case in which a justice or judge who retires under paragraph (1) does not meet the
requirements of subsection (e), the justice or judge shall continue to receive the salary that
he or she was receiving when he or she was last in active service or, if a certification under
subsection (e) was made for such justice or judge, when such a certification was last in
effect. The salary of such justice or judge shall be adjusted under section 461 of this title.
***
(d) The President shall appoint, by and with the advice and consent of the Senate, a
successor to a justice or judge who retires under this section.
(e)
(1) In order to continue receiving the salary of the office under subsection (b), a justice must
be certified in each calendar year by the Chief Justice, and a judge must be certified by the
chief judge of the circuit in which the judge sits, as having
met the requirements set forth in at least one of the following subparagraphs:
(A) The justice or judge must have carried in the preceding calendar year a caseload
involving courtroom participation which is equal to or greater than the amount of
work involving courtroom participation which an average judge in active service
would perform in three months. In the instance of a justice or judge who has sat on
both district courts and courts of appeals, the caseload of appellate work and trial
work shall be determined separately and the results of those determinations added
together for purposes of this paragraph.
(B) The justice or judge performed in the preceding calendar year substantial judicial
duties not involving courtroom participation under subparagraph (A), including
settlement efforts, motion decisions, writing opinions in cases that have not been
orally argued, and administrative duties for the court to which the justice or judge
is assigned. Any certification under this subparagraph shall include a statement
describing in detail the nature and amount of work and certifying that the work done
is equal to or greater than the work described in this subparagraph which an average
judge in active service would perform in three months.
(C) The justice or judge has, in the preceding calendar year, performed work
described in subparagraphs (A) and (B) in an amount which, when calculated in
accordance with such subparagraphs, in the aggregate equals at least 3 months
work.
(D) The justice or judge has, in the preceding calendar year, performed substantial
administrative duties directly related to the operation of the courts, or has performed

A 51
substantial duties for a Federal or State governmental entity. A certification under
this subparagraph shall specify that the work done is equal to the full-time work of
an employee of the judicial branch. In any year in which a justice or judge performs
work described under this subparagraph for less than the full year, one-half of such
work may be aggregated with work described under subparagraph (A), (B), or (C) of
this paragraph for the purpose of the justice or judge satisfying the requirements of
such subparagraph.
(E) The justice or judge was unable in the preceding calendar year to perform judicial
or administrative work to the extent required by any of subparagraphs (A) through
(D) because of a temporary or permanent disability. A certification under this
subparagraph shall be made to a justice who certifies in writing his or her disability
to the Chief Justice, and to a judge who certifies in writing his or her disability to
the chief judge of the circuit in which the judge sits. A justice or judge who is
certified under this subparagraph as having a permanent disability shall be deemed
to have met the requirements of this subsection for each calendar year thereafter.
(2) Determinations of work performed under subparagraphs (A), (B), (C), and (D)
of paragraph (1) shall be made pursuant to rules promulgated by the Judicial Conference of
the United States. In promulgating such criteria, the Judicial Conference shall take into
account existing standards promulgated by the Conference for allocation of space and staff
for senior judges.
(3) If in any year a justice or judge who retires under subsection (b) does not receive a
certification under this subsection (except as provided in paragraph (1)(E)), he or
she may thereafter receive a certification for that year by satisfying the requirements of
subparagraph (A), (B), (C), or (D) of paragraph (1) of this subsection in a subsequent year
and attributing a sufficient part of the work performed in such subsequent year to the earlier
year so that the work so attributed, when added to the work performed during such earlier
year, satisfies the requirements for certification for that year. However, a justice or judge
may not receive credit for the same work for purposes of certification for more than 1 year.
(4) In the case of any justice or judge who retires under subsection (b) during a
calendar year, there shall be included in the determination under this subsection
of work performed during that calendar year all work performed by that justice or
judge (as described in subparagraphs (A), (B), (C), and (D) of paragraph (1)) during
that calendar year before such retirement.
28 U.S.C.§ 291
(a) The Chief Justice of the United States may, in the public interest, designate and assign
temporarily any circuit judge to act as circuit judge in another circuit upon request by the
chief judge or circuit justice of such circuit.

A 52
(b) The chief judge of a circuit or the circuit justice may, in the public interest, designate
and assign temporarily any circuit judge within the circuit, including a judge designated
and assigned to temporary duty therein, to hold a district court in any district within the
circuit.
28 U.S.C. § 292
(a) The chief judge of a circuit may designate and assign one or more district judges within
the circuit to sit upon the court of appeals or a division thereof whenever the business of
that court so requires. Such designations or assignments shall be in conformity with the
rules or orders of the court of appeals of the circuit.
(b) The chief judge of a circuit may, in the public interest, designate and assign
temporarily any district judge of the circuit to hold a district court in any district within the
circuit.
(c) The chief judge of the United States Court of Appeals for the District of Columbia
Circuit may, upon presentation of a certificate of necessity by the chief judge of the
Superior Court of the District of Columbia pursuant to section 11– 908(c) of the District of
Columbia Code, designate and assign temporarily any district judge of the circuit to serve
as a judge of such Superior Court, if such assignment (1) is approved by the Attorney
General of the United States following a determination by him to the effect that such
assignment is necessary to meet the ends of justice, and (2) is approved by the chief judge
of the United States District Court for the District of Columbia.
(d) The Chief Justice of the United States may designate and assign temporarily a district
judge of one circuit for service in another circuit, either in a district court or court of
appeals, upon presentation of a certificate of necessity by the chief judge or circuit justice
of the circuit wherein the need arises.
(e) The Chief Justice of the United States may designate and assign temporarily any district
judge to serve as a judge of the Court of International Trade upon presentation to him of a
certificate of necessity by the chief judge of the court.
28 U.S.C. § 294
(a) Any retired Chief Justice of the United States or Associate Justice of the Supreme
Court may be designated and assigned by the Chief Justice of the United States to perform
such judicial duties in any circuit, including those of a circuit justice, as he is willing to
undertake.
(b) Any judge of the United States who has retired from regular active service under
section 371(b) or 372(a) of this title shall be known and designated as a senior judge and
may continue to perform such judicial duties as he is willing and able to undertake, when
designated and assigned as provided in subsections (c) and (d).
(c) Any retired circuit or district judge may be designated and assigned by the chief judge
or judicial council of his circuit to perform such judicial duties within the circuit as he is
willing and able to undertake. Any other retired judge of the United States may be

A 53
designated and assigned by the chief judge of his court to perform such judicial duties in
such court as he is willing and able to undertake.
(d) The Chief Justice of the United States shall maintain a roster of retired judges
of the United States who are willing and able to undertake special judicial duties from
time to time outside their own circuit, in the case of a retired circuit or district judge,
or in a court other than their own, in the case of other retired judges, which roster shall
be known as the roster of senior judges. Any such retired judge of the United States may be
designated and assigned by the Chief Justice to perform such judicial duties as he is
willing and able to undertake in a court outside his own circuit, in the case of a retired
circuit or district judge, or in a court other than his own, in the case of any other retired
judge of the United States. Such designation and assignment to a court of appeals or
district court shall be made upon the presentation of a certificate of necessity by the chief
judge or circuit justice of the circuit wherein the need arises and to any other court of the
United States upon the presentation of a certificate of necessity by the chief judge of such
court. No such designation or assignment shall be made to the Supreme Court.
(e)No retired justice or judge shall perform judicial duties except when designated
and assigned.
28 U.S.C. § 295
No designation and assignment of a circuit or district judge in active service shall be made
without the consent of the chief judge or judicial council of the circuit from which the judge
is to be designated and assigned. No designation and assignment of a judge of any other
court of the United States in active service shall be made without the consent of the chief
judge of such court.
All designations and assignments of justices and judges shall be filed with the clerks and
entered on the minutes of the courts from and to which made. The Chief Justice of the
United States, a circuit justice or a chief judge of a circuit may make new designation and
assignments in accordance with the provisions of this chapter and may revoke those
previously made by him.
28 U.S.C. § 296
A justice or judge shall discharge, during the period of his designation and assignment, all
judicial duties for which he is designated and assigned. He may be required to perform any
duty which might be required of a judge of the court or district or circuit to which he is
designated and assigned.
Such justice or judge shall have all the powers of a judge of the court, circuit or district
to which he is designated and assigned, except the power to appoint any person to a
statutory position or to designate permanently a depository of funds or a newspaper for
publication of legal notices. However, a district judge who has retired from regular active
service under section 371(b) of this title, when designated and assigned to the court to
which such judge was appointed, having performed in the preceding calendar year an
amount of work equal to or greater than the amount of work an average

A 54
judge in active service on that court would perform in 6 months, and having elected to
exercise such powers, shall have the powers of a judge of that court to participate in
appointment of court officers and magistrate judges, rulemaking, governance, and
administrative matters. A justice or judge who has sat by designation and assignment in
another district or circuit may, notwithstanding his absence from such district or circuit or
the expiration of the period of his designation and assignment, decide or join in the decision
and final disposition of all matters submitted to him during such period and in the
consideration and disposition of applications for rehearing or further proceedings in such
matters.
28 U.S.C. § 1332 (a)
x

x

(a)The district courts shall have original jurisdiction of all civil actions where the matter
in controversy exceeds the sum or value of $75,000, exclusive of interest and costs, and
is between—
(1)citizens of different States;
(2)citizens of a State and citizens or subjects of a foreign state, except that the district
courts shall not have original jurisdiction under this subsection of an action between
citizens of a State and citizens or subjects of a foreign state who are lawfully admitted for
permanent residence in the United States and are domiciled in the same State;
(3)citizens of different States and in which citizens or subjects of a foreign state are
additional parties; and
(4)a foreign state, defined in section 1603(a) of this title, as plaintiff and citizens of a
State or of different States.
28 U.S.C. § 1359
A district court shall not have jurisdiction of a civil action in which any party, by
assignment or otherwise, has been improperly or collusively made or joined to invoke the
jurisdiction of such court.
Rule of Federal Procedure 17
(a) Real Party in Interest.
(1) Designation in General. An action must be prosecuted in the name of the real party
in interest. The following may sue in their own names without joining the person for
whose benefit the action is brought:
(A) an executor;
(B) an administrator;
(C) a guardian;
(D) a bailee;
(E) a trustee of an express trust;

A 55
(F) a party with whom or in whose name a contract has been made for another's
benefit; and
(G) a party authorized by statute.
(2) Action in the Name of the United States for Another's Use or Benefit. When a federal
statute so provides, an action for another's use or benefit must be brought in the name of
the United States.
(3) Joinder of the Real Party in Interest. The court may not dismiss an action for failure
to prosecute in the name of the real party in interest until, after an objection, a reasonable
time has been allowed for the real party in interest to ratify, join, or be substituted into
the action. After ratification, joinder, or substitution, the action proceeds as if it had been
originally commenced by the real party in interest.
(b) Capacity to Sue or Be Sued. Capacity to sue or be sued is determined as follows:
(1) for an individual who is not acting in a representative capacity, by the law of the
individual's domicile;
(2) for a corporation, by the law under which it was organized; and
(3) for all other parties, by the law of the state where the court is located, except that:
(A) a partnership or other unincorporated association with no such capacity under
that state's law may sue or be sued in its common name to enforce a substantive right
existing under the United States Constitution or laws; and
(B) 28 U.S.C. §§754 and 959(a) govern the capacity of a receiver appointed by a
United States court to sue or be sued in a United States court.
(c) Minor or Incompetent Person.
(1) With a Representative. The following representatives may sue or defend on behalf
of a minor or an incompetent person:
(A) a general guardian;
(B) a committee;
(C) a conservator; or
(D) a like fiduciary.
(2) Without a Representative. A minor or an incompetent person who does not have a
duly appointed representative may sue by a next friend or by a guardian ad litem. The
court must appoint a guardian ad litem—or issue another appropriate order—to protect
a minor or incompetent person who is unrepresented in an action.
(d) Public Officer's Title and Name. A public officer who sues or is sued in an official
capacity may be designated by official title rather than by name, but the court may order
that the officer's name be added.

A 56
Intentionally left blank

Case: 14-35672, 08/21/2017, ID: 10551417, DktEntry: 150, Page 1 of 4
APPENDIX 18
A 57

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
AUG 21 2017
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

DUNCAN K. ROBERTSON,
Plaintiff-Appellant,
v.
GMAC MORTGAGE, LLC, et al.,
Defendants-Appellees.

No. 14-35672
D.C. No. 2:12-cv-02017-MJP
Western District of Washington,
Seattle
ORDER

Before: HAWKINS and TALLMAN, Circuit Judges, and LEFKOW, Senior
District Judge.
Duncan K. Robertson moves under Federal Rule of Appellate Procedure
27(a) for sanctions against defendants-appellees, as well as their lawyers, relying
on the inherent power of the court and 28 U.S.C. § 1927. He argues that the
defendants below committed a fraud on the court by falsely asserting that Bank of

The Honorable Joan H. Lefkow, Senior United States District Judge for the
Northern District of Illinois, sitting by designation.


Case: 14-35672, 08/21/2017, ID: 10551417, DktEntry: 150, Page 2 of 4
A 58

New York Mellon Trust Company (“BNY”) is a citizen of Florida.1 We have
jurisdiction under 28 U.S.C. § 1291.2 We deny the motion.
1.

Since Robertson does not accuse any party of misleading the lawyers,

we address the conduct of the lawyers as one with that of the parties. The court has
inherent power to sanction a party for conduct that abuses the judicial process.
Chambers v. NASCO, Inc., 501 U.S. 32, 44–45 (1991). “Because of their very
potency, inherent powers must be exercised with restraint and discretion.” Id. at
44. The court may sanction an attorney if it “specifically finds bad faith or conduct
tantamount to bad faith.” Fink v. Gomez, 239 F.3d 989, 994 (9th Cir. 2001).
Conduct tantamount to bad faith can include “an attorney’s reckless misstatements
of law and fact, when coupled with an improper purpose.” Id. Sanctions are
inappropriate, however, “where there [is] no evidence that the attorney . . . ‘acted

Robertson makes an additional argument that the defendants and their
attorneys manufactured standing by falsely asserting that BNY was a represented
party, hypothesizing that BNY would have told its attorneys that it was not a
citizen of Florida. The district court’s finding, that “[d]efense counsels’
representations to this Court are sufficient to show they have been authorized to
represent their clients,” Robertson v. GMAC Mortgage LLC, 2013 WL 12175089,
at *2 (W.D. Wash. Feb. 19, 2013), is not clearly erroneous.
1

Because Robertson has not appealed any orders from the district court
denying sanctions he may have sought below, we construe this motion as a request
for the costs, expenses, and attorneys’ fees incurred to establish BNY’s citizenship
on appeal, which an appeals court may grant. See, e.g., T.W. Elec. Serv., Inc. v.
Pac. Elec. Contractors Ass’n, 809 F.2d 626, 638 (9th Cir. 1987); McConnell v.
Critchlow, 661 F.2d 116, 118 (9th Cir. 1981).
2

Case: 14-35672, 08/21/2017, ID: 10551417, DktEntry: 150, Page 3 of 4
A 59

in bad faith or intended to mislead the court.’” Id. at 993 (quoting Yagman v.
Republic Ins., 987 F.2d 622, 628 (9th Cir. 1993)).
Robertson cannot show that defendants had an improper purpose to create
jurisdiction where whether BNY is a citizen of Florida or of California made no
difference in establishing jurisdiction. Although the defendants erroneously alleged
BNY’s citizenship (apparently applying the “principal place of business” standard
even though Chase had recited correctly in its notice of removal that citizenship of
a nationally chartered trust company is its main office, as identified in its articles of
association), we do not infer bad faith or intention to mislead where the
misstatement was not material.
2.

“To be sanctionable under § 1927 . . . counsel’s conduct must

multiply the proceedings in both an ‘unreasonable and vexatious manner.’” In re
Girardi, 611 F.3d 1027, 1060–61 (9th Cir. 2010) (quoting B.K.B. v. Maui Police
Dep’t, 276 F.3d 1091, 1107 (9th Cir. 2002)). A filing submitted recklessly is
sanctionable if it is also frivolous or intended to harass. In re Keegan Mgmt. Co.,
Sec. Litig., 78 F.3d 431, 436 (9th Cir. 1996).
Robertson fails to persuade us that defendants’ error multiplied the
proceedings, where he points to no challenge to diversity jurisdiction based solely
on the fact that BNY is not a citizen of Florida. We do not condone the defendants’
attorneys’ unreasonable persistence throughout the litigation in claiming BNY to

Case: 14-35672, 08/21/2017, ID: 10551417, DktEntry: 150, Page 4 of 4
A 60

be a citizen of Florida when it was not. That being said, the filings in which this
representation was made were all directed at the existence of the court’s
jurisdiction which, as we have already concluded, was not a frivolous argument.
Nor is there any indication that it was intended to harass Robertson. Therefore, at
most, this was a reckless filing, which is insufficient to justify sanctions under
§ 1927.
DENIED.

Case 2:16-cv-00077-TSZ Document 94-1 Filed 09/19/16 Page 1 of 3
APPENDIX 19
A 61

Case 2:16-cv-00077-TSZ Document 94-1 Filed 09/19/16 Page 2 of 3
A 62

Case 2:16-cv-00077-TSZ Document 94-1 Filed 09/19/16 Page 3 of 3
A 63

Case 2:16-cv-00077-TSZ Document 94-2 Filed 09/19/16 Page 1 of 13
APPENDIX 20
A 64

Case 2:16-cv-00077-TSZ Document 94-2 Filed 09/19/16 Page 2 of 13
A 65

Case 2:16-cv-00077-TSZ Document 94-2 Filed 09/19/16 Page 3 of 13
A 66

Case 2:16-cv-00077-TSZ Document 94-2 Filed 09/19/16 Page 4 of 13
A 67

Case 2:16-cv-00077-TSZ Document 94-2 Filed 09/19/16 Page 5 of 13
A 68

Case 2:16-cv-00077-TSZ Document 94-2 Filed 09/19/16 Page 6 of 13
A 69

Case 2:16-cv-00077-TSZ Document 94-2 Filed 09/19/16 Page 7 of 13
A 70

Case 2:16-cv-00077-TSZ Document 94-2 Filed 09/19/16 Page 8 of 13
A 71

Case 2:16-cv-00077-TSZ Document 94-2 Filed 09/19/16 Page 9 of 13
A 72

Case 2:16-cv-00077-TSZ Document 94-2 Filed 09/19/16 Page 10 of 13
A 73

Case 2:16-cv-00077-TSZ Document 94-2 Filed 09/19/16 Page 11 of 13
A 74

Case 2:16-cv-00077-TSZ Document 94-2 Filed 09/19/16 Page 12 of 13
A 75

Case 2:16-cv-00077-TSZ Document 94-2 Filed 09/19/16 Page 13 of 13
A 76

Case 2:16-cv-00077-TSZ Document 94-5 Filed 09/19/16 Page 1 of 23
APPENDIX 21
A 77

Case 2:16-cv-00077-TSZ Document 94-5 Filed 09/19/16 Page 2 of 23
A 78

Case 2:16-cv-00077-TSZ Document 94-5 Filed 09/19/16 Page 3 of 23
A 79

Case 2:16-cv-00077-TSZ Document 94-5 Filed 09/19/16 Page 4 of 23
A 80

Case 2:16-cv-00077-TSZ Document 94-5 Filed 09/19/16 Page 5 of 23
A 81

Case 2:16-cv-00077-TSZ Document 94-5 Filed 09/19/16 Page 6 of 23
A 82

Case 2:16-cv-00077-TSZ Document 94-5 Filed 09/19/16 Page 7 of 23
A 83

Case 2:16-cv-00077-TSZ Document 94-5 Filed 09/19/16 Page 8 of 23
A 84

Case 2:16-cv-00077-TSZ Document 94-5 Filed 09/19/16 Page 9 of 23
A 85

Case 2:16-cv-00077-TSZ Document 94-5 Filed 09/19/16 Page 10 of 23
A 86

Case 2:16-cv-00077-TSZ Document 94-5 Filed 09/19/16 Page 11 of 23
A 87

Case 2:16-cv-00077-TSZ Document 94-5 Filed 09/19/16 Page 12 of 23
A 88

Case 2:16-cv-00077-TSZ Document 94-5 Filed 09/19/16 Page 13 of 23
A 89

Case 2:16-cv-00077-TSZ Document 94-5 Filed 09/19/16 Page 14 of 23
A 90

Case 2:16-cv-00077-TSZ Document 94-5 Filed 09/19/16 Page 15 of 23
A 91

Case 2:16-cv-00077-TSZ Document 94-5 Filed 09/19/16 Page 16 of 23
A 92

Case 2:16-cv-00077-TSZ Document 94-5 Filed 09/19/16 Page 17 of 23
A 93

Case 2:16-cv-00077-TSZ Document 94-5 Filed 09/19/16 Page 18 of 23
A 94

Case 2:16-cv-00077-TSZ Document 94-5 Filed 09/19/16 Page 19 of 23
A 95

Case 2:16-cv-00077-TSZ Document 94-5 Filed 09/19/16 Page 20 of 23
A 96

Case 2:16-cv-00077-TSZ Document 94-5 Filed 09/19/16 Page 21 of 23
A 97

Case 2:16-cv-00077-TSZ Document 94-5 Filed 09/19/16 Page 22 of 23
A 98

Case 2:16-cv-00077-TSZ Document 94-5 Filed 09/19/16 Page 23 of 23
A 99

Case 2:16-cv-00077-TSZ Document 94-6 Filed 09/19/16 Page 1 of 19
APPENDIX 22
A 100

Case 2:16-cv-00077-TSZ Document 94-6 Filed 09/19/16 Page 2 of 19
A 101

Case 2:16-cv-00077-TSZ Document 94-6 Filed 09/19/16 Page 3 of 19
A 102

Case 2:16-cv-00077-TSZ Document 94-6 Filed 09/19/16 Page 4 of 19
A 103

Case 2:16-cv-00077-TSZ Document 94-6 Filed 09/19/16 Page 5 of 19
A 104

Case 2:16-cv-00077-TSZ Document 94-6 Filed 09/19/16 Page 6 of 19
A 105

Case 2:16-cv-00077-TSZ Document 94-6 Filed 09/19/16 Page 7 of 19
A 106

Case 2:16-cv-00077-TSZ Document 94-6 Filed 09/19/16 Page 8 of 19
A 107

Case 2:16-cv-00077-TSZ Document 94-6 Filed 09/19/16 Page 9 of 19
A 108

Case 2:16-cv-00077-TSZ Document 94-6 Filed 09/19/16 Page 10 of 19
A 109

Case 2:16-cv-00077-TSZ Document 94-6 Filed 09/19/16 Page 11 of 19
A 110

Case 2:16-cv-00077-TSZ Document 94-6 Filed 09/19/16 Page 12 of 19
A 111

Case 2:16-cv-00077-TSZ Document 94-6 Filed 09/19/16 Page 13 of 19
A 112

Case 2:16-cv-00077-TSZ Document 94-6 Filed 09/19/16 Page 14 of 19
A 113

Case 2:16-cv-00077-TSZ Document 94-6 Filed 09/19/16 Page 15 of 19
A 114

Case 2:16-cv-00077-TSZ Document 94-6 Filed 09/19/16 Page 16 of 19
A 115

Case 2:16-cv-00077-TSZ Document 94-6 Filed 09/19/16 Page 17 of 19
A 116

Case 2:16-cv-00077-TSZ Document 94-6 Filed 09/19/16 Page 18 of 19
A 117

Case 2:16-cv-00077-TSZ Document 94-6 Filed 09/19/16 Page 19 of 19
A 118

Case 2:16-cv-00077-TSZ Document 94-7 Filed 09/19/16 Page 1 of 7
APPENDIX 23
A 119

Case 2:16-cv-00077-TSZ Document 94-7 Filed 09/19/16 Page 2 of 7
A 120

Case 2:16-cv-00077-TSZ Document 94-7 Filed 09/19/16 Page 3 of 7
A 121

Case 2:16-cv-00077-TSZ Document 94-7 Filed 09/19/16 Page 4 of 7
A 122

Case 2:16-cv-00077-TSZ Document 94-7 Filed 09/19/16 Page 5 of 7
A 123

Case 2:16-cv-00077-TSZ Document 94-7 Filed 09/19/16 Page 6 of 7
A 124

Case 2:16-cv-00077-TSZ Document 94-7 Filed 09/19/16 Page 7 of 7
A 125

Case 2:16-cv-00077-TSZ Document 94-26 Filed 09/19/16 Page 1 of 14
APPENDIX 24
A 126

Case 2:16-cv-00077-TSZ Document 94-26 Filed 09/19/16 Page 2 of 14
A 127

Case 2:16-cv-00077-TSZ Document 94-26 Filed 09/19/16 Page 3 of 14
A 128

Case 2:16-cv-00077-TSZ Document 94-26 Filed 09/19/16 Page 4 of 14
A 129

Case 2:16-cv-00077-TSZ Document 94-26 Filed 09/19/16 Page 5 of 14
A 130

Case 2:16-cv-00077-TSZ Document 94-26 Filed 09/19/16 Page 6 of 14
A 131

Case 2:16-cv-00077-TSZ Document 94-26 Filed 09/19/16 Page 7 of 14
A 132

Case 2:16-cv-00077-TSZ Document 94-26 Filed 09/19/16 Page 8 of 14
A 133

Case 2:16-cv-00077-TSZ Document 94-26 Filed 09/19/16 Page 9 of 14
A 134

Case 2:16-cv-00077-TSZ Document 94-26 Filed 09/19/16 Page 10 of 14
A 135

Case 2:16-cv-00077-TSZ Document 94-26 Filed 09/19/16 Page 11 of 14
A 136

Case 2:16-cv-00077-TSZ Document 94-26 Filed 09/19/16 Page 12 of 14
A 137

Case 2:16-cv-00077-TSZ Document 94-26 Filed 09/19/16 Page 13 of 14
A 138

Case 2:16-cv-00077-TSZ Document 94-26 Filed 09/19/16 Page 14 of 14
A 139

Case 2:16-cv-00077-TSZ Document 94-29 Filed 09/19/16 Page 1 of 3
APPENDIX 25
A 140

Case 2:16-cv-00077-TSZ Document 94-29 Filed 09/19/16 Page 2 of 3
A 141

Case 2:16-cv-00077-TSZ Document 94-29 Filed 09/19/16 Page 3 of 3
A 142

Case 2:16-cv-00077-TSZ Document 94-30 Filed 09/19/16 Page 1 of 3
APPENDIX 26
A 143

Case 2:16-cv-00077-TSZ Document 94-30 Filed 09/19/16 Page 2 of 3
A 144

Case 2:16-cv-00077-TSZ Document 94-30 Filed 09/19/16 Page 3 of 3
A 145

Case 2:16-cv-00077-TSZ Document 94-31 Filed 09/19/16 Page 1 of 2
APPENDIX 27
A 146

Case 2:16-cv-00077-TSZ Document 94-31 Filed 09/19/16 Page 2 of 2
A 147

Case 2:16-cv-00077-TSZ Document 94-32 Filed 09/19/16 Page 1 of 2
APPENDIXT 28
A 148

Case 2:16-cv-00077-TSZ Document 94-32 Filed 09/19/16 Page 2 of 2
A 149

APPENDIX 29
A 150

Case 2:16-cv-00077-TSZ Document 94-34 Filed 09/19/16 Page 2 of 3
A 151

Case 2:16-cv-00077-TSZ Document 94-34 Filed 09/19/16 Page 3 of 3
A 152

Case 2:16-cv-00077-TSZ Document 94-36 Filed 09/19/16 Page 1 of 3
APPENDIX 30
A 153

Case 2:16-cv-00077-TSZ Document 94-36 Filed 09/19/16 Page 2 of 3
A 154

Case 2:16-cv-00077-TSZ Document 94-36 Filed 09/19/16 Page 3 of 3
A 155

Case 2:16-cv-00077-TSZ Document 57 Filed 07/22/16 Page 1 of 4
APPENDIX 31
A 156

Case 2:16-cv-00077-TSZ Document 57 Filed 07/22/16 Page 2 of 4
A 157

Case 2:16-cv-00077-TSZ Document 57 Filed 07/22/16 Page 3 of 4
A 158

Case 2:16-cv-00077-TSZ Document 57-1 Filed 07/22/16 Page 1 of 2
APPENDIX 32
A 159

A 160

Case 2:16-cv-00077-TSZ Document 53 Filed 07/18/16 Page 1 of 18
APPENDIX 33
A 161
The Honorable Thomas S. Zilly
2
3
4

5
6
7
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

8
9
10

12

BANK OF NEW YORK MELLON, a Delaware )
corporation, as trustee for Structured Asset
)
Mortgage Investments II Trust, Mortgage Pass- ~
Through Certificates Series 2005-AR2,
)

13

Plaintiff,

)
)

14

V.

11

)

No. 2: l 6-cv-00077 TSZ
PLAINTIFF'S OPPOSITION TO
STAFNE'S SECOND MOTION TO
DISMISS

)

)

15
16
17

18

SCOTT STAFNE, an individual; Todd Stafne, an~
individual ; and REAL TIME RESOLUTIONS, )
Inc. , a Texas corporation,
)
)
)
Defendants.
)

19
20
21

22
23

24
25
26
27
BNYM'S OPP. TO STAFNE' S SECOND MOT. TO DISMISS
(2: l 6-cv-00077-TSZ)

Davis Wright Tremaine LLP
LAW OFFICES

Suite 2200
120 I l'hird A,,enue
Seaulc. WA 98 101-3045
206.622.3150 main · 206. 757. 7700 fax

Case 2:16-cv-00077-TSZ Document 53 Filed 07/18/16 Page 2 of 18
A 162
TABLE OF CONTENTS

Page(s)

2
3
4
5
6
7
8

I.

INTRODUCTION AND SUMMARY OF ARGUMENT .................................................... 2

II.

ARGUMENT........................................................................................................................ 2
A.

Standard of Review .......................................................................................................... 2

B.

Stafne 's Motion is Better Addressed in the Context of the Pending Motions .................. 3

C.

Stafne 's Declaration Does Not Support His Motion and Is Fictitious .............................. 4

III.

CONCLUSION ................................................................................................................ 6

9

10
11

12
13

14
15

16
17

18
19

20
21
22
23
24
25
26
27
PLAINTIFF'S OPP. TO STAFNE'S SECOND MOT. TO DISMISS
(2: l 6-cv-00077-TSZ) - I

Davis Wright Tremaine LLP
LAW OFFICES

Suite 2200
120 I l'hird A,,enue
Seaulc. WA 98 101-3045
206.622.3150 main · 206. 757. 7700 fax

Case 2:16-cv-00077-TSZ Document 53 Filed 07/18/16 Page 3 of 18
A 163

I.

2
3

INTRODUCTION AND SUMMARY OF ARGUMENT

Defendant Scott Stafne's Second Motion to Dismiss duplicates his pending Motion to

4

Prove Authority and implicates Plaintiff's pending Motion to Substitute. This motion is a waste

5

of the parties' and the Court's resources. The Court should deny Stafne's Motion because the

6
7

8
9
10
11

12

issues therein are already addressed in motions already pending before the Court. Specifically:
First, Stafne's first " issue" implicates P1aintiff BNYM's standing to bring this action
against Stafne. Plaintiff has already filed a Motion to Substitute, which is fully briefed and
pending before this Court. Dkts. 36 - 39-7. Additionally, The Bank of New York Mellon
("BONY") has ratified BNYM's ability to bring this action on its behalf See Dkt. 39, Fay
Janati Deel., ,i 12. Stafne's Second Motion to Dismiss adds nothing to the current briefing.

Second, Stafne's second " issue" implicates DWT's ability to represent the Plaintiff in

13

this action. Stafne has already filed a Motion to Prove Authority, which is fully briefed and

14

pending before this Court. Dkts. 28 - 29-7, 32-34. Again, Stafne's Second Motion to Dismiss

15

adds nothing to the current briefing.

16

Third, Stafne's third " issue" challenges Nationstar 's authority to act as attorney of fact

17

for BNYM and bring this action. This issue ag,tin implicates BNYM's standing to bring this

18

action against Stafne, which again is an issue pending before this Court in Plaintiff's Motion to

19

Substitute, Dkt. 36, and again has been ratified by BONY, Dkt. 39, ,r 12. (In any event, as

20
21

noted in prior briefing, Nationstar has received annual Powers ofAttorney, and attached hereto
as Exhibit l is a copy of the intervening period between August 20 15 and June 2016.)
II.

22

ARGUMENT

23

A.

24

Under a Rule 12(b)(l) motion to dismiss, the Court assumes the material facts alleged

25

in the complaint are true. Savage v. Glendale Union High Sch., Dist. No. 205, Maricopa Cty.,

26

343 F.3d 1036, 1039 n. l (9th Cir. 2003); Orsay v. United States Dep 't ofJustice, 289 F.3d 1125,

27

1127 (9th Cir. 2002); Leite v. Crane Co., 749 F.3d 1117, 1121 (9th Cfr. 2014) ("the plaintiff's

Standard of Review

PLAINTIFF' S OPP. TO STAFNE' S SECOND MOT. TO DISMISS
(2: l 6-cv-00077-TSZ) - 2

Davis Wright Tremaine LLP
LAW OFFICES

Suite 2200
120 I l"hird A,,enue
Seaulc. WA 98 101-3045
206.622.3150 main · 206. 757. 7700 fax

Case 2:16-cv-00077-TSZ Document 53 Filed 07/18/16 Page 4 of 18
A 164
factual allegations will ordinarily be accepted as true unless challenged by the defendant"
2

(citing 5C Charles Alan Wright & Arthur R. Miller, Federal Prac. & Procedure§ 1363, at 107

3

(3d ed. 2004))). Plaintiff bears the burden of proving by a preponderance of the evidence that

4

each of the requirements for subject-matter jurisdiction bas been met. Leite, 749 F.3d at 1121.

5

B.

6

Stafne's Second Motion to Dismiss was filed June 30, 2016 and bas a noting date of

Stafne's Motion is Better Addressed in the Context of the Pending Motions.

7

July 22, 2016. See Dkt. 42. In contrast, Stafne's Motion to Prove Authority was filed June 2,

8

2016, and is fully briefed before this Court, with a noting date of June 17, 2016. Dkts. 28 - 29-

9

7, 32-34. Likewise, Plaintiff's Motion to Substitute was filed June 24, 2016, and is fully

1O
11

briefed before this Court, with a noting date of July 15, 2016. Dkts. 36 - 39-7.
Stafne alleges that he does not intend to duplicate the above motions, see Mot. at 9, but

12

then proceeds to quote Plaintiff's Motion to Substitute at length and argues DWT does not have

13

authority to act as attorneys for Plaintiff. Id. at 9-1 O; see also id. at 11 ("In summary, DWT's

14

motion to substitute parties ... demonstrate[s] that these attorneys at law who actually

15

represented only Nationstar had no contact with BONY or BNYM or any of their affiliates or

16

related entities before suing Stafne."). In particular, Stafne goes on to question Nationstar's

17

POA (a new version of which was attached to the Janati Deel., see Dkt. 39, Ex. A, and an

18

intervening POA is attached hereto), and to argue that because Nationstar is an independent

19

contractor under the POA it cannot retain DWT on behalf of the Trust. Id. at 12-13. Stafne

20

argues the POA only gives Nationstar ... the power to foreclose; not the power to invoke this

21

Court's diversity jurisdiction pursuant to 28 USC 1332." Mot. at 13; id. at 14.

22

Stafne's argument is nonsensical and not supported in law or fact. Worse, these

23

arguments are duplicative of the briefings already before the Court. Stafne does not articulate a

24

basis for why diversity jurisdiction allegedly does not exist, nor can he. Similarly, be does not

25

allege how either Nationstar or DWT could have manipulated diversity jurisdiction. As

26

detailed in Plaintiff's Motion to Substitute, both BNYM and BONY are diverse from all

27
PLAINTIFF' S OPP. TO STAFNE' S SECOND MOT. TO DISMISS
(2: l 6-cv-00077-TSZ) - 3

Davis Wright Tremaine LLP
LAW OFFICES

Suite 2200
120 I l'hird A,,enue
Seaulc. WA 98101-3045
206.622.3150 main · 206. 757. 7700 fax

Case 2:16-cv-00077-TSZ Document 53 Filed 07/18/16 Page 5 of 18
A 165
defendants and the amount in controversy exceeds $75,000. And as also noted in Plaintiff's
2

Motion to Substitute, an attorney-in-fact cannot file a lawsuit in its own name. Dkt. 36 at 8 n.4

3

(citing Choi v. Kim , 50 F.3d 244, 247 (3d Cir. 1995); Nat'! Ins. Underwriters, by Nat. Aviation

4

Underwriters v. Mark, 704 F. Supp. 1033, 1035 (D. Colo. 1989)).

5

C.

6

It is unclear why Stafne filed a declaration in support of his Second Motion to Dismiss

Stafne's Declaration Does Not Support His Motion and Is Fictitious.

7

when its only purpose was to accuse Burnside of taking "advantage of [his] diabetic condition"

8

by conducting Mr. Stafne's deposition that went longer than scheduled. Dkt. 43 ,i 4. This

9

assertion is false.

10

First, Stafne had multiple op!)Jortunities throughout his deposition to take a break and

11

the deposition was concluded as soon as Burnside became aware of Stafue's diabetic condition:

12

Q. (By Mr. Burnside) We 've been at it for almost an hour, if you want to break
now, otherwise I've got -A. No, I can go on. I want to give you as much time as possible unless I have
to go to the bathroom.
Q. Understood. I appreciate that.

13
14
15
16
17
18
19
20
21
22
23
24
25
26

Declaration of Fred Burnside, Ex. A at 41:9-14.
Q. I'm sort of at a natural breaking point right now if you want to take a break,
otherwise I can dive into the next substantive areas of inquiry, whatever you
prefer.
A. Let's dive in.
MS. BUGAIGHIS: Could I take a break though?
THE WITNESS: Then I'll take one too.
(Recess 2:06 p.m. to 2: 17 p.m.)

Id. at 55:20-56:2.
Q. MR. BURNSIDE: Sure. Do you want to take a break now?
A. THE WITNESS: If you don't mind.
Q. MR. BURNSIDE: Go for it.
(Recess 4:20 p.m. to 4:26 p.m.)

Id. at 147:24-148:3.
Q. (By Mr. Burnside) Showing you what's been marked as Exhibit 14.

27
PLAINTIFF' S OPP. TO STAFNE' S SECOND MOT. TO DISMISS
(2: l 6-cv-00077-TSZ) - 4

Davis Wright Tremaine LLP
LAW OFFICES

Suite 2200
120 I l'hird A,,enue
Seaulc. WA 98 101-3045
206.622.3150 main · 206. 757. 7700 fax

Case 2:16-cv-00077-TSZ Document 53 Filed 07/18/16 Page 6 of 18
A 166

2
3
4
5
6

7

8
9
10
11

12

13
14

15
16
17
18
19

20
21

22
23

A. I can't believe that that was accepted. Fred, you know, I'm wondering, what
time is it?
Q. It's 5:00 o'clock.
A. I'm happy to go longer. I think I want to stop. This is really kind of -Q. Eye opening?
A. Well, emotionally. I was able to just go on and not even notice my
emotions, which I usually can do. But this makes a whole big difference in how
I'm looking at this.
Q. Well, let me ask you this.
A. And I'm happy to come back and do this again.
Q. We can suspend the deposition and resume it later -A. Sure.
Q. -- with the idea that it's not complete, we're not saying it's over.
A. Yeah, I know.
Q. Do you have time to go through just a couple more documents?
A. Sme. And especially those you think might help me better understand what
has happened.

Id. at 179:7-180:8
MS. FALLGATTER: Can we take a break so I can make a call or two?
MR. BURNSIDE: Sure.
(Recess 5: 11 p.m. to 5: 14 p.m.)

Id. at 184:14-17.
MS. FALLGATTER: Can we go off the record for a second.
MR. BURNSIDE: Yes.
(Discussion off the record.)
MR. BURNSIDE: We are suspending the deposition as a result of it's 6: 10 and
Mr. Stafue has some diabetes related issues that require him to take a break and
get some food in him, to make him feel better. And we're going to resume the
deposition at a subsequent date that works for both of us. And I will
communicate with Mr. Stafne in advance to coordinate that and any documents
that might be needed.
(Signature reserved.)
(Deposition adjourned at 6: 12 p.m.)

Id. at 222:23-223:ll.
Secom/, Stafue admitted he should have stopped the deposition of his own voliti on

24

earlier. The day after Stafne's deposition, Stafne sent an email to Burnside stating that he

25

"should have stopped the deposition at 5:00 pm" and that "my brother and his counsel found

26
27
PLAINTIFF' S OPP. TO STAFNE' S SECOND MOT. TO DISMISS
(2: l 6-cv-00077-TSZ) - 5

Davis Wright Tremaine LLP
LAW OFFICES

Suite 2200
120 I l'hird A,,enue
Seaulc. WA 98 101-3045
206.622.3150 main · 206. 757. 7700 fax

Case 2:16-cv-00077-TSZ Document 53 Filed 07/18/16 Page 7 of 18
A 167
you charming and questioned the language of my blog [referring to you as loathsome and
2
3
4

soulless.]" Burnside Deel., Ex. B.
Thus, Stafue manufactured his assertion that Burnside of took "advantage of [his]
diabetic condition."

III.

5
6

CONCLUSION

For the foregoing reasons, the Court should deny Stafne's Second Motion to Dismiss.

7

8

DATED this 18th day of July, 2016.

9

Davis Wright Tremaine LLP
Attorneys for Plaintiff

10
11

By sl Zana Z. Bugaighis
Fred B. Burnside, WSBA #32491
Zana Z. Bugaighis, WSBA #43614
1201 Third Avenue, Suite 2200
Seattle, WA 98101-3045
Telephone: 206.622.3150
E-mai I: fredbumside@dwt.com
E-mail: zanabugaighis@dwt.com

12

13
14
15
16

17
18
19
20
21
22
23
24
25
26

27
PLAINTIFF'S OPP. TO STAFNE' S SECOND MOT. TO DISMISS

(2: l 6-cv-00077-TSZ) - 6

Davis Wright Tremaine LLP
LAW OFFICES

Suite 2200
120 I l'hird A,,enue
Seaulc. WA 98 101-3045
206.622.3150 main · 206. 757. 7700 fax

Case 2:16-cv-00077-TSZ Document 53 Filed 07/18/16 Page 9 of 18
A 168

EXHIBIT 1

Case 2:16-cv-00077-TSZ Document 53 Filed 07/18/16 Page 10 of 18
A 169

AFTER RECORDING RETURN TO
ATIN:POA
4000 Horizon Way
Irving, TX 75063

LIMITED POWER OF ATTORNEY
KNOW ALL MEN BY THESE PRESENTS, that the undersigned, THE BANK OF NEW YORK MELLON
F/K/A THE BANK OF NEW YORK as successor in interest to JP Morgan Chase Bank, N.A. having an office
at 101 Barclay Street, NYC, NY 10286 {the "Bank"), hereby appoint Nationstar Mortgage LLC, to be the Bank's
true and lawful Attorneys-in-Fact (the "Attorneys") to act in the name, and on behalf, of the Bank with power to
do only the following in connection with the trusts included on Schedule A, on behalf of the Bank:
1.
The modification or re-recording of a Mortgage or Deed of Trust, where said
modification or re-recordings is for the purpose of correcting the Mortgage or Deed of Trust to conform same to
the original intent of the parties thereto or to correct title errors discovered after such title insurance was issued
and said modification or re-recording, in either instance, does not adversely affect the lien of the Mortgage or
Deed of Trust as insured.

2.
The subordination of the lien of a Mortgage or Deed of Trust to an easement in favor of
a public utility company of a government agency or unit with powers of eminent domain; this section shall include,
without limitation, the execution of partial satisfactions/releases, partial reconveyances or the execution or
requests to trustees to accomplish same.
3.
The conveyance of the properties to the mortgage insurer, or the closing of the title to
the property to be acquired as real estate owned, or conveyance of title to real estate owned.
4.

The completion of loan assumption agreements and modification agreements.

5.
The full or partial satisfaction/release of a Mortgage or Deed of Trust or full conveyance
upon payment and discharge of all sums secured thereby, Including, without limitation, cancellation of the related
Mortgage Note.
6.
The assignment of any Mortgage or Deed of Trust and the related Mortgage Note, in
connection with the repurchase of the mortgage loan secured and evidenced thereby.
7.
The full assignment of a Mortgage or Deed of Trust upon payment and discharge of all
sums secured thereby in conjunction with the refinancing thereof, including, without limitation, the assignment of
the related Mortgage Note.
8.
With respect to a Mortgage or Deed of Trust, the foreclosure, the taking of a deed in
lieu of foreclosure, or the completion of judicial or non-judicial foreclosure or termination, cancellation or recession
of
termination, cancellation or rescission of any such foreclosure, including, without limitation, any and all of the
following acts:
a.
the substitution of trustee(s) serving under a Deed of Trust, in accordance with
state law and the Deed of Trust;

b.

the preparation and issuance of statements of breach or non-performance;

c.

the preparation and filing of notices of default and/or notices of sale;

d.

the cancellation/rescission of notices of default and/or notices of sale;

Case 2:16-cv-00077-TSZ Document 53 Filed 07/18/16 Page 11 of 18
A 170

ACKNOWLEDGEMENT

STATE OF NEW YORK

§

COUNTY OF QUEENS

§

On the 5th day of June in the year 2015 before me, the undersigned,
personally appeared Loretta A. Lundberg and Gavin Tsang, known to be or proved to me on
the basis of satisfactory evidence to be the Managing Director and Vice President,
respectively of The Bank of New York Mellon, as Trustee and acknowledged that they
executed the same as their free act and deed and the free act and deed of the Trustee.

Subscribed and swa : :;·~
NOTARY PUBLIC

I

My Commission expires
MA:=i"ADELC. '!Tl\
Not&n; Pu~!"G, SL te oi fl.'~"' Yorl<
No.01, 16278~7
Qu "if:xl ·n Queens Coun·y
Commi.,_.J:i Ex;:,lrss March 25, 2017

Case 2:16-cv-00077-TSZ Document 53 Filed 07/18/16 Page 12 of 18
A 171
e.

the taking of a deed in lieu of foreclosure; and

the preparation and execution of such other documents and performance of
f.
such other actions as may be necessary under the terms of the Mortgage, Deed of Trust or state
law to expeditiously complete said transactions in paragraphs 8.a. through 8.e., above; and
to execute any other documents referred to in the above-mentioned documents
9.
or that are ancillary or related thereto or contemplated by the provisions thereof; and
to do all things necessary or expedient to give effect to the aforesaid documents including, but not limited to,
completing any blanks therein, making any amendments, alterations and additions thereto, to endorse which may
be considered necessary by the Attorney, to endorse on behalf of the Trustee all checks, drafts and/or negotiable
instruments made payable to the Trustee in respect of the documents, and executing such other documents as
may be considered by the Attorney necessary for such purposes.
The relationship of the Bank and the Attorney under this Power of Attorney is intended by the parties to
be that of an independent contractor and not that of a joint venturer, partner, or agent.
This Power of Attorney is effective for one (1) year from the date hereof or the earlier of (i)
revocation by the Bank, (ii) the Attorney shall no longer be retained on behalf of the Bank or an affiliate of the
Bank; or (iii) the expiration of one year from the date of execution.
The authority granted to the Attorney by the Power of Attorney is not transferable to any
other party or entity.
This Agreement shall be governed by, and construed in accordance with, the laws of the State of New
York without regard to its conflicts of law principles.
All actions heretofore taken by said Attorney, which the Attorney could properly have taken pursuant to
this Power of Attorney, be, and hereby are, ratified and affirmed.

IN WITNESS WHEREOF, The Bank of New York Mellon f/k/a The Bank of New York successor in interest to
JPMorgan Chase Bank, National Association as Trustee pursuant to the Pooling and Servicing Agreements listed on
Schedule A hereto attached and these present to be signed and acknowledged in its name and behalf by Lor etta A.
Lundberg and Gavin Tsang its duly elected and authorized Managing Director and Vice President this 5th day of
June, 2015.

The Bank of New York Mellon, f / k/ a The Bank of New
York, successor in interest to JPMorgan Chase Bank,
N.A. as Trustee or the ecuritizations listed on
ScheduleA
~

/

By:

Name:
Title:
I,

By:
Name:
Title:

Printed Name: Edward Cofie

Witness:

Case 2:16-cv-00077-TSZ Document 53 Filed 07/18/16 Page 13 of 18
A 172
SCHEDULE A
BSABS 2006-SD1

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., AS
TRUSTEE FOR THE BEAR STEARNS ASSET BACKED SECURITIES
TRUST, ASSET-BACKED CERTIFICATES, SERIES 2006-SD1

BSABS 2004-SD1

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., AS
TRUSTEE FOR THE BEAR STEARNS ASS ET BACKED SECURITIES
TRUST, ASSET-BACKED CERTIFICATES, SERIES 2004-SD1

BSABS 2005-SD3

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., AS
TRUSTEE FOR T HE BEAR STEARNS ASSET BACKED SECURITIES
TRUST, ASSET-BACKED CERTI FICATES, SERI ES 2005-SD3

BSABS 2003-SD2

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTE E TO JPMORGAN CHASE BANK, N.A. , AS
TRUSTEE FOR T HE BEAR STEARNS ASSET BACKED SECURITIES
TRUST, ASSET-BACKED CERTIFICATES, SERI ES 2003-SD2

BSABS 2003-SD3

T HE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YOR K
SUCC ESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., AS
TRUSTEE FOR THE BEAR STEARNS ASSET BACKED SECURITIES
TRUST, ASSET-BACKED CERTIFICATES, SERIES 2003-SD3

BSABS 2004-SD2

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., AS
TRUSTEE FOR THE BEAR STEARNS ASSET BACKED SECURITIES
TRUST, ASSET-BACKED CERTIFICATES, SERIES 2004-SD2

BSARM 2002-11

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A. , FKA
BANK ONE, NATIONAL ASSOCIATION AS TRUSTEE FOR THE BEAR
STEARNS ARM TRUST, MORTGAGE PASS-THROUGH CERTIFICATES
SERIES 2002-1 1

BSARM 2003-1

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A. , FKA
BANK ONE, NATIONAL ASSOCIATION AS TRUSTEE FOR THE BEAR
STEA RNS ARM TRUST, MORTGAGE PASS-THROUGH CERTIFICATES
SERIES 2003-1

BSARM 2003-3

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A. , FKA
BANK ONE, NATIONAL ASSOCIATION AS TRUSTEE FOR THE BEAR
STEARNS ARM TRUST, MORTGAGE PASS-THROUGH CERTIFICATES
SERIES 2003-3

Case 2:16-cv-00077-TSZ Document 53 Filed 07/18/16 Page 14 of 18
A 173
BSARM 2003-4

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A. , FKA
BANK ONE, NATIONAL ASSOCIATION AS TRUSTEE FOR THE BEAR
STEARNS ARM TRUST, MORTGAGE PASS-THROUGH CERTIFICATES
SERIES 2003-4

BSARM 2003-5

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., FKA
BANK ONE, NATIONAL ASSOCIATION AS TRUSTEE FOR THE BEAR
STEARNS ARM TRUST, MORTGAGE PASS-THROUGH CERTIFICATES
SERIES 2003-5

BSARM 2003-6

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., FKA
BANK ONE, NATIONAL ASSOCIATION AS TRUSTEE FOR THE BEAR
STEARNS ARM TRUST, MORTGAGE PASS-THROUGH CERTIFICATES
SERIES 2003-6

BSARM 2003-8

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., FKA
BANK ONE, NATIONAL ASSOC IATION AS TRUSTEE FOR THE BEA R
STEARNS ARM TRUST, MORTGAGE PASS-THROUGH CERTI FICATES
SERIES 2003-8

BALTA 2006-1

THE BA NK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TIRUSTEE TO JPMORGAN CHASE BANK, N.A. , AS
TRUSTEE FOR THE STRUCTURED ASSET MORTGAGE
INVESTMENTS II INC. BEAR STEARNS ALT-A TRUST, MORTGAGE
PASS-THROUGH CERTIFICATES, SERIES 2006-1

BALTA 2004-4

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., AS
TRUST EE FOR THE STRUCTURED ASSET MORTGAGE
INVESTMENTS II INC. BEAR STEARNS ALT-A TRUST, MORTGAGE
PASS-THROUGH CERTIFICATES, SERIES 2004-4

BALTA 2004-12

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A. , AS
TRUSTEEFORTHESTRUCTUREDASSETMORTGAGE
INVESTMENTS II INC. BEAR STEARNS ALT-A TRUST, MORTGAGE
PASS-THROUGH CERTIFICATES, SERIES 2004-12

BALTA 2003-6

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., AS
TRUSTEE FOR THE STRUCTURED ASSET MORTGAGE
INVESTMENTS II INC. BEAR STEARNS ALT-A TRUST, MORTGAGE
PASS-THROUGH CERTIFICATES SERIES 2003-6

Case 2:16-cv-00077-TSZ Document 53 Filed 07/18/16 Page 15 of 18
A 174
BALTA 2004-10

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., AS
TRUSTEE FOR THE STRUCTURED ASSET MORTGAGE
INVESTMENTS II INC. BEAR STEARNS ALT-A TRUST, MORTGAGE
PASS-THROUGH CERTIFICATES, SERIES 2004-10

BALTA 2004-11

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., AS
TRUSTEE FOR THE STRUCTURED ASSET MORTGAGE
INVESTMENTS II INC. BEAR STEARNS ALT-A TRUST, MORTGAGE
PASS-THROUGH CERTIFICATES, SERIES 2004-11

BALTA 2004-2

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., AS
TRUSTEE FOR THE STRUCTURED ASSET MORTGAGE
INVESTMENTS II INC. BEAR STEARNS ALT-A TRUST, MORTGAGE
PASS-THROUGH CERTIFI CATES, SERIES 2004-2

BALTA 2004-5

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A. , AS
TRUSTEE FOR THE STRUCTURED ASSET MORTGAGE
INVESTMENTS II INC. BEAR STEARNS ALT-A TRUST, MORTGAGE
PASS-THROUGH CERTIFICATES, SERIES 2004-5

BALTA 2004-7

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., AS
TRUSTEEFORTHESTRUCTUREDASSETMORTGAGE
INVESTMENTS II INC. BEAR STEARNS ALT-A TRUST, MORTGAGE
PASS-THROUGH CERTIFICATES, SERIES 2004-7

BALTA 2004-8

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TIRUSTEE TO JPMORGAN CHASE BANK, N.A., AS
TRUSTE E FOR THE STRUCTURED ASSET MORTGAGE
INVESTMENTS II INC. BEAR STEARNS ALT-A TRUST, MORTGAGE
PASS-THROUGH CERTIFICATES, SERIES 2004-8.

BALTA 2004-9

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., AS
TRUSTEEFORTHESTRUCTUREDASSETMORTGAGE
INVESTMENTS II INC. BEAR STEARNS ALT-A TRUST, MORTGAGE
PASS-THROUGH CERTIFICATES, SERIES 2004-9

BALTA 2005-2

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A. , AS
TRUSTEE FOR THE STRUCTURED ASSET MORTGAGE
INVESTMENTS II INC. BEAR STEARNS ALT-A TRUST, MORTGAGE
PASS-THROUGH CERTIFICATES SERIES 2005-2

Case 2:16-cv-00077-TSZ Document 53 Filed 07/18/16 Page 16 of 18
A 175
BALTA 2005-7

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A. , AS
TRUSTEE FOR THE STRUCTURED ASSET MORTGAGE
INVESTMENTS II INC. BEAR STEARNS ALT-A TRUST, MORTGAGE
PASS-THROUGH CERTIFICATES, SERIES 2005-7

BALTA 2005-9

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., AS
TRUSTEE FOR T HE STRUCTURED ASSET MORTGAGE
INVESTMENTS II INC. BEAR STEARNS ALT-A TRUST, MORTGAGE
PASS-THROUGH CERTIFICATES, SERIES 2005-9

BALTA 2006-1

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., AS
TRUSTEE FOR TH E STRUCTURED ASSET MORTGAGE
INVESTMENTS II INC. BEAR STEA RNS ALT-A TRUST, MORTGAGE
PASS-THROUGH CERTIFICATES, SERI ES 2006-1

BALTA 2006-2

TH E BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR T RUSTEE TO JPMORGAN CHASE BAN K, N.A., AS
TRUSTEE FOR T HE STRUCTURED ASSET MORTGAGE
INVESTMENTS II INC. BEAR STEARNS ALT-A TRUST, MORTGAGE
PASS-THROUGH CERTIFICATES , SERIES 2006-2

SAMI 2003-AR1

T HE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A. , AS
TRUSTEE FOR THE STRUCTURED ASSET MORTGAGE
INVESTMENTS II TRUST, MORTGAGE PASS-THROUGH
CERTIFICATES, SERIES 2003-AR1

SAMI 2003-AR4

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., AS
TRUSTEE FOR THE STRUCTURED ASSET MORTGAGE
INVESTMENTS II TRUST, MORTGAGE PASS-THROUGH
CERTIFICATES, SERIES 2003-AR4

SAMI 2004-AR2

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A. , AS
TRUSTEEFORTHESTRUCTUREDASSETMORTGAGE
INVESTMENTS II TRUST, MORTGAGE PASS-THROUGH
CERTIFICATES, SERIES 2004-AR2

SAMI 2004-AR3

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A. , AS
TRUSTEEFORTHESTRUCTUREDASSETMORTGAGE
INVESTMENTS II TRUST, MORTGAGE PASS-THROUGH
CERTIFICATES, SERIES 2004-AR3

Case 2:16-cv-00077-TSZ Document 53 Filed 07/18/16 Page 17 of 18
A 176
SAMI 2004-AR4

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., AS
TRUSTEE FOR THE STRUCTURED ASSET MORTGAGE
INVESTMENTS II TRUST, MORTGAGE PASS-THROUGH
CERTIFICATES, SERIES 2004-AR4

SAMI 2004-ARS

THE BAN K OF NIEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A. , AS
TRUSTEE FOR THE STRUCTURED ASSET MORTGAGE
INVESTMENTS II TRUST, MORTGAGE PASS-THROUGH
CERTIFICATES, SERIES 2004-ARS

SAMI 2004-AR6

THE BANK OF NEW YORK MELLON FKA TH E BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A. , AS
TRUSTEE FORTHE STRUCTUREDASSETMORTGAGE
INVESTMENTS II TRUST, MORTGAGE PASS-THROUG H
CERTIFICATES, SERI ES 2004-AR6

SAMI 2004-AR?

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., AS
TRUSTEE FORTHE STRUCTURED ASSETMO RTGAG E
INVESTMENTS II TRUST, MORTGAGE PASS-THROUGH
CERTIFI CATES, SERIES 2004-AR?

SAMI 2004-ARB

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A. , AS
TRUSTEE FOR THE STRUCTURED ASSET MORTGAGE
INVESTMENTS II TRUST, MORTGAGE PASS-THROUGH
CERTIFICATES, SERIES 2004-ARB

SAMI 2005-AR1

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., AS
TRUSTEEFORTHESTRUCTUREDASSETMORTGAGE
INVESTMENTS II TRUST, MORTGAGE PASS-THROUGH
CERTIFICATES, SERIES 2005-AR1

SAMI 2005-AR2

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A. , AS
TRUSTEE FOR THE STRUCTURED ASSET MORTGAGE
INVESTMENTS II TRUST, MORTGAGE PASS-THROUGH
CERTIFICATES,, SERIES 2005-AR2

SAMI 2005-AR4

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A. , AS
TRUSTEE FOR THE STRUCTURED ASSET MORTGAGE
INVESTMENTS II TRUST, MORTGAGE PASS-THROUGH
CERTIFICATES, SERIES 2005-AR4

SAMI 2005-AR6

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., AS
TRUSTEE FOR THE STRUCTURED ASSET MORTGAGE
INVESTMENTS II TRUST, MORTGAGE PASS-THROUGH
CERTIFICATES, SERIES 2005-AR6

Case 2:16-cv-00077-TSZ Document 53 Filed 07/18/16 Page 18 of 18
A 177
SAMI 2005-AR7

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., AS
TRUSTEEFORTHESTRUCTUREDASSETMORTGAGE
INVESTMENTS II TRUST, MORTGAGE PASS-THROUGH
CERTIFICATES, SERIES 2005-AR7

SAMI 2005-AR8

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., AS
TRUSTEEFORTHESTRUCTUREDASSETMORTGAGE
INVESTMENTS II TRUST, MORTGAGE PASS-THROUGH
CERTIFICATES, SERIES 2005-AR8

SAMI 2006-AR1

THE BANK OF NEW YORK MELLON FKA TH E BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., AS
TRUSTEE FOR THE STRUCTURED ASSET MORTGAGE
INVESTMENTS II TRUST, MORTGAGE PASS-THROUGH
CERTI FICATES, SERIES 2006-AR1

SAMI 2006-AR2

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., AS
TRUSTEE FOR THE STRUCTURED ASSET MO RTGAGE
INVESTMENTS II TRUST, MORTGAGE PASS-THROUGH
CERTIFICATES , SERIES 2006-AR2

SAMI 2006-AR3

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A. , AS
TRUSTEE FOR THE STRUCTURED ASSET MORTGAGE
INVESTMENTS II TRUST, MORTGAGE PASS-T HROUGH
CERTIFICATES, SERIES 2006-AR3

SAMI 2006-AR4

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., AS
TRUSTEE FOR THE STRUCTURED ASSET MORTGAGE
INVESTMENTS II TRUST, MORTGAGE PASS-THROUGH
CERTIFICATES, SERIES 2006-AR4

SAMI 2006-AR6

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A. , AS
TRUSTEE FOR THE STRUCTURED ASSET MORTGAGE
INVESTMENTS II TRUST, MORTGAGE PASS-THROUGH
CERTIFICATES,, SERIES 2006-AR6

SAMI 2006-AR7

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A. , AS
TRUSTEEFORTHESTRUCTUREDASSETMORTGAGE
INVESTMENTS II TRUST, MORTGAGE PASS-THROUGH
CERTIFICATES, SERIES 2006-AR7

SAMI 2006-AR8

THE BANK OF NEW YORK MELLON FKA THE BANK OF NEW YORK
SUCCESSOR TRUSTEE TO JPMORGAN CHASE BANK, N.A., AS
TRUSTEE FOR THE STRUCTURED ASSET MORTGAGE
INVESTMENTS II TRUST, MORTGAGE PASS-THROUGH
CERTIFICATES, SERIES 2006-AR8

Case 2:16-cv-00077-TSZ Document 48 Filed 07/11/16 Page 1 of 22
APPENDIX 34
A 178
THE HONORABLE THOMAS S. ZILLY

1
2
3
4
5
6

UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

7
8
9
10
11
12
13
14
15

BANK OF NEW YORK MELLON, a
Delaware corporation, as trustee for
STRUCTURED ASSET MORTGAGE
INVESTMENTS II TRUST, MORTGAGE
PASS-THROUGH CERTIFICATES SERIES
2005-AR2,

16

PLAINTIFF,
v.

17
18
19

SCOTT STAFNE, an individual; TODD
STAFNE, an individual; and REAL TIME
RESOLUTIONS, Inc., a Texas corporation,

20

DEFENDANTS.

21

CASE NO. 2:16-cv-00077-TSZ

DEFENDANT SCOTT STAFNE’S
DECLARATION IN SUPPORT OF HIS
RESPONSE TO PLAINTIFF’S MOTIONS
TO SUBSTITUTE PARTIES PURSUANT
TO REAL PARTY IN INTEREST
PURSUANT TO FED. R. CIV. P. 17(a)(3)
AND TO COMPEL DISCOVERY
NOTED: July 15, 2016

22
23
24
25

DECLARATION
1. My Name is Scott Erik Stafne. I am over the age of majority and competent to give

26

this declaration.

DEFENDANT SCOTT STAFNE’S DECLARATION IN
SUPPORT OF HIS RESPONSE TO PLAINTIFF’S
MOTIONS TO SUBSTITUTE PARTIES PURSUANT TO
REAL PARTY IN INTEREST PURSUANT TO FED. R.
CIV. P. 17(a)(3) AND TO COMPEL DISCOVERY
Page - 1

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 48 Filed 07/11/16 Page 2 of 22

1

A 179
2. I am an attorney licensed to practice law before this Court. I am also a defendant and

2

counterclaimant in this action. I make this affidavit on the basis of personal knowledge

3

as more fully appears herein.

4

3. I also make this declaration in my capacity as an attorney and invoke all those rights

5

attorneys customarily have to make declarations and present evidence on behalf of

6
7
8

their clients, notwithstanding that I am appearing pro se.
4. Further, it is my intent to testify as an expert where appropriate pursuant to FRE 702,
703, and 704 based on my knowledge, skill, experience, training, and education as will

9

be more fully developed herein.

10
11

5. The purpose of this declaration is to provide testimony and evidence responsive to

12

Davis Wright Tremaine, LLC’s (DWT) motions (1) “to substitute real party in interest

13

pursuant to Fed. R. Civ. Pro. 17(a)(3)”, Dkt. 36 (Motion to Substitute), and (2) “to

14
15
16

compel discovery.” Dkt. 40 (Motion to Compel).
6. I am filing one declaration in response to both the Motion to Substitute and the Motion
to Compel. My refusal to provide discovery is based on DWT’s Motion to Substitute

17
18

and supporting documents, which contain judicial admissions that it does not

19

represent the Plaintiff identified in the Complaint as “Bank of New York Mellon, a

20

Delaware corporation.” Further, that the purported plaintiff entity identified as “Bank

21

of New York Mellon, a Delaware corporation” in the Complaint does not own or have

22

any interest in the stale loan DWT has filed the instant Complaint to enforce.

23
24

7. Given this Court’s order establishing a trial schedule (Dkt. 23) (which precludes either

25

side from adding parties or amending their pleadings at this point) and DWT’s

26

admission that the present purported plaintiff has no standing to invoke this Court’s
jurisdiction I am hesitant to continue to make discovery. This reluctance stems from
DEFENDANT SCOTT STAFNE’S DECLARATION IN
SUPPORT OF HIS RESPONSE TO PLAINTIFF’S
MOTIONS TO SUBSTITUTE PARTIES PURSUANT TO
REAL PARTY IN INTEREST PURSUANT TO FED. R.
CIV. P. 17(a)(3) AND TO COMPEL DISCOVERY
Page - 2

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 48 Filed 07/11/16 Page 3 of 22
A 180
my belief that this case has been brought against me by lawyers who have an animus

1
2

against me because of my representation of homeowners. It is my belief that the

3

Constitution does not support federal courts being used as instrumentalities of abuse

4

by lawyers, who have no client, or have managed to solicit one, who has similar

5

interests, in attacking a lawyer based on a stale debt they have been able to acquire.

6

8. I will first testify about the evidence which shows that I have at all times contested the

7

standing and real party in interest status of the purported plaintiff “Bank of New York

8

Mellon, a Delaware corporation.” I will establish this because DWT claims in the

9
10

Motion to Substitute” that June 2, 2016 was the first time they first had notice that the

11

“Bank of New York Mellon, a Delaware corporation” was not the real party in

12

interest. Dkt 36, 38.

13

9. DWT should have learned from its client that “Bank of New York Mellon, a Delaware

14

corporation” was not the name of any “BNY Mellon” entity during its Rule 11

15

investigation of those facts necessary to prepare the complaint. For purposes of this

16

declaration I define “BNY Mellon in the same way as does Mr. Burnside in his

17
18

declaration in support of the Motion to Substitute. (Dkt 36) “BNY Mellon” means:

19

“The Bank of New York Mellon and all of its consolidated subsidiaries.”

20

10. I base my opinion set forth in the preceding paragraph on my experience, education,

21

and training, which includes practicing law in federal and state courts since 1974. In

22

the last four or five years I have actively been involved in representing debtors and

23

borrowers, frequently in foreclosure litigation. This latter experience reinforces my

24
25

opinion that DWT as a law firm purporting to represent a creditor seeking to enforce a

26

debt should have identified the proper name of the plaintiff it was representing before
filing a complaint as this is required by the FDCPA.
DEFENDANT SCOTT STAFNE’S DECLARATION IN
SUPPORT OF HIS RESPONSE TO PLAINTIFF’S
MOTIONS TO SUBSTITUTE PARTIES PURSUANT TO
REAL PARTY IN INTEREST PURSUANT TO FED. R.
CIV. P. 17(a)(3) AND TO COMPEL DISCOVERY
Page - 3

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 48 Filed 07/11/16 Page 4 of 22
A 181
7. Mr. Burnside’s description of the actions he took to verify that “Bank of New York

1
2

Mellon, a Delaware corporation” had standing and was the real party in interest for

3

purposes of preparing and filing this lawsuit (Dkt 38) reveal that he had no contact and

4

did not seek access to “Bank of New York Mellon, a Delaware corporation” before

5

preparing and filing this litigation against me on January 29, 2016 after the statute of

6

limitations on the note and/or deed of trust had expired. Had he attempted to contact

7

such an entity he would have learned it did not exist or have discovered its true name.

8
9
10

11. DWT filed a CORPORATE DISCLOSURE STATEMENT on January 26, 2016 which
stated:
Pursuant to Fed. R. Civ. P. 7.1,[1] Plaintiff New York Mellon Co., as trustee
for Structured Asset Mortgage Investments II Trust, Mortgage pass-through
Certificates Series 2005-AR2, makes this Corporate Disclosure Statement.

11
12
13

The Bank of New York Mellon, a Delaware corporation, is a publicly held
company. No corporations own 10% or more of its stock.

14

Dkt. 3, 1:18-22.

15
16
17
18
19

1

This federal rule states:
(a) Who Must File; Contents. A nongovernmental corporate party must file 2 copies of a disclosure
statement that:
(1) identifies any parent corporation and any publicly held corporation owning 10% or more of its
stock; or
(2) states that there is no such corporation.

20

(b) Time to File; Supplemental Filing. A party must:
(1) file the disclosure statement with its first appearance, pleading, petition, motion, response, or other
request addressed to the court; and
(2) promptly file a supplemental statement if any required information changes.

21
22
23
24
25
26

LCR 7.1 states:
(a) Who Must File; Copies
Any nongovernmental party, other than an individual or sole proprietorship, must file a corporate
disclosure statement identifying:
(1) any parent corporation and any publicly held corporation owning more than 10% of
its stock;
(2) any member or owner in a joint venture or limited liability corporation (LLC);
(3) all partners in a partnership or limited liability partnership (LLP); or
(4) any corporate member, if the party is any other unincorporated association
If there is no parent, shareholder, member, or partner to list in response to items (1) through (4), a
corporate disclosure statement must still be filed stating that no such entity exists.
DEFENDANT SCOTT STAFNE’S DECLARATION IN
SUPPORT OF HIS RESPONSE TO PLAINTIFF’S
MOTIONS TO SUBSTITUTE PARTIES PURSUANT TO
REAL PARTY IN INTEREST PURSUANT TO FED. R.
CIV. P. 17(a)(3) AND TO COMPEL DISCOVERY
Page - 4

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 48 Filed 07/11/16 Page 5 of 22

1

A 182
12. The following description of the proceedings before this Court are intended to show the

2

Court that I notified DWT early on that “Bank of New York Mellon, a Delaware corporation”

3

did not have standing or any real party in interest status to bring this lawsuit. Further this

4

description is intended to show some of the prejudice that I endured because DWT failed to

5

obtain information about the actual name of the plaintiff for whom it was purporting to

6
7
8
9

appear.
13. On January 29, 2016, this Court filed an Order Regarding Initial Disclosures, Joint
Status Report, and Early Settlement. The Order directs that a report be submitted to this Court

10

by March 29, 2016. Dkt. 7. This Order required counsel to confer together to produce a report

11

by March 29, 2016 which “must contain” among other things “1. A statement of the nature

12

and complexity of the case. 2. A proposed deadline for joining additional parties”. Id., p. 2.

13

14. On February 29, 2016, I filed a Motion to Dismiss for Lack of Subject Matter

14
15
16
17

Jurisdiction. Dkt 11. In this motion I argue “Bank of New York Mellon, a Delaware
corporation” has not adequately alleged its own citizenship to establish the existence of
diversity jurisdiction. Dkt. 7:13-9:4.

18

15. On March 12, 2016, DWT filed a response to my motion to dismiss. Dkt 12. In that

19

response DWT argued that BONY is not the trustee of the SAMI trust:

20

On September 15, 2006, the Office of the Comptroller of the Currency
approved Chase’s sale of its trustee operations for securitized trusts to
Bank of New York, a wholly owned subsidiary of Bank of New York
Mellon Corporation. After October 1, 2006, Chase was no longer trustee
or the holder of Stafne’s Note. Compl. ¶ 3.4. Bank of New York Mellon
Corporation—Plaintiff here—then assumed the role of trustee of the
SAMI Trust and Nationstar, as its attorney-in-fact, indorsed the Note to
Bank of New York Mellon as successor to JPMorgan in its capacity as
trustee for the SAMI Trust. See Compl. ¶ 3.4 & Attach. A at 4
(indorsement to Bank of New York Mellon, as successor trustee, but not
as BONY Trust). BNYM’s main office, headquarters, and principal place
of business are in New York. Id. ¶ 1.1.

21
22
23
24
25
26

DEFENDANT SCOTT STAFNE’S DECLARATION IN
SUPPORT OF HIS RESPONSE TO PLAINTIFF’S
MOTIONS TO SUBSTITUTE PARTIES PURSUANT TO
REAL PARTY IN INTEREST PURSUANT TO FED. R.
CIV. P. 17(a)(3) AND TO COMPEL DISCOVERY
Page - 5

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 48 Filed 07/11/16 Page 6 of 22
A 183
Dkt. 12, 2:13-21 (emphasis supplied).

1
2

22. The argument DWT made above in order to convince this Court that Bank of New

3

York Mellon, a Delaware corporation, had standing and was a real party in interest is

4

admitted to be false by DWT in its motion to substitute. Dkt. 36. There DWT

5

concedes:

6

BNYM now seeks to substitute BONY as Plaintiff under Rule 17(a)(3),
because although BONY is wholly owned by BNYM, further
investigation into the statements in Stafne’s June 2, 2016, declaration
confirms that it is the New York, rather than Delaware, corporation that
is the Bank of New York corporation that acts as Trustee for the Trust
owning Stafne’s loan (the Structured Asset Mortgage Investments II
Trust, Mortgage Pass-Through Certificates Series 2005-AR2 (“SAMI
Trust”)).

7
8
9
10
11

Dkt. 36, p. 1:25-2:3.

12
13

23. Notwithstanding that this Court had not ruled on my Motion to Dismiss, for lack of

14

subject matter jurisdiction, (and well before DWT moved to substitute parties) DWT,

15

counsel for my brother, Todd, and I filed a joint status report on March 29, 2016

16

(Dkt. 17). In that report, DWT stated: “this is an exceedingly simple case…Plaintiff

17

Bank of New York Mellon now seeks to foreclose on the Deed of Trust securing the

18

Note”. Id. 1:25-2:2. Further, DWT asserted: “plaintiff does not anticipate the need to

19

add additional parties. Plaintiff proposes April 29, 2016 as the deadline for adding

20

additional parties.” Id. 5:12-13 .

21
22

24. I proposed that if the Court assumed jurisdiction over the case, May 15, 2016 would
be an appropriate deadline for adding parties. Id. 5:18-21.

23
24

25. With regard to disclosures, I suggested the Court should first determine whether it had

25

jurisdiction over the case before entering a scheduling order regarding initial

26

disclosures. Id. 6:13-20.

DEFENDANT SCOTT STAFNE’S DECLARATION IN
SUPPORT OF HIS RESPONSE TO PLAINTIFF’S
MOTIONS TO SUBSTITUTE PARTIES PURSUANT TO
REAL PARTY IN INTEREST PURSUANT TO FED. R.
CIV. P. 17(a)(3) AND TO COMPEL DISCOVERY
Page - 6

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 48 Filed 07/11/16 Page 7 of 22

1

A 184
26. With regard to discovery DWT asserted: “Plaintiff does not expect extensive

2

discovery. Plaintiff intends to engage in discovery from Defendants as to each element

3

of its claims against Defendants and any defenses Defendants may raise.”

4

27.

5

If this Court retains jurisdiction, Scott Stafne intends to conduct
discovery related to plaintiff’s citizenship and standing to bring this
action. Further, Scott Stafne intends to conduct discovery to obtain
servicer’s records, including without limitation those monthly records
documenting collection efforts maintained during those periods the
loan was in default, which describe the entity’s activities in monitoring
delinquent loans (for example, phone calls, letters and mortgage
payment rescheduling plans in cases where the delinquency is deemed
temporary). Further, Scott Stafne intends to conduct discovery related
to charges for insurance, particularly its practices regarding its
determination of its insurable interest.

6
7
8
9
10
11
12
13

Dkt. 17 8:8-17
28. DWT asserted that discovery would not take long: “Plaintiff believes discovery can

14
15
16

be completed by June 13, 2016.” Id. 8:25-26.
29. I asserted: “ If this Court assumes jurisdiction, Scott Stafne believes that discovery
cannot be completed before December 31, 2016.” Id. 9:1-2.

17
18

30. DWT asserted that this case could be ready for trial almost immediately: Plaintiff
believes this matter will be ready for trial on August 22, 2016.” Id. 9:22

19
20

31. I asserted: “ If this Court assumes jurisdiction over this matter, Stafne believes trial

21
22
23

I responded, with regard to this court’s discovery inquiry:

should be take place in the later part of January, 2017.” Id. 9:23-4.
32. Paragraph 18 of of the joint status report (Dkt. 17) is entitled “Filing Dates of
Disclosure Statements by Nongovernmental Corporate Party.” DWT and my

24

responses to this topic are set forth below:

25

Plaintiff: Plaintiff Bank of New York Mellon filed its Corporate
Disclosure Statement on January 26, 2016 [Dkt. 3].

26

DEFENDANT SCOTT STAFNE’S DECLARATION IN
SUPPORT OF HIS RESPONSE TO PLAINTIFF’S
MOTIONS TO SUBSTITUTE PARTIES PURSUANT TO
REAL PARTY IN INTEREST PURSUANT TO FED. R.
CIV. P. 17(a)(3) AND TO COMPEL DISCOVERY
Page - 7

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 48 Filed 07/11/16 Page 8 of 22
A 185
Defendant Scott Stafne: Scott Stafne does not believe the corporate
disclosure statement is accurate.

1
2

Id. 11:6-10.

3

33. On March 31, 2016, I received a copy of “Bank of New York Mellon’s Initial

4

Disclosures.” I have attached a copy of that document as Exhibit 1 hereto

5
6

(highlighting added). I will refer to some of the highlighted references here,

7

but rely upon all of the highlighted references for the purposes of evidence in

8

support of my responses to DWT’s Motions to Substitute and to Compel.

9

34. DWT states in its initial disclosures:

10

Pursuant to Fed. R. Civ. P. 26(a)(1), Plaintiff Bank New York Mellon,
a Delaware corporation, as trustee for Structured Asset Mortgage II
Trust. Mortgage Pass-Through Certificates Series 2005-AR 2
(“BNYM”) submits its initial disclosure to Defendants. …
… BNYM is continuing its investigation and reserves the right to
supplement or amend this disclosure.
B. Documents
BMYM will not produce documents that are subject to the attorneyclient privilege and/or work product doctrine, … BNYM makes these
initial disclosures[2] in order to expedite the discovery process …
BNYM’s investigations into its claims are ongoing and BNYM
reserves the right to supplement these disclosures. …

11
12
13
14
15
16
17

Dated this 29th day of March, 2016
Davis Wright Tremaine LLP

18
19

By s/ Zana Z.
Bugaighis_________
Attorneys for Bank of New
York Mellon Corporation

20
21
22
23
24
25
26

2

Actually, DWT provided no meaningful disclosures in this document. It is my opinion based on my
experience and training within a reasonable degree of certainty that these attorneys did not and could not
provide such disclosures about which entity was the trustee because they did not represent any BNY Mellon
entity. It is my opinion based on my education, training, and experience within a reasonable degree of legal
certainty that DWT only represents Nationstar and that Nationstar is not an attorney in fact for any BNY
Mellon entity because Bank of New York Mellon is not the actual name of any entity within the BNY Mellon
universe and the POA does not create an agency relationship between them.

DEFENDANT SCOTT STAFNE’S DECLARATION IN
SUPPORT OF HIS RESPONSE TO PLAINTIFF’S
MOTIONS TO SUBSTITUTE PARTIES PURSUANT TO
REAL PARTY IN INTEREST PURSUANT TO FED. R.
CIV. P. 17(a)(3) AND TO COMPEL DISCOVERY
Page - 8

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 48 Filed 07/11/16 Page 9 of 22

1

A 186
35. I believe the statements made in the Initial Disclosure Statement, which are

2

highlighted on Exhibit 1 attached hereto, are fraudulent and/or deceptive given the

3

recent admissions by DWT that “Bank of New York Mellon, a Delaware corporation”

4

is not the trustee and was never consulted prior to these attorneys’ preparation and

5

signing of (1) the complaint and (2) the disclosures provided to Stafne.

6

36. DWT insisted on taking a merits deposition in this case before this Court had ruled on

7

my jurisdictional challenge. I asked DWT to provide me legal authority with regard to

8

its right to command my attendance at a deposition where the subject matter

9
10

jurisdiction of a court had been challenged and the court had not yet determined that it

11

had subject matter jurisdiction. DWT failed to do respond.

12

37. On May 11, 2016, before the deadline for adding parties, I filed with this Court a

13

supplemental declaration regarding its subject matter jurisdiction. Dkt. 21. In that

14

declaration, I raised precisely the same issues regarding Bank of New York Mellon, a

15

Delaware corporation, being the real party in interest as were raised in my June 2,

16

2016 declaration. Id. 1:1-9:14. Specifically, I argued that the correct name of Bank of

17
18

New York Mellon, a Delaware corporation had to be “The Bank of New York Mellon

19

Corporation.”

20

38. I attached as specific exhibits to that declaration (Dkt. 21) those same and/or similar

21

exhibits which were attached to my June 2, 2016 declaration. This is significant

22

because this declaration which was filed before the deadline to join additional parties

23

had expired which, along with all the previous filings referenced, demonstrates DWT

24
25

had evidence and understood the nature of my standing and real party in interest

26

challenges to the Complaint before I filed my June 2, 2016 declaration substantiating
that DWT had no attorney-client relationship with any BNY Mellon entity.
DEFENDANT SCOTT STAFNE’S DECLARATION IN
SUPPORT OF HIS RESPONSE TO PLAINTIFF’S
MOTIONS TO SUBSTITUTE PARTIES PURSUANT TO
REAL PARTY IN INTEREST PURSUANT TO FED. R.
CIV. P. 17(a)(3) AND TO COMPEL DISCOVERY
Page - 9

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 48 Filed 07/11/16 Page 10 of 22

1

A 187
39. For example, Exhibit 1 to Dkt. 21 is an Affidavit of Attempted Service which

2

demonstrates Bank of New York Mellon, a Delaware corporation, refused service of

3

my state court action upon that entity because “[t]he correct name is The Bank of New

4

York Mellon Corporation. In order to for them to accept the name must be noted in

5

full as The Bank of New York Mellon Corporation, as it is listed with DE Secretary of

6

State,. [sic]” Id. The Affidavit further instructs: “In addition the complete name must

7

be listed on all of the documents being served. The Bank of New York Mellon

8

Corporation has given very specific instructions to Corporation Trust Company with

9
10

respect to accepting documents on their behalf.” Id. The affidavit was notarized and

11

sworn to under the penalties of perjury. Id.

12

40. Exhibit 2 to my May 11, 2016 declaration (Dkt. 21) was a letter from Nationstar dated

13

May 21, 2014 (and date-stamped received in the Stafne Trumbull law offices on June

14

3, 2014) which indicated that on that date Nationstar’s records indicated JPMorgan

15

Chase was the owner of my loan.

16
17

41. Exhibit 3 to Dkt. 21 was a copy of the Ninth Circuit’s decision in Robertson v. GMAC
Mortgage LLC.

18
19

42. Exhibit 4 to Dkt. 21 was a of copy emails from the attorney who represented The

20

Bank of New York Mellon Trust Company, National Association, in the Robertson

21

evidentiary hearing following remand for that purpose. The emails from that attorney

22

(who succeeded DWT in the Robertson case), included FDIC, OCC, and corporate

23

documents related to that BNYM entity, which were later certified and presented as

24
25

exhibits at the Robertson evidentiary hearing. A copy of the OCC certified documents

26

can be found as an exhibit to my Declaration in Support of Motion to Change the
Scheduling Dates. Dkt. 27-2.
DEFENDANT SCOTT STAFNE’S DECLARATION IN
SUPPORT OF HIS RESPONSE TO PLAINTIFF’S
MOTIONS TO SUBSTITUTE PARTIES PURSUANT TO
REAL PARTY IN INTEREST PURSUANT TO FED. R.
CIV. P. 17(a)(3) AND TO COMPEL DISCOVERY
Page - 10

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 48 Filed 07/11/16 Page 11 of 22

1

A 188
43. Exhibit 5 to Dkt. 21 is an admission by the attorney representing The Bank of New

2

York Mellon National Trust Company, National Association, in the Robertson case

3

that The Bank of New York Corporation and The Bank of New York Mellon National

4

Trust Company, National Association are separate, different legal entities and not

5

simply trade names of the same corporation.

6

44. The last exhibits I attached to Dkt. 21 were cases, which I claimed tended to prove a

7

strategic manipulation of federal jurisdiction by BNY Mellon entities. In this regard, I

8

testified:

9

23. The strategic misrepresentation of Bank of New York Mellon (if
that is what is happening here) as being something different than The
Bank of New York Mellon entities, is, in my opinion, deceptive and
problematic. Further, it is my judgment this deceptive practice, which
appears to be perpetuated by federal courts failure to accurately identify
BNY entities in their decisions undermines the purposes of diversity
jurisdiction statutes contemplated by 28 USC 1332 and may rise to the
level of constitutional affronts to individuals’ rights pursuant to the
federal nature of our government, U.S. Const. Art. IV, § 4, U.S. Const.
Amend. IX, and U.S. Const. Amend. X.
24. An example of New York Mellon entities misuse and abuse of its
various names in order to allege diversity jurisdiction is the case of
Diunugala v JP Morgan Chase Bank, N.A. et al, Case No. Case No.
12cv2106-WQH-KSC (SD Cal.)(attached as Exhibit 6.) In that case
The Bank of New York Mellon Trust Company N.A. asserted diversity
jurisdiction in California by claiming it was actually Bank of New York
Mellon Corporation, which it claimed was, incorporated in Delaware.
Had The Bank of New York Mellon Trust Company acknowledged that
it was the trustee and a California corporation there would have been
no diversity jurisdiction because both the plaintiff and Bank of New
York Mellon Trust Company were California citizens.
25. The removal petition filed in Diunugala is attached as Exhibit 7.
The removal petition asserts, as does the complaint in this case, that
Bank of New York Mellon Corporation is a Delaware corporation is the
trustee notwithstanding the complaint appears to have alleged The
Bank of New York Mellon Trustee Company N.A. was the trustee.
Accordingly, the
claim made in the removal petition that this defendant was a Delaware
corporation does not appear to be tethered to the facts.
26. Similarly in the Robertson case Bank of New York Mellon Trust
Company, N.A. asserted as the basis for diversity and removal

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26

DEFENDANT SCOTT STAFNE’S DECLARATION IN
SUPPORT OF HIS RESPONSE TO PLAINTIFF’S
MOTIONS TO SUBSTITUTE PARTIES PURSUANT TO
REAL PARTY IN INTEREST PURSUANT TO FED. R.
CIV. P. 17(a)(3) AND TO COMPEL DISCOVERY
Page - 11

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 48 Filed 07/11/16 Page 12 of 22
A 189
jurisdiction that it was a citizen of Florida. Curiously, there were two
law firms which appeared on behalf of Bank of New York Mellon
Trust Company, N.A. in the Robertson case. One of those firms
represents Bank of New York Mellon in this case. The portion of that
law firm’s removal petition which asserted that Bank of New York
Mellon Trust Company is a citizen of Florida is attached as Exhibit 8,
hereto.
24. What is significant in that case is that Bank of New York Mellon
Trust Company, N.A., after repeatedly pleading Florida as their
citizenship (and the district Court subsequently so ruling) is now
claiming it is not a Florida citizen for purposes of diversity. Moreover,
Bank of New York Mellon Trustee Company is now claiming that
Robertson may not be acting in good faith if he does not stipulate to
Bank of New York Trustee Company’s citizenship as being in
California even though that is the citizenship he [Robertson] pleaded
for this entity in his initial complaint.
25. Mr. Robertson is now investigating whether an argument can be
made whether Bank of New York entities can forfeit their right to
invoke diversity jurisdiction if it can be established they systematically
misrepresent their actual identity and citizenship to federal courts.
25. [sic] Accordingly, If this Court decides that the denial of federal
jurisdiction is not appropriate for those other reasons previously stated
in my Rule 12(b)(1) motion, I believe it should pursuant to its own
jurisdictional responsibilities determine [sic] hold an evidentiary
hearing to determine whether the Bank of New York Mellon entities by
purporting to act as an entity which they are not is engaging in systemic
conduct inimical with the letter and spirit of RCW 28 USC 1332 in
order to prevent state courts from having the initial opportunity to
determine the meaning of state laws dealing with the dispossession of
land with their own boundaries.

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19

45. A week later, on April 28, 2016, this Court issued a minute order (Dkt. 22) which
stated, among other things, “Defendant’s motion to dismiss Plaintiffs claims for lack

20
21

of subject matter jurisdiction, docket no. 11, is DENIED. Plaintiff Bank of New York

22

Mellon, a Delaware Corporation, has alleged facts that establish subject matter

23

jurisdiction. See U.S.C. § 1332.” Significantly, this Court did not reference 28 U.S.C.

24

§ 1332(c)(1), which should have prevented it from assuming jurisdiction over the case

25

because the purported corporate entity had not pled any principal place of business.

26

DEFENDANT SCOTT STAFNE’S DECLARATION IN
SUPPORT OF HIS RESPONSE TO PLAINTIFF’S
MOTIONS TO SUBSTITUTE PARTIES PURSUANT TO
REAL PARTY IN INTEREST PURSUANT TO FED. R.
CIV. P. 17(a)(3) AND TO COMPEL DISCOVERY
Page - 12

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 48 Filed 07/11/16 Page 13 of 22
A 190
Further, this Court did not consider whether a name which was not tethered to an

1

entity in the real world can have a citizenship.

2
3

46. A day later, on April 29, 2016, this Court issued a scheduling order. It established the
following deadlines related to this case:

4
5
6

BENCH TRIAL DATE November 14, 2016
Length of Trial 2−5 days

7

Deadline for joining additional parties May 27, 2016

8

Deadline for amending pleadings May 27, 2016

9

Disclosure of expert testimony under FRCP 26(a)(2) June 2, 2016

10

All motions related to discovery must be filed by and noted on the motion
calendar no later than the third Friday thereafter (see LCR 7(d))

11
12

Discovery completed by July 25, 2016

13
14

All dispositive motions must be filed by and noted on the motion calendar no
later than the fourth Friday thereafter (see LCR 7(d))

15

August 25, 2016

16

All motions in limine must be filed by and noted on the motion calendar no
later than the Friday before the Pretrial Conference. (See LCR 7(d)(4))

17
18

October 13, 2016

19

Agreed pretrial order due October 31, 2016

20
21

Trial briefs and proposed findings of fact and conclusions of law, and
designations of deposition testimony pursuant to CR 32(e)

22

October 31, 2016

23

Pretrial conference to be held at 03:00 PM on November 4, 2016

24
25

Dkt. 23
47. I promptly filed an answer, affirmative defenses and counterclaims on May 9, 2016.

26

Dkt. 24. I denied all the allegations of ¶ 1.1 of the Complaint. (Dkt. 1).

DEFENDANT SCOTT STAFNE’S DECLARATION IN
SUPPORT OF HIS RESPONSE TO PLAINTIFF’S
MOTIONS TO SUBSTITUTE PARTIES PURSUANT TO
REAL PARTY IN INTEREST PURSUANT TO FED. R.
CIV. P. 17(a)(3) AND TO COMPEL DISCOVERY
Page - 13

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 48 Filed 07/11/16 Page 14 of 22
A 191
48. The first three affirmative defenses should have put DWT, Burnside, Bugaighis, and

1
2

Nationstar on notice that I disputed their authority to bring this lawsuit against me in

3

federal court. These defenses state:

4

A.

This court lacks diversity jurisdiction over this action.

5

B.

Bank of New York Mellon Corporation has no standing to bring this action.

C.

Bank of New York Mellon and Bank of New York Mellon N.A. are not the real

6
7
8
9

parties in interest.
49. On May 12, 2016, (still before the deadline to add additional parties) Mr. Burnside

10

took my deposition. See Dkt 41, Ex A. Although the notice indicated the deposition

11

was to take place between 1:00 pm and 5:00 pm, Mr. Burnside deviated from that

12

schedule and kept me at his office until approximately 7:00 pm. I expressed my

13

concern to Mr. Burnside that this was a litigation tactic to take advantage of a medical

14

condition I have. We discussed this both by phone and by email. Our email discussion

15

is attached as Exhibit 2 hereto. I reference this here because I have concerns that

16

DWT may be using abusive litigation tactics, such as fabricating a case with a plaintiff

17
18

which does not exist, in order to harm and/or distract me so that I have no time to do

19

anything but respond to them.

20

50. During the deposition Mr. Burnside insisted I answer questions as to why I believed

21

DWT violated the Fair Debt Collection Practices Act by unlawfully invoking this

22

Court’s diversity jurisdiction. The following exchange indicates that I provided DWT

23

with notice during my deposition that Bank of New York Mellon, a Delaware

24
25

corporation, and none of the other entities named in the complaint had standing or any

26

real party in interest status to bring this lawsuit against me.
6 So what is it that I or Zana or Davis Wright
DEFENDANT SCOTT STAFNE’S DECLARATION IN
SUPPORT OF HIS RESPONSE TO PLAINTIFF’S
MOTIONS TO SUBSTITUTE PARTIES PURSUANT TO
REAL PARTY IN INTEREST PURSUANT TO FED. R.
CIV. P. 17(a)(3) AND TO COMPEL DISCOVERY
Page - 14

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 48 Filed 07/11/16 Page 15 of 22
A 192
7 did that you claim violated the FDCPA?
8 A. All right. One, Nationstar is a Texas
9 corporation, and with its nerve center by -- so is
10 Real Time Solutions a Texas corporation. You have
11 manipulated the plaintiff in this case in order to get
12 around diversity jurisdiction.
13 Two, you have alleged in the complaint
14 residency rather than citizenship.
15 Three, none of the entities which you have
16 listed as the plaintiff actually exist. In fact it is
17 impossible for me to serve Bank of New York Mellon as
18 per the complaint because its registered agent will
19 not accept them in that manner.

1
2
3
4
5
6
7
8

Dkt. 41, p. 20.

9
10

51. On June 1, 2016, I filed a motion to modify the scheduling order in this case. I

11

asserted that “[t]wo months time to engage in discovery in this case is not

12

adequate given its complexity and Stafne’s current caseload, litigation

13

schedule, and other commitments, which include running for Congress in

14

Washington’s Congressional District #1.” Dkt. 26, p. 5:5-8. In my declaration

15

supporting this motion (Dkt. 27) I testified:

16

3. I have an intense schedule which will prevent me from being able
to obtain sufficient facts, conduct discovery, disclose experts and
prepare for a trial of this case in November, 2016. In this regard, I
currently have a total of 26 clients with 22 active matters including 6
of my own.
4. Within the next 2 months I have to prepare for 2 hearings
(including the evidentiary hearing ordered by the Ninth Circuit in
Robertson v GMAC.), at least two appeals (in addition to whatever
proceedings may be appropriate following the Robertson evidentiary
hearing), 1 trial, and prepare numerous briefs. I cannot physically
comply with this Court’s abbreviated trial scheduling and provide
competent representation to my other clients.

17
18
19
20
21
22
23
24
25

Dkt. 27-1, p. 2:7-17.
52. I attached to my declaration in support of this motion many of the same exhibits that

26

were referred to in my declaration dated June 2, 2016, i.e. the declaration which DWT

DEFENDANT SCOTT STAFNE’S DECLARATION IN
SUPPORT OF HIS RESPONSE TO PLAINTIFF’S
MOTIONS TO SUBSTITUTE PARTIES PURSUANT TO
REAL PARTY IN INTEREST PURSUANT TO FED. R.
CIV. P. 17(a)(3) AND TO COMPEL DISCOVERY
Page - 15

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 48 Filed 07/11/16 Page 16 of 22
A 193
now claims first alerted it to the possibility that “Bank of New York Mellon, a

1
2

Delaware corporation” was not the trustee of my trust. The documents attached to this

3

declaration included without limitation: (A) Exhibit 2 copies of emails between

4

Burnside and myself regarding the scheduling of a deposition which I claimed was not

5

constitutionally appropriate prior to this Court asserting subject matter jurisdiction

6

over this case, see Dkt. 27-1; (B) Exhibit 3 an OCC certification which showed that

7

the proper name for Bank of New York Mellon’s Trust Company was “The Bank of

8

New York Mellon Trust Company, National Association” which was not the name

9
10

asserted in paragraph 1.1 of DWT’s complaint. see Dkt 27-2; (C) Exhibit 4 a copy

11

portions of the deposition transcript of 30(b)(6) designee for The Bank of New York

12

Mellon Trust Company, National Association in the Robertson matter who testified

13

that BNY Mellon is that “BNY Mellon is a [sic] organizational name for the Bank of

14

New York Mellon. The Bank of New York Mellon trust Company, National

15

Association, is a national -- it’s a subsidiary of the Bank of New York of New york

16

Mellon.” Dkt. 27-3, p. 7:25-8:7 (Although counsel for The Bank of New York Mellon

17
18

Trust Company, National Association refused to allow the witness to discuss relevant

19

issues regarding the relationships between BNYM entities, the questions not answered

20

are significant here because they go directly to whether the Complaint names an entity

21
22
23

with standing and real party in interest status.)
53. Even counsel for The Bank of New York Mellon Trust Company, National
Association observed that all of the acronyms used by BNYM entities were

24
25

confusing. In this regard William Fig of the Portland law firm Sussman Shank

26

stated during the deposition:

DEFENDANT SCOTT STAFNE’S DECLARATION IN
SUPPORT OF HIS RESPONSE TO PLAINTIFF’S
MOTIONS TO SUBSTITUTE PARTIES PURSUANT TO
REAL PARTY IN INTEREST PURSUANT TO FED. R.
CIV. P. 17(a)(3) AND TO COMPEL DISCOVERY
Page - 16

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 48 Filed 07/11/16 Page 17 of 22
A 194
Mr. Fig: Bill Fig again. What I’m saying, Scott, is the acronyms you’re - you’re changing the acronyms, I don’t think intentionally, but there are
multiple Bank of New York Mellon and Trust -- Bank of New York
Mellon entities, and the one we are here to talk about today and the one
that was sued by Plaintiff is the [sic] Bank of New York Mellon Trust
Company, N.A., National Association, which is not the entity you
identified in your question…

1
2
3
4
5
6

Dkt. 27-4, p 22:7-22
54.Attached to my Declaration in Support of my Motion to Modify the Trial Schedule as

7

Exhibit 4 (Dkt. 27-5), is a copy of the complaint I filed against Burnside, Bugaighis,

8

DWT, the SAMI trust, The Bank of New York Mellon Corporation, The Bank of New

9
10

York Mellon Trust Company, N.A., BNY Mellon N.A, JP Morgan Chase Bank N.A.;

11

Nationstar Mortgage and SPS on May 24, 2016.

12

55. I emailed a copy of the complaint to Mr. Burnside shortly after it was filed.

13

56. Notwithstanding Burnside had a copy of the Stafne v. Burnside Complaint (Dkt. 27-5)

14

in his email on May 24, 2016, Mr. Burnside spent the next few weeks attempting to

15

evade service while continuing to work at DWT. I have attached hereto as Exhibit 5 the

16

affidavit of service reflecting the attempts to serve Burnside and tending to prove

17

Burnside’s attempts to evade service.

18
19

57. The Stafne v. Burnside complaint clearly alleges:

20

4.13 On January 19, 2016, Burnside, Bugaighis, and the Law Firm
filed a diversity action in this Court to collect the debt Stafne notified
them was stale and to foreclose on Stafne’s real property. The
complaint named “Bank of New York Mellon” as the plaintiff in the
caption. …
4.14 No entity named “Bank of New York Mellon” exists.

21
22
23
24
25

Dkt. 27-5, p. 7:6-12.
58. The complaint clearly notifies the defendants that I claimed they fabricated and did not

26

facially plead diversity jurisdiction. Dkt. 27-5, p.7:23-8:15. Further, that I claimed

DEFENDANT SCOTT STAFNE’S DECLARATION IN
SUPPORT OF HIS RESPONSE TO PLAINTIFF’S
MOTIONS TO SUBSTITUTE PARTIES PURSUANT TO
REAL PARTY IN INTEREST PURSUANT TO FED. R.
CIV. P. 17(a)(3) AND TO COMPEL DISCOVERY
Page - 17

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 48 Filed 07/11/16 Page 18 of 22
A 195
Defendants have fabricated parties and claims, Id., p. 8:16-9:15, and made deceptive

1
2

statements in the Federal Foreclosure Complaint, i.e. Dkt. 1 in this case. See Dkt. 27, p.

3

8: 15-10:16. I also alleged numerous Unfair and Unconscionable debt collection

4

practices, which included that “the Federal Foreclosure Action to unlawfully collect

5

stale debt is being brought by defendants to harass him because of his representation of

6

homeowners involving the same defendants and others having similar interests in the

7

collection of debt through practices regulated by the FDCPA.” Stafne further alleged

8

“[a]s part of this harassment Stafne alleges based on information and belief that

9
10

defendants have coordinated with other attorneys with regard to the filing of other

11

personal litigation against Stafne.”

12

59. On June 2, 2016, I filed a motion for DWT, Burnside, and Bugaighis to prove their

13

authority to “act as attorneys, pursuant to an attorney-client relationship with regard to

14

“Bank of New York Mellon”, “Bank of New York Mellon, a Delaware corporation”,

15

Bank of New York Mellon Trust Company, N.A.”, “Nationstar Mortgage LLC”, and/or

16

“Structured Asset Mortgage Investments II Trust, Mortgage Pass-Through Certificates

17

Series 2005-AR 2.”

18
19

60. In support of that motion to provide proof of authority, I provided testimony and

20

exhibits substantiating that DWT has made similar “mistakes” and “false statements”

21
22
23

about another BNY Mellon entity in the Robertson pleadings.
61. Notwithstanding all of the foregoing history DWT claims that it was not until this
declaration was filed on June 2, 2016 that it had sufficient notice to investigate whether

24
25

“Bank of New York Mellon, a Delaware corporation” was a real entity. See Dkt. 36, p.

26

9:8 - 10. (“Following Stafne’s June 2, 2016 Declaration, [DWT]... renewed
investigation into the identity of the Bank of New York, as trustee of the SAMI Trust.”
DEFENDANT SCOTT STAFNE’S DECLARATION IN
SUPPORT OF HIS RESPONSE TO PLAINTIFF’S
MOTIONS TO SUBSTITUTE PARTIES PURSUANT TO
REAL PARTY IN INTEREST PURSUANT TO FED. R.
CIV. P. 17(a)(3) AND TO COMPEL DISCOVERY
Page - 18

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 48 Filed 07/11/16 Page 19 of 22
A 196
62.But this assertion doesn’t make sense in light of the facts that (a)DWT was required to

1
2

have made such an investigation pursuant to Rule 11 before filing the complaint; (b)

3

DWT outright stated that BONY was not the indorsee in its response to my Motion to

4

Dismiss for Lack of Subject Matter Jurisdiction, see Dkt. 12, 2:13-21; (c) my June 2,

5

2016 declaration contained no new matter that DWT was not already aware of; and (d)

6

if DWT had really wanted to obtain information from BNY Mellon with regard to

7

whether they owned the loan they could have asked that entity, like housing counselors

8

do. I have attached hereto as Exhibit 6 examples of communications between the

9

housing counselors and BNY Mellon.

10

63. DWT’s response to my Motion to Prove Authority did not hint that it was now

11
12

investigating whether the proper party had been named. Rather, DWT claimed an

13

attorney can represent any entity it appears on behalf of. Dkt. 32, pp. 1:25-2:2.DWT’s

14

response also claimed that forcing DWT to provide proof of its authority to represent

15

BNYM (an entity which Stafne claimed did not exist) would violate its attorney-client

16

privilege. Dkt. 2:8-15. Finally, DWT argued this Court should ignore the Robertson

17
18

case. Id., 3:8-25.3 Significantly, DWT, Burnside, and Bugaighis submitted no evidence

19

in support of their response.

20

64. I replied to DWT’s response to my Motion to Provide Authority on June 17, 2016. Dkt.

21

33.

22

65.On June 24, 2016, DWT, Burnside, and Bugaighis filed the Motion to Substitute

23

pursuant to Fed. R. Civ. Pro. P. 17(a)(3). That motion admits that Bank of New York

24
25
26

3

This perfunctory dismissal of the significance of Robertson case in DWT’s response to my motion to prove
authority contradicts its claim that it viewed this matter which such significance on June 2, 2016 that it
decided to re-open its investigation of whether it represented the party on whose behalf it had appeared.

DEFENDANT SCOTT STAFNE’S DECLARATION IN
SUPPORT OF HIS RESPONSE TO PLAINTIFF’S
MOTIONS TO SUBSTITUTE PARTIES PURSUANT TO
REAL PARTY IN INTEREST PURSUANT TO FED. R.
CIV. P. 17(a)(3) AND TO COMPEL DISCOVERY
Page - 19

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 48 Filed 07/11/16 Page 20 of 22
A 197
Mellon, a Delaware corporation has no standing to bring this action and is not a real

1

party in interest.

2
3

66. This admission has come at a time when I am being bullied by Fred Burnside to
provide discovery and allow him to continue my deposition.

4
5

67. From reading Mr. Burnside’s account of our discovery conference (Dkt 41, 3:18-4:4) it

6

would appear we live in two realities. I did indicate that we needed to go to court. But I

7

have been indicating this through my actions all along. I did not tell Mr. Burnside that I

8

had spent no time on discovery. I had to find years worth of documents some more than

9
10

a decade old. It is my judgment Mrs. Rodriguez who was with me during this

11

conference provides, in her declaration, a much more accurate account of what

12

occurred than has Mr. Burnside.

13

68. In any event, I find myself in a position where I believe DWT is purporting to use this

14

Court’s authority (which is nil without Article III jurisdiction) in a manner harmful to

15

my ability to practice law on behalf of others, attend to my health, and look after my

16

own personal affairs.

17
18

69. It is true that I feel strongly about these matters. I do not believe justice at this point in

19

history is likely to be achieved in an adversarial system of justice where only one party

20

has the resources to mount effective advocacy. For many people our courts are a rigged

21
22
23

system where we have little chance to achieve justice.
70. Yes, I do represent homeowners. Yes, I do believe DWT bullies homeowners and plays
fast and loose with the law. And my experience in this case reinforces my judgment in

24

this regard.

25
26

71. I criticize and ostracize DWT for conduct that I believe is not acceptable in a federal
court. I do it publicly, picking language which is appropriate for the larger ongoing
DEFENDANT SCOTT STAFNE’S DECLARATION IN
SUPPORT OF HIS RESPONSE TO PLAINTIFF’S
MOTIONS TO SUBSTITUTE PARTIES PURSUANT TO
REAL PARTY IN INTEREST PURSUANT TO FED. R.
CIV. P. 17(a)(3) AND TO COMPEL DISCOVERY
Page - 20

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 48 Filed 07/11/16 Page 21 of 22
A 198
political debate about whether our country, including our courts, is working for 99% of

1
2

the people. Bringing up my political statements obviously has no purpose other than to

3

appeal to any bias DWT believes this Court may harbor against me.

4

72. Attempting to marginalize me because of my political beliefs and outrage with their

5

conduct speaks volumes about what DWT believes will motivate this Court. My words

6

criticizing these lawyers is not relevant to any of the legal issues here. Nonetheless,

7

DWT apparently believes that my criticism of Mr. Burnside and DWT are the best

8

cards it has to play.

9
10

73. I presume that this Court will look past whatever it thinks of me and DWT. I hope and

11

expect it will decide this case based on the facts presented and consistent with

12

applicable law.

13

74. I have attached hereto as Exhibit 7 those research articles referred to in note 5 of my

14

response to DWT’s Motion to Compel.

15
16
17
18

I declare under the penalty of perjury that the foregoing is true and correct to the best of my
information and belief.

19
20

DATED this 11th day of July 2016, at Arlington, Washington.

21
22

By:______/s Scott E. Stafne__________
SCOTT E. STAFNE, WSBA#6964

23
24
25
26

DEFENDANT SCOTT STAFNE’S DECLARATION IN
SUPPORT OF HIS RESPONSE TO PLAINTIFF’S
MOTIONS TO SUBSTITUTE PARTIES PURSUANT TO
REAL PARTY IN INTEREST PURSUANT TO FED. R.
CIV. P. 17(a)(3) AND TO COMPEL DISCOVERY
Page - 21

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 42 Filed 06/30/16 Page 1 of 23
APPENDIX 35
A 199
THE HONORABLE THOMAS S. ZILLY
2
3
4
5

UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

6

7
8

9
10
11

12
13
14

15
16

17

BANK OF NEW YORK MELLON, a
Delaware corporation, as trustee for
STRUCTURED ASSET MORTGAGE
INVESTMENTS II TRUST, MORTGAGE
PASS-THROUGH CERTIFICATES SERIES
2005-AR2,
PLAINTIFF,
v.
SCOTT STAFNE, an individual; TODD
STAFNE, an individual; and REAL TIME
RESOLUTIONS, Inc., a Texas corporation,

CASE NO. 2:16-cv-00077-TSZ

DEFENDANT SCOTT STAFNE'S
MOTION TO DISMISS PURSUANT TO
FRCP 12(b)(l)
NOTE ON MOTION CALENDAR:
July 22, 2016
ORAL ARGUMENT REQUESTED

DEFENDANTS.

18
19

20
21

22
23
24
25

26

DEFENDANT SCOTT STAFNE'S MOTION TO
DISMISS PURSUANT TO FRCP 12(b)(l)

STAFNELAWFIRM
239 N. Olympic Avenue
Arlington, WA 98223
TEL: 360.403.8700

Case 2:16-cv-00077-TSZ Document 42 Filed 06/30/16 Page 2 of 23
A 200

TABLE OF CONTENTS
2

Page(s)

3

4
5

I.

RELIEF REQUESTED ........................................................................ l

II.

ISSUES ............................................................................................ 1

6

III. Evidence and Pleadings Relied Upon in Support of this Motion .......................... .3
7

IV. FACTS ............................................................................................. 3
8

9

IV. ARGUMENT ..................................................................................... 7

10

A. Introduction .................................................................................. 7

11

B. Legal Standards ............................................................................... 8

12

C. DWT's judicially admits (1) it only represents BONY pursuant to a purported

13

Power of Attorney with Nationstar; and (2) the complaint names an entity which

14

does not have standing .......................................................................... 10
15

D. DWT, Burnside, Bugaighis, and Nationstar have presented no evidence that they

16

had the authority to bring this lawsuit against Stafne ....................................... 13

17

18

E. The POA does not provide a basis for Nationstar and its attorneys to invoke this

19

Court's diversity jurisdiction without the express approval of the trustee ............... 14

20

V.

CONCLUSION ................................................................................. .21

21

22
23
24

25

Page - i

26

DEFENDANT SCOTT STAFNE' S MOTION TO
DISMISS PURSUANT TO FRCP 12(b)(l)

STAFNELAWFIRM
239 N. Olympic Avenue
Arlington, WA 98223
TEL: 360.403.8700

Case 2:16-cv-00077-TSZ Document 42 Filed 06/30/16 Page 3 of 23
A 201

2

I. ReliefRequested:
Defendant Scott Stafue moves pursuant to Federal R. Civ. Pro. 12(b)(l) to dismiss this

3
4

5

lawsuit because the attorneys for N ationstar have not established (1) that they have authority
to represent Bank of New York Mellon, a Delaware corporation and/or (2) that Bank of New

6

York Mellon, a Delaware corporation, has standing to bring this lawsuit against Stafue and/or
7

(3) that Nationstar Mortgage, LLC (Nationstar) has authority to appoint Davis Wright
8
9

Tremaine, LLP (DWT) as attorney for any Bank/Trustee/Trust for purposes of invoking this

10

Court's diversity jurisdiction pursuant to 28 USC 1332 to bring this foreclosure action.

11

IL Issues:

12

1. Does The Bank of New York Mellon, a Delaware corporation, have standing to bring

13

this action against Stafue where the attorneys who have claimed to represent this non-

14

existent entity now concede that it has no interest in Stafne's nole? (Shorl Answer:
15

No)
16

2.

17

Does the law firm of Davis Wright Tremaine LLC (DWT) through attorneys Frederick

18

Benjamin Burnside (Burnside) and Zana Bugaighis (Bugaighis) have au1hority to

19

represent BONY (and all its various affiliates and subsidiaries) with regard to this

20

lawsuit filed on January 19, 2016 against Scott Stafue based on either the Power of

1

21

Attorney (POA) which is attached as Attachment E to the complaint or the POA

22
23
24

25
26

1

BONY is the latest acronym to be added to already long list of acronyms which DWT uses to obfuscate the
actual identities of any specific Bank of New York Mellon entities. It was added as a new acronym by DWT,
Bumside, and Bugaighis in their recently filed "Motion to substitute real party in interest" as a way of
explaining why the complaint does not name the real Bank of New York Mellon entity which claims to be
acting as a successor trustee to JPMorgan Chase. Stafne does not accept that BONY is a legitimate name for
the successor trustee to JPMorgan Chase. In fact, Stafoe believes that JP Morgan Chase remains the trustee
because no SEC filing suggests otherwise. See Dkt. 33, 34 ,r,r 9-13.

DEFENDANT SCOTT STAFNE'S MOTION TO
DISMISS PURSUANT TO FRCP 12(b)(1)
Page - 1

STAFNE LAW FIRM
239 N. Olympic Avenue
Arlington, WA 98223
TEL: 360.403.8700

Case 2:16-cv-00077-TSZ Document 42 Filed 06/30/16 Page 4 of 23
A 202
attached as Exhibit A to Janadi's declaration in support ofDWT's "Motion to
2
3
4
5

Substitute Real Party in Interest"? (Short Answer: No)
3. Does the POA form authorize N ationstar and its attorneys to invoke this Court's
diversity jurisdiction on behalf of Bank of New York Mellon, a Delaware corporation?
(Short Answer: NO)

6
7

IIL Evidence and Pleadings Relied upon in Support of this Motion:
8
9

In addition to Stafue's declaration in support of this "motion to dismiss for lack of

10

standing," Stafue also relies on the following pleadings, declarations, and evidence which has

11

already been filed with this Court as Docket (Dkt) numbers 1; 1-7; 3; 11; 11:1-7; 12; 13; 14;

12

15, 15:1-4; 16; 16-1-10; 19, 19:1-5; 21:1-5; 24; 25; 26; 27; 27:1-9; 28; 29:1-6; 30; 31: 32: 33;

13

34:1-6; 35; 36; 37::1; 38:1-5;and 39:1-7.

14

IV. Facts:
15

The facts, and contradictions of facts, asserted in this case are complicated a11d have
16

17

been recited, referred to, or incorporated in various filings with this Court. These include

18

those pleadings, declarations, and evidence referred to in the preceding section above. These

19

filings are by this reference intended to be incorporated herein for this Court's consideration

20

in resolving this motion.

21

DWT, Burnside, and Bugaighis admit they have no fiduciary attorney-client relationship

22

with BONY, see Dkt. 36 2:12-7:15; 8:9-9:16, a11d did not make any inquiry regru·ding the
23
24

factual assertions about Bank of New York, a Delaware corporation before signing the

25

complaint appearing as that corporation's attorneys. Id; see also Dkt. 38, Dkt. 38:1-5; Dkt. 39;

26

Dkt 39:1-7. DWT, Burnside, and Bugaighis now concede the complaint they authored

DEFENDANT SCOTT STAFNE'S MOTION TO
DISMISS PURSUANT TO FRCP 12(b)(l)
Page-2

STAFNELAWFIRM
239 N. Olympic Avenue
Arlington, WA 98223
TEL: 360.403.8700

Case 2:16-cv-00077-TSZ Document 42 Filed 06/30/16 Page 5 of 23
A 203
contains misstatements of facts about what they now describe as BONY entities 2 ( even
2

though not one of those entities they named in the complaint actually exists under the names

3

alleged) And now, by way of an afterthought, these attorneys concede the entity they asserted

4

they appeared on behalf of is not the trustee of the trust which they previously claimed owned

5

Stafue's mortgage loan.

6

Stafue, an attorney, points out that such mistakes by DWT are common and asserts
7

they represent attempts by Nationstar, DWT, Burnside, and Bugaighis to manipulate federal
8

9
10

jurisdiction over cases that are within the core sovereignty of the States, which include cases
involving real property located within a State's boundaries. See Dkt. 11 10:3-15:4; Dkt 14.

11

In its latest round of pleadings, DWT, Burnside, and Bugaighis assert a roving

12

authority to represent BONY (and/or any and all of its related entities) premised on Power of

13

Attorney (POA) documents. See Infra. See also Dkt. 37, 2:1-11; Dkt. 38; Dkt. 39 2:1-10;

14

2:20-26. Attachment E to the complaint is a POA, which went into effetot in September, 2014.
15

16
17

Dkt. 1-6. Exhibit 1 to Ms. J amati's declaration is a copy of a POA which was signed on May
26, 2016.

18
19
20
21

22
23
24
25

26

2

It is important the Court not get confused by DWT's tactic of claiming that names don't matter when entities
are attempting to collect debts. See Dkt., 36, p. Burnside declaration, 38. Congress has determined that
accurate names of creditors and debt collectors do matter in the context of attempting to collect debt. Indeed
the Fair Debt Collection Practices Act specifically defines the term debt collector to include "any creditor
who, in the process of collecting his own debts, uses any name other than his own which would indicate that
a third person is collectiug or attempting to collect such debts" § 803(6), 15 U.S.C.A. § 1692a(6). The
admission by Nationstar, DWT, Burnside, and Bugaighis that they have attempted to collect this debt under
the wrong name by bringing this action in this Court in the first place would appear to an1ount to a direct
violation of tl1e FDCP A.
While Stafne is delighted that Nationstar and DWT have owned up to the fact that they have filed this
complaint on behalf of an entity which does not have standing, he does not want the Comt to forget that
simply substituting BNYM acronym for the new BONY (or any of its affiliates or subsidiaries) acronym still
is not adequate. Stafne is entitled to !mow the real name of his creditors and Congress has instructed that
neither state or federal courts become collection vehicles for unlawful debt collection.
The fact that Mr. Burnside does not tltink alleging the real name of BNYM entities is material or inlportant,
Dkt. 38, is interesting, but not authoritative. Congress has determined that real names do matter when anyone
attempts to collect debts and this Court should be more concerned with what the requires than Mr. Burnside's
pontifications about what the public record shows.

DEFENDANT SCOTT STAFNE'S MOTION TO
DISMISS PURSUANT TO FRCP 12(b)(l)
Page - 3

STAFNELAWFIRM
239 N. Olympic Avenue
Arlington, WA 98223
TEL: 360.403.8700

Case 2:16-cv-00077-TSZ Document 42 Filed 06/30/16 Page 6 of 23
A 204
The POA, Attachment E to the complaint, states in pertinent part:
2
3

4
5
6

7

8
9
10
11
12

13
14
15
16
17

18
19

20
21

22
23
24

25
26

KNOW ALL MEN BY THESE PRESENTS, that the undersigned, THE BANK
OF NEW YORK. MELLON F/K/A THE BANK OF NEW YORK as successor
in interest to JP Morgan Chase Bank, N.A., having an office at 101 Barclay
Street, NYC, NY 10285 (the "Bank"), hereby appoint Nationstar Mortgage
LLC, to be the Bank's true and lawful Attorney-in-Fact (the "Attorneys") to act
in the name, and on behalf, of the Bank with the power to do only the the
following in com1ection with the trust included on Schedule A, on behalf of the
Ban1c

*

*

*

8. With respect to a mortgage or Deed ofTrust,the foreclosure, the taking a
deed in lieu of foreclosure, or the completion of judicial or non-judicial
foreclosure or tern1ination, cancellation or rescission of (sic)
Termination, cancellation, or rescission of any such foreclosure, including,
without limitations, any and all of the following acts:
a.
the substitution oftrustee(s) serving under a Deed of Trust, in accordance with
state law and the Deed of Trust;
b. the preparation and issuance of statements of breach or non-performance;
c.
The preparation and filing of notices of default and/or notices of sale;
d. the cancellation/rescission of notices of default and/or notices of sale;
e.
The taking of a deed in lieu of foreclosure; a11d
f.
The preparation of execution of such other documents and performance of such
other actions as may be necessary under the tenns of the Mortgage, Deed of Trust, or
state law to expeditiously complete said tra11saction in paragraphs 8.a. Through 8.e,
above; and
g. To execute any other documents referred to in the above mentioned documents or
that are ancillary or related thereto, or contemplated by the provisions thereof; and
to do all things necessary or expedient to give effect to the aforesaid documents
including, but not limited to, completing any blanks therein, making any
mnendments, alterations and additions thereto, to endorse which may be
considered necessary by the Attorney, to endorse on behalf of the Trustee all
checks, drafts, and/or negotiable instruments made payable to the Trustee in
respect of the documents, and executing such other documents as may be
considered by the Attorney for such purposes.
The relationship of the Bank and the Attorney under this Power of Attorney
is intended to by the parties to be that of a11 independent contractor and not that
of a joint venturer, partner, or agent.
This Power of Attorney is effective for one (1) year from the date hereof of
the earlier of (i) revocation by the Bank, (ii) the Attorney shall no longer be
retained on behalf of the Bank or an affiliate of the Bank; or (iii) the expiration
of one year from the date of execution.
This agreement shall be governed by, and construed in accordance with, the
laws of the State of New York without regard to the conflicts oflaws principles.

DEFENDANT SCOTT STAFNE'S MOTION TO
DISMISS PURSUANT TO FRCP 12(b)(l)
Page - 4

STAFNE LAW FIRM
239 N. Olympic Avenue
Arlington, WA 98223
TEL: 360.403.8700

Case 2:16-cv-00077-TSZ Document 42 Filed 06/30/16 Page 7 of 23
A 205
All actions heretofore taken by said Attorney, which Attorney could properly
have taken pursuant to this Power of Attorney, be, and hereby are, ratified and
affirmed.

2

Recent pleadings establish this case was filed by DWT, Burnside, Bugaighis on behalf

3
4

5

of their client Nationstar. Bnt the complaint these attorneys at law filed in this Court alleging
diversity jurisdiction indicates they are appearing on behalf of New York Bank Mellon, a

6

Delaware corporation. This complaint which falsely named Bank of New York Mellon, a
7

Delaware corporation as the creditor was filed on January 19, 2016, when neither of these
8
9

10

POAs were in effect.

IV. Argument:

11

A. Introduction

12

Stafne will first discuss the legal standards pursuant to Fed. R. Civ. P. 12(b)(l) for

13

asserting a factual challenge to the complaint based on those standing principles necessary for

14

invoking this Court's auth01ity to adjudicate a case or controversy under U.S. Const. Art. III.
15

and 28
16

use 1332.
In the second part of this motion Stafne will demonstrate that recent judicial

17

18

admissions by DWT through attorneys Burnside and Bugaighis establish (1) the law finn and

19

its attorneys have been retained to act as attorneys in this action against Stafne by Nationstar,

20

not by the trustee entity the complaint purports these attorneys represent; and (2) DWT now

21

concedes the complaint does not identify a party which had standing to file this complaint3 .

22
23
24
25

26

3

In this section of his motion to dismiss Stafue will discuss DWT's claim that BONY (or perhaps one of its
many affiliates or subdivisions) is the real party which has been harmed. Stafue does not agree with any
aspect of this assertion, but will not address the inappropriateness and inadequacy of these factual allegations
until he responds to DWT's motion to substitute parties. For now, what is significant regarding this motion
and what will be discussed in the second part of this motion is that Nationstar, DWT, Burnside, and
Bugaighis now concede that the complaint does not identify an entity that has constitutional standing to bring
this action against Stafue.

DEFENDANT SCOTT STAFNE'S MOTION TO
DISMISS PURSUANT TO FRCP 12(b)(l)
Page - 5

STAFNE LAW FIRM
239 N. Olympic Avenue
Arlington, WA 98223
TEL: 360.403.8700

Case 2:16-cv-00077-TSZ Document 42 Filed 06/30/16 Page 8 of 23
A 206
In the third part of this motion Stafne will demonstrate the Power of Attorney forms
2

which DWT claims authorized Nationstar to hire DWT, Burnside, and Bugaighis to bring this

3

lawsuit against Stafne were not in effect on January 19, 2016, the day this lawsuit was filed.

4

5

6

Finally, Stafne will demonstrate the POA between Nationstar and Banlc4 violates
public policy to the extent it authorizes attorneys to bring actions in federal court alleging
diversity jurisdiction on behalf of a client they do not represent and have not consulted with

7

regard to whether that entity wants to assert diversity jurisdiction.
8
9

10

B. Legal Standards
"The district courts of the United States ... are 'courts oflimitedjurisdiction. They

11

possess only that power authorized by Constitution and statute.' "Exxon Mobil Corp. v.

12

Allapattah Servs., Inc., 545 U.S. 546, 552, 125 S.Ct. 2611, 162 L.Ed.2d 502 (2005) (quoting

13

Kokkonen v. Guardian Life Ins. Co. of Am., 511 U.S. 375,377, 114 S.Ct. 1673, 128 L.Ed.2d

14

391 (1994)). Article III, Section 2 of the Constitution provides that federal courts may decide
15

"Cases" or "Controversies." "One essential aspect of this requirement is that any person
16
17

invoking the power of a federal court must demonstrate standing to do so. This requires a

18

party to prove that she has suffered a concrete and particularized injury that is fairly traceable

19

to the challenged conduct, and is likely to be redressed by a favorable judicial decision.

20

Hollingsworth v. Perry, 133 S. Ct. 2652, 2661, 186 L. Ed. 2d 768 (2013) (citingL0an v.

21

Defenders of Wildlife, 504 U.S. 555, 560-561, 112 S.Ct. 2130, 119 L.Ed.2d 351 (1992)).

22
23
24

4 Stafnc's reference to the "Bank" in this 1notion refers only to that tcnninology as it is used in the POA; nmnely "KNOW

25

ALL MEN BY THESE PRESENTS, that the undersigned, THE BANK OF NEW YORK MELLON F/K/A THE
BANK OF NEW YORI( as successor in interest to JP Morgan Chase Bank, N.A., having an office at 101 Barclay
Street, NYC, NY 10285 (the "Bank") ... " Stafne does not by the use of the term Bank agree that this is the proper na1ne

26

of any entity or that the "Bank" is a trustee of the SAMI trust at issue in this Htigation or that the stale note and deed of
trust were ever in that tr·ust.

DEFENDANT SCOTT STAFNE'S MOTION TO
DISMISS PURSUANT TO FRCP 12(b)(l)
Page - 6

STAFNELAWFIRM
239 N. Olympic Avenue
Arlington, WA 98223
TEL: 360.403.8700

Case 2:16-cv-00077-TSZ Document 42 Filed 06/30/16 Page 9 of 23
A 207

The burden of establishing standing falls squarely on "[t]he party invoking
2

jurisdiction." Lujan, 504 U.S. at 561. ("Once subject matter jurisdiction is challenged, '[a]

3

plaintiff asserting subject matter jurisdiction has the burden of proving by a preponderance of

4

the evidence that jurisdiction exists."')(quoting Giammatteo v. Newton, 452 F. App'x 24, 27

5

(2d Cir.2011))).

6

Under Rule 12(b)(1 ), a defendant may challenge jurisdictional allegations either
7

facially or factually, see Leite v. Crane Co., 749 F .3d 1117, 1121-22 (9th Cir.), cert. denied,
8
9

135 S. Ct. 361, 190 L. Ed. 2d 252 (2014). See also Safe Air for Everyone v. Meyer, 373 F.3d

10

1035, 1039 (9th Cir.2004) A "factual" attack contests the truth of the factual allegations in a

11

complaint, usually by introducing evidence outside the pleadings. Id., 3 73 F .3 d at 103 9;

12

Thornhill Publ'g Co. v. Gen. Tel. & Elec. Corp., 594 F.2d 730, 733 (9th Cir.1979).

13

Although "[a]s a general rule, the 'injury-in-fact' requirement means that a party must

14

have personally suffered an injury ... [cJourts may permit a party with standing to assign its
15

claims to a third party, who will stand in the place of the injured party and satisfy the
16
17

constitutional requirement of an 'injury-in-fact.' " W.R. Huff Asset Mgmt. Co., LLC v. Deloitte

18

& Touche LLP, 549 F.3d I 00, I 07 (2d Cir.2008) ( citations omitted). While assignment of a

19

claim need not come in "a particular fonn," an assigrnnent will satisfy Article III's standing

20

requirements only if "the language [of the assigmnentJ manifests [the previous owner's J

21

intention to transfer at least title or ownership, i.e., to accomplish a completed transfer of the

22

entire interest of the assignor in the particular subject of assignment." Advanced Magnetics,
23
24

Inc. v. Bayfront Partners, Inc., 106 F.3d 11, 17 (2d Cir.1997) (citations omitted) (emphasis

25

added); see also W.R. Huff, 549 F.3d at 108 ("In our view, Sprint makes clear that the

26

minimum requirement for an injury-in-fact is that the plaintiff have legal title to, or a
proprietary interest in, the claim." (citing Sprint Comm'c Co., L .P. v. APCC Servs., Inc., 554
DEFENDANT SCOTT STAFNE'S MOTION TO
DISMISS PURSUANT TO FRCP 12(b)(l)
Page - 7

STAFNE LAW FIRM
239 N. Olympic Avenue
Arlington, WA 98223
TEL: 360.403.8700

Case 2:16-cv-00077-TSZ Document 42 Filed 06/30/16 Page 10 of 23
A 208
U.S. 269, 289, 128 S.Ct. 2531, 171 L.Ed.2d 424 (2008)). The grant of a power of attorney,
2

i.e., where "one person grants another the power to sue on and collect on a claim ... , is not the

3

equivalent of an assigmnent of ownership; and, standing alone, a power of attorney does not

4

enable the grantee to bring suit in his own name." Advanced Magnetics, Inc., 106 F Jd at 17-

5

18 (citing Titus v. Wallick, 306 U.S. 282,289, 59 S.Ct. 557, 83 L.Ed. 653 (1939)); see also

6

W.R. Huff, 549 F.3d at 108 (reaffirn1ing the distinction between a grant of power of attorney
7

and assigmnent of title to a claim).
8
9

As is observed in other pleadings a law firm or attorney who does not represent an

10

injured party do not have Article III standing to bring a lawsuit because attorneys are not

11

parties who have sustained a particularized and concrete injury. See Dkt 28, pp. 3 :22 - 9:4;

12

Dkt. 33, pp. 1:21 - 6: 14, 7: 18 -9:6. See also Pueblo of Santa Rosa v. Fall, 273 U.S. 315

13

(1927); Meredith v. The Ionian Trader, 279 F.2d 471, 472-73 (2d Cir. 1960); In re Retail

14

Chemists Corp., 66 F.2d 605,608 (2d Cir. 1933) Any case that is brought by a law finn or an
15

attorney, without actnally representing an injured party, is an absolute nullity under U.S.
16
17
18
19

Const. Art. III. Id.
C. DWT's judicially admits (1) it only represents BONY pursuant to a purported
Power of Attorney with Nationstar; and (2) the complaint names an entity which does
not have standing

20

In the caption of the complaint DWT, Burnside, and Bugaighis claim to represent
21

22

"BANK OF NEW YORI( MELLON, a Delaware corporation, as trustee for STRUCTURED

23

ASSET MORTGAGE INVESTMENTS II TRUST, MORTGAGE PASS-THROUGH

24

CERTIFICATES SERIES 2005-AR2." Dkt. 1, Caption. In the first paragraph of their

25

complaint, titled "PARTIES" DWT alleges:

26

1.1 Bank of New York Mellon, a Delaware corporation, serves as trustee for
Structured Asset Mortgage Investments II Tmst, Mortgage Pass-Through
DEFENDANT SCOTT STAFNE'S MOTION TO
DISMISS PURSUANT TO FRCP 12(b)(l)
Page - 8

STAFNELAWFIRM
239 N. Olympic Avenue
Arlington, WA 98223
TEL: 360.403.8700

Case 2:16-cv-00077-TSZ Document 42 Filed 06/30/16 Page 11 of 23
A 209

2
3

4
5

6

Certificates series 2005-AR2, and in that capacity owns and holds Defendant
Scott Stafne's note. Bank ofNew York Mellon's affiliate entities inclnde
Bank of New York Mellon Trust Company, N.A., which has its main
officers and headquarters in California. Bank of New York Mellon's main
office, headquarters, and principal place of business are in New York. Bank
of New York Mellon is acting in this foreclosure proceeding in this case
through its Attorney in Fact, Nationstar Mortgage, LLC."
DWT through Burnside and Bugaighis recently admitted they do not have a traditional
fiduciary, attorney-client relationship with any entity, which may or may not be the trustee of

7

the SAMI trust. See Dkt. 36, entitled "Bank of New York Mellon's Motion to substitute real
8

party in interest pursuant to Fed. R. Civ. P. 17(a)(3)." That motion is noted for consideration
9
10

on July 15, 2016 and it is not Stafne's intent to respond to that motion here. The contents of

11

that motion and the declarations offered in support of that motion are offered here to

12

demonstrate the complaint presently before this Court does not meet Const. Art. III standing

13

requirements because the attorneys who wrote and signed it now admit the complaint does not

14

identify any party asserting a concrete and particularized injury.

15

Judicial admissions set forth in tl1at motion filed by DWT and authored by Bugaighis
16
17

include without limitation:

18
19

20
21

22

Thus, to avoid further motions practice, BNYM now seeks to substitute BONY
as Plaintiff under Rule 17(a)(3), because although BONY is wholly owned by
BNYM, further investigation into the statements in Stafne's June 2, 2016,
declaration confinns tl1at it is the New York, rather than Delaware, corporation
that is the Bank of New York corporation that acts as Trustee for the Trust
owning Stafne's loan (the Structured Asset Mortgage Investments II Trust,
M01igage Pass-Through Certificates Series 2005-AR2 ("SAMI Trust")).

23

Dkt. 36 1:25 - 2:3.
24
25
26

DWT's motion explains:
[ d]etennining

which Bank of New York entity should appear as Plaintiff
in this action was difficult because both corporations have the same
name and several operative docmnents simply refer to the "Bank of New
DEFENDANT SCOTT STAFNE'S MOTION TO
DISMISS PURSUANT TO FRCP 12(b)(l)
Page - 9

STAFNELAWFIRM
239 N. Olympic Avenue
Arlington, WA 98223
TEL: 360.403.8700

Case 2:16-cv-00077-TSZ Document 42 Filed 06/30/16 Page 12 of 23
A 210
York Mellon," without indication of a specific distinction between the
two entities. Thus, Nationstar and its counsel made a reasonable mistake
2

111

identifying BNYM as Trustee rather than BONY.

3

Dlct. 369:4-9
4

5

Burnside testifies that once he put his mind to it and did an appropriate Rule 11

6

investigation, he was able to get it right. Dkt. 38. Stafue isn't so sure. See note 2, supra.

7

Stafue is surprised that Burnside apparently solicited no help from BNYM, its purported

8

client, in undertaldng such a difficult task.

9

Stafue remains concerned, however, about DWT's continuing assertions of falsehood

10

as fact. For example, DWT through Bugaighis falsely claims "[t]he identity oftl1e SAMI
11

Trust, in which Stafue's Note was securitized, has never been questioned and remains tl1e
12

13

same." That is not true. Stafue has presented evidence which indicates that his note and deed

14

of trust were owned by Countrywide up until 2013 when they were assigned to Nationstar.

15

Dkt. 29, ,i 11, exhibits 5 & 6.

16
17

Burnside, a DWT owner, submitted a declaration in which he admits DWT, Bugaighis,
and himself are attorneys for Nationstar and represent "whoever" pursuant to Nationstar's

18

POA with Bank. Further Burnside admits that the only relationship which he has with BONY
19
20
21

22

is through the POA agreement between the Bank and Nationstar, which is Attaclnnent E to
the complaint. See Burnside Deel., Dkt. 38 ,i,i 2, 3, 4, 5, 6, 7, 8, 9, 10, and 11.
But the POA (which speaks for itself) disputes this as the POA continues to identify

23

the grantor as "THE BANK OF NEW YORK MELLON F/K/A THE BANK OF NEW

24

YORK as successor in interest to JPMorgan Chase Bank, N.A. See attachment E to the

25

complaint and Janati declaration, Exhibit A.

26

DEFENDANT SCOTT STAFNE'S MOTION TO
DISMISS PURSUANT TO FRCP 12(b)(l)
Page-10

STAFNE LAW FIRM
239 N. Olympic Avenue
Arlington, WA 98223
TEL: 360.403.8700

Case 2:16-cv-00077-TSZ Document 42 Filed 06/30/16 Page 13 of 23
A 211
Indeed, paragraph 6 to Burnside's declaration makes crystal clear that Burnside
2

misidentified and accordingly falsely alleged to this Court in the complaint the identity of the

3

plaintiff because he was attempting to represent the Bank without being the Bank's attorney.

4

"I drafted (and Nationstar approved) the Complaint listing the Bank of New York Mellon (a

5

6

Delaware corporation), rather than its wholly owned subsidiary, the Bank of New York
Mellon (a New York corporation)." Dkt. 38, ,r,

7

Why should we believe Burnside has got it right now? See Dkt 29 Perhaps if Burnside
8

9

had a real client to which he could go to check out the adequacy and accuracy of his latest

10

research Stafne and this Court could be more assured that DWT actually represents someone

11

who has standing; and Stafne has an entity against whom he can obtain the quiet title relief he

12

seeks pursuant to RCW 7.28.300

13

In summary, DWT's motion to substitute parties (together with Burnside's

14

declaration) demonstrate that these attorneys at law who actually represented only Nationstar
15

had no contact with BONY or BNYM or any of their affiliates or related entities before suing
16
17

18

Stafne and signing the complaint which represented: "Davis Wright Tremaine LLP [as]
Attorneys for Bank of New York Mellon." Dkt. 1, p. 9.

19

D. DWT, Burnside, Bugaighis, and Nationstar have presented no evidence that
they had the authority to bring this lawsuit against Stafne

20
21

The Power of Attorney attached to the complaint as Attachment E (presumably the one

22

claimed to have authorized the filing of the complaint against Stafne) was purportedly signed

23

on behalf of Bank on August 29, 2014. See Dkt. 1-6, Attachment E, p. 4 of 7. This same

24

Power of Attorney was countersigned byNationstar on September 4, 2014. Id. p. 5 of 7. By

25

its own terms this limited power of Attorney expired one year later, i.e. On September 14,

26

2015.

DEFENDANT SCOTT STAFNE'S MOTION TO
DISMISS PURSUANT TO FRCP 12(b)(l)
Page - 11

STAFNELAWFIRM
239 N. Olympic Avenue
Arlington, WA 98223
TEL: 360.403.8700

Case 2:16-cv-00077-TSZ Document 42 Filed 06/30/16 Page 14 of 23
A 212
This lawsuit was filed on January 19, 2016 by DWT, Burnside, and Bugaighis based on
2

their legal representation ofNationstar. But Attachment E to the complaint clearly indicates

3

Nationstar no longer had authority to sue Stafne on behalf of the Bank and/or hire DWT to

4

prepare and file a complaint on behalf of the Bank at this time. The power of attorney is

5

limited and makes very clear it only provides authority for Nationstar to do those acts set forth

6

in the agreement. Accordingly, Nationstar and DWT had no authority/standing to sue Stafne
7

in federal court.
8
9

E. The POA does not provide a basis for Nationstar and its attorneys to invoke this
Court's diversity jurisdiction without the express approval of the trustee.

10

As previously noted, the POA in this case provides "[t]his agreement shall be governed
11

by, and construed in accordance with, the laws of the State of New York without regard to the
12
13

conflicts oflaws principles."

14

The courts of New York consider that a trustee's decision to obtain legal counsel for

15

advice on legal issues related to the trust is probative with regard to the question of whether

16

the trustee has acted prudently. For example, the Court noted in a recent case involving

17

securitized Countrywide asset trusts that:

18

19

20
21

22
23
24
25

26

... "if a trustee has selected hust counsel prudently and in good faith, and has
relied on plausible advice on a matter within counsel's expertise, the trustee's
conduct is significantly probative of prudence" (Restatement [Third] of Trusts §
77, Comment b[2] ). While reliance on the advice of counsel may not always be
the end of the analysis regarding a claimed breach of trust-it is possible for a
trustee to specifically seek out legal advice that would support the trustee's
desired course of conduct, or there may be other circumstances establishing that
it was unreasonable to follow the legal advice (id. )-a party challenging the
decisions of a trustee who followed the advice of a highly-regarded specialist in
the relevant area oflaw can prevail only upon a showing that, based on the
particular circumstances, the reliance on such counsel's assessment was
unreasonable and in bad faith. Court approval of the settlement does not require
that the court agree with counsel's judgment or assessment; all tl1at is required
is a determination that it was reasonable for the Trustee to rely on counsel's
expert judgment.
DEFENDANT SCOTT STAFNE'S MOTION TO
DISMISS PURSUANT TO FRCP 12(b)(l)
Page - 12

STAFNE LAW FIRM
239 N. Olympic Avenne
Arlington, WA 98223
TEL: 360.403.8700

Case 2:16-cv-00077-TSZ Document 42 Filed 06/30/16 Page 15 of 23
A 213
In re Bank ofNew York Mellon, 127 A.D.3d 120, 126, 4 N.Y.S.3d 204, 208 (N.Y. App. Div.
2
3
4

5

2015).
The POA in this case states that the relationship between the Bank and Nationstar "is
intended by the parties to be that of an independent contractor and not that of a joint ncoura,
partner, or agent." This is significant because courts have ncourage that there are inherent

6

conflicts of interests between servicers, like Nationstar, and the beneficiaries ofsecuritized
7

trusts and the trustees of such trusts. See e.g. Bain v. Metro. Mortgage Grp., Inc., 175 Wash.
8
9

2d 83, 97-98, note 7,285 P.3d 34, 41 (2012); Culhane v. Aurora Loan Servs. Of Nebraska,

10

826F. Supp. 2d352, 375 n. 15 (D. Mass. 2011),aff'd, 708F.3d282 (l''Cir. 2013). This

11

concerns Stafne here because of his interests as a citizen in the operation of the Separation of

12

Powers (which restrict the authority of this Court to adjudicate this case) and the federal

13

structure of our constitutional republic (which generally provides state courts with the

14

authority to dispossess land within its borders.) See e.g. Bond v. United States, 131 S. Ct.
15

2355, 2363-4 (2011).
16
17

IfNationstar is not the agent of the trust then it has no basis by which to retain DWT,

18

Burnside, and Bugaighis as the attorney for the Bank, as trustee for the beneficiaries' interest

19

in the trust, for purposes of invoking the diversity jurisdiction of this Court. The limited POA

20

only gives Nationstar, an independent contractor arguably having divergent interests from the

21

trust beneficiaries, the power to foreclose; not the power to invoke this Court's diversity

22

jurisdiction pursuant to 28 USC 1332.
23

24
25

26

Foreclosure of real property generally refers to state court proceedings to dispossess
the title to land within the boundaries of a specific state.
"It is an established principle oflaw, everywhere recognized; arising from the
necessity of this case, tlrnt the disposition of immovable property ... is
exclusively subject to the government within whose jurisdiction the property is
DEFENDANT SCOTT STAFNE'S MOTION TO
DISMISS PURSUANT TO FRCP 12(b)(l)
Page - 13

STAFNELAWFIRM
239 N. Olympic Avenue
Arlington, WA 98223
TEL: 360.403.8700

Case 2:16-cv-00077-TSZ Document 42 Filed 06/30/16 Page 16 of 23

2
3
4

5
6
7

8
9

10
11
12

13

A 214
situated." United States v. Fox, 94 U.S. 315, 320-21, 24 L. Ed. 192 (1877)
(citingMcCormickv. Sullivant, 23 U.S. 192, 6 L. Ed. 300, 14 S. Ct. 616
(1825) ). Unless Congress enacts a law in furtherance of an enumerated power,
the Supreme Court continues to hold that State's core sovereignty includes
enacting laws related to the dispossession of property within its own borders.
See United States v. Burnison, 339 U.S. 87,91-92 (1950) (Declining to overmle
United States v. Fox, supra.) See also Oneida Indian Nation v. Oneida County,
414 U.S. 661, 676-77, 94 S.Ct. 772, 39 L.Ed.2d 73 (1974) ("[o]nce the patent
issues, the incidents of ownership are, for the most part, matters of local
property law to be vindicated in local courts"). This is so because each state
has the power "to provide for and protect individual rights to the soil within its
confines" in furtherance of the general welfare of society based on the security
of title to real estate. Am. Land Co. v. Zeiss, 219 U.S. 47, 60, 31 S.Ct. 200, 55
L.Ed. 82 (1911); see also United States v. Fox, 94 U.S. at 320 (means of
acquiring and transferring real property is the exclusive domain of "tl1e
govenunent within whose jnrisdiction the property is situated"); Arndt v.
Griggs, 134 U.S. 316, 320-21, 10 S.Ct. 557, 33 L.Ed. 918 (1890) (same).
Dkt. 11, p. 11: 1 - 20. See also Phillips v. Tompson, 73 Wn. 78, 85, 131 P. 461 (1913).
Granting an independent contractor the limited power to affirmatively non-judicially
or judicially foreclose a deed of tmst in state proceedings as part of routine servicing rights, is

14

not the same thing as granting Nationstar the Banks/Trustee/Trust's citizenship and right to
15

16

invoke diversity jurisdiction. The reason the two powers are different is made obvious by this

17

case and the Robertson case. Dkt. 29. The Robertson case involved similar pleading errors by

18

DWT and Burnside with regard to the citizenship of The Bank of New York Mellon Trust

19

Company National Association. Id.

20
21

In order to invoke diversity of citizenship jurisdiction pursuant to a limited POA an

entity having Article III standing should be required to consent, cooperate, and participate in

22

filing an action in federal court based on 28 USC 1332. This is because if an actual paiiy with
23

24

standing to bring suit is not involved in this process, the other parties and the Court mn the

25

risk that attorneys for the independent contractor will attempt to manipulate this Court's

26

jurisdiction to become involved in cases which are primarily oflocal concern.

DEFENDANT SCOTT STAFNE'S MOTION TO
DISMISS PURSUANT TO FRCP 12(b)(l)
Page-14

STAFNE LAW FIRM
239 N. Olympic Avenue
Arlington, WA 98223
TEL: 360.403.8700

Case 2:16-cv-00077-TSZ Document 42 Filed 06/30/16 Page 17 of 23
A 215
Concerns that members of the federal defense bar will attempt to manipulate facts in
2

order to bring cases (especially those involving novel issues of state law before federal courts

3

for an initial construction of state law) is not a new concern. For example, in Caterpillar Inc.

4

v. Lewis the United States Supreme Court held that a District Court's error in failing to

5

remand an improperly removed case was not fatal to the ensuing adjudication, if federal

6

jurisdictional requirements are met at the time judgment is entered. 519 U.S. at 64. In that
7

case, the Supreme Court homed in on the question as to whether a district court's initial
8
9

10

misjudgment regarding the existence of removal jurisdiction burdened the case forever, or
was overcome by the eventual dismissal of the non-diverse defendant. Id. at 70.

11

The plaintiff in Caterpillar argued that allowing lack of removal and diversity

12

jurisdiction to be cured would incentivize attorneys and litigants to be less than vigilant about

13

their compliance with those statutes establishing removal and diversity jurisdiction. Justice

14

Ginsburg (writing for a then unanimous court on this issue) discussed lhost: rnnct:rns. See Id.
15
16

at 475-76, 136 L.Ed. 2d 437 (1996). The upshot of that discussion was that where defects in

17

removal jurisdiction lingered, but were cured before a trial which actually occurred,

18

"considerations of finality, efficiency, and economy become overwhelming." 519 U.S. at 77-

19

78.

20
21

In response to plaintiffs concerns that "all of the various procedural requirements for
removal will become unenforceable"; and "defendants will have an enormous incentive to

22

attempt wrongful removals" Id. at 77, Justice Ginsburg responded the federal bar could police
23
24

25
26

itself. "We do not anticipate ... dire consequences ... " Id.
The procedural requirements for removal remain enforceable by the federal
trial court judges to whom those requirements are directly addressed. Lewis'
prediction that rejection of his petition will "ncourage[e] state court
defendants to remove cases improperly," id., at 19, rests on an assumption
we do not indulge-that district courts generally will not comprehend, or will
DEFENDANT SCOTT STAFNE'S MOTION TO
DISMISS PURSUANT TO FRCP 12(b)(l)
Page-15

STAFNELAWFIRM
239 N. Olympic Avenue
Arlington, WA 98223
TEL: 360.403.8700

Case 2:16-cv-00077-TSZ Document 42 Filed 06/30/16 Page 18 of 23

2
3

4

5
6

7
8

9

A 216
balk at applying, the rules on removal Congress has prescribed. The
prediction furthennore assumes defendant's readiness to gamble that any
jurisdictional defect, for example, the absence of complete diversity, will
first escape detection, then disappear prior to judgment. The well-advised
defendant, we are satisfied, will foresee the likely outcome of an
,mwarranted removal-a swift and non-reviewable remand order, see 28
U.S.C. §§ 1447(c), (d), attended by the displeasure of a district court whose
authority has been improperly invoked. The odds against any gain from a
wrongful removal, in sum, render improbable Lewis' projection of increased
resort to the maneuver.
Id. at 77-78.
In 2004 a five to four majority of the Supreme Court refused to follow Caterpillar in

Grupo Dataflux v. Atlas Glob. Grp., L.P., 541 U.S. 567 (2004). Grupo was a case which had

10

been improperly brought in federal court. Years later and after a jury had reached a verdict it
11

became obvious the parties were not diverse when the case was filed. Justice Scalia writing
12

13

for the majority held considerations of finality, efficiency, and economy notwithstanding, the

14

lack of diversity jurisdiction at the outset of the case could not be cured by a change in the

15

parties which occurred throughout the litigation. Id. at 573-74.

16
17
18
19

20
21

22
23
24

25

26

While recognizing that Caterpillar is "technically" distinguishable because the
defect was cured by the dismissal of a diversity-destroying party, the Fifth
Circuit reasoned that "this factor was not at the heart of the Supreme Court's
analysis .... " 312 F.3d, at 172-173. The crux of the analysis, according to the
Fifth Circuit, was Caterpillar's statement that"[ o]nee a diversity case has been
tried in federal court ... considerations of finality, efficiency, and economy
become overwhelming." 519 U.S., at 75, 117 S.Ct. 467. This was indeed the
crux of analysis in Caterpillar, but analysis of a different issue. It related not to
cure of the jurisdictional defect, but to cure of a statutory defect, namely,
failure to comply with the requirement of the removal statute, 28 U.S.C. §
1441(a), that there be complete **1926 diversity at the time of removal.• The
argument to which the statement was directed took as its starting point that
subject-matter jurisdiction had been satisfied: "ultimate satisfaction of the
subject-matter jurisdiction requirement ought not swallow up antecedent
statutory violations." 519 U.S., at 74, 117 S.Ct. 467 (emphasis added). The
resulting holding of Caterpillar, therefore, is only that a statutory defect"Caterpillar's failure to meet the§ 1441(a) requirement that the case be fit for
federal adjudication at the time the removal petition is filed," id., at 73, 117
S.Ct. 467-did not require dismissal once there was no longer any
jurisdictional defect.
DEFENDANT SCOTT STAFNE'S MOTION TO
DISMISS PURSUANT TO FRCP 12(b)(l)
Page - 16

STAFNE LAW FIRM
239 N. Olympic Avenue
Arlington, WA 98223
TEL: 360.403.8700

Case 2:16-cv-00077-TSZ Document 42 Filed 06/30/16 Page 19 of 23
A 217
Id. at 573-74.
2

Justice Ginsburg, now writing for the minority in dissent in Grupo, contended that in

3

the absence of evidence of jurisdictional manipulation the holding of Caterpillar should be
4

5

6
7

8
9

10
11
12

13
14

15
16

17

applied. In this regard, Justice Ginsburg noted that as of 2004 there had been no showing of
parties or attorneys attempting to manipulate jurisdiction.
Nor would affirmance of the Fifth Circuit judgment entail a significant risk of
manipulation in other cases. Rarely, if ever, will a plaintiff bring suit in federal
district court, invoking diversity jurisdiction under§ 1332(a), with the
knowledge that complete diversity does not exist, but in the hope of a
postfilingjurisdiction-perfecting event. Such a plaintiffs anticipation is likely
to be thwarted by the court's or the defendant's swift detection of the
jurisdictional impediment. Furthennore, a plaintiff who ignores threshold
jurisdictional requirements risks sanctions and "the displeasure of a district
court whose authority has been improperly invoked." Caterpillar, 519 U.S., at
77-78, 117 S.Ct. 467. The Court's fears about the "litigation-fostering effect"
of exceptions to the time-of-filing rule, ante, at 1930, thus appear more
imaginary than real. No wave of new jurisdictional litigation is likely, as the
federal courts' experience after Caterpillar and Newman-Green shows.
Grupo Datajlux v. Atlas Glob. Grp., L.P., 541 U.S. at 597.

Justice Ginsburg's observations that the federal bar had not attempted to manipulate
diversity jurisdiction in such a way as to avoid its constitutional and statutory purposes was

18

authored before the Great recession. This economic downturn caused a wave oflitigation in
19
20

which the federal bar sought to manipulate federal courts, including this Court, into taking

21

jurisdiction over cases involving the dispossession ofland, which involved state law issues of

22

first impression. See e.g. Trujillo v. Nw. Tr. Servs., Inc., 183 Wash. 2d 820, 832-34, & 12

23

(2015) (rejecting most federal courts' holdings that alternative beneficiary declarations

24

complied with Washington's Deeds of Trust Act, RCW Ch. 61.24; Bain v. Metro. Mortgage

25

Grp., Inc., 175 Wash. 2d 83, 109 (2012)(also rejecting federal courts first impression statutory

26

DEFENDANT SCOTT STAFNE'S MOTION TO
DISMISS PURSUANT TO FRCP 12(b)(l)
Page - 17

STAFNE LAW FIRM
239 N. Olympic Avenue
Arlington, WA 98223
TEL: 360.403.8700

Case 2:16-cv-00077-TSZ Document 42 Filed 06/30/16 Page 20 of 23
A 218

constructions of Washington deeds of trust act in favor of lenders, their nominees and
2
3

successors.)
Here, Stafue's allegations ofNationstar and Nationstar's attorneys attempting to

4

manipulate this Court into invoking its diversity jurisdiction for improper purposes could not

5

be clearer. Indeed, See Did 26-1, ,r 8, Ex. 4.

6

Recently (after this Court issued its "minute order" declaring it has jurisdiction over
7

this case) the Supreme Cou1i issued a new decision emphasizing that it construes
8
9
10
11
12
13

14

15
16
17
18

19

20
21

22
23
24
25

26

jurisdictional laws "to respect the traditional role of state coutis in our federal system ... "

Merrill Lynch, Pierce, Fenner & Smith Inc. v. Manning, 136 S. Ct. 1562, 1567-68 (2016).
The Couti reminded us all that:
Out of respect for state courts, this Court has time and again declined to
construe federal jurisdictional statutes more expansively tl1an their language,
most fairly read, requires. We have reiterated the need to give "[ d]ue regard
[to] the rightful independence of state governments"-and more particularly,
to the power of lhe Slalt:s "tu provide for the detennination of controversies in
their courts." Romero, 358 U.S., at 380, 79 S.Ct. 468 (quoting Healy v. Ratta,
292 U.S. 263,270, 54 S.Ct. 700, 78 L.Ed. 1248 (1934); Shamrock Oil & Gas
Corp. v. Sheets, 313 U.S. 100, 109, 61 S.Ct. 868, 85 L.Ed. 1214 (1941)). Our
decisions, as we once put tl1e point, reflect a "deeply felt and traditional
reluctance ... to expand the jurisdiction of federal courts through a broad
reading of jurisdictional statutes." Romero, 358 U.S., at 379, 79 S.Ct. 468. 0
That interpretive stance serves, an1ong other things, to keep state-law actions
like Manning's in state court, and tlms to help maintain the constitutional
balance between state and federal judiciaries.
7 Nor does this Court's concern for state court prerogatives disappear, as
Merrill Lynch suggests it should, in the face of a statute granting exclusive
federal jurisdiction. See Brief for Petitioners 23-27. To the contrary, when a
statute mandates, rather than permits, federal jurisdiction-thus depriving state
courts of all ability to adjudicate certain claims-our reluctance to endorse
"broad reading[s]," Romero, 358 U.S., at 379, 79 S.Ct. 468 if anything, grows
stronger. And that is especially so when, as here, the construction offered
would place in federal court actions bringing only claims created by state
law-even if those claims might raise federal issues. To be sure, a grant of
exclusive federal jurisdiction, as Merrill Lynch reminds us, indicates that
Congress wanted "greater uniformity of construction and more effective and
expert application" of federal law than usual. Brief for Petitioners 24 (quoting
Matsushita, 516 U.S., at 383, 116 S.Ct. 873). But "greater" and "more" do not
DEFENDANT SCOTT STAFNE'S MOTION TO
DISMISS PURSUANT TO FRCP 12(b)(l)
Page-18

STAFNE LAW FIRM
239 N. Olympic Avenue
Arlington, WA 98223
TEL: 360.403.8700

Case 2:16-cv-00077-TSZ Document 42 Filed 06/30/16 Page 21 of 23
A 219

2

mean "total," and the critical question remains how far such a grant extends. In
resolving that issue, we will not lightly read tl1e statute to alter the usual
constitutional balance, as it would by sending actions witll all state-law claims
to federal court just because a complaint references a federal duty.

3

Id.136 S. Ct. at 1573-74 (2016).
4
5

IfNationstar is not an agent for the Bank/Trustee/Trust and/or has interests adverse to

6

them then it cannot appoint DWT, Burnside, and Bugaighis (Nationstar's own attorneys) as

7

tl1e trust's attorneys for purposes of invoking this Court's jurisdiction. This is because (1) tile

8

Limited POA does not grant Nationstar such power; and (2) 28 USC 1332 contemplates that

9

an injured party will detennine whetller to invoke tl1is Court's diversity jurisdiction.

10

Giving attorneys-in-fact and tl1eir attorneys at law tile power to create and/or maitlpulate
11

facts without access to the party witll sta11ding to bring suit is a recipe for disaster which will
12
13

eventually call into question the integrity oftl1e federal judicial department because (1) it

14

diminishes the "case or controversy" and sta11ding restrictions on tllis Court's exercise of

15

power; (2) ignores Congressional mandate that stale and other debt collection not be made in

16

the names of entities which don't exist; (3) intrudes on the time honored prerogative of the

17

States to establish its own procedures for the dispossession ofland; a11d (4) rewards attorneys

18

for making false jurisdictional and standing allegations to this Court.
19

20

When the circumstances oftllis case are carefully evaluated it appears that the only

21

reason Nationstar, DWT, Burnside, and Bugaighis have attempted to bring this action against

22

Stafne in a federal foreclosure action is because Burnside's feelings are hurt. See Stafne

23

declaration. Unfortunately, for him debt collectors must follow the law when they attempt to

24

bully people based on debt.

25

VI. Conclusion

26

DEFENDANT SCOTT STAFNE'S MOTION TO
DISMISS PURSUANT TO FRCP 12(b)(l)
Page - 19

STAFNE LAW FIRM
239 N. Olympic Avenue
Arlington, WA 98223
TEL: 360.403.8700

Case 2:16-cv-00077-TSZ Document 42 Filed 06/30/16 Page 22 of 23
A 220
For all the foregoing reasons, as well as those stated previously, this Court should
2

dismiss the complaint filed by DWT, Burnside, and Bugaighis on behalf ofNationstar falsely

3

naming Bank of New York Mellon, a Delaware corporation, as its client for purposes of

4

invoking this Court's diversity jurisdiction.

5
6
7

8

9

Dated this 30111 day of June, 2016 at Arlington, Washington.

10
11

s/ Scott E. Stafae

12

SCOTT E. STAFNE WSBA#6964

13
14
15

16
17
18
19
20

21

22
23

24
25
26

DEFENDANT SCOTT STAFNE'S MOTION TO
DISMISS PURSUANT TO FRCP 12(b)(l)
Page - 20

STAFNE LAW FIRM
239 N. Olympic Avenue
Arlington, WA 98223
TEL: 360.403.8700

Case 2:16-cv-00077-TSZ Document 36 Filed 06/24/16 Page 1 of 14
APPENDIX 36
A 221
1

The Honorable Thomas S. Zilly

2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

9
10
11
12
13
14
15
16
17
18

)
)
)
)
)
)
Plaintiff,
)
)
)
v.
)
SCOTT STAFNE, an individual; Todd Stafne, an )
)
individual; and REAL TIME RESOLUTIONS, )
Inc., a Texas corporation,
)
)
)
Defendants.
)
BANK OF NEW YORK MELLON, a Delaware
corporation, as trustee for Structured Asset
Mortgage Investments II Trust, Mortgage PassThrough Certificates Series 2005-AR2,

No. 2:16-cv-00077 TSZ
BANK OF NEW YORK
MELLON’S MOTION TO
SUBSTITUTE REAL PARTY IN
INTEREST PURSUANT TO FED.
R. CIV. P. 17(a)(3)
Noted for Consideration:
July 15, 2016

19
20
21
22
23
24
25
26
27
PLAINTIFF’S MOTION TO SUBSTITUTE REAL PARTY IN INTEREST
(2:16-cv-00077-TSZ)

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 36 Filed 06/24/16 Page 2 of 14
A 222
TABLE OF CONTENTS

1

Page(s)

2
3
4
5
6
7
8
9

I.

INTRODUCTION AND SUMMARY OF RELIEF REQUESTED .................................... 1

II.

STATEMENT OF FACTS .................................................................................................... 2
A.

BNYM and BONY are Both Corporations Named The Bank of New York Mellon. ...... 2

B.

Stafne’s Claims Regarding the Real Party in Interest. ..................................................... 4

C.

Investigation Regarding BONY As Trustee. .................................................................... 6

III.

AUTHORITY AND ARGUMENT .................................................................................. 7

A. Rule 17(a) Provides A Liberal Standard For Substitution Upon Challenge to Real-Partyin-Interest Status. ...................................................................................................................... 7

10

B.

This Court Should Allow Substitution of BONY. ............................................................ 8

11

C.

In the Alternative, This Court Should Allow Ratification. ............................................... 9

12

D.

Defendants Will Not Suffer Prejudice Due to Substitution. ............................................. 9

13

IV.

CONCLUSION .............................................................................................................. 10

14
15
16
17
18
19
20
21
22
23
24
25
26
27
PLAINTIFF’S MOTION TO SUBSTITUTE REAL PARTY IN INTEREST
(2:16-cv-00077-TSZ) - i

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 36 Filed 06/24/16 Page 3 of 14
A 223
TABLE OF AUTHORITIES

1

Page(s)

2
3

Federal Cases

4

Abu Dhabi Commercial Bank v. Morgan Stanley & Co. Inc.,
888 F. Supp. 2d 478 (S.D.N.Y. 2012) .................................................................................8, 9

5
6
7
8
9
10
11
12
13
14
15
16
17
18

Beaudu v. Starwood Hotels and Resorts Worldwide, Inc.,
2005 WL 1877344 (W.D. Wash. 2005) ..................................................................................7
Choi v. Kim,
50 F.3d 244 (3d Cir. 1995) ......................................................................................................8
Dorroh v. Deerbrook Ins. Co.,
612 Fed. Appx. 424 (9th Cir. 2015) ........................................................................................8
Dunmore v. United States,
358 F.3d 1107 (9th Cir. 2004) .................................................................................................8
FDIC v. Isham,
777 F. Supp.828 (D. Colo. 1991) ............................................................................................9
Nat’l Ins. Underwriters, by Nat. Aviation Underwriters v. Mark,
704 F. Supp. 1033 (D. Colo. 1989) .........................................................................................8
United States for Use & Benefit of Wulff v. CMA, Inc.,
890 F.2d 1070 (9th Cir. 1989) .................................................................................................8
Rules
Fed. R. Civ. P. 17(a)(3) ....................................................................................................... passim

19
Other Authorities
20
http://www.dfs.ny.gov/about/whowesupervise.htm#banks ...........................................................1
21
22
23
24
25
26
27
PLAINTIFF’S MOTION TO SUBSTITUTE REAL PARTY IN INTEREST
(2:16-cv-00077-TSZ) - ii

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 36 Filed 06/24/16 Page 4 of 14
A 224
1
2

I.

INTRODUCTION AND SUMMARY OF RELIEF REQUESTED

Defendant Scott Stafne has filed multiple briefs quibbling not over the obvious fact that

3

he defaulted on the loan for which he pledged his home as collateral, but rather over the

4

corporate structure and entities affiliated with Plaintiff Bank of New York Mellon (BNYM).

5

Stafne originally moved to dismiss for lack of jurisdiction based in part on the theory that the

6

Complaint failed to identify the citizenship of non-party subsidiary of Plaintiff, the Bank of

7

New York Mellon Trust Company, NA. See Dkt. 10. (Stafne has also objected that BNYM

8

was not a valid Plaintiff because, according to him, BNYM would not accept service of process

9

in a separate matter unless it was identified with the definite article “The” before Bank of New

10

York Mellon. See Dkt. 21.) The Court denied that motion. See Dkt. 22. Stafne disagrees with

11

the Court’s ruling, see Dkt. 27 ¶ 12, and testified in deposition that he intends to continue

12

litigation over jurisdiction because he does not believe the Court’s Order was a “reasoned”

13

decision. See Declaration of Fred Burnside, Ex. E (Stafne Dep.) at 6:19-7:3. More recently,

14

Stafne has changed tack, suggesting that the proper Plaintiff in this case is a different Bank of

15

New York Mellon corporation. Stafne contends in his June 2, 2016, declaration that the proper

16

Plaintiff is BNYM’s wholly-owned subsidiary, the New York state-chartered bank, The Bank of

17

New York Mellon, a New York state-chartered banking corporation (“BONY”), with a main

18

office in New York, New York. See Dk. 29 ¶ 4.

19

Upon objection to the status of Plaintiff as real-party in interest, the Federal Rules of

20

Civil Procedure expressly permit one corporate entity to ratify prior proceedings of another

21

entity (or to join or substitute in as a party) within a reasonable time, and BONY, as the wholly

22

owned-subsidiary of BNYM, could do just that, to assuage Stafne’s concerns. See Fed. R. Civ.

23

P. 17(a)(3). But past experience with Mr. Stafne suggests that ratification (or joinder) may not

24

satisfy Stafne and may result in even more litigation.

25

Thus, to avoid further motions practice, BNYM now seeks to substitute BONY as

26

Plaintiff under Rule 17(a)(3), because although BONY is wholly owned by BNYM, further

27

investigation into the statements in Stafne’s June 2, 2016, declaration confirms that it is the
PLAINTIFF’S MOTION TO SUBSTITUTE REAL PARTY IN INTEREST
(2:16-cv-00077-TSZ) - 1

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 36 Filed 06/24/16 Page 5 of 14
A 225
1

New York, rather than Delaware, corporation that is the Bank of New York corporation that acts

2

as Trustee for the Trust owning Stafne’s loan (the Structured Asset Mortgage Investments II

3

Trust, Mortgage Pass-Through Certificates Series 2005-AR2 (“SAMI Trust”)).

4

This proposed substitution does not affect the merits of this action—all other allegations

5

and causes of action in the Complaint remain the same, and this Court retains diversity

6

jurisdiction because BONY is both incorporated and has its principal place of business in New

7

York, which is diverse from all Defendants. In an effort to assuage Stafne’s concerns, and to

8

avoid further time and expense on issues unrelated to the merits of the claims, BNYM asks that

9

the Court permit substitution of BONY into this action as Plaintiff. In the alternative, BNYM

10

requests leave to allow BONY to ratify BNYM’s commencement of the action on its behalf, as

11

Rule 17(a)(3) also permits.

13

II.
STATEMENT OF FACTS
BNYM and BONY are Both Corporations Named The Bank of New York
Mellon.

14

Nationstar Mortgage LLC serves as attorney in fact for BONY with respect to certain

12
A.

15

securitized trusts, pursuant to a series of identical (annual) Limited Powers of Attorney.

16

Declaration of Fay Janati (“Janati Decl.”) ¶ 4 & Ex. A. The Limited Power of Attorney in this

17

case is executed by “The Bank of New York Mellon F/K/A The Bank of New York as successor

18

in interest to JP Morgan Chase Bank, N.A.,” and references the securitized trusts for which

19

Nationstar may take action (including foreclosure). Id. Stafne’s promissory Note was indorsed

20

to “The Bank of New York Mellon F/K/A The Bank of New York, Successor Trustee, To JP

21

Morgan Chase Bank, As Trustee.” Id. ¶ 6 & Ex. B. Somewhat ambiguously, none of these

22

documents identifies the corporate designation of “The Bank of New York Mellon.”

23

In seeking to verify the correct Bank of New York entity that acts as Trustee for the

24

SAMI Trust owning Mr. Stafne’s loan, Nationstar—as servicer and attorney in fact for BONY,

25

authorized and required to prosecute foreclosures on defaulted loans within the Trust—and

26

undersigned counsel examined the records reflecting the corporate history and mergers for the

27

Bank of New York of Mellon Corporation (founded by Alexander Hamilton). See Burnside
PLAINTIFF’S MOTION TO SUBSTITUTE REAL PARTY IN INTEREST
(2:16-cv-00077-TSZ) - 2

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 36 Filed 06/24/16 Page 6 of 14
A 226
1

Decl. ¶ 2. Betty Johnson, a paralegal for Nationstar, consulted Nationstar’s “Investor Matrix,”

2

which identifies the investor for securitized trusts for which Nationstar acts as servicer. Betty

3

Johnson Declaration (“Johnson Decl.”) ¶ 4. Ms. Johnson determined the correct trustee of the

4

SAMI Trust was “Bank of New York Mellon Corporation” based on the Investor Matrix’s

5

listing of “The Bank of New York, Mellon Corporation” as trustee. Id. & Ex. A.

6
7
8
9
10
11
12
13
14
15
16
17
18
19

Indeed, BNYM’s Annual Report to shareholders, uses BNY Mellon as a short-form for
Plaintiff the Bank of New York Mellon Corporation, and explains:

21

In this Annual Report, references to “our,” “we,” “us,” “BNY Mellon,” the
“Company” and similar terms refer to The Bank of New York Mellon
Corporation and its consolidated subsidiaries. The term “Parent” refers to The
Bank of New York Mellon Corporation but not its subsidiaries.

22

See Burnside Decl., ¶ 3 & Ex. A at 4 BNY Mellon. The Report confirms that “BNY Mellon”

23

acts as Trustee of securitized trusts like the one owning Stafne’s loan:

20

24
25
26

BNY Mellon acts as trustee and document custodian for certain mortgagebacked security (“MBS”) securitization trusts. [… ] BNY Mellon is indemnified
by the servicers or directly from trust assets under the governing agreements.
BNY Mellon may appear as the named plaintiff in legal actions brought by

27
PLAINTIFF’S MOTION TO SUBSTITUTE REAL PARTY IN INTEREST
(2:16-cv-00077-TSZ) - 3

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 36 Filed 06/24/16 Page 7 of 14
A 227
servicers in foreclosure and other related proceedings because the trustee is
the nominee owner of the mortgage loans within the trusts.

1
2

Id. at BNY Mellon 29 (emphasis added).

3

Likewise, the Corporate Trust Investor Reporting website for BNYM also provided a

4

reasonable basis to believe Plaintiff was the Trustee, because for the SAMI Trust, the

5

“contacts” tab lists the Trustee as “The Bank of New York,” with a hyperlink that takes the user

6

to the Bank of New York Mellon Corporation’s website, www.bnymellon.com. See Burnside

7

Decl., ¶ 4 & Ex. B. The website further explains that the information is provided by “The Bank

8

of New York Mellon Corporation.” Id. Finally a search of New York Corporations entitled

9

“The Bank of New York Mellon” discloses BNYM, a Delaware Corporation. Burnside Decl., ¶

10

5 & Ex. C. BONY is recognized is “a corporation organized by Special Act of the New York

11

State Legislature, Chapter 616 of the Laws of 1871,” regulated by the State of New York

12

Banking Department (renamed the New York Department of Financial Services in 2011). See

13

Janati Decl., Ex. E.1

14

Thus, undersigned counsel drafted (and Nationstar, as attorney in fact) approved the

15

Complaint listing as Plaintiff the Bank of New York Mellon (a Delaware corporation), rather

16

than its wholly owned subsidiary, The Bank of New York Mellon (a New York corporation).

17

See Burnside Decl. ¶ 6.

18

B.

19

On February 29, 2016, Scott Stafne filed a Motion to Dismiss for Lack of Subject

Stafne’s Claims Regarding the Real Party in Interest.

20

Matter Jurisdiction. Dkt. 10. In his Motion, Stafne contested jurisdiction because he alleged

21

the Plaintiff was Bank of New York Mellon Trust Company, N.A., a federally chartered

22

national banking association. Id. at 8-9. Counsel for BNYM investigated Stafne’s allegation

23

but saw nothing suggesting that the trustee of the SAMI Trust (as opposed to other, irrelevant

24

trusts) was a national banking association. Burnside Decl., ¶ 7. As BNYM explained earlier,

25
1

26
27

The government website for the Department of Financial Services explains that in New York, banks are also
corporations: “Banks, also known as commercial banks, are community, regional or national for-profit business
corporations owned by private investors and governed by a board of directors chosen by stockholders.” See
http://www.dfs.ny.gov/about/whowesupervise.htm#banks (emphasis added).

PLAINTIFF’S MOTION TO SUBSTITUTE REAL PARTY IN INTEREST
(2:16-cv-00077-TSZ) - 4

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 36 Filed 06/24/16 Page 8 of 14
A 228
1

“the Complaint explains that Bank of New York Mellon Corporation (“BNYM”), a Delaware

2

corporation, is the Plaintiff, not a national association or trust company.” Dkt. 12 at 1, 4-5.
On Reply, Stafne continued to allege “Bank of New York Mellon, is not a corporation,

3
4

but rather is (as it consistently describes itself) a bank.” Dkt. #14 at 8; see also Dkt. 16 ¶ 30

5

(“The power of attorney is to represent Bank of New York Mellon, not Bank of New York

6

Mellon, a Delaware corporation.”). Of course, nothing prevents a banking institution from also

7

being a corporate entity, making this distinction irrelevant. In any event, Stafne supplemented

8

his Motion with multiple declarations, including an April 21, 2016 declaration that alleged the

9

Plaintiff was incorrect because it should have been “The Bank of New York Mellon” instead of

10

“Bank of New York Mellon.” See Dkt. 21 ¶ 11 (“the complaint establishes that the plaintiff in

11

this action is not The Bank of New York Mellon” (emphasis in original)); id. ¶ 22 (“Because

12

the complaint in this case does not properly name any proper Bank of New York entity, i.e. one

13

which includes the word “The” before “Bank”, the purported plaintiff does not have any

14

interest in the deed of trust, even though an entity with a similar sounding name may be

15

claiming an interest in the stale deed of trust at issue in this case.”). Stafne also again alleged

16

that “JP Morgan Chase [sold its] trustee business to Bank of New York, N.A.” Id. ¶ 14.

17

Counsel for BNYM determined the use of the definite article “the” was not a material

18

distinction and did not change the identity (let alone eliminate the existence) of Plaintiff.

19

Burnside Decl., ¶ 8. Counsel had already determined the Plaintiff (as real party in interest)

20

was neither The Bank of New York Mellon Trust Company, N.A., nor Bank of New York, N.A.

21

Id., as Stafne suggests. 2

22
23
24
25
26
27

2

Stafne’s confusion appears to stem from the fact that he has been reviewing the wrong agreements. There was an
April 7, 2006, Purchase and Assumption agreement between the Bank of New York, Inc. and J.P. Morgan Chase &
Co. (the corporate parent to JPMorgan Chase Bank N.A.) to transfer all of the relevant assets; next there was an
October 1, 2006 Assignment and Assumption Agreement, under which certain “Corporate Trust Contracts” where
transferred to the Bank of New York, the New York State chartered bank). At the same time, other agreements
were executed in October 2006 for “Resignation and Assumption,” under which various Bank of New York, Inc.,
subsidiaries took over the role of Trustee for specific securitized trusts. Although the Bank of New York Trust Co.,
N.A. took over as Trustee for other securitized trusts—including apparently the trust at issue in the Robertson
litigation Stafne focuses on—the Bank of New York (the New York corporation and state chartered bank) took
over as Trustee of the SAMI Trust. See Janati Decl., Exs. D-G. The evidence shows that in October 2006, Chase
resigned and BONY assumed Trustee responsibilities. Janati Dec. Ex. F.
PLAINTIFF’S MOTION TO SUBSTITUTE REAL PARTY IN INTEREST
(2:16-cv-00077-TSZ) - 5

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 36 Filed 06/24/16 Page 9 of 14
A 229
On June 2, 2016, Stafne filed a “Motion to Prove Authority to Bring Lawsuit.” Dkt. 28.

1
2

Stafne challenged counsel’s ability to act on behalf of multiple entities, most of which are not

3

affiliated with the Complaint. See id. at 1-2. Stafne’s June 2, 2016 Declaration alleged for the

4

first time that JPMorgan Chase’s “securitized trust portfolio” was “transferred to Bank of New

5

York in 2006. […] The Bank of New York to which this business was transferred was a state,

6

i.e. New York, chartered bank in 2006.” Dkt. 29 ¶ 4.

7

C.

8

Transfer of Assets from Chase to the Bank of New York. Following Stafne’s June 2,

9

Investigation Regarding BONY As Trustee.

2016 Declaration, counsel for BNYM renewed investigation into the identity of The Bank of

10

New York, as trustee of the SAMI Trust. Burnside Decl., ¶ 9. On June 14, 2016, counsel

11

obtained from the Bank of New York Mellon a copy of an “Assignment and Assumption

12

Agreement” effectuating the transfer of “Acquired Corporate Trust Contracts”—including the

13

SAMI Trust, as identified in Annex A, Schedule 2.1(a)(3) (REDACTED)—to “The Bank of

14

New York, a wholly owned subsidiary of BNY.” Janati Decl., Ex. D.3
The Bank of New York Becomes the Bank of New York Mellon. In assessing

15
16

Stafne’s arguments, counsel also reviewed documents reflecting the merger between the Bank

17

of New York and Mellon Financial Corporation. Specifically, counsel reviewed a certification

18

of name change from the State of New York Banking Department that identified a July 1, 2008,

19

Certificate of Effectiveness providing for the Merger of BNY Mellon Interim Institutional

20

National Bank, with and into The Bank of New York, under the name The Bank of New York

21

Mellon with a principal office located at “One Wall Street, New York, New York.” Burnside

22

Decl. ¶ 10; Janati Decl., Ex. E. That document further explains that BONY Mellon is a New

23

York Corporation. Id. at F at 1 (“The Bank of New York Mellon is a corporation organized by

24

Special Act of the New York State Legislature, Chapter 616 of the Laws of 171 ….”)

25
26
27

3

There is no dispute that Mr. Stafne’s loan was deposited into the SAMI Trust by, at the latest, May 31, 2005. See
Janati Decl. ¶ 11 & Ex. G (May 2005 Assignment, Assumption, and Recognition Agreement, with redacted loan
list showing Stafne loan deposited into trust).

PLAINTIFF’S MOTION TO SUBSTITUTE REAL PARTY IN INTEREST
(2:16-cv-00077-TSZ) - 6

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 36 Filed 06/24/16 Page 10 of 14
A 230
BONY is a wholly owned subsidiary of BNYM. See Burnside Decl. ¶ 11 & Ex. D.

1
2

BNYM’s subsidiary entities are reported by the FDIC, as follows:

3
4
5
6
7
8
9
10
11
12
13

Id.
In sum, there are two Bank of New York Mellon corporations, but one is from Delaware

14

and one is from New York. This misidentification is immaterial to Stafne’s jurisdictional

15

attacks (let alone the merits), as both corporations are completely diverse from Defendants.

16

III.
AUTHORITY AND ARGUMENT
Rule 17(a) Provides A Liberal Standard For Substitution Upon Challenge to
Real-Party-in-Interest Status.

17

A.

18

Federal Rule Civil Procedure 17(a)(3) permits substitution of a plaintiff upon a challenge

19

to the status of the plaintiff: “[t]he court may not dismiss an action for failure to prosecute in the

20

name of the real party in interest until, after an objection, a reasonable time has been allowed for

21

the real party in interest to ratify, join, or be substituted into the action. After ratification, joinder,

22

or substitution, the action proceeds as if it had been originally commenced by the real party in

23

interest.” (emphasis added). This Court has recognized “Fed.R.Civ.P. 17(a) provides a liberal

24

standard for the substitution of the real party in interest, and for relation back to the date of

25

filing.” Beaudu v. Starwood Hotels and Resorts Worldwide, Inc., 2005 WL 1877344, *1 (W.D.

26

Wash. 2005) (Zilly, J.). The purpose the rule “is to prevent forfeiture of an action” when a

27
PLAINTIFF’S MOTION TO SUBSTITUTE REAL PARTY IN INTEREST
(2:16-cv-00077-TSZ) - 7

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 36 Filed 06/24/16 Page 11 of 14
A 231
1

reasonable mistake has been made. United States for Use & Benefit of Wulff v. CMA, Inc., 890

2

F.2d 1070, 1074 (9th Cir. 1989).
Likewise, BONY may ratify the action and permit its parent to proceed (so long as it

3
4

agrees to be bound by the result), and so long as the decision to sue in Plaintiff’s name

5

represented “an understandable mistake and not a strategic decision.” See, e.g., Dunmore v.

6

United States, 358 F.3d 1107, 1112 (9th Cir. 2004); Dorroh v. Deerbrook Ins. Co., 612 Fed.

7

Appx. 424, 427 (9th Cir. 2015); Abu Dhabi Commercial Bank v. Morgan Stanley & Co. Inc., 888

8

F. Supp. 2d 478, 490 (S.D.N.Y. 2012).
B.

9

This Court Should Allow Substitution of BONY.

The Court should allow substitution here because Plaintiff has sought cure any defects

10
11

in its role as Plaintiff by substituting its subsidiary within a “reasonable time” after Stafne’s

12

June 2, 2016 Declaration. The facts detailed above show that an understandable (and

13

immaterial) mistake has been made in that currently-named Plaintiff’s wholly-owned

14

subsidiary with a substantially identical name is the Trustee of the SAMI Trust instead of the

15

parent entity. Thus, BNYM seeks to substitute its wholly owned subsidiary (also a corporate

16

entity named The Bank of New York Mellon) for itself.
Nationstar operates pursuant to a Power of Attorney that simply references “The Bank

17
18

of New York Mellon.” Attach A. Nationstar and its counsel examined corporate records as

19

detailed above and came to the conclusion that the Bank of New York Mellon, a Delaware

20

corporation, was the Trustee of the SAMI Trust, rather than its wholly owned subsidiary, The

21

Bank of New York Mellon, a New York corporation. Counsel for Nationstar attempted to

22

confirm the identity of the Trustee and believed the correct entity had been named. Burnside

23

Decl. ¶¶ 2-6.4 Stafne’s June 2, 2016 Declaration provided notice that a different Bank of New

24

York Mellon corporation (BONY) might in fact be the correct Trustee of the SAMI Trust.

25
4

26
27

Contrary to Stafne’s arguments in prior motions, Nationstar is not the real party in interest, because case law
explains that an entity acting as attorney-in-fact cannot be the real party in interest and must bring the action in the
name of its principal. See Choi v. Kim, 50 F.3d 244, 247 (3d Cir. 1995); Nat’l Ins. Underwriters, by Nat. Aviation
Underwriters v. Mark, 704 F. Supp. 1033, 1035 (D. Colo. 1989).

PLAINTIFF’S MOTION TO SUBSTITUTE REAL PARTY IN INTEREST
(2:16-cv-00077-TSZ) - 8

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 36 Filed 06/24/16 Page 12 of 14
A 232
1

Counsel immediately began investigation of this possibility and together with Nationstar was

2

able to determine that Plaintiff’s wholly owned subsidiary, BONY, is in fact the correct Trustee

3

of the SAMI Trust. Burnside Decl. ¶¶ 9-11; Johnson Decl. ¶ 4.

4

Determining which Bank of New York entity should appear as Plaintiff in this action

5

was difficult because both corporations have the same name and several operative documents

6

simply refer to the “Bank of New York Mellon,” without indication of a specific distinction

7

between the two entities. Thus, Nationstar and its counsel made a reasonable mistake in

8

identifying BNYM as Trustee rather than BONY. The identity of the SAMI Trust, in which

9

Stafne’s Note was securitized, has never been questioned and remains the same.

10

C.

11

If the Court finds substitution is not appropriate, BONY is willing and able to ratify

In the Alternative, This Court Should Allow Ratification.

12

BNYM’s act of filing the Complaint on behalf of the SAMI Trust by submitting a declaration

13

stating as much, and agreeing to be bound by the result of this case. Janati Decl. ¶ 12. Abu

14

Dhabi Commercial Bank, 888 F. Supp. 2d at 490 (“the timely ratification confirms that

15

Butterfield stands in the shoes of BMMF; if BMMF suffered a loss, Butterfield is the ‘real party

16

in interest’ and may assert those claims”).

17

D.

Defendants Will Not Suffer Prejudice Due to Substitution.

18

In assessing a Motion to Substitute under Rule 17(a)(3), the Court looks “to whether

19

defendant had fair notice of the action and whether the substitution will alter the claim to the

20

prejudice of defendant.” FDIC v. Isham, 777 F. Supp.828, 830 (D. Colo. 1991)(permitting

21

substitution of one FDIC entity for another as Plaintiff). Here, as in Isham, “Defendants

22

clearly had notice of [BONY’s] claims against them when the original complaint was served,”

23

and the “mere change of plaintiff from [BNYM] to [BONY] does not change the nature of

24

those claims, nor does it inject any new elements into this action,” such that defendants will not

25

be prejudiced.” Id. Again, in this case, Defendants will not suffer prejudice from any

26

substitution, as all of the substantive allegations in the Complaint remain exactly the same—

27

Plaintiff is prepared to offer a redlined version of the Complaint should the Court desire—and
PLAINTIFF’S MOTION TO SUBSTITUTE REAL PARTY IN INTEREST
(2:16-cv-00077-TSZ) - 9

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 36 Filed 06/24/16 Page 13 of 14
A 233
1

there are no new claims, theories, or facts being added to the action. Further, because

2

substitution of a New York entity with a principal place of business in New York does not affect

3

diversity jurisdiction, this Court retains jurisdiction over the matter. Thus, substitution will not

4

make any substantive difference to Defendants. To the extent Defendants wish to add

5

additional time to the case schedule in light of these facts, neither BONY nor BNYM would

6

oppose an extension of deadlines.

7

IV.

CONCLUSION

8

For the foregoing reasons, Plaintiff respectfully requests the Court substitute BONY for

9

BNYM pursuant to Rule 17(a)(3), or in the alternative, allow BONY to ratify BNYM as the

10
11
12
13
14
15

real party in interest.
DATED this 24th day of June, 2016.
Davis Wright Tremaine LLP
Attorneys for Bank of New York Mellon
By s/ Fred B. Burnside
Fred B. Burnside, WSBA #32491
Zana Z. Bugaighis, WSBA #43614
E-mail: fredburnside@dwt.com
E-mail: zanabugaighis@dwt.com

16
17
18
19
20
21
22
23
24
25
26
27
PLAINTIFF’S MOTION TO SUBSTITUTE REAL PARTY IN INTEREST
(2:16-cv-00077-TSZ) - 10

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 37 Filed 06/24/16 Page 1 of 4
APPENDIX 37
A 234
1

The Honorable Thomas S. Zilly

2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

9
10
11
12
13
14
15
16
17
18

)
)
)
)
)
)
Plaintiff,
)
)
)
v.
)
SCOTT STAFNE, an individual; Todd Stafne, an )
)
individual; and REAL TIME RESOLUTIONS, )
Inc., a Texas corporation,
)
)
)
Defendants.
)
BANK OF NEW YORK MELLON, a Delaware
corporation, as trustee for Structured Asset
Mortgage Investments II Trust, Mortgage PassThrough Certificates Series 2005-AR2,

No. 2:16-cv-00077 TSZ
BETTY JOHNSON
DECLARATION IN SUPPORT OF
BANK OF NEW YORK
MELLON’S MOTION TO
SUBSTITUTE REAL PARTY IN
INTEREST PURSUANT TO FED.
R. CIV. P. 17(a)(3)

19
20
21
22
23
24
25
26
27
JOHNSON DECL. ISO PLAINTIFF’S MOTION
TO SUBSTITUTE REAL PARTY IN INTEREST
(2:16-cv-00077-TSZ)

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 37 Filed 06/24/16 Page 2 of 4
A 235
1

I, Betty Johnson, declare:

2

1.

Identity of Declarant. I, Betty Johnson, am employed as a contract paralegal with

3 Nationstar Mortgage LLC (“Nationstar”). In my position and as part of my employment, I work
4 on issues that give me familiarity with and access to trustee materials in Nationstar’s possession.
5 Except as otherwise indicated, all facts set forth in this declaration are based on my personal
6 knowledge, which is based on my experience, my review of relevant documents, including
7 Nationstar’s loan servicing records for Scott Stafne, and my discussions with appropriate
8 personnel. The facts and documents set forth below are maintained in the ordinary course of
9 business, and if called upon to testify regarding such matters, I could competently do so.
10

2.

Declarant’s Authority. I am duly authorized by Nationstar to make this

11 declaration.
12

3.

Basis for Declaration. I am familiar with the manner and procedure by which the

13 records of Nationstar are obtained, prepared, and maintained on behalf of BONY and the SAMI
14 Trust. Those records are obtained, prepared, and maintained by employees or agents of Nationstar
15 in the performance of their regular business duties at or near the time, act, conditions, or events
16 recorded thereon. The records are made either by persons with knowledge of the matters they
17 record or from information obtained by persons with such knowledge. I have knowledge of and
18 access to the business records. I personally reviewed those records when making this declaration.
19

4.

Prior to filing the Complaint in this action, I consulted a resource tool at my

20 disposal known as the “Investor Matrix”—which identifies the investor for securitized trusts for
21 which Nationstar acts as servicer—and determined the correct trustee of the SAMI Trust was
22 Bank of New York Mellon Corporation. A true and correct screenshot of Nationstar’s Investor
23 Matrix for the SAMI Trust is attached hereto as Exhibit A. After further review of records and
24 information provided by BONY, I confirmed in June 2016 that the Bank of New York Mellon (a
25 Delaware Corporation), is not the Trustee of the SAMI Trust; instead, the Trustee of the SAMI
26
27 JOHNSON DECL. ISO PLAINTIFF’S MOTION TO SUBSTITUTE REAL PARTY
IN INTEREST
(2:16-cv-00077-TSZ)- 2

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 37 Filed 06/24/16 Page 3 of 4
A 236

Case 2:16-cv-00077-TSZ Document 38 Filed 06/24/16 Page 1 of 5
APPENDIX 38
A 237
1

The Honorable Thomas S. Zilly

2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

9
10
11
12
13
14
15
16
17
18

)
)
)
)
)
)
Plaintiff,
)
)
)
v.
)
SCOTT STAFNE, an individual; Todd Stafne, an )
)
individual; and REAL TIME RESOLUTIONS, )
Inc., a Texas corporation,
)
)
)
Defendants.
)
BANK OF NEW YORK MELLON, a Delaware
corporation, as trustee for Structured Asset
Mortgage Investments II Trust, Mortgage PassThrough Certificates Series 2005-AR2,

No. 2:16-cv-00077 TSZ
BURNSIDE DECLARATION IN
SUPPORT OF BANK OF NEW
YORK MELLON’S MOTION TO
SUBSTITUTE REAL PARTY IN
INTEREST PURSUANT TO FED.
R. CIV. P. 17(a)(3)
Note on Motion Calendar:
July 15, 2016

19
20
21
22
23
24
25
26
27
BURNSIDE DECL. ISO PLAINTIFF’S MOTION
TO SUBSTITUTE REAL PARTY IN INTEREST
(2:16-cv-00077-TSZ)

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 38 Filed 06/24/16 Page 2 of 5
A 238
1

I, Fred Burnside, declare as follows:

2

1.

I am an attorney with Davis Wright Tremaine, LLP and counsel of record for

3 Plaintiff Bank of New York Mellon (“BNYM”) in this matter.
4

2.

In seeking to verify the correct Bank of New York entity that acts as Trustee for the

5 SAMI Trust owning Mr. Stafne’s loan, Nationstar—as servicer and attorney in fact for BONY,
6 authorized and required to prosecute foreclosures on defaulted loans within the Trust—and I
7 examined the records reflecting the corporate history and mergers for the Bank of New York of
8 Mellon Corporation (founded by Alexander Hamilton, see, e.g.,
9 https://www.bnymellon.com/us/en/timeline.jsp).
10

3.

BNYM’s Annual Report to shareholders, uses BNY Mellon as a short-form for

11 Plaintiff the Bank of New York Mellon Corporation, and explains at 4 BNY Mellon:
12
13
14

In this Annual Report, references to “our,” “we,” “us,” “BNY Mellon,” the
“Company” and similar terms refer to The Bank of New York Mellon Corporation
and its consolidated subsidiaries. The term “Parent” refers to The Bank of New
York Mellon Corporation but not its subsidiaries.

15 The Report confirms at BNY Mellon 29 that “BNY Mellon” acts as Trustee of securitized trusts
16 like the one owning Stafne’s loan:
17
18
19
20

BNY Mellon acts as trustee and document custodian for certain mortgage-backed
security (“MBS”) securitization trusts. [… ] BNY Mellon is indemnified by the
servicers or directly from trust assets under the governing agreements. BNY
Mellon may appear as the named plaintiff in legal actions brought by servicers
in foreclosure and other related proceedings because the trustee is the nominee
owner of the mortgage loans within the trusts.

21 A true and correct copy of BNYM’s 2014 Annual Report (issued in February 2015), obtained
22 from here: https://www.bnymellon.com/_global-assets/pdf/investor-relations/annual-report23 2014.pdf is attached hereto as Exhibit A.
24

4.

Likewise, the Corporate Trust Investor Reporting website for BNYM also provided

25 a reasonable basis to believe Plaintiff was the Trustee, because for the SAMI Trust, the “contacts”
26 tab lists the Trustee as “The Bank of New York,” with a hyperlink that takes the user to the Bank
27 BURNSIDE DECL. ISO PLAINTIFF’S MOTION
TO SUBSTITUTE REAL PARTY IN INTEREST
(2:16-cv-00077-TSZ)- 2

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 38 Filed 06/24/16 Page 3 of 5
A 239
1 of New York Mellon Corporation’s website, www.bnymellon.com. The website further explains
2 that the information is provided by “The Bank of New York Mellon Corporation.” A true and
3 correct copy of a Corporate Trust Investor Reporting website screenshot for the SAMI Trust is
4 attached hereto as Exhibit B.
5

5.

A search of New York Corporations entitled “The Bank of New York Mellon”

6 discloses BNYM, a Delaware Corporation. A true and correct copy of a screenshot of the New
7 York corporations search is attached hereto as Exhibit C.
8

6.

I drafted (and Nationstar approved) the Complaint listing as Plaintiff the Bank of

9 New York Mellon (a Delaware corporation), rather than its wholly owned subsidiary, The Bank of
10 New York Mellon (a New York corporation).
11

7.

I investigated Stafne’s allegation that the Plaintiff in this action should be the Bank

12 of New York Mellon Trust Company, N.A., a federally chartered national banking association but
13 saw nothing suggesting that the trustee of the SAMI Trust was a national banking association.
14

8.

In response to Stafne’s challenge that the Plaintiff was incorrect because it should

15 have been “The Bank of New York Mellon” instead of “Bank of New York Mellon,” I reviewed
16 various cases and SEC filings referencing the Bank of New York Mellon, and determined the use
17 of the definite article “the” was not a material distinction, was frequently omitted, and did not
18 change the identity (let alone eliminate the existence) of Plaintiff.
19

9.

Following Stafne’s June 2, 2016 Declaration, I renewed investigation into the

20 identity of The Bank of New York, as trustee of the SAMI Trust. On June 14, 2016, I obtained
21 from the Bank of New York Mellon’s legal department a copy of an “Assignment and Assumption
22 Agreement” effectuating the transfer of “Acquired Corporate Trust Contracts”—including the
23 SAMI Trust, as identified in Annex A, Schedule 2.1(a)(3) (REDACTED)—to “The Bank of New
24 York, a wholly owned subsidiary of BNY.” A true and correct copy of the Assignment and
25 Assumption Agreement with Annex A is attached to the Janati Declaration filed herewith.
26
27 BURNSIDE DECL. ISO PLAINTIFF’S MOTION
TO SUBSTITUTE REAL PARTY IN INTEREST
(2:16-cv-00077-TSZ)- 3

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 38 Filed 06/24/16 Page 4 of 5
A 240
1

10.

My investigation also included reviewing documents reflecting the merger between

2 the Bank of New York and Mellon Financial Corporation. Specifically, I reviewed a certification
3 of name change from the State of New York Banking Department that identified a July 1, 2008,
4 Certificate of Effectiveness providing for the Merger of BNY Mellon Interim Institutional
5 National Bank, with and into The Bank of New York, under the name The Bank of New York
6 Mellon with a principal office located at “One Wall Street, New York, New York.” A true and
7 correct copy of the certification of name change is attached to the Janati Declaration filed
8 herewith. That document explains that he Bank of New York Mellon is “a corporation organized
9 by Special Act of the New York State Legislature, Chapter 616 of the Laws of 1871,” and remains
10 a New York Corporation.
11

11.

BONY is a wholly owned subsidiary of BNYM. A true and correct copy of an

12 FDIC Fact Sheet is attached hereto as Exhibit D.
13

12.

The primary reason for seeking to substitute the Bank of New York Mellon for the

14 Bank of New York Mellon Corporation (rather than merely to seek ratification by the Bank of
15 New York) is that Mr. Stafne testified in deposition that he intends to continue litigation over
16 jurisdiction tied to the corporate structure of the Bank of New York Mellon, and because he does
17 not believe the Court’s Order was a “reasoned” decision. True and correct excerpts of the
18 Deposition of Scott Stafne are attached hereto as Exhibit E.
19

I declare under penalty of perjury of the laws of the United States of America that the

20 foregoing is true and correct.
21

Executed on June 23, 2016, at Seattle, Washington.

22

/s/ Fred B. Burnside
Fred B. Burnside, WSBA #3249

23
24
25
26
27 BURNSIDE DECL. ISO PLAINTIFF’S MOTION
TO SUBSTITUTE REAL PARTY IN INTEREST
(2:16-cv-00077-TSZ)- 4

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 39 Filed 06/24/16 Page 1 of 5
APPENDIX 39
A 241

1

The Honorable Thomas S. Zilly

2
3

4

5
6
7
8

UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

9

10

11
12

13
14
15
16
17

18

BANK OF NEW YORK MELLON, a Delaware )
corporation, as trustee for Structured Asset
)
Mortgage Investments II Trust, Mm1gage Pass- ~
1brough Cettificates Series 2005-AR2,
)
)
Plaintiff,
)
)
)
v.
)
SCOTT STAFNE, an individual; Todd Stafne, an~
individual; and REAL TIME RESOLUTIONS, )
)
Inc., a Texas corporation,
)
)
Defendants.

No. 2:16-cv-00077 TSZ
FAY JANATI DECLARATION IN
SUPPORT OF BANK OF NEW
YORK MELLON'S MOTION TO
SUBSTITUTE REAL PARTY IN
INTEREST PURSUANT TO FED.
R. CIV. P. 17(a)(3)

Note on Motion Calendar:
July 15, 2016

_____________________________)

19
20
21

22
23
24
25
26
27
JANATI . DECL. ISO PLAINTIFF'S MOTION
TO SUBSTITUTE REAL PARTY IN INTEREST
(2:16-cv-00077-TSZ)

Davis Wright Tremaine LLP
LAW OFFICES

Suile 2200
1201TI>irdAvelluo
Seattle. WA 98101-3045
206.622.3150 maill · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 39 Filed 06/24/16 Page 2 of 5
A 242

1

I, Fay Janati, declare:

2

1.

Identity of Declarant. I, Fay Janati, am employed as a Litigation Resolution

3 Analyst with Nationstar Mortgage LLC ("Nationstar"). In my position and as part of my
4 employment, I work on issues that give me familiarity with and access to trustee materials in
5 Nationstar's possession. Except as otherwise indicated, all facts set forth in this declaration are
6 based on my personal knowledge, which is based on my experience, my review of relevant

;
I

7 documents, including Nationstar's loan servicing records for Scott Stafne, and my discussions

I

8 with appropriate personnel. The facts and documents set forth below are maintained in the

i

9 ordinary course of business, and if called upon to testify regarding such matters, I could

I

l
~

11

2.

Declarant~Aut/zority.

I

I am duly authorized to make this declaration on behalf of

3.

Basis for Declaration. I am familiar with the manner and procedure by which the

14 records ofNationstar are obtained, prepared, and maintained on behalfofBONY and the SAM!
15 Trust. Those records are obtained, prepared, and maintained by employees or agents ofNationstar
16 in the performance of their regular business duties at or near the time, act, conditions, or events
17 recorded thereon. The records are made either by persons with knowledge of the matters they
18 record or from information obtained by persons with such knowledge. I have knowledge of and
19 access to the business records. I personally reviewed those records when making this declaration.

20
21

4.

USBTE Power ofAttorney. Nationstar operates as loan servicer for BONY under

a Limited Power of Attorney. N ationstar is authorized and obligated to act on behalf of BONY.

22 Nationstar maintains the financial information for BONY such as payment history, escrow
23 accounts, tax payment and accounting, and property insurance information under the Note and
24 Deed ofTmst. Nationstar collects and tracks payments from Scott Stafne and distributes the
25 payments received to BONY as part of its duties. Attached hereto as Exhibit A is a copy of
26 BONY's operative Limited Power of Attorney appointing Nationstar as Attorney-In-Fact.
27

JANATI' DECL. ISO PLAINTIFF'S MOTION TO SUBSTITUTE REAL PARTv
IN INTEREST
(2: 16-cv-00077-TSZ)- 2

I
f

12 N ationstar and BONY, as successor trustee of the SAMI Trust.
13

I
!

10 competently do so.

Davis Wright Tremaine LLP
LAW OFFICES

Suile2200
1201 Third Avenue
seanlo, \VA 98101-3045

206.6l2.3 ISO main · 206.757.7700 fax

I

I
l

i

i

Case 2:16-cv-00077-TSZ Document 39 Filed 06/24/16 Page 3 of 5
A 243

1

5.

Co11ntrywide Mortgage Deposits tile Adjustable Rate Note into tlr.e SAMI Trust.

2 Nationstar's business records (including those obtained as servicer) reflect that Scott Stafue's
3 Adjustable Rate Note was deposited into the SAMI Trust no later than May 31, 2005 Nationstar 's
4 business records reflect that on May 21, 2015, the original Note and Deed ofTrust were sent to
5 the law offices of Davis Wright Tremaine LLP.
6

6.

Adjustable Rate Note. Attached as Exhibit B is a tme and correct copy of

7 Plaintiffs' Adjustable Rate Note, indorsed to JPMorgan Chase Bank, as Trustee, and then to The
8 Bank of New York Mellon F/K/A The Bank of New York, Successor Trustee, to JPMorgan Chase
9 Bank, as Tmstee.
10
11
12

7.

Deed of Trust. Attached as Exhibit C is a true and correct copy of the Deed of

Tn1st that secures Scott Stafne's Adjustable Rate Note. The debt was evidenced by the Note.

8.

Assignment and Assumption Agreement. Attached as Exhibit D is a copy of an

13 Assignment and Assumption Agreement dated October 1, 2006 with a redacted portion of
14 Schedule 2.1(a)(3).
15

9.

Corporttte Name Clzange Doc11mentation. Attached as Exhibit E is a copy of a

16 State of New York Banking Department document noting the merger of BNY Mellon Interim
17 Institutional National Bank, with and into The Bank ofNew York, under the name The Bank of

18 NewYorkMellon.
19

10.

Agreement of Resignation and Ass11mptimz. Attached as Exhibit F is a copy of

20 an Agreement of Resignation and Assumption dated October 1, 2006.
21

11.

Assignment, Assumption and Recognition Agreement. Attached as Exhibit G is a

22 copy of an Assignment, Assumption and Recognition Agreement dated May 31, 2005 with a
23 redacted list of the Assigned Loans as Attachment 1.
24

12.

Ratification of Tlte Bttnk of New York Mellon Corporation as Plaintiff'.

25 Nationstar, as Attorney in Fact for BONY, hereby ratifies The Bank of New York Mellon
26 Corporation's ("BNYM") act of filing the Complaint in the above captioned action on behalf of
27

JANATI, DECL. ISO PLAINTIFF'S MOTION TO SUBSTITUTE REAL PARTV
IN INTEREST
(2: 16-cv-00077-TSZ)- 3

Davis Wright Tremaine LLP
LAW OFFICES

Suito2200
1201 Tilird AvemiC
Scaltle, \VA 93101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 39 Filed 06/24/16 Page 4 of 5
A 244

the SAMI Trust. BONY, as successor trustee of the SAMI Trust, agrees to be bound to by all
2 Court orders and decisions, as well as final judgment, in this action, to the extent the Court does
3 not permit BONY to be substituted as Plaintiff in this action.

4

I declare under penalty ofpetjury of the laws of the United States of America that the

5 foregoing is true and correct.
6

7
8
9
10

11
12
13

EXECUTED

at~.vJ\vJ.#J'T_f

this4 day~

, 2016

~.0{/Ju~J_

1
F fi(J anati
Title: Litigation Resolution Analyst
Nationstar Mortgage LLC, as Attorney in Fact for
The Bank ofNew York Mellon F/K/A The Bank of
New York, a New York corporation, as trustee,
successor in interest to JP Morgan Chase Bank, N .A,
trustee of the Structured Asset Mortgage Investments
II Trust, Mmtgage Pass-Through Certificates Series
2005-AR2

14
15
16
17
18

19
20
21
22

23
24
25
26

27

JANATI. DECL. ISO PLAINTIFF'S MOTION TO SUBSTITUTE REAL PARTV
IN INTEREST
(2: 16-cv-00077-TSZ)- 4

Davis Wright Tremaine LLP
LAWOFFICl!S
Su~c2200

1201 "third Avenue
\VA 9SIOI-304S
206.622.3150 main· 206.757.7700 fax
Soa~tlo,

Case 2:16-cv-00077-TSZ Document 33 Filed 06/17/16 Page 1 of 12
APPENDIX 40
A 245
1

THE HONORABLE THOMAS S. ZILLY

2
3
4

UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

5
6
7
8
9
10
11
12

BANK OF NEW YORK MELLON, a
Delaware corporation, as trustee for
STRUCTURED ASSET MORTGAGE
INVESTMENTS II TRUST, MORTGAGE
PASS-THROUGH CERTIFICATES SERIES
2005-AR2,

13

PLAINTIFF,
v.

14
15
16

SCOTT STAFNE, an individual; TODD
STAFNE, an individual; and REAL TIME
RESOLUTIONS, Inc., a Texas corporation,

17

CASE NO. 2:16-cv-00077-TSZ

SCOTT STAFNE’S REPLY TO BANK OF
NEW YORK MELLON CORPORATION’S
OPPOSITION TO MOTION TO PROVE
AUTHORITY TO BRING LAWSUIT
NOTE ON MOTION CALENDAR:
June 17, 2016

DEFENDANTS.

18
19
20

At the outset, Stafne objects to Frederick Burnside’s assertion in the Response that he

21
22

represents Bank of New York Mellon entities. The very purpose of the motion at issue is to

23

require Burnside to produce or provide that authority by which he and his law firm, Davis

24
25
26

Wright Tremaine LLP (DWT) claim to represent parties having a case or controversy with
Stafne.

SCOTT STAFNE’S REPLY TO BANK OF NEW YORK
MELLON CORPORATION’S OPPOSITION TO MOTION TO
PROVE AUTHORITY TO BRING LAWSUIT
Page - 1

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 33 Filed 06/17/16 Page 2 of 12
A 246
As this Court knows from the declarations filed by Stafne in support of this motion,

1
2

and the complaint signed by Mr. Burnside in this case (which includes extensive exhibits), the

3

Pooling and Servicing Agreement (PSA) identifies JPMorgan Chase (Chase Bank) as the

4

Trustee for the “Structured Asset Mortgage Investments II Trust, Mortgage Pass-Through

5

Certificates Series 2005-AR 2 (SAMI II Trust)”. See Complaint, Dkt 1, Attachment F, p. 2.

6
7
8
9

This same document identifies Wells Fargo, National Association (Wells Fargo) as the Master
Servicer. Id. This information is consistent with all the documents filed with the Securities
and Exchange Commission (SEC) regarding this particular SAMI II Trust. Copies of these

10

documents can be found at the government links to SEC filings identified in Stafne’s

11

declaration in support of this reply. Stafne asks this Court judicially notice these documents.

12

The Pooling and Servicing Agreement (attached to the complaint) and the applicable

13
14
15
16
17

prospectus to the SAMI II Trust identified in Stafne’s reply declaration each set forth the
manner in which the trustee can be changed or a successor trustee can be appointed. See Id.,
Dkt 1-7, p. 123. Section 8.02. None of the filings with the SEC indicate that Chase Bank is
no longer the trustee for the SAMI II Trust in question. This is consistent with what

18

Nationstar reported to Stafne in 2014, i.e. that Chase Bank was still the trustee of the SAMI II

19

Trust. See Stafne Reply declaration, Exhibit 1.

20
21
22
23
24
25

Paragraph 3.4 of the Burnside/DWT complaint alleges some Bank of New
York Mellon entity1 acquired Chase’s status as trustee of the SAMI II Trust as part of
business “swap” between Chase Bank and the Bank of New York. While Chase may
claim to have swapped its trust business with Bank of New York, a state chartered
bank in 2006, which is not the same thing as saying Chase Bank transferred any

26
1

Burnside argues it does not matter which BNYM entity, if any. See Burnside/DWT Response, p. 2, note 1.

SCOTT STAFNE’S REPLY TO BANK OF NEW YORK
MELLON CORPORATION’S OPPOSITION TO MOTION TO
PROVE AUTHORITY TO BRING LAWSUIT
Page - 2

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 33 Filed 06/17/16 Page 3 of 12

1

A 247
purported interest in this SAMI II Trust to Bank of New York. Indeed, the Trust itself

2

is its own business entity which must follow its own internal rules, including those set

3

forth in the prospectus and Pooling and Service Agreement (PSA) regarding changing

4

trustees or appointing successor trustees.

5
6
7
8
9

The allegation in paragraph 3.4 of the Burnside/DWT complaint against Stafne that
“Bank of New York Mellon” somehow “assumed the role of the trustee of SAMI Trust Id.,
Dkt 1, is puzzling because the SAMI II Trust is a separate entity from Chase Bank.
Accordingly, the first question which arises is how can any BNYM claim to have assumed the

10

role of trustee in the absence of it being properly appointed through the procedures

11

established in the SAMI II Trust documents, the prospectus, and the PSA.

12
13
14
15
16
17

That part of the allegations made in paragraph 3.4 of the complaint that Nationstar (as
the attorney in fact for the SAMI II Trust) indorsed the Note to “Bank of New York Mellon” (
a name without an entity) pursuant to a power of attorney that did not go into effect until
September 4, 2014, see Dkt 1-6, pp 42-48, seems inappropriate for the “asset swap” between
Chase Bank and Bank of New York because 1.) the alleged swap between Chase Bank and

18

Bank of New York, a different bank from any BNYM entity, occurred in 2006; 2.) No SEC

19

records exist which reflect a change of trustee status from Chase to any BNYM entity (or

20

anyone else) for this SAMI II Trust; and 3.) the language of the Power of Attorney produced

21
22
23
24

as Exhibit E to the complaint indicates the “Bank” acquired numerous trusts from Chase Bank
directly, but not from Chase Bank “as trustee.”
If the Power of Attorney is to be believed on August 29, 2014 the “Bank of New York

25

Mellon” (not “The Bank of New York Mellon Corporation”) executed a Limited Power of

26

Attorney appointing Nationstar its independent contractor to perform certain functions for one
year. The first paragraph of this independent contractor Power of Attorney states:
SCOTT STAFNE’S REPLY TO BANK OF NEW YORK
MELLON CORPORATION’S OPPOSITION TO MOTION TO
PROVE AUTHORITY TO BRING LAWSUIT
Page - 3

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 33 Filed 06/17/16 Page 4 of 12

3

A 248
The Bank of New York Mellon as successor in interest to JPMorgan Chase
N.A having an office 101 Barclay Street, MC, NY 10286 (the “Bank”)
appoints Nationstar to be the Bank’s true and lawful attorney to act in the
name, and on behalf of the Bank with the power to do only the following in
connection with the trust included in Schedule A, on behalf of the Bank.

4

This language is notable because it does not identify Chase Bank in its capacity “as

1
2

5
6
7
8
9

trustee.” This calls into question whether the trusts identified on Schedule 1 have been
unlawfully “swapped” in 2014 because Chase Bank had no economic interest in that trust
which it could transfer to anyone. At least with regard to the SAMI II Trust at issue here
Chase Bank was only the trustee. It could not sell this status. Any change in trustee was

10

required to have been accomplished pursuant to the terms of the Trust’s governing

11

documents; not by Chase Bank assigning its trustee status in order to derive an economic

12

benefit for itself.

13
14
15
16
17
18
19
20
21
22
23
24

The above language of the Power of Attorney is also notable in this case because
Burnside and DWT continue to insist that the entity which owns the note is “The Bank of
New York Mellon Corporation.” But the language of the Power of Attorney clearly indicates
that the BNY entity purporting to grant Nationstar its authority is a bank (not a corporation).
Finally, the language of the Power of Attorney is notable because it refers to “the trust
included in schedule A”, but the Schedule A attached to POA includes 50 securitized trusts.
The complaint also does not square up with documents recorded in Washington’s
public land records. For as stated in Stafne’s opening motion to prove authority Bank of
America recorded an assignment with the Snohomish County Auditor’s office on July 31,
2013 evidencing it (Bank of America) was transferring all its interest in the mortgage loan

25

(deed of trust and note) to Nationstar. (This assignment is attached as Exhibit 2 to Stafne’s

26

declaration filed in support of this reply.) So as of July 31, 2013 Snohomish County’s public
records reflected that Nationstar owned Stafne’s loan.
SCOTT STAFNE’S REPLY TO BANK OF NEW YORK
MELLON CORPORATION’S OPPOSITION TO MOTION TO
PROVE AUTHORITY TO BRING LAWSUIT
Page - 4

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 33 Filed 06/17/16 Page 5 of 12
A 249
On February 23, 2015 Nationstar recorded a corporate assignment of the deed of trust

1
2

to “The Bank of New York Mellon”, as trustee for the SAMI II Trust. This recorded

3

assignment indicates the Trust’s address is in Texas. (Exhibit 3 attached to Stafne’s

4

declaration). Why would Nationstar have done this if SAMI II Trust had owned the loan since

5

2005?

6
7
8
9

Notwithstanding all this confusion DWT and Burnside continue to assert “Bank of
New York Mellon, a Delaware Corporation” (which they claim is really “The Bank of New
York Mellon Corporation”) is the correct plaintiff. This likely is not true because The Bank of

10

New York Mellon Corporation is a bank holding company, which owns subsidiary banks, not

11

notes and deeds of trust, which are likely to be held by one of its subsidiaries. The attorney's

12

insistence of ownership of the note by the holding company, instead of one of its subsidiaries,

13

becomes even more questionable because there is no record which indicates The Bank of New

14
15
16
17

York Mellon Corporation acquired any interest in this trust or its assets. Further, the
indorsement in question is to a bank, not a corporation.
Another factual (evidentiary) problem is that nowhere in their response do Burnside

18

and DWT submit an affidavit or declaration or any type of proof supporting their arguments.

19

Given the abundance of evidence Stafne has produced, the unverified arguments set forth in

20

Burnside’s response are somewhat underwhelming following on the heels of his admissions to

21
22
23
24
25

Judge Pechman that he and his law firm made “mistakes” with regard to alleging
jurisdictional facts about another BNY entity, which the district court then erroneously found
to be true. See Stafne declaration.
Reply to Argument that Local General Rule 2(h) allows attorneys to represent whomever they
identify as clients.

26

SCOTT STAFNE’S REPLY TO BANK OF NEW YORK
MELLON CORPORATION’S OPPOSITION TO MOTION TO
PROVE AUTHORITY TO BRING LAWSUIT
Page - 5

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 33 Filed 06/17/16 Page 6 of 12
A 250
Mr. Burnside and his law firm DWT argue that Local General Rule 2(h) allows them

1
2
3
4
5

to represent whoever they claim to represent in a pleading. The rule states:
An attorney eligible to appear may enter an appearance in a civil case by
signing any pleading or other paper described in Rule 5(a), Federal Rules of
Civil Procedure, filed by or on behalf of the party the attorney represents, or by
filing a Notice of Appearance.

6

This language states an attorney can make an appearance on behalf of “the party the

7

attorney represents.” It does not say that an attorney can file pleadings on behalf of a party the

8

attorney does not represent. Moreover, to the extent this Court intended its Local Rule be

9

given interpretation advanced by Mr. Burnside and DWT, the rule would be invalid because

10
11
12
13
14
15
16
17

1.) it is not consistent with “the principles of right and justice”, see Frazier v. Heebe, 482 U.S.
641, 645-46, 107 S. Ct. 2607, 2611, 96 L. Ed. 2d 557 (1987); and 2.) it is inconsistent with
controlling precedent which was discussed in Stafne’s opening brief and is further discussed
below.
Reply to Argument Stafne is Not Asserting Burnside and DWT have Violated Any Rules of
Professional Conduct.
Burnside is wrong when he states “Stafne does not (and cannot) suggest counsel violated

18

the Rules of Professional Conduct, the Federal Rules of Civil Procedure, or this Court’s Local

19

Rules.” Response, p. 2:3-6. Stafne is saying Burnside and DWT are committing fraud upon

20

this Court in the same manner they did in the Robertson case. Stafne is saying that Burnside is

21
22
23
24
25

attempting to manipulate this Court’s jurisdiction by claiming to represent entities he has no
authority to represent and not identifying the citizenship of Nationstar, one of the real parties
in interest with regard to this litigation. See Stafne declaration in support of this Reply
Reply to Argument that Providing Proof of his Authority to Represent the Parties Suing Stafne
Would Violate Attorney-client privilege.

26

SCOTT STAFNE’S REPLY TO BANK OF NEW YORK
MELLON CORPORATION’S OPPOSITION TO MOTION TO
PROVE AUTHORITY TO BRING LAWSUIT
Page - 6

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 33 Filed 06/17/16 Page 7 of 12

1

A 251
Burnside and DWT argue that Stafne’s motion to require them to prove they represent

2

these clients would violate attorney-client privilege. But this argument presumes the very

3

existence of what is being challenged; namely, that any attorney-client relationship exists for

4

any entity other than Nationstar and specifically for those entities identified in the complaint.

5

This Court cannot constitutionally ignore the issue as to whether there is a case or controversy

6
7
8
9

presented by the parties to this action as opposed only to attorneys claiming to represent them.
Had Burnside and/or DWT presented any evidence, i.e. like a declaration or affidavit
or something admissible in support of their unverified argument that attorney-client privilege

10

may be implicated, then it might have been appropriate for this Court to allow them to present

11

evidence under seal. But at this point given the arrogance of their response, it would seem

12

inappropriate for these attorneys to conceal from Stafne that evidence they rely upon to

13

demonstrate their authority to represent the purported parties they have identified in paragraph

14
15
16
17
18
19
20
21
22
23
24
25
26

1.1 of the complaint.
If this Court does allow Burnside and DTW to present sealed evidence Stafne requires
that it remains in the record so that it can be reviewed by an appellate court.
Reply to Attempt to Distinguish Authority Supporting Stafne’s Motion to Prove Authority
Burnside and DWT appear to argue that there is something unusual about Stafne’s
request that attorneys be required to prove they have authority to represent those parties on
whose behalf they claim to appear. Mr. Burnside and DWT are wrong in this regard. Indeed,
as has been stated previously Art. III requires that parties having a case or controversy appear
before the Court. Just an attorney claiming to be representing an adverse party is not good
enough if the attorney cannot prove he actually represents that party.
The Supreme Court has consistently treated a judgment based upon an
unauthorized appearance for a defendant by an attorney as a nullity. Shelton v.
Tiffin, 6 How. 163,at page 186, 12 L.Ed. 387; Hatfield v. King, 184 U.S. 162,
SCOTT STAFNE’S REPLY TO BANK OF NEW YORK
MELLON CORPORATION’S OPPOSITION TO MOTION TO
PROVE AUTHORITY TO BRING LAWSUIT
Page - 7

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 33 Filed 06/17/16 Page 8 of 12

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24

A 252
22 S.Ct. 477, 46 L.Ed. 481; cf. Hill v. Mendenhall, 21 Wall. 453, 22 L.Ed. 616.
See, also, Mills v. Scott (C.C.) 43 F. 452; Lucas v. Vulcan Iron Works (D.C.)
233 F. 823. In Southern Pine Lumber Co. v. Ward, 208 U.S. 126,at page 143,
28 S.Ct. 239, 52 L.Ed. 420, the Supreme Court affirmed a decision of the
Supreme Court of Oklahoma (16 Okl. 131, 85 P. 459) holding that a judgment
recovered by a plaintiff whose attorney had no authority to institute the action
was void. See, also, Pueblo of Santa Rosa v. Fall, 273 U.S. 315, 47 S.Ct. 361,
71 L.Ed. 658. A party to a suit may by timely motion dispute the authority of
the opposing attorney to act for the party in whose name he is proceeding, and,
if the authority is not shown, the court will dismiss the action for want of
parties before it. Pueblo of Santa Rose v. Fall, 273 U.S. 315, 47 S.Ct. 361, 71
L.Ed. 658; Sutherland v. International Ins. Co. of New York (C.C.A.) 43
F.(2d) 969; King of Spain v. Oliver, Fed. Cas. No. 7,814; Bonnifield v. Thorp
(D.C.) 71 F. 924; Chesapeake & O. Ry. Co. v. Commonwealth, 189 Ky. 465,
225 S.W. 145; Cf. Gaston & Co. v. All Russian Zemsky Union, 221 App.Div.
732, 224 N.Y.S. 522; Orr & Co. v. Fireman's Fund Insurance Co., 141 Misc.
330, 253 N.Y.S. 2, reversed 235 App.Div. 1, 256 N.Y.S. 79; Institute of
Educational Travel v. Binkerd, 90 Misc 325, 153 N.Y.S. 427; Cockran v.
Leister, 2 Root (Conn.) 348.
It is true that in some states the rule obtains that, where jurisdiction rests upon
a voluntary appearance by the defendant, the court is not deprived of
jurisdiction by showing that the appearance was entered by an attorney who
acted without authority from the defendant. Denton v. Noyes, 6 Johns. 296, 5
Am.Dec. 237; Munnikuyson's Adm'x v. Dorsett's Adm'x, 2 Har. & G. (Md.)
374; Schirling v. Scites, 41 Miss. 644; Everett v. Warner Bank, 58 N.H. 340;
Hemphill Lumber Co. v. Arcadia Timber Co. (Mo. App.) 52 S.W.(2D) 750.
Apparently such is the rule in Connecticut. Butler v. Butler, 1 Root (Conn.)
275, decided in 1791. But even in those jurisdictions the rule has been held not
to apply to cases where the person for whom the unauthorized appearance was
entered was not a resident of the jurisdiction in which the proceedings were
being had (Vilas V.P. & M.R.R., 123 N.Y. 440, 25 N.E. 941, 9 L.R.A. 844, 20
Am.St.Rep. 771; Fambrosis Society v. Royal Benefit Society, 166 App.Div.
593, 152 N.Y.S. 84; Boylan v. Witney, 3 Ind. 140); and the rule so far as we
can discover has never been held to prevent a party from contesting the right of
an attorney to appear and act for the party in opposition. It would be a strange
result if a defendant were precluded from showing that the party in whose
name the action is brought had not authorized the institution of the
proceedings.
In re Retail Chemists Corp., 66 F.2d 605, 608 (2d Cir. 1933).

25

Washington law allows motions to “require the attorney for the adverse party, or for any

26

one of several adverse parties, to produce and prove the authority under which he appears…”.

SCOTT STAFNE’S REPLY TO BANK OF NEW YORK
MELLON CORPORATION’S OPPOSITION TO MOTION TO
PROVE AUTHORITY TO BRING LAWSUIT
Page - 8

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 33 Filed 06/17/16 Page 9 of 12
A 253
See RCW RCW 2.44.030. The Fifth Circuit has intimated that such state statutes may be
2

1
2

considered where applicable in diversity proceedings. Maiz v. Virani, 311 F.3d 334, 341 (5th

3

Cir. 2002) Stafne’s primary purpose in bringing this Washington statute to the Court’s

4

attention is simply show that motions for attorneys to provide authority proving they represent

5

the parties they appear on behalf of is also contemplated by statute in Washington, a state

6

which does not require a “case or controversy” to establish jurisdiction.

7

Reply to Argument based on Robertson v GMAC

8

In Robertson Mr. Burnside signed a removal petition on behalf of Chase which alleged

9
10

Bank of New York Mellon Trust Company’s principal place of business was in Miami

11

Florida. Mr. Burnside had filed a notice of appearance claiming to represent Bank of New

12

York Mellon Trust Company National Association in place of appearing on behalf of the

13

Bank of New York Trust Company (which had been the name of the party being sued in

14
15

Robertson’s complaint.).
While Mr. Burnside continued to claim he was representing this BNYM entity another

16
17
18

party, LSI Title Company, also filed a removal petition claiming that the principal place of
business for the Bank of New York Mellon Trust Company was in Miami Florida.

19

Robertson, then pro se, objected to this allegation and filed an email from the Office of

20

Comptroller of the Currency that established its articles of association stated the Bank of New

21
22
23

York Mellon Trust Company, National Association's main office was in California. Judge
Pechman adopted Mr. Burnside’s false statement in the Removal petition that Bank of New

24
25
26

2

RCW 2.44.030 provides:
The court, or a judge, may, on motion of either party, and on showing reasonable grounds
therefor, require the attorney for the adverse party, or for any one of several adverse
parties, to produce or prove the authority under which he appears, and until he does so,
may stay all proceedings by him on behalf of the party for whom he assumes to appear.

SCOTT STAFNE’S REPLY TO BANK OF NEW YORK
MELLON CORPORATION’S OPPOSITION TO MOTION TO
PROVE AUTHORITY TO BRING LAWSUIT
Page - 9

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 33 Filed 06/17/16 Page 10 of 12

1
2
3

A 254
York Mellon Trust Company National Association’s principal place of business in Miami,
Florida as a finding of fact; notwithstanding this wasn’t true.
On remand from the Ninth Circuit a different attorney purportedly representing Bank

4

of New York Mellon Trust Company tried to force Robertson to stipulate that the parties were

5

diverse because any reasonable person would know that the Bank of New York Mellon Trust

6
7
8
9

Company was a citizen of California at the time the removal petitions were filed. (Of course,
Mr. Robertson did know this and pointed it out to the Court.)
So the question arises why (if any reasonable person would know that Bank of New

10

York Mellon Trust Company’s principal of business was not in Miami, Florida) did Burnside

11

and DWT continue to insist it was when faced with an email from the OCC stating otherwise?

12

Why didn’t these counsels change their allegation regarding the Banks’s citizenship when it

13

was both legally insufficient and factually wrong?

14
15
16
17
18
19
20
21
22
23
24

At the end of the remand hearing Mr. Burnside admitted he and his firm had made
mistakes regarding these jurisdictional allegations. But the question still remains would the
attorney for an actual party, indeed one of the same entities involved in this case, have made
such an obvious error?
That question also exists here. Why would an attorney for a holding company that
owns banks insist that that corporation also owns in its own name notes when it is much more
likely that if any notes were owned the most likely owner would be a subsidiary bank?
As is explained in Stafne’s reply declaration the most obvious reason is because
Burnside and DWT do not have an actual attorney-client relationship with the BNY entities

25

identified in this complaint because 1.) they are not identified by the correct name; and 2.)

26

because whatever authority these attorneys have to represent the BNY entities is pursuant to
their agreements with Nationstar. See Stafne’s reply declaration.
SCOTT STAFNE’S REPLY TO BANK OF NEW YORK
MELLON CORPORATION’S OPPOSITION TO MOTION TO
PROVE AUTHORITY TO BRING LAWSUIT
Page - 10

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 33 Filed 06/17/16 Page 11 of 12

1
2

A 255
CONCLUSION
Stafne’s motion to require proof of authority should be granted.

3
4

Dated this 17th day of June, 2016 at Arlington, Washington.

5
6
7

s/ Scott E. Stafne

8

SCOTT E. STAFNE WSBA#6964

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26

SCOTT STAFNE’S REPLY TO BANK OF NEW YORK
MELLON CORPORATION’S OPPOSITION TO MOTION TO
PROVE AUTHORITY TO BRING LAWSUIT
Page - 11

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 32 Filed 06/13/16 Page 1 of 5
APPENDIX 41
A 256
1

The Honorable Thomas S. Zilly

2
3
4
5
6
7

UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

8
9
10
11
12

BANK OF NEW YORK MELLON, a Delaware
corporation, as trustee for Structured Asset
Mortgage Investments II Trust, Mortgage PassThrough Certificates Series 2005-AR2,
Plaintiff,

13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

v.
SCOTT STAFNE, an individual; Todd Stafne,
an individual; and REAL TIME
RESOLUTIONS, Inc., a Texas corporation,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

No. 2:16-cv-00077 TSZ
BANK OF NEW YORK MELLON
CORPORATION’S OPPOSITION
TO SCOTT STAFNE’S MOTION
TO PROVE AUTHORITY

Defendant Scott Stafne filed a “Motion to Prove Authority” which challenges the
authority of the attorneys and firm who have appeared in this action. Stafne asks the Court to
enter an order requiring, among other things, that counsel for Bank of New York Mellon
Corporation (“BNYM”) provide “proof of authority” to represent their clients. Stafne oddly
also requests “proof” of these attorneys’ right to act on behalf of non-party entities that have not
appeared in this action. The Court should deny these requests for the following reasons:
First, “[a]n attorney eligible to appear may enter an appearance in a civil case by
signing any pleading or other paper described in Rule 5(a)…or by filing a Notice of
BNYM’S OPPOSITION TO
MOTION TO PROVE AUTHORITY
(2:16-cv-00077-TSZ) - 1

Davis Wright Tremaine LLP
L AW O F FICE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 32 Filed 06/13/16 Page 2 of 5
A 257
1

Appearance.” Local General Rule 2(h). Nothing further is required to show authority to

2

represent a client.

3

Second, Stafne fails to identify any valid basis to challenge counsel chosen by BNYM

4

to represent its interests in this lawsuit. Stafne does not (and cannot) suggest counsel violated

5

the Rules of Professional Conduct, the Federal Rules of Civil Procedure, or this Court’s Local

6

Rules. Rather, he blindly asserts that counsel should have to prove they have authority to

7

represent their clients. There is no basis for this request and the Court should deny it.
Third, Stafne’s request would force BNYM to reveal communications protected by the

8
9

attorney-client privilege and work product doctrine. The only way for BNYM’s counsel to

10

“prove” they are authorized to act on behalf of their clients would be to reveal communications

11

between counsel and their clients that discuss representation. Given that these communications

12

occurred in preparation for filing this lawsuit, the communications are protected by both the

13

attorney-client privilege and work product doctrine. The Court should not require BNYM to

14

disclose privileged communications simply because Stafne believes he should have more

15

information about the manner in which BNYM chose counsel. 1
Fourth, Stafne’s purported authority for this request relies on cases where there were

16
17

clear facts demonstrating the attorneys did not have authority in court, generally where the

18

purported client challenged the attorneys’ authority. See Pueblo of Santa Rosa v. Fall, 273 U.S.

19

315, 319 (1927) (“To justify the conclusion that there was no authority to bring or maintain the

20
21
22
23
24
25
26
27

1

Mr. Stafne’s assertion that there is no entity called Bank of New York Mellon is absurd on its
face and attempts to elevate form over substance. Pl. Mot. at 2. Mr. Stafne’s assertion that the
failure to consistently use the definite article “the” before “Bank of New York Mellon” means
“Bank of New York Mellon” does not exist is simply bizarre. Nor is there any requirement that
a party be exclusively described in a certain way. Plaintiff has been identified as “Bank of New
York Mellon, a Delaware Corporation.” Compl. ¶ 1.1. If this description, as opposed to “The
Bank of New York Mellon Corporation,” has caused Mr. Stafne some confusion, that confusion
lies solely with him and does not suggest that Bank of New York Mellon, a Delaware
Corporation, does not exist. Indeed, the Bank of New York Mellon Corporation’s 10Q explains
that it customarily uses a short form of BNY Mellon for The bank of New York Mellon
Corporation, such that use of a short-form descriptor is routine. See, e.g.,
https://www.bnymellon.com/_global-assets/pdf/investor-relations/bny-mellon-form-10-q1q16.pdf, at 4.

BNYM’S OPPOSITION TO
MOTION TO PROVE AUTHORITY
(2:16-cv-00077-TSZ) - 2

Davis Wright Tremaine LLP
L AW O F FICE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 32 Filed 06/13/16 Page 3 of 5
A 258
1

suit really needs nothing beyond the foregoing short recital of the facts. That Luis was without

2

power to execute the papers in question, for lack of authority from the Indian council, in our

3

opinion is well established. Indeed, there is no evidence to the contrary worthy of serious

4

consideration.”); Shelton v. Tiffin, 47 U.S. 163, 186, 12 L. Ed. 387 (1848) (one against whom

5

judgment is rendered may show that the attorney entering his appearance was not authorized to

6

do so); In re Retail Chemists Corp., 66 F.2d 605, 606 (2d Cir. 1933) (creditor submitted petition

7

stating he had not authorized anyone to use his claim).

8

Stafne’s declaration also relies heavily on Robertson v. GMAC Mortgage, LLC, 2016

9

WL 145827 (9th Cir. 2016), involving an entirely different Bank of New York Mellon entity

10

(non-party Bank of New York Mellon Trust Co., NA, “BNYMTC”). Stafne wrongly states that

11

the Ninth Circuit remanded to a different judge than Judge Pechman. Id. at *2. Stafne also

12

does not acknowledge that the defendant, BNYMTC, was diverse from Plaintiff whether it was

13

a citizen of Florida or California and thus for purposes of diversity jurisdiction, inconsequential

14

(and a removal petition filed by a different lawyer in a different case has no bearing on Stafne’s

15

current motion). Thus, non-party BNYMTC’s representations had no bearing on the existence

16

of diversity, and therefore, did not prejudice the plaintiff.

17

Fifth, the Court should follow Judge Pechman’s lead and reject this motion for the same

18

reasons Judge Pechman did in the Robertson matter where Mr. Stafne filed the same motion.

19

Judge Pechman ruled:

20
21
22
23

Plaintiff moves for “proof of authority,” to clarify the “attorney-client
relationships in this matter, and as to whether all necessary defendants have been
joined.” (Pl. Br. at 3, Dkt. No. 16.) In essence, Plaintiff seeks to pierce the
attorney-client relationship and disclose communications between Defendants
and their counsel. This motion is wholly without merit, unnecessary and is
frivolous. Counsel for each Defendant is licensed to practice law in Washington
and admitted to practice law in this Court. Defense counsels’ representations to
this Court are sufficient to show they have been authorized to represent their
clients. The motion is DENIED.

24

Robertson v. GMAC Mortgage LLC, et al., Case No. 12-cv-2017, Dkt. # 82, at *3 (W.D. Wash.

25

2013) (emphasis added). So too, here.

26
27

BNYM’S OPPOSITION TO
MOTION TO PROVE AUTHORITY
(2:16-cv-00077-TSZ) - 3

Davis Wright Tremaine LLP
L AW O F FICE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 32 Filed 06/13/16 Page 4 of 5
A 259
1

I.

CONCLUSION

2

In short, Stafne does not identify—and BNYM’s counsel has been unable to locate—

3

any legal authority supporting Stafne’s contention that counsel should have to offer evidence

4

“proving” it is authorized to appear on behalf of Plaintiff. The Court should therefore deny

5

Plaintiff’s Motion.

6

DATED this 13th day of June, 2016.

7
8

Davis Wright Tremaine LLP
Attorneys for Bank of New York Mellon
By: s/ Fred B. Burnside
Fred B. Burnside, WSBA #32491
Zana Z. Bugaighis, WSBA #43614
Email: fredburnside@dwt.com
zanabugaighis@dwt.com

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

BNYM’S OPPOSITION TO
MOTION TO PROVE AUTHORITY
(2:16-cv-00077-TSZ) - 4

Davis Wright Tremaine LLP
L AW O F FICE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 28 Filed 06/02/16 Page 1 of 10
APPENDIX 42
A 260
1

THE HONORABLE THOMAS S. ZILLY

2
3
4
5

UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

6
7
8
9
10
11
12

BANK OF NEW YORK MELLON, a
Delaware corporation, as trustee for
STRUCTURED ASSET MORTGAGE
INVESTMENTS II TRUST, MORTGAGE
PASS-THROUGH CERTIFICATES SERIES
2005-AR2,

13

v.

14
15
16

CASE NO. 2:16-cv-00077-TSZ

MOTION TO PROVE AUTHORITY TO
BRING LAWSUIT

PLAINTIFF, NOTE ON MOTION CALENDAR:
June 17, 2016

SCOTT STAFNE, an individual; TODD
STAFNE, an individual; and REAL TIME
RESOLUTIONS, Inc., a Texas corporation,

17
18

DEFENDANTS.

19
20
21

RELIEF REQUESTED

22

Plaintiff Scott Stafne respectfully requests Frederick Benjamin Burnside, Zana Zarha

23
24
25
26

Bugaighis, and Davis Wright Tremaine PLLC (DWT) provide proof of their authority to act
as attorneys, pursuant to an attorney-client relationship, with regard to “Bank of New York
Mellon”, “Bank of New York Mellon, a Delaware corporation”, “Bank of New York Mellon

MOTION TO PROVE AUTHORITY TO BRING LAWSUIT
Page - 1

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 28 Filed 06/02/16 Page 2 of 10

1
2

A 261
Trust Company, N.A.”, “Nationstar Mortgage, LLC”, and/or “Structured Asset Mortgage
Investments II Trust, Mortgage Pass-Through Certificates Series 2005-AR 2 (SAMI Trust).”

3

ISSUE

4

Should this Court require the attorneys in this case to produce or provide the authority, if any,

5

by which they represent any parties bringing this diversity case against Stafne?

6
7
8
9

FACTS
There are no entities known as “Bank of New York Mellon”, “Bank of New York Mellon, a
Delaware corporation” and/or “Bank of New York Mellon Trust Company, N.A.” Indeed,

10

entities with similar sounding names rejected service of process by both Scott and Todd

11

Stafne because there was no Bank of New York Mellon. See Dkt. 21.

12
13
14
15
16
17

Nationstar has indicated to Stafne it represents Bank of New York Mellon the trustee of
the SAMI trust and that Bugaighis and DWT represent its (Nationstar’s) interests against
Stafne. See Stafne declaration (Dkt.21, including Exhibit 1), attached as Exhibit 4 to Stafne’s
declaration in support of this motion.
However, it is not clear by what authority, if any, Nationstar represents any actual entity.

18

For example, Exhibit 6 to Stafne’s Burnside complaint (Dkt 21, Ex. 2, Ex 6) is an assignment

19

recorded on July 31, 2013 evidencing Bank of America transferring all its interest in the

20

mortgage loan (deed of trust and note) to Nationstar. (For the Court’s convenience a copy of

21
22
23
24

this assignment is also attached as Exhibit 5 to Stafne’s declaration in support of this motion.)
On February 23, 2015 Nationstar recorded a corporate assignment of the deed of trust
to “The Bank of New York Mellon”, as trustee for the SAMI Trust. The recorded assignment

25

indicates the Trust’s address is in Texas. (Dkt. 21, Ex. 2, Ex 7) For the Court’s convenience a

26

copy of this corporate assignment is also attached as Exhibit 5 to Stafne’s declaration in
support of this motion.
MOTION TO PROVE AUTHORITY TO BRING LAWSUIT
Page - 2

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 28 Filed 06/02/16 Page 3 of 10

1

.

A 262
This recorded history of the loan is different from that set forth in Bank of New York

2

Mellon’s complaint in that it suggests that Nationstar owned the loan outright in 2015, but

3

then transferred the loan to “THE BANK OF NEW YORK MELLON, AS TRUSTEE” for the

4

SAMI Trust. In any event, it is not clear from Nationstar’s communications with Stafne, the

5

publicly recorded assignments, and complaint how Nationstar now represents any actually

6
7
8
9

existing BNY entity and what the scope of its authority, if any, may be in this Court.
There is evidence to suggest the attorneys involved in prosecuting this case do not
actually represent any trustee entity or the trust except to the extent Nationstar may actually

10

represent their interests and that this may have caused them to make inaccurate allegations

11

regarding jurisdictional facts in other proceedings. See Stafne declaration in support of this

12

motion, exhibits 1-3.

13
14
15
16
17

Evidence Relied Upon: Stafne relies upon his simultaneously filed declaration in support
of this motion. Stafne also relies on his declaration previously filed as Dkt 21 and the
supporting exhibits attached thereto. Stafne also relies upon his declaration filed in support of
his motion to change this Court’s scheduling order (Dkt 27) and the exhibits attached thereto.

18

Stafne requests this Court take judicial notice of the publicly recorded assignments

19

referred to in the Statements of Facts, which are attached as Exhibits 4 and 5 to Stafne’s

20

declaration.

21
22
23
24

ARGUMENT
Nearly 100 years of federal authority – including multiple rulings of the U.S. Supreme
Court permit defendants, like Stafne, to challenge an attorney’s authority to represent

25

purported litigants in federal courts. See Pueblo of Santa Rosa v. Fall, 273 U.S. 315 (1927);

26

Southern Pine Lumber Co. v. Ward, 208 U.S. 126 (1908) affirming 16 Okl. 131, 85 P. 459
(1905); Shelton v. Tiffin, 47 U.S. 163, 186, 12 L. Ed. 387 (1848). Indeed, this same
MOTION TO PROVE AUTHORITY TO BRING LAWSUIT
Page - 3

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 28 Filed 06/02/16 Page 4 of 10

1
2
3

A 263
controlling precedent also requires if such authority is lacking, all of the attorney’s acts
(including any case they file or defend without proper authority) are void. Id.
Accordingly, "[a] party to a suit may by timely motion dispute the authority of the

4

opposing attorney to act for the party in whose name he is proceeding . . ." In re Retail

5

Chemists Corp., 66 F.2d 605, 608 (2nd Cir. 1933) and cases cited therein. Indeed, “[I]t is

6
7
8
9
10
11
12
13
14
15
16
17

hornbook law that no person has the right to appear as attorney for another without first
receiving authority from the purported client.” Developmental Disabilities Advocacy Ctr.,
Inc. v. Melton, 521 F. Supp. 365, 372 (D.N.H. 1981).
All three Supreme Court cases cited above deal with an attorney who appeared to
represent legal interests involving the transfer of land.
Pueblo of Santa Rosa v. Fall, like this case, involved the power of a trustee to sell land
based on the authority granted by a power of attorney. In that case deeds were drawn and
acknowledged by a number of Indians in the late 1800s, conveying land to Hunter, as trustee,
an interest in the lands, grants, and privileges of certain named villages. Among these deeds
was one which purported to be made by ‘Luis, captain of the village or pueblo of Santa Rosa,’

18

for himself and inhabitants of that village and others, and to convey an undivided half interest

19

in 720 square miles of land. At the same time, powers of attorney were executed by the

20

various grantors.

21
22
23
24

For purposes of the issue before it, the Supreme Court assumed the power of attorney
document “was sufficient to authorize Hunter to bring and maintain a suit like the present. It
granted to Hunter powers of delegation, substitution, and revocation, and recited that, as it

25

was ‘accompanied with an interest, ... it is hereby made irrevocable.” The Court further stated

26

that it appeared “Hunter was authorized to render services in establishing the claim of the

MOTION TO PROVE AUTHORITY TO BRING LAWSUIT
Page - 4

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 28 Filed 06/02/16 Page 5 of 10

1
2
3

A 264
Indians to the lands, [but] it does not appear that he agreed to do so unless by implication
merely; nor does it appear that there was any other consideration for the conveyance.”
In 1911, Hunter entered into contracts with one Martin, by which the latter was to

4

undertake to establish the Indian title and make certain cash payments. The same year, and

5

long after the death of Luis, Hunter executed a delegation of his powers to one Cates. Hunter

6
7
8
9

died in 1912, and this suit was brought in 1914 by a firm of lawyers of which Cates was a
member. Cates died in 1920, several years before the motion to dismiss was filed.
The Luis deed was not recorded in the counties where the lands were situated until 34

10

years after its execution and 2 years after the death of Hunter, the grantee. The delay is not

11

explained. According to the Supreme Court “[c]areful and comprehensive inquiries,

12

conducted among the Indians over a period of several years, failed to disclose any one who

13

knew of any authority from the Indians to bring or maintain the suit.” 273 U.S. 315, 317-18.

14
15
16
17

Further, “that no suit properly could have been brought without the prior consent of the
Indians in council, and that no council for that purpose was ever assembled.” Id.
The trial court assumed, without deciding, that the plaintiff was a pueblo as set forth in

18

the complaint and owned the lands in question, held that it had never authorized the bringing

19

or maintenance of the suit, and that it did not have, under any law or by any custom, usage, or

20

tradition, the power to make the conveyance or power of attorney in question, and entered a

21
22
23
24
25
26

decree dismissing the case. The Court of Appeals reversed because it believed the authority of
counsel to litigate the action was a preliminary matter to be disposed of before proceeding to
the merits, but nonetheless affirmed the order of dismissal upon the merits. 12 F.(2d) 332. The
Supreme Court reversed the Court of Appeals.
In doing so, Justice Sutherland, writing for the Court stated:

MOTION TO PROVE AUTHORITY TO BRING LAWSUIT
Page - 5

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 28 Filed 06/02/16 Page 6 of 10
A 265
We agree with the conclusions of the court of first instance, but are of opinion
that the dismissal should have been, not upon the merits, but without prejudice
to a suit, if properly brought. The decrees of both courts, therefore, are
erroneous, and the cause must be remanded to the court of first instance, with
directions to dismiss the bill, on the ground that the suit was brought by
counsel without authority, but without prejudice to the bringing of any other
suit hereafter, by and with the authority of the alleged pueblo of Santa Rosa.
Other grounds appearing from the record, which would lead to the same result,
we pass without consideration.

1
2
3
4
5
6
7
8
9

273 U.S. at 321. Here, Stafne is challenging DWT’s authority to and moving this Court to
require Nationstar and its attorneys to produce authority and/or provide evidence of their
authority to bring this action against Stafne in light of, among other things, the fact that

10

undisputed public records filed by defendants indicate Nationstar became the owner of

11

mortgage loan in 2013.

12

S. Pine Lumber Co. v. Ward, 208 U.S. 126 (1908), another Supreme Court case, is

13

factually similar to this case as it involves litigation over a deed of trust by entities which all

14
15
16
17
18

have virtually identical names1 and the Court found that a trustee sale purportedly conducted
by American Exchange Bank was void because persons acting without authority for this bank
never brought the action2. The Supreme Court was deferential to the findings of the trial court
and the appellate court’s rulings based thereon.
A significant distinguishing factor between S. Pine Lumber and this case is that Stafne

19
20
21
22
23

claims the note and deed of trust are not enforceable. See RCW 4.16.040(1); (3);62A.3118(a); 7.28.300. In S. Pine the enforceability of the note was conceded. The important facts
for purposes of this motion is the Supreme Court held that a judicially approved sale of

24
25
26

1

The Court’s discussion about this aspect of the case, the attempt to benefit from the use of similar sounding
names, can be found at 208 U.S. 134- 136 and 141-43

2

The factual findings and legal conclusions in this regard are discussed at 208 U.S. 127-233 and 134 - 136

MOTION TO PROVE AUTHORITY TO BRING LAWSUIT
Page - 6

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 28 Filed 06/02/16 Page 7 of 10

1
2
3

A 266
property was found void because it was brought by those (apparently attorneys) who had no
authority to represent the foreclosing bank.
A Court of Appeals case which involves facts analytically similar to those here is

4

Meredith v. The Ionian Trader, 279 F.2d 471, 472-73 (2d Cir. 1960.) This admiralty action

5

arose in the district court as the result of water damage suffered to cargo belonging to the

6
7
8
9

Government of Pakistan, shipped from Tacoma, Washington, to Karachi, Pakistan, on the
vessel Ionian Trader. Six days prior to the expiration of the one year statute of limitations, the
libel was filed in the name of the Government of Pakistan against the Ionian Trader by the

10

attorneys for the insurance underwriters of the cargo. The libel alleged that the damage to the

11

cargo was a breach of the Ionian Trader's duty as a common carrier by sea and sought

12

damages. Subsequent to the running of the statute of limitations the underwriters settled with

13

the Government of Pakistan its claim under the insurance policy and later made payment.

14
15
16
17

Alan Meredith, as an assignee of the underwriters, thereupon moved to substitute
himself in place of the Government of Pakistan, claiming that he was subrogated to all of the
Pakistan's rights against the Ionian Trader. The court permitted the substitution, but also

18

allowed the defendant vessel to amend its answer to assert two new defenses, lack of authority

19

by the underwriters or their attorneys to bring the original libel on behalf of Pakistan, and to

20

allow the vessel to assert the statute of limitations as a bar to suit by the underwriters or their

21
22
23
24

assignee.
After trial the court held that but for the validity of the affirmative defenses in the
amended answer the libellant would be entitled to judgment. The court ruled, however, that

25

the original libel filed in the name of the Government of Pakistan was a nullity because the

26

insurance policy did not give the underwriters authority to bring suit in the name of the
insured. Further the district court held that, since the underwriters had no interest in the
MOTION TO PROVE AUTHORITY TO BRING LAWSUIT
Page - 7

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 28 Filed 06/02/16 Page 8 of 10

1

A 267
insured's claim against the Ionian Trader prior to their payment to the insured, appellant was

2

not entitled to have his substitution relate back to the time of filing of the original libel and

3

was therefore barred by the statute of limitations.

4

The Second Circuit affirmed:

5

A suit initiated without authority from the party named as plaintiff is a nullity
and any judgment obtained in such a suit is void. Pueblo of Santa Rosa v.
Fall, 1927, 273 U.S. 315, 47 S.Ct. 361, 71 L.Ed. 658; Southern Pine Lumber
Co. v. Ward, 1908, 208 U.S. 126, 28 S.Ct. 239, 52 L.Ed. 520, affirming
1905, 16 Okl. 131, 85 P. 459; In re Retail Chemists Corp., 2 Cir., 1933, 66
F.2d 605, 608, and cases there cited. A party to such a suit may by motion or
pleading dispute the authority of the opposing party ‘to act for the party in
whose name he is proceeding, and, if the authority is not shown, the court
will dismiss the action for want of parties before it.’ In re Retail Chemists
Corp., supra at page 608. Because of their lack of authority to sue on behalf
of the Government of Pakistan, the filing of the libel by the proctors for the
underwriters was of no effect and cannot be the foundation of any rights of
the underwriters or the appellant.

6
7
8
9
10
11
12
13
14
15
16
17

Meredith v. The Ionian Trader, 279 F.2d at 473-74.
Here, we have similar issues. The purported plaintiffs agree that
Countrywide accelerated Stafne’s loan well before the six year statutes of limitation
ran. They are now asserting that Nationstar and its attorneys have the right to

18

decelerate Countrywide’s acceleration after the statute for doing so has run. Under

19

the above cited case law, the plaintiffs and their attorneys must produce proof that

20

they have the appropriate authority to seek such relief from this Court, as well as to

21
22
23
24
25
26

make jurisdictional allegations in the context of invoking this Court’s diversity
jurisdiction.
CONCLUSION
This Court should grant Stafne’s motion requiring the purported plaintiffs
and their attorneys to provide proof of their authority to act as agents and attorneys,
pursuant to an attorney-client relationship on behalf of “Bank of New York Mellon”,
MOTION TO PROVE AUTHORITY TO BRING LAWSUIT
Page - 8

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 28 Filed 06/02/16 Page 9 of 10

1

A 268
“Bank of New York Mellon, a Delaware corporation”, “Bank of New York Mellon

2

Trust Company, N.A.”, “Nationstar Mortgage, LLC”, and/or “Structured Asset

3

Mortgage Investments II Trust, Mortgage Pass-Through Certificates Series 2005-AR

4

2” with regard to the claims made against Stafne in this federal lawsuit.

5
6
7

Dated this 2nd day of June, 2016 at Arlington, Washington.

8
9
10

/s/ Scott E. Stafne

11

SCOTT E. STAFNE WSBA#6964

12
13
14
15
16
17
18
19
20
21
22
23
24
25
26

MOTION TO PROVE AUTHORITY TO BRING LAWSUIT
Page - 9

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 29 Filed 06/02/16 Page 1 of 5
APPENDIX 43
A 269
1

THE HONORABLE THOMAS S. ZILLY

2
3
4
5
6

UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

7
8
9
10

14

BANK OF NEW YORK MELLON, a
Delaware corporation, as trustee for
STRUCTURED ASSET MORTGAGE
INVESTMENTS II TRUST, MORTGAGE
PASS-THROUGH CERTIFICATES SERIES
2005-AR2,

15

PLAINTIFF,

11
12
13

v.

16
17
18

CASE NO. 2:16-cv-00077-TSZ

DECLARATION OF SCOTT STAFNE IN
SUPPORT OF MOTION TO PROVE
AUTHORITY TO BRING LAWSUIT

SCOTT STAFNE, an individual; TODD
STAFNE, an individual; and REAL TIME
RESOLUTIONS, Inc., a Texas corporation,

19
20

DEFENDANTS.

21
22
23

1.

My name is Scott Stafne. I am over the age of eighteen (18) and I have personal

24

knowledge of the facts stated herein. I also have knowledge regarding these matters which I

25

have gained as an attorney involved in representing other plaintiffs against the plaintiffs in

26

this lawsuit. I am competent to testify to the matters described herein.

DECLARATION OF SCOTT STAFNE IN SUPPORT OF
MOTION TO PROVE AUTHORITY TO BRING LAWSUIT
Page - 1

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 29 Filed 06/02/16 Page 2 of 5

2.

1

A 270
I have previously filed other declarations with this Court which include testimony

2

and evidence applicable to this motion. These declarations can be found at Dkt 21 and 27.

3

Accordingly, am incorporating these declarations, including the exhibits attached to them, by

4

reference as a part of this declaration.

5

3.

As this Court knows from my previous declaration, Dkt. 21, I am counsel for Duncan

6

Robertson in the case of Robertson v GMAC Mortgage, LLC, et al. As previously indicated the Ninth

7

Circuit determined in Robertson’s appeal that defendants, including a Bank of New York Mellon

8
9
10
11
12
13
14
15
16
17
18

entity, had not adequately plead diversity of citizenship and ordered a different judge of this Court to
conduct an evidentiary hearing to determine whether the parties were diverse for purposes of 28 USC
1332.
4.

Both Robertson and my case involve notes which were alleged to have been transferred to

JPMorgan Chase Bank N.A. (Chase) trustee operations. JPMorgan Chase claims in both cases that
these loans became part of its securitized trust portfolio which was transferred to Bank of New York in
2006. See Dkt 1, § 3.4. The Bank of New York to which this business was transferred was a state, i.e.
New York, chartered bank in 2006. Id.
5.

My experience in the Robertson case indicates that no attorney in that case had a fiduciary

attorney-client relationship with any Bank of New York Mellon (or subsidiary or related) entity. The

19

facts upon which I base this conclusion include without limitation: 1.) two attorneys appeared on

20

behalf of Bank of New York Mellon Trust Company, N.A.; 2.) Two removal petitions were filed

21

which falsely stated that Bank of New York Mellon Trust Company’s principal place of business was

22

in Miami, Florida, when this in fact was not true; 3.) one of the attorneys appearing on behalf of Bank

23

of New York Mellon Trust Company which twice made these false representations to the Court and

24

which this Court erroneously found to be true was Frederick Burnside, an attorney with Davis Wright

25

Tremaine PLLC (DWT); and 4.) a declaration filed by attorney Kathy Priore, who represented

26

DECLARATION OF SCOTT STAFNE IN SUPPORT OF
MOTION TO PROVE AUTHORITY TO BRING LAWSUIT
Page - 2

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 29 Filed 06/02/16 Page 3 of 5
A 271

1
2

ResCap Liquidating Trust with the GMAC bankruptcy court1 indicated that the wrong attorney (and
hired by GMAC Mortgage, LLC) was working on Robertson’s case. Id.

3
4

6.

Attached hereto as Exhibit 1 are copies of the notices of appearance filed in the Robertson

7.

Attached hereto as Exhibit 2 is copy of the removal pleadings authored by DWT falsely

case.

5
6

stating the BNYMTC’s principal place of business is in Miami Florida. The false declaration about

7

BNYMTC’s principal place of business is on page 3 and is underlined.
8.

8
9
10

Similarly false allegations about BNYMT’s principal place of business were repeated in

LSI’s removal petition and such statement, although challenged by Robertson, was not disputed by
any attorney for BNYMTC.

11

9.

Counsel representing BNYMTC at the Ninth Circuit mandated evidentiary hearing has

12

admitted in judicial pleadings that these statements were false, but claims he did not make them,

13

implying that Burnside and DWT made the false allegations about BNYMTC. I have attached a copy

14

of that pleading as Exhibit 3 and highlighted those portions which include such accusations.

15
16
17
18
19
20

10.

against plaintiffs and their attorneys for violations of the Fair Debt Collection Act. A copy of that
complaint can be found at Dkt 21, Exhibit 2. Exhibit 1 to that complaint is a communication from
Nationstar that was posted on my gate and identifies DWT as its attorney. For this Court’s
convenience I have attached that communication hereto as Exhibit 4.
11.

21
22
23

Exhibits 5 and 6 hereto are publicly recorded documents which were retrieved from the

Snohomish County Auditor’s Office. This Court is entitled to take judicial notice of these documents
and I hereby request it do so.
12.

24
25

As this Court knows I have previously filed a declaration which includes my complaint

I have attached hereto the relevant portions of Kathy Priore’s declaration in the ResCap

bankruptcy proceedings as Exhibit 7, underlying the most pertinent parts thereof. This declaration

26
1

In Re Residential Capital, LLC, No. 12-12020-mg, Doc. No. 8072-24 at 23 (Bnkr. SD NY, 02-05-2015). This
and all public filings in this case are viewable at http://www.kccllc.net/rescap .

DECLARATION OF SCOTT STAFNE IN SUPPORT OF
MOTION TO PROVE AUTHORITY TO BRING LAWSUIT
Page - 3

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 29 Filed 06/02/16 Page 4 of 5
A 272

1
2
3
4

tends to prove that the RESCAP bankruptcy liquidating trust believed its attorney was representing
BNYMTC in the Robertson diversity action as its servicing records indicate the wrong attorney was
hired in the then ongoing Robertson litigation in this Court.
13.

I personally am aware that there was a problem with BNYMTC’s attorney-client

5

relationship, if any, in the Robertson case. Just prior to the deadline for doing so, DWT on behalf of

6

JPMorgan Chase filed a motion for summary judgment. As a result all the defendants had obtained

7

dispositive motions in their favor except for BNYMTC. Because of this oversight the case schedule

8

had to be modified in order to allow BNYMTC to obtain dispositive motion ruling. I was informed at

9

the time by the counsel who subsequently represented BNYMTC that there was confusion regarding

10

who represented BNYTMC and that’s why no timely dispositive motion was filed.

11
12
13

I declare under the penalty of perjury that the foregoing is true and correct to the best of my
information and belief.

14
15
16

Dated this 2nd day of June, 2016 at Arlington, Washington.

17
18

/s/ Scott E. Stafne

19

SCOTT E. STAFNE WSBA#6964

20
21
22
23
24
25
26

DECLARATION OF SCOTT STAFNE IN SUPPORT OF
MOTION TO PROVE AUTHORITY TO BRING LAWSUIT
Page - 4

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 24 Filed 05/09/16 Page 1 of 13
APPENDIX 44
A 273
1
2
3
4
5

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WSAHINGTON AT SEATTLE

6
7
8
9
10
11
12
13
14
15
16

BANK OF NEW YORK MELLON, a Delaware CASE NO. 2:16-CV-00077
corporation, as trustee for STRUCTURED
ASSET MORTGAGE INVESTMENTS II
TRUST,
MORTGAGE
PASS-THROUGH
SCOTT E. STAFNE’S ANSWER TO
CERTIFICATES SERIES 2005-AR2
COMPLAINT; AFFIRMATIVE
DEFENSES AND COUNTER CLAIMS
Plaintiff,
v.
SCOTT STAFNE, an individual; TODD
STAFNE, an individual; and REAL TIME
RESOLUTIONS, INC., a Texas corporation
Defendant(s).

17
18
19
20
21
22
23
24
25

Scott E. Stafne by and through the Stafne Law Firm hereby answers the complaint filed
in the above captioned action as follows:
1.1. Stafne denies the allegations of paragraph 1.1.
1.2. Stafne admits that he is a resident of Washington. Stafne denies all other
inferences and allegations set forth therein.
1.3. Stafne admits Todd Stafne is a resident of Washington.

26

SCOTT E. STAFNE’S ANSWER TO COMPLAINT
; AFFIRMATIVE DEFENSES AND COUNTER
CLAIMS
PAGE - 1

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 24 Filed 05/09/16 Page 2 of 13

1
2
3

A 274
1.4. Stafne does not have sufficient information and belief to admit or deny the
allegations of paragraph 1.4.
1.5. Stafne admits the allegations of paragraph 1.5.
II. JURISDICTION

4
5
6
7
8
9
10

2.1. Stafne admits the amount in controversy exceeds $75,000. Stafne denies the
remainder of the allegations and inferences which may flow from the allegations in this
paragraph.
2.2. Stafne denies paragraph 2.2.
2.3. Stafne denies paragraph 2.3.
III. FACTS

11
12
13
14
15
16
17

3.1. Stafne denies the allegations of paragraph 3.1. Stafne denies signing these
instruments and notifies plaintiff that in light of this denial, it bears the burden of proving
Stafne’s signature. Stafne denies plaintiffs alleged characterizations of the Note and Deed of
Trust which are attached to the complaint as exhibits as those documents speak for
themselves.

18

3.2. Stafne denies the allegations of paragraph 3.2. The document speaks for itself.

19

3.3. Stafne denies the allegations of paragraph 3.3.

20

3.4. Stafne denies the allegations of paragraph 3.4.

21
22
23
24

3.5. Stafne does not dispute the existence of the forbearance agreement, which is
attached as Exhibit C to the complaint. Stafne denies all other allegations made in this
paragraph.

25
26

SCOTT E. STAFNE’S ANSWER TO COMPLAINT
; AFFIRMATIVE DEFENSES AND COUNTER
CLAIMS
PAGE - 2

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 24 Filed 05/09/16 Page 3 of 13
A 275
3.6. Stafne denies the allegations of paragraph 3.6. He was in default prior to the time

1
2

the purported note and deed of trust were securitized and transferred to J.P. Morgan Bank

3

N.A.

4

3.7. Stafne denies paragraph 3.7. The Acceleration Notice speaks for itself.

5

3.8. Stafne denies paragraph 3.8.

6
7
8
9
10
11

3.9. Stafne denies paragraph 3.9.
3.10. Stafne denies the allegations of paragraph 3.10.
3.11. Stafne denies the allegations of paragraph 3.11.
3.12. Stafne denies the allegations of paragraph 3.12. The Acceleration Notice speak
for itself.

12

3.13. Stafne denies the allegations of paragraph 3.13.

13

3.14. Stafne denies the allegations of paragraph 3.14.

14
15
16
17

3.15. Stafne denies that Bank of New York Mellon has any right based on its
complaint or other document or agreement to accelerate any debt related to the note or deed of
trust attached as to the exhibits to its complaint. See affirmative defenses.

18

3.16. Stafne denies the allegations contained in paragraph 3.16.

19

3.17. Stafne is without information and belief to admit or deny the allegations

20
21
22
23
24
25

contained in paragraph 3.17 and therefore denies.
3.18. Stafne denies paragraph 3.18.
IV. CAUSES OF ACTION
4.1. Stafne denies the allegations of paragraph 4.1. Stafne asserts that enforcement of
the Note is barred. See affirmative defenses.

26

SCOTT E. STAFNE’S ANSWER TO COMPLAINT
; AFFIRMATIVE DEFENSES AND COUNTER
CLAIMS
PAGE - 3

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 24 Filed 05/09/16 Page 4 of 13

1
2
3

A 276
4.2 Stafne denies the allegations of paragraph 4.2. Stafne asserts the deed of trust is
outlawed pursuant to RCW 7.28.300 as well as unenforceable. See affirmative defenses.
4.3. Stafne admits that he has breached the Note and Deed of Trust by not making any

4

payments since November, 2007. Further, Stafne breached the note and deed of trust,

5

specifically ¶¶ 5, 7, 9, and 11 of the deed of trust, more than six years ago by not keeping the

6
7
8
9

property insured; by not restoring the property; by not applying the funds received from
litigation with Stafne’s homeowners insurance company to repairing the property; and by not
paying lender miscellaneous proceeds related to the diminution of the value of the house.

10

Stafne also asserts the lender breached the contract more than six years ago by requiring

11

Stafne to pay premiums for forced placed insurance based on the amount of the loan or an

12

inflated amount over and above Stafne’s insurable interest in the property. See affirmative

13

defenses and counterclaims.

14
15

4.4. Stafne denies that relief under RCW 7.60.025 is available to plaintiff.
STAFNE’S AFFIRMATIVE DEFENSES

16
17

Stafne asserts the following affirmative defenses against plaintiffs:

18

A. This Court lacks diversity jurisdiction over this action.

19

B.

Bank of New York Mellon Corporation has no standing to bring this action.

20

C.

Bank of New York Mellon and Bank of New York Mellon N.A. are not the real

21
22
23

parties in interest.
D. Accord and Satisfaction
E.

Estoppel

25

F.

Failure of Consideration

26

G. Fraud

24

SCOTT E. STAFNE’S ANSWER TO COMPLAINT
; AFFIRMATIVE DEFENSES AND COUNTER
CLAIMS
PAGE - 4

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 24 Filed 05/09/16 Page 5 of 13

1

A 277

H. Illegality

2

I.

Laches

3

J.

Non claim statute - RCW 7.28.300

4

K. Statute of frauds

5

L.

6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24

Statute of Limitations

M. Anticipatory breach of contract in 2007 resulting in Stafne making no payments
thereafter and Plaintiff allowing the Statute of Limitations to run on Stafne’s breaches of
contract outlined above and which were not subject to any installment payments.
N. Violations of Fair Debt Credit Reporting Act by plaintiff and its attorneys, which
are demonstrated in a related action to be filed with this Court
4.5 Stafne reserves the right to amend these affirmative defenses as warranted by
continuing investigation and discovery.
STAFNE’S QUIET TITLE CLAIMS
1.1. Stafne asserts this court has no subject matter jurisdiction to hear this claim for the
reasons stated in Stafne’s motion to dismiss pursuant to Fed. R. Civ. Pro 12(b)(1) and for such
other reasons as appear on the face of the complaint.
1.2. If this Court continues to find that it has jurisdiction based on the allegations of
plaintiff’s complaint, Stafne hereby provides notice to this Court that he may seek a writ or
mandamus or prohibition to prevent this Court from acting outside the bounds of its subject
matter jurisdiction. Cf. All Coast Fishermen's Marketing Association v Confederated Tribes,
United States Supreme Court, A-129 (1970) ORDER by Justice Rehnquist.

25

1.3. Stafne anticipates filing a related action against the alleged plaintiffs and their

26

counsel in this action for violations of the Fair Debt Collection Practices Act, which will

SCOTT E. STAFNE’S ANSWER TO COMPLAINT
; AFFIRMATIVE DEFENSES AND COUNTER
CLAIMS
PAGE - 5

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 24 Filed 05/09/16 Page 6 of 13

1
2
3

A 278
further substantiate this Court’s lack of statutory diversity jurisdiction under the
circumstances of this case.
1.4. If this Court proceeds and/or is permitted to proceed with regard to this matter,

4

Stafne asks this Court quiet title and declare as outlawed the deed of trust filed with the

5

Snohomish County Auditor as Instrument No. 200503150879 because it is outlawed under

6
7
8
9
10
11

RCW 7.28.300 which Stafne assets is a non-claims statute. Alternatively, Stafne alleges even
if RCW 7.28.300 is not t anon-claims statute that various statutes of limitation bar and the
doctrine of laches bar enforcement of any debt owed under any note and/or deed of trust
which exist and have not been forged.
1.5 The form deed of trust Plaintiff Bank of New York Mellon claims is [are]

12

applicable to this case requires the party secured thereby to give notice of default and intent to

13

accelerate 30 days prior to acceleration after which no further communication or demand need

14
15

be made to accelerate those payments due.
1.6

16
17

Shortly after Stafne moved into his home he observed construction defects in

his home which he later learned made it unsaleable, uninsurable, and arguably not habitable.

18

Stafne notified the servicer about these damages and kept servicer advised of litigation related

19

to these construction defects and later negligence by, among others, his insurance company’s

20

negligent attempts to investigate the cause of the damages.

21
22
23
24
25

1.7

The servicer on behalf of Lender initially accelerated the debt prior to June

1.8

On or about June 12, 2007 the servicer on behalf of lender entered into a

2007.

Suspended Payment Agreement with Stafne which stated in pertinent part:

26

SCOTT E. STAFNE’S ANSWER TO COMPLAINT
; AFFIRMATIVE DEFENSES AND COUNTER
CLAIMS
PAGE - 6

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 24 Filed 05/09/16 Page 7 of 13
A 279
If you fail to comply with each and all of the terms of and conditions
of this Agreement, this Agreement at Countrywide’s option shall
terminate immediately and automatically without further notice to
you and, except as otherwise provided herein, shall be of no further
force and effect. In such case, all amounts that are owing under your
loan shall become immediately due and payable, and Countrywide
shall commence or continue, as the case may be, foreclosure
proceedings, or take such other action as permitted by law.

1
2
3
4
5

If we previously notified you that your loan is (or will be) accelerated
and/or due in full, although you may be entitled by law to cure your
default by bringing your loan current rather than paying it off.
Countrywide’s acceptance of any payments from you which,
individually or collectively, are less than the total amount due on your
loan shall in no way de-accelerate your loan or require Countrywide
to re-notify you of your default, re-accelerate your loan, or recommence any notice or process prior to countywide proceeding with
foreclosure action.

6
7
8
9
10
11
12
13

1.9

More than six years has passed since the note and deed of trust were mutually

breached by Stafne and various successor servicers and lenders. Notwithstanding various

14

servicers acceleration of those amounts due and owing and those other breaches of contract

15

set forth herein Stafne has not made any payments related to the note or deed of trust for more

16

than 8 years.

17

V. Causes of Action

18
19
20

Quiet Title
2.1.

Chapter 7.28 RCW permits “[a]ny person having a valid subsisting interest in

21

real property, and a right to the possession thereof” to recover the same in the superior court

22

wherein the property is situated. RCW 7.28.010.

23
24

2.2.

In such actions, “the superior title, whether legal or equitable” prevails. RCW

7.28.120.

25
26

SCOTT E. STAFNE’S ANSWER TO COMPLAINT
; AFFIRMATIVE DEFENSES AND COUNTER
CLAIMS
PAGE - 7

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 24 Filed 05/09/16 Page 8 of 13

1
2
3

2.3.

A 280
A mortgagee is merely a lienor and may not “recover possession of the real

property, without a foreclosure and sale according to law”. RCW 7.28.230.
2.4.

As the fee simple owner of the property Scott Stafne presumptively has title

4

superior to all other claimants. In fact, the form deed of trust is a lien that relies on the

5

superiority of the Stafne’s title. Form Deed of Trust Language at 3 (“Borrower is lawfully

6
7
8
9

seized of the estate hereby conveyed and has the right to grant and convey the Property”.).
2.5.

Plaintiff’s purported property interest in the Subject Property is merely a lien.

RCW 7.28.230. In order to acquire a good and valid title the lien must be (1) based upon a

10

valid and enforceable debt secured by an enforceable security agreement; (2) foreclosed; (3)

11

sold for the payment of the lien; (4) properly conveyed to valid lien holder as a result of the

12

sale; and (5) potentially, held during a lapse of the statutory period of time before which their

13

title remains inchoate. RCW 7.28.230 (mortgagee acquiring title); RCW 7.28.300 (cannot

14
15
16
17

acquire title when enforcement of mortgage barred); generally Chs. 61.12 and 61.24 RCW
(foreclosure, sale and conveyance upon sale); and Ch. 6.23 RCW (redemption).
2.6.

The owner of real property may quiet title against such a lien and have a lien

18

outlawed “where an action to foreclose such [a lien] would be barred by the statute of

19

limitations” converting a borrower's defeasible fee simple title to fee simple absolute by

20

operation of law. RCW 7.28.300.

21

Relevant Statutes Of Limitation

22

RCW 4.16.040(1)

23
24
25

2.7.

RCW 4.16.040(1) provides an “action upon a contract in writing” must be

commenced within six years.

26

SCOTT E. STAFNE’S ANSWER TO COMPLAINT
; AFFIRMATIVE DEFENSES AND COUNTER
CLAIMS
PAGE - 8

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 24 Filed 05/09/16 Page 9 of 13

2.8

1

A 281
Stafne breached the note and deed of trust, specifically ¶¶ 5, 7, 9, and 11 of

2

the deed of trust, more than six years ago by not keeping the property insured; by not

3

restoring the property to the value it would have had but/oir the construction defects and

4

negligence of the entities investigating the cause of these defects; by not applying the funds

5

received from litigation with Stafne’s homeowners insurance company to repairing the

6
7
8

property or turning such funds over to the servicer on behalf of the lender; and by not paying
lender miscellaneous proceeds related to the diminution of the value, if any, of the house.
2.9 Stafne also asserts the lender breached the contract more than six years ago by

9
10

requiring Stafne to pay premiums for forced placed insurance based on the amount of the loan

11

rather than on Stafne’s insurable interest in the property. The Lender continued to charge

12

Stafne unlawful premiums based on insurable amount which was far more than the value of

13

the house and Stafne refused to make any further payments under the note or deed of trust

14
15

because of these breaches.
2.10 The first acceleration of the monies owed on the note and deed of trust in 2007

16
17
18

was valid and could not be “de-accelerated1” under the terms of the agreements between the
servicer and Stafne and as a matter of Washington law.
RCW 62A.3-118(a)

19
20
21
22
23

2.11

RCW 62A.3-118(a) provides an action to enforce payment obligations

undertaken in a negotiable instrument “must be commenced within six years after the due date
or dates stated in the note” or “within six years after [an] accelerated due date”.

24
25
26

1

See ¶ 1.8 of this section which refers to June 12, 2007 Suspended Payment Agreement between servicer and Stafne
which stated, among other things:
Countrywide’s acceptance of any payments from you which, individually or collectively, are less than the total
amount due on your loan shall in no way de-accelerate your loan or require Countrywide to re-notify you of

SCOTT E. STAFNE’S ANSWER TO COMPLAINT
; AFFIRMATIVE DEFENSES AND COUNTER
CLAIMS
PAGE - 9

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 24 Filed 05/09/16 Page 10 of 13

2.12

1

A 282
The Note was accelerated more than 6 years ago in order to allow defendants

2

to bring an action to obtain relief, which included obtaining the entire amount due and owing

3

on the accelerated debt.
2.13

4
5
6

could not be “de-accelerated2” and/or decelerated and/or waived under the terms of the
agreements between the servicer and Stafne and as a matter of Washington law.

7

2.14

8
9

The first acceleration of the monies owed on the note in 2007 was valid and

Even the February 17, 2009 acceleration notice stated: “[i]f the default is not

cured...the mortgage payments will be accelerated” (emphasis added). This language is not

10

equivocal but conditional; an if-then statement: If payment of the sum demanded is not made

11

(and it was not) then the mortgage payments will be accelerated.

12
13
14
15
16

2.15.

After servicer issued its first Notice of Intent to Accelerate there was no

further condition precedent to filing a suit to foreclose, either judicially or non-judicially,
under the applicable agreements and/or Washington law. see also RCWs 61.12.040 and
61.24.030(3) (foreclosure available remedy upon default).
2.16.

17

After Servicer accelerated the payments there remained no condition

18

precedent for servicer and lender to perform prior to filing a suit to collect all unpaid principal

19

and accrued interest due on the loan all applicable statutes of limitation began to run. See

20

RCW 62A.3-118(a) (acceleration establishes a new maturity date from which the limitations

21

period is calculated).

22
23
24
25
26

your default, re-accelerate your loan, or re-commence any notice or process prior to countywide proceeding
with foreclosure action.
2

See note 1, supra

SCOTT E. STAFNE’S ANSWER TO COMPLAINT
; AFFIRMATIVE DEFENSES AND COUNTER
CLAIMS
PAGE - 10

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 24 Filed 05/09/16 Page 11 of 13
A 283
RCW 4.16.040(3)

1
2

2.17.

A cause of action accrues when the plaintiff has a right to seek relief in the

3

courts. E.g. Tyson v. Tyson, 107 Wn. 2d 72, 75, 727 P.2d 226 (1986). A cause of action for

4

foreclosure accrues upon default. E.g. RCW 61.12.040; see also RCW 61.24.030(3).

5
6
7
8
9
10
11

2.18. A foreclosure sale results in either (1) the beneficiary receiving the profits of the
sale sufficient to pay the balance of the loan secured by the deed of trust; or (2) if the
beneficiary purchases the property at the sale, the beneficiary becoming the record owner of
the property entitled to the use and possession of that property. Generally Ch. 61.24 RCW.
2.19. An action for “the rents and profits or for the use and occupation of real estate”
is barred upon the elapse of six years after the cause of action accrues. RCW 4.16.040(3).

12

2.20. Any action to foreclose based upon the Deed of Trust encumbering the Subject

13

Property must have been commenced on or prior to 6 years from the last payment under the

14
15
16
17

deed of trust. RCW 4.16.040(3).
CERTIFICATION REQUEST
3.1. The Supreme Court of Washington has not published any controlling authority

18

regarding the limitations and laches issues raised in this case. Congress has indicated an

19

intention that to prohibit debt collectors from threatening to collect and collecting stale debts

20

pursuant to State laws. This Congressional purpose can best be achieved under the

21
22
23
24
25

Constitution’s federal framework and the Tenth Amendment by allowing Washington’s
Supreme Court to construe those Washington statute of limitations and laches issues which
are more a matter of State concern than federal concern, especially when they arise in the
context of the dispossession of lands within the boundaries of Washington State.

26

SCOTT E. STAFNE’S ANSWER TO COMPLAINT
; AFFIRMATIVE DEFENSES AND COUNTER
CLAIMS
PAGE - 11

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 24 Filed 05/09/16 Page 12 of 13

1

A 284
3.2. The Washington State legislature has enacted statutes regarding the certification of

2

such issues by this Court to Washington’s Supreme Court. Ch. 2.60 RCW. The Supreme

3

Court of Washington has also adopted rules regarding certification of such issues to the

4

Supreme Court of Washington. See RAP 16.16.

5
6
7
8
9
10
11

JURY DEMAND
Stafne demands that all triable issues, including without limitation, those related
limitations, be tried before a jury.
PRAYER FOR RELIEF
WHEREFORE, having answered Plaintiff’s Complaint, Stafne seeks judgment against
Plaintiffs granting the following relief:

12

1. The dismissal of all Plaintiff’s claims with prejudice;

13

2. For the recovery of all attorney fees and costs incurred by Stafne in the defense of

14
15
16

Plaintiff’s claims under applicable contractual, legal or equitable grounds; and
3. For such other and further relief as the Court may deem just and equitable.

17
18
19

DATED this 9th day of May, 2016 at Arlington, Washington.

20
21
22
23

/s/ Scott E. Stafne
Scott E. Stafne, WSBA # 6964

24

STAFNE LAW FIRM

25
26

SCOTT E. STAFNE’S ANSWER TO COMPLAINT
; AFFIRMATIVE DEFENSES AND COUNTER
CLAIMS
PAGE - 12

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

1

Case 2:16-cv-00077-TSZ Document 21 Filed 04/21/16 Page 1 of 10
APPENDIX 45
A 285
THE HONORABLE THOMAS S. ZILLY

2
3
4

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

5
6
7
8
9
10

BANK OF NEW YORK MELLON, a Delaware
corporation, as trustee for STRUCTURED
ASSET MORTGAGE INVESTMENTS II
TRUST, MORTGGE PASS-THROUGH
CERTIFICATES SERIES 2005-AR2,

11
12
13
14

v.

CASE NO. 2:16-cv-00077

SUPPLEMNTAL DECLARATION OF
SCOTT E. STAFNE RE: SUBJECT
PLAINTIFF, MATTER JURISDICTION

SCOTT STAFNE, an individual; TODD
STAFNE, an individual; and REAL TIME
RESOLUTIONS, Inc., a Texas corporation,
DEFENDANTS.

15
16
17
18
19
20

1. My name is Scott E. Stafne. I am one of the defendants in this judicial foreclosure
purportedly brought by Bank of New York Mellon as trustee against real property
which I have owned in the State of Washington since 2004. I am also an attorney

21

licensed to practice law in the courts of the state of Washington, including the United

22

States District Courts for the Western and Eastern Districts of Washington.

23
24

2. I am over the age of majority and competent to makes this declaration. I make this
declaration on the basis of such personal knowledge as appears more fully herein.

25
26

Declaration of Scott E. Stafne- 1

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223
T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 21 Filed 04/21/16 Page 2 of 10

1

A 286
3. Given this Court has its own independent duty to determine the existence of its subject

2

matter jurisdiction to decide this action, I believe the best way to bring the issues

3

raised herein to this Court’s attention is by way of this declaration; rather than by

4

filing a specific motion at this time.

5
6
7
8
9

4. As this Court can see from the caption of this action, it reflects that Bank of New York
Mellon, et al, is the plaintiff in this action.
5. The summons, which was served on me and filed with this Court, also identifies the
plaintiff as Bank of New York Mellon, et al.

10

6. The Civil Cover Sheet also identifies the plaintiff as Bank of New York Mellon et. al.

11

7. The “instructions” to the Civil Cover Sheet instruct that the full names of parties

12
13
14
15
16
17
18
19
20
21
22
23
24
25

should be stated.
8. The caption identifies the plaintiff as “BANK OF NEW YORK MELLON, a
Delaware corporation as trustee for STRUCTURED ASSET MORTGAGE
INVESTMENTS II TRUST, MORTGAGE PASS-THROUGH CERTIFICATES
SERIES 2005-AR2.”
9. Paragraph 1.1 of the complaint states:
Bank of New York Mellon, a Delaware corporation, serves as trustee
for Structured Asset Mortgage Trust II, Mortgage Pass-Through
Certificates Series 2005-AR2, and in that capacity owns and holds
Defendant Scott Stafne’s note. Bank of New York Mellon’s affiliate
entities include Bank of New York Mellon Trust Company, N.A.,
which has its main offices and headquarters in California. Bank of
New York Mellon is acting in foreclosure proceedings in this case
through its attorney in fact, Nationstar Mortgage LLC.
(Emphasis Supplied)
10. The Corporate Disclosure Statement filed with this Court in this action states:

26

Declaration of Scott E. Stafne- 2

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223
T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 21 Filed 04/21/16 Page 3 of 10
A 287
Pursuant to Fed. R. Civ. P. 7.1, Plaintiff Bank of New York
Mellon, Co., as trustee for Structured Asset Mortgage Investments II
Trust, Mortgage pass-through Certificates Series 2005-AR 2, makes
this Corporate Disclosure State.
The Bank of New York Mellon Corporation, a Delaware
corporation, is a publicly held company. No corporation owns 10% or
more of its stock.

1
2
3
4
5
6
7
8
9

11. The complaint alleges, and provides an exhibit in support thereof, that Nationstar (the
servicer) has executed a power of attorney authorizing Bank of New York Mellon to perform
several of its debt collection activities as servicer pursuant to the PSA against Stafne,
including apparently bringing this in rem foreclosure action against Stafne.

10

12. As this Court knows from my previous and still pending challenges to its subject matter

11

jurisdiction pursuant to Fed. R. Civ. Pro. 12(b)(1), there is another prior filed in rem action

12

involving my property res and other properties in the overall Twin Falls community property

13

res currently pending in the Superior Court of Snohomish County, Washington in the case

14
15
16
17

Abrams v Twin Falls, Inc., et al, Snohomish County Superior Court Cause No. 15-2-04710-6..
13. My third-party complaint and intervention complaint in that Washington State court
action name the plaintiff as identified in the caption of this federal complaint herein i.e. Bank

18

of New York Mellon, as a defendant in that ongoing quiet title action. The relief I seek in that

19

action related to Bank of New York Mellon is to quiet title and declare as outlawed any

20

interest in the deed in the deed of trust recorded as Snohomish County Instrument number

21
22
23
24

200503150879 claimed by Bank of New York Mellon or any other entities pursuant to RCW
7.28.300.
14. In order to serve my state court complaint on Bank of New York Mellon in the

25

Washington action I retained Delaware Attorney Services LLC. I chose that process servicer

26

because it advertises that it serves banking entities, like Bank of New York Mellon.

Declaration of Scott E. Stafne- 3

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223
T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 21 Filed 04/21/16 Page 4 of 10

1
2
3
4
5
6
7
8
9
10
11
12
13

A 288
15. Delaware Attorney Services, LLC notified me that Bank of New York Mellon refused
service of my complaint. The process servicer explained in a letter:
Service rejected by Amy McClaren of The Corporation Trust
Company, as they are not the registered agent for this entity, as named
on the summons and the complaint. The correct name is The Bank of
New York Mellon Corporation. In order for them to accept the name
must be noted in full as The Bank of New York Mellon Corporation,
as is listed with the DE Secretary of state. In addition the complete
name must be listed on all the documents being served. The Bank of
New York Mellon Corporation has given very specific instruction to
Corporation Trust Company with regard to accepting documents on
their behalf.
10. A copy of a document entitled “Affidavit of Attempted Service” and the bill my office
has received and I have paid for such service, is attached as Exhibit 1.
11. If the plaintiff refuses to be served in essentially the same matter, i.e. a case
involving the interest of the purported plaintiff herein in my land pursuant to that

14

stale deed of trust recorded as Snohomish County Instrument No.

15

200503150879, because I have not sued The Bank of New York Mellon, the

16

complaint establishes that the plaintiff in this action is not The Bank of New

17
18
19
20
21
22
23
24
25
26

York Mellon.
12. In paragraph 3.4 of the complaint filed in this action Bank of New York
Mellon alleges with regard to the way it acquired its interest in my stale deed:
After closing [on Stafne’s loan in 2005], Countrywide transferred the
Note to JP Morgan Chase Bank, N.A. (“JP Morgan”), as then trustee
for Structured Asset Mortgage Investments II Trust 2005-AR2 (“SAMI
Trust) See Attach A at 4 (indorsement to JP Morgan, as Trustee),
Attach F (Pooling and Servicing Agreement.) On September 15, 2006,
the Office of the Comptroller of the Currency approved Chase’s sale of
its trustee operations for securitized trust to Bank of New York. After
October 1, 2006 Chase was no longer trustee (and thus no longer holder
of Borrower’s Note.) See, e.g.,
http://www.occ.gov/static/interpretations-and-

Declaration of Scott E. Stafne- 4

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223
T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 21 Filed 04/21/16 Page 5 of 10

1
2
3
4
5
6
7
8
9

A 289
precedents/octt06/crad136.pdf (OCC approval letter); JP Morgan
Chase & Co. 10-Q, at 5 (November 8, 2006) available at,
http://www.sec.gov/Archives/edgar/data/19617/000095012306013738/
y26732e10vq.htm (“On October 1, 2006, the Firm completed the
exchange of selected corporate trust businesses, including trustee …
services, for the consumer, small business and middle-marketing
banking businesses of the Bank of New York.”). Bank of New York
Mellon assumed the role of trustee of the SAMI Trust and Nationstar,
as its attorney in fact, indorsed the Note to Bank of New York Mellon
as successor to JP Morgan as Trustee for the SAMI Trust. Attach. A at
4 (indorsement to Bank of New York Mellon, successor trustee.)
13. Notwithstanding these allegations that JP Morgan Trust was not the trustee after 2006,
Nationstar (the servicer) has sent me communications which assert that JP Morgan

10

remained the trustee of the trust long after 2006. I have included an example of one such

11

communication as Exhibit 2.

12

14. I also have personal knowledge regarding Bank of New York Mellon claiming to

13

operate as a trustee pursuant to the sale of JP Morgan Chase trustee business to Bank of

14
15
16
17

New York, N.A. based on my litigation of other cases involving property interests which
were also purportedly transferred pursuant to this same 2006 transaction.
15. I have attached hereto as Exhibit 3 a copy of the Ninth Circuit’s Memorandum ruling

18

in Robertson v GMAC Mortgage, LLC, No. 14-35672 (9th Cir. 01-05-2016).

19

16. As this Court can see, Exhibit 3 requires another judge of this District Court to hold an

20

evidentiary hearing with regard to determining the citizenship of several of the parties in

21
22
23
24
25

that case, including Bank of New York Mellon Trust Company. NA (referred to by the
Ninth Circuit Memorandum simply as “BNY”).
17. That case also involves a deed of trust purportedly obtained by Bank of New York’s
acquisition of JP Morgan trust business in 2006. This is the same transaction which is

26

Declaration of Scott E. Stafne- 5

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223
T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 21 Filed 04/21/16 Page 6 of 10

1

A 290
described in paragraph 12 above by reference to specific allegations of the complaint filed

2

in this action.

3

18. I represented plaintiff/appellant Robertson in much of the district court action and in

4

several related appellate court proceedings pertaining to, among other things, whether the

5

district court appropriately found that it had diversity subject matter jurisdiction of that

6
7
8
9

case.
19. In preparation for that evidentiary hearing recently ordered by the Ninth Circuit The
Bank of New York Mellon Trust Company, N.A. has made certain disclosures through its

10

counsel for purposes of establishing its citizenship. These disclosures are attached hereto

11

as Exhibit 4.

12

20. Counsel for The Bank of New York Mellon Trust Company, N.A., in that case has

13

suggested that my client Mr. Robertson, has no good faith basis not to stipulate that his

14
15
16
17

client is diverse. I have attached a copy of the emails between counsel for Bank of The
New York Mellon Trust Company N.A. and myself in this regard as Exhibit 5. As the
Court can see the last email from the Bank of New York Mellon’s counsel acknowledges

18

that The Bank of New York Mellon Trust Company N.A. is a separate entity from The

19

Bank of New York Mellon Corporation.

20

21. Exhibit 5 indicates the entity which appears in the caption and body of the complaint

21
22
23
24

in this case, as well as in the Civil Cover Sheet and Corporate Disclosure Statement as
being the plaintiff, is not The Bank of New York Mellon Corporation. Its affiliate is also
not identified as The Bank of New York Mellon Trust Company N.A. This is significant

25

because it casts doubt on whether an actual trustee has been named. See Exhibit 4, which

26

contains corporate documents suggesting that the word “The” preceding the term Bank is

Declaration of Scott E. Stafne- 6

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223
T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 21 Filed 04/21/16 Page 7 of 10

1

A 291
considered an essential part of their formal names. Exhibit 1 also demonstrates this, i.e.

2

that the plaintiff named in this complaint Bank of New York Mellon, et. al, and/or Bank

3

of New York Mellon Corporation refuses to accept service of any process which does not

4

include the name “The Bank of New York Mellon.”

5

22. Because the complaint in this case does not properly name any proper Bank of New

6
7
8
9

York entity, i.e. one which includes the word “The” before “Bank”, the purported plaintiff
does not have any interest in the deed of trust, even though an entity with a similar
sounding name may be claiming an interest in the stale deed of trust at issue in this case.

10

23. The strategic misrepresentation of Bank of New York Mellon (if that is what is

11

happening here) as being something different than The Bank of New York Mellon

12

entities, is, in my opinion, deceptive and problematic. Further, it is my judgment this

13

deceptive practice, which appears to be perpetuated by federal courts failure to accurately

14
15
16
17

identify BNY entities in their decisions undermines the purposes of diversity jurisdiction
statutes contemplated by 28 USC 1332 and may rise to the level of constitutional affronts
to individuals’ rights pursuant to the federal nature of our government, U.S. Const. Art.

18

IV, § 4, U.S. Const. Amend. IX, and U.S. Const. Amend. X.

19

24. An example of New York Mellon entities misuse and abuse of its various names in

20

order to allege diversity jurisdiction is the case of Diunugala v JP Morgan Chase Bank,

21
22
23
24

N.A. et al, Case No. Case No. 12cv2106-WQH-KSC (SD Cal.)(attached as Exhibit 6.) In
that case The Bank of New York Mellon Trust Company N.A. asserted diversity
jurisdiction in California by claiming it was actually Bank of New York Mellon

25

Corporation, which it claimed was, incorporated Delaware. Had The Bank of New York

26

Mellon Trust Company acknowledged that it was the trustee and a California corporation

Declaration of Scott E. Stafne- 7

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223
T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 21 Filed 04/21/16 Page 8 of 10

1

A 292
there would have been no diversity jurisdiction because both the plaintiff and Bank of

2

New York Mellon Trust Company were California citizens.

3

25. The removal petition filed in Diunugala is attached as Exhibit 7. The removal petition

4

asserts, as does the complaint in this case, that Bank of New York Mellon Corporation is a

5

Delaware corporation is the trustee notwithstanding the complaint appears to have alleged

6
7
8
9

The Bank of New York Mellon Trustee Company N.A. was the trustee. Accordingly, the
claim made in the removal petition that this defendant was a Delaware corporation does
not appear to be tethered to the facts.

10

26. Similarly in the Robertson case Bank of New York Mellon Trust Company,

11

N.A. asserted as the basis for diversity and removal jurisdiction that it was a citizen of

12

Florida. Curiously, there were two law firms which appeared on behalf of Bank of New

13

York Mellon Trust Company, N.A. in the Robertson case. One of those firms represents

14
15
16
17

Bank of New York Mellon in this case. The portion of that law firm’s removal petition
which asserted that Bank of New York Mellon Trust Company is a citizen of Florida is
attached as Exhibit 8, hereto.

18

24. What is significant in that case is that Bank of New York Mellon Trust Company,

19

N.A., after repeatedly pleading Florida as their citizenship (and the district Court

20

subsequently so ruling) is now claiming it is not a Florida citizen for purposes of

21
22
23
24
25

diversity. Moreover, Bank of new York Mellon Trustee Company is now claiming that
Robertson may not be acting in good faith if he does not stipulate to Bank of New York
Trustee Company’s citizenship as being in California even though that is the citizenship
he pleaded for this entity in his initial complaint .

26

Declaration of Scott E. Stafne- 8

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223
T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 21 Filed 04/21/16 Page 9 of 10

1

A 293
25. Mr. Robertson is now investigating whether an argument can be made whether Bank

2

of New York entities can forfeit their right to invoke diversity jurisdiction if it can be

3

established they systematically misrepresent their actual identity and citizenship to federal

4

courts.

5

25. Accordingly, If this Court decides that the denial of federal jurisdiction is not

6
7
8
9

appropriate for those other reasons previously stated in my Rule 12(b)(1) motion, I believe
it should pursuant to its own jurisdictional responsibilities determine hold an evidentiary
hearing to determine whether the Bank of New York Mellon entities by purporting to act

10

as an entity which they are not is engaging in systemic conduct inimical with the letter and

11

spirit of RCW 28 USC 1332 in order to prevent state courts from having the initial

12

opportunity to determine the meaning of state laws dealing with the dispossession of land

13

with their own boundaries.

14
15

DATED this 21st day of April, 2016 in Arlington, Washington.

16
17
18
19

I declare under the penalty of perjury that the foregoing statements are true and
correct to the best of my information and belief.
s/Scott E. Stafne

20

Scott E. Stafne WSBA#6964
Stafne Law Firm

21
22
23
24
25
26

Declaration of Scott E. Stafne- 9

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223
T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 21-1 Filed 04/21/16 Page 1 of 3
APPENDIX 46
A 294

Exhibit - 1

Case 2:16-cv-00077-TSZ Document 21-1 Filed 04/21/16 Page 2 of 3
A 295

AFFIDAVIT OF ATTEMPTED SERVICE
In The Superior Court of the State of Washington in and for the County of Snohomish
Jeffrey R. Abrams, a married person
Plaintiff(s)

Case No: 15-2-04710-6

Twin Fall, Inc., a Washington corporation
Defendant(s)
Twin Fall, Inc., a Washington corporation
Third-Party Plaintiff
Scott E. Stafne, a single man, and Bank of New York Mellon
Third-Party Defendants
I declare that I am a citizen of the United States, over the age of eighteen and not a party to this action. And that
within the boundaries of the state where service was effected, 1 was authorized by law to perform said service.
Service: I attempted service on Bank of New York Mellon
With the (documents)Third-Party Plaintiff Scott Stafne's Answer and Quiet Title and Other Claims Agaings Jeffrey R.
Abrams and BNYM
Attempted At Corporation Trust Company, 1209 Orange St., Wilmington, DE 19801
Date Attempted: April 12, 2016

Time Attempted: 3:10 p.m.

Manner of Sery ICC:

By personally delivering copies m the person/authorized agent of entity being served.
( ) By leaving, during office hours, copies at the office of the person/entity being served, leaving same with the person apparently in charge thereof
()By leaving copies at the dwelling house or usual place of abode of the person being served, with a member of the household 18 or older and explaining
the general nature of the papers.
( )By posting copies In a conspicuous manner to the address of the person/entity being served.

XXXX Non-Service:

After due search, careful inquiry and diligent attempts at the address(es) listed above,1 have been unable to effect process
upon the person/entity being served because of the following reason(s):
()Unknown at address ( ) Evading ( ) Moved, left no forwarding ( ) Address does not exist
( 1Service canceled by Litigant
(X ) Other

- Service rejected by Amy McLaren of The Corporation Trust Company, as they are not registered agent for this
entity, as named on the summons and the complaint. The correct name is The Bank of New York Mellon Corporation. In
order for them to accept the name must be noted in full as The Bank of New York Mellon Corporation, as it is listed with DE
Secretary of state,. In addition the complete name must be listed on all of the documents being served. The Bunk of New
York Mellon Corporation has given very specific instructions to Corporation Trust Company with respect to accepting
documents on their behalf.

I declare under penalty of perjury that the Information contained herein is true and correct and this affidavit was executed on:
April 12.2016
Date

at Wilmington.
City

Delaware
State

a 1 Thy

el Newcomb, ProceirServer
Delaware Attorney Services
3516 Silverside Rd. # 16
Wilmington, DE 19810 (302) 429-0657

State of Delaware
County of New Castle

Subscribed and sworn before me, a Notary Public of the State of Delaware on April 12, 2016
011111ff/or

Minas My Rand and Official Seal To
?
....

.:_-

I
\ 'AI:it t .1-4 4)--S.'co M

•A

Ci.."
. • f I. .-"'

o • ...r.
•4
• EXPIRES z• =

• :.-.
,
.- 1.WY 17. me .
44'
•:: LET
if OF Dam. ‘‘

Kimberly J. Ryan;
Notary Public, State of Delawar

n Expires 5/17/16

Case 2:16-cv-00077-TSZ Document 21-1 Filed 04/21/16 Page 3 of 3

Delaware Attorney Services LLC
A 296
Delaware Attorney Services LLC
3516 Silverside Road Suite 16
Wilmington, DE 19810

D

A

0

Date

invoice #

0411.212016-;:..:

(302)429-0657delatty@comcast.net
http://wvAv.theprocess,serve.rs.com

A12148.
TerMS
Duc on receipt

Delaware Attorney Services

Bill To
Pam Miller, Legal Assistant
I Sta Inc Law Firm
1 239 N. Olympic Avenue
I Arlington, WA 98223

Amount Due T Enclosed
$67.701
l'ivet•e &inch. top portion and rcittrowit13 yeTTpprier11,

Case Caption
„brams v 'fwin Fla, Inc.
_ .
..
..... .
• Bank of New York Mellon
- Jeffrey A brains v Twin Falls, Inc
1:. PRINT FEE (27 pg (et .10)

Activity

Cise #
; .

15-2-04710-6

Reference #
I

None Provided

Arm
65.00.

k

.
The greatest compliment we can receive is a referral from our happy custinners.t.-1.

Delaware Attorney Serviees 1,I.0

Tax ID No: 4572773457 .1

www.Illepn)cetsacrvers.Cont

Case 2:16-cv-00077-TSZ Document 21-2 Filed 04/21/16 Page 1 of 3
APPENDIX 47
A 297

Exhibit -

Case 2:16-cv-00077-TSZ Document 21-2 Filed 04/21/16 Page 2 of 3

Nationstar
moRTGAC:

350 Highland Drive
Lewisville, TX 75067

A 298

RECEIVED
JUN 0 3 '2014

May 21, 2014

4-$92-$3596-0000176-001-01-000-000-000-000
JOSHUA TRUMBULL
STAFNE TRUMBULL, LLC
239 N OLYMPIC AVE
ARLINGTON WA 98223

11

Re:

i 'III I in 11

IIp 1111 il l ils

III

!pi I I Hp lc I ill

Nationstar Reference Number NSM-05-14-57856
17207155TH AVE NE
Property Address:
ARLINGTON WA 98223
Account Name(s): SCOTT' STAFNE

Dear Joshua Trumbull:
Nationstar Mortgage LLC (NationStat) received your correspondence dated May 15, 2014, regarding concerns with the above
referenced account.
Thank you for bringing this matter to our attention. We take all matters seriously and are in the process of reviewing your
concerns.
A response will be provided no later than June 9, 2014. However, responses are generally provided in less than ten days from
receipt of the correspondence.
Our records indicate that JPMorgan Chase Bank as Trustee for SAM-12005-AR2, is the current owner of the loan. As requested,
we have provided the address and phone number below:
WMorgan Chase Bank, N.A
1111 Eannin Street, Fl 06
Houston, TX 77030
(713)427-6400
Please note that Nationstar is the servicer of the loan; and therefore, will be responsible for responding to any concerns regarding
the servicing of the loan. Servicing matters include, but are not limited to the following:
•
•
•
•
•

Payment assistance and modifications
Payment posting
Validation of the debt
Foreclosure proceedings
Payment adjustments

Please direct any communication related to these matters to Nationstar.

This is an attempt to collect a debt and any information obtained will be used for that purpose. However, if this debt is involved in a bankruptcy Or has
been discharged in a bankruptcy proceeding, this conununication is not an attempt to collect a debt against you and any infomiation obtained or given
will be for informational purposes only.
CAC K

www.NationstarMtg.com

Case 2:16-cv-00077-TSZ Document 21-2 Filed 04/21/16 Page 3 of 3
A 299

Nationstar is focused on customer satisfaction and appreciates the opportunity to review and respond to customer concerns.
Should you have any questions or need any further information regarding this issue please contact us.
Sincerely,

k4
11-

Cusha Peterson
Customer Relations Specialist
Nationstar Mortgage LLC
phone: 1(877)783-74W ext: 467-0499
fax: (972)353-6755
email: euslia,peterson@nationstannalcom

This is an attempt to collect a debt and any information obtained will be used for that purpose. However, if this debt is involved in a bankruptcy or has
been discharged in a bankruptcy proceeding, this communication is not an attempt to collect a debt against you and any information obtained or given
will be for informational purposes only.
CACK

wwei.NationstarMtg.com

Case 2:16-cv-00077-TSZ Document 12 Filed 03/21/16 Page 1 of 19
APPENDIX 48
A 300
1

The Honorable Thomas S. Zilly

2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

9
10
11
12
13
14
15
16
17
18

)
)
)
)
)
)
Plaintiff,
)
)
)
v.
)
SCOTT STAFNE, an individual; Todd Stafne, an )
)
individual; and REAL TIME RESOLUTIONS, )
Inc., a Texas corporation,
)
)
)
Defendants.
)
)
BANK OF NEW YORK MELLON, a Delaware
corporation, as trustee for Structured Asset
Mortgage Investments II Trust, Mortgage PassThrough Certificates Series 2005-AR2,

No. 2:16-cv-00077 TSZ
BANK OF NEW YORK
MELLON’S OPPOSITION TO
MOTION TO DISMISS FOR
LACK OF SUBJECT-MATTER
JURISDICTION

19
20
21
22
23
24
25
26
27
BNYM’S OPP. TO STAFNE’S MOT. TO DISMISS
(2:16-cv-00077-TSZ)

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 12 Filed 03/21/16 Page 2 of 19
A 301
TABLE OF CONTENTS

1

Page(s)

2
3
4
5
6
7

I.

INTRODUCTION AND SUMMARY OF ARGUMENT .................................................... 1

II.

BRIEF STATEMENT OF UNDISPUTED FACTS.............................................................. 2

III.
A.

Standard of Review .......................................................................................................... 3

B.

BNYM Properly Plead Diversity Jurisdiction. ................................................................. 4

8
9
10
11
12
13

ARGUMENT ................................................................................................................... 3

1.

BNYM’s Principal Place of Business is New York. ..................................................... 4

2.

BNYM is the Real Party in Interest Entitled to Foreclose. .......................................... 5

C.

Washington State Courts Do Not Have Exclusive Jurisdiction of In Rem Actions. ........ 6

D.

The “Prior Exclusive Jurisdiction” Doctrine is Inapplicable. .......................................... 8

E.

Neither Comity Nor Abstention Are Warranted. ............................................................ 11

IV.

CONCLUSION .............................................................................................................. 13

14
15
16
17
18
19
20
21
22
23
24
25
26
27
BNYM’S OPP. TO STAFNE’S MOT. TO DISMISS
(2:16-cv-00077-TSZ) - i

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 12 Filed 03/21/16 Page 3 of 19
A 302
1
TABLE OF AUTHORITIES

2
3

Page(s)

4

Federal Cases

5

Ankenbrandt v. Richards,
504 U.S. 689 (1992) ......................................................................................................6, 7, 11

6
7

Chapin v. Aguirre,
2006 U.S. Dist. LEXIS 91773 (S.D. Cal. 2006) ....................................................................12

8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

Chapman v. Deutsche Bank Nat’l Trust Co.,
651 F.3d 1039 (9th Cir. 2011) .................................................................................................8
Colorado River Water Conservation Dist. v. United States,
424 U.S. 800 (1976) ..............................................................................................................11
Exxon Mobil Corp. v. Allapattah Servs., Inc.,
545 U.S. 546 (2005) ................................................................................................................6
Exxon Mobil Corp. v. Saudi Basic Indus. Corp.,
544 U.S. 280 (2005) ..............................................................................................................11
Farmers’ Loan & Trust Co. v. Lake St. Elevated R.R. Co.,
177 U.S. 51 (1900) ............................................................................................................8, 11
Hertz Corp. v. Friend,
559 U.S. 77 (2010) ..................................................................................................................4
In re Burrus,
136 U.S. 586 (1890) ................................................................................................................7
Leite v. Crane Co.,
749 F.3d 1117 (9th Cir. 2014) .........................................................................................3, 4, 5
Lynott v. Mortgage Elec. Reg. Sys., Inc.,
2012 WL 5995053 (W.D. Wash. 2012) ..................................................................................5
McLachlan v. Bell,
261 F.3d 908 (9th Cir. 2001) ...................................................................................................3
Montgomery v. Nat’l City Mortgage,
2012 WL 1965601 (N.D. Cal. 2012) .....................................................................................10

26
27
BNYM’S OPP. TO STAFNE’S MOT. TO DISMISS
(2:16-cv-00077-TSZ) - ii

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 12 Filed 03/21/16 Page 4 of 19
A 303
1
2
3
4

Navarro Savings Association v. Lee,
446 U.S. 458 (1980) ............................................................................................................5, 6
Orsay v. United States Dep’t of Justice,
289 F.3d 1125 (9th Cir. 2002) .................................................................................................3
Princess Lida of Thurn & Taxis v. Thompson,
305 U.S. 456 (1939) ................................................................................................................8

5
6
7
8
9

Quackenbush v. Allstate Ins. Co.,
517 U.S. 706 (1996) ........................................................................................................11, 12
Savage v. Glendale Union High Sch., Dist. No. 205, Maricopa Cty.,
343 F.3d 1036 (9th Cir. 2003) .............................................................................................3, 4
Sexton v. NDEX W., LLC,
713 F.3d 533 (9th Cir.2013) ....................................................................................................8

10
11

White v. Lee,
227 F.3d 1214 (9th Cir. 2000) .................................................................................................3

12

State Cases

13

Fluke Capital & Mgmt. Servs. Co. v. Richmond,
106 Wn.2d 614 (1986) ...........................................................................................................13

14
15

Jackson v. Quality Loan Serv. Corp.,
186 Wn. App. 838, review denied, 184 Wn.2d 1011 (2015) ...................................................7

16
17
18

Phillips v. Tompson,
73 Wn.78, 85 (1913) ................................................................................................................7

19

University State Bank v. Steeves,
85 Wash. 55, 147 P. 645 (1915) ............................................................................................13

20

Federal Statutes

21
22

28 U.S.C.
§ 1332 ..............................................................................................................................1, 6, 7
§ 1332(a) ..................................................................................................................................6

23

State Statutes

24

RCW
61.24.005(2) ........................................................................................................................3, 5
65.08.070 ...............................................................................................................................13

25
26
27

BNYM’S OPP. TO STAFNE’S MOT. TO DISMISS
(2:16-cv-00077-TSZ) - iii

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 12 Filed 03/21/16 Page 5 of 19
A 304
1
2

Rules
Wash. Civ. R. 14(a) .................................................................................................................1, 10

3

Fed. R. Civ. P. 12(b)(1) .................................................................................................................3

4

Constitutional Provisions

5

U.S. Const. art. III, § 2 ..............................................................................................................1, 6

6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
BNYM’S OPP. TO STAFNE’S MOT. TO DISMISS
(2:16-cv-00077-TSZ) - iv

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 12 Filed 03/21/16 Page 6 of 19
A 305
1
2

I.

INTRODUCTION AND SUMMARY OF ARGUMENT

Defendant Scott Stafne’s Motion to Dismiss for Lack of Subject Matter Jurisdiction

3

attempts to complicate the simple fact that Bank of New York Mellon seeks to foreclose on a

4

valid deed of trust, encumbering real property. The Court should deny Stafne’s Motion for the

5

following reasons:

6

First, Plaintiff’s argument over diversity jurisdiction centers entirely on a non-party to

7

this case: Bank of New York Mellon Trust Company, N.A. (“BONY Trust”). But the

8

Complaint explains that Bank of New York Mellon Corporation (“BNYM”), a Delaware

9

corporation, is the Plaintiff, not a national association or trust company. Thus, for jurisdiction

10

purposes, it need only disclose its main office and headquarters are located in New York—

11

which it did in the first paragraph of the Complaint. Plaintiff, as a corporation, commenced this

12

action in its capacity as the trustee of a trust, but to avoid potential confusion between

13

Plaintiff’s role and the title of an affiliated entity Mr. Stafne has previously sued, Plaintiff

14

further alleged facts explaining that non-party Bank of New York Mellon Trust Company, N.A.,

15

is merely affiliated with Bank of New York Mellon; it is not a party to this lawsuit.

16

Second, there is no “in rem exception” to diversity jurisdiction. Article III, § 2 of the

17

United States Constitution and 28 U.S.C. § 1332 vest this Court with jurisdiction to decide in

18

issues concerning real property by applying Washington law.

19

Third, the “prior exclusive jurisdiction doctrine” does not bar this action because it was

20

filed first. Abrams v. Twin Falls, Snohomish County Case No. 15-2-04710-6, does not

21

implicate Lot 11 (at issue here), nor any of the property rights BNYM asserts in its Complaint.

22

Instead, after this Complaint was filed and all defendants served, Defendants in this action filed

23

(but have not served) cross-complaints against BNYM attempting to implicate it in the prior

24

action. Plaintiff in that unrelated case, Mr. Abrams, has moved to dismiss the cross-complaints

25

because BNYM cannot be liable for any of his claims. See CR 14(a).

26
27
BNYM’S OPP. TO STAFNE’S MOT. TO DISMISS
(2:16-cv-00077-TSZ) - 1

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 12 Filed 03/21/16 Page 7 of 19
A 306
1

Fourth, no basis exists to dismiss the Complaint based on abstention or comity. No

2

friction with state law exists. BNYM asks the Court to apply Washington law in enforcing its

3

rights under the Promissory Note and Deed of Trust encumbering specific land identified in the

4

Deed of Trust, which is undisputedly the senior lien.

5
6

II.

BRIEF STATEMENT OF UNDISPUTED FACTS

On March 9, 2005, Defendant Scott Stafne executed a promissory note and deed of trust

7

in exchange for $800,000 from Countrywide Home Loans, Inc., a loan he used to purchase

8

residential property in Arlington, Washington. Compl. ¶ 3.1 & Attach. A (“Note”) & B (“Deed

9

of Trust”). After closing, Countrywide transferred the Note to JPMorgan Chase Bank, N.A.

10

(“JPMorgan”), as then-trustee for Structured Asset Mortgage Investments II Trust 2005-AR2

11

(“SAMI Trust”). Id. ¶ 3.4 & Attach. A at 4 (indorsement to JPMorgan, as trustee), Attach. F

12

(Pooling and Servicing Agreement).

13

On September 15, 2006, the Office of the Comptroller of the Currency approved

14

Chase’s sale of its trustee operations for securitized trusts to Bank of New York, a wholly

15

owned subsidiary of Bank of New York Mellon Corporation. After October 1, 2006, Chase was

16

no longer trustee or the holder of Stafne’s Note. Compl. ¶ 3.4. Bank of New York Mellon

17

Corporation—Plaintiff here—then assumed the role of trustee of the SAMI Trust and

18

Nationstar, as its attorney-in-fact, indorsed the Note to Bank of New York Mellon as successor

19

to JPMorgan in its capacity as trustee for the SAMI Trust. See Compl. ¶ 3.4 & Attach. A at 4

20

(indorsement to Bank of New York Mellon, as successor trustee, but not as BONY Trust).

21

BNMY’s main office, headquarters, and principal place of business are in New York. Id. ¶ 1.1.

22

On January 1, 2009, Borrower defaulted on the loan by failing to make timely payments

23

as required by the Note and Deed of Trust. Compl. ¶ 3.6. Since default, Mr. Stafne has made

24

no payments on his debt. Id. BNYM, as trustee of the SAMI Trust, holds and owns

25

Borrower’s Note, which is in possession of Bank of New York Mellon’s agents and attorneys.

26

Compl. ¶ 3.10. Because BNYM holds Borrower’s Note, it is the beneficiary of the Deed of

27
BNYM’S OPP. TO STAFNE’S MOT. TO DISMISS
(2:16-cv-00077-TSZ) - 2

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 12 Filed 03/21/16 Page 8 of 19
A 307
1

Trust and entitled to all rights listed therein. RCW 61.24.005(2). BNYM does not rely on any

2

Deed of Trust assignment from any party as a basis to foreclose.
BNYM sues for money judgment on a promissory note, foreclosure on the deed of trust,

3
4

breach of contract, and receivership. Compl. ¶¶ 4.1-4.4.

5

III.

ARGUMENT

6

A.

7

Under a Rule 12(b)(1) motion to dismiss, the Court assumes the material facts alleged

8

in the complaint are true. Savage v. Glendale Union High Sch., Dist. No. 205, Maricopa Cty.,

9

343 F.3d 1036, 1039 n.1 (9th Cir. 2003); Orsay v. United States Dep’t of Justice, 289 F.3d 1125,

Standard of Review

10

1127 (9th Cir. 2002); Leite v. Crane Co., 749 F.3d 1117, 1121 (9th Cir. 2014) (“the plaintiff’s

11

factual allegations will ordinarily be accepted as true unless challenged by the defendant”

12

(citing 5C Charles Alan Wright & Arthur R. Miller, Federal Prac. & Procedure § 1363, at 107

13

(3d ed. 2004))). The plaintiff bears the burden of proving by a preponderance of the evidence

14

that each of the requirements for subject-matter jurisdiction has been met. Leite, 749 F.3d at

15

1121.

16

Rule 12(b)(1) attacks on jurisdiction can be either facial, confining the inquiry to

17

allegations in the complaint, or factual, permitting the court to look beyond the complaint.

18

White v. Lee, 227 F.3d 1214, 1242 & n.2 (9th Cir. 2000). In the event a plaintiff comes forth

19

with affidavits in support of subject matter jurisdiction and the court does not hold an

20

evidentiary hearing, the factual allegations of the complaint are accepted as true. McLachlan v.

21

Bell, 261 F.3d 908, 909 (9th Cir. 2001) (citing GATX/Airlog Co. v. United States, 234 F.3d

22

1089, 1093 (9th Cir. 2000)).

23

Here, Stafne disputes a limited number of BNYM’s legal (not factual) allegations

24

regarding Bank of New York Mellon Trust Company, N.A.’s citizenship and fails to introduce

25

any evidence regarding his allegations. Thus, he makes a facial challenge. See Leite, 749 F.3d

26

at 1121 (“[a] ‘factual’ attack … contests the truth of the plaintiff’s factual allegations, usually

27
BNYM’S OPP. TO STAFNE’S MOT. TO DISMISS
(2:16-cv-00077-TSZ) - 3

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 12 Filed 03/21/16 Page 9 of 19
A 308
1

by introducing evidence outside the pleadings.”); Savage v. Glendale Union High Sch., 343

2

F.3d 1036, 1039 n. 2 (9th Cir. 2003) (same). Stafne also submits a single declaration attaching

3

a limited number of pleadings from an unrelated state court action. See Dkt. 11-2. None of

4

these allegations serves to divest this Court of jurisdiction.

5

B.

6

BNYM Properly Plead Diversity Jurisdiction.
1.

BNYM’s Principal Place of Business is New York.

The nerve-center test determines the principle place of business for a corporation when

7
8

analyzing a federal court’s diversity jurisdiction. Hertz Corp. v. Friend, 559 U.S. 77, 93-95

9

(2010)). In Hertz, the Supreme Court explained the meaning of “principal place of business”:

10

“principal place of business” is best read as referring to the place
where a corporation’s officers direct, control, and coordinate the
corporation’s activities. It is the place that Courts of Appeals have
called the corporation’s “nerve center.” And in practice it should
normally be the place where the corporation maintains its
headquarters—provided that the headquarters is the actual center
of direction, control, and coordination, i.e., the “nerve center,”
and not simply an office where the corporation holds its board
meetings (for example, attended by directors and officers who
have traveled there for the occasion)).

11
12
13
14
15
16

Id. at 93-95 (emphasis added).

17

Plaintiff BNYM is a Delaware corporation (not national association) with its “main

18

office, headquarters, and principal place of business [] in New York.” Compl. ¶ 1.1.

19

Defendants Scott and Todd Stafne are Washington residents, id. ¶¶ 1.2-1.3, and Defendant Real

20

Time Resolutions is “a Texas corporation, with a principal place of business in Dallas, Texas”

21

id. ¶ 1.4. Stafne fails to contest that BNYM’s main office, headquarters, and principal place of

22

business are in New York. Thus, these allegations are uncontroverted and must be taken as

23

true. See Leite, 749 F.3d at 1121. Complete diversity exists.

24

Stafne’s argument that BNYM has not adequately pleaded diversity jurisdiction is based

25

on his misreading of the Complaint.1 Despite the fact that the caption and first paragraph of the

26
27

11

Stafne misquotes paragraph 1.1. of the Complaint in support of his argument. See Mot. at 7.
He omits BNYM’s statement that “Bank of New York Mellon’s main office, headquarters, and

BNYM’S OPP. TO STAFNE’S MOT. TO DISMISS
(2:16-cv-00077-TSZ) - 4

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 12 Filed 03/21/16 Page 10 of 19
A 309
1

complaint identify BNYM as the Plaintiff and Bank of New York Melon Trust Company, N.A.

2

(“BONY Trust”) as merely an affiliated entity of BNYM—designed to avoid precisely this

3

confusion—Stafne purports to require non-party BNYM Trust Co. to plead its citizenship.

4

BONY Trust was noted as an affiliated entity, but is not party, is not involved in this action, and

5

does not affect citizenship.

6

2.

BNYM is the Real Party in Interest Entitled to Foreclose.

BNYM “serves as trustee for Structured Asset Mortgage Investments II Trust, Mortgage

7
8

Pass-Through Certificates Series 2005-AR2, and in that capacity owns and holds Defendant

9

Scott Stafne’s Note.”2 Compl. ¶¶ 1.1, 3.10. Thus, BNYM is the beneficiary of the deed

10

because it holds Stafne’s note. Under Washington law, a beneficiary is by definition the party

11

holding the note: “‘Beneficiary’ means the holder of the instrument or document evidencing

12

obligations secured by the deed of trust.’ RCW 61.24.005(2).” Lynott v. Mortgage Elec. Reg.

13

Sys., Inc., 2012 WL 5995053, at *2 (W.D. Wash. 2012) (emphasis in original). Thus, because

14

BNYM “is the proper beneficiary, it is empowered to initiate foreclosure following Plaintiff’s

15

default.” Id. Stafne does not contest that he is in default and has been for years. Compl. ¶ 3.6.
Instead, Stafne argues that BONY Trust (again, not a party to this litigation) is not the

16
17

real party-in-interest. BNYM agrees. Instead, BNYM is the “real party in interest.” The real-

18

party-in-interest test set forth in Navarro Savings Association v. Lee, 446 U.S. 458, 464-66

19

(1980), is not to the contrary. In Navarro, the Supreme Court confirmed longstanding

20

jurisprudence that a trustee of an express trust is entitled to bring diversity actions in its own

21

name and upon the basis of its own citizenship without regard to the citizenship of the trust’s

22

beneficiaries. Id. at 462-63, 66 (citing Chappedelaine v. Dechenaux, 4 Cranch 306, 8 U.S. 306,

23

308 (1808)).

24
25

principal place of business are in New York.” Compare Mot. at 7 with Compl. ¶ 1.1.

26

2

27

Stafne does not contest that BYNM holds the note, nor that it does so as trustee for Structured
Asset Mortgage Investments II Trust, Mortgage Pass-Through Certificates Series 2005-AR2.
Thus, these facts are uncontroverted. Leite, 749 F.3d at 1121.
BNYM’S OPP. TO STAFNE’S MOT. TO DISMISS
(2:16-cv-00077-TSZ) - 5

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 12 Filed 03/21/16 Page 11 of 19
A 310
1

Again, Plaintiff BNYM “serves as trustee for Structured Asset Mortgage Investments II

2

Trust, Mortgage Pass-Through Certificates Series 2005-AR2, and in that capacity owns and

3

holds Defendant Scott Stafne’s Note.” Compl. ¶¶ 1.1, 3.10. At all relevant times, BNYM

4

operated as trustee of an express trust pursuant to a Pooling and Servicing Agreement that

5

authorized it to take legal title to trust assets, to invest those assets for the benefit of the

6

certificate-holders, and to sue and be sued in its capacity as trustee. See Compl., Attach. F §§

7

2.01, 3.01, 3.03, 3.05, 4.01, and 5.01. Navarro, 446 U.S. at 464 (“a trustee is a real party to the

8

controversy for purposes of diversity jurisdiction when he possesses certain customary powers

9

to hold, manage, and dispose of assets for the benefit of others”) (citing Bullard v. Cisco, 290

10

U.S. 179, 189 (1933)); id. at 466 (“They have legal title; they manage the assets; they control

11

the litigation. In short, they are real parties to the controversy.”). Thus, BNYM is properly

12

suing in its own right, based on its own diversity.

13

C.

14

Washington State Courts Do Not Have Exclusive Jurisdiction of In Rem
Actions.

Article III, § 2 of the United States Constitution and 28 U.S.C. § 1332 vest this Court
15
with jurisdiction to decide in issues of real property in accordance with Washington law.
16
Navarro, 446 U.S. at 460. “In order to provide a neutral forum for what have come to be
17
known as diversity cases, Congress also has granted district courts original jurisdiction in civil
18
actions between citizens of different States, between U.S. citizens and foreign citizens, or by
19
foreign states against U.S. citizens. [28 U.S.C.] § 1332. To ensure that diversity jurisdiction
20
does not flood the federal courts with minor disputes, § 1332(a) requires that the matter in
21
controversy in a diversity case exceed a specified amount, currently $75,000.” Exxon Mobil
22
Corp. v. Allapattah Servs., Inc., 545 U.S. 546, 552 (2005). Article III, § 2 “delineates the
23
absolute limits on the federal courts’ jurisdiction” as requiring “Cases, in Law and Equity,”
24
“Cases,” and “Controversies.” Ankenbrandt v. Richards, 504 U.S. 689, 695 (1992). The
25
Constitution does not provide any subject-matter limitations to diversity jurisdiction. Id. at
26
695-696
27
BNYM’S OPP. TO STAFNE’S MOT. TO DISMISS
(2:16-cv-00077-TSZ) - 6

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 12 Filed 03/21/16 Page 12 of 19
A 311
1

Congress may impose limitations on jurisdiction by statute. Id. at 698. Limited

2

exceptions to diversity jurisdiction exist, none of which is pertinent here. See In re Burrus, 136

3

U.S. 586, 593-594 (1890) (excluding domestic relations from diversity jurisdiction and

4

invoking abstention principles) (citing Younger v. Harris, 401 U.S. 37 (1971)); Ankenbrandt,

5

504 U.S. at 700 (noting the domestic-relations exception arose from “Congress’ apparent

6

acceptance of this construction of the diversity jurisdiction provisions in the years prior to

7

1948, when the statute limited jurisdiction to “suits of a civil nature at common law or in

8

equity.”). Abstention, addressed below, is another ground for declining jurisdiction.

9

Otherwise, federal courts have jurisdiction of “all civil actions” with complete diversity and

10
11

where the matter in controversy exceeds the sum or value of $75,000. 28 U.S.C. § 1332.
Stafne argues “the federal nature of our government” and the “tenth amendment” to the

12

United States Constitution divest this Court of jurisdiction over this action. Mot. at 10-12. In

13

support, he cites Phillips v. Tompson, 73 Wn.78, 85 (1913). But Philips does not vest

14

Washington state courts with exclusive jurisdiction over in rem actions. Id. at 85. Instead, the

15

Philips court held that quiet-title actions were in rem, and thus notice by publication was

16

allowable. Id. at 83, 88. As to federal-court adjudication, the court merely quoted the Supreme

17

Court in stating that federal courts must follow substantive state law with respect to state-law

18

issues. Id. at 84-85 (quoting Arndt v. Griggs, 134 U.S. 316 (1890)). This is not a novel

19

concept.

20

In arguing for exclusive state jurisdiction, Stafne also invokes his “rights as a citizen to

21

the protections afforded by the federal nature of our government and the Tenth Amendment to

22

the United States Constitution.” Mot. at 12 (citing Bond v. United States, 564 U.S. 211, 131 S.

23

Ct. 2355, 2363-4 (2011) (discussing federalism). In doing so (without further explanation or

24

authority), Stafne attempts to recast his previous argument for one of his clients, which was

25

expressly rejected in Jackson v. Quality Loan Serv. Corp., 186 Wn. App. 838, 846, review

26

denied, 184 Wn.2d 1011 (2015). In Jackson, the Washington Court of Appeals rejected

27
BNYM’S OPP. TO STAFNE’S MOT. TO DISMISS
(2:16-cv-00077-TSZ) - 7

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 12 Filed 03/21/16 Page 13 of 19
A 312
1

Stafne’s argument (made in his capacity as counsel for Jackson) that the Washington legislature

2

does not have the power to legislate regarding title and possession of real property and that the

3

Washington constitution granted exclusive jurisdiction to the Washington state courts for all

4

property concerns. Id. at 492-493. The Court should do the same with Stafne’s constitutional

5

arguments here.

6

D.

7

Under the prior-exclusive-jurisdiction doctrine, “when one court is exercising in rem

8

jurisdiction over a res, a second court will not assume in rem jurisdiction over the same res.”

9

Chapman v. Deutsche Bank Nat’l Trust Co., 651 F.3d 1039, 1043 (9th Cir. 2011) (quoting

The “Prior Exclusive Jurisdiction” Doctrine is Inapplicable.

10

Marshall v. Marshall, 547 U.S. 293, 311 (2006)). The rule provides “that the court first

11

assuming jurisdiction over property may maintain and exercise that jurisdiction to the exclusion

12

of the other.” Princess Lida of Thurn & Taxis v. Thompson, 305 U.S. 456, 466 (1939). In rem

13

jurisdiction attaches when a complaint is filed, process issued, and process duly served.

14

Farmers’ Loan & Trust Co. v. Lake St. Elevated R.R. Co., 177 U.S. 51, 61 (1900). A defendant

15

cannot “defeat jurisdiction thus acquired.” Id.; see also Sexton v. NDEX W., LLC, 713 F.3d 533,

16

537 (9th Cir.2013) (“The doctrine of prior exclusive jurisdiction applies to a federal court’s

17

jurisdiction over property only if a state court has previously exercised jurisdiction over that

18

same property and retains that jurisdiction in a separate, concurrent proceeding.”).

19

The Property encumbered by the Deed of Trust—the only property at issue here—is not

20

at issue in a previous state law action, captioned Abrams v. Twin Falls, Inc., Snohomish County

21

Case No. 15-2-04710-6. In this action, BNYM seeks a judgment on the Note and a decree of

22

foreclosure under the Deed of Trust. Compl. ¶ 4.2. The Deed of Trust encumbers the Property,

23

described in the Deed of Trust as Lot 11, and providing the precise metes-and-bounds

24

description of the land securing the loan. See Compl. ¶ 3.3 & Attach B (Deed of Trust) at 2-3;

25

Bugaighis Decl., Ex. A (supporting 2001 Twin Falls survey). Stafne appears to allege that due

26

to a subsequent 2009 Twin Falls Survey and a 2010 Boundary Agreement (neither of which

27
BNYM’S OPP. TO STAFNE’S MOT. TO DISMISS
(2:16-cv-00077-TSZ) - 8

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 12 Filed 03/21/16 Page 14 of 19
A 313
1

BNYM approved or was a party to), the Property BNYM seeks to foreclose on now also

2

encompasses a portion of Lot 12. See Mot. at 4 (“Both Abrams and BNYM claim real property

3

rights in Twin Falls Lot 12.”); id. at 5 (“BNYM has alleged that under the legal description set forth

4

in the deed of trust it has a lien on property which is within the boundaries of Lot 12, apparently

5

notwithstanding that it encumbered Stafne’s property pursuant based on an invalid and outdated

6

survey done in 2001.”). Thus, at most, this action concerns Lots 11 and 12.3

On June 29, 2015, Jeffery Abrams filed a lawsuit against Twin Falls, Inc., to obtain

7
8

rights to timber as described in a Timber Deed issued to him on November 19, 1998, recorded

9

in Snohomish County under auditor’s number 201210080482. See Dkt. # 11-5 ¶ 2.18 & Ex. B

10

(Abrams Complaint); Bugaighis Decl., Ex. B (Abrams Timber Deed). The Timber Deed

11

identifies the property-tax parcels affected by the Timber Deed, which correspond with Lots 5,

12

13 and 14. Compare Bugaighis Decl., Ex. B (Abrams Timber Deed) with id., Ex. C (2009 Twin

13

Falls Survey noting tax parcel numbers) and with id., Ex. A (2001 Twin Falls Survey). Lot 5

14

belongs to Mr. Abrams. See Dkt. 11-5 at ¶ 1.2 & Ex. A (describing Mr. Abrams property as

15

Snohomish County Tax Parcel No. 31062700100200). However, Mr. Abrams complaint only

16

claims timber rights on Twin Falls’ property, Lot 14—which is why he sued only that entity.

17

See Dkt. 11-5 at ¶ 2.18; id. at ¶ 1.3 & Ex. B (describing the “Twin Falls Parcel” as Snohomish

18

County Tax Parcel No- 31062700100800); see also id. ¶ 4.2 (“As a result of [Todd] Stafne’s

19

claims that he has the right to cut and remove timber in and upon Twin Falls Parcel, and based

20

upon earlier claims made by [Todd] Stafne, as the agent for Twin Falls, as to Abrams lack of

21

view rights, the Court should declare and decree that the right, title, and ownership of the Twin

22

Falls Parcel is subject to the view rights, herein-above alleged, for the benefit of the Abrams

23

Parcel.”) (emphasis added); id. at § VI (1) (“To quiet title in Abrams as against Twin Falls to all

24

of the timber situated in and upon the Twin Falls Parcel which Abrams purchased from

25
26
27

3

BNYM disputes the 2009 Twin Falls Survey and/or the 2010 Boundary Agreement affect its
foreclosure on the Property as described in the Deed of Trust.

BNYM’S OPP. TO STAFNE’S MOT. TO DISMISS
(2:16-cv-00077-TSZ) - 9

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 12 Filed 03/21/16 Page 15 of 19
A 314
1

A.L.R.T.) (emphasis added). Defendant Stafne’s representations to the contrary are apparently

2

incorrect. See Mot. at 4 (claiming Mr. Abrams lawsuit claims rights on Lot 12).

3

Defendant Stafne alleges Mr. Abrams’ other claims relate to “the 2010 Boundary Line

4

Agreement executed by all the owners of parcels in the rural settlement at that time […] so as

5

to readjust the boundary lines between his property, Lot 5, and Lots 4 and 14.” Mot. at 4;

6

Bugaighis Decl., Ex. C (2010 Boundary Line Agreement and 2009 Twin Falls Survey). Thus,

7

neither Lots 11 or 12 (the only lots potentially affected by BNYM’s lawsuit) are involved in

8

Mr. Abrams original suit. The Complaint here was filed January 19, 2016. See Dkt. #1. All

9

summons were served and filed by January 26, 2016. See Dkt. ## 4-6.

10

On February 10, 2016, Twin Falls, Inc. (as represented by Defendant Todd Stafne), filed

11

its Answer, Counterclaim, and Third Party Complaint in the Abrams case naming BNYM and

12

claiming property rights to Lot 12. See Bugaighis Decl., Ex. D (Twin Falls, Inc. Answer,

13

Counterclaim, and Third Party Complaint). On February 25, 2016, Defendant Scott Stafne

14

filed his Answer, Counterclaim, and Third Party Complaint in the Abrams case, also naming

15

BNYM and seeking to quiet title to Lot 11. See Dkt. 11-7 (Scott Stafne Answer, Counterclaim,

16

and Third Party Complaint). BNYM has yet to be served and no summons has been filed. In

17

response, Mr. Abrams filed a Motion to Dismiss Twin Falls’ Third Party Complaint (and third-

18

parties BNYM and Scott Stafne), arguing the Third Party Complaint fails to comply with the

19

requirements of CR 14 (a) (requiring third party defendants to be “liable to the defending party

20

for all or part of the plaintiff's claim against the defending party.”). Bugaighis Decl., Ex. E

21

(Abrams Motion to Dismiss).

22

Thus, the prior exclusive doctrine does not apply to divest the Court of subject-matter

23

jurisdiction to adjudicate BNYM’s foreclosure action because, at the time BNYM filed the

24

federal complaint, the property was not in the custody of a state court. See Montgomery v.

25

Nat’l City Mortgage, 2012 WL 1965601, at *3 (N.D. Cal. 2012). The federal complaint was

26
27
BNYM’S OPP. TO STAFNE’S MOT. TO DISMISS
(2:16-cv-00077-TSZ) - 10

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 12 Filed 03/21/16 Page 16 of 19
A 315
1

filed, and all process served, first. See Farmers’ Loan & Trust Co., 177 U.S. at 61. Thus, as the

2

Court first assuming jurisdiction, the action is proper in this forum.

3

E.

4

“Abstention from the exercise of federal jurisdiction is the exception, not the rule.”

Neither Comity Nor Abstention Are Warranted.

5

Colorado River Water Conservation Dist. v. United States, 424 U.S. 800, 813 (1976).

6

Abstention rarely should be invoked, because the federal courts have a “virtually unflagging

7

obligation ... to exercise the jurisdiction given them.” Ankenbrandt, 504 U.S. at 705 (citing

8

Colorado River, 424 U.S. at 817); Quackenbush v. Allstate Ins. Co., 517 U.S. 706, 716 (1996)

9

(“[F]ederal courts have a strict duty to exercise the jurisdiction that is conferred upon them by

10
11

Congress.”).
Ordinarily, “‘the pendency of an action in the state court is no bar to proceedings

12

concerning the same matter in the Federal court having jurisdiction.’” Exxon Mobil Corp. v.

13

Saudi Basic Indus. Corp., 544 U.S. 280, 292 (2005) (quoting McClellan v. Carland, 217 U.S.

14

268, 282 (1910)). However, “[c]omity or abstention doctrines may, in various circumstances,

15

permit or require the federal court to stay or dismiss the federal action in favor of the state-

16

court litigation.” Id. These circumstances include considerations of “proper constitutional

17

adjudication,” “regard for federal-state relations,” or “wise judicial administration.” Colorado

18

River, 424 U.S. at 817. None of these circumstances exists here.

19

Stafne (incorrectly) asserts this Court may decline jurisdiction pursuant to

20

Quackenbush. Mot. at 13. The Supreme Court in Quackenbush held that, “in cases where the

21

relief being sought is equitable in nature or otherwise discretionary, federal courts not only have

22

the power to stay the action based on abstention principles, but can also, in otherwise

23

appropriate circumstances, decline to exercise jurisdiction altogether by either dismissing the

24

suit or remanding it to state court.” Quackenbush, 517 U.S. at 721. The principle underlying

25

abstention doctrines exercised by federal courts “sitting in equity” is based on avoiding

26

“needless friction with state policies, whether the policy relates to the enforcement of the

27
BNYM’S OPP. TO STAFNE’S MOT. TO DISMISS
(2:16-cv-00077-TSZ) - 11

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 12 Filed 03/21/16 Page 17 of 19
A 316
1

criminal law, or the administration of a specialized scheme for liquidating embarrassed business

2

enterprises, or the final authority of a state court to interpret doubtful regulatory laws of the

3

state.” Quackenbush, 517 U.S. at 718 (citing Railroad Comm’n of Tex. v. Pullman Co., 312

4

U.S. 496, 500-01 (1941)).
No friction with state law exists. BNYM asks the Court to apply Washington law in

5
6

enforcing its rights under the Note and Deed of Trust encumbering specific land identified in

7

the Deed of Trust, which is undisputedly the senior lien. Thus, nothing in the state-court action

8

can affect the rights of BNYM, because regardless the outcome, the lien remains on the

9

property. Additionally, even assuming that Quackenbush is applicable where the relief sought

10

is only primarily equitable in nature, BNYM’s requested relief cannot be characterized

11

primarily equitable. See Chapin v. Aguirre, 2006 U.S. Dist. LEXIS 91773, at *8–10 (S.D. Cal.

12

2006) (plaintiffs’ equitable claims “merely incidental” to their damages claims). BNYM

13

primarily requests monetary damages, and requests in the event that defendant fails to pay the

14

judgment, that the property be sold in accordance with Washington law. Compl. ¶ 5.2-5.3.

15

Stafne also attempts to unnecessarily complicate the issues in this lawsuit, asking for

16

“discovery and an evidentiary hearing with regard to weighing the local interests involved in

17

having a Washington Court resolving the land disputes involved herein.”4 Mot. at 12. BNYM

18

seeks a judgment and a decree of foreclosure under the Deed of Trust where the borrower has

19

been in default for years. The Deed of Trust describes the land encumbered by BNYM’s

20

security interest. It is irrelevant that Stafne entered into an agreement whereby he unilaterally

21

(and in contravention of the Deed of Trust) chose to quit-claim part of the property to others.

22

See Bugaighis Decl., Ex. C (2010 Boundary Line Agreement and 2009 Twin Falls Survey);

23

Compl., Attach. B (Deed of Trust) at 3 (“Borrower warrants and will defend generally the title

24

to the Property against all claims and demands”); id. ¶ 4 (“Borrower shall promptly discharge

25
26
27

4

Stafne cites a number of cases which he lost. See Mot. at 11-12. The Court is not assuming
“jurisdiction over these disputes.” They are not ongoing matters and have already been decided
against Stafne.
BNYM’S OPP. TO STAFNE’S MOT. TO DISMISS
(2:16-cv-00077-TSZ) - 12

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 12 Filed 03/21/16 Page 18 of 19
A 317
1

any lien which has priority over this Security Instrument”); id. ¶ 18. This is because an existing

2

senior lien attaches to the property, regardless of who owns it. RCW 65.08.070; see Fluke

3

Capital & Mgmt. Servs. Co. v. Richmond, 106 Wn.2d 614, 621 (1986); University State Bank v.

4

Steeves, 85 Wash. 55, 147 P. 645, 648 (1915). Any transfer of property was subject to the Deed

5

of Trust. Id.
IV.

6
7
8

CONCLUSION

For the foregoing reasons, the Court should deny Stafne’s Motion to Dismiss for Lack
of Subject Matter Jurisdiction.

9
10

DATED this 21st day of March, 2016.

11

Davis Wright Tremaine LLP
Attorneys for Bank of New York Mellon
Corporation

12
13

By s/ Zana Z. Bugaighis
Fred B. Burnside, WSBA #32491
Zana Z. Bugaighis, WSBA #43614
1201 Third Avenue, Suite 2200
Seattle, WA 98101-3045
Telephone: 206.622.3150
E-mail: fredburnside@dwt.com
E-mail: zanabugaighis@dwt.com

14
15
16
17
18
19
20
21
22
23
24
25
26
27
BNYM’S OPP. TO STAFNE’S MOT. TO DISMISS
(2:16-cv-00077-TSZ) - 13

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 11 Filed 02/29/16 Page 1 of 15
APPENDIX 49
A 318
1

THE HONORABLE THOMAS S. ZILLY

2
3
4
5

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

6
7
8
9
10
11

BANK OF NEW YORK MELLON, a Delaware
corporation, as trustee for STRUCTURED
ASSET MORTGAGE INVESTMENTS II
TRUST, MORTGGE PASS-THROUGH
CERTIFICATES SERIES 2005-AR2,

12

v.

13
14
15

PLAINTIFF,

CASE NO. 2:16-cv-00077
MOTION TO DISMISS FOR LACK OF
SUBJECT MATTER JURISDICTION

SCOTT STAFNE, an individual; TODD
STAFNE, an individual; and REAL TIME
RESOLUTIONS, Inc., a Texas corporation,

16

DEFENDANTS.

17
18
19
20
21

Relief Requested:
Defendant Scott E. Stafne requests this Court dismiss this action by Bank of New

22

York Mellon (BNYM) because 1.) BNYM has not adequately plead the existence of diversity

23

jurisdiction because it does not allege the name of the State in which its main office, as set

24
25
26

forth in its articles of association, is located ; 2.) BNYM, as trustee , has not adequately pled
its citizenship for purposes of diversity jurisdiction because it has not pleaded facts to

MOTION TO DISMISS FOR LACK OF SUBJECT
MATTER JURISDICTION

-1

Stafne Law Firm
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223
T EL . 360.403.8700

Case 2:16-cv-00077-TSZ Document 11 Filed 02/29/16 Page 2 of 15

1

A 319
establish that it is an express trust within the meaning of Navarro Sav. Ass'n v. Lee, 446 U.S.

2

458, 464-66, 100 S. Ct. 1779, 1783-84, 64 L. Ed. 2d 425 (1980) and to the extent it is an

3

artificial entity has not alleged the citizenship of its beneficiaries; 3.) Washington courts have

4

primary sovereignty to resolve the in rem and quasi in rem land title, possession, and use

5

issues related to the Twin Falls’ rural settlement1; and 4.) this Court is barred from asserting

6

jurisdiction of this in rem foreclosure action pursuant to the Exclusive Jurisdiction Doctrine.

7
8

Issues:
1. Has BNYM adequately alleged its own citizenship where it has not alleged the

9
10

location of its main office, as set forth in articles of association? (Short Answer: NO)

11

2. Has BNYM, as trustee, adequately alleged its citizenship as a trustee where it has not

12

alleged facts indicating that the trust complies with the Navarro factors and/or

13

identified the citizenship of all of its affiliated entities and/or identified the citizenship

14

of the trust’s beneficiaries and investors? (Short Answer: NO)

15

3. Does the ongoing in rem action, Abrams v Twin Falls, Snohomish County Cause No.

16

15-2-04710-6, relating to the location of boundaries, easements, and timber rights on

17
18

specific parcels in Twin Falls rural settlement, including land which BNYM, as

19

trustee, seeks to judicially foreclose upon, involve local issues which are within that

20

core state sovereignty to which this Court is required to constitutionally defer? (Short

21

Answer: YES)

22

4. Alternatively, should this Court abstain from deciding this case as a matter of comity?

23

(Short Answer: Yes)

24
25
26

1

See RCW 36.70A.030(8) referencing “rural settlements.”

MOTION TO DISMISS FOR LACK OF SUBJECT
MATTER JURISDICTION

-2

Stafne Law Firm
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223
T EL . 360.403.8700

Case 2:16-cv-00077-TSZ Document 11 Filed 02/29/16 Page 3 of 15

1
2
3
4
5
6
7
8
9

A 320
5. Is this Court barred from asserting jurisdiction over this in rem foreclosure action
pursuant to the Exclusive Jurisdiction Doctrine? (Short answer: YES)
FACTS:
Scott Stafne, who is the current owner of the res involved in this federal judicial
foreclosure lawsuit, has sued BNYM in a previously filed Washington State court action
seeking to quiet title to the same lien which BNYM seeks to enforce in this Court. Stafne
alleges the lien now purportedly owned by BNYM should be quieted because 1.) the lien does
not contain a correct legal description of Stafne’s property and therefore does not describe the

10

property purportedly encumbered; and 2.) pursuant to RCW 7.28.300 the lien is an outlawed

11

and unenforceable. In this regard, Stafne’s third party action against BYNT alleges the deed

12

has become unenforceable because of the expiration of several applicable Washington state

13

law limitations periods and/or application of the doctrine of laches. Copies of the pertinent

14
15
16
17

pleadings in the State Court action, Abrams v Twin Falls, Snohomish County Superior Court
No.15-2-04710-6 are attached to Stafne’s declaration in support of this motion. These
pleadings establish the nature of the various title, possession, and land use issues which are

18

currently being litigated within the jurisdiction of the Washington court. Among all these in

19

rem disputes relating to Twin Falls rural settlement, is the one BNYM has asked this Court to

20

resolve.

21
22
23
24

Stafne’s parcel is one of 14 which presently make up the rural settlement known as
Twin Falls. Twin Falls and the property owners of its various parcels have seen their fair
share of litigation regarding this land. As a result many of the salient facts regarding the

25

properties at various times since 1991 are described in reported decisions. These cases

26

document to some extent the claims in Scott Stafne’s third party claims against Abrams and

MOTION TO DISMISS FOR LACK OF SUBJECT
MATTER JURISDICTION

-3

Stafne Law Firm
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223
T EL . 360.403.8700

Case 2:16-cv-00077-TSZ Document 11 Filed 02/29/16 Page 4 of 15

1

A 321
BNYM regarding the nature of Twin Falls evolution in a mountainous, difficult to survey,

2

terrain. These decisions give context to the ongoing in rem litigation both with regard to Twin

3

Falls rural settlement generally and Stafne’s lot specifically within that settlement. See e.g.

4

Stafne v. Snohomish Cty., 156 Wash. App. 667, 671-81, 234 P.3d 225, 226-32 (2010) aff'd,

5

174 Wash. 2d 24, 271 P.3d 868 (2012). Cf. Twin Falls, Inc. v. Snohomish County, CPSGMHB

6

Case No. 93-3-0003, See also decision at 1993 WL 839715 (1993)

7

On June 29, 2015, Jeffrey Abrams, a single man, filed suit against Twin Falls, Inc. to,

8
9

among other things quiet title 1.) with regard to timber rights he claimed he had acquired from

10

Twin Falls, Inc., specifically those parcels described as Lots 12, 13, and 14 in the 2010

11

Boundary Line Agreement executed by all the owners of parcels in the rural settlement at that

12

time; and 2.) so as to readjust the boundary lines between his property, Lot 5, and Lots 4 and

13

14.

14
15
16
17

Twin Falls unsuccessfully moved to dismiss Abram’s action. Thereafter, Twin Falls
countersued Abrams and brought third party quiet title and other claims against Scott Stafne
and BNYM, claiming neither had any interest in Lot 12. Both Abrams and BNYM claim real

18

property rights in Twin Falls Lot 12. Abrams claims timber rights in all of Twin Falls parcels,

19

i.e. Lots 12, 13, and 14. If BNYM is correct that part of parcel 12 really belongs to Lot 11,

20

then Abram’s claims to timber rights on Lot 12 will also affect title, possession, and use of

21
22
23
24

Lot 11, which is owned by Stafne.
At the heart of most of the claims by all the parties relating to Lot 11 is the validity of
a 2010 boundary line agreement, which was signed by Stafne, Twin Falls, Abrams, and all the

25

other property owners at that time. Judicial resolution of these boundary line issues, which

26

have been a source of controversy since the late 1800s, will also be essential with regard to

MOTION TO DISMISS FOR LACK OF SUBJECT
MATTER JURISDICTION

-4

Stafne Law Firm
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223
T EL . 360.403.8700

Case 2:16-cv-00077-TSZ Document 11 Filed 02/29/16 Page 5 of 15

1

A 322
determining what property must be quieted in Twin Falls rural settlement in favor of which lot

2

and this determination will impact the resolution of all the parties interests in the total rural

3

settlement land res as well as the boundaries of their own properties.

4
5
6
7
8
9
10
11

Because Abrams alleges he was misled about the boundaries agreed to by way of the
2010 boundary line agreement, his claims will require the Court handling this matter to
consider the boundary lines established pursuant to that agreement. Further, BNYM has
alleged that under the legal description set forth in the deed of trust it has a lien on property
which is within the boundaries of Lot 12, apparently notwithstanding that it encumbered
Stafne’s property pursuant based on an invalid and outdated survey done in 2001.
The ongoing litigation in State Court also involves quiet title and specific

12

performance issues regarding easement access to Twin Fall’s amenities. Twin Falls and Scott

13

Stafne allege that Abrams has violated access easements to and surrounding King Lake. Scott

14
15
16
17

Stafne prays those access easement be specifically enforced or the easements be rescinded,
including that easement which allows Abrams to access and use King Lake. Further Scott
Stafne seeks to quiet title to a pedestrian easement on his property which was supposed to

18

have been memorialized by way of a legal description prepared in the late nineties

19

establishing this easement. Stafne claims the rural settlement’s failure to timely prepare a

20

legal description for this easement for over 20 years or more makes it unenforceable now.

21
22
23
24
25

Because most of the claims made in this litigation may be subject to limitations and
laches issues under Washington law, some of which have not been yet been authoritatively
construed by the Washington Supreme Court in the context of RCW 7.28.300, it is
respectfully submitted that the State Court, which first obtained in rem jurisdiction over the

26

MOTION TO DISMISS FOR LACK OF SUBJECT
MATTER JURISDICTION

-5

Stafne Law Firm
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223
T EL . 360.403.8700

Case 2:16-cv-00077-TSZ Document 11 Filed 02/29/16 Page 6 of 15

1
2
3
4
5
6
7
8
9

A 323
Twin Falls res, is the most appropriate forum to resolve all the varied and complex title and
possession related to the property within the Twin Falls rural settlement.
1. Legal Standards Applicable to motions premised on Fed. R. Civ. Pro. 12(b)(1)
To invoke a federal court's subject-matter jurisdiction, a plaintiff needs to provide only
“a short and plain statement of the grounds for the court's jurisdiction.” Fed.R.Civ.P. 8(a)(1).
The plaintiff must allege facts, not mere legal conclusions, in compliance with the pleading
standards established by Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 127 S.Ct. 1955, 167
L.Ed.2d 929 (2007), and Ashcroft v. Iqbal, 556 U.S. 662, 129 S.Ct. 1937, 173 L.Ed.2d 868

10

(2009). See Harris v. Rand, 682 F.3d 846, 850–51 (9th Cir.2012). Assuming compliance with

11

those standards, the plaintiff's factual allegations will ordinarily be accepted as true unless

12

challenged by the defendant. See 5C Charles Alan Wright & Arthur R. Miller, Federal

13

Practice and Procedure § 1363, at 107 (3d ed.2004).

14
15
16
17

Under Rule 12(b)(1), a defendant may challenge the plaintiff's jurisdictional
allegations in one of two ways. A “facial” attack accepts the truth of the plaintiff's allegations
but asserts that they “are insufficient on their face to invoke federal jurisdiction.” Safe Air for

18

Everyone v. Meyer, 373 F.3d 1035, 1039 (9th Cir.2004). The district court resolves a facial

19

attack as it would a motion to dismiss under Rule 12(b)(6): Accepting the plaintiff's

20

allegations as true and drawing all reasonable inferences in the plaintiff's favor, the court

21
22
23
24

determines whether the allegations are sufficient as a legal matter to invoke the court's
jurisdiction. Harris v. Rand, 682 F.3d at 850–51.
A “factual” attack, by contrast, contests the truth of the plaintiff's factual allegations,

25

usually by introducing evidence outside the pleadings. Safe Air for Everyone, 373 F.3d at

26

1039; Thornhill Publ'g Co. v. Gen. Tel. & Elec. Corp., 594 F.2d 730, 733 (9th Cir.1979).

MOTION TO DISMISS FOR LACK OF SUBJECT
MATTER JURISDICTION

-6

Stafne Law Firm
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223
T EL . 360.403.8700

Case 2:16-cv-00077-TSZ Document 11 Filed 02/29/16 Page 7 of 15

1

A 324
When the defendant raises a factual attack, the plaintiff must support her jurisdictional

2

allegations with “competent proof,” Hertz Corp. v. Friend, 559 U.S. 77, 96–97, 130 S.Ct.

3

1181, 175 L.Ed.2d 1029 (2010), under the same evidentiary standard that governs in the

4

summary judgment context. See Norse v. City of Santa Cruz, 629 F.3d 966, 973 (9th

5

Cir.2010) (en banc); Trentacosta v. Frontier Pac. Aircraft Indus., Inc., 813 F.2d 1553, 1559

6
7
8
9

(9th Cir.1987); Fed.R.Civ.P. 56(c). The plaintiff bears the burden of proving by a
preponderance of the evidence that each of the requirements for subject-matter jurisdiction
has been met. Harris, 682 F.3d at 851. With one caveat, if the existence of jurisdiction turns

10

on disputed factual issues, the district court may resolve those factual disputes itself. Safe Air

11

for Everyone, 373 F.3d at 1039–40; Augustine v. United States, 704 F.2d 1074, 1077 (9th

12

Cir.1983); Thornhill, 594 F.2d at 7332.

13

2. BNYM Has Not Adequately alleged its own Citizenship so as to Establish the

14

Existence of Diversity Jurisdiction

15

Although BNYT alleges at ¶ 2.2 that: “ [a]s stated in paragraphs 1.2 - 1.5 complete

16
17
18

diversity exists between the Parties” it never adequately alleges facts establishing its own
citizenship. ¶ 1.1 states only:
Bank of New York Mellon, a Delaware corporation, serves as trustee for
Structured Asset Mortgage Trust Investments II Trust, Mortgage PassThrough Certificates Series 2005-AR2, and in that capacity owns and holds
Defendant Scott Stafne’s note. Bank of New York Mellon’s affiliate entities
include Bank of New York Mellon Trust company, N.A., which has its main
office, headquarters, and principal place of business in California. Bank of
New York Mellon is acting in foreclosure proceedings in this case through its
attorney-in-fact, Nationstar Mortgage, LLC.

19
20
21
22
23
24
25
26

2

The caveat is that a court must leave the resolution of material factual disputes to the trier of fact when the issue of subjectmatter jurisdiction is intertwined with an element of the merits of the plaintiff's claim. See, e.g., Safe Air for Everyone,
373 F.3d at 1039–40; Augustine, 704 F.2d at 1077.

MOTION TO DISMISS FOR LACK OF SUBJECT
MATTER JURISDICTION

-7

Stafne Law Firm
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223
T EL . 360.403.8700

Case 2:16-cv-00077-TSZ Document 11 Filed 02/29/16 Page 8 of 15

1

A 325
A national banking association is a citizen only “of the State in which its main office,

2

as set forth in its articles of association, is located .” Wachovia Bank, N.A. v. Schmidt, 546

3

U.S. 303, 307 (2006); see also Rouse v. Wachovia Mortg., FSB, 747 F.3d 707, 715 (9th

4

Cir.2014). In order to properly allege its citizenship BMYM is required to allege that specific

5

state in which its main office, as set forth in articles of association, is located. As BNYM was

6
7
8
9
10
11
12
13

informed of this recently by the Ninth Circuit it is difficult to understand why it would not
include such an allegation in its complaint as it is necessary to invoke this Court’s
diversity jurisdiction. Id., See also Robertson v. GMAC Mortgage, LLC, No. 14-35672, 2016
WL 145827, at *1 (9th Cir. Jan. 5, 2016) and authority cited therein.
Because BNYM has not alleged its citizenship by reference to its articles of
association it has not stated enough facts to invoke this Court’s diversity jurisdiction.
3. BNYM, as trustee, Has Not Adequately alleged its Citizenship so as to Establish the Existence

14
15
16
17
18

of Diversity Jurisdiction

Paragraph 1.1 of BNYM’s complaint alleges it has affiliate entities, but
identifies only one: Bank of New York Mellon Trust Company. No explanation is
given as to why the citizenship of its other affiliates is not alleged. Further, the

19

allegations in the complaint regarding BNYM Trust Company suffer from the same

20

deficiency as do the allegations related to BNYM; namely, there is no allegation“of

21

the State in which its[BNYM Trust Company] main office, as set forth in its articles

22
23
24
25

of association, is located .” See Wachovia Bank, N.A. v. Schmidt, 546 U.S. at 307;
Rouse v. Wachovia Mortg., FSB, 747 F.3d at 715; Robertson v. GMAC Mortgage,
LLC, No. 14-35672, 2016 WL 145827, at *1 .

26

MOTION TO DISMISS FOR LACK OF SUBJECT
MATTER JURISDICTION

-8

Stafne Law Firm
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223
T EL . 360.403.8700

Case 2:16-cv-00077-TSZ Document 11 Filed 02/29/16 Page 9 of 15

1

A 326
BNYM allegations regarding its trustee status are not sufficient either. BNYM alleges

2

only that it is the trustee of a trust, but does not make any allegations that satisfy the real party

3

in interest tests set forth in Navarro Sav. Ass'n v. Lee, 446 U.S. 458, 464-66, 100 S. Ct. 1779,

4

1783-84, 64 L. Ed. 2d 425 (1980) sufficient to establish that its citizenship alone is sufficient

5

for invoking this Court's diversity jurisdiction. .

6
7
8
9

BNYM has the burden of alleging facts, not conclusions, establishing that it has met
these criteria and therefore is attempting to appropriately invoke this Court’s diversity
jurisdiction. Bell Atlantic Corp. v. Twombly, 550 U.S. 544 (2007); Ashcroft v. Iqbal, 556

10

U.S. 662 (2009). See also Harris v. Rand, 682 F.3d at 850–51.Without such allegations a suit

11

by a trustee must be considered for purposes of diversity jurisdiction a suit by an artificial

12

entity, which for purposes of diversity jurisdiction includes the citizenship of its members.

13

Carden v. Arkoma Associates, 494 U.S. 185, 192-96, 110 S. Ct. 1015, 1019-21, 108 L. Ed. 2d

14
15
16
17

157 (1990)
In the case of trusts which do not allege compliance with Navarro criteria, its
citizenship for purposes of diversity jurisdiction should be determined by reference to the

18

citizenship of its beneficiaries and/or the citizenship of both the trustee (which for the reasons

19

previously stated has not been adequately alleged here) and the trust’s beneficiaries. See

20

e.g. Conagra Foods, Inc. v. Americold Logistics, LLC, 776 F.3d 1175, 1181-82 (10th Cir.), as

21
22
23
24

amended (Jan. 27, 2015), cert. granted, 136 S. Ct. 27, 192 L. Ed. 2d 997 (2015)
citing Emerald Inv'rs Trust v. Gaunt Parsippany Partners, 492 F.3d 192, 203-05 (3d Cir.
2007) and Riley v. Merrill Lynch, Pierce, Fenner & Smith, Inc., 292 F.3d 1334, 1337-40 (11th

25

Cir. 2002). Indeed, the complaint does not even suggest what an “affiliate” is or identify all of

26

the affiliates or adequately state their citizenship.

MOTION TO DISMISS FOR LACK OF SUBJECT
MATTER JURISDICTION

-9

Stafne Law Firm
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223
T EL . 360.403.8700

Case 2:16-cv-00077-TSZ Document 11 Filed 02/29/16 Page 10 of 15

1

A 327
Stafne suspects BNYM has attached the voluminous exhibits to the complaint so that

2

it can argue that it meets the Navarro criteria. But this is not acceptable pleading practice.

3

Under Fed. R. Civ. Pro. 8 (a) BNYM is required to allege facts establishing citizenship.

4

Simply attaching 400 pages of exhibits does not meet this pleading requirement.

5
6
7
8

3. The Issues Involved in the ongoing in rem actions affecting the Twin Falls rural
settlement are Local in Character and Should be Resolved in a Washington Court
pursuant to Federalism principles and the Tenth Amendment to the United States
Constitution.

9
10
11
12
13
14
15
16
17
18
19
20

In Phillips v. Tompson the Washington Supreme Court stated:
The well-being of every community requires that the title of real estate
therein shall be secure, and that there be convenient and certain methods of
determining any unsettled questions respecting it. The duty of accomplishing
this is local in its nature; it is not a matter of national concern or vested in
the general government; it remains with the state; and as this duty is one of
the state, the manner of discharging it must be determined by the state, and
no proceeding which it provides can be declared invalid, unless in conflict
with some special inhibitions of the Constitution, or against natural justice.
So it has been held repeatedly that the procedure established by the state, in
this respect, is binding upon the federal courts.’
Phillips v. Tompson, 73 Wn. 78, 85, 131 P. 461 (1913). (emphasis supplied).
Although old, Phillips has not been overruled or distinguished. Moreover, it is based
on controlling and valid United States Supreme Court precedent respecting the notion that the

21

security of real property within a State’s borders is a matter of core sovereignty. See Phillips,

22

73 Wn. at 85 citing Arndt v. Griggs, 134 U.S. 316,320-21 (1890) for the proposition that a

23

State has control over those procedures necessary to establish the security of land within its

24

borders.

25
26

MOTION TO DISMISS FOR LACK OF SUBJECT
MATTER JURISDICTION

- 10

Stafne Law Firm
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223
T EL . 360.403.8700

Case 2:16-cv-00077-TSZ Document 11 Filed 02/29/16 Page 11 of 15

1

A 328
Of course, this is hardly a novel concept even in today’s world of rampant federal

2

control. “It is an established principle of law, everywhere recognized; arising from the

3

necessity of this case, that the disposition of immovable property … is exclusively subject to

4

the government within whose jurisdiction the property is situated.” United States v. Fox, 94

5

U.S. 315, 320-21, 24 L. Ed. 192 (1877) (citing McCormick v. Sullivant, 23 U.S. 192, 6 L. Ed.

6
7
8
9

300, 14 S. Ct. 616 (1825)). Unless Congress enacts a law in furtherance of an enumerated
power, the Supreme Court continues to hold that State’s core sovereignty includes enacting
laws related to the dispossession of property with its own borders. See United States v.

10

Burnison, 339 U.S. 87,91-92 (1950) (Declining to overrule United States v. Fox, supra.) See

11

also Oneida Indian Nation v. Oneida County, 414 U.S. 661, 676–77, 94 S.Ct. 772, 39 L.Ed.2d

12

73 (1974) (“[o]nce patent issues, the incidents of ownership are, for the most part, matters of

13

local property law to be vindicated in local courts”). This is so because each state has the

14
15
16
17

power “to provide for and protect individual rights to the soil within its confines” in
furtherance of the general welfare of society based on the security of title to real estate. Am.
Land Co. v. Zeiss, 219 U.S. 47, 60, 31 S.Ct. 200, 55 L.Ed. 82 (1911); see also United States v.

18

Fox, 94 U.S. at 320 (means of acquiring and transferring real property is the exclusive domain

19

of “the government within whose jurisdiction the property is situated”); Arndt v. Griggs, 134

20

U.S. 316, 320–21, 10 S.Ct. 557, 33 L.Ed. 918 (1890) (same).

21
22
23
24

As the Court can see the disputes involved in the overall in rem dispute which is
currently being litigated in the Snohomish County Superior Court involving the Twin Falls
rural settlement res are not garden variety quiet title actions. They involve litigation of issues

25

which are primarily local in nature, and involve some acres of lands which remain designated

26

as natural resource lands pursuant to Washington’s Growth Management Act. See e.g. Stafne

MOTION TO DISMISS FOR LACK OF SUBJECT
MATTER JURISDICTION

- 11

Stafne Law Firm
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223
T EL . 360.403.8700

Case 2:16-cv-00077-TSZ Document 11 Filed 02/29/16 Page 12 of 15

1

A 329
v. Snohomish 174 Wash. 2d 24, 271 P.3d 868 (2012). Cf. Twin Falls, Inc. v. Snohomish

2

County, CPSGMHB Case No. 93-3-0003, See also decision at 1993 WL 839715 (1993).

3

Stafne does not accept that diversity jurisdiction statutes provide an adequate basis for this

4

Court to assume jurisdiction over these disputes, absent a compelling federal interest therein.

5

Stafne asserts the in rem and quasi in rem litigation which is ongoing in a Washington state

6
7
8
9

court related to the Twin Falls rural settlement involves issues of core sovereignty of
Washington State and should be decided by its courts.
Stafne presents this challenge as a factual attack on this Court’s diversity jurisdiction

10

premised on the local nature of the ongoing in rem litigation regarding the Twin Falls rural

11

settlement and his personal standing to invoke his rights as a citizen to the protections

12

afforded by the federal nature of our government and the Tenth Amendment to the United

13

States Constitution. See e.g. Bond v. United States, __ U.S. __, 131 S. Ct. 2355, 2363-4,180

14
15
16
17

L. Ed. 2d 269 (2011).
Stafne requests discovery and an evidentiary hearing with regard to weighing the local
interests involved in having a Washington Court resolving the land disputes involved herein

18

against the federal interests which will be promoted by having this Court asserting federal

19

jurisdiction to decide local issues relating to the title, possession, and use of land of in a rural

20

settlement. See Sunderland v. United States, 266 U.S. 226, 232-33 (1924) for the proposition

21
22
23
24

that where the authority of a State to decide issues involving the core sovereignty of a state is
raised against an opposing federal interest an issue of supremacy is raised. See Leite v. Crane
Co., 749 F.3d 1117, 1121-22 (9th Cir.) cert. denied, 135 S. Ct. 361, 190 L. Ed. 2d 252 (2014)

25

and Robertson v. GMAC Mortgage, LLC, No. 14-35672, 2016 WL 145827, at *1 (indicating

26

this Court may hold an evidentiary hearing to resolve jurisdictional issues).

MOTION TO DISMISS FOR LACK OF SUBJECT
MATTER JURISDICTION

- 12

Stafne Law Firm
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223
T EL . 360.403.8700

Case 2:16-cv-00077-TSZ Document 11 Filed 02/29/16 Page 13 of 15
A 330
Alternatively, Stafne requests this Court abstain from deciding this case brought by

1
2

plaintiff entities to foreclose on a small res which is part of a larger res involved in an

3

ongoing litigation in state court involving local issues related to land within the State’s

4

borders based on principles of comity between dual sovereigns. La. Power & Light Co. v.

5

City of Thibodaux, 360 U.S. 25 (1959); Burford v. Sun Oil Co., 319 U.S. 315, 63 S.Ct. 1098,

6

87 L.Ed. 1424 (1943)

7

Federal courts may use abstention as a means to adhere to the federal structure of the

8
9

Constitution on which the United States is premised. See Exxon Mobil Corp. v. Saudi Basic

10

Indus. Corp., 544 U.S. 280, 292, 125 S.Ct. 1517, 161 L.Ed.2d 454 (2005); Quackenbush v.

11

Allstate Ins. Co., 517 U.S. 706, 723, 116 S.Ct. 1712, 135 L.Ed.2d 1 (1996). It furthers

12

federalism by allowing federal courts to give the proper scope and necessary recognition to

13

the role and authority of the states. Quackenbush, 517 U.S. at 733, 116 S.Ct. 1712 (Kennedy,

14
15
16
17
18

J., concurring). Deciding to abstain as it has been developed by case law entails balancing the
independence of state action, sovereignty, against the federal interest of retaining jurisdiction
by determining which interest is paramount. Id. at 733–34, 116 S.Ct. 1712.) aff'd, No. BR 1105736-TBB, 2012 WL 3775758 (N.D. Ala. Aug. 28, 2012).

19

4. This Court Should Dismiss this in rem Foreclosure Action Pursuant to the Exclusive

20

Jurisdiction Doctrine.

21
22
23
24

Under the Exclusive Jurisdiction Doctrine where both a state and federal court have
jurisdiction of an in rem or quasi-in-rem cause of action, the jurisdiction of the Court first
acquiring jurisdiction is exclusive. See Chapman v. Deutsche Bank Nat. Trust Co., 651 F.3d

25

1039, 1043-44 (9th Cir. 2011) certified question answered sub nom. Chapman v. Deutsche

26

Bank

MOTION TO DISMISS FOR LACK OF SUBJECT
MATTER JURISDICTION

- 13

Stafne Law Firm
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223
T EL . 360.403.8700

Case 2:16-cv-00077-TSZ Document 11 Filed 02/29/16 Page 14 of 15

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26

A 331
Nat'l Trust Co., 129 Nev. Adv. Op. 34, 302 P.3d 1103 (2013). See also Laghaei v. Fed. Home
Loan Mortgage Corp., No. 12-17572, 2015 WL 8947463, at *1 (9th Cir. Dec. 16, 2015).
In Chapman the Ninth Circuit suggested that application of this doctrine is mandatory.
In this regard, the Chapman Court states:
Relying on the “prior exclusive jurisdiction” doctrine, the Chapmans contend
that the federal District Court should have remanded the Quiet Title Action
to state court. The prior exclusive jurisdiction doctrine holds that “when one
court is exercising in rem jurisdiction over a res, a second court will not
assume in rem jurisdiction over the same res.” Marshall v. Marshall, 547
U.S. 293, 311, 126 S.Ct. 1735, 164 L.Ed.2d 480 (2006); see also Princess
Lida of Thurn & Taxis v. Thompson, 305 U.S. 456, 466–67, 59 S.Ct. 275, 83
L.Ed. 285 (1939). “Although the doctrine is based at least in part on
considerations of comity and prudential policies of avoiding piecemeal
litigation, it is no mere discretionary abstention rule. Rather, it is a
mandatory jurisdictional limitation.” State Eng'r v. S. Fork Band of Te–Moak
Tribe of W. Shoshone Indians, 339 F.3d 804, 810 (9th Cir.2003) (citations
and internal quotation marks omitted). As summarized by the Supreme
Court:
Where the action is in rem the effect is to draw to the federal court the
possession or control, actual or potential, of the res, and the exercise by
the state court of jurisdiction over the same res necessarily impairs, and
may defeat, the jurisdiction of the federal court already attached. *1044
The converse of the rule is equally true, that where the jurisdiction of
the state court has first attached, the federal court is precluded from
exercising its jurisdiction over the same res to defeat or impair the state
court's jurisdiction.
Kline v. Burke Constr. Co., 260 U.S. 226, 229, 43 S.Ct. 79, 67 L.Ed. 226 (1922).
… If the action is not “ ‘strictly in personam’ ”—that is, if the action is in rem or
quasi in rem—then the doctrine ordinarily applies. Id. at 811 (quoting Penn. Gen. Cas.
Co. v. Pennsylvania ex rel. Schnader, 294 U.S. 189, 195, 55 S.Ct. 386, 79 L.Ed. 850
(1935)). Accordingly, where parallel state and federal proceedings seek to “ ‘determine
interests in specific property as against the whole world’ ” (in rem ), or where “ ‘the
parties' interests in the property ... serve as the basis of the jurisdiction’ ” for the
parallel proceedings (quasi in rem ), then “the doctrine of prior exclusive jurisdiction
fully applies.” Id. (alterations omitted) (quoting Black's Law Dictionary 1245 (6th
ed.1990)).
Whether the doctrine is described as a rule of comity or subject matter
jurisdiction, see id. at 810 (subject matter jurisdiction); Metro. Finance Corp. of Cal. v.
Wood, 175 F.2d 209, 210 & n. 3 (9th Cir.1949) (comity); see generally 13F Charles
Alan Wright et al., Federal Practice & Procedure § 3631 (3d ed. Supp.2010) (noting
conflicting views), courts in this circuit are bound to treat the doctrine as a

MOTION TO DISMISS FOR LACK OF SUBJECT
MATTER JURISDICTION

- 14

Stafne Law Firm
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223
T EL . 360.403.8700

Case 2:16-cv-00077-TSZ Document 11 Filed 02/29/16 Page 15 of 15

1
2

A 332
mandatory rule, not a matter of judicial discretion, State Eng'r, 339 F.3d at 810;
United States v. One 1985 Cadillac Seville, 866 F.2d 1142, 1145 (9th Cir.1989). If the
doctrine applies, federal courts may not exercise jurisdiction.

3

Chapman v. Deutsche Bank Nat. Trust Co., 651 F.3d 1039, 1043-44 (9th Cir. 2011) (emphasis

4

supplied)

5
6
7
8
9

CONCLUSION
This Court should dismiss Plaintiff entities complaint as plaintiff entities have not
adequately alleged their citizenship for purposes of diversity jurisdiction; have not established
a sufficient federal interest to overcome the interest of Washington State courts have in its

10

own courts decide in rem and quasi in rem issues relating to title and possession of land

11

within Twin Falls rural settlement; and it is precluded from asserting jurisdiction pursuant to

12

the Exclusive Jurisdiction Doctrine.

13
14
15

Respectfully submitted this 29th day of February, 2016, at Arlington, Washington.

16

____s/ Scott E. Stafne__________
Scott E. Stafne, WSBA# 6964
Stafne Law firm
239 N. Olympic Ave
Arlington, WA 98223
Phone: 360-403-8700

17
18
19
20
21
22
23
24
25
26

MOTION TO DISMISS FOR LACK OF SUBJECT
MATTER JURISDICTION

- 15

Stafne Law Firm
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223
T EL . 360.403.8700

Case 2:16-cv-00077-TSZ Document 3 Filed 01/26/16 Page 1 of 3
APPENDIX 50
A 333
Honorable Thomas S. Zilly

1
2
3
4
5
6
7

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

8
9
10
11
12
13
14
15
16
17
18

BANK OF NEW YORK MELLON, a Delaware
corporation, as trustee for STRUCTURED
ASSET MORTGAGE INVESTMENTS II
TRUST, MORTGAGE PASS-THROUGH
CERTIFICATES SERIES 2005-AR2,

No. 2:16-cv-00077-TSZ
CORPORATE DISCLOSURE
STATEMENT

Plaintiff,
v.
SCOTT STAFNE, an individual; TODD
STAFNE, an individual; and REAL TIME
RESOLUTIONS, Inc., a Texas corporation,
Defendants.
Pursuant to Fed. R. Civ. P. 7.1, Plaintiff Bank of New York Mellon Co., as trustee for

19

Structured Asset Mortgage Investments II Trust, Mortgage pass-through Certificates Series

20

2005-AR2, makes this Corporate Disclosure Statement.

21
22

The Bank of New York Mellon Corporation, a Delaware corporation, is a publicly held
company. No corporation owns 10% or more of its stock.

23
24
25
26
27
CORPORATE DISCLOSURE STATEMENT
(No. 2:16-cv-00077) - 1

Davis Wright Tremaine LLP

L AW O FFICE S
1201 Third Avenue, Suite 2200
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 3 Filed 01/26/16 Page 2 of 3
A 334
1
2

DATED this 26th day of January, 2016.

3

Davis Wright Tremaine LLP
Attorneys for Bank of New York Mellon

4
5

By s/ Fred B. Burnside
Fred B. Burnside, WSBA #32491
Zana Z. Bugaighis, WSBA #43614
1201 Third Avenue, Suite 2200
Seattle, WA 98101-3045
Telephone: 206.622.3150
E-mail: fredburnside@dwt.com
E-mail: zanabugaighis@dwt.com

6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
CORPORATE DISCLOSURE STATEMENT
(No. 2:16-cv-00077) - 2
DWT 28764690v1 0102942-000002

Davis Wright Tremaine LLP

L AW O FFICE S
1201 Third Avenue, Suite 2200
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 1 Filed 01/19/16 Page 1 of 9
APPENDIX 51
A 335
1
2
3
4
5
6
7
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

8
9
10
11

BANK OF NEW YORK MELLON, a Delaware
corporation, as trustee for STRUCTURED
ASSET MORTGAGE INVESTMENTS II
TRUST, MORTGAGE PASS-THROUGH
CERTIFICATES SERIES 2005-AR2,

No. 2:16-cv-00077
COMPLAINT

12
Plaintiff,
13
v.
14
15

SCOTT STAFNE, an individual; TODD
STAFNE, an individual; and REAL TIME
RESOLUTIONS, Inc., a Texas corporation,

16
Defendants.
17
Bank of New York Mellon alleges as follows:

18
19

I.
1.1.

20

PARTIES

Bank of New York Mellon, a Delaware corporation, serves as trustee for

21

Structured Asset Mortgage Investments II Trust, Mortgage Pass-Through Certificates Series

22

2005-AR2, and in that capacity owns and holds Defendant Scott Stafne’s Note. Bank of New

23

York Mellon’s affiliate entities include Bank of New York Melon Trust Company, N.A., which

24

has its main office and headquarters in California. Bank of New York Mellon’s main office,

25

headquarters, and principal place of business are in New York. Bank of New York Mellon is

26

acting in foreclosure proceedings in this case through its attorney-in-fact, Nationstar Mortgage

27

LLC.
Complaint
(No. 2:16-cv-00077) - 1

Davis Wright Tremaine LLP
L AW O F FI CE S
1201 Third Avenue, Suite 2200
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 1 Filed 01/19/16 Page 2 of 9
A 336
1

1.2.

Defendant Scott Stafne (“Borrower”) is a resident of Washington.

2

1.3.

On information and belief, Defendant Todd Stafne is a resident of Washington.

3

1.4.

On information and belief, Defendant Real Time Resolutions, Inc., is a Texas

4

corporation, with a principal place of business in Dallas, Texas.
1.5.

5
6

On information and belief, none of the Defendants is active duty military or a

service member as defined and protected under the Service Members Civil Relief Act.

7

II.
2.1.

8
9

JURISDICTION

The amount-in-controversy requirement is met because Bank of New York

Mellon seeks to foreclose on a Deed of Trust securing a promissory note in the original

10

principal amount of $800,000. Due to his failure to make payments, Borrower owes in excess

11

of the principal amount.

12

2.2.

As stated in paragraphs 1.1-1.5, complete diversity exists between the parties.

13

2.3.

The Court has jurisdiction because complete diversity exists between the parties,

14

and the amount in controversy exceeds $75,000, exclusive of interest and costs. 28 U.S.C.

15

§ 1332.

16
17
18

III.
A.

FACTS

Borrower’s Promissory Note and Deed of Trust.
3.1.

On March 9, 2005, Borrower executed a promissory note and deed of trust in

19

exchange for $800,000 from Countrywide Home Loans, Inc., a loan he used to purchase

20

residential property in Arlington, Washington. See Attach. A (“Note”) & B (“Deed of Trust”).

21

Under the terms of the Note, Borrower promised to repay the principal and pay annual interest

22

at one percent for a stated period, after which the rate would adjust with the LIBOR-index, not

23

to exceed 9.950 percent. Attach. A ¶ 2.

24

3.2.

The Note states that if Borrower does “not pay the full amount of each monthly

25

payment on the date it is due,” he “will be in default,” and the note-holder “may require [the

26

borrower] to pay immediately the full amount of Principal that has not been paid and all the

27

interest” owed. Attach. A ¶ 7.
Complaint
(No. 2:16-cv-00077) - 2

Davis Wright Tremaine LLP
L AW O F FI CE S
1201 Third Avenue, Suite 2200
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 1 Filed 01/19/16 Page 3 of 9
A 337
3.3.

1

Borrower executed the Deed of Trust to “secure[] to Lender (i) the repayment of

2

the loan, and all renewals, extensions, and modifications of the Note, and (ii) the performance

3

of Borrower’s covenants and agreements under this Security Instrument and the Note.” Attach.

4

B at 2. To secure repayment, Borrower granted the “power of sale” to the property located at

5

17207 155th Ave. N.E., Arlington Washington (“Property”), described as:

6

LOT 11, SURVEY FOR TWIN FALLS, INC., AS RECORDED
UNDER RECORDING NO. 200110105002, RE-RECORDED TO
CORRECT SURVEY RECORDED UNDER RECORDING NO.
200111275007, RECORDS OF SNOHOMISH COUNTY, BEING A
PORTION OF THE SOUTHEAST QUARTER OF SECTION 22 AND
A PORTION OF THE NORTHEAST QUARTER OF SECTION 27
ALL IN TOWNSHIP 31 NORTH, RANGE 6 EAST, W.M.; (ALSO
KNOWNS AS LOT 11, THE PLAT OF TWIN FALLS), TOGETHER
WITH A NON EXCLUSIVE EASEMENT FOR INGRESS, EGRESS
AND UTILITIES AS ESTABLISHED BY INSTRUMENT
RECORDED UNDER RECORDING NO. 9212160154; SITUATE IN
THE COUNTY OF SNOHOMISH, STATE OF WASHINGTON.

7
8
9
10
11
12
13

See Attach. B at 2-3. Stafne agreed that the Property is not used principally for agricultural
purposes. Id. at 10 ¶ 25.

14
B.
15
16
17
18
19
20
21
22
23
24
25
26

Possession of Borrower’s Note.
3.4.

After closing, Countrywide transferred the Note to JPMorgan Chase Bank, N.A.

(“JPMorgan”), as then-trustee for Structured Asset Mortgage Investments II Trust 2005-AR2
(“SAMI Trust”). See Attach. A at 4 (indorsement to JPMorgan, as trustee), Attach. F (Pooling
and Servicing Agreement). On September 15, 2006, the Office of the Comptroller of the
Currency approved Chase’s sale of its trustee operations for securitized trusts to Bank of New
York. After October 1, 2006, Chase was no longer trustee (and thus no longer holder of
Borrower’s Note). See, e.g., http://www.occ.gov/static/interpretations-andprecedents/oct06/crad136.pdf (OCC approval letter); JPMorgan Chase & Co. 10-Q, at 5 (Nov.
8, 2006), available at,
http://www.sec.gov/Archives/edgar/data/19617/000095012306013738/y26732e10vq.htm (“On
October 1, 2006, the Firm completed the exchange of selected corporate trust businesses,
including trustee…services, for the consumer, small-business and middle-market banking

27
Complaint
(No. 2:16-cv-00077) - 3

Davis Wright Tremaine LLP
L AW O F FI CE S
1201 Third Avenue, Suite 2200
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 1 Filed 01/19/16 Page 4 of 9
A 338
1

businesses of The Bank of New York.”). Bank of New York Mellon assumed the role of

2

trustee of the SAMI Trust and Nationstar, as its attorney in fact, indorsed the Note to Bank of

3

New York Mellon as successor to JPMorgan as Trustee for the SAMI Trust. Attach. A at 4

4

(indorsement to Bank of New York Mellon, successor trustee).

5

C.

2007 Forbearance Agreement.
3.5

6

In August 2007, Borrower and Countrywide entered into a Forbearance

7

Agreement whereby Countrywide agreed to suspend Borrower’s payments for September 2007

8

– October 2007, with payments to resume November 2007. See Attach. C (2007 Forbearance

9

Agreement). In November 2007, Borrower made a payment in the amount of $18,053.86.

10

D.

Borrower Defaulted January 1, 2009.
3.6

11

On January 1, 2009, Borrower defaulted on the loan by failing to make timely

12

payments as required by the Note and Deed of Trust. Since default, Mr. Stafne has made no

13

payments on his debt.

14

E.

15

Servicer’s Communications Regarding Borrower’s Default
3.7

On or about February 17, 2009, Countrywide sent Borrower a “Notice of Intent

16

to Accelerate,” which notified Borrower of his default, the amount required to cure, and stated

17

“[i]f the default is not cured on or before March 19, 2009, the mortgage payments will be

18

accelerated with the full amount remaining accelerated and becoming due and payable in full

19

and foreclosure proceedings will be initiated at that time.” See Attach. D (Notice of Intent to

20

Accelerate) (emphasis in original). However, Countrywide chose to give Borrower more time

21

to cure his default, opted not to accelerate Borrower’s debt (and not to foreclose), and instead

22

on or about March 17, 2009, sent Borrower an “Adjustable Rate Mortgage (ARM) Payment

23

Adjustment Notice,” which stated “[e]ffective May 1, 2009, your new Minimum Payment will

24

be $3,436.32.” See Attach. E (ARM Payment Adjustment Notice).

25
26

3.8

On or about December 29, 2009, BAC Home Loans Servicing, LP (“BAC”),

sent Borrower a notice that his monthly mortgage payment would “significantly increase” again

27
Complaint
(No. 2:16-cv-00077) - 4

Davis Wright Tremaine LLP
L AW O F FI CE S
1201 Third Avenue, Suite 2200
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 1 Filed 01/19/16 Page 5 of 9
A 339
1

due to delinquent property taxes. On February 16, 2010, BAC notified Borrower it had paid his

2

delinquent taxes and would be increasing his “monthly mortgage payment.”
3.9

3

From March 17, 2009, to March 18, 2015, Borrower received approximately

4

120 communications regarding the status of his loan and loan mitigation options, including

5

multiple communications regarding his monthly mortgage payment, the amount required to

6

cure and reinstate his loan, and the outstanding principal balance. Borrower was also sent

7

multiple notices of default, including on February 17, 2009, October 12, 2012, December 16,

8

2012, May 9, 2013, August 17, 2015, and September 28, 2015. These notices informed

9

Borrower that if he did not reinstate, his Loan “may be accelerated.” Borrower’s loan was not

10

accelerated prior to this Complaint.

11

F.

Bank of New York Mellon Holds Borrower’s Note.
3.10

12

Bank of New York Mellon as trustee, holds and owns Borrower’s Note, which is

13

in possession of Bank of New York Mellon’s agents and attorneys. Because Bank of New

14

York Mellon holds Borrower’s Note, it is the beneficiary of the Deed of Trust and entitled to all

15

rights listed therein. RCW 61.24.005(2). Bank of New York Mellon does not rely on any

16

Deed of Trust assignment from any party as a basis to foreclose.
3.11

17

Bank of New York Mellon contracted with Nationstar as its attorney-in-fact to

18

conduct certain foreclosure-related activities on its behalf. See Attach. E (Limited Power of

19

Attorney permitting Nationstar to act on behalf of Bank of New York Mellon).

20

G.

21

September 2015 Notice of Default.
3.12

On September 28, 2015, Nationstar, as attorney-in-fact for Bank of New York

22

Mellon, sent Borrower a Notice of Default and Intent to Accelerate. See Attach. (Notice of

23

Default and Intent to Accelerate). The Notice informed Borrower that he had 30 days to pay

24

the arrearage, or his debt would be subject to acceleration and he could be sued in a judicial

25

foreclosure. Borrower did not pay the arrearage.

26
27

3.13

As of October 30, 2015, Borrower owed an unpaid balance of $344,571.81 and

is accruing additional monthly payments. Borrower’s unpaid principal balance was
Complaint
(No. 2:16-cv-00077) - 5

Davis Wright Tremaine LLP
L AW O F FI CE S
1201 Third Avenue, Suite 2200
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 1 Filed 01/19/16 Page 6 of 9
A 340
1

$823,229.05. Additionally, Bank of New York Mellon is entitled to recover its attorneys’ fees,

2

costs, and other expenses incurred in recovering on the Note and enforcing the Deed of Trust,

3

as well as other amounts provided for in the loan documents.
3.14

4

Before entry of judgment, Bank of New York Mellon may be required to

5

advance sums for the payment of taxes, assessments, or utilities; additional sums for the

6

protection, preservation, and/or care for the Property, and additional sums required to comply

7

with municipal ordinances regarding the maintenance, ownership, and condition of the

8

Property, together with other charges constituting prior liens on the Property. In the event any

9

such advances are made, they are secured by the Deed of Trust, and Bank of New York Mellon

10

is entitled to and will add them to the amount of the judgment and decree of foreclosure to be

11

entered.

12

H.

Election to Accelerate.
3.15

13

Bank of New York Mellon, through this Complaint, has elected to declare the

14

entire principal sum and all accrued interest on the Note due and payable. Under the Note, all

15

past due installments of interest, late charges, attorneys’ fees and expenses incurred by Bank of

16

New York Mellon in connection with the default shall be added to the principal balance, and

17

the principal balance shall bear interest at the Note rate, or as required by law, on all amounts

18

due.
3.16

19

Because Borrower has breached the terms of the Note and the Deed of Trust,

20

and because Bank of New York Mellon holds the first-position lien against the Property, Bank

21

of New York Mellon is entitled to immediate payment of the entire loan balance, including all

22

principal and interest, any taxes, assessments, municipal charges, and any other expenses, costs,

23

or fees provided under the Note and Deed of Trust.

24

I.

25
26

Other Proceedings.
3.17

Bank of New York Mellon has not commenced any other proceedings for the

collection of the debt evidenced by the Promissory Note and Deed of Trust.

27
Complaint
(No. 2:16-cv-00077) - 6

Davis Wright Tremaine LLP
L AW O F FI CE S
1201 Third Avenue, Suite 2200
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 1 Filed 01/19/16 Page 7 of 9
A 341
J.
1
2
3

3.18

6
7

Todd Stafne. On information and belief, Defendant Todd Stafne may claim

some right, title, or interest in and to the Property. To the extent his claims exist, they arose
subsequent to and are inferior to Bank of New York Mellon’s rights in the Property.

4
5

Parties with Potential Interest in the Property.

3.19

Real Time Resolutions, Inc. On information and belief, Defendant Real Time

Resolutions may claim some right, title, or interest in and to the Property. To the extent its
claims exist, they arose subsequent to and are inferior to Bank of New York Mellon’s rights in
the Property.

8
IV.

CAUSES OF ACTION

9
A.
10
11
12
13

Money Judgment on Promissory Note.
4.1.

Borrower has defaulted on the Promissory Note by failing to pay sums due, and

Bank of New York Mellon is therefore entitled to a money judgment against Borrower in an
amount to be established as of the judgment date. Bank of New York Mellon does not seek to
collect payments more than six years past due.

14
B.
15
16
17
18
19

Foreclosure on Deed of Trust.
4.2.

Bank of New York Mellon’s Deed of Trust is senior to all other interests,

claims, liens, and encumbrances against the Property, and Bank of New York Mellon is entitled
to judgment and a decree of foreclosure under the Deed of Trust against the Property, and to
proceed with the sale of the Property to recover the loan proceeds and to obtain any deficiency
judgment for the remaining balance due on the loan.

20
C.
21
22
23

Breach of Contract.
4.3.

Borrower has failed to abide by the terms of the Note and Deed of Trust as

outlined above, and Borrower has breached his contracts. Bank of New York Mellon is
therefore entitled to recover for all sums due under the Note and Deed of Trust.

24
25
26
27
Complaint
(No. 2:16-cv-00077) - 7

Davis Wright Tremaine LLP
L AW O F FI CE S
1201 Third Avenue, Suite 2200
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 1 Filed 01/19/16 Page 8 of 9
A 342
D.
1
2
3

Receivership.
4.4

To protect the Property and preserve its value, Bank of New York Mellon

requests appointment of a receiver pursuant to RCW 7.60.025 that may lease the property or
otherwise recover value.

4
V.
5
6

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

5.1.

Bank of New York Mellon respectfully requests the Court grant the following

5.2.

That Bank of New York Mellon has judgment for monies due against Borrower

relief:

7
8

PRAYER FOR RELIEF

for the principal and interest due under the Note and Deed of Trust as of the judgment date, as
well as attorneys’ fees and costs; any sums advanced or costs incurred to protect Bank of New
York Mellon’s interest in the Property until the date of a sheriff’s sale; any taxes, assessments,
municipal charges, and any other expenses, costs, or fees provided under the Note and Deed of
Trust;
5.3.

That judgment interest accrue at the statutory rate of 12 per cent annually, as

allowed by RCW 4.56.110 and RCW 19.52.020;
5.4.

That in the event Borrower fails to pay the judgment, the Deed of Trust shall be

judicially foreclosed and the Property be sold at a sheriff’s foreclosure sale with proceeds
applied toward satisfaction of the judgment, and that any remaining deficiency be reduced to a
judgment against Borrower;
5.5.

That Bank of New York Mellon’s Deed of Trust be declared a valid first lien on

the Property subject only to those associations with a limited six-month lien assessment priority
pursuant to RCW 64.34.364(3), and that the rights of each Defendant in the Property, if any, be
declared inferior to Bank of New York Mellon’s rights;
5.6.

That the Court establish an eight-month redemption period from the date of the

sheriff’s foreclosure sale, and the sheriff should be ordered to issue a sheriff’s deed to the
successful bidder at the termination of the redemption period;

26
27
Complaint
(No. 2:16-cv-00077) - 8

Davis Wright Tremaine LLP
L AW O F FI CE S
1201 Third Avenue, Suite 2200
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 1 Filed 01/19/16 Page 9 of 9
A 343
1
2
3

5.7.

That Bank of New York Mellon be permitted to bid (or credit bid) and purchase

the Property at the foreclosure sale;
5.8.

That if the Property is not vacated upon expiration of the applicable redemption

4

period so that purchaser may take possession, the Court should issue a writ of assistance

5

ordering the sheriff to deliver possession of the Property to the purchaser;

6

5.9.

That if the Property is occupied by a tenant holding under an unexpired lease,

7

the purchaser is entitled to receive from such tenant the rents or the value of the use and

8

occupation of the Property during the period of redemption pursuant to RCW 6.23.110; and

9

5.10.

That the Court grant such other relief as is just and equitable.

10
11

DATED this 19th day of January, 2016.

12

Davis Wright Tremaine LLP
Attorneys for Bank of New York Mellon

13
14

By s/ Fred B. Burnside
Fred B. Burnside, WSBA #32491
Zana Z. Bugaighis, WSBA #43614
1201 Third Avenue, Suite 2200
Seattle, WA 98101-3045
Telephone: 206.622.3150
E-mail: fredburnside@dwt.com
E-mail: zanabugaighis@dwt.com

15
16
17
18
19
20
21
22
23
24
25
26
27
Complaint
(No. 2:16-cv-00077) - 9
DWT 26711014v11 0102942-000002

Davis Wright Tremaine LLP
L AW O F FI CE S
1201 Third Avenue, Suite 2200
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 1-6 Filed 01/19/16 Page 1 of 7
APPENDIX 52
A 344

ATTACHMENT E

Attachment E - Page 42

Case 2:16-cv-00077-TSZ Document 1-6 Filed 01/19/16 Page 2 of 7
A 345

Attachment E - Page 43

Case 2:16-cv-00077-TSZ Document 1-6 Filed 01/19/16 Page 3 of 7
A 346

Attachment E - Page 44

Case 2:16-cv-00077-TSZ Document 1-6 Filed 01/19/16 Page 4 of 7
A 347

Attachment E - Page 45

Case 2:16-cv-00077-TSZ Document 1-6 Filed 01/19/16 Page 5 of 7
A 348

Attachment E - Page 46

Case 2:16-cv-00077-TSZ Document 1-6 Filed 01/19/16 Page 6 of 7
A 349

Attachment E - Page 47

Case 2:16-cv-00077-TSZ Document 1-6 Filed 01/19/16 Page 7 of 7
A 350

Attachment E - Page 48

Case 2:16-cv-00077-TSZ Document 1-7 Filed 01/19/16 Page 1 of 230
APPENDIX 53
A 351

ATTACHMENT F

Attachment F - Page 49

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 2 of 230
conﬁdential
A 352

STRUCTURED ASSET MORTGAGE INVESTMENTS II INC.,
DEPOSITOR,
JPMORGAN CHASE BANK, N.A.
TRUSTEE,
WELLS FARGO BANK, NATIONAL ASSOCIATION,
MASTER SERVICER,
WELLS FARGO BANK, NATIONAL ASSOCIATION,
SECURITIES ADMINISTRATOR,
and
EMC MORTGAGE CORPORATION

POOLING AND SERVICING AGREEMENT
Dated as of May 1, 2005

StructuredAsset Mortgage Investments II Trust 2005-AR2
Mortgage Pass-Through Certificates
Series 2005-AR2

ny-srv0 l\COHENS\1053167v07\83772 010800

Attachment F - Page 50
conﬁdential

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 3 of 230
conﬁdential
A 353

TABLE OF CONTENTS

1
ARTICLE I Definitions ...................................................................................................................
Section 1.01

1
Definitions ....................................................................................................

Section 1.02

44
Calculation of LIBOR ................................................................................

45
ARTICLE II Conveyance of Mortgage Loans; Original Issuance of Certificates .........................
Section 2.01

45
Conveyance of Mortgage Loans to Trustee ...............................................

Section 2.02

47
Acceptance of Trust Fund by Trustee ........................................................

Section 2.03 Assignment of Interest in the Mortgage Loan
Purchase Agreement .......................................................................................................... 50
Section 2.04

51
Substitution of Mortgage Loans .................................................................

Section 2.05

Issuance of Certificates ..............................................................................
52

Section 2.06

52
Representations and Warranties Concerning the Depositor ......................

54
ARTICLE III Administration and Servicing of Mortgage Loans ..................................................
Section 3.01

54
Master Servicer ..........................................................................................

Section 3.02

55
REMIC-Related Covenants .......................................................................

Section 3.03

55
Monitoring of Servicers .............................................................................

Section 3.04

56
Fidelity Bond .............................................................................................

Section 3.05

57
Power to Act; Procedures ...........................................................................

Section 3.06

58
Due-on-Sale Clauses; Assumption Agreements ........................................

Section 3.07

58
Release of Mortgage Files .........................................................................

Section 3.08 Documents, Records and Funds in Possession of Master Servicer
To Be Held for Trustee ...................................................................................................... 59
Section 3.09

60
Standard Hazard Insurance and Flood Insurance Policies .........................

Section 3.10

Presentment of Claims and Collection of Proceeds .................................
..60

Section 3.11

60
Maintenance of the Primary Mortgage Insurance Policies ........................

ny-srv0 l\COHENS\1053167v07\83772.010800

i
conﬁdential

Attachment F - Page 51

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 4 of 230
conﬁdential
A 354

Section 3.12
Trustee to Retain Possession of Certain Insurance Policies
and Documents ...................................................................................................................
61
Section 3.13

Realization Upon Defaulted Mortgage Loans ...........................................
61

Section 3.14

Compensation for the Servicers and the Master Servicer ..........................
61

Section 3.15

REO Property .............................................................................................
62

Section 3.16

Annual Officer’s Certificate as to Compliance ..........................................
62

Section 3.17

Annual Independent Accountant’s Servicing Report ................................
63

Section 3.18

Reports Filed with Securities and Exchange Commission ........................
63

Section 3.19

EMC ...........................................................................................................
64

Section 3.20

UCC ...........................................................................................................
64

Section 3.21

Optional Purchase of Defaulted Mortgage Loans ......................................
65

ARTICLE IV Accounts .................................................................................................................
65
Section 4.01

65
Protected Accounts ....................................................................................

Section 4.02

Distribution Account ..................................................................................
67

Section 4.03 Permitted Withdrawals and Transfers from the
Distribution Account .......................................................................................................... 67
Section 4.04 Distribution of Group I Carryover Shortfall Amount; Group I
Carryover Shortfall Reserve Fund ..................................................................................... 69
Section 4.05 Distribution of Group II Carryover Shortfall Amount; Group II
Carryover Shortfall Reserve Fund ..................................................................................... 70
Section 4.07 Distribution of Subordinate Carryover Shortfall Amount;
Subordinate Carryover Shortfall Reserve Fund ................................................................. 72
Section 4.09
Yield Maintenance Account and Yield
Maintenance Agreement .................................................................................................... 73
ARTICLE V Certificates ...............................................................................................................
74
Section 5.01

74
Certificates .................................................................................................

Section 5.02

88
Registration of Transfer and Exchange of Certificates ..............................

Section 5.03

92
Mutilated, Destroyed, Lost or Stolen Certificates .....................................

ny-srv0 I\COHENS\1053167v07\83772.010800

ii
conﬁdential

Attachment F - Page 52

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 5 of 230
conﬁdential
A 355

Section 5.04

92
Persons Deemed Owners ...........................................................................

Section 5.05

92
Transfer Restrictions on Residual Certificates ..........................................

Section 5.06

Restrictions on Transferability of Certificates ...........................................
93

Section 5.07

94
ERISA Restrictions ....................................................................................

Section 5.08

95
Rule 144A Information ..............................................................................

Section 5.09

96
Appointment of Paying Agent and Certificate Registrar ...........................

ARTICLE VI Payments to Certificateholders ...............................................................................
96
Section 6.01

96
Distributions on the Certificates ................................................................

Section 6.02

102
Allocation of Losses and Subsequent Recoveries ...................................

Section 6.03 first, to the Class B-6 Certificates until the Current Principal
Amount thereof has been reduced to zero; ...................................................................... 102
Section 6.04

Payments ..................................................................................................105

Section 6.05

106
Statements to Certificateholders ..............................................................

Section 6.06

Monthly Advances ...................................................................................108

Section 6.07

109
Compensating Interest Payments .............................................................

109
ARTICLE VII The Master Servicer ............................................................................................
Section 7.01

109
Liabilities of the Master Servicer .............................................................

Section 7.02

109
Merger or Consolidation of the Master Servicer .....................................

Section 7.03 Indemnification of the Trustee, the Custodian and the Securities
Administrator 110
Section 7.05

110
Limitations on Liability of the Master Servicer and Others ....................

Section 7.06

112
Master Servicer Not to Resign .................................................................

Section 7.07

Successor Master Servicer .......................................................................112

Section 7.08

112
Sale and Assignment of Master Servicing ...............................................

ARTICLE VIII Default ................................................................................................................113
Section 8.01

113
"Event of Default". ..................................................................................

ny-srv0 I\COHENS\1053167v07\83772.010800

iii
conﬁdential

Attachment F - Page 53

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 6 of 230
conﬁdential
A 356

Section 8.02

115
Trustee to Act; Appointment of Successor ..............................................

Section 8.03

116
Notification to Certificateholders ............................................................

Section 8.04

Waiver of Defaults .............................................................
. .....................116

Section 8.05

116
List of Certificateholders .........................................................................

116
ARTICLE IX Concerning the Trustee and the Securities Administrator ....................................
Section 9.01

Duties of Trustee ......................................................................................116

Section 9.02 Certain Matters Affecting the Trustee and the Securities
Administrator 118
Section 9.03 Trustee and Securities Administrator Not Liable for Certificates or
Mortgage Loans ............................................................................................................... 120
Section 9.04

121
Trustee and Securities Administrator May Own Certificates ..................

Section 9.05

121
Trustee’s and Securities Administrator’s Fees and Expenses ..................

Section 9.06 Eligibility Requirements for Trustee, Paying Agent and Securities
Administrator 121
Section 9.07

Insurance ..................................................................................................122

Section 9.08 Resignation and Removal of the Trustee and Securities
Administrator 122
Section 9.09 Successor Trustee, Paying Agent and Successor Securities
Administrator 123
Section 9.10 Merger or Consolidation of Trustee, Paying Agent or Securities
Administrator 124
Section 9.12

124
Appointment of Co-Trustee or Separate Trustee .....................................

Section 9.13 Federal Information Returns and Reports to Certificateholders;
REMIC Administration .................................................................................................... 125
Section 9.14 Federal Information Returns and Reports to Certificateholders;
REMIC Administration .................................................................................................... 125
127
ARTICLE X Termination ............................................................................................................
Section 10.01 Termination Upon Repurchase by the Depositor or its Designee or
127
Liquidation of the Mortgage Loans ...........................................................................

ny-srv01\COHENS\1053167v07\83772.010800

iv
conﬁdential

Attachment F - Page 54

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 7 of 230
conﬁdential
A 357

Section 10.03 Additional Termination Requirements ....................................................
130
ARTICLE XI Miscellaneous Provisions .....................................................................................
130
Section 11.01

Intent of Parties ........................................................................................130

Section 11.02

Amendment ..............................................................................................131

Section 11.03

Recordation of Agreement .......................................................................
132

Section 11.04

Limitation on Rights of Certificateholders ..............................................
132

Section 11.05

Acts of Certificateholders ........................................................................133

Section 11.06

GOVERNING LAW ................................................................................134

Section 11.07

Notices ..................................................................................................... 134

Section 11.08

Severability of Provisions ........................................................................
135

Section 11.09

Successors and Assigns ............................................................................135

Section 11.10

Article and Section Headings ...................................................................
135

Section 11.11

Counterparts .............................................................................................135

Section 11.12

Notice to Rating Agencies .......................................................................135

ny-srv0 I\COHENS\1053167v07\83772.010800

V
conﬁdential

Attachment F - Page 55

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 8 of 230
conﬁdential
A 358
EXHIBITS
Exhibit A- 1
Exhibit A-2
Exhibit A-3
Exhibit A-4
Exhibit B
Exhibit C
Exhibit D
Exhibit E
Exhibit F- 1
Exhibit F-2
Exhibit G
Exhibit H- 1
Exhibit H-2
Exhibit H-3
Exhibit H-4
Exhibit I
Exhibit J
Exhibit K

-

Form of Class A and Class X Certificates
Form of Class M Certificates
Form of Class B Certificates
Form of Class R Certificates
Mortgage Loan Schedule
[Reserved]
Request for Release of Documents
Form of Affidavit pursuant to Section 860E(e)(4)
Form of Investment Letter
Form of Rule 144A and Related Matters Certificate
Form of Custodial Agreement
EverHome Subservicing Agreement
Countrywide Servicing Agreement
Washington Mutual Servicing Agreement
EMC Servicing Agreement
Assignment Agreements
Mortgage Loan Purchase Agreement
Form of Trustee Limited Power of Attorney

ny-srv0 I\COHENS\1053167v07\83772 010800

vi
conﬁdential

Attachment F - Page 56

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 9 of 230
conﬁdential
A 359
POOLING AND SERVICING AGREEMENT

Pooling and Servicing Agreement, dated as of May 1, 2005, among Structured Asset
Mortgage Investments II Inc., a Delaware corporation, as depositor (the "Depositor"), JPMorgan
Chase Bank, N.A., a banking association organized under the laws of the United States of
America, not in its individual capacity but solely as trustee (the "Trustee"), Wells Fargo Bank,
National Association, as master servicer (in such capacity, the "Master Servicer") and as
securities administrator (in such capacity, the "Securities Administrator"), and EMC Mortgage
Corporation ("EMC").
PRELIMINARY STATEMENT
On or prior to the Closing Date, the Depositor has acquired the Mortgage Loans from
EMC. On the Closing Date, the Depositor will sell the Mortgage Loans and certain other
property to the Trust Fund and receive in consideration therefor Certificates evidencing the entire
beneficial ownership interest in the Trust Fund.
The Trustee on behalf of the Trust shall make an election for the assets constituting
REMIC I to be treated for federal income tax purposes as a REMIC. On the Startup Day, the
REMIC I Regular Interests will be designated "regular interests" in such REMIC and the Class
R-I Certificate will be designated the "residual interests" in such REMIC.
The Trustee on behalf of the Trust shall make an election for the assets constituting
REMIC II to be treated for federal income tax purposes as a REMIC. On the Startup Day, the
REMIC II Regular Certificates will be designated "regular interests" in such REMIC and the
Class R-II Certificate will be designated the "residual interests" in such REMIC.
The Trustee on behalf of the Trust shall make an election for the assets constituting
REMIC III to be treated for federal income tax purposes as a REMIC. On the Startup Day, the
REMIC III Regular Certificates will be designated "regular interests" in such REMIC and the
Class R-III Certificate will be designated the "residual interests" in such REMIC.
The Mortgage Loans will have an Outstanding Principal Balance as of the Cut-off Date,
after deducting all Scheduled Principal due on or before the Cut-offDate, of $817,715,039.
In consideration of the mutual agreements herein contained, the Depositor, the Master
Servicer, the Securities Administrator, EMC and the Trustee agree as follows:
ARTICLE I
Definitions
Section 1.01 Definitions. Whenever used in this Agreement, the following words and
phrases, unless otherwise expressly provided or unless the context otherwise requires, shall have
the meanings specified in this Article.

ny-srv0 I\COHENS\1053167v07\83772.010800

Attachment F - Page 57
conﬁdential

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 10 of 230
conﬁdential
A 360

Accepted Master Servicing Practices: With respect to any Mortgage Loan, as applicable,
those customary mortgage master servicing practices of prudent institutions that master service
mortgage loans of the same type and quality as such mortgage loan in the jurisdiction where the
related Mortgaged Property is located, to the extent applicable to the Trustee or the Master
Servicer (except in its capacity as successor to a Servicer).
Account: The Distribution Account, the Group I Carryover Shortfall Reserve Fund, the
Group II Carryover Shortfall Reserve Fund, the Yield Maintenance Account and the related
Protected Account, as the context may require.
Accrued Certificate Interest: For any Certificate (other than a Residual Certificate) on
any Distribution Date, the amount of interest accrued during the related Interest Accrual Period
at the applicable Pass-Through Rate on the Current Principal Amount (or Notional Amount, with
respect to the Class I-X Certificates, the Class II-X Certificates and the Class M-X Certificates)
of such Certificate immediately prior to such Distribution Date, less (i) in the case of a Senior
Certificate (other than a Residual Certificate), such Certificate’s share of (a) any Net Interest
Shortfall from the Mortgage Loans in the related Loan Group, (b) any interest shortfall on the
Mortgage Loans in the related Loan Group resulting from the application of the Relief Act or
similar state law, (c) any shortfalls resulting from Net Deferred Interest and (d) after the CrossOver Date, the interest portion of any Realized Losses on the related Mortgage Loans in the
related Loan Group to the extent allocated thereto in accordance with Section 6.02(g), and (ii) in
the case of a Subordinate Certificate, such Certificate’s share of (a) any Net Interest Shortfall
from the Mortgage Loans, (b) any interest shortfall on the Mortgage Loans in the related Loan
Group resulting from the application of the Relief Act or similar state law, and (c) shortfalls
resulting from Net Deferred Interest and the interest portion of any Realized Losses on the
Mortgage Loans allocated to that Class of Certificates, to the extent allocated thereto in
accordance with Section 6.02(g). The Accrued Certificate Interest on the Class I-X Certificates,
the Class II-X Certificates and the Class M-X Certificates on any Distribution Date will be
reduced by any amounts necessary to fund the Group I Carryover Shortfall Reserve Fund, the
Group II Carryover Shortfall Reserve Fund and the Subordinate Carryover Reserve Fund,
respectively, on the related Distribution Date with respect to the payment of any Group I
Carryover Shortfall Amount, any Group II Carryover Shortfall Amount and any Subordination
Carryover Shortfall Amount, as the case may be. The applicable Senior Percentage of
Prepayment Interest Shortfalls and interest shortfalls resulting from the application of the Relief
Act or similar state law will be allocated among the related Senior Certificates (other than the
Residual Certificates) in proportion to the amount of Accrued Certificate Interest that would
have been allocated thereto in the absence of such shortfalls. The applicable Subordinate
Percentage of Prepayment Interest Shortfalls and interest shortfalls resulting from the application
of the Relief Act and similar state law will be allocated among the Subordinate Certificates in
proportion to the amount of Accrued Certificate Interest that would have been allocated thereto
in the absence of such shortfalls. The interest portion of Realized Losses for the Mortgage Loans
will be allocated sequentially, in the following order, to the Class B-6, Class B-5, Class B-4,
Class B-3, Class B-2, Class B-1, Class M-7, Class M-6, Class M-5, Class M-4, Class M-3, Class
M-2, Class M-1 and Class M-X Certificates and, following the Cross-Over Date, (A) the interest
portion of Realized Losses on the Group I Mortgage Loans will be allocated on a pro rata basis
to the Class I-A-1 Certificates, the Class I-A-2 Certificates and the Class I-X Certificates, (B) the
interest portion of Realized Losses on the Group II Mortgage Loans will be allocated on a pro
ny-srv01 \COHENS\ 1053167v07\83772.010800

2
conﬁdential

Attachment F - Page 58

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 11 of 230
conﬁdential
A 361

rata basis to the Class II-A-1 Certificates, the Class II-A-2 Certificates, the Class II-A-3
Certificates and the Class II-X Certificates, and (C) the interest portion of Realized Losses on the
Group III Mortgage Loans will be allocated on a pro rata basis to the Class III-A-1 Certificates
and the Class III-A-2 Certificates. Accrued Certificate Interest on the Certificates (other than the
Group III Senior Certificates, the Interest Only Certificates and the Residual Certificates) shall
be calculated on the basis of a 360-day year and the actual number of days elapsed in the related
Interest Accrual Period. Accrued Certificate Interest on the Interest Only Certificates and the
Group III Senior Certificates is calculated on the basis of a 360-day year consisting of twelve 30
day months. The Residual Certificates do not have a Pass-Through Rate and will not bear
interest. No Accrued Certificate Interest will be payable with respect to any Class or Classes of
Certificates that bear interest after the Distribution Date on which the outstanding Current
Principal Amount or Notional Amount of such Certificate or Certificates has been reduced to
zero.
Adjustable Rate Certificates: The Class I-A-1 Certificates, Class I-A-2 Certificates,
Class II-A-1 Certificates, Class II-A-2 Certificates, Class II-A-3 Certificates, Class M-1
Certificates, Class M-2 Certificates, Class M-3 Certificates, Class M-4 Certificates, Class M-5
Certificates, Class M-6 Certificates, Class M-7 Certificates, Class B-1 Certificates, Class B-2
Certificates, Class B-3 Certificates, Class B-4 Certificates, Class B-5 Certificates and Class B-6
Certificates.

Affiliate: As to any Person, any other Person controlling, controlled by or under common
control with such Person. "Control" means the power to direct the management and policies of a
Person, directly or indirectly, whether through ownership of voting securities, by contract or
otherwise. "Controlled" and "Controlling" have meanings correlative to the foregoing. The
Trustee may conclusively presume that a Person is not an Affiliate of another Person unless a
Responsible Officer of the Trustee has actual knowledge to the contrary.

Agreement: This Pooling and Servicing Agreement and all amendments hereof and
supplements hereto made in accordance with the terms herein.
Allocable Share: With respect to any Class of Subordinate Certificates:

(a) as to any Distribution Date and amounts distributable pursuant to clauses (1) and
(4) of the definition of Subordinate Optimal Principal Amount, the fraction, expressed as a
percentage, the numerator of which is the Current Principal Amount of such Class of Certificates
and the denominator of which is the aggregate Current Principal Amount of all Classes of the
Subordinate Certificates; and
(b) as to any Distribution Date and amounts distributable pursuant to clauses (2), (3),
(5) and (6) of the definition of Subordinate Optimal Principal Amount, after giving effect to the
reduction of the Current Principal Amount of the Class M-X Certificates on such Distribution
Date,

(1) for any Distribution Date on which the Loss and Delinquency Test has
been satisfied, as to each Class of Subordinate Certificates for which (x) the related Class
Prepayment Distribution Trigger has been satisfied on such Distribution Date, the fraction,

ny-srv0 I\COHENS\1053167v07\83772.010800

3
conﬁdential

Attachment F - Page 59

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 12 of 230
conﬁdential
A 362

expressed as a percentage, the numerator of which is the Current Principal Amount of such Class
of Certificates and the denominator of which is the aggregate Current Principal Amount of all
such Classes of Subordinate Certificates for which the related Class Prepayment Distribution
Trigger has been satisfied and (y) the related Class Prepayment Distribution Trigger has not been
satisfied on such Distribution Date, 0%; provided that if on a Distribution Date, the Current
Principal Amount of any Class of Subordinate Certificates for which the related Class
Prepayment Distribution Trigger was satisfied on such Distribution Date is reduced to zero, any
amounts distributed pursuant to this clause (b)(1), to the extent of such Class’s remaining
Allocable Share, shall be distributed to the Class of Subordinate Certificates having the lowest
numerical designation and to the Subordinate Certificates which satisfy the related Class
Prepayment Distribution Trigger in reduction of their respective Current Principal Amounts, in
the order of their numerical Class designations; and
(2) for any Distribution Date on which the Loss and Delinquency Test has not
been satisfied, as to the Subordinate Certificates, 0%; provided that if on a Distribution Date, any
remaining amounts distributed pursuant to this clause (b)(2) shall be distributed to the Classes of
Subordinate Certificates which satisfy the related Class Prepayment Distribution Trigger and to
the Class of Subordinate Certificates having the lowest numerical designation in reduction of
their respective Current Principal Amounts in the order of their numerical Class designations.

Applicable Credit Rating: For any long-term deposit or security, a credit rating of AAA
in the case of S&P and Aaa in the case of Moody’s (or with respect to investments in money
market funds, a credit rating of "AAAm" or "AAAm-G", in the case of S&P, and the highest
rating given by Moody’s for money market funds, in the case of Moody’s). For any short-term
deposit or security, a rating of A-l+ in the case of S&P and P-1 in the case of Moody’s.
Applicable State Law: For purposes of Section 9.12(d), the Applicable State Law shall
be (a) the law of the State of New York and (b) such other state law whose applicability shall
have been brought to the attention of the Securities Administrator and the Trustee by either (i) an
Opinion of Counsel reasonably acceptable to the Securities Administrator and the Trustee
delivered to it by the Master Servicer or the Depositor, or (ii) written notice from the appropriate
taxing authority as to the applicability of such state law.
Appraised Value: With respect to any Mortgage Loan originated in connection with a
refinancing, the appraised value of the related Mortgaged Property based upon the appraisal
made at the time of such refinancing or, with respect to any other Mortgage Loan, the amount set
forth as the appraised value of the related Mortgaged Property in an appraisal made for the
mortgage originator in connection with its origination of the related Mortgage Loan.
Assignment Agreements: The agreements attached hereto as Exhibit I, whereby the
Assigned Loans (as defined therein) and the related Servicing Agreements were assigned to the
Trustee for the benefit of the Certificateholders.
Assumed Final Distribution Date: May 25, 2045, or if such day is not a Business Day,
the next succeeding Business Day.

ny-srv01\COHENS\1053167v07\83772.010800

4
conﬁdential

Attachment F - Page 60

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 13 of 230
conﬁdential
A 363

Available Funds: With respect to any Distribution Date, the sum of the Group I
Available Funds, the Group II Available Funds and the Group III Available Funds for such
Distribution Date.
Average Loss Severity Percentage: With respect to any Distribution Date and each Loan
Group, the percentage equivalent of a fraction, the numerator of which is the sum of the Loss
Severity Percentages for each Mortgage Loan in such Loan Group which had a Realized Loss
and the denominator of which is the number of Mortgage Loans in the related Loan Group which
had Realized Losses.
Bankruptcy Code: The United States Bankruptcy Code, as amended, as codified in 11
U.S.C. §§101-1330.
Bankruptcy Loss: With respect to any Mortgage Loan, any Deficient Valuation or Debt
Service Reduction related to such Mortgage Loan as reported by the applicable Servicer to the
Master Servicer.
Book-Entry Certificates: Initially, all Classes of Certificates other than the Private
Certificates and the Residual Certificates.
Business Day: Any day other than (i) a Saturday or a Sunday, or (ii) a day on which the
New York Stock Exchange or the Federal Reserve is closed or on which banking institutions in
New York City or in any of the jurisdictions in which the Trustee, the Master Servicer, any
Servicer or the Securities Administrator is located are authorized or obligated by law or
executive order to be closed.
Carryover Shortfall: A Group I Carryover Shortfall, Group II Carryover Shortfall or
Subordinate Carryover Shortfall, as applicable.

Carryover Shortfall Amount: A Group I Carryover Shortfall Amount, a Group II
Carryover Shortfall Amount or a Subordinate Carryover Shortfall Amount, as applicable.
Century Lending: Century Mortgage Company doing business as Century Lending and
its successor in interest.

Certificate: Any mortgage pass-through certificate evidencing a beneficial ownership
interest in the Trust Fund signed by the Trustee and countersigned by the Certificate Registrar in
substantially the forms annexed hereto as Exhibits A-l, A-2, A-3 and A-4 with the blanks therein
appropriately completed.
Certificate Group: The Group I Senior Certificates, the Group II Senior Certificates and
the Group III Senior Certificates, as applicable.
Certificate Owner: Any Person who is the beneficial owner of a Certificate registered in
the name of the Depository or its nominee.
Certificate Register: The register maintained pursuant to Section 5.02.

ny-srv01\COHENS\1053167v07\83772.010800

5
conﬁdential

Attachment F - Page 61

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 14 of 230
conﬁdential
A 364
Certificate Registrar: The Securities Administrator or any successor certificate registrar
appointed hereunder.

Certificate Registrar Office: The office of the Certificate Registrar located at Sixth Street
and Marquette Avenue, Minneapolis, Minnesota 44579, Attention: SAMI II Series 2005-AR2.
Certificateholder: A Holder of a Certificate.
Class: With respect to the Certificates, I-A-1, I-A-2, I-X, II-A-1, II-A-2, II-A-3, II-X, IIIA-l, III-A-2, M-X, M-l, M-2, M-3, M-4, M-5, M-6, M-7, R-I, R-II, R-III, B-l, B-2, B-3, B-4, B5 and B-6.

Class Prepayment Distribution Trigger: For a Class of Subordinate Certificates (other
than the Class M-X Certificates) for any Distribution Date, the Class Prepayment Distribution
Trigger is satisfied if the fraction (expressed as a percentage), the numerator of which is the
aggregate Current Principal Amount of such Class of Certificates and each Class of Certificates
subordinate thereto, if any, and the denominator of which is the aggregate Scheduled Principal
Balance of all of the Mortgage Loans as of the related Due Date, equals or exceeds such
percentage calculated as of the Closing Date. If on any Distribution Date the Current Principal
Amount of any Class of Subordinate Certificates (other than the Class M-X Certificates) for
which the related Class Prepayment Distribution Trigger was satisfied on such Distribution Date
is reduced to zero, any amounts distributable to such Class of Certificates pursuant to clauses (2),
(3), (5) and (6) of the definition of "Subordinate Optimal Principal Amount," to the extent of
such Class’ remaining Allocable Share, shall be distributed to the remaining Class or Classes of
Subordinate Certificates in reduction of their respective Current Principal Amounts, sequentially,
in the order of their numerical Class designations.
Class R Certificates: The Class R-I, Class R-II and Class R-III Certificates.
Class R-I Certificate: Any one of the Class R-I Certificates executed by the Trustee and
authenticated by the Certificate Registrar substantially in the form annexed hereto as Exhibit A-4
and evidencing an interest designated as a "residual interest" in REMIC I for purposes of the

REMIC Provisions.

Class R-II Certificate: Any one of the Class R-II Certificates executed by the Trustee and
authenticated by the Certificate Registrar substantially in the form annexed hereto as Exhibit A-4
and evidencing an interest designated as a "residual interest" in REMIC II for purposes of the
REMIC Provisions.
Class R-III Certificate: Any one of the Class R-III Certificates executed by the Trustee
and authenticated by the Certificate Registrar substantially in the form annexed hereto as
Exhibit A-4 and evidencing an interest designated as a "residual interest" in REMIC III for
purposes of the REMIC Provisions.
Closing Date: May 31, 2005.

Code: The Internal Revenue Code of 1986, as amended.

ny-srv0 I\COHENS\1053167v07\83772 010800

6
conﬁdential

Attachment F - Page 62

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 15 of 230
conﬁdential
A 365
Combined Loan-to-Value Ratio: The fraction, expressed as a percentage, the numerator
of which is the sum of the original principal balance of the related Mortgage Loan at the date of
origination and the principal balance of the related secondary financing and the denominator of
which is the lesser of the selling price of the Mortgaged Property and its Appraised Value.
Commission: The United States Securities and Exchange Commission.
Compensating Interest Payment: As defined in Section 6.06.
Corporate Trust Office: The office of the Trustee at which at any particular time its
corporate trust business is administered, which office, at the date of the execution of this
Agreement, is located at 4 New York Plaza, 6th Floor, New York, New York 10004, Attention:
Worldwide Securities Services-Global Debt, SAMI Series II 2005-AR2. With respect to the
Certificate Registrar and the presentment of Certificates for registration of transfer, exchange or
final payment, Wells Fargo Bank, National Association, Sixth Street and Marquette Avenue,
Minneapolis, Minnesota 55479, Attention: Corporate Trust, SAMI II Series 2005-AR2, and for
all other purposes, P.O. Box 98, Columbia, Maryland 21046 (or for overnight deliveries, 9062
Old Annapolis Road, Columbia, Maryland 21045), Attention: Corporate Trust, SAMI II Series
2005-AR2.
Corresponding Certificate: With respect to (i) REMIC II Regular Interest I-A-I, (ii)
REMIC II Regular Interest I-A-2, (iii) REMIC II Regular Interest II-A-1, (iv) REMIC II Regular
Interest II-A-2, (v) REMIC II Regular Interest II-A-3, (vi) REMIC II Regular Interest III-A-1,
(vii) REMIC II Regular Interest III-A-2, (viii) REMIC II Regular Interest M-l, (ix) REMIC II
Regular Interest M-2, (x) REMIC II Regular Interest M-3, (xi) REMIC II Regular Interest M-4,
(xii) REMIC II Regular Interest M-5, (xiii) REMIC II Regular Interest M-6, (xiv) REMIC II
Regular Interest M-7, (xv) REMIC II Regular Interest B-l, (xvi) REMIC II Regular Interest B-2,
(xvii) REMIC II Regular Interest B-3, (xviii) REMIC II Regular Interest B-4, (xix) REMIC II
Regular Interest B-5, (xx) REMIC II Regular Interest B-6, and (xxi) REMIC II Regular Interest
MY-R, (i) the Class I-A-1 Certificates, (ii) the Class I-A-2 Certificates, (iii) the Class II-A-1
Certificates, (iv) the Class II-A-2 Certificates, (v) the Class II-A-3 Certificates, (vi) the Class IIIA-1 Certificates, (vii) the Class III-A-2 Certificates, (viii) the Class M-1 Certificates, (ix) the
Class M-2 Certificates, (x) the Class M-3 Certificates, (xi) the Class M-4 Certificates, (xii) the
Class M-5 Certificates, (xiii) the Class M-6 Certificates, (xiv) the Class M-7 Certificates, (xv)
the Class B-1 Certificates, (xvi) the Class B-2 Certificates, (xvii) the Class B-3 Certificates,
(xviii) the Class B-4 Certificates, (xix) the Class B-5 Certificates, (xx) the Class B-6 Certificates
and (xxi) the Class R-III Certificates, respectively. With respect to (i) REMIC I Regular
Interests 1A, 1B and ZZZ, (ii) REMIC I Regular Interest 2A, 2B and ZZZ, (iii) REMIC I
Regular Interest 3A, 3B and ZZZ, and (iv) REMIC I Regular Interest ZZZ, (i) REMIC II Regular
Interest A-l, (ii) REMIC II Regular Interests A-2, (iii) REMIC II Regular Interest A-3, and (iv)
REMIC II Regular Interests B-l, B-2, B-3, B-4, B-5 and B-6.
Countrywide: Countrywide Home Loans, Inc.
Countrywide AAR: That certain Assignment, Assumption and Recognition Agreement,
made and entered into as of May 31, 2005, among EMC, the Trustee and Countrywide Servicing.

ny-srv0 I\COHENS\1053167v07\83772 010800

7
conﬁdential

Attachment F - Page 63

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 16 of 230
conﬁdential
A 366
Countrywide Servicing: Countrywide Home Loans Servicing LP.
Countrywide Servicing Agreement: That certain Seller’s Warranties and Servicing
Agreement, dated as of September 1, 2002, as amended on January 1, 2003 and September 1,
2004, by and between Countrywide and EMC, as attached hereto as Exhibit H-2, as modified
pursuant to the Countrywide AAR.

Cross-Over Date: The first Distribution Date on which the aggregate Current Principal
Amount of the Subordinate Certificates has been reduced to zero (after giving effect to all related
distributions on such Distribution Date).
Current Principal Amount: With respect to any Certificate as of any Distribution Date,
an amount equal to the initial principal amount of such Certificate on the Closing Date, plus the
amount of any Net Deferred Interest allocated thereto on such Distribution Date and on previous
Distribution Dates, plus, in the case of a Subordinate Certificate, any Subsequent Recoveries on
the Mortgage Loans added to the Current Principal Amount of such Certificate pursuant to
Section 6.02(h) hereof, as reduced by (i) all amounts distributed on previous Distribution Dates
on such Certificate with respect to principal, (ii) the principal portion of all Realized Losses on
the Mortgage Loans (other than Realized Losses on the Mortgage Loans resulting from Debt
Service Reductions) allocated (as applicable) prior to such Distribution Date to such Certificate,
taking account of its applicable Loss Allocation Limitation, and (iii) in the case of a Subordinate
Certificate, such Certificate’s pro rata share, if any, of the applicable Subordinate Certificate
Writedown Amount for previous Distribution Dates. With respect to any Class of Certificates,
the Current Principal Amount thereof will equal the sum of the Current Principal Amounts of all
Certificates in such Class. Notwithstanding the foregoing, solely for purposes of giving
consents, directions, waivers, approvals, requests and notices, the Class R-I, Class R-II and Class
R-III Certificates after the Distribution Date on which they each receive the distribution of the
last dollar of their respective original principal amount shall be deemed to have Current Principal
Amounts equal to their respective Current Principal Amounts on the day immediately preceding
such Distribution Date.
Custodial Agreement: An agreement, dated as of the Closing Date, among the Depositor,
the Master Servicer, the Trustee and the Custodian, in substantially the form of Exhibit G hereto.
Custodian: Wells Fargo Bank, National Association, or any successor custodian
appointed pursuant to the provisions hereof and of the Custodial Agreement.
Cut-off Date: May 1, 2005.
Cut-offDate Balance: $817,715,039.
Debt Service Reduction: Any reduction of the Scheduled Payments which a Mortgagor
is obligated to pay with respect to a Mortgage Loan as a result of any proceeding under the
Bankruptcy Code or any other similar state law or other proceeding.
Deferred Interest: The amount of interest which is deferred and added to the Outstanding
Principal Balance of a Mortgage Loan due to negative amortization on such Mortgage Loan, as
described in the Prospectus Supplement.
ny-srv01\COHENS\1053167v07\83772.010800

8
conﬁdential

Attachment F - Page 64

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 17 of 230
conﬁdential
A 367
Deficient Valuation: With respect to any Mortgage Loan, a valuation of the Mortgaged
Property by a court of competent jurisdiction in an amount less than the then-outstanding
indebtedness under such Mortgage Loan secured by such Mortgage Property, which valuation
results from a proceeding initiated under the Bankruptcy Code or any other similar state law or
other proceeding.
Deposit Amount: The amount of $150.00 deposited by the Depositor on the Closing
Date into the Distribution Account.

Depositor: Structured Asset Mortgage Investments II Inc., a Delaware corporation, or its
successors in interest.
Depository: The Depository Trust Company, the nominee of which is Cede & Co., and
any successor thereto.
Depository Agreement: The meaning specified in Subsection 5.01 (a) hereof.
Depository Participant: A broker, dealer, bank or other financial institution or other
Person for whom from time to time the Depository effects book-entry transfers and pledges of
securities deposited with the Depository.
Designated Depository Institution: A depository institution (commercial bank, federal
savings bank, mutual savings bank or savings and loan association) or trust company (which may
include the Trustee), the deposits of which are fully insured by the FDIC to the extent provided
by law.

Determination Date: With respect to any Distribution Date and each Mortgage Loan, the
Determination Date as defined in the related Servicing Agreement.
Disqualified Organization: Any of the following: (i) the United States, any State or
political subdivision thereof, any possession of the United States, or any agency or
instrumentality of any of the foregoing (other than an instrumentality which is a corporation if all
of its activities are subject to tax and, except for Freddie Mac or any successor thereto, a majority
of its board of directors is not selected by such governmental unit), (ii) any foreign government,
any international organization, or any agency or instrumentality of any of the foregoing, (iii) any
organization (other than certain farmers’ cooperatives described in Section 521 of the Code)
which is exempt from the tax imposed by Chapter 1 of the Code (including the tax imposed by
Section 511 of the Code on unrelated business taxable income), (iv) rural electric and telephone
cooperatives described in Section 1381(a)(2)(C) of the Code, (v)any Person with respect to
which income on any Residual Certificate is attributable to a foreign permanent establishment or
fixed base, within the meaning of an applicable income tax treaty, of such Person or any other
Person, (vi) any Person that does not satisfy the requirements of United States Treasury
Department Regulation Section 1.860E-1(c) with respect to a transfer of a noneconomic residual
interest, as defined therein, or (vii) any other Person so designated by the Trustee and the
Certificate Registrar based upon an Opinion of Counsel that the holding of an ownership interest
in a Residual Certificate by such Person may cause any REMIC contained in the Trust or any
Person having an ownership interest in the Residual Certificate (other than such Person) to incur
a liability for any federal tax imposed under the Code that would not otherwise be imposed but
ny-srv0 I\COHENS\1053167v07\83772 010800

9
conﬁdential

Attachment F - Page 65

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 18 of 230
conﬁdential
A 368

for the transfer of an ownership interest in a Residual Certificate to such Person. The terms
"United States," "State" and "international organization" shall have the meanings set forth in
Section 7701 of the Code or successor provisions.
Distribution Account: The trust account or accounts created and maintained pursuant to
Section 4.02, which shall be denominated "Wells Fargo Bank, National Association, as Paying
Agent, for the benefit of the registered holders of Structured Asset Mortgage Investments II
Trust 2005-AR2, Mortgage Pass-Through Certificates, Series 2005-AR2 Distribution
Account," and which shall be an Eligible Account.
Distribution Account Deposit Date: The Business Day prior to each Distribution Date.

Distribution Date: The 25th day of any month, beginning in the month immediately
following the month of the Closing Date, or, if such 25th day is not a Business Day, the Business
Day immediately following.
DTC Custodian: The Securities Administrator, and its successors in interest as custodian
for the Depository.
Due Date: With respect to each Mortgage Loan, the date in each month on which its
Scheduled Payment is due, if such due date is the first day of a month, and otherwise is deemed
to be the first day of the following month or such other date specified in the related Servicing
Agreement. For purposes of calculating the Net Rates of the Mortgage Loans for the first
Distribution Date, the second preceding Due Date with respect to the first Distribution Date will
be the Cut-off Date.
Due Period: With respect to any Distribution Date and each Mortgage Loan, the period
commencing on the second day of the month immediately preceding the month in which such
Distribution Date occurs and ending at the close of business on the first day of the month in
which such Distribution Date occurs.
Eligible Account: Any of (i) a segregated account maintained with a federal or state
chartered depository institution (A) the short-term obligations of which are rated A-l+ or better
by S&P and P-1 by Moody’s at the time of any deposit therein or (B) insured by the FDIC (to the
limits established by such Corporation), the uninsured deposits in which account are otherwise
secured such that, as evidenced by an Opinion of Counsel (obtained by the Person requesting that
the account be held pursuant to this clause (i)(B)) delivered to the Trustee prior to the
establishment of such account, the Certificateholders will have a claim with respect to the funds
in such account and a perfected first priority security interest against any collateral (which shall
be limited to Permitted Investments, each of which shall mature not later than the Business Day
immediately preceding the Distribution Date next following the date of investment in such
collateral, or the Distribution Date (if such Permitted Investment is an obligation of the
institution that maintains the Distribution Account)) securing such funds that is superior to
claims of any other depositors or general creditors of the depository institution with which such
account is maintained, (ii) a segregated trust account or accounts maintained with a federal or
state chartered depository institution or trust company with trust powers acting in its fiduciary
capacity or (iii) a segregated account or accounts of a depository institution acceptable to the
ny-srv01 \COHENS\ 1053167v07\83772.010800

10
conﬁdential

Attachment F - Page 66

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 19 of 230
conﬁdential
A 369

Rating Agencies (as evidenced in writing by the Rating Agencies that use of any such account as
the Distribution Account will not have an adverse effect on the then-current ratings assigned to
the Classes of the Certificates then rated by the respective Rating Agencies). Eligible Accounts
may bear interest.
EMC: EMC Mortgage Corporation and its successor in interest.
EMC AAR: That certain Assignment, Assumption and Recognition Agreement, made
and entered into as of May 31, 2005, among EMC, the Trustee and the Depositor.

EMC Mortgage Loans: The Mortgage Loans listed on the Mortgage Loan Schedule as
being serviced by the EMC Servicer.
EMC Servicer: EMC, in its capacity as servicer hereunder, and its successors and
assigns.
EMC Servicing Agreement: That certain Servicing Agreement, dated as of May 31,
2005, by and between EMC and the Depositor, as attached hereto as Exhibit H-4, as modified
pursuant to the EMC AAR.
ERISA: The Employee Retirement Income Security Act of 1974, as amended.

Event of Default: An event of default described in Section 8.01.
EverHome: EverHome Mortgage Company (formerly known as Alliance Mortgage
Company), and its successor in interest.
EverHome AAR: That certain Assignment, Assumption and Recognition Agreement,
made and entered into as of May 31, 2005, among EMC, the Trustee and EverHome.
EverHome Subservicing Agreement: That certain Subservicing Agreement, dated as of
August 1, 2002, and attached hereto as Exhibit H-l, between EverHome as servicer and EMC as
owner, as modified pursuant to the EverHome AAR.
Excess Liquidation Proceeds: To the extent that such amount is not required by law to be
paid to the related Mortgagor, the amount, if any, by which the sum of any Liquidation Proceeds
with respect to a Liquidated Mortgage Loan received in the calendar month in which such
Mortgage Loan became a Liquidated Mortgage Loan exceeds the sum of (i) the Scheduled
Principal Balance of such Liquidated Mortgage Loan plus (ii) accrued interest at the Mortgage
Interest Rate from the Due Date as to which interest was last paid or advanced (and not
reimbursed) to the related Certificateholders up to the Due Date applicable to the Distribution
Date immediately following the calendar month during which such liquidation occurred plus (iii)
related Liquidation Expenses.
Exchange Act: As defined in Section 3.18.
Fannie Mae: Fannie Mac (also known as Federal National Mortgage Association) or any
successor thereto.
ny-srv0 I\COHENS\1053167v07\83772.010800

11
conﬁdential

Attachment F - Page 67

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 20 of 230
conﬁdential
A 370
FDIC: Federal Deposit Insurance Corporation or any successor thereto.
F&M: F&M Mortgage Company, Inc. and its successor in interest.

Final Certification: The certification substantially in the form of Exhibit Three to the
Custodial Agreement.
First Horizon: First Horizon Home Loan Corporation and its successor in interest.
Fiscal Quarter: December 1 through the last day of February, March 1 through May 31,
June 1 through August 31, or September 1 through November 30, as applicable.

Fractional Undivided Interest: With respect to any Class of Certificates, the fractional
undivided interest evidenced by any Certificate of such Class of Certificates the numerator of
which is the Current Principal Amount, or Notional Amount in the case of the Interest Only
Certificates, of such Certificate and the denominator of which is the Current Principal Amount,
or Notional Amount in the case of the Interest Only Certificates, of such Class of Certificates.
With respect to the Certificates in the aggregate, the fractional undivided interest evidenced by
(i) each Class of Residual Certificates will be deemed to equal 0.25%, (ii) each Class of Interest
Only Certificates will be deemed to equal 1.0% multiplied by a fraction, the numerator of which
is the Notional Amount of such Certificate and the denominator of which is the aggregate
Notional Amount of such respective Class of Certificates and (iii) a Certificate of any other Class
will be deemed to equal 96.25% multiplied by a fraction, the numerator of which is the Current
Principal Amount of such Certificate and the denominator of which is the aggregate Current
Principal Amount of all the Certificates; provided, however, the percentage in clause (iii) above
shall be increased by 1% upon the retirement of each Class of Interest Only Certificates.
Freddie Mac: Freddie Mac (also known as Federal Home Loan Mortgage Corporation),
or any successor thereto.
Global Certificate: Any Private Certificate registered in the name of the Depository or its
nominee, beneficial interests in which are reflected on the books of the Depository or on the
books of a Person maintaining an account with such Depository (directly or as an indirect
participant in accordance with the rules of such depository).
GreenPoint: GreenPoint Mortgage Funding, Inc., and its successor in interest.
Gross Margin: As to each Mortgage Loan, the fixed percentage set forth in the related
Mortgage Note and indicated on the Mortgage Loan Schedule, which percentage is added to the
related Index on each Interest Adjustment Date to determine (subject to rounding, the Minimum
Lifetime Mortgage Rate, the Maximum Lifetime Mortgage Rate and the Periodic Rate Cap) the
Mortgage Interest Rate from such Interest Adjustment Date until the next Interest Adjustment
Date.
Group I Allocation Fraction: With respect to a Distribution Date, a fraction equal to (x)
the Group I Available Funds for such Distribution Date over (ii) the aggregate amount of the
Group I, Group II and Group III Available Funds for such Distribution Date.

ny-srv0 I\COHENS\1053167v07\83772 010800

12
conﬁdential

Attachment F - Page 68

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 21 of 230
conﬁdential
A 371

Group I Available Funds, Group II Available Funds and Group III Available Funds:
With respect to any Distribution Date, an amount equal to the aggregate of the following
amounts with respect to the Mortgage Loans in the related Loan Group: (a) all previously
undistributed payments on account of principal collections on the Mortgage Loans (including the
principal portion of Scheduled Payments, Principal Prepayments and the principal amount of Net
Liquidation Proceeds and Subsequent Recoveries on the Mortgage Loans) and all previously
undistributed payments on account of interest collections on the Mortgage Loans received after
the Cut-off Date and on or prior to the related Determination Date, in each case from the
Mortgage Loans in the related Loan Group, (b) any Monthly Advances and Compensating
Interest Payments by a Servicer or the Master Servicer (or by the Trustee, as successor master
servicer) with respect to such Distribution Date, in each case, in respect of the Mortgage Loans
in the related Loan Group, (c) any other miscellaneous amounts remitted by the Master Servicer
or a Servicer pursuant to the related Servicing Agreement, and (d) any amount reimbursed by the
Master Servicer for such Distribution Date in connection with losses on certain eligible
investments, except:
(i) all payments that were due on or before the Cut-off Date with respect to
the Mortgage Loans in the related Loan Group;
(ii) all Principal Prepayments and Liquidation Proceeds received after the
applicable Prepayment Period;

(iii) all payments, other than Principal Prepayments, that represent early
receipt of Scheduled Payments due on a date or dates subsequent to the related Due Date;
(iv) amounts received on particular Mortgage Loans as late payments of
principal or interest and respecting which, and to the extent that, there are any
unreimbursed Monthly Advances;

(v) amounts representing Monthly Advances determined to be
Nonrecoverable Advances; and
(vi) any investment earnings on amounts on deposit in the Distribution
Account, the Group I Carryover Shortfall Reserve Fund, the Group II Carryover Shortfall
Reserve Fund and the Subordinate Carryover Shortfall Reserve Fund, and amounts
permitted to be withdrawn (other than as a distribution of principal, interest or Carryover
Shortfall Amounts on the related Certificates) from the Distribution Account, the Group I
Carryover Shortfall Reserve Fund, the Group II Carryover Shortfall Reserve Fund and
the Subordinate Carryover Shortfall Reserve Fund, and amounts to pay the Servicing
Fees or to reimburse any Servicer, the Securities Administrator, the Trustee, the
Custodian or the Master Servicer for fees and the related Loan Group’s pro rata share of
reimbursable expenses as are due under the applicable Servicing Agreement, this
Agreement or the Custodial Agreement and that have not been retained by or paid to such
Servicer, the Trustee, the Custodian or the Master Servicer.
Group I Carryover Shortfall: With respect to the Class I-A-1 and Class I-A-2 Certificates
and any Distribution Date for which the respective Pass-Through Rate for such Certificates is

ny-srv0 I\COHENS\1053167v07\83772.010800

13
conﬁdential

Attachment F - Page 69

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 22 of 230
conﬁdential
A 372

equal to the weighted average of the Net Rates on the Group I Mortgage Loans, the excess, if
any, of (x) Accrued Certificate Interest on the Class I-A-1 and Class I-A-2 Certificates for such
Distribution Date, using the lesser of (a) One-Month LIBOR plus the related Margin, as
calculated for such Distribution Date, and (b) 10.50% per annum, over (y) Accrued Certificate
Interest on the Class I-A-1 and Class I-A-2 Certificates, as applicable, for such Distribution Date
at the weighted average of the Net Rates on the Group I Mortgage Loans.
Group I Carryover Shortfall Amount: With respect to the Class I-A-1 and Class I-A-2
Certificates and each Distribution Date, the sum of (a) the aggregate amount of Group I
Carryover Shortfall for such Classes of Certificates on such Distribution Date which is not
covered on such Distribution Date by interest distributions otherwise payable to the Class I-X
Certificates, plus (b) any Group I Carryover Shortfall Amount for such Classes of Certificates
remaining unpaid from the preceding Distribution Date, plus (c) one month’s interest on the
amount in clause (b) (based on the number of days in the preceding Interest Accrual Period) at a
rate equal to the lesser of (i) One-Month LIBOR plus the related Margin for such Distribution
Date and (ii) 10.50% per annum.
Group I Carryover Shortfall Reserve Fund: An "outside reserve fund" within the
meaning of Treasury Regulation Section 1.860G-2(h), which is not an asset of any REMIC,
ownership of which is evidenced by the Class I-X Certificates, and which is established and
maintained pursuant to Section 4.04.
Group I Mortgage Loans: The Mortgage Loans identified as such on the Mortgage Loan
Schedule.
Group I Senior Certificates: The Class I-A-1 Certificates, the Class I-A-2 Certificates,
the Class I-X Certificates, the Class R-I Certificates, the Class R-II Certificates and the Class RIII Certificates.
Group II Allocation Fraction: With respect to a Distribution Date, a fraction equal to (x)
the Group II Available Funds for such Distribution Date over (ii) the aggregate amount of the
Group I Available Funds, Group II Available Funds and Group III Available Funds for such
Distribution Date.
Group II Carryover Shortfall: With respect to the Class II-A-1, Class II-A-2 and Class IIA-3 Certificates and any Distribution Date for which the respective Pass-Through Rate for such
Certificates is equal to the weighted average of the Net Rates on the Group II Mortgage Loans,
the excess, if any, of (x) Accrued Certificate Interest on the Class II-A-1, Class II-A-2 and
Class II-A-3 Certificates for such Distribution Date, using the lesser of (a) One-Month LIBOR
plus the related Margin, as calculated for such Distribution Date, and (b) 10.50% per annum,
over (y) Accrued Certificate Interest on the Class II-A-1, Class II-A-2 and Class II-A-3
Certificates for such Distribution Date at the weighted average of the Net Rates on the Group II
Mortgage Loans.
Group II Carryover Shortfall Amount: With respect to the Class II-A-1, Class II-A-2,
and Class II-A-3 Certificates and each Distribution Date, the sum of (a) the aggregate amount of
Group II Carryover Shortfall for such Classes of Certificates on such Distribution Date which is

ny-srv01\COHENS\1053167v07\83772.010800

14
conﬁdential

Attachment F - Page 70

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 23 of 230
conﬁdential
A 373
not covered on such Distribution Date by interest distributions otherwise payable to the Class IIX Certificates, plus (b) any Group II Carryover Shortfall Amount for such Classes of Certificates
remaining unpaid from the preceding Distribution Date, plus (c) one month’s interest on the
amount in clause (b) (based on the number of days in the preceding Interest Accrual Period) at a
rate equal to the lesser of (i) One-Month LIBOR plus the related Margin for such Distribution
Date and (ii) 10.50% per annum.
Group II Carryover Shortfall Reserve Fund: An "outside reserve fund" within the
meaning of Treasury Regulation Section 1.860G-2(h), which is not an asset of any REMIC,
ownership of which is evidenced by the Class II-X Certificates, and which is established and
maintained pursuant to Section 4.05.
Group II Mortgage Loans: The Mortgage Loans identified as such on the Mortgage Loan
Schedule.

Group II Senior Certificates: The Class II-A-1 Certificates, the Class II-A-2 Certificates,
the Class II-A-3 Certificates and the Class II-X Certificates.
Group III Allocation Fraction: With respect to a Distribution Date, a fraction equal to (x)
the Group III Available Funds for such Distribution Date over (ii) the aggregate amount of the
Group I Available Funds, Group II Available Funds and Group III Available Funds for such
Distribution Date.
Group III Mortgage Loans: The Mortgage Loans identified as such on the Mortgage
Loan Schedule.
Group lII Senior Certificates: The Class III-A-1 Certificates and the Class III-A-2
Certificates.

Group I Senior Optimal Principal Amount, Group II Senior Optimal Principal Amount
and Group III Senior Optimal Principal Amount: With respect to each Distribution Date and the
Group I Senior Certificates (other than the Residual Certificates), the Group II Senior
Certificates and the Group III Senior Certificates, respectively, an amount equal to the sum,
without duplication, of the following (after giving effect to the application of such amounts to
cover Deferred Interest on the Group I Mortgage Loans, the Group II Mortgage Loans and the
Group III Mortgage Loans, respectively, but in no event greater than the aggregate Current
Principal Amount of the Group I Senior Certificates (other than the Residual Certificates), the
Group II Senior Certificates and the Group III Senior Certificates, as applicable, immediately
prior to such Distribution Date):
(1) the applicable Senior Percentage of all scheduled payments of principal
allocated to the Scheduled Principal Balance due on each Outstanding Mortgage Loan in the
related Loan Group on the related Due Date as specified in the amortization schedule at the time
applicable thereto (after adjustments for previous Principal Prepayments but before any
adjustment to such amortization schedule by reason of any bankruptcy or similar proceeding or
any moratorium or similar waiver or grace period, if the Distribution Date occurs prior to the
Cross-over Date);

ny-srv0 I\COHENS\1053167v07\83772.010800

15
conﬁdential

Attachment F - Page 71

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 24 of 230
conﬁdential
A 374

(2) the applicable Senior Prepayment Percentage of the Scheduled Principal
Balance of each Mortgage Loan in the related Loan Group which was the subject of a Principal
Prepayment in full received by the Master Servicer during the related Prepayment Period;
(3) the applicable Senior Prepayment Percentage of all Principal Prepayments
in part received by the Master Servicer during the related Prepayment Period with respect to each
Mortgage Loan in the related Loan Group;
(4) the lesser of (a) the applicable Senior Prepayment Percentage of the sum
of (i) all Net Liquidation Proceeds allocable to principal received in respect of each Mortgage
Loan in the related Loan Group which became a Liquidated Mortgage Loan during the related
Prepayment Period (other than Mortgage Loans described in the immediately following clause
(ii)) and all Subsequent Recoveries received in respect of each Liquidated Mortgage Loan in the
related Loan Group during the related Due Period and (ii) the Scheduled Principal Balance of
each such Mortgage Loan in the related Loan Group purchased by an insurer from the Trustee
during the related Prepayment Period pursuant to the related Primary Mortgage Insurance Policy,
if any, or otherwise; and (b) the applicable Senior Percentage of the sum of (i) the Scheduled
Principal Balance of each Mortgage Loan in the related Loan Group which became a Liquidated
Mortgage Loan during the related Prepayment Period (other than the Mortgage Loans described
in the immediately following clause (ii)) and all Subsequent Recoveries received in respect of
each Liquidated Mortgage Loan in the related Loan Group during the related Due Period and (ii)
the Scheduled Principal Balance of each such Mortgage Loan in the related Loan Group that was
purchased by an insurer from the Trustee during the related Prepayment Period pursuant to the
related Primary Mortgage Insurance Policy, if any or otherwise; and
(5) the applicable Senior Prepayment Percentage of the sum of (a) the
Scheduled Principal Balance of each Mortgage Loan in the related Loan Group which was
repurchased by the Seller in connection with such Distribution Date and (b) the excess, if any, of
the Scheduled Principal Balance of a Mortgage Loan in the related Loan Group that has been
replaced by the Seller with a Substitute Mortgage Loan pursuant to the Agreement or the
Mortgage Loan Purchase Agreement in connection with such Distribution Date over the
Scheduled Principal Balance of such Substitute Mortgage Loan.
Group I Senior Percentage: Initially, 92.20%. On any Distribution Date, the lesser of (i)
100% and (ii) the percentage (carried to six places rounded up) obtained by dividing the
aggregate Current Principal Amount of the Group I Senior Certificates (other than the Residual
Certificates) immediately preceding such Distribution Date by the sum of the aggregate
Scheduled Principal Balance of the Group I Mortgage Loans as of the beginning of the related
Due Period.

Group II Senior Percentage: Initially, 92.20%. On any Distribution Date, the lesser of (i)
100% and (ii) the percentage (carried to six places rounded up) obtained by dividing the
aggregate Current Principal Amount of the Group II Senior Certificates immediately preceding
such Distribution Date by the sum of the aggregate Scheduled Principal Balance of the Group II
Mortgage Loans as of the beginning of the related Due Period.

ny-srv0 I\COHENS\1053167v07\83772 010800

16
conﬁdential

Attachment F - Page 72

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 25 of 230
conﬁdential
A 375
Group III Senior Percentage: Initially, 92.20%. On any Distribution Date, the lesser of
(i) 100% and (ii) the percentage (carried to six places rounded up) obtained by dividing the
aggregate Current Principal Amount of the Group III Senior Certificates immediately preceding
such Distribution Date by the sum of the aggregate Scheduled Principal Balance of the Group III
Mortgage Loans as of the beginning of the related Due Period.

Group I Senior Prepayment Percentage: The Senior Prepayment Percentage for Group I
Senior Certificates (other than the Residual Certificates) on any Distribution Date occurring
during the periods set forth below will be as follows:
Period (dates inclusive)
June 25, 2005 - May 25, 2015

Group I Senior Prepayment Percentage
100%

June 25, 2015 - May 25, 2016

Group I Senior Percentage plus 70% of the
Group I Subordinate Percentage

June 25,2016 -May25,2017

Group I Senior Percentage plus 60% of the
Group I Subordinate Percentage

June 25, 2017 -May25, 2018

Group I Senior Percentage plus 40% of the
Group I Subordinate Percentage

June 25,2018 -May25, 2019

Group I Senior Percentage plus 20% of the
Group I Subordinate Percentage

June 25, 2019 and thereafter

Group I Senior Percentage

In addition, no reduction of the Group I Senior Prepayment Percentage shall occur on any
Distribution Date unless, as of the last day of the month preceding such Distribution Date, (A)
the aggregate Scheduled Principal Balance of the Mortgage Loans delinquent 60 days or more
(including for this purpose any such Mortgage Loans in foreclosure and Mortgage Loans with
respect to which the related Mortgaged Property has been acquired by the Trust), averaged over
the last six months, as a percentage of the sum of the aggregate Current Principal Amount of the
Subordinate Certificates, does not exceed 50%; and (B) cumulative Realized Losses on the
Mortgage Loans do not exceed (a) 30% of the Original Subordinate Principal Balance if such
Distribution Date occurs between and including June 2015 and May 2016, (b) 35% of the
Original Subordinate Principal Balance if such Distribution Date occurs between and including
June 2016 and May 2017, (c) 40% of the Original Subordinate Principal Balance if such
Distribution Date occurs between and including June 2017 and May 2018, (d) 45% of the
Original Subordinate Principal Balance if such Distribution Date occurs between and including
June 2018 and May 2019, and (e) 50% of the Original Subordinate Principal Balance if such
Distribution Date occurs during or after June 2019.
In addition, if on any Distribution Date after the Distribution Date occurring in May 2008
the current weighted average of the Subordinate Percentages is equal to or greater than two times
the initial weighted average of the Subordinate Percentages and (a) the aggregate Scheduled
Principal Balances of the Mortgage Loans delinquent 60 days or more (including for this purpose
any such Mortgage Loans in foreclosure and such Mortgage Loans with respect to which the
related Mortgaged Property has been acquired by the Trust), averaged over the last six months,
as a percentage of the sum of the aggregate Current Principal Amount of the Subordinate
ny-srv0 I\COHENS\ 1053167v07\83772 010800

17
conﬁdential

Attachment F - Page 73

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 26 of 230
conﬁdential
A 376
Certificates, does not exceed 50% and (b)(i) on or prior to the Distribution Date in May 2008,
cumulative Realized Losses on the Mortgage Loans as of the end of the related Prepayment
Period do not exceed 20% of the Original Subordinate Principal Balance and (ii) after the
Distribution Date in May 2008, cumulative Realized Losses on the Mortgage Loans as of the end
of the related Prepayment Period do not exceed 30% of the Original Subordinate Principal
Balance, then, in each case, the Group I Senior Prepayment Percentage for such Distribution
Date will equal the Group I Senior Percentage; provided, however, if on a Distribution Date prior
to the Distribution Date in May 2008 the current Subordinate Percentage is equal to or greater
than two times the initial Subordinate Percentage for the Group I Senior Certificates and the
above delinquency and loss tests are met, then the Group I Senior Prepayment Percentage for
such Distribution Date will equal the Group I Senior Percentage plus 50% of the Group I
Subordinate Percentage.
Notwithstanding the foregoing, if on any Distribution Date, the percentage, the numerator
of which is the aggregate Current Principal Amount of the Group I Senior Certificates (other
than the Residual Certificates) immediately preceding such Distribution Date, and the
denominator of which is the sum of the aggregate Scheduled Principal Balance of the Group I
Mortgage Loans as of the beginning of the related Due Period, exceeds such percentage as of the
Cut-off Date, then the Senior Prepayment Percentage with respect to the Group I Senior
Certificates (other than the Residual Certificates) for such Distribution Date will equal 100%.
Group II Senior Prepayment Percentage: The Senior Prepayment Percentage for the
Group II Senior Certificates on any Distribution Date occurring during the periods set forth
below will be as follows:

Period (dates inclusive)
June 25, 2005 - May 25, 2015

Group II Senior Prepayment Percentage

June 25,2015 -May25,2016

Group II Senior Percentage plus 70% of the
Group II Subordinate Percentage

June 25, 2016 -May25, 2017

Group II Senior Percentage plus 60% of the
Group II Subordinate Percentage

June 25,2017 -May25, 2018

Group II Senior Percentage plus 40% of the
Group II Subordinate Percentage

June 25, 2018 -May25, 2019

Group II Senior Percentage plus 20% of the
Group II Subordinate Percentage

June 25, 2019 and thereafter

Group II Senior Percentage

100%

In addition, no reduction of the Group II Senior Prepayment Percentage shall occur on
any Distribution Date unless, as of the last day of the month preceding such Distribution Date,
(A) the aggregate Scheduled Principal Balance of the Mortgage Loans delinquent 60 days or
more (including for this purpose any such Mortgage Loans in foreclosure and Mortgage Loans
with respect to which the related Mortgaged Property has been acquired by the Trust), averaged
over the last six months, as a percentage of the sum of the aggregate Current Principal Amount
of the Subordinate Certificates, does not exceed 50%; and (B) cumulative Realized Losses on the
Mortgage Loans do not exceed (a) 30% of the Original Subordinate Principal Balance if such
ny-srv0 I\COHENS\1053167v07\83772.010800

18
conﬁdential

Attachment F - Page 74

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 27 of 230
conﬁdential
A 377

Distribution Date occurs between and including June 2015 and May 2016, (b) 35% of the
Original Subordinate Principal Balance if such Distribution Date occurs between and including
June 2016 and May 2017, (c) 40% of the Original Subordinate Principal Balance if such
Distribution Date occurs between and including June 2017 and May 2018, (d) 45% of the
Original Subordinate Principal Balance if such Distribution Date occurs between and including
June 2018 and May 2019, and (e) 50% of the Original Subordinate Principal Balance if such
Distribution Date occurs during or after June 2019.
In addition, if on any Distribution Date after the Distribution Date occurring in May 2008
the current weighted average of the Subordinate Percentages is equal to or greater than two times
the initial weighted average of the Subordinate Percentages, and (a) the aggregate Scheduled
Principal Balance of the Mortgage Loans delinquent 60 days or more (including for this purpose
any such Mortgage Loans in foreclosure and such Mortgage Loans with respect to which the
related Mortgaged Property has been acquired by the Trust), averaged over the last six months,
as a percentage of the sum of the aggregate Current Principal Amount of the Subordinate
Certificates, does not exceed 50% and (b)(i) on or prior to the Distribution Date in May 2008,
cumulative Realized Losses on the Mortgage Loans as of the end of the related Prepayment
Period do not exceed 20% of the Original Subordinate Principal Balance and (ii) after the
Distribution Date in May 2008, cumulative Realized Losses on the Mortgage Loans as of the end
of the related Prepayment Period do not exceed 30% of the Original Subordinate Principal
Balance, then, in each case, the Group II Senior Prepayment Percentage for such Distribution
Date will equal the Group II Senior Percentage; provided, however, if on a Distribution Date
prior to the Distribution Date in May 2008 the current Subordinate Percentage is equal to or
greater than two times the initial Subordinate Percentage for the Group II Senior Certificates and
the above delinquency and loss tests are met, then the Group II Senior Prepayment Percentage
for such Distribution Date will equal the Group II Senior Percentage plus 50% of the Group II
Subordinate Percentage.

Notwithstanding the foregoing, if on any Distribution Date, the percentage, the numerator
of which is the aggregate Current Principal Amount of the Group II Senior Certificates
immediately preceding such Distribution Date, and the denominator of which is the sum of the
aggregate Scheduled Principal Balance of the Group II Mortgage Loans as of the beginning of
the related Due Period, exceeds such percentage as of the Cut-off Date, then the Senior
Prepayment Percentage with respect to the Group II Senior Certificates for such Distribution
Date will equal 100%.
Group III Senior Prepayment Percentage: The Senior Prepayment Percentage for the
Group III Senior Certificates on any Distribution Date occurring during the periods set forth
below will be as follows:

Period (dates inclusive)
June 25, 2005 - May 25, 2015
June 25, 2015 -May25, 2016

Group II Senior Prepayment Percentage
100%

June 25, 2016 -May25, 2017

Group III Senior Percentage plus 60% of the
Group III Subordinate Percentage

ny-srv01\COHENS\1053167v07\83772.010800

Group III Senior Percentage plus 70% of the
Group III Subordinate Percentage

19
conﬁdential

Attachment F - Page 75

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 28 of 230
conﬁdential
A 378

June 25, 2017 -May25, 2018

Group III Senior Percentage plus 40% of the
Group III Subordinate Percentage

June 25, 2018 -May25,2019

Group III Senior Percentage plus 20% of the
Group III Subordinate Percentage
Group III Senior Percentage

June 25, 2019 and thereafter

In addition, no reduction of the Group III Senior Prepayment Percentage shall occur on
any Distribution Date unless, as of the last day of the month preceding such Distribution Date,
(A) the aggregate Scheduled Principal Balance of the Mortgage Loans delinquent 60 days or
more (including for this purpose any such Mortgage Loans in foreclosure and Mortgage Loans
with respect to which the related Mortgaged Property has been acquired by the Trust), averaged
over the last six months, as a percentage of the sum of the aggregate Current Principal Amount
of the Subordinate Certificates, does not exceed 50%; and (B) cumulative Realized Losses on the
Mortgage Loans do not exceed (a) 30% of the Original Subordinate Principal Balance if such
Distribution Date occurs between and including June 2015 and May 2016, (b) 35% of the
Original Subordinate Principal Balance if such Distribution Date occurs between and including
June 2016 and May 2017, (c) 40% of the Original Subordinate Principal Balance if such
Distribution Date occurs between and including June 2017 and May 2018, (d) 45% of the
Original Subordinate Principal Balance if such Distribution Date occurs between and including
June 2018 and May 2019, and (e) 50% of the Original Subordinate Principal Balance if such
Distribution Date occurs during or after June 2019.
In addition, if on any Distribution Date after the Distribution Date occurring in May 2008
the current weighted average of the Subordinate Percentages is equal to or greater than two times
the initial weighted average of the Subordinate Percentages, and (a) the aggregate Scheduled
Principal Balance of the Mortgage Loans delinquent 60 days or more (including for this purpose
any such Mortgage Loans in foreclosure and such Mortgage Loans with respect to which the
related Mortgaged Property has been acquired by the Trust), averaged over the last six months,
as a percentage of the sum of the aggregate Current Principal Amount of the Subordinate
Certificates, does not exceed 50% and (b)(i) on or prior to the Distribution Date in May 2008,
cumulative Realized Losses on the Mortgage Loans as of the end of the related Prepayment
Period do not exceed 20% of the Original Subordinate Principal Balance and (ii) after the
Distribution Date in May 2008, cumulative Realized Losses on the Mortgage Loans as of the end
of the related Prepayment Period do not exceed 30% of the Original Subordinate Principal
Balance, then, in each case, the Group III Senior Prepayment Percentage for such Distribution
Date will equal the Group III Senior Percentage; provided, however, if on a Distribution Date
prior to the Distribution Date in May 2008 the current Subordinate Percentage is equal to or
greater than two times the initial Subordinate Percentage for the Group III Senior Certificates
and the above delinquency and loss tests are met, then the Group III Senior Prepayment
Percentage for such Distribution Date will equal the Group III Senior Percentage plus 50% of the
Group II1 Subordinate Percentage.
Notwithstanding the foregoing, if on any Distribution Date, the percentage, the numerator
of which is the aggregate Current Principal Amount of the Group III Senior Certificates
immediately preceding such Distribution Date, and the denominator of which is the aggregate
Scheduled Principal Balance of the Group III Mortgage Loans as of the beginning of the related
ny-srv0 I\COHENS\1053167v07\83772.010800

20
conﬁdential

Attachment F - Page 76

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 29 of 230
conﬁdential
A 379

Due Period, exceeds such percentage as of the Cut-off Date, then the Senior Prepayment
Percentage with respect to the Group III Senior Certificates for such Distribution Date will equal
100%.
Group I Subordinate Optimal Principal Amount: With respect to the Group I Subordinate
Certificates and each Distribution Date will be an amount equal to the sum of the following from
Loan Group I (after giving effect to the application of such amounts to cover Deferred Interest on
the Mortgage Loans, but in no event greater than the aggregate Current Principal Amount of the
Group I Subordinate Certificates immediately prior to such Distribution Date):
(1) the Group I Subordinate Percentage of the principal portion of all Monthly
Payments due on each Mortgage Loan in Loan Group I on the related Due Date, as specified in
the amortization schedule at the time applicable thereto (after adjustment for previous Principal
Prepayments but before any adjustment to such amortization schedule by reason of any
bankruptcy or similar proceeding or any moratorium or similar waiver or grace period);
(2) the Group I Subordinate Prepayment Percentage of the Scheduled
Principal Balance of each Mortgage Loan in Loan Group I which was the subject of a
prepayment in full received by the Master Servicer during the applicable Prepayment Period;
(3) the Group I Subordinate Prepayment Percentage of all partial prepayments
of principal received by the Master Servicer during the applicable Prepayment Period for each
Mortgage Loan in Loan Group I;

(4) the excess, if any, of (a)the Net Liquidation Proceeds allocable to
principal received in respect of each Mortgage Loan in Loan Group I that became a Liquidated
Mortgage Loan in Loan Group I during the related Prepayment Period and all Subsequent
Recoveries received in respect of each Liquidated Mortgage Loan in Loan Group I during the
related Due Period over (b)the sum of the amounts distributable to the holders of the Group I
Senior Certificates on such Distribution Date pursuant to clause (4) of the definition of "Senior
Optimal Principal Amount";
(5) the Group I Subordinate Prepayment Percentage of the sum of (a)the
Scheduled Principal Balance of each Mortgage Loan or related REO Property in Loan Group I
which was repurchased by the Seller in connection with such Distribution Date and (b)the
amount, if any, by which the Scheduled Principal Balance of a Mortgage Loan in Loan Group I
that has been replaced by the Seller with a substitute Mortgage Loan pursuant to the Agreement
or the Mortgage Loan Purchase Agreement in connection with such Distribution Date exceeds
the Scheduled Principal Balance of such substitute Mortgage Loan; and
(6) on the Distribution Date on which the Current Principal Amounts of the
Group I Senior Certificates (other than the Residual Certificates) have all been reduced to zero,
100% of any applicable Senior Optimal Principal Amount.

After the aggregate Current Principal Amount of the Group I Subordinate Certificates has
been reduced to zero, the Group I Subordinate Optimal Principal Amount will be zero.

ny-srv0 I\COHENS\1053167v07\83772.010800

21
conﬁdential

Attachment F - Page 77

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 30 of 230
conﬁdential
A 380

Group II Subordinate Optimal Principal Amount: With respect to the Group II
Subordinate Certificates and each Distribution Date will be an amount equal to the sum of the
following from Loan Group II (after giving effect to the application of such amounts to cover
Deferred Interest on the Mortgage Loans, but in no event greater than the aggregate Current
Principal Amount of the Group II Subordinate Certificates immediately prior to such Distribution
Date):
(1) the Group lI Subordinate Percentage of the principal portion of all
Monthly Payments due on each Mortgage Loan in Loan Group II on the related Due Date, as
specified in the amortization schedule at the time applicable thereto (after adjustment for
previous Principal Prepayments but before any adjustment to such amortization schedule by
reason of any bankruptcy or similar proceeding or any moratorium or similar waiver or grace
period);
(2) the Group II Subordinate Prepayment Percentage of the Scheduled
Principal Balance of each Mortgage Loan in Loan Group II which was the subject of a
prepayment in full received by the Master Servicer during the applicable Prepayment Period;
(3) the Group II Subordinate Prepayment Percentage of all partial
prepayments of principal received by the Master Servicer during the applicable Prepayment
Period for each Mortgage Loan in Loan Group II;

(4) the excess, if any, of (a)the Net Liquidation Proceeds allocable to
principal received in respect of each Mortgage Loan in Loan Group II that became a Liquidated
Mortgage Loan in Loan Group II during the related Prepayment Period and all Subsequent
Recoveries received in respect of each Liquidated Mortgage Loan in Loan Group II during the
related Due Period over (b) the sum of the amounts distributable to the holders of the Group II
Senior Certificates on such Distribution Date pursuant to clause (4) of the definition of "Senior
Optimal Principal Amount";
(5) the Group II Subordinate Prepayment Percentage of the sum of (a) the
Scheduled Principal Balance of each Mortgage Loan or related REO Property in Loan Group II
which was repurchased by the Seller in connection with such Distribution Date and (b)the
amount, if any, by which the Scheduled Principal Balance of a Mortgage Loan in Loan Group II
that has been replaced by the Seller with a substitute Mortgage Loan pursuant to the Agreement
or the Mortgage Loan Purchase Agreement in connection with such Distribution Date exceeds
the Scheduled Principal Balance of such substitute Mortgage Loan; and
(6) on the Distribution Date on which the Current Principal Amounts of the
Group II Senior Certificates (other than the Residual Certificates) have all been reduced to zero,
100% of any applicable Senior Optimal Principal Amount.

After the aggregate Current Principal Amount of the Group II Subordinate Certificates
has been reduced to zero, the Group II Subordinate Optimal Principal Amount will be zero.
Group III Subordinate Optimal Principal Amount: With respect to the Group III
Subordinate Certificates and each Distribution Date will be an amount equal to the sum of the
following from Loan Group III (after giving effect to the application of such amounts to cover
ny-srv0 I\COHENS\1053167v07\83772.010800

22
conﬁdential

Attachment F - Page 78

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 31 of 230
conﬁdential
A 381

Deferred Interest on the Mortgage Loans, but in no event greater than the aggregate Current
Principal Amount of the Group III Subordinate Certificates immediately prior to such
Distribution Date):
(1) the Group III Subordinate Percentage of the principal portion of all
Monthly Payments due on each Mortgage Loan in Loan Group III on the related Due Date, as
specified in the amortization schedule at the time applicable thereto (after adjustment for
previous Principal Prepayments but before any adjustment to such amortization schedule by
reason of any bankruptcy or similar proceeding or any moratorium or similar waiver or grace
period);

(2) the Group III Subordinate Prepayment Percentage of the Scheduled
Principal Balance of each Mortgage Loan in Loan Group III which was the subject of a
prepayment in full received by the Master Servicer during the applicable Prepayment Period;
(3) the Group III Subordinate Prepayment Percentage of all partial
prepayments of principal received by the Master Servicer during the applicable Prepayment
Period for each Mortgage Loan in Loan Group III;
(4) the excess, if any, of (a)the Net Liquidation Proceeds allocable to
principal received in respect of each Mortgage Loan in Loan Group III that became a Liquidated
Mortgage Loan in Loan Group III during the related Prepayment Period and all Subsequent
Recoveries received in respect of each Liquidated Mortgage Loan in Loan Group III during the
related Due Period over (b) the sum of the amounts distributable to the holders of the Group III
Senior Certificates on such Distribution Date pursuant to clause (4) of the definition of "Senior
Optimal Principal Amount";
(5) the Group III Subordinate Prepayment Percentage of the sum of (a)the
Scheduled Principal Balance of each Mortgage Loan or related REO Property in Loan Group III
which was repurchased by the Seller in connection with such Distribution Date and (b)the
amount, if any, by which the Scheduled Principal Balance of a Mortgage Loan in Loan Group III
that has been replaced by the Seller with a substitute Mortgage Loan pursuant to the Agreement
or the Mortgage Loan Purchase Agreement in connection with such Distribution Date exceeds
the Scheduled Principal Balance of such substitute Mortgage Loan; and
(6) on the Distribution Date on which the Current Principal Amounts of the
Group III Senior Certificates (other than the Residual Certificates) have all been reduced to zero,
100% of any applicable Senior Optimal Principal Amount.

After the aggregate Current Principal Amount of the Group III Subordinate Certificates
has been reduced to zero, the Group III Subordinate Optimal Principal Amount will be zero.
Group I Subordinate Percentage: With respect to the Group I Mortgage Loans, on any
Distribution Date, 100% minus the Group I Senior Percentage.

Group II Subordinate Percentage: With respect to the Group II Mortgage Loans, on any
Distribution Date, 100% minus the Group II Senior Percentage.

ny-srv01 \COHENS\1053167v07\83772.010800

23
conﬁdential

Attachment F - Page 79

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 32 of 230
conﬁdential
A 382

Group III Subordinate Percentage: With respect to the Group III Mortgage Loans, on any
Distribution Date, 100% minus the Group III Senior Percentage.
Group I Subordinate Prepayment Percentage: For the Subordinate Certificates and with
respect to Loan Group I, on any Distribution Date, 100% minus the Group I Senior Prepayment
Percentage, except that on any Distribution Date after the aggregate Current Principal Amount of
the Group I Senior Certificates (other than the Residual Certificates) has been reduced to zero,
the Group I Subordinate Prepayment Percentage for the Subordinate Certificates with respect to
Loan Group I will equal 100%.
Group II Subordinate Prepayment Percentage: For the Subordinate Certificates and with
respect to Loan Group II, on any Distribution Date, 100% minus the Group II Senior Prepayment
Percentage, except that on any Distribution Date after the aggregate Current Principal Amount of
the Group II Senior Certificates has been reduced to zero, the Group II Subordinate Prepayment
Percentage for the Subordinate Certificates with respect to Loan Group II will equal 100%.
Group III Subordinate Prepayment Percentage: For the Subordinate Certificates and with
respect to Loan Group III, on any Distribution Date, 100% minus the Group III Senior
Prepayment Percentage, except that on any Distribution Date after the aggregate Current
Principal Amount of the Group III Senior Certificates has been reduced to zero, the Group III
Subordinate Prepayment Percentage for the Subordinate Certificates with respect to Loan
Group III will equal 100%.
Holder: The Person in whose name a Certificate is registered in the Certificate Register,
except that, subject to Subsections 11.02(b) and 11.05(e), solely for the purpose of giving any
consent pursuant to this Agreement, any Certificate registered in the name of the Depositor, the
Master Servicer or the Trustee or any Affiliate thereof shall be deemed not to be outstanding and
the Fractional Undivided Interest evidenced thereby shall not be taken into account in
determining whether the requisite percentage of Fractional Undivided Interests necessary to
effect any such consent has been obtained.
Indemnified Persons: The Trustee, the Master Servicer, the Custodian and the Securities
Administrator and their respective officers, directors, agents and employees and, with respect to
the Trustee, any separate co-trustee and its officers, directors, agents and employees.
Independent: When used with respect to any specified Person, this term means that such
Person (a) is in fact independent of the Depositor or the Master Servicer and of any Affiliate of
the Depositor or the Master Servicer, (b) does not have any direct financial interest or any
material indirect financial interest in the Depositor or the Master Servicer or any Affiliate of the
Depositor or the Master Servicer and (c) is not connected with the Depositor or the Master
Servicer or any Affiliate of the Depositor or the Master Servicer as an officer, employee,
promoter, underwriter, trustee, partner, director or person performing similar functions.
Index: The index, if any, specified in a Mortgage Note by reference to which the related
Mortgage Interest Rate will be adjusted from time to time.
Individual Certificate: Any Private Certificate registered in the name of the Holder other
than the Depository or its nominee.
ny-srv0 I\COHENS\ 1053167v07\83772 010800

24
conﬁdential

Attachment F - Page 80

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 33 of 230
conﬁdential
A 383

Initial Certification: The certification substantially in the form of Exhibit One to the
Custodial Agreement.
Institutional Accredited Investor: Any Person meeting the requirements of Rule
501(a)(1), (2), (3) or (7) of Regulation D under the Securities Act or any entity all of the equity
holders in which come within such paragraphs.

Insurance Policy: With respect to any Mortgage Loan, any standard hazard insurance
policy, flood insurance policy or title insurance policy.
Insurance Proceeds: Amounts paid by the insurer under any Insurance Policy covering
any Mortgage Loan or Mortgaged Property, other than amounts required to be paid over to the
Mortgagor pursuant to law or the related Mortgage Note or Security Instrument, and other than
amounts used to repair or restore the Mortgaged Property or to reimburse insured expenses,
including the related Servicer’s costs and expenses incurred in connection with presenting claims
under the related Insurance Policies.
Interest Accrual Period: With respect to each Distribution Date, for each Class of
Certificates (other than the Residual Certificates and the Adjustable Rate Certificates), the
calendar month preceding the month in which such Distribution Date occurs. With respect to
each Distribution Date and the Adjustable Rate Certificates, the period commencing on the 25th
day of the preceding calendar month (or in the case of the first Distribution Date, the Closing
Date), to the 24th day of the month of that Distribution Date. The Residual Certificates shall not
bear interest.
Interest Adjustment Date: With respect to a Mortgage Loan, the date, if any, specified in
the related Mortgage Note on which the Mortgage Interest Rate is subject to adjustment.
Interest Determination Date: With respect to each Distribution Date and the Adjustable
Rate Certificates, the second LIBOR Business Day immediately preceding the commencement of
the related Interest Accrual Period.

Interest Only Certificates: The Class I-X Certificates, the Class II-X Certificates and the
Class M-X Certificates.
Interest Shortfall: With respect to any Distribution Date and each Mortgage Loan that
during the related Prepayment Period was the subject of a Principal Prepayment or constitutes a
Relief Act Mortgage Loan, an amount determined as follows:
(a) Partial Principal Prepayments received during the relevant Prepayment Period:
The difference between (i) one month’s interest at the applicable Net Rate on the amount of such
prepayment and (ii) the amount of interest for the calendar month of such prepayment (adjusted
to the applicable Net Rate) received at the time of such prepayment;

(b) Principal Prepayments in full received during the relevant Prepayment Period:
The difference between (i) one month’s interest at the applicable Net Rate on the Scheduled
Principal Balance of such Mortgage Loan immediately prior to such prepayment and (ii) the

ny-srv0 I\COHENS\1053167v07\83772.010800

25
conﬁdential

Attachment F - Page 81

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 34 of 230
conﬁdential
A 384
amount of interest for the calendar month of such prepayment (adjusted to the applicable Net
Rate) received at the time of such prepayment; and

(c) Relief Act Mortgage Loans: As to any Relief Act Mortgage Loan, the excess of
(i) 30 days’ interest (or, in the case of a Principal Prepayment in full, interest to the date of
prepayment) on the Scheduled Principal Balance thereof (or, in the case of a Principal
Prepayment in part, on the amount so prepaid) at the related Net Rate over (ii) 30 days’ interest
(or, in the case of a Principal Prepayment in full, interest to the date of prepayment) on such
Scheduled Principal Balance (or, in the case of a Principal Prepayment in part, on the amount so
prepaid) at the Net Rate required to be paid by the Mortgagor as limited by application of the
Relief Act or similar state laws.
Interim Certification: The certification substantially in the form of Exhibit Two to the
Custodial Agreement.
Investment Letter: The letter to be furnished by each Institutional Accredited Investor
which purchases any of the Private Certificates in connection with such purchase, substantially in
the form set forth as Exhibit F-1 hereto.

Lender-Paid PMI Rate: With respect to any Mortgage Loan covered by a lender-paid
Primary Mortgage Insurance Policy, the premium to be paid by the applicable Servicer out of
interest collections on the related Mortgage Loan, as stated in the Mortgage Loan Schedule.
LIBOR: With respect to any Distribution Date, the arithmetic mean of the London
interbank offered rate quotations for one-month U.S. dollar deposits, expressed on a per annum
basis, determined in accordance with Section 1.02.
LIBOR Business Day: A day on which banks are open for dealing in foreign currency
and exchange in London, England and New York City.
Liquidated Mortgage Loan: With respect to any Distribution Date, a defaulted Mortgage
Loan that has been liquidated through deed-in-lieu of foreclosure, foreclosure sale, trustee’s sale
or other realization as provided by applicable law governing the real property subject to the
related Mortgage and any security agreements and as to which the related Servicer has certified
(in accordance with Section 3.07) in the related Prepayment Period that it has received all
amounts it expects to receive in connection with such liquidation.
Liquidation Date: With respect to any Liquidated Mortgage Loan, the date on which the
related Servicer has certified that such Mortgage Loan has become a Liquidated Mortgage Loan.
Liquidation Expenses: With respect to a Mortgage Loan in liquidation, unreimbursed
expenses paid or incurred by or for the account of the related Servicer or the Master Servicer in
connection with the liquidation of such Mortgage Loan and the related Mortgaged Property, such
expenses including (a) property protection expenses, (b) property sales expenses, (c) foreclosure
and sale costs, including court costs and reasonable attorneys’ fees, and (d) similar expenses
reasonably paid or incurred in connection with the liquidation of a Mortgage Loan.

ny-srv01\COHENS\1053167v07\83772.010800

26
conﬁdential

Attachment F - Page 82

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 35 of 230
conﬁdential
A 385

Liquidation Proceeds: Amounts received by the related Servicer in connection with the
liquidation of a defaulted Mortgage Loan, whether through trustee’s sale, foreclosure sale,
Insurance Proceeds, condemnation proceeds or otherwise.
Loan Group: Loan Group I, Loan Group II or Loan Group III, as applicable.

Loan Group I: The group of Mortgage Loans designated as belonging to Loan Group I
on the Mortgage Loan Schedule.
Loan Group II: The group of Mortgage Loans designated as belonging to Loan Group II
on the Mortgage Loan Schedule.
Loan Group III: The group of Mortgage Loans designated as belonging to Loan
Group III on the Mortgage Loan Schedule.

Loan-to-Value Ratio: With respect to any Mortgage Loan, the fraction, expressed as a
percentage, the numerator of which is the principal balance of the related Mortgage Loan at
origination and the denominator of which is the Original Value of the related Mortgaged
Property.
Loss Allocation Limitation: The meaning specified in Section 6.02(c) hereof.
Loss and Delinquency Test: On any Distribution Date, the Loss and Delinquency Test is
satisfied if, as of the last day of the month preceding such Distribution Date, (A) the aggregate
Scheduled Principal Balance of the Mortgage Loans delinquent 60 days or more (including for
this purpose any such Mortgage Loans in foreclosure and Mortgage Loans with respect to which
the related Mortgaged Property has been acquired by the Trust), averaged over the last six
months, as a percentage of the aggregate Current Principal Amount of the Subordinate
Certificates, does not exceed 50%; and (B) cumulative Realized Losses on the Mortgage Loans
do not exceed (a) 30% of the Original Subordinate Principal Balance if such Distribution Date
occurs between and including June 2015 and May 2016, (b) 35% of the Original Subordinate
Principal Balance if such Distribution Date occurs between and including June 2016 and May
2017, (c) 40% of the Original Subordinate Principal Balance if such Distribution Date occurs
between and including June 2017 and May 2018, (d) 45% of the Original Subordinate Principal
Balance if such Distribution Date occurs between and including June 2018 and May 2019, and
(e) 50% of the Original Subordinate Principal Balance if such Distribution Date occurs on or
after June 25, 2019.

Loss Severity Percentage: With respect to any Distribution Date, the percentage
equivalent of a fraction, the numerator of which is the amount of Realized Losses incurred on a
Mortgage Loan and the denominator of which is the Scheduled Principal Balance of such
Mortgage Loan immediately prior to the liquidation of such Mortgage Loan.
Lost Notes: The original Mortgage Notes that have been lost, as indicated on the
Mortgage Loan Schedule.
Mar~n: With respect to the Class I-A-l, Class I-A-2, Class II-A-1, Class II-A-2,
Class II-A-3, Class M-l, Class M-2, Class M-3, Class M-4, Class M-5, Class M-6, Class M-7,
ny-srv0 I\COHENS\1053167v07\83772.010800

27
conﬁdential

Attachment F - Page 83

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 36 of 230
conﬁdential
A 386
Class B-l, Class B-2, Class B-3, Class B-4, Class B-5 and Class B-6 Certificates, initially
0.230%, 0.300%, 0.230%, 0.280%, 0.320%, 0.450%, 0.480%, 0.500%, 0.680%, 0.740%,
0.760%, 1.250%, 1.350%, 1.700%, 1.750%, 1.800%, 1.800% and 1.800%, respectively, per
annum, and starting on the first Distribution Date after the first possible Optional Termination
Date and on each Distribution Date thereafter, 0.460%, 0.600%, 0.460%, 0.560%, 0.640%,
0.675%, 0.720%, 0.750%, 1.020%, 1.110%, 1.140%, 1.875%, 2.025%, 2.550%, 2.625%,
2.700%, 2.700% and 2.700%, respectively, per annum.
Master Servicer: As of the Closing Date, Wells Fargo Bank, National Association and,
thereafter, its respective successors in interest who meet the qualifications of a successor Master
Servicer as set forth in this Agreement.

Master Servicer Certification: A written certification covering servicing of the Mortgage
Loans by all Servicers and signed by an officer of the Master Servicer that complies with (i) the
Sarbanes-Oxley Act of 2002, as amended from time to time, and (ii) the February 21, 2003
Statement by the Staff of the Division of Corporation Finance of the Securities and Exchange
Commission Regarding Compliance by Asset-Backed Issuers with Exchange Act Rules 13a-14
and 15d-14, as in effect from time to time, provided that if after the Closing Date (a) the
Sarbanes-Oxley Act of 2002 is amended, (b) the Statement referred to in clause (ii) is modified
or superceded by any subsequent statement, rule or regulation of the Commission or any
statement of a division thereof, or (c) any future releases, rules and regulations are published by
the Commission from time to time pursuant to the Sarbanes-Oxley Act of 2002, which in any
such case affects the form or substance of the required certification and results in the required
certification being, in the reasonable judgment of the Master Servicer, materially more onerous
than the form of the required certification as of the Closing Date, the Master Servicer
Certification shall be as agreed to by the Master Servicer and the Depositor following a
negotiation in good faith to determine how to comply with any such new requirements.
Master Servicing Compensation: The meaning specified in Section 3.14.

Maximum Lifetime Mortgage Rate: As to each Mortgage Loan, the rate, if any, set forth
in the related Mortgage Note and indicated on the Mortgage Loan Schedule, that is the maximum
level to which a Mortgage Interest Rate can adjust in accordance with its terms, regardless of
changes in the applicable Index.
Metrocities: Metrocities Mortgage LLC and its successor in interest.

MERS: Mortgage Electronic Registration Systems, Inc., a corporation organized and
existing under the laws of the State of Delaware, and any successor thereto.
MERS® System: The system of recording transfers of Mortgages electronically
maintained by MERS.

MIN: The Mortgage Identification Number for Mortgage Loans registered with MERS
on the MERS® System.
Minimum Lifetime Mortgage Rate: As to each Mortgage Loan, the rate, if any, set forth
in the related Mortgage Note and indicated on the Mortgage Loan Schedule, that is the minimum
ny-srv0 l\COHENS\1053167v07\83772.010800

28
conﬁdential

Attachment F - Page 84

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 37 of 230
conﬁdential
A 387

level to which a Mortgage Interest Rate can adjust in accordance with its terms, regardless of
changes in the applicable Index.
MOM Loan: With respect to any Mortgage Loan, MERS acting as the mortgagee of such
Mortgage Loan, solely as nominee for the originator of such Mortgage Loan and its successors
and assigns, at the origination thereof, or as nominee for any subsequent assignee of the
originator pursuant to an assignment of mortgage to MERS.
Monthly Advance: An advance of principal or interest required to be made by a Servicer
pursuant to the related Servicing Agreement or the Master Servicer pursuant to Section 6.05.
Monthly Payment: With respect to any Mortgage Loan and any month, the scheduled
payment or payments of principal and interest due during such month on such Mortgage Loan
which either is payable by a Mortgagor in such month under the related Mortgage Note, or in the
case of an REO Property, would otherwise have been payable under the related Mortgage Note.
Moody’s: Moody’s Investors Service, Inc. and its successor in interest.
Mortgage File: The mortgage documents listed in Section 2.01(b) pertaining to a
particular Mortgage Loan and any additional documents required to be added to the Mortgage
File pursuant to this Agreement or the Mortgage Loan Purchase Agreement.

Mortgage Interest Rate: The annual rate at which interest accrues from time to time on
any Mortgage Loan pursuant to the related Mortgage Note, which rate is equal to the "Mortgage
Interest Rate" set forth with respect thereto on the Mortgage Loan Schedule.
Mortgage Loan: A mortgage loan transferred and assigned to the Trustee pursuant to
Section 2.01 or Section 2.04 and held as a part of the Trust Fund, as identified in the Mortgage
Loan Schedule, including a mortgage loan the property securing which has become an REO
Property. Any Mortgage Loan that was intended by the parties hereto to be transferred to the
Trust Fund as indicated by the Mortgage Loan Schedule which is in fact not so transferred for
any reason including, without limitation, a breach of a representation or warranty with respect
thereto, shall continue to be a Mortgage Loan hereunder until the Repurchase Price with respect
thereto has been paid to the Trust Fund.
Mortgage Loan Purchase Agreement: The Mortgage Loan Purchase Agreement, dated as
of May 31, 2005, between EMC, as seller, and Structured Asset Mortgage Investments II Inc., as
purchaser, and all amendments thereof and supplements thereto, attached hereto as Exhibit J.
Mortgage Loan Schedule: The schedule attached hereto as Exhibit B with respect to the
Mortgage Loans, as amended from time to time to reflect the repurchase or substitution of
Mortgage Loans pursuant to this Agreement or the Mortgage Loan Purchase Agreement.

Mortgage Note: The originally executed note or other evidence of the indebtedness of a
Mortgagor under the related Mortgage Loan.
Mortgage Store: The Mortgage Store Financial, Inc. and its successor in interest.

ny-srv0 I\COHENS\1053167v07\83772.010800

29
conﬁdential

Attachment F - Page 85

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 38 of 230
conﬁdential
A 388

Mortgaged Property: Land and improvements securing the indebtedness of a Mortgagor
under the related Mortgage Loan or, in the case of REO Property, such REO Property.
Mortgagor: The obligor on a Mortgage Note.

Net Deferred Interest: On any Distribution Date, Deferred Interest on the Mortgage
Loans during the related Due Period net of Principal Prepayments in full, partial Principal
Prepayments, Net Liquidation Proceeds, Repurchase Proceeds and Scheduled Principal, in that
order, included in the related Available Funds for such Distribution Date and available to be
distributed on the related Certificates on that Distribution Date.
Net Interest Shortfall: With respect to any Distribution Date, Prepayment Interest
Shortfalls, if any, for such Distribution Date net of Compensating Interest Payments made with
respect to such Distribution Date.

Net Liquidation Proceeds: As to any Liquidated Mortgage Loan, Liquidation Proceeds
net of (i) Liquidation Expenses which are payable therefrom to the related Servicer in accordance
with the related Servicing Agreement or this Agreement, (ii) unreimbursed advances by the
related Servicer and Monthly Advances made with respect to such Mortgage Loan and the
related Mortgaged Property, and (iii) any other amounts payable to the related Servicer under the
related Servicing Agreement.
Net Rate: With respect to each Mortgage Loan, the Mortgage Interest Rate less the
related Servicing Fee Rate and less the Lender-Paid PMI Rate, if any, attributable thereto, in
each case expressed as per annum rate.
Net Rate Cap: The weighted average of the Net Rates of the related Mortgage Loans, as
adjusted to an effective rate reflecting the accrual of interest on an actual/360 basis.
Nonrecoverable Advance: Any advance or Monthly Advance (i) which was previously
made or is proposed to be made by the Master Servicer, the Trustee (as successor Master
Servicer) or the related Servicer and (ii) which, in the good faith judgment of the Master
Servicer, the Trustee or the related Servicer, as the case may be, will not or, in the case of a
proposed advance or Monthly Advance, would not, be ultimately recoverable by the Master
Servicer, the Trustee (as successor Master Servicer) or the related Servicer from Liquidation
Proceeds, Insurance Proceeds or future payments on the Mortgage Loan for which such advance
or Monthly Advance was made or is proposed to be made.
Notional Amount: On any Distribution Date, the Notional Amount of the Class I-X
Certificates is equal to the aggregate Current Principal Amount of the Class I-A-1 Certificates,
the Class I-A-2 Certificates and the Class I-X Certificates (before taking into account the
payment of principal on such Classes of Certificates on such Distribution Date). On any
Distribution Date, the Notional Amount of the Class II-X Certificates is equal to the aggregate
Current Principal Amount of the Class II-A-1 Certificates, the Class II-A-2 Certificates, the
Class II-A-3 Certificates and the Class II-X Certificates (in each case before taking into account
the payment of principal on such Classes of Certificates on such Distribution Date). On any
Distribution Date, the Notional Amount of the Class M-X Certificates is equal to the aggregate

ny-srv01\COHENS\1053167v07\83772.010800

30
conﬁdential

Attachment F - Page 86

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 39 of 230
conﬁdential
A 389

Current Principal Amount of the Subordinate Certificates (before taking into account the
payment of principal on such Certificates on such Distribution Date).
Offered Certificate: Any Senior Certificate or any Offered Subordinate Certificate.
Offered Subordinate Certificates: The Class M-X, Class M-l, Class M-2, Class M-3,
Class M-4, Class M-5, Class M-6, Class M-7, Class B-l, Class B-2 and Class B-3 Certificates.

Officer’s Certificate: A certificate signed by the Chairman of the Board, the Vice
Chairman of the Board, the President or a Vice President or Assistant Vice President or other
authorized officer of the Master Servicer or the Depositor, as applicable, and delivered to the
Trustee, as required by this Agreement.
One-Month LIBOR: A per annum rate equal to the average of interbank offered rates for
one-month U.S. dollar-denominated deposits in the London market based on quotations of major
banks as published in The Wall Street Journal and most recently available as of the time
specified in the related Mortgage Note.
Opinion of Counsel: A written opinion of counsel who is or are acceptable to each
addressee of such opinion and who, unless required to be Independent (an "Opinion of
Independent Counsel"), may be intemal counsel for EMC, the Master Servicer or the Depositor.
Optional Termination Date: Any Distribution Date on or after which the Scheduled
Principal Balance (before giving effect to distributions to be made on such Distribution Date) of
the Mortgage Loans is less than or equal to 10% of the Cut-off Date Balance.

Original Subordinate Principal Balance: The aggregate Current Principal Amount of the
Subordinate Certificates as of the Closing Date.
Original Value: The lesser of (i) the Appraised Value or (ii) the sales price of a
Mortgaged Property at the time of origination of a Mortgage Loan, except if either clause (i) or
clause (ii) is unavailable, then the other may be used to determine the Original Value, or if both
clauses (i) and (ii) are unavailable, then Original Value may be determined from other sources
reasonably acceptable to the Depositor.
Outstanding Mortgage Loan: With respect to any Due Date, a Mortgage Loan with a
Scheduled Principal Balance greater than zero which, prior to such Due Date, was not the subject
of a Principal Prepayment in full, did not become a Liquidated Mortgage Loan and was not
purchased or replaced.
Outstanding Principal Balance: As of the time of any determination, the principal
balance of a Mortgage Loan remaining to be paid by the Mortgagor, or, in the case of an REO
Property, the principal balance of the related Mortgage Loan remaining to be paid by the
Mortgagor at the time such property was acquired by the Trust Fund less any Net Liquidation
Proceeds with respect thereto to the extent applied to principal.

PMC: PMC Bancorp and its successor in interest.

ny-srv0 I\COHENS\1053167v07\83772.010800

31
conﬁdential

Attachment F - Page 87

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 40 of 230
conﬁdential
A 390

Pass-Through Rate: As to each Class of Certificates (other than the Residual
Certificates) and the REMIC I Regular Interests and the REMIC II Regular Interests, the rate of
interest determined as provided with respect thereto, in Section 5.01(c). The Residual
Certificates do not have a Pass-Through Rate and shall not bear interest.
Paying Agent: The Securities Administrator or any successor paying agent appointed
hereunder.
Periodic Rate Cap: As to each Mortgage Loan, the rate, if any, set forth in the related
Mortgage Note and indicated on the Mortgage Loan Schedule, that is the maximum adjustment
that can be made to the Mortgage Interest Rate on each Interest Adjustment Date in accordance
with its terms, regardless of changes in the applicable Index.

Permitted Investments: Any one or more of the following obligations or securities held
in the name of the Trustee for the benefit of the Certificateholders:
(i) direct obligations of, and obligations the timely payment of which are
fully guaranteed by the United States of America or any agency or instrumentality of the
United States of America the obligations of which are backed by the full faith and credit
of the United States of America;

(ii) (a) demand or time deposits, federal funds or bankers’ acceptances (which
shall each have a maturity of not more than 90 days and, in the case of bankers’
acceptances, shall in no event have an original maturity of more than 365 days or a
remaining maturity of more than 30 days) issued by any depository institution or trust
company incorporated under the laws of the United States of America or any state thereof
(including the Trustee or the Master Servicer or its Affiliates acting in its commercial
banking capacity) and subject to supervision and examination by federal and/or state
banking authorities, provided that the commercial paper and/or the short-term debt rating
and/or the long-term unsecured debt obligations of such depository institution or trust
company at the time of such investment or contractual commitment providing for such
investment have the Applicable Credit Rating or better from each Rating Agency and (b)
any other demand or time deposit or certificate of deposit that is fully insured by the
Federal Deposit Insurance Corporation;
(iii) repurchase obligations with respect to (a) any security described in clause
(i) above or (b) any other security issued or guaranteed by an agency or instrumentality of
the United States of America, the obligations of which are backed by the full faith and
credit of the United States of America, in either case entered into with a depository
institution or trust company (acting as principal) described in clause (ii)(a) above where
the Trustee holds the security therefor; provided that such repurchase obligations shall
have a remaining maturity of not more than 365 days;
(iv) securities bearing interest or sold at a discount issued by any corporation
(including the Trustee or the Master Servicer or its Affiliates) incorporated under the
laws of the United States of America or any state thereof that have the Applicable Credit
Rating or better from each Rating Agency at the time of such investment or contractual

ny-srv01\COHENS\1053167v07\83772.010800

32
conﬁdential

Attachment F - Page 88

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 41 of 230
conﬁdential
A 391
commitment providing for such investment; provided, however, that securities issued by
any particular corporation will not be Permitted Investments to the extent that
investments therein will cause the then outstanding principal amount of securities issued
by such corporation and held as part of the Trust to exceed 10% of the aggregate
Outstanding Principal Balances of all the Mortgage Loans and Permitted Investments
held as part of the Trust;
(v) commercial paper (including both non-interest-bearing discount
obligations and interest-bearing obligations payable on demand or on a specified date not
more than one year after the date of issuance thereof) having the Applicable Credit
Rating or better from each Rating Agency at the time of such investment; provided, that
such commercial paper shall have a remaining maturity of not more than 365 days;
(vi) a Reinvestment Agreement issued by any bank, insurance company or
other corporation or entity;
(vii) any other demand, money market or time deposit, obligation, security or
investment as may be acceptable to each Rating Agency as evidenced in writing by each
Rating Agency to the Trustee; and

(viii) any money market or common trust fund having the Applicable Credit
Rating or better from each Rating Agency, including any such fund for which the Trustee
or Master Servicer or any affiliate of the Trustee or Master Servicer acts as a manager or
an advisor; provided, however, that no instrument or security shall be a Permitted
Investment if such instrument or security evidences a right to receive only interest
payments with respect to the obligations underlying such instrument or if such security
provides for payment of both principal and interest with a yield to maturity in excess of
120% of the yield to maturity at par or if such instrument or security is purchased at a
price greater than par; provided, further, that, if rated, any such obligation or security
shall not have an "r" highlighter affixed to its rating.
Permitted Transferee: Any Person other than a Disqualified Organization or an "electing
large partnership" (as defined by Section 775 of the Code).
Person: Any individual, corporation, partnership, joint venture, association, limited
liability company, joint-stock company, trust, unincorporated organization or government or any
agency or political subdivision thereof.

Physical Certificates: The Residual Certificates and the Private Certificates.
Platinum: Platinum Capital Group and its successor in interest.
Plaza: Plaza Home Mortgage, Inc. and its successor in interest.

PMC Bancorp: PMC Bancorp and its successor in interest.

ny-srv01 \COHENS\ 1053167v07\83772.010800

33
conﬁdential

Attachment F - Page 89

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 42 of 230
conﬁdential
A 392

Prepayment Charge: With respect to any Mortgage Loan, the charges or premiums, if
any, due in connection with a full or partial prepayment of such Mortgage Loan in accordance
with the terms of the related Mortgage Note.
Prepayment Interest Shortfalls: With respect to any Distribution Date, for each Mortgage
Loan that was the subject of a partial Principal Prepayment or a Principal Prepayment in full
during the related Prepayment Period, the amount, if any, by which (i) one month’s interest at the
applicable Net Rate on the Scheduled Principal Balance of such Mortgage Loan immediately
prior to such prepayment, or, in the case of a partial Principal Prepayment, on the amount of such
prepayment, exceeds (ii) the amount of interest paid or collected in connection with such
Principal Prepayment less the sum of (a) any Prepayment Charges relating to such Mortgage
Loan and (b) the related Servicing Fee.
Prepayment Period: As to any Distribution Date and (i) the Mortgage Loans serviced by
each Servicer, other than the EMC Servicer, the prepayment period specified in the related
Servicing Agreement and (ii) the Mortgage Loans serviced by the EMC Servicer, the period
from the sixteenth day of the calendar month preceding the calendar month in which such
Distribution Date occurs through the close of business on the fifteenth day of the calendar month
in which such Distribution Date occurs.

Primary Mortgage Insurance Policy: Any primary mortgage guaranty insurance policy
issued in connection with a Mortgage Loan which provides compensation to a Mortgage Note
holder in the event of default by the obligor under such Mortgage Note or the related Security
Instrument, if any, or any replacement policy therefor through the related Interest Accrual Period
for such Class relating to a Distribution Date.
Principal Prepayment: Any payment (whether partial or full) or other recovery of (or
proceeds with respect to) principal on a Mortgage Loan which is received in advance of its
scheduled Due Date to the extent that it is not accompanied by an amount as to interest
representing scheduled interest due on any date or dates in any month or months subsequent to
the month of prepayment, including Insurance Proceeds and Repurchase Proceeds, but excluding
the principal portion of Net Liquidation Proceeds received at the time a Mortgage Loan becomes
a Liquidated Mortgage Loan.
Private Certificates: Any Class B-4, Class B-5 or Class B-6 Certificate.
Projected Principal Balance: For each specified Distribution Date, as set forth on
Schedule B to the Prospectus Supplement.

Prospectus: The Prospectus, dated December 20, 2004, relating to the offering of the
Offered Certificates.
Prospectus Supplement: The Prospectus Supplement, dated May 27, 2005, relating to the
offering of the Offered Certificates.
Protected Account: An account or accounts established and maintained for the benefit of
Certificateholders by each Servicer with respect to the related Mortgage Loans and with respect

ny-srv01\COHENS\1053167v07\83772.010800

34
conﬁdential

Attachment F - Page 90

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 43 of 230
conﬁdential
A 393

to REO Property serviced by such Servicer pursuant to the related Servicing Agreement, and
which is an Eligible Account.
(2liB: A Qualified Institutional Buyer as defined in Rule 144A promulgated under the
Securities Act.

Qualified Insurer: Any insurance company duly qualified as such under the laws of the
state or states in which the related Mortgaged Property or Mortgaged Properties is or are located,
duly authorized and licensed in such state or states to transact the type of insurance business in
which it is engaged and approved as an insurer by the Master Servicer, so long as its claimspaying ability is acceptable to the Rating Agencies for pass-through certificates having the same
rating as the Certificates rated by the Rating Agencies as of the Closing Date.
Rating Agencies: Each of S&P and Moody’s. If any such organization or its successor is
no longer in existence, "Rating Agency" shall be a nationally recognized statistical rating
organization, or other comparable Person, designated by the Depositor, notice of which
designation shall be given to the Trustee. References herein to a given rating category of a
Rating Agency shall mean such rating category without giving effect to any modifiers.

Realized Loss: With respect to (i) a Mortgage Loan, a Bankruptcy Loss, and (ii) a
Liquidated Mortgage Loan, an amount (not less than zero nor greater than the Scheduled
Principal Balance of such Mortgage Loan) equal to (x) the Outstanding Principal Balance of such
Liquidated Mortgage Loan plus accrued and unpaid interest thereon at the related Mortgage
Interest Rate through the last day of the month of such liquidation, less (y) the Net Liquidation
Proceeds with respect to such Liquidated Mortgage Loan and the related Mortgaged Property
that are allocated to principal. In addition, to the extent the Paying Agent receives from the
related Servicer Subsequent Recoveries with respect to any Mortgage Loan, the amount of the
Realized Loss with respect to that Mortgage Loan will be reduced to the extent such recoveries
are applied to reduce the Current Principal Amount of any Class or Classes of Certificates (other
than the Residual Certificates) on any Distribution Date. As to any Mortgage Loan which has
become the subject of a Deficient Valuation, if the principal amount due under the related
Mortgage Note has been reduced, then "Realized Loss" is the difference between the principal
balance of such Mortgage Loan outstanding immediately prior to such Deficient Valuation and
the principal balance of such Mortgage Loan as reduced by the Deficient Valuation.
Record Date: With respect to each Distribution Date and each Class of Certificates (other
than the Residual Certificates and the Adjustable Rate Certificates), the close of business on the
last Business Day of the month next preceding the month in which the related Distribution Date
occurs. With respect to each Distribution Date and the Adjustable Rate Certificates, the 24th day
of the month of such Distribution Date. With respect to the Residual Certificates, the Closing
Date.
Reinvestment Agreements: One or more reinvestment agreements, acceptable to the
Rating Agencies, from a bank, insurance company or other corporation or entity (including the
Trustee).

Relief Act: The Servicemembers’ Civil Relief Act or similar state law.

ny-srv0 I\COHENS\1053167v07\83772.010800

35
conﬁdential

Attachment F - Page 91

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 44 of 230
conﬁdential
A 394

Relief Act Mortgage Loan: Any Mortgage Loan as to which the Scheduled Payment
thereof has been reduced due to the application of the Relief Act or similar state laws.
REMIC: A real estate mortgage investment conduit, as defined in the Code.
REMIC I: That group of assets contained in the Trust Fund designated as a REMIC
consisting of (i) the Mortgage Loans, and the Mortgage Notes, mortgages and other documents
related thereto, (ii) the Protected Accounts, (iii) any REO Property relating to the Mortgage
Loans, and any revenues received thereon, (iv) the rights of the Depositor under the Mortgage
Loan Purchase Agreement, (v) the rights with respect to the Servicing Agreements, to the extent
assigned to the Trustee, (vi) the rights with respect to the Yield Maintenance Agreement and the
Assignment Agreements, (vii) such funds or assets as from time to time are credited in the
Distribution Account (or are required by the terms of this Agreement to be credited to the
Distribution Account) and belonging to the Trust Fund (exclusive of the Group I Carryover
Shortfall Reserve Fund, the Group II Carryover Shortfall Reserve Fund, the Subordinate
Carryover Shortfall Fund, and the Yield Maintenance Account), (viii) the rights of the Trustee
under all the Insurance Policies required to be maintained pursuant to this Agreement, and any
amounts paid or payable by the related insurer under any such Insurance Policy (to the extent the
related mortgagee has a claim thereto), and (ix) any proceeds of the foregoing.
REMIC I Interests: The REMIC I Regular Interests and the Class R-I Certificates.

REMIC I Regular Interests: The REMIC I Regular Interests, with such terms as
described in Section 5.01(c).
REMIC I Subordinated Balance Ratio: The ratio among the Uncertificated Principal
Balances of each of the REMIC I Regular Interests ending with the designation "A", equal to the
ratio between, with respect to each such REMIC I Regular Interest, the excess of (x) the
aggregate Scheduled Principal Balance of the Mortgage Loans in the related Loan Group over
(y) the aggregate Current Principal Amount of the Senior Certificates (other than the Residual
Certificates) in the related Loan Group.
REMIC II: That group of assets contained in the Trust Fund designated as a REMIC
consisting of the REMIC I Regular Interests.
REMIC II Interests: The REMIC II Regular Interests and the Class R-II Certificates.
REMIC II Regular Interests: The REMIC II Regular Interests, with such terms as
described in Section 5.01(c).
REMIC III: That group of assets contained in the Trust Fund designated as a REMIC
consisting of the REMIC II Regular Interests.

REMIC III Interests: The REMIC III Regular Certificates and the Class R-III
Certificates.
REMIC III Regular Certificates: The REMIC III Regular Interests, with such terms as
described in Section 5.01(c).
ny-srv0 I\COHENS\1053167v07\83772.010800

36
conﬁdential

Attachment F - Page 92

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 45 of 230
conﬁdential
A 395
REMIC Opinion: An Opinion of Independent Counsel, to the effect that the proposed
action described therein would not, under the REMIC Provisions, (i) cause REMIC I, REMIC II
or REMIC III to fail to qualify as a REMIC while any regular interest in such REMIC is
outstanding, (ii) result in a tax on prohibited transactions with respect to any REMIC or (iii)
constitute a taxable contribution to any REMIC after the Startup Day.
REMIC Provisions: The provisions of the federal income tax law relating to REMICs,
which appear at Sections 860A through 860G of the Code, and related provisions and regulations
promulgated thereunder, as the foregoing may be in effect from time to time.

REO Property: A Mortgaged Property acquired in the name of the Trustee, for the
benefit of Certificateholders, by foreclosure or deed-in-lieu of foreclosure in connection with a
defaulted Mortgage Loan.
Repurchase Price: With respect to any Mortgage Loan (or any property acquired with
respect thereto) required or permitted to be repurchased by the Seller pursuant to the Mortgage
Loan Purchase Agreement or Article II or Section 3.21 of this Agreement, an amount equal to
the sum of (i) (A) 100% of the Outstanding Principal Balance of such Mortgage Loan as of the
date of repurchase (or if the related Mortgaged Property was acquired with respect thereto, 100%
of the Outstanding Principal Balance of such Mortgage Loan as of the date of the acquisition),
plus (B) accrued but unpaid interest on the Outstanding Principal Balance of such Mortgage
Loan at the related Mortgage Interest Rate from the date through which interest was last paid on
such Mortgage Loan by the related Mortgagor or advanced with respect to such Mortgage Loan
to the first day of the month in which such amount is to be distributed, through and including the
last day of the month of repurchase, and reduced by (C) any portion of the Master Servicing
Compensation, Servicing Fee and Monthly Advances relating to such Mortgage Loan and
advances payable to the purchaser of such Mortgage Loan, and (ii) any costs and damages
incurred by the Trust and the Trustee in connection with any violation of such Mortgage Loan of
any predatory or abusive lending laws.
Repurchase Proceeds: The Repurchase Price in connection with any repurchase of a
Mortgage Loan by the Seller or any cash deposit in connection with the substitution of a
Mortgage Loan.
Request for Release: A request for release in the form attached hereto as Exhibit D.
Required Insurance Policy: With respect to any Mortgage Loan, any insurance policy
which is required to be maintained from time to time under this Agreement or the related
Servicing Agreement with respect to such Mortgage Loan.
Rescal2: Residential Mortgage Capital and its successor in interest.

Residual Certificates: Any of the Class R Certificates.
Responsible Officer: Any officer assigned to the Corporate Trust Office (or any
successor thereto), including any Vice President, Assistant Vice President, Trust Officer, any
Assistant Secretary, any trust officer or any other officer of the Trustee customarily performing
functions similar to those performed by any of the above designated officers and having direct
ny-srv0 I\COHENS\1053167v07\83772.010800

37
conﬁdential

Attachment F - Page 93

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 46 of 230
conﬁdential
A 396

responsibility for the administration of this Agreement, and any other officer of the Trustee to
whom a matter arising hereunder may be referred.
Rule 144A: Rule 144A promulgated under the Securities Act.
Rule 144A Certificate: The certificate to be furnished by each purchaser of a Private
Certificate (which is also a Physical Certificate) which is a Qualified Institutional Buyer as
defined under Rule 144A promulgated under the Securities Act, substantially in the form set
forth as Exhibit F-2 hereto.
S&P: Standard & Poor’s, a division of The McGraw-Hill Companies, Inc., and its
successors in interest.
Scheduled Payment: With respect to any Mortgage Loan and any Due Period, the
scheduled payment or payments of principal and interest due during such Due Period on such
Mortgage Loan which either is payable by a Mortgagor in such month under the related
Mortgage Note or, in the case of REO Property, would otherwise have been payable under the
related Mortgage Note.
Scheduled Principal: The principal portion of any Scheduled Payment.

Scheduled Principal Balance: With respect to any Mortgage Loan or related REO
Property on any Distribution Date, the principal balance thereof as of the Cut-off Date, plus any
Deferred Interest that is added to the Outstanding Principal Balance of such Mortgage Loan, and
minus the sum of (1) the principal portion of the scheduled Monthly Payments due from
Mortgagors with respect to such Mortgage Loan during each Due Period ending prior to such
Distribution Date, irrespective of any delinquency in its payment, as specified in the amortization
schedule at the time relating thereto (before any adjustment to such amortization schedule by
reason of any bankruptcy or similar proceeding occurring after the Cut-off Date (other than a
Deficient Valuation) or any moratorium or similar waiver or grace period), (2) all Principal
Prepayments with respect to such Mortgage Loan received prior to or during the related
Prepayment Period, and all Net Liquidation Proceeds relating to such Mortgage Loan, to the
extent applied by the related Servicer as recoveries of principal in accordance with this
Agreement or the related Servicing Agreement, that were received by the related Servicer as of
the close of business on the last day of the Prepayment Period related to such Distribution Date
and (3) any Realized Loss thereon incurred prior to or during the related Prepayment Period;
provided that the Scheduled Principal Balance of any Liquidated Mortgage Loan is zero.
Securities Act: The Securities Act of 1933, as amended.
Securities Administrator: Wells Fargo Bank, National Association, and its successor in
interest, and any successor securities administrator appointed as herein provided.
Securities Legend: "THIS CERTIFICATE HAS NOT BEEN AND WILL NOT BE
REGISTERED UNDER THE SECURITIES ACT OF 1933, AS AMENDED (THE
"SECURITIES ACT"), OR UNDER ANY STATE SECURITIES LAWS. THE HOLDER
HEREOF, BY PURCHASING THIS CERTIFICATE, AGREES THAT THIS CERTIFICATE
MAY BE REOFFERED, RESOLD, PLEDGED OR OTHERWISE TRANSFERRED ONLY IN
ny-srv0 I\COHENS\1053167v07k83772 010800

38
conﬁdential

Attachment F - Page 94

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 47 of 230
conﬁdential
A 397
COMPLIANCE WITH THE SECURITIES ACT AND OTHER APPLICABLE LAWS AND
ONLY (1) PURSUANT TO RULE 144A UNDER THE SECURITIES ACT ("RULE 144A")
TO A PERSON THAT THE HOLDER REASONABLY BELIEVES IS A QUALIFIED
INSTITUTIONAL BUYER WITHIN THE MEANING OF RULE 144A (A "QIB"),
PURCHASING FOR ITS OWN ACCOUNT OR A QIB PURCHASING FOR THE ACCOUNT
OF A QIB, WHOM THE HOLDER HAS INFORMED, IN EACH CASE, THAT THE
REOFFER, RESALE, PLEDGE OR OTHER TRANSFER IS BEING MADE IN RELIANCE
ON RULE 144A, (2) PURSUANT TO AN EXEMPTION FROM REGISTRATION
PROVIDED BY RULE 144 UNDER THE SECURITIES ACT (IF AVAILABLE) OR (3) IN
CERTIFICATED FORM TO AN "INSTITUTIONAL ACCREDITED INVESTOR" WITHIN
THE MEANING THEREOF IN RULE 501(a)(1), (2), (3) or (7) OF REGULATION D UNDER
THE SECURITIES ACT OR ANY ENTITY IN WHICH ALL OF THE EQUITY OWNERS
COME WITHIN SUCH PARAGRAPHS PURCHASING NOT FOR DISTRIBUTION IN
VIOLATION OF THE SECURITIES ACT, SUBJECT TO (A) THE RECEIPT BY THE
TRUSTEE AND THE CERTIFICATE REGISTRAR OF A LETTER SUBSTANTIALLY IN
THE FORM PROVIDED IN THE AGREEMENT AND (B) THE RECEIPT BY THE
TRUSTEE AND THE CERTIFICATE REGISTRAR OF SUCH OTHER EVIDENCE
ACCEPTABLE TO THE TRUSTEE AND THE CERTIFICATE REGISTRAR THAT SUCH
REOFFER, RESALE, PLEDGE OR TRANSFER IS IN COMPLIANCE WITH THE
SECURITIES ACT AND OTHER APPLICABLE LAWS OR IN EACH CASE IN
ACCORDANCE WITH ALL APPLICABLE SECURITIES LAWS OF THE UNITED STATES
AND ANY OTHER APPLICABLE JURISDICTION. THIS CERTIFICATE MAY NOT BE
ACQUIRED DIRECTLY OR INDIRECTLY BY, OR ON BEHALF OF, AN EMPLOYEE
BENEFIT PLAN OR OTHER RETIREMENT ARRANGEMENT WHICH IS SUBJECT TO
TITLE I OF THE EMPLOYEE RETIREMENT INCOME SECURITY ACT OF 1974, AS
AMENDED, OR SECTION 4975 OF THE INTERNAL REVENUE CODE OF 1986, AS
AMENDED [in the case of a Residual Certificate or a Private Certificate] UNLESS THE
OPINION OF COUNSEL REQUIRED BY SECTION 5.07 OF THE POOLING AND
SERVICING AGREEMENT IS PROVIDED [in the case of the Class B-4, Class B-5 and Class
B-6 Certificates]:, UNLESS THE TRANSFEREE CERTIFIES OR REPRESENTS THAT THE
PROPOSED TRANSFER AND HOLDING OF A CERTIFICATE AND THE SERVICING,
MANAGEMENT AND OPERATION OF THE TRUST AND ITS ASSETS: (I) WILL NOT
RESULT IN ANY PROHIBITED TRANSACTION WHICH IS NOT COVERED UNDER AN
INDIVIDUAL OR CLASS PROHIBITED TRANSACTION EXEMPTION, INCLUDING,
BUT NOT LIMITED TO, PROHIBITED TRANSACTION EXEMPTION ("PTE") 84-14, PTE
91-38, PTE 90-1, PTE 95-60 OR PTE 96-23 AND (II) WILL NOT GIVE RISE TO ANY
ADDITIONAL FIDUCIARY DUTIES ON THE PART OF THE DEPOSITOR, THE
SECURITIES ADMINISTRATOR, THE MASTER SERVICER, ANY SERVICER OR THE
TRUSTEE, WHICH WILL BE DEEMED REPRESENTED BY AN OWNER OF A BOOKENTRY CERTIFICATE OR A GLOBAL CERTIFICATE AND WILL BE EVIDENCED BY A
REPRESENTATION OR AN OPINION OF COUNSEL TO SUCH EFFECT BY OR ON
BEHALF OF AN INSTITUTIONAL ACCREDITED INVESTOR."
Security Instrument: A written instrument creating a valid first lien on a Mortgaged
Property securing a Mortgage Note, which may be any applicable form of mortgage, deed of
trust, deed to secure debt or security deed, including any riders or addenda thereto.

ny-srv0 I\COHENS\1053167v07\83772.010800

39
conﬁdential

Attachment F - Page 95

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 48 of 230
conﬁdential
A 398

Seller: EMC Mortgage Corporation, as seller under, the Mortgage Loan Purchase
Agreement.
Senior Certificates: The Class I-A-1 Certificates, the Class I-A-2 Certificates, the
Class II-A-1 Certificates, the Class II-A-2 Certificates, the Class II-A-3 Certificates, the
Class III-A-1 Certificates, the Class III-A-2 Certificates, the Class I-X Certificates, the
Class II-X Certificates and the Residual Certificates.
Senior Percentage: The Group I Senior Percentage, the Group II Senior Percentage or the
Group III Senior Percentage.
Senior Prepayment Percentage: The Group I Senior Prepayment Percentage, the Group II
Senior Prepayment Percentage or the Group III Prepayment Percentage.

Senior Optimal Principal Amount: The Group I Senior Optimal Principal Amount, the
Group II Senior Optimal Principal Amount or the Group III Senior Optimal Principal Amount.
Servicer: With respect to each Mortgage Loan, any of EverHome, Washington Mutual,
EMC Mortgage and Countrywide, as set forth in the Mortgage Loan Schedule.
Servicer Remittance Date: With respect to each Mortgage Loan (other than any
Mortgage Loan serviced by Washington Mutual pursuant to the Washington Mutual Servicing
Agreement), the 18th day of each month, or if such day is not a Business Day, then the preceding
Business Day. With respect to each Mortgage Loan serviced by Washington Mutual pursuant to
the Washington Mutual Servicing Agreement, the 18th day of each month, or if such day is not a
Business Day, then the next Business Day.
Servicing Agreement(s): The EverHome Subservicing Agreement, the Countrywide
Servicing Agreement, the EMC Servicing Agreement and the Washington Mutual Servicing
Agreement, as applicable.

Servicing Fee: As to any Mortgage Loan and a Distribution Date, an amount equal to the
product of (i) the Scheduled Principal Balance of such Mortgage Loan as of the Due Date in the
month preceding the month in which such Distribution Date occurs and (ii) the applicable
Servicing Fee Rate, or, in the event of any payment of interest that accompanies a Principal
Prepayment in full during the related Due Period made by the Mortgagor immediately prior to
such prepayment, interest at the Servicing Fee Rate on the Scheduled Principal Balance of such
Mortgage Loan for the period covered by such payment of interest.
Servicing Fee Rate: As to any Mortgage Loan, a per annum rate (including, as
applicable, any additional servicing fees) as set forth in the Mortgage Loan Schedule.
Servicing Officer: As defined in the related Servicing Agreement.
Startup Day: May 31, 2005.
Strike Price: With respect to the Yield Maintenance Agreement is, for the Distribution
Date occurring in:
ny-srv0 I\COHENS\ 1053167v07\83772.010800

40
conﬁdential

Attachment F - Page 96

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 49 of 230
conﬁdential
A 399
(i)

June 2005, 9.17%;

(ii)

July 2005, 9.26%;

(iii) April, June (other than June 2005), September and November of each year
during the term of the Yield Maintenance Agreement, 9.61%;
(iv) January, March, May, July (other than July 2005), August, October and
December of each year during the term of the Yield Maintenance Agreement, 9.30%; and
(v) February of each year during the term of the Yield Maintenance
Agreement, 10.30%.
Subordinate Carryover Shortfall: With respect to the Subordinate Certificates (other than
the Class M-X Certificates) and any Distribution Date for which the respective Pass-Through
Rate for such Certificates is equal to the weighted average of the Net Rates on the Mortgage
Loans, the excess, if any, of (x) Accrued Certificate Interest on the Subordinate Certificates
(other than the Class M-X Certificates) for such Distribution Date, using the lesser of (a) OneMonth LIBOR plus the related Margin, as calculated for such Distribution Date, and (b) 10.50%
per annum, over (y) Accrued Certificate Interest on the Subordinate Certificates (other than the
Class M-X Certificates) for such Distribution Date at the weighted average of the Net Rates on
the Mortgage Loans.
Subordinate Carryover Shortfall Amount: With respect to the Subordinate Certificates
(other than the Class M-X Certificates) and each Distribution Date, the sum of (a) the aggregate
amount of Subordinate Carryover Shortfall for such Classes of Certificates on such Distribution
Date which is not covered on such Distribution Date by interest distributions otherwise payable
to the Class M-X Certificates, plus (b) any Subordinate Carryover Shortfall Amount for such
Classes of Certificates remaining unpaid from the preceding Distribution Date, plus (c) one
month’s interest on the amount in clause (b) (based on the number of days in the preceding
Interest Accrual Period) at a rate equal to the lesser of (i) One-Month LIBOR plus the related
Margin for such Distribution Date and (ii) 10.50% per annum.
Subordinate Carryover Shortfall Reserve Fund: An "outside reserve fund" within the
meaning of Treasury Regulation Section 1.860G-2(h), which is not an asset of any REMIC,
ownership of which is evidenced by the Class M-X Certificates, and which is established and
maintained pursuant to Section 4.06.
Subordinate Certificates: The Class M-X, Class M-I, Class M-2, Class M-3, Class M-4,
Class M-5, Class M-6, Class M-7, Class B-l, Class B-2, Class B-3, Class B-4, Class B-5 and
Class B-6 Certificates.

Subordinate Certificate Writedown Amount: With respect to the Subordinate
Certificates, the amount by which (a) the sum of the aggregate Current Principal Amount of all
of the Certificates other than the Residual Certificates (after giving effect to the distribution of
principal collections on the Mortgage Loans and the allocation of applicable Realized Losses on
the Mortgage Loans on a pro rata basis in reduction of the respective Current Principal Amount

ny-srv0 I\COHENS\1053167v07\83772.010800

41
conﬁdential

Attachment F - Page 97

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 50 of 230
conﬁdential
A 400

of such Certificates on such Distribution Date) exceeds (b) the aggregate Scheduled Principal
Balance of the Mortgage Loans on the Due Date related to such Distribution Date.
Subordinate Optimal Principal Amount: The Group I Subordinate Optimal Principal
Amount, the Group II Subordinate Optimal Principal Amount or the Group III Subordinate
Optimal Principal Amount, as applicable.
Subordinate Percentage: As of any Distribution Date and with respect to any Loan
Group, 100% minus the related Senior Percentage for the Senior Certificates (other than the
Residual Certificates) related to such Loan Group. The initial Subordinate Percentage for each
Loan Group is equal to 7.80%.

Subordinate Prepayment Percentage: For the Subordinate Certificates and as of any
Distribution Date and with respect to each Loan Group related to the Mortgage Loans, will equal
100% minus the related Senior Prepayment Percentage for the Senior Certificates (other than the
Residual Certificates) related to such Loan Group, except that on any Distribution Date after the
Current Principal Amount of each Class of Senior Certificates (other than the Residual
Certificates) has been reduced to zero, the Subordinate Prepayment Percentage for the
Subordinate Certificates with respect to each Loan Group related to the Mortgage Loans will
equal 100%.
Subsequent Recoveries: As of any Distribution Date, amounts received during the
related Due Period by the related Servicer or surplus amounts held by the Master Servicer to
cover estimated expenses (including, but not limited to, recoveries in respect of the
representations and warranties made by the Seller) specifically related to a Liquidated Mortgage
Loan or disposition of an REO property prior to the related Prepayment Period that result in a
Realized Loss on a Mortgage Loan, after liquidation or disposition of such Mortgage Loan.

Substitute Mortgage Loan: A mortgage loan tendered to the Trustee pursuant to the
related Servicing Agreement, the Mortgage Loan Purchase Agreement or Section 2.04 of this
Agreement, as applicable, in each case, (i) which has an Outstanding Principal Balance not
greater nor materially less than the Mortgage Loan for which it is to be substituted; (ii) which has
a Mortgage Interest Rate and Net Rate not less than, and not materially greater than, such
Mortgage Loan; (iii) which has a maturity date not materially earlier or later than such Mortgage
Loan and not later than the latest maturity date of any Mortgage Loan; (iv) which is of the same
property type and occupancy type as such Mortgage Loan; (v) which has a Loan-to-Value Ratio
not greater than the Loan-to-Value Ratio of such Mortgage Loan; (vi) which (to the extent
applicable) has a Combined Loan-to-Value Ratio not greater than the Combined Loan-to-Value
Ratio of such Mortgage Loan; (vii) which is current in payment of principal and interest as of the
date of substitution; (viii) as to which the payment terms do not vary in any material respect from
the payment terms of the Mortgage Loan for which it is to be substituted; (ix) which has a Gross
Margin, Periodic Rate Cap and Maximum Lifetime Mortgage Rate no less than those of such
Mortgage Loan, has the same Index and interval between Interest Adjustment Dates as such
Mortgage Loan, and has a Minimum Lifetime Mortgage Rate no lower than that of such
Mortgage Loan; and (x) which is not secured by Mortgaged Property located in (A) the State of
New Jersey, if such Mortgage Loan was originated on or after November 27, 2003 or (B) the
State of New Mexico, if such Mortgage Loan was originated on or after January 1, 2004.
ny-srv01\COHENS\1053167v07\83772 010800

42
conﬁdential

Attachment F - Page 98

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 51 of 230
conﬁdential
A 401

Tax Administration and Tax Matters Person: The person designated as "tax matters
person" in the manner provided under Treasury regulation § 1.860F-4(d) and temporary Treasury
regulation § 301.6231(a)(7)-lT. The Securities Administrator or any successor thereto or
assignee thereof shall serve as tax administrator hereunder and as agent for the Tax Matters
Person. The Holder of each Class of Residual Certificates shall be the Tax Matters Person for
the related REMIC, as more particularly set forth in Section 9.12 hereof.
Termination Costs: The costs and expenses related to the termination of any Servicer, the
appointment of a successor servicer or the transfer and assumption of servicing with respect to
the related Servicing Agreement, including, without limitation, the items set forth in Section
3.03(c).
Trust Fund or Trust: The corpus of the trust created by this Agreement, consisting of the
Mortgage Loans and the other assets described in Section 2.01 (a).
Trustee: JPMorgan Chase Bank, N.A., and its successor in interest, or any successor
trustee appointed as herein provided.
Uncertificated Principal Balance: With respect to any REMIC I Regular Interest or
REMIC II Regular Interest as of any Distribution Date, the initial principal amount of such
Regular Interest, reduced by (i) all amounts distributed on previous Distribution Dates on such
Regular Interest with respect to principal, (ii) the principal portion of all Realized Losses on the
Mortgage Loans allocated prior to such Distribution Date to such Regular Interest, taking
account of the Loss Allocation Limitation and (iii) in the case of a REMIC II Regular Interest for
which the Corresponding Certificate is a Subordinate Certificate, such Regular Interest’s pro rata
share, if any, of the applicable Subordinate Certificate Writedown Amount allocated to such
Corresponding Certificate for previous Distribution Dates.
Underlying Seller: With respect to each Mortgage Loan, Century Lending, GreenPoint,
Metrocities, Washington Mutual Mortgage Loan Trust 2001-1, F&M, First Horizon, Mortgage
Store, Platinum, Plaza, PMC Bancorp, Rescap, WestStar, or Countrywide, as indicated on the
Mortgage Loan Schedule.
Uninsured Cause: Any cause of damage to a Mortgaged Property or related REO
Property such that the complete restoration of such Mortgaged Property or related REO Property
is not fully reimbursable by the hazard insurance policies or flood insurance policies required to
be maintained pursuant to the related Servicing Agreement, without regard to whether or not
such policy is maintained.
United States Person: A citizen or individual resident of the United States, a corporation
or partnership (including an entity treated as a corporation or partnership for federal income tax
purposes) created or organized in, or under the laws of, the United States or any state thereof or
the District of Columbia (except, in the case of a partnership, to the extent provided in
regulations), provided that, for purposes solely of the Class R Certificates, no partnership or
other entity treated as a partnership for United States federal income tax purposes shall be treated
as a United States Person unless all persons that own an interest in such partnership, either
directly or through any entity that is not a corporation for United States federal income tax
ny-srv0 I\COHENS\1053167v07\83772.010800

43
conﬁdential

Attachment F - Page 99

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 52 of 230
conﬁdential
A 402

purposes, are United States Persons, or an estate whose income is subject to United States federal
income tax regardless of its source, or a trust if a court within the United States is able to
exercise primary supervision over the administration of such trust and one or more such United
States Persons have the authority to control all substantial decisions of such trust or if the Trust
was in existence on August 20, 1996 and properly elected to continue to be treated as such a
United States Person.
Washington Mutual: Washington Mutual Bank and its successor in interest.
Washington Mutual AAR: That certain Assignment, Assumption and Recognition
Agreement, made and entered into as of May 31, 2005, among Washington Mutual, EMC, the
Trustee and the Depositor.
Washington Mutual Servicing Agreement: That certain Servicing Agreement dated as of
April 1, 2005, by and between Washington Mutual and EMC, as attached hereto as Exhibit H-3,
as modified pursuant to the Washington Mutual AAR.

WestStar: WestStar Mortgage, Inc., and its successor in interest.
Yield Maintenance Account: The account to be established and maintained pursuant to
the Yield Maintenance Agreement and Section 4.07, which account will be an asset of the Trust
but not of any REMIC.
Yield Maintenance Agreement: The Interest Rate Corridor Letter Agreement dated May
26, 2005, entered into by the Yield Maintenance Provider and the Trustee on behalf of the Trust.
Yield Maintenance Payment: An amount equal to the result of multiplying (A) the actual
number of days in the applicable Interest Accrual Period divided by 360 by (B) the product of (i)
the rate equal to the excess of (x) the lesser of then-current One-Month LIBOR and 10.50% per
annum over (y) the applicable Strike Price and (ii) an amount equal to the lesser of the principal
balance of the applicable Class of Certificates and the Projected Principal Balance for such Class
of Certificates for such Distribution Date.
Yield Maintenance Provider: Wells Fargo Bank, National Association.
Section 1.02 Calculation of LIBOR. LIBOR applicable to the calculation of the PassThrough Rate on the Adjustable Rate Certificates for any Interest Accrual Period will be
determined on each Interest Determination Date. On each Interest Determination Date, LIBOR
shall be established by the Securities Administrator and, as to any Interest Accrual Period, will
equal the rate for one month United States dollar deposits that appears on the Telerate Screen
Page 3750 as of 11:00 a.m., London time, on such Interest Determination Date. "Telerate Screen
Page 3750" means the display designated as page 3750 on the Telerate Service (or such other
page as may replace page 3750 on that service for the purpose of displaying London interbank
offered rates of major banks). If such rate does not appear on such page (or such other page as
may replace that page on that service, or if such service is no longer offered, LIBOR shall be so
established by use of such other service for displaying LIBOR or comparable rates as may be
reasonably selected by the Securities Administrator), the rate will be the Reference Bank Rate.
The "Reference Bank Rate" will be determined on the basis of the rates at which deposits in U.S.
ny-srv0 I\COHENS\1053167v07\83772 010800

44
conﬁdential

Attachment F - Page 100

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 53 of 230
conﬁdential
A 403

dollars are offered by the reference banks (which shall be any three major banks that are engaged
in transactions in the London interbank market, selected by the Securities Administrator) as of
11:00 a.m., London time, on the Interest Determination Date to prime banks in the London
interbank market for a period of one month in amounts approximately equal to the aggregate
Current Principal Amounts of the Adjustable Rate Certificates, then outstanding. The Securities
Administrator will request the principal London office of each of the reference banks to provide
a quotation of its rate. If at least two such quotations are provided, the rate will be the arithmetic
mean of the quotations rounded up to the nearest whole multiple of 0.03125%. If on such date
fewer than two quotations are provided as requested, the rate will be the arithmetic mean of the
rates quoted by one or more major banks in New York City, selected by the Securities
Administrator, as of 11:00 a.m., New York City time, on such date for loans in U.S. dollars to
leading European banks for a period of one month in amounts approximately equal to the
aggregate Current Principal Amounts of the Adjustable Rate Certificates, then outstanding. If no
such quotations can be obtained, the rate will be LIBOR for the prior Distribution Date;
provided, however, if, under the priorities described above, LIBOR for a Distribution Date
would be based on LIBOR for the previous Distribution Date for the third consecutive
Distribution Date, the Securities Administrator shall select an alternative comparable index (over
which the Securities Administrator has no control), used for determining one-month Eurodollar
lending rates that is calculated and published (or otherwise made available) by an independent
party. The establishment of LIBOR by the Securities Administrator on any Interest
Determination Date and the Securities Administrator’s subsequent calculation of the PassThrough Rate applicable to the Adjustable Rate Certificates for the relevant Interest Accrual
Period, in the absence of manifest error, will be final and binding. Promptly following each
Interest Determination Date, the Securities Administrator shall supply the Master Servicer with
the results of its determination of LIBOR on such date.
ARTICLE II
Conveyance of Mortgage Loans;
Original Issuance of Certificates
Section2.01 Conveyance of Mortgage Loans to Trustee. (a) The Depositor,
concurrently with the execution and delivery of this Agreement, sells, transfers and assigns to the
Trust without recourse all its right, title and interest in and to (i) the Mortgage Loans identified in
the Mortgage Loan Schedule, and the related Mortgage Notes, mortgages and other related
documents, including all interest and principal due with respect to the Mortgage Loans after the
Cut-off Date, but excluding any payments of principal and interest due on or prior to the Cut-off
Date with respect to the Mortgage Loans, (ii) such assets as shall from time to time be credited or
are required by the terms of this Agreement to be credited to the Distribution Account, (iii) such
assets relating to the Mortgage Loans as from time to time may be held by the related Servicer in
Protected Accounts and the Paying Agent in the Group I Carryover Shortfall Reserve Fund, the
Group II Carryover Shortfall Reserve Fund, the Subordinate Carryover Shortfall Reserve Fund,
the Yield Maintenance Account and the Distribution Account for the benefit of the Paying Agent
on behalf of the Certificateholders, (iv) any REO Property, and any revenues received thereon,
(v) the Required Insurance Policies and any amounts paid or payable by the related insurer under
any Insurance Policy (to the extent the related mortgagee has a claim thereto), (vi) the Mortgage
Loan Purchase Agreement to the extent provided in Subsection 2.03(a), (vii) the rights with
respect to the Servicing Agreements as assigned to the Trustee on behalf of the Certificateholders
ny-srv0 I\COHENS\1053167v07\83772.010800

45
conﬁdential

Attachment F - Page 101

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 54 of 230
conﬁdential
A 404

by the Assignment Agreements, (viii) the rights with respect to the Yield Maintenance
Agreement and (ix) any proceeds of the foregoing. Although it is the intent of the parties to this
Agreement that the conveyance of the Depositor’s right, title and interest in and to the Mortgage
Loans and other assets in the Trust Fund pursuant to this Agreement shall constitute a purchase
and sale and not a loan, in the event that such conveyance is deemed to be a loan, it is the intent
of the parties to this Agreement that the Depositor shall be deemed to have granted to the Trustee
a first priority perfected security interest in all of the Depositor’s right, title and interest in, to and
under the Mortgage Loans and other assets in the Trust Fund, and that this Agreement shall
constitute a security agreement under applicable law.
(b) In connection with the above sale, transfer and assignment, the Depositor hereby
deposits with the Trustee, or the Custodian, as its agent, as described in the Mortgage Loan
Purchase Agreement, with respect to each Mortgage Loan, (i) the original Mortgage Note,
including any riders thereto, endorsed without recourse (A) to the order of the Trustee, or (B) in
the case of a Mortgage Loan registered on the MERS® System, in blank, and in each case
showing an unbroken chain of endorsements from the original payee thereof to the Person
endorsing it to the Trustee, or a lost note affidavit with indemnity, together with a copy of the
related Mortgage Note, (ii) the original Security Instrument (noting the presence of the MIN of
the Mortgage Loan and language indicating that the Mortgage Loan is a MOM Loan if the
Mortgage Loan is a MOM Loan), which shall have been recorded (or if the original is not
available, a copy), with evidence of such recording indicated thereon (or if clause (x) in the
proviso below applies, shall be in recordable form), (iii) unless the Mortgage Loan is registered
on the MERS® System, a certified copy of the assignment (which may be in the form of a
blanket assignment if permitted in the jurisdiction in which the Mortgaged Property is located) to
"JPMorgan Chase Bank, N.A., as Trustee," with evidence of recording with respect to each
Mortgage Loan in the name of the Trustee thereon (or if clause (x) in the proviso below applies
or for Mortgage Loans with respect to which the related Mortgaged Property is located in a state
other than Maryland or an Opinion of Counsel has been provided as set forth in this Section
2.01 (b), shall be in recordable form), (iv) all intervening assignments of the Security Instrument,
if applicable and only to the extent available to the Depositor with evidence of recording thereon,
(v) the original or a copy of the policy or certificate of primary mortgage guaranty insurance, to
the extent available, if any, (vi) the original policy of title insurance or mortgagee’s certificate of
title insurance or commitment or binder for title insurance and (vii) originals of all assumption
and modification agreements, if applicable and available; provided, however, that in lieu of the
foregoing, the Depositor may deliver the following documents, under the circumstances set forth
below: (x) in lieu of the original Security Instrument, assignments to the Trustee or intervening
assignments thereof which have been delivered, are being delivered or will, upon receipt of
recording information relating to the Security Instrument required to be included thereon, be
delivered to recording offices for recording and have not been returned to the Depositor in time
to permit their delivery as specified above, the Depositor may deliver, or cause to be delivered, a
true copy thereof with a certification by the Depositor, the applicable Servicer or the title
company issuing the related commitment for title insurance, on the face of such copy,
substantially as follows: "Certified to be a true and correct copy of the original, which has been
transmitted for recording"; (y) in lieu of the Security Instrument, assignment to the Trustee or
intervening assignments thereof, if the applicable jurisdiction retains the originals of such
documents (as evidenced by a certification from the Depositor, to such effect) the Depositor may
deliver, or cause to be delivered, photocopies of such documents containing an original
ny-srv0 I\COHENS\1053167v07\83772.010800

46
conﬁdential

Attachment F - Page 102

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 55 of 230
conﬁdential
A 405
certification by the judicial or other governmental authority of the jurisdiction where such
documents were recorded; and (z) the Depositor shall not be required to deliver intervening
assignments or Mortgage Note endorsements between the related Underlying Seller and EMC
Mortgage Corporation, between EMC Mortgage Corporation and the Depositor, and between the
Depositor and the Trustee; and provided, further, however, that, in the case of Mortgage Loans
which have been prepaid in full after the Cut-off Date and prior to the Closing Date, the
Depositor, in lieu of delivering the above documents, may deliver to the Trustee or the
Custodian, as its agent, a certification to such effect and shall deposit all amounts paid in respect
of such Mortgage Loans in the Distribution Account on the Closing Date. The Depositor shall
deliver such original documents (including any original documents as to which certified copies
had previously been delivered) to the Trustee or the Custodian, as its agent, promptly after they
are received. The Depositor shall cause, at its expense, the assignment of the related Security
Instrument to the Trustee to be recorded not later than 180 days after the Closing Date with
respect to the Mortgage Loans, unless (1) such recordation is not required by the Rating
Agencies, (2) an Opinion of Counsel has been provided to the Trustee (with a copy to the
Custodian) which states that recordation of such Security Instrument is not required to protect the
interests of the Certificateholders in the related Mortgage Loans or (3) MERS is identified on the
related Security Instrument or on a properly recorded assignment of such Security Instrument as
mortgagee of record solely as nominee for Depositor and its successors and assigns; provided,
however, that each assignment shall be submitted for recording by the Depositor in the manner
described above, at no expense to the Trust or the Trustee, or the Custodian, as its agent, upon
the earliest to occur of: (i) reasonable direction by the Holders of Certificates evidencing
Fractional Undivided Interests aggregating not less than 25% of the Trust, (ii) the occurrence of
an Event of Default, (iii) the occurrence of a bankruptcy, insolvency or foreclosure relating to the
Depositor, (iv) the rating of The Bear Steams Companies Inc. falls below Baa3, (v) the
occurrence of a servicing transfer as described in Section 8.02 hereof, or (vi) with respect to any
one assignment of Mortgage, the occurrence of a bankruptcy, insolvency or foreclosure relating
to the Mortgagor under the related Mortgage. Notwithstanding the foregoing, if the Depositor
fails to pay the cost of recording the assignments, such expense will be paid by the Trustee and
the Trustee shall be reimbursed for such expenses by the Trust in accordance with Section 9.05.

Section 2.02 Acceptance of Trust Fund by Trustee. (a) The Trustee acknowledges the
sale, transfer and assignment of the Trust Fund to it by the Depositor and receipt of, subject to
further review and the exceptions which may be noted pursuant to the procedures described
below, and declares that it holds, the documents (or certified copies thereof) delivered to it
pursuant to Section 2.01, and declares that it will continue to hold those documents and any
amendments, replacements or supplements thereto and all other assets of the Trust Fund
delivered to it as Trustee in trust for the use and benefit of all present and future Holders of the
Certificates. On the Closing Date, the Custodian shall acknowledge, with respect to each
Mortgage Loan by an Initial Certification substantially in the form of Exhibit One to the
Custodial Agreement, receipt of the Mortgage File, but without review of such Mortgage File,
except to the extent necessary to confirm that such Mortgage File contains the related Mortgage
Note or a lost note affidavit in lieu thereof. No later than 90 days after the Closing Date (or, with
respect to any Substitute Mortgage Loan, within five Business Days after the receipt by the
Trustee or Custodian thereof), the Trustee agrees, for the benefit of the Certificateholders, to
review or cause to be reviewed by the Custodian on its behalf (under the Custodial Agreement),
each Mortgage File delivered to it and to execute and deliver, or cause to be executed and
ny-srv01 \COHENS\ 1053167v07\83772.010800

47
conﬁdential

Attachment F - Page 103

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 56 of 230
conﬁdential
A 406
delivered, to the Depositor and the Trustee an Interim Certification substantially in the form
annexed as Exhibit Two to the Custodial Agreement. In conducting such review, the Trustee or
Custodian will ascertain whether all required documents have been executed and received, and
based on the Mortgage Loan Schedule, whether those documents relate, determined on the basis
of the Mortgagor name, original principal balance and loan number, to the Mortgage Loans it has
received, as identified in the Mortgage Loan Schedule. In performing any such review, the
Trustee or the Custodian, as its agent, may conclusively rely on the purported due execution and
genuineness of any such document and on the purported genuineness of any signature thereon. If
the Trustee or the Custodian, as its agent, finds any document constituting part of the Mortgage
File not to have been executed or received, or to be unrelated to the Mortgage Loans or to appear
to be defective on its face, then the Trustee or the Custodian, as its agent, shall promptly notify
the Seller. In accordance with the Mortgage Loan Purchase Agreement, the Seller shall correct
or cure any such defect within ninety (90) days from the date of notice from the Trustee or the
Custodian, as its agent, of the defect and, if the Seller fails to correct or cure the defect within
such period, and such defect materially and adversely affects the interests of the
Certificateholders in the related Mortgage Loan, the Trustee or the Custodian, as its agent, shall
enforce the Seller’s obligation pursuant to the Mortgage Loan Purchase Agreement, to, within 90
days from the Trustee’s or the Custodian’s notification, provide a Substitute Mortgage Loan (if
within two years of the Closing Date) or purchase such Mortgage Loan at the Repurchase Price;
provided that, if such defect would cause the Mortgage Loan to be other than a "qualified
mortgage" as defined in Section 860G(a)(3) of the Code, any such cure or repurchase must occur
within 90 days from the date such breach was discovered; provided, however, that if such defect
relates solely to the inability of the Seller to deliver the original Security Instrument or
intervening assignments thereof, or a certified copy thereof, because the originals of such
documents or a certified copy have not been returned by the applicable jurisdiction, then the
Seller shall not be required to purchase such Mortgage Loan if the Seller delivers such original
documents or certified copy promptly upon receipt, but in no event later than 360 days after the
Closing Date. The foregoing repurchase obligation shall not apply in the event that the Seller
cannot deliver such original or copy of any document submitted for recording to the appropriate
recording office in the jurisdiction because such document has not been returned by such office;
provided that the Seller shall instead deliver a recording receipt of such recording office or, if
such receipt is not available, a certificate of the Seller or a Servicing Officer confirming that such
documents have been accepted for recording, and delivery to the Trustee or the Custodian, as its
agent, shall be effected by the Seller within thirty days of its receipt of the original recorded
document.
(b) No later than 180 days after the Closing Date (or, with respect to any Substitute
Mortgage Loan, within five Business Days after the receipt by the Trustee or the Custodian
thereof), the Trustee or the Custodian, as its agent, will review, for the benefit of the
Certificateholders, the Mortgage Files delivered to it and will execute and deliver or cause to be
executed and delivered to the Depositor and the Trustee a Final Certification substantially in the
form annexed as Exhibit Three to the Custodial Agreement. In conducting such review, the
Trustee or the Custodian, as its agent, will ascertain whether an original of each document
required to be recorded has been returned from the recording office with evidence of recording
thereon or a certified copy has been obtained from the recording office. If the Trustee or the
Custodian, as its agent, finds any document constituting part of the Mortgage File has not been
received, or to be unrelated, determined on the basis of the Mortgagor name, original principal
ny-srv0 I\COHENS\1053167v07\83772.010800

48
conﬁdential

Attachment F - Page 104

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 57 of 230
conﬁdential
A 407

balance and loan number, to the Mortgage Loans, or to appear defective on its face, the Trustee
or the Custodian, as its agent, shall promptly notify the Seller (provided, however, that with
respect to those documents described in subsection (b)(iv), (b)(v) and (b)(vii) of Section 2.01, the
Trustee’s and the Custodian’s obligations shall extend only to the documents actually delivered
to the Trustee or Custodian pursuant to such subsections). In accordance with the Mortgage
Loan Purchase Agreement, the Seller shall correct or cure any such defect or EMC shall deliver
to the Trustee an Opinion of Counsel to the effect that such defect does not materially or
adversely affect the interests of Certificateholders in such Mortgage Loan within 90 days from
the date of notice from the Trustee of the defect and if the Seller is unable to cure such defect
within such period, and if such defect materially and adversely affects the interests of the
Certificateholders in the related Mortgage Loan, then the Trustee shall enforce the Seller’s
obligation under the Mortgage Loan Purchase Agreement to, within 90 days from the Trustee’s
or Custodian’s notification, provide a Substitute Mortgage Loan (if within two years of the
Closing Date) or purchase such Mortgage Loan at the Repurchase Price; provided that, if such
defect would cause the Mortgage Loan to be other than a "qualified mortgage" as defined in
Section 860G(a)(3) of the Code, any such cure, repurchase or substitution must occur within 90
days from the date such breach was discovered; provided, further, however, that if such defect
relates solely to the inability of the Seller to deliver the original Security Instrument or
intervening assignments thereof, or a certified copy thereof, because the originals of such
documents or a certified copy have not been returned by the applicable jurisdiction, then the
Seller shall not be required to purchase such Mortgage Loan if the Seller delivers such original
documents or certified copy promptly upon receipt, but in no event later than 360 days after the
Closing Date. The foregoing repurchase obligation shall not apply in the event that the Seller
cannot deliver such original or copy of any document submitted for recording to the appropriate
recording office in the applicable jurisdiction because such document has not been returned by
such office; provided that the Seller shall instead deliver a recording receipt of such recording
office or, if such receipt is not available, a certificate confirming that such documents have been
accepted for recording, and delivery to the Trustee or the Custodian, as its agent, shall be
effected by the Seller within thirty days of its receipt of the original recorded document.
(c) In the event that a Mortgage Loan is purchased by the Seller in accordance with
Subsections 2.02(a) or (b) above, the Seller shall remit to the Paying Agent the applicable
Repurchase Price for deposit in the Distribution Account and the Seller shall provide to the
Master Servicer, the Paying Agent and the Trustee written notification detailing the components
of the Repurchase Price. Upon deposit of the Repurchase Price in the Distribution Account, the
Depositor shall notify the Trustee and the Trustee or the Custodian, as its agent (upon receipt of a
Request for Release in the form of Exhibit D attached hereto with respect to such Mortgage
Loan), shall release to the Seller the related Mortgage File and the Trustee shall execute and
deliver all instruments of transfer or assignment, without recourse, furnished to it by the Seller as
are necessary to vest in the Seller title to and rights under the related Mortgage Loan. Such
purchase shall be deemed to have occurred on the date on which the Repurchase Price in
available funds is received by the Paying Agent. The Trustee shall amend the Mortgage Loan
Schedule, which was previously delivered to it by the Depositor in a form agreed to between the
Depositor and the Trustee, to reflect such repurchase and shall promptly notify the Rating
Agencies and the Master Servicer of such amendment. The obligation of the Seller to repurchase
any Mortgage Loan as to which such a defect in a constituent document exists shall be the sole

ny-srv0 I\COHENS\1053167v07\83772.010800

49
conﬁdential

Attachment F - Page 105

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 58 of 230
conﬁdential
A 408

remedy respecting such defect available to the Certificateholders or to the Trustee on their
behalf.
Section 2.03 Assignment of Interest in the Mortgage Loan Purchase Agreement. (a)
The Depositor hereby assigns to the Trustee, on behalf of the Certificateholders, all of its right,
title and interest in the Mortgage Loan Purchase Agreement, including but not limited to the
Depositor’s rights and obligations pursuant to the Servicing Agreements (noting that the Seller
has retained the right in the event of breach of the representations, warranties and covenants, if
any, with respect to the related Mortgage Loans of the related Servicer under the related
Servicing Agreement to enforce the provisions thereof and to seek all or any available remedies).
The obligations of the Seller to substitute or repurchase, as applicable, a Mortgage Loan shall be
the Trustee’s and the Certificateholders’ sole remedy for any breach thereof. At the request of
the Trustee, the Depositor shall take such actions as may be necessary to enforce the above right,
title and interest on behalf of the Trustee and the Certificateholders or shall execute such further
documents as the Trustee may reasonably require in order to enable the Trustee to carry out such
enforcement.
(b) If the Depositor, the Securities Administrator or the Trustee discovers a breach of
any of the representations and warranties set forth in the Mortgage Loan Purchase Agreement,
which breach materially and adversely affects the value of the interests of Certificateholders or
the Trustee in the related Mortgage Loan, the party discovering the breach shall give prompt
written notice of the breach to the other parties. The Seller, within 90 days of its discovery or
receipt of notice that such breach has occurred (whichever occurs earlier), shall cure the breach
in all material respects or, subject to the Mortgage Loan Purchase Agreement or Section 2.04 of
this Agreement, as applicable, shall purchase the Mortgage Loan or any property acquired with
respect thereto from the Trustee; provided, however, that if there is a breach of any
representation set forth in the Mortgage Loan Purchase Agreement or Section 2.04 of this
Agreement, as applicable, and the Mortgage Loan or the related property acquired with respect
thereto has been sold, then the Seller shall pay, in lieu of the Repurchase Price, any excess of the
Repurchase Price over the Net Liquidation Proceeds received upon such sale. (If the Net
Liquidation Proceeds exceed the Repurchase Price, any excess shall be paid to the Seller, to the
extent not required by law to be paid to the related borrower.) Any such purchase by the Seller
shall be made by providing an amount equal to the Repurchase Price to the Paying Agent for
deposit in the Distribution Account and written notification detailing the components of such
Repurchase Price to the Trustee, the Paying Agent and the Master Servicer. The Depositor shall
notify the Trustee and submit to the Trustee or the Custodian, as its agent, a Request for Release
in the form of Exhibit D attached hereto, and the Trustee shall release, or the Trustee shall cause
the Custodian to release, to the Seller, the related Mortgage File and the Trustee shall execute
and deliver all instruments of transfer or assignment furnished to it by the Seller, without
recourse, as are necessary to vest in the Seller title to and rights under the Mortgage Loan or any
property acquired with respect thereto. Such purchase shall be deemed to have occurred on the
date on which the Repurchase Price in available funds is received by the Securities
Administrator. The Trustee shall amend the Mortgage Loan Schedule to reflect such repurchase
and shall promptly notify the Master Servicer and the Rating Agencies of such amendment.
Enforcement of the obligation of the Seller to purchase (or substitute a Substitute Mortgage Loan
for) any Mortgage Loan or any property acquired with respect thereto (or pay the Repurchase
Price as set forth in the above proviso) as to which a breach has occurred and is continuing shall
ny-srv0 I\COHENS\ 1053167v07\83772.010800

50
conﬁdential

Attachment F - Page 106

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 59 of 230
conﬁdential
A 409

constitute the sole remedy respecting such breach available to the Certificateholders or the
Trustee on their behalf.
Section 2.04 Substitution of Mortgage Loans. Notwithstanding anything to the contrary
in this Agreement, in lieu of purchasing a Mortgage Loan pursuant to the Mortgage Loan
Purchase Agreement or Sections 2.02 or 2.03 of this Agreement, the Seller may, no later than the
date by which such purchase by the Seller would otherwise be required, tender to the Trustee a
Substitute Mortgage Loan accompanied by a certificate of an authorized officer of the Seller that
such Substitute Mortgage Loan conforms to the requirements set forth in the definition of
"Substitute Mortgage Loan" in the Mortgage Loan Purchase Agreement or this Agreement, as
applicable; provided, however, that substitution pursuant to the Mortgage Loan Purchase
Agreement or Section 2.04 of this Agreement, as applicable, in lieu of purchase shall not be
permitted after the termination of the two-year period beginning on the Startup Day; provided,
further, that if the breach of a Mortgage Loan representation or warranty would cause such
Mortgage Loan to be other than a "qualified mortgage" as defined in Section 860G(a)(3) of the
Code, then any such substitution must occur within 90 days from the date the breach was
discovered. The Trustee or the Custodian, as its agent, shall examine the Mortgage File for any
Substitute Mortgage Loan in the manner set forth in Section 2.02(a) and the Trustee or the
Custodian, as its agent, shall notify the Seller in writing, within five Business Days after receipt,
whether or not the documents relating to the Substitute Mortgage Loan satisfy the requirements
of the fourth sentence of Subsection 2.02(a). Within two Business Days after such notification,
the Seller shall provide to the Paying Agent for deposit in the Distribution Account the amount,
if any, by which the Outstanding Principal Balance as of the next preceding Due Date of the
Mortgage Loan for which substitution is being made, after giving effect to Scheduled Principal
due on such date, exceeds the Outstanding Principal Balance as of such date of the Substitute
Mortgage Loan, after giving effect to Scheduled Principal due on such date, which amount shall
be treated for the purposes of this Agreement as if it were the payment by the Seller of the
Repurchase Price for the purchase of a Mortgage Loan by the Seller. After such notification to
the Seller and, if any such excess exists, upon receipt of such deposit, the Trustee shall accept
such Substitute Mortgage Loan which shall thereafter be deemed to be a Mortgage Loan
hereunder. In the event of such a substitution, accrued interest on the Substitute Mortgage Loan
for the month in which the substitution occurs and any Principal Prepayments made thereon
during such month shall be the property of the Trust Fund and accrued interest for such month on
the Mortgage Loan for which the substitution is made and any Principal Prepayments made
thereon during such month shall be the property of the Seller. The Scheduled Principal on a
Substitute Mortgage Loan due on the Due Date in the month of substitution shall be the property
of the Seller and the Scheduled Principal on the Mortgage Loan for which the substitution is
made due on such Due Date shall be the property of the Trust Fund. Upon acceptance of the
Substitute Mortgage Loan (and delivery to the Trustee or Custodian of a Request for Release for
such Mortgage Loan), the Trustee (or the Custodian, as its agent) shall release to the Seller the
Mortgage File related to any Mortgage Loan released pursuant to the Mortgage Loan Purchase
Agreement or Section 2.04 of this Agreement, as applicable, and the Trustee shall execute and
deliver all instruments of transfer or assignment, without recourse, in form as provided to it as
are necessary to vest in the Seller title to and rights under any Mortgage Loan released pursuant
to the Mortgage Loan Purchase Agreement or Section 2.04 of this Agreement, as applicable.
The Seller shall deliver the documents related to the Substitute Mortgage Loan in accordance
with the provisions of the Mortgage Loan Purchase Agreement or Subsections 2.01(b) and
ny-srv01\COHENS\1053167v07\83772.010800

51
conﬁdential

Attachment F - Page 107

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 60 of 230
conﬁdential
A 410

2.02(b) of this Agreement, as applicable, with the date of acceptance of the Substitute Mortgage
Loan deemed to be the Closing Date for purposes of the time periods set forth in those
Subsections. The representations and warranties set forth in the Mortgage Loan Purchase
Agreement shall be deemed to have been made by the Seller with respect to each Substitute
Mortgage Loan as of the date of acceptance of such Mortgage Loan by the Trustee. The
Securities Administrator shall amend the Mortgage Loan Schedule to reflect such substitution
and shall provide a copy of such amended Mortgage Loan Schedule to the Master Servicer, the
Trustee and the Rating Agencies.
Section 2.05 Issuance of Certificates. The Trustee acknowledges the assignment to it of
the Mortgage Loans and the other assets comprising the Trust Fund and, concurrently therewith,
has signed, and the Certificate Registrar has countersigned and delivered to the Depositor, in
exchange therefor, Certificates in such authorized denominations representing such Fractional
Undivided Interests as the Depositor has requested. The Trustee agrees that it will hold the
Mortgage Loans and such other assets as may from time to time be delivered to it segregated on
the books of the Trustee in trust for the benefit of the Certificateholders.
The Depositor, concurrently with the execution and delivery hereof, does hereby transfer,
assign, set over and otherwise convey in trust to the Trustee without recourse all the right, title
and interest of the Depositor in and to the REMIC I Regular Interests and the other assets of
REMIC II for the benefit of the holders of the REMIC II Interests. The Trustee acknowledges
receipt of the REMIC I Regular Interests (which are uncertificated) and the other assets of
REMIC II and declares that it holds and will hold the same in trust for the exclusive use and
benefit of the holders of the REMIC II Certificates.
The Depositor, concurrently with the execution and delivery hereof, does hereby transfer,
assign, set over and otherwise convey in trust to the Trustee without recourse all the right, title
and interest of the Depositor in and to the REMIC II Regular Interests, and the other assets of
REMIC III for the benefit of the holders of the REMIC III Certificates. The Trustee
acknowledges receipt of the REMIC II Regular Interests (which are uncertificated) and the other
assets of REMIC III and declares that it holds and will hold the same in trust for the exclusive
use and benefit of the holders of the REMIC III Certificates.

Section 2.06 Representations and Warranties Concerning the Depositor. The Depositor
hereby represents and warrants to the Trustee, the Master Servicer and the Securities
Administrator as follows:
(i) the Depositor (a) is a corporation duly organized, validly existing and in
good standing under the laws of the State of Delaware and (b) is qualified and in good
standing as a foreign corporation to do business in each jurisdiction where such
qualification is necessary, except where the failure so to qualify would not reasonably be
expected to have a material adverse effect on the Depositor’s business as presently
conducted or on the Depositor’s ability to enter into this Agreement and to consummate
the transactions contemplated hereby;

ny-srv0 I\COHENS\1053167v07\83772 010800

52
conﬁdential

Attachment F - Page 108

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 61 of 230
conﬁdential
A 411

(ii) the Depositor has full corporate power to own its property, to carry on its
business as presently conducted and to enter into and perform its obligations under this
Agreement;
(iii) the execution and delivery by the Depositor of this Agreement have been
duly authorized by all necessary corporate action on the part of the Depositor; and neither
the execution and delivery of this Agreement, nor the consummation of the transactions
herein contemplated, nor compliance with the provisions hereof, will conflict with or
result in a breach of, or constitute a default under, any of the provisions of any law,
governmental rule, regulation, judgment, decree or order binding on the Depositor or its
properties or the articles of incorporation or by-laws of the Depositor, except those
conflicts, breaches or defaults which would not reasonably be expected to have a material
adverse effect on the Depositor’s ability to enter into this Agreement and to consummate
the transactions contemplated hereby;
(iv) the execution, delivery and performance by the Depositor of this
Agreement and the consummation of the transactions contemplated hereby do not require
the consent or approval of, the giving of notice to, the registration with, or the taking of
any other action in respect of, any state, federal or other governmental authority or
agency, except those consents, approvals, notices, registrations or other actions as have
already been obtained, given or made;
(v) this Agreement has been duly executed and delivered by the Depositor
and, assuming due authorization, execution and delivery by the other parties hereto,
constitutes a valid and binding obligation of the Depositor enforceable against it in
accordance with its terms (subject to applicable bankruptcy and insolvency laws and
other similar laws affecting the enforcement of the rights of creditors generally);

(vi) there are no actions, suits or proceedings pending or, to the knowledge of
the Depositor, threatened against the Depositor, before or by any court, administrative
agency, arbitrator or governmental body (i) with respect to any of the transactions
contemplated by this Agreement or (ii) with respect to any other matter which in the
judgment of the Depositor will be determined adversely to the Depositor and will, if
determined adversely to the Depositor, materially and adversely affect the Depositor’s
ability to enter into this Agreement or perform its obligations under this Agreement; and
the Depositor is not in default with respect to any order of any court, administrative
agency, arbitrator or governmental body so as to materially and adversely affect the
transactions contemplated by this Agreement; and
(vii) immediately prior to the transfer and assignment thereof to the Trustee,
each Mortgage Note and each Mortgage was not subject to an assignment or pledge, and
the Depositor had good and marketable title to and was the sole owner thereof and had
full right to transfer and sell the Mortgage Loans to the Trustee free and clear of any
encumbrance, equity, lien, pledge, charge, claim or security interest.

ny-srv0 I\COHENS\ 1053167v07\83772.010800

53
conﬁdential

Attachment F - Page 109

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 62 of 230
conﬁdential
A 412
Section 2.07 Covenants of the Master Servicer and the EMC Servicer. The Master
Servicer covenants to the Depositor, the Securities Administrator and the Trustee, and the EMC
Servicer covenants to the Master Servicer, as follows:

(i)

it shall comply in the performance of its obligations under this Agreement;

(ii) no written information, certificate of an officer, statement furnished in
writing or written report prepared by the Master Servicer or the EMC Servicer, as
applicable, pursuant to this Agreement and delivered, in the case of the Master Servicer,
to the Securities Administrator, the Depositor, any affiliate of the Depositor or the
Trustee, or, in the case of the EMC Servicer, to the Master Servicer, will contain any
untrue statement of a material fact or omit to state a material fact necessary to make the
information, certificate, statement or report not misleading; and
(iii) it shall (in the case of the Master Servicer, only in its capacity as successor
servicer pursuant to a Servicing Agreement) accurately and fully provide information
regarding payment performance of the Mortgagors to the nationally recognized credit
repositories, to the extent such reporting remains customary and prudent in the servicing
of mortgage loans similar to the Mortgage Loans.
Nothing in this Section shall derogate from the obligation of the Master Servicer or the
EMC Servicer to observe any applicable law prohibiting disclosure of information regarding the
Mortgagors, and the failure of the Master Servicer or the EMC Servicer to provide access as
provided in this Section as a result of such obligation shall not constitute a breach of this Section.
ARTICLE III
Administration and Servicing of Mortgage Loans

Section 3.01 Master Servicer. The Master Servicer shall, from and after the Closing
Date, supervise, monitor and oversee the obligation of the Servicers to service and administer
their respective Mortgage Loans in accordance with the terms of the related Servicing
Agreement and shall have full power and authority to do any and all things which it may deem
necessary or desirable in connection with such master servicing and administration. In
performing its obligations hereunder, the Master Servicer shall act in a manner consistent with
Accepted Master Servicing Practices. Furthermore, the Master Servicer shall oversee and
consult with each Servicer as necessary from time-to-time to carry out the Master Servicer’s
obligations hereunder, shall receive, review and evaluate all reports, information and other data
provided to the Master Servicer by each Servicer and shall cause each Servicer to perform and
observe the covenants, obligations and conditions to be performed or observed by such Servicer
under the related Servicing Agreement. The Master Servicer shall independently and separately
monitor each Servicer’s servicing activities with respect to each related Mortgage Loan,
reconcile the results of such monitoring with such information provided in the previous sentence
on a monthly basis and coordinate corrective adjustments to the related Servicer’s and Master
Servicer’s records, and based on such reconciled and corrected information, the Master Servicer
shall provide such information to the Securities Administrator as shall be necessary in order for it
to prepare the statements specified in Section 6.04, and prepare any other information and
statements required to be forwarded by the Master Servicer hereunder. The Master Servicer
ny-srv0 I\COHENS\1053167v07\83772 010800

54
conﬁdential

Attachment F - Page 110

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 63 of 230
conﬁdential
A 413

shall reconcile the results of its Mortgage Loan monitoring with the actual remittances of the
related Servicer to the Distribution Account pursuant to the related Servicing Agreement.
The Trustee shall furnish each Servicer and the Master Servicer with any powers of
attorney, in substantially the form attached hereto as Exhibit K, and other documents in form as
provided to it necessary or appropriate to enable such Servicer and the Master Servicer to service
and administer the related Mortgage Loans and REO Property.
The Trustee shall provide access to the records and documentation in possession of the
Trustee regarding the related Mortgage Loans and REO Property and the servicing thereof to the
Certificateholders, the FDIC, and the supervisory agents and examiners of the FDIC, such access
being afforded only upon reasonable prior written request and during normal business hours at
the office of the Trustee; provided, however, that, unless otherwise required by law, the Trustee
shall not be required to provide access to such records and documentation if the provision thereof
would violate the legal right to privacy of any Mortgagor. The Trustee shall allow
representatives of the above entities to photocopy any of the records and documentation and shall
provide equipment for that purpose at a charge that covers the Trustee’s actual costs.
The Trustee shall execute and deliver to the related Servicer and the Master Servicer any
court pleadings, requests for trustee’s sale or other documents necessary or desirable to (i) the
foreclosure or trustee’s sale with respect to a Mortgaged Property; (ii) any legal action brought to
obtain judgment against any Mortgagor on the Mortgage Note or Security Instrument; (iii) obtain
a deficiency judgment against the Mortgagor; or (iv) enforce any other rights or remedies
provided by the Mortgage Note or Security Instrument or otherwise available at law or equity.
Section 3.02 REMIC-Related Covenants. For as long as each REMIC shall exist, the
Trustee and the Securities Administrator shall act in accordance herewith to assure continuing
treatment of such REMIC as a REMIC, and the Trustee and the Securities Administrator shall
comply with any directions of the Depositor, the Servicers or the Master Servicer to assure such
continuing treatment. In particular, the Trustee shall not (a) sell or permit the sale of all or any
portion of the Mortgage Loans or of any investment of deposits in an Account unless such sale is
as a result of a repurchase of the Mortgage Loans pursuant to this Agreement or the Trustee has
received a REMIC Opinion, prepared at the expense of the Trust Fund; and (b) other than with
respect to a substitution pursuant to the Mortgage Loan Purchase Agreement or Section 2.04 of
this Agreement, as applicable, accept any contribution to any REMIC after the Startup Day
without receipt of a REMIC Opinion. In addition, the Trustee shall comply with all of the
requirements of Treasury Regulation § 1.860F-2(a)(2), including, without limitation, the
requirement that each REMIC account for items of income and ownership of assets in a manner
that respects the separate existence of each REMIC.
Section 3.03 Monitoring of Servicers. (a) The Master Servicer shall be responsible for
reporting to the Trustee and the Depositor the compliance by the Servicers with their respective
duties under the related Servicing Agreement. In the review of each Servicer’s activities, the
Master Servicer may rely upon an officer’s certificate of such Servicer (or similar document
signed by an officer of the Servicer) with regard to such Servicer’s compliance with the terms of
the related Servicing Agreement. In the event that the Master Servicer, in its judgment,
determines that such Servicer should be terminated in accordance with the related Servicing
ny-srv0 I\COHENS\1053167v07\83772.010800

55
conﬁdential

Attachment F - Page 111

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 64 of 230
conﬁdential
A 414

Agreement, or that a notice should be sent pursuant to the related Servicing Agreement with
respect to the occurrence of an event that, unless cured, would constitute grounds for such
termination, the Master Servicer shall notify the Depositor and the Trustee thereof and the
Master Servicer shall issue such notice or take such other action as it deems appropriate.
(b) The Master Servicer, for the benefit of the Trustee and the Certificateholders,
shall enforce the obligations of each Servicer under the related Servicing Agreement, and shall,
in the event that a Servicer fails to perform its obligations in accordance with the related
Servicing Agreement, subject to the preceding paragraph, terminate the rights and obligations of
such Servicer thereunder and act as servicer of the related Mortgage Loans or cause the Trustee
to enter into a new Servicing Agreement with a successor Servicer selected by the Master
Servicer; provided, however, it is understood and acknowledged by the parties hereto that there
will be a period of transition (not to exceed 90 days) before the actual servicing functions can be
fully transferred to such successor Servicer. Such enforcement, including, without limitation, the
legal prosecution of claims, termination of the related Servicing Agreement and the pursuit of
other appropriate remedies, shall be in such form and carried out to such an extent and at such
time as the Master Servicer, in its good faith business judgment, would require were it the owner
of the related Mortgage Loans. The Master Servicer shall pay the costs of such enforcement at
its own expense, provided that the Master Servicer shall not be required to prosecute or defend
any legal action except to the extent that the Master Servicer shall have received reasonable
indemnity for its costs and expenses in pursuing such action.
(c) To the extent that the costs and expenses of the Master Servicer related to any
termination of a Servicer, appointment of a successor Servicer or the transfer and assumption of
servicing by the Master Servicer with respect to the related Servicing Agreement (including,
without limitation, (i) all legal costs and expenses and all due diligence costs and expenses
associated with an evaluation of the potential termination of a Servicer as a result of an event of
default by such Servicer and (ii) all costs and expenses associated with the complete transfer of
servicing, including all servicing files and all servicing data and the completion, correction or
manipulation of such servicing data as may be required by the successor servicer to correct any
errors or insufficiencies in the servicing data or otherwise to enable the successor servicer to
service the Mortgage Loans in accordance with the related Servicing Agreement) are not fully
and timely reimbursed by the terminated Servicer, the Master Servicer shall be entitled to
reimbursement of such costs and expenses from the Distribution Account.
(d) The Master Servicer shall require each Servicer to comply with the remittance
requirements and other obligations set forth in the related Servicing Agreement, including any
related Assignment Agreement. The Master Servicer shall enforce the obligation of each
Servicer pursuant to the related Servicing Agreement to provide it with the annual officer’s
certificate of compliance and annual independent accountants’ servicing reports, as well as backup certifications to each Master Servicer Certification pursuant to Section 3.18.
(e) If the Master Servicer acts as Servicer, it will not assume liability for the
representations and warranties of the Servicers, if any, that it replaces.
Section 3.04 Fidelity Bond. The Master Servicer, at its expense, shall maintain in
effect a blanket fidelity bond and an errors and omissions insurance policy, affording coverage
ny-srv01\COHENS\1053167v07\83772 010800

56
conﬁdential

Attachment F - Page 112

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 65 of 230
conﬁdential
A 415

with respect to all directors, officers, employees and other Persons acting on such Master
Servicer’s behalf, and covering errors and omissions in the performance of the Master Servicer’s
obligations hereunder. The amount of coverage to be maintained by the Master Servicer with
respect to the blanket fidelity bond policy shall be $50,000,000 per occurrence, and, with respect
to the errors and omissions insurance policy, shall be $20,000,000 per occurrence.
Section 3.05 Power to Act; Procedures. The Master Servicer shall master service the
Mortgage Loans and shall have full power and authority, subject to the REMIC Provisions and
the provisions of Article X hereof, to do any and all things that it may deem necessary or
desirable in connection with the master servicing and administration of the Mortgage Loans,
including but not limited to the power and authority (i) to execute and deliver, on behalf of the
Certificateholders and the Trustee, customary consents or waivers and other instruments and
documents, (ii) to consent to transfers of any Mortgaged Property and assumptions of the
Mortgage Notes and related Mortgages, (iii) to collect any Insurance Proceeds and Liquidation
Proceeds, and (iv) to effectuate foreclosure or other conversion of the ownership of the
Mortgaged Property securing any Mortgage Loan, in each case, in accordance with the
provisions of this Agreement and the related Servicing Agreement, as applicable; provided,
however, that the Master Servicer shall not (and, consistent with its responsibilities under
Section 3.03, shall not permit a Servicer to) knowingly or intentionally take any action, or fail to
take (or fail to cause to be taken) any action reasonably within its control and the scope of duties
more specifically set forth herein, that, under the REMIC Provisions, if taken or not taken, as the
case may be, would cause any REMIC hereunder to fail to qualify as a REMIC or result in the
imposition of a tax upon the Trust Fund (including but not limited to the tax on prohibited
transactions as defined in Section 860F(a)(2) of the Code and the tax on contributions to a
REMIC set forth in Section 860G(d) of the Code) unless the Master Servicer has received an
Opinion of Counsel (but not at the expense of the Master Servicer) to the effect that the
contemplated action will not cause any REMIC hereunder to fail to qualify as a REMIC or result
in the imposition of a tax upon any REMIC hereunder. The Trustee shall furnish the Master
Servicer, upon written request from a Servicing Officer, with any powers of attorney
empowering the Master Servicer or the related Servicer to execute and deliver instruments of
satisfaction or cancellation, or of partial or full release or discharge, and to foreclose upon or
otherwise liquidate Mortgaged Property, and to appear in, prosecute or defend any court action
relating to the Mortgage Loans or the Mortgaged Property, in accordance with the related
Servicing Agreement and this Agreement, and the Trustee shall execute and deliver such other
documents as the Master Servicer may request, to enable the Master Servicer to master service
and administer the Mortgage Loans and carry out its duties hereunder, in each case in accordance
with Accepted Master Servicing Practices (and the Trustee shall have no liability for misuse of
any such powers of attorney by the Master Servicer or a Servicer). If the Master Servicer or the
Trustee has been advised that it is likely that the laws of the state in which action is to be taken
prohibit such action if taken in the name of the Trustee or that the Trustee would be adversely
affected under the "doing business" or tax laws of such state if such action is taken in its name,
then the Master Servicer shall join with the Trustee in the appointment of a co-trustee pursuant to
Section 9.11 hereof. In the performance of its duties hereunder, the Master Servicer shall be an
independent contractor and shall not, except in those instances where it is taking action in the
name of the Trustee, be deemed to be the agent of the Trustee.

ny-srv0 I\COHENS\1053167v07\83772.010800

57
conﬁdential

Attachment F - Page 113

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 66 of 230
conﬁdential
A 416

The Trustee shall execute and deliver to the related Servicer any court pleadings, requests
for trustee’s sale or other documents necessary or desirable or relating to (i) the foreclosure or
trustee’s sale with respect to a Mortgaged Property; (ii) any legal action brought to obtain
judgment against any Mortgagor on the related Mortgage Note or related Mortgage; (iii)
obtaining a deficiency judgment against the related Mortgagor; or (iv) enforcing any other rights
or remedies provided by a Mortgage Note or related Mortgage or otherwise available at law or
equity.
Section 3.06 Due-on-Sale Clauses; Assumption Agreements. To the extent provided in
the related Servicing Agreement, to the extent Mortgage Loans contain enforceable due-on-sale
clauses, the Master Servicer shall cause the related Servicer to enforce such clauses in
accordance with the related Servicing Agreement. If applicable law prohibits the enforcement of
a due-on-sale clause or such clause is otherwise not enforced in accordance with the related
Servicing Agreement, and, as a consequence, a Mortgage Loan is assumed, the original
Mortgagor may be released from liability in accordance with the related Servicing Agreement.
Section 3.07 Release of Mortgage Files. (a) Upon becoming aware of the payment in
full of any Mortgage Loan, or the receipt by the related Servicer of a notification that payment in
full has been escrowed in a manner customary for such purposes for payment to
Certificateholders on the next Distribution Date, such Servicer will (and if such Servicer does
not, then the Master Servicer may), if required under the related Servicing Agreement, promptly
furnish to the Custodian, on behalf of the Trustee, two copies of a certification substantially in
the form of Exhibit D hereto signed by a Servicing Officer or in a mutually agreeable electronic
format which will, in lieu of a signature on its face, originate from a Servicing Officer (which
certification shall include a statement to the effect that all amounts received in connection with
such payment that are required to be deposited in the related Protected Account maintained by
such Servicer pursuant to Section 4.01 or by such Servicer pursuant to the related Servicing
Agreement have been or will be so deposited) and shall request that the Custodian, on behalf of
the Trustee, deliver to such Servicer the related Mortgage File. Upon receipt of such
certification and request, the Custodian, on behalf of the Trustee, shall promptly release the
related Mortgage File to the related Servicer, and the Trustee and Custodian shall have no further
responsibility with regard to such Mortgage File. Upon any such payment in full, the related
Servicer is authorized to give, as agent for the Trustee, as the mortgagee under the Mortgage that
secured the Mortgage Loan, an instrument of satisfaction (or assignment of mortgage without
recourse) regarding the Mortgaged Property subject to the Mortgage, which instrument of
satisfaction or assignment, as the case may be, shall be delivered to the Person or Persons
entitled thereto against receipt therefor of such payment, it being understood and agreed that no
expenses incurred in connection with such instrument of satisfaction or assignment, as the case
may be, shall be chargeable to the related Protected Account.
(b) From time to time and as appropriate for the servicing or foreclosure of any
Mortgage Loan and in accordance with the related Servicing Agreement, the Trustee shall
execute such documents as shall be prepared and furnished to the Trustee by the related Servicer
or the Master Servicer (in form reasonably acceptable to the Trustee) and as are necessary to the
prosecution of any such proceedings. The Custodian, on behalf of the Trustee, shall, upon the
request of the related Servicer or the Master Servicer, and delivery to the Custodian, on behalf of
the Trustee, of two copies of a Request for Release signed by a Servicing Officer substantially in
ny-srv0 I\COHENS\1053167v07\83772.010800

58
conﬁdential

Attachment F - Page 114

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 67 of 230
conﬁdential
A 417

the form of Exhibit D (or in a mutually agreeable electronic format which will, in lieu of a
signature on its face, originate from a Servicing Officer), release the related Mortgage File held
in its possession or control to such Servicer or the Master Servicer, as applicable. Such trust
receipt shall obligate the related Servicer or the Master Servicer to return the Mortgage File to
the Custodian on behalf of the Trustee when the need therefor by such Servicer or the Master
Servicer no longer exists, unless the Mortgage Loan shall be liquidated, in which case, upon
receipt of a certificate of a Servicing Officer similar to that hereinabove specified, the Mortgage
File shall be released by the Custodian, on behalf of the Trustee, to the related Servicer or the
Master Servicer.
(c) The Master Servicer hereby covenants that it shall not alter the codes referenced
in Section 4(c) of the Mortgage Loan Purchase Agreement, with respect to any Mortgage Loan
during the term of this Agreement, unless and until such Mortgage Loan is repurchased in
accordance with the terms of this Agreement.
Section 3.08 Documents, Records and Funds in Possession of Master Servicer To Be
Held for Trustee.

(a) The Master Servicer shall transmit and the Servicers (to the extent required by the
related Servicing Agreement) shall transmit to the Trustee or Custodian such documents and
instruments coming into the possession of the Master Servicer or the Servicers from time to time
as are required by the terms hereof, or in the case of the Servicers, the related Servicing
Agreement, to be delivered to the Trustee or Custodian. Any funds received by the Master
Servicer or by the related Servicer in respect of any Mortgage Loan or which otherwise are
collected by the Master Servicer or by such Servicer as Liquidation Proceeds or Insurance
Proceeds in respect of any Mortgage Loan shall be held for the benefit of the Trustee and the
Certificateholders subject to the Master Servicer’s right to retain the Master Servicing
Compensation and other amounts provided in this Agreement, and to the right of such Servicer to
retain its Servicing Fee and other amounts as provided in the related Servicing Agreement. The
Master Servicer shall, and (to the extent provided in the related Servicing Agreement) shall cause
the Servicers to, provide access to information and documentation regarding the Mortgage Loans
to the Trustee, the Securities Administrator and their respective agents and accountants at any
time upon reasonable request and during normal business hours, and to Certificateholders that
are savings and loan associations, banks or insurance companies, the Office of Thrift
Supervision, the FDIC and the supervisory agents and examiners of such Office and Corporation
or examiners of any other federal or state banking or insurance regulatory authority if so required
by applicable regulations of the Office of Thrift Supervision or other regulatory authority, such
access to be afforded without charge but only upon reasonable request in writing and during
normal business hours at the offices of the Master Servicer designated by it. In fulfilling such a
request the Master Servicer shall not be responsible for determining the sufficiency of such
information.
(b) All Mortgage Files and funds collected or held by, or under the control of, the
Master Servicer in respect of any Mortgage Loans, whether from the collection of principal and
interest payments or from Liquidation Proceeds or Insurance Proceeds, shall be held by the
Master Servicer for and on behalf of the Trustee and the Certificateholders and shall be and
remain the sole and exclusive property of the Trustee; provided, however, that the Master
ny-srv0 I\COHENS\1053167v07\83772 010800

59
conﬁdential

Attachment F - Page 115

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 68 of 230
conﬁdential
A 418
Servicer and the Servicers shall be entitled to setoff against, and deduct from, any such funds any
amounts that are properly due and payable to the Master Servicer or such Servicer under this
Agreement or the related Servicing Agreement.

Section 3.09 Standard Hazard Insurance and Flood Insurance Policies.
(a) For each Mortgage Loan, the Master Servicer shall enforce any obligation of the
Servicer under the related Servicing Agreement to maintain or cause to be maintained standard
fire and casualty insurance and, where applicable, flood insurance, all in accordance with the
provisions of the related Servicing Agreement. It is understood and agreed that such insurance
shall be with insurers meeting the eligibility requirements set forth in the related Servicing
Agreement and that no earthquake or other additional insurance is to be required of any
Mortgagor or to be maintained on property acquired in respect of a defaulted Mortgage Loan,
other than pursuant to such applicable laws and regulations as shall at any time be in force and as
shall require such additional insurance.
(b) Pursuant to Section 4.01, any amounts collected by a Servicer or the Master
Servicer under any insurance policies (other than amounts to be applied to the restoration or
repair of the property subject to the related Mortgage or released to the Mortgagor in accordance
with the related Servicing Agreement) shall be deposited into the Distribution Account, subject
to withdrawal pursuant to Section 4.03. Any cost incurred by the Master Servicer or the related
Servicer in maintaining any such insurance (if the Mortgagor defaults in its obligation to do so)
shall be added to the amount owing under the Mortgage Loan where the terms of the Mortgage
Loan so permit; provided, however, that the addition of any such cost shall not be taken into
account for purposes of calculating the distributions to be made to Certificateholders and shall be
recoverable by the Master Servicer or such Servicer pursuant to Sections 4.01 and 4.03.
Section 3.10 Presentment of Claims and Collection of Proceeds. The Master Servicer
shall (to the extent provided in the Servicing Agreements) cause each Servicer to prepare and
present on behalf of the Trustee and the Certificateholders all claims under the Insurance Policies
and take such actions (including the negotiation, settlement, compromise or enforcement of the
insured’s claim) as shall be necessary to realize recovery under such policies. Any proceeds
disbursed to the Master Servicer (or disbursed to a Servicer and remitted to the Master Servicer)
in respect of such policies, bonds or contracts shall be promptly deposited in the Distribution
Account upon receipt, except that any amounts realized that are to be applied to the repair or
restoration of the related Mortgaged Property as a condition precedent to the presentation of
claims on the related Mortgage Loan to the insurer under any applicable Insurance Policy need
not be so deposited (or remitted).
Section 3.11 Maintenance of the Primary Mortgage Insurance Policies.
(a) The Master Servicer shall not take, or permit a Servicer (to the extent such action
is prohibited under the related Servicing Agreement) to take, any action that would result in
noncoverage under any applicable Primary Mortgage Insurance Policy of any loss which, but for
the actions of such Master Servicer or Servicer, would have been covered thereunder. The
Master Servicer shall use its best reasonable efforts to cause each Servicer (to the extent required
under the related Servicing Agreement) to keep in force and effect (to the extent that the

ny-srv0 I\COHENS\1053167v07\83772.010800

60
conﬁdential

Attachment F - Page 116

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 69 of 230
conﬁdential
A 419
Mortgage Loan requires the Mortgagor to maintain such insurance) primary mortgage insurance
applicable to each Mortgage Loan in accordance with the provisions of this Agreement and the
related Servicing Agreement, as applicable. The Master Servicer shall not, and shall not permit a
Servicer (to the extent required under the related Servicing Agreement) to, cancel or refuse to
renew any such Primary Mortgage Insurance Policy that is in effect at the date of the initial
issuance of the Mortgage Note and is required to be kept in force hereunder except in accordance
with the provisions of this Agreement and the related Servicing Agreement, as applicable.
(b) The Master Servicer agrees to present, or to cause each Servicer (to the extent
required under the related Servicing Agreement) to present, on behalf of the Trustee and the
Certificateholders, claims to the insurer under any Primary Mortgage Insurance Policies and, in
this regard, to take such reasonable action as shall be necessary to permit recovery under any
Primary Mortgage Insurance Policies respecting defaulted Mortgage Loans. Any amounts
collected by the Master Servicer or the related Servicer under any Primary Mortgage Insurance
Policies shall be deposited in the Distribution Account, subject to withdrawal pursuant to Section
4.03.
Section3.12 Trustee to Retain Possession of Certain Insurance Policies and
Documents.

The Trustee (or the Custodian, as directed by the Trustee), shall retain possession and
custody of the originals (to the extent available) of any Primary Mortgage Insurance Policies, or
certificate of insurance, if applicable, and any certificates of renewal as to the foregoing as may
be issued from time to time as contemplated by this Agreement. Until all amounts distributable
in respect of the Certificates have been distributed in full and the Master Servicer otherwise has
fulfilled its obligations under this Agreement, the Trustee (or its Custodian, if any, as directed by
the Trustee) shall also retain possession and custody of each Mortgage File in accordance with
and subject to the terms and conditions of this Agreement. The Master Servicer shall promptly
deliver or cause to be delivered to the Trustee (or the Custodian, as directed by the Trustee),
upon the execution or receipt thereof the originals of any Primary Mortgage Insurance Policies,
any certificates of renewal, and such other documents or instruments that constitute portions of
the Mortgage File that come into the possession of the Master Servicer from time to time.
Section 3.13 Realization Upon Defaulted Mortgage Loans. The Master Servicer shall
cause each Servicer (to the extent required under the related Servicing Agreement) to foreclose
upon, repossess or otherwise comparably convert the ownership of Mortgaged Properties
securing such of the Mortgage Loans as come into and continue in default and as to which no
satisfactory arrangements can be made for collection of delinquent payments, all in accordance
with the related Servicing Agreement.
Section 3.14 Compensation for the Servicers and the Master Servicer.
The Master Servicer will be entitled to all income and gain realized from any investment
of funds in the Distribution Account from the Servicer Remittance Date in each calendar month
to the related Distribution Date (the "Master Servicing Compensation"). Servicing compensation
in the form of assumption fees, if any, late payment charges, as collected, if any, or otherwise
(but not including any prepayment premium or penalty) shall be retained by the related Servicer

ny-srv0 I\COHENS\1053167v07\83772.010800

61
conﬁdential

Attachment F - Page 117

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 70 of 230
conﬁdential
A 420

and shall not be deposited in the related Protected Account. The Master Servicer will be entitled
to retain, as additional compensation, any interest remitted by the related Servicer in connection
with a Principal Prepayment in full or otherwise in excess of amounts required to be remitted to
the Distribution Account. The Master Servicer shall be required to pay all expenses incurred by
it in connection with its activities hereunder and shall not be entitled to reimbursement therefor
except as provided in this Agreement.
Section 3.15 REO Property.

(a) In the event the Trust Fund acquires ownership of any REO Property in respect of
any related Mortgage Loan, the deed or certificate of sale shall be issued to the Trustee, or to its
nominee, on behalf of the related Certificateholders. The Master Servicer shall, to the extent
provided in the Servicing Agreements, cause the related Servicer to sell any REO Property as
expeditiously as possible and in accordance with the provisions of this Agreement and the related
Servicing Agreement, as applicable. Pursuant to its efforts to sell such REO Property, the Master
Servicer shall cause the related Servicer to protect and conserve such REO Property in the
manner and to the extent required by the related Servicing Agreement, in accordance with the
REMIC Provisions and in a manner that does not result in a tax on "net income from foreclosure
property" or cause such REO Property to fail to qualify as "foreclosure property" within the
meaning of Section 860G(a)(8) of the Code.
(b) The Master Servicer shall, to the extent required by the Servicing Agreements,
cause the related Servicer to deposit all funds collected and received in connection with the
operation of any REO Property in the related Protected Account.
(c) The Master Servicer and the related Servicer, upon the final disposition of any
REO Property, shall be entitled to reimbursement for any related unreimbursed Monthly
Advances and other unreimbursed advances as well as any unpaid Servicing Fees from
Liquidation Proceeds received in connection with the final disposition of such REO Property;
provided, that any such unreimbursed Monthly Advances as well as any unpaid Servicing Fees
may be reimbursed or paid, as the case may be, prior to final disposition, out of any net rental
income or other net amounts derived from such REO Property.
(d) To the extent provided in the Servicing Agreements, the Liquidation Proceeds
from the final disposition of the REO Property, net of any payment to the Master Servicer and
the related Servicer as provided above, shall be deposited in the related Protected Account on or
prior to the Determination Date in the month following receipt thereof and be remitted by wire
transfer in immediately available funds to the Master Servicer for deposit into the Distribution
Account on the next succeeding Servicer Remittance Date.
Section 3.16 Annual Officer’s Certificate as to Compliance.

(a) The Master Servicer shall deliver to the Trustee and the Rating Agencies on or
before March 1 of each year, commencing on March 1, 2006, an Officer’ s Certificate, certifying
that with respect to the year ending December 31 of the prior year: (i) such Servicing Officer has
reviewed the activities of such Master Servicer during the preceding calendar year or portion
thereof and its performance under this Agreement, (ii) to the best of such Servicing Officer’s
ny-srv0 I\COHENS\1053167v07\83772.010800

62
conﬁdential

Attachment F - Page 118

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 71 of 230
conﬁdential
A 421

knowledge, based on such review, such Master Servicer has performed and fulfilled its duties,
responsibilities and obligations under this Agreement in all material respects throughout such
year, or, if there has been a default in the fulfillment of any such duties, responsibilities or
obligations, specifying each such default known to such Servicing Officer and the nature and
status thereof, and (iii) nothing has come to the attention of such Servicing Officer to lead such
Servicing Officer to believe that a Servicer has failed to perform any of its duties, responsibilities
and obligations under the related Servicing Agreement in all material respects throughout such
year, or, if there has been a material default in the performance or fulfillment of any such duties,
responsibilities or obligations, specifying each such default known to such Servicing Officer and
the nature and status thereof.
(b) Copies of such statements shall be provided to any Certificateholder upon request,
by the Master Servicer or by the Trustee at the Master Servicer’s expense if the Master Servicer
failed to provide such copies (unless (i) the Master Servicer shall have failed to provide the
Trustee with such statement or (ii) the Trustee shall be unaware of the Master Servicer’s failure
to provide such statement).
Section3.17 Annual Independent Accountant’s Servicing Report. If the Master
Servicer has, during the course of any fiscal year, directly serviced any of the Mortgage Loans,
then the Master Servicer at its expense shall cause a nationally recognized firm of independent
certified public accountants to furnish a statement to the Trustee, the Rating Agencies and the
Depositor on or before March 1 of each year, commencing on March 1, 2006, to the effect that,
with respect to the most recently ended fiscal year, such firm has examined certain records and
documents relating to the Master Servicer’s performance of its servicing obligations under this
Agreement and pooling and servicing and trust agreements in material respects similar to this
Agreement and to each other and that, on the basis of such examination conducted substantially
in compliance with the Audit Program for Mortgages Serviced for Freddie Mac or the Uniform
Single Attestation Program for Mortgage Bankers, such firm is of the opinion that the Master
Servicer’s activities have been conducted in compliance with this Agreement, or that such
examination has disclosed no material items of noncompliance except for (i) such exceptions as
such firm believes to be immaterial, (ii) such other exceptions as are set forth in such statement
and (iii) such exceptions that the Uniform Single Attestation Program for Mortgage Bankers or
the Audit Program for Mortgages Serviced by Freddie Mac requires it to report. Copies of such
statements shall be provided by the Master Servicer to any Certificateholder upon request, or by
the Trustee at the expense of the Master Servicer if the Master Servicer shall fail to provide such
copies. If such report discloses exceptions that are material, the Master Servicer shall advise the
Trustee whether such exceptions have been or are susceptible of cure, and will take prompt
action to do so.
Section 3.18 Reports Filed with Securities and Exchange Commission. (a) Within 15
days after each Distribution Date, the Securities Administrator shall, in accordance with industry
standards, file with the Commission via the Electronic Data Gathering and Retrieval System
("EDGAR"), a Form 8-K (or other comparable form containing the same or comparable
information, or other information mutually agreed upon) with a copy of the statement to the
Certificateholders for such Distribution Date as an exhibit thereto. Prior to January 30 in any
year, the Securities Administrator shall, in accordance with industry standards and only if
instructed by the Depositor, file a Form 15 Suspension Notice with respect to the Trust Fund, if
ny-srv01\COHENS\1053167v07\83772.010800

63
conﬁdential

Attachment F - Page 119

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 72 of 230
conﬁdential
A 422

applicable. Prior to (i) March 15, 2006 and (ii) unless and until a Form 15 Suspension Notice
shall have been filed, prior to March 15 of each year thereafter, the Master Servicer shall provide
the Securities Administrator with a Master Servicer Certification, together with a copy of the
annual independent accountant’s servicing report and annual statement of compliance of each
Servicer, in each case, required to be delivered pursuant to the related Servicing Agreement, and,
if applicable, the annual statement of compliance and the annual independent accountant’s
servicing report to be delivered by the Master Servicer pursuant to Sections 3.16 and 3.17. Prior
to (i) March 31, 2006, or such earlier filing date as may be required by the Commission, and (ii)
unless and until a Form 15 Suspension Notice shall have been filed, March 31 of each year
thereafter, or such earlier filing date as may be required by the Commission, the Securities
Administrator shall prepare and file a Form 10-K, in substance conforming to industry standards,
with respect to the Trust. Such Form 10-K shall include the Master Servicer Certification and
other documentation provided by the Master Servicer pursuant to the second preceding sentence.
The Depositor hereby grants to the Securities Administrator a limited power of attorney to
execute and file each such document on behalf of the Depositor. Such power of attorney shall
continue until either the earlier of (i) receipt by the Securities Administrator from the Depositor
of written termination of such power of attorney and (ii) the termination of the Trust Fund. The
Depositor agrees to promptly furnish to the Securities Administrator, from time to time upon
request, such further information, reports and financial statements within its control related to
this Agreement and the Mortgage Loans as the Securities Administrator reasonably deems
appropriate to prepare and file all necessary reports with the Commission. The Securities
Administrator shall have no responsibility to file any items other than those specified in this
Section 3.18; provided, however, the Securities Administrator will cooperate with the Depositor
in connection with any additional filings with respect to the Trust Fund as the Depositor deems
necessary under the Securities Exchange Act of 1934, as amended (the "Exchange Act").
(b) The Master Servicer shall indemnify and hold harmless the Depositor, the Trustee
and their respective officers, directors and Affiliates from and against any losses, damages,
penalties, fines, forfeitures, reasonable and necessary legal fees and related costs, judgments and
other costs and expenses arising out of or based upon a breach of the Master Servicer’s
obligations under this Section 3.18 or the Master Servicer’s negligence, bad faith or willful
misconduct in connection therewith. Fees and expenses incurred by the Master Servicer in
connection with this Section 3.18 shall not be reimbursable from the Trust Fund.
Section 3.19 EMC. On the Closing Date, EMC will receive from the Depositor a
payment of $5,000.

Section 3.20 UCC. The Depositor shall inform the Trustee in writing of any Uniform
Commercial Code financing statements that were filed on the Closing Date in connection with
the Trust with stamped recorded copies of such financing statements to be delivered to the
Trustee promptly upon receipt by the Depositor. The Trustee agrees to monitor and notify the
Depositor if any continuation statements for such Uniform Commercial Code financing
statements need to be filed. If directed by the Depositor in writing, the Trustee will file any such
continuation statements solely at the expense of the Depositor. The Depositor shall file any
financing statements or amendments thereto required by any change in the Uniform Commercial
Code.

ny-srv0 I\COHENS\1053167v07\83772.010800

64
conﬁdential

Attachment F - Page 120

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 73 of 230
conﬁdential
A 423

Section 3.21 Optional Purchase of Defaulted Mortgage Loans. With respect to any
Mortgage Loan which as of the first day of a Fiscal Quarter is delinquent in payment by 90 days
or more or is an REO Property, EMC shall have the right to purchase such Mortgage Loan from
the Trust at a price equal to the Repurchase Price; provided, however, (i) that such Mortgage
Loan is still 90 days or more delinquent or is an REO Property as of the date of such purchase
and (ii) this purchase option, if not theretofore exercised, shall terminate on the date prior to the
last day of the related Fiscal Quarter. This purchase option, if not exercised, shall not be
thereafter reinstated unless the delinquency is cured and the Mortgage Loan thereafter again
becomes 90 days or more delinquent or becomes an REO Property, in which case the option
shall again become exercisable as of the first day of the related Fiscal Quarter.
In addition, EMC shall, at its option, purchase any Mortgage Loan from the Trust if the
first Due Date for such Mortgage Loan is subsequent to the Cut-off Date, and the initial Monthly
Payment with respect to such Mortgage Loan is not made within thirty (30) days of such Due
Date. Such purchase shall be made at a price equal to the Repurchase Price.
If at any time EMC remits to the Paying Agent a payment for deposit in the Distribution
Account covering the amount of the Repurchase Price for such a Mortgage Loan, and EMC
provides to the Trustee and the Master Servicer a certification signed by a Servicing Officer
stating that the amount of such payment has been deposited in the Distribution Account, then the
Trustee shall execute the assignment of such Mortgage Loan at the request of EMC, without
recourse, to EMC which shall succeed to all the Trustee’s right, title and interest in and to such
Mortgage Loan, and all security and documents relative thereto. Such assignment shall be an
assignment outright and not for security. EMC will thereupon own such Mortgage Loan, and all
such security and documents, free of any further obligation to the Trustee or the
Certificateholders with respect thereto.
ARTICLE IV
Accounts
Section 4.01 Protected Accounts. (a) The Master Servicer shall enforce the obligation
of each respective Servicer to establish and maintain a Protected Account in accordance with the
related Servicing Agreement, with records to be kept with respect thereto on a Mortgage Loan by
Mortgage Loan basis, into which Protected Account shall be deposited, within 48 hours (or as of
such other time specified in the related Servicing Agreement) of receipt thereof, all collections of
principal and interest on any Mortgage Loan and with respect to any REO Property received by
the related Servicer, including Principal Prepayments, Insurance Proceeds, Liquidation Proceeds,
and advances made from such Servicer’s own funds (less servicing compensation as permitted
by the related Servicing Agreement) and all other amounts to be deposited in the related
Protected Account. Each Servicer is hereby authorized to make withdrawals from and deposits
to the related Protected Account for purposes required or permitted by this Agreement. To the
extent provided in the related Servicing Agreement, the related Protected Account shall be held
in a Designated Depository Institution and segregated as a trust account on the books of such
institution in the name of the Trustee for the benefit of Certificateholders.
(b) To the extent provided in a Servicing Agreement, amounts on deposit in the
related Protected Account may be invested in Permitted Investments in the name of the Trustee
ny-srv0 I\COHENS\1053167v07\83772.010800

65
conﬁdential

Attachment F - Page 121

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 74 of 230
conﬁdential
A 424

for the benefit of Certificateholders and, except as provided in the preceding paragraph, not
commingled with any other funds, such Permitted Investments to mature, or to be subject to
redemption or withdrawal, no later than the date on which such funds are required to be
withdrawn for deposit in the Distribution Account, and shall be held until required for such
deposit. The income earned from Permitted Investments made pursuant to this Section 4.01 shall
be paid to the related Servicers under the related Servicing Agreement, and the risk of loss of
moneys required to be distributed to the Certificateholders resulting from such investments shall
be borne by and be the risk of the related Servicer. Each Servicer (to the extent provided in the
related Servicing Agreement) shall deposit the amount of any such loss in the related Protected
Account within two Business Days of receipt of notification of such loss but not later than the
second Business Day prior to the Distribution Date on which the moneys so invested are required
to be distributed to the Certificateholders.
(c) To the extent provided in a Servicing Agreement and subject to this Article IV, on
or before each Servicer Remittance Date, the Master Servicer shall (if acting as a successor
servicer to a Servicer), or shall cause the related Servicer to, withdraw or shall cause to be
withdrawn from the related Protected Account, and shall immediately deposit or cause to be
deposited in the Distribution Account, amounts representing the following collections and
payments (other than with respect to principal of or interest on the Mortgage Loans due on or
before the Cut-offDate) with respect to each Mortgage Loan serviced by it:
(i) Scheduled Payments on the Mortgage Loans received or any related
portion thereof advanced by the related Servicer pursuant to the related Servicing
Agreement which were due on or before the related Due Date, net of the amount thereof
comprising the related Servicing Fee or any fees with respect to any lender-paid primary
mortgage insurance policy;
(ii) Full Principal Prepayments and any Liquidation Proceeds received by the
related Servicer with respect to such Mortgage Loans in the related Prepayment Period
(or, in the case of Subsequent Recoveries, during the related Due Period), with interest to
the date of prepayment or liquidation, net of the amount thereof comprising the related
Servicing Fee;
(iii) Partial Principal Prepayments received by the related Servicer for such
Mortgage Loans in the related Prepayment Period;
(iv) All funds collected and received in connection with the operation of any
REO Property, and Liquidation Proceeds received upon the final disposition of any REO
Property (net of any unreimbursed Monthly Advances, other advances of the related
Servicer or Master Servicer with respect thereto, and unpaid related Servicing Fees with
respect thereto); and
(v)

Any amount to be used as a Monthly Advance.

(d) Withdrawals may be made from a Protected Account only to make remittances as
provided in Section 4.01 (c); to reimburse the Master Servicer or the related Servicer for Monthly
Advances which have been recovered by subsequent collection from the related Mortgagor; to
ny-srv0 I\COHENS\1053167v07\83772 010800

66
conﬁdential

Attachment F - Page 122

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 75 of 230
conﬁdential
A 425

remove amounts deposited in error; to remove fees, charges or other such amounts deposited on
a temporary basis; or to clear and terminate the account at the termination of this Agreement in
accordance with Section 10.01. As provided in Section 4.01(c), certain amounts otherwise due
to the related Servicers may be retained by them and need not be deposited in the Distribution
Account.
Section 4.02 Distribution Account. (a) The Paying Agent shall establish and maintain
in the name of the Paying Agent, for the benefit of the Certificateholders, the Distribution
Account as a segregated trust account or accounts. On the Closing Date, the Depositor shall
deposit the Deposit Amount into the Distribution Account.
(b) All amounts deposited to the Distribution Account shall be held by the Paying
Agent in the name of the Paying Agent in trust for the benefit of the Certificateholders in
accordance with the terms and provisions of this Agreement.

(c) The Distribution Account shall constitute a trust account of the Trust Fund
segregated on the books of the Paying Agent. The Distribution Account shall be an Eligible
Account. The Distribution Account and the funds deposited therein shall not be subject to, and
shall be protected from, all claims, liens, and encumbrances of any creditors or depositors of the
Trustee, the Paying Agent, the Securities Administrator or the Master Servicer (whether made
directly, or indirectly through a liquidator or receiver of the Trustee, the Paying Agent, the
Securities Administrator or the Master Servicer). The amount at any time credited to the
Distribution Account shall, if invested, be invested in the name of the Trustee, in such Permitted
Investments selected by the Master Servicer. All Permitted Investments shall mature or be
subject to redemption or withdrawal on or before, and shall be held until, the next succeeding
Distribution Date if the obligor for such Permitted Investment is the Paying Agent or, if such
obligor is any other Person, the Business Day preceding such Distribution Date. All investment
earnings from Permitted Investments in the Distribution Account from time to time shall be for
the account of the Master Servicer. The Master Servicer shall be permitted to withdraw or
receive distribution of any and all investment earnings from the Distribution Account on each
Distribution Date. If there is any loss on a Permitted Investment or demand deposit, the Master
Servicer shall promptly remit the amount of the loss to the Paying Agent, who shall deposit such
amount in the Distribution Account. With respect to the Distribution Account and the funds
deposited therein, the Paying Agent shall take such action as may be necessary to ensure that the
Certificateholders shall be entitled to the priorities afforded to such a trust account (in addition to
a claim against the estate of the Paying Agent) as provided by 12 U.S.C. § 92a(e), and applicable
regulations pursuant thereto, if applicable, or any applicable comparable state statute applicable
to state chartered banking corporations.
Section 4.03 Permitted Withdrawals and Transfers from the Distribution Account. (a)
The Paying Agent will, from time to time on demand of the Master Servicer or the Securities
Administrator, make or cause to be made such withdrawals or transfers from the Distribution
Account as the Master Servicer has designated for such transfer or withdrawal pursuant to the
related Servicing Agreement or this Agreement or as the Securities Administrator has instructed
hereunder for the following purposes:

ny-srv01\COHENS\1053167v07\83772 010800

67
conﬁdential

Attachment F - Page 123

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 76 of 230
conﬁdential
A 426

(i) to reimburse the Master Servicer or the related Servicer for any Monthly
Advance of its own funds or any advance of such Master Servicer’s or Servicer’s own
funds, the right of the Master Servicer or a Servicer to reimbursement pursuant to this
subclause (i) being limited to amounts received on a particular Mortgage Loan
(including, for this purpose, the Repurchase Price therefor, Insurance Proceeds and
Liquidation Proceeds) which represent late payments or recoveries of the principal of or
interest on such Mortgage Loan respecting which such Monthly Advance or advance was
made;
(ii) to reimburse the Master Servicer or the related Servicer from Insurance
Proceeds or Liquidation Proceeds relating to a particular Mortgage Loan for amounts
expended by the Master Servicer or the related Servicer in good faith in connection with
the restoration of the related Mortgaged Property which was damaged by an Uninsured
Cause or in connection with the liquidation of such Mortgage Loan;
(iii) to reimburse the Master Servicer or the related Servicer from Insurance
Proceeds relating to a particular Mortgage Loan for insured expenses incurred with
respect to such Mortgage Loan and to reimburse the Master Servicer or the related
Servicer from Liquidation Proceeds from a particular Mortgage Loan for Liquidation
Expenses incurred with respect to such Mortgage Loan; provided that the Master Servicer
shall not be entitled to reimbursement for Liquidation Expenses with respect to a
Mortgage Loan to the extent that (i) any amounts with respect to such Mortgage Loan
were paid as Excess Liquidation Proceeds pursuant to clause (x) of this Subsection
4.03(a) to the Master Servicer, and (ii) such Liquidation Expenses were not included in
the computation of such Excess Liquidation Proceeds;
(iv) to pay the Master Servicer or the related Servicer, as appropriate, from
Liquidation Proceeds or Insurance Proceeds received in connection with the liquidation
of any Mortgage Loan, the amount which the Master Servicer or the related Servicer
would have been entitled to receive under subclause (xi) of this Subsection 4.03(a) as
servicing compensation on account of each defaulted Scheduled Payment on such
Mortgage Loan if paid in a timely manner by the related Mortgagor;
(v) to pay the related Servicer from the Repurchase Price for any Mortgage
Loan, the amount which the related Servicer would have been entitled to receive under
subclause (xi) of this Subsection 4.03(a) as servicing compensation;
(vi) to reimburse the Master Servicer or the related Servicer for advances of
funds, and the right to reimbursement pursuant to this subclause being limited to amounts
received on the related Mortgage Loan (including, for this purpose, the Repurchase Price
therefor, Insurance Proceeds and Liquidation Proceeds) which represent late recoveries of
the payments for which such advances were made;
(vii) to reimburse the Master Servicer or the related Servicer for any Monthly
Advance or advance, after a Realized Loss has been allocated with respect to the related
Mortgage Loan, if the Monthly Advance or advance has not been reimbursed pursuant to
clauses (i) and (vi);
ny-srv0 l\COHENS\1053167v07\83772.010800

68
conﬁdential

Attachment F - Page 124

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 77 of 230
conﬁdential
A 427

(viii) to pay the Master Servicer as set forth in Section 3.14;
(ix) to reimburse the Master Servicer for expenses, costs and liabilities
incurred by and reimbursable to it pursuant to Sections 3.03, 7.04(c) and 7.04 (d);
(x) to pay to the Master Servicer, as additional servicing compensation, any
Excess Liquidation Proceeds to the extent not retained by the related Servicer;

(xi) to reimburse or pay a Servicer any such amounts as are due thereto under
the related Servicing Agreement and have not been retained by or paid to such Servicer,
to the extent provided in the related Servicing Agreement;
(xii) to reimburse or pay the Trustee, the Securities Administrator or the
Custodian for fees, expenses, costs and liabilities incurred by and reimbursable or
payable to it pursuant to this Agreement and not otherwise reimbursable or payable to it;
(xiii) to remove amounts deposited in error;

and

(xiv) to clear and terminate the Distribution Account pursuant to Section 10.01;

(xv) on the first Distribution Date, to withdraw an amount equal to the Deposit
Amount from the Distribution Account and distribute such amount to the holders of the
Class R-I, Class R-II and Class R-III Certificates, pro rata, until their respective Current
Principal Amounts have been reduced to zero.
(b) The Master Servicer shall keep and maintain separate accounting, on a Mortgage
Loan by Mortgage Loan basis, for the purpose of accounting for any reimbursement from the
Distribution Account pursuant to subclauses (i) through (vii), inclusive, and (x).
(c) On each Distribution Date, the Paying Agent shall distribute the Available Funds
to the extent on deposit in the Distribution Account for each Loan Group to the Holders of the
Certificates (other than the Residual Certificates) in accordance with distribution instructions
provided to it by the Securities Administrator no later than two Business Days prior to such
Distribution Date and determined by the Securities Administrator in accordance with Section
6.01.
Section 4.04 Distribution of Group I Carryover Shortfall Amount; Group I Carryover
Shortfall Reserve Fund.
(a) On the Closing Date, the Paying Agent shall establish and maintain, in trust for
the benefit of the holders of the Class I-A-1 Certificates and the Class I-A-2 Certificates, a
segregated trust account or sub-account of a trust account, which shall be titled "Group I
Carryover Shortfall Reserve Fund, JPMorgan Chase Bank, N.A., as trustee for the benefit of
holders of Structured Asset Mortgage Investments II Trust 2005-AR2, Mortgage Pass-Through
Certificates, Series 2005-AR2, Class I-A-1 and Class I-A-2" (the "Group I Carryover Shortfall
Reserve Fund"). The Paying Agent shall, promptly upon receipt, deposit in the Group I
Carryover Shortfall Reserve Fund an amount equal to $5,000 to be remitted on the Closing Date
ny-srv0 I\COHENS\1053167v07\83772.010800

69
conﬁdential

Attachment F - Page 125

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 78 of 230
conﬁdential
A 428
to the Paying Agent by the Depositor. On each Distribution Date, the Paying Agent shall
transfer from the Distribution Account to the Group I Carryover Shortfall Reserve Fund the
amounts specified pursuant to Section 6.01(a)(A). On each Distribution Date, to the extent
required, the Paying Agent shall make withdrawals from the Group I Carryover Shortfall
Reserve Fund and use the amounts in the Group I Carryover Shortfall Reserve Fund to make
distributions pro rata to the Class I-A-1 and Class I-A-2 Certificates, in an amount equal to the
amount of any Group I Carryover Shortfall Amount on such Certificates, pursuant to Section
6.01(a)(G). Any such amounts transferred shall be treated for federal tax purposes as amounts
distributed by REMIC III to the Class I-X Certificateholders as transferee thereof. For federal
tax return and information reporting purposes, the rights of the Holders of the Class I-A-1 and
Class I-A-2 Certificates to receive such distributions shall be assigned a value determined by the
Depositor and reported by it to the Securities Administrator.
(b) The Group I Carryover Shortfall Reserve Fund shall be an Eligible Account.
Amounts held in the Group I Carryover Shortfall Reserve Fund from time to time shall continue
to constitute assets of the Trust Fund, but not of the REMICs, until released from the Group I
Carryover Shortfall Reserve Fund pursuant to this Section 4.04 and Section 6.01(a)(G). The
Group I Carryover Shortfall Reserve Fund constitutes an "outside reserve fund" within the
meaning of Treasury Regulation § 1.860G-2(h) and is not an asset of the REMICs. The Class IX Certificateholders shall be the owners of the Group I Carryover Shortfall Reserve Fund, and
for all federal tax purposes, amounts transferred by the REMICs to the Group I Carryover
Shortfall Reserve Fund shall be treated as amounts distributed l~y the REMICs to the Class I-X
Certificateholders. The Paying Agent shall keep records that accurately reflect the funds on
deposit in the Group I Carryover Shortfall Reserve Fund.

(c) The Paying Agent will invest funds deposited in the Group I Carryover Shortfall
Reserve Fund as directed by the Class I-X Certificateholders in writing in Permitted Investments
with a maturity date (i) no later than the Business Day immediately preceding the date on which
such funds are required to be withdrawn from the Group I Carryover Shortfall Reserve Fund
pursuant to this Agreement, if a Person other than the Paying Agent or an Affiliate of the Paying
Agent manages or advises such Permitted Investment, or (ii) no later than the date on which such
funds are required to be withdrawn from the Group I Carryover Shortfall Reserve Fund pursuant
to this Agreement, if the Paying Agent or an Affiliate of the Paying Agent manages or advises
such Permitted Investment. If no written direction with respect to such Permitted Investment
shall be received by the Paying Agent from the Class I-X Certificateholders, then funds in the
Group I Carryover Shortfall Reserve Fund shall remain uninvested. All income and gain
realized from investment of funds deposited in the Group I Carryover Shortfall Reserve Fund
shall be for the sole and exclusive benefit of the Class I-X Certificateholders and shall be
remitted by the Paying Agent to the Class I-X Certificateholders no later than the first Business
Day following receipt of such income and gain by the Paying Agent. The Class I-X
Certificateholders shall deposit in the Group I Carryover Shortfall Reserve Fund the amount of
any net loss incurred in respect of any such Permitted Investment immediately upon realization
of such loss, without any right of reimbursement therefor.
Section 4.05 Distribution of Group II Carryover Shortfall Amount; Group II Carryover
Shortfall Reserve Fund. (a) On the Closing Date, the Paying Agent shall establish and maintain,
in trust for the benefit of Class II-A-1 Certificates, the Class II-A-2 Certificates, and the Class IIny-srv0 I\COHENS\1053167v07\83772.010800

70
conﬁdential

Attachment F - Page 126

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 79 of 230
conﬁdential
A 429
A-3 Certificates, a segregated trust account or sub-account of a trust account, which shall be
titled "Group II Carryover Shortfall Reserve Fund, JPMorgan Chase Bank, N.A., as trustee for
the benefit of holders of Structured Asset Mortgage Investments II Trust 2005-AR2, Mortgage
Pass-Through Certificates, Series 2005-AR2, Class II-A-1, Class II-A-2 and Class II-A-3" (the
"Group II Carryover Shortfall Reserve Fund"). The Paying Agent shall, promptly upon receipt,
deposit in the Group II Carryover Shortfall Reserve Fund an amount equal to $5,000 to be
remitted on the Closing Date to the Paying Agent by the Depositor. On each Distribution Date,
the Paying Agent shall transfer from the Distribution Account to the Group II Carryover
Shortfall Reserve Fund the amounts specified pursuant to Section 6.01(a)(B). On each
Distribution Date, to the extent required, the Paying Agent shall make withdrawals from the
Group II Carryover Shortfall Reserve Fund and use the amounts in the Group II Carryover
Shortfall Reserve Fund to make distributions pro rata to the Class II-A-1 Certificates, the
Class II-A-2 Certificates and the Class II-A-3 Certificates, in an amount equal to the amount of
any Group II Carryover Shortfall Amount on such Certificates, pursuant to Section 6.01(a)(H).
Any such amounts transferred shall be treated for federal tax purposes as amounts distributed by
REMIC III to the Class II-X Certificateholders as transferee thereof. For federal tax return and
information reporting purposes, the rights of the Holders of the Class II-A-1 Certificates, the
Class II-A-2 Certificates and the Class II-A-3 Certificates to receive such distributions shall be
assigned a value determined by the Depositor and reported by it to the Securities Administrator.

(b) The Group II Carryover Shortfall Reserve Fund shall be an Eligible Account.
Amounts held in the Group II Carryover Shortfall Reserve Fund from time to time shall continue
to constitute assets of the Trust Fund, but not of the REMICs, until released from the Group II
Carryover Shortfall Reserve Fund pursuant to this Section 4.05 and Section 6.01(a)(H). The
Group II Carryover Shortfall Reserve Fund constitutes an "outside reserve fund" within the
meaning of Treasury Regulation § 1.860G-2(h) and is not an asset of the REMICs. The Class IIX Certificateholders shall be the owners of the Group II Carryover Shortfall Reserve Fund, and
for all federal tax purposes, amounts transferred by the REMICs to the Group II Carryover
Shortfall Reserve Fund shall be treated as amounts distributed by the REMICs to the Class II-X
Certificateholders. The Paying Agent shall keep records that accurately reflect the funds on
deposit in the Group II Carryover Shortfall Reserve Fund.
(c) The Paying Agent will invest funds deposited in the Group II Carryover Shortfall
Reserve Fund as directed by the Class II-X Certificateholders in writing in Permitted
Investments with a maturity date (i) no later than the Business Day immediately preceding the
date on which such funds are required to be withdrawn from the Group II Carryover Shortfall
Reserve Fund pursuant to this Agreement, if a Person other than the Paying Agent or an Affiliate
of the Paying Agent manages or advises such Permitted Investment, or (ii) no later than the date
on which such funds are required to be withdrawn from the Group II Carryover Shortfall Reserve
Fund pursuant to this Agreement, if the Paying Agent or an Affiliate of the Paying Agent
manages or advises such Permitted Investment. If no written direction with respect to such
Permitted Investment shall be received by the Paying Agent from the Class II-X
Certificateholders, then funds in the Group II Carryover Shortfall Reserve Fund shall remain
uninvested. All income and gain realized from investment of funds deposited in the Group II
Carryover Shortfall Reserve Fund shall be for the sole and exclusive benefit of the Class II-X
Certificateholders and shall be remitted by the Paying Agent to the Class II-X Certificateholders
no later than the first Business Day following receipt of such income and gain by the Paying
ny-srv01\COHENS\1053167v07\83772.010800

71
conﬁdential

Attachment F - Page 127

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 80 of 230
conﬁdential
A 430

Agent. The Class II-X Certificateholders shall deposit in the Group II Carryover Shortfall
Reserve Fund the amount of any net loss incurred in respect of any such Permitted Investment
immediately upon realization of such loss, without any right of reimbursement therefor.
Section 4.07 Distribution of Subordinate Carryover Shortfall Amount; Subordinate
Carryover Shortfall Reserve Fund. (a) On the Closing Date, the Paying Agent shall establish and
maintain in its name, in trust for the benefit of Class M-l, Class M-2, Class M-3, Class M-4,
Class M-5, Class M-6, Class M-7, Class B-l, Class B-2, Class B-3, Class B-4, Class B-5 and
Class B-6 Certificates, a segregated trust account or sub-account of a trust account, which shall
be titled "Subordinate Carryover Shortfall Reserve Fund, JPMorgan Chase Bank, N.A., as trustee
for the beneft of holders of Structured Asset Mortgage Investments II Trust 2005-AR2,
Mortgage Pass-Through Certificates, Series 2005-AR2, Class M-I, Class M-2, Class M-3, Class
M-4, Class M-5, Class M-6, Class M-7, Class B-I, Class B-2, Class B-3, Class B-4, Class B-5
and Class B-6" (the "Subordinate Carryover Shortfall Reserve Fund"). The Paying Agent shall,
promptly upon receipt, deposit in the Subordinate Carryover Shortfall Reserve Fund an amount
equal to $5,000 to be remitted on the Closing Date to the Paying Agent by the Depositor. On
each Distribution Date, the Paying Agent shall transfer from the Distribution Account to the
Subordinate Carryover Shortfall Reserve Fund the amounts specified pursuant to Section
6.01(a)(A), (B) and (C). On each Distribution Date, to the extent required, the Paying Agent
shall make withdrawals from the Subordinate Carryover Shortfall Reserve Fund and use the
amounts in the Subordinate Carryover Shortfall Reserve Fund to make distributions sequentially
to the Class M-l, Class M-2, Class M-3, Class M-4, Class M-5, Class M-6, Class M-7, Class B1, Class B-2, Class B-3, Class B-4, Class B-5 and Class B-6 Certificates, in an amount equal to
the amount of any Subordinate Carryover Shortfall Amount on such Certificates, pursuant to
Section 6.01(a)(I). Any such amounts transferred shall be treated for federal tax purposes as
amounts distributed by REMIC III to the Class M-X Certificateholders as transferee thereof. For
federal tax return and information reporting purposes, the rights of the Holders of the Class M-1,
Class M-2, Class M-3, Class M-4, Class M-5, Class M-6, Class M-7, Class B-I, Class B-2, Class
B-3, Class B-4, Class B-5 and Class B-6 Certificates to receive such distributions shall be
assigned a value determined by the Depositor and reported by it to the Securities Administrator.
(b) The Subordinate Carryover Shortfall Reserve Fund shall be an Eligible Account.
Amounts held in the Subordinate Carryover Shortfall Reserve Fund from time to time shall
continue to constitute assets of the Trust Fund, but not of the REMICs, until released from the
Subordinate Carryover Shortfall Reserve Fund pursuant to this Section 4.06 and Section
6.01(a)(I). The Subordinate Carryover Shortfall Reserve Fund constitutes an "outside reserve
fund" within the meaning of Treasury Regulation § 1.860G-2(h) and is not an asset of the
REMICs. The Class M-X Certificateholders shall be the owners of the Subordinate Carryover
Shortfall Reserve Fund, and for all federal tax purposes, amounts transferred by the REMICs to
the Subordinate Carryover Shortfall Reserve Fund shall be treated as amounts distributed by the
REMICs to the Class M-X Certificateholders. The Paying Agent shall keep records that
accurately reflect the funds on deposit in the Subordinate Carryover Shortfall Reserve Fund.
(c) The Paying Agent will invest funds deposited in the Subordinate Carryover
Shortfall Reserve Fund as directed by the Class M-X Certificateholders in writing in Permitted
Investments with a maturity date (i) no later than the Business Day immediately preceding the
date on which such funds are required to be withdrawn from the Subordinate Carryover Shortfall
ny-srv01\COHENS\1053167v07\83772.010800

72
conﬁdential

Attachment F - Page 128

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 81 of 230
conﬁdential
A 431

Reserve Fund pursuant to this Agreement, if a Person other than the Paying Agent or an Affiliate
of the Paying Agent manages or advises such Permitted Investment, or (ii) no later than the date
on which such funds are required to be withdrawn from the Subordinate Carryover Shortfall
Reserve Fund pursuant to this Agreement, if the Paying Agent or an Affiliate of the Paying
Agent manages or advises such Permitted Investment. If no written direction with respect to
such Permitted Investment shall be received by the Paying Agent from the Class M-X
Certificateholders, then funds in the Subordinate Carryover Shortfall Reserve Fund shall remain
uninvested. All income and gain realized from investment of funds deposited in the Subordinate
Carryover Shortfall Reserve Fund shall be for the sole and exclusive benefit of the Class M-X
Certificateholders and shall be remitted by the Paying Agent to the Class M-X Certificateholders
no later than the first Business Day following receipt of such income and gain by the Paying
Agent. The Class M-X Certificateholders shall deposit in the Subordinate Carryover Shortfall
Reserve Fund the amount of any net loss incurred in respect of any such Permitted Investment
immediately upon realization of such loss, without any right of reimbursement therefor.
Section 4.09 Yield Maintenance Account and Yield Maintenance Agreement.

The Trustee is hereby directed to execute the Yield Maintenance Agreement on behalf of
the Trust Fund. Amounts payable by the Trust Fund on the Closing Date pursuant to the Yield
Maintenance Agreement shall be paid by the Seller. The Trustee in its individual capacity shall
have no responsibility for any of the undertakings, agreements or representations with respect to
the Yield Maintenance Agreement, including, without limitation, for making any payments
thereunder.
The Paying Agent shall establish and maintain in the name of the Paying Agent, for the
benefit of the Class I-A-l, Class I-A-2, Class II-A-1, Class II-A-2 and Class II-A-3
Certificateholders, the Yield Maintenance Account as a segregated trust account. The Yield
Maintenance Account constitutes an "outside reserve fund" within the meaning of Treasury
Regulation § 1.860G-2(h) and is not an asset of the REMICs. The Class I-X and Class II-X
Certificateholders shall be the owners of the Yield Maintenance Account, and for all federal tax
purposes, amounts transferred by the REMICs to the Yield Maintenance Account shall be treated
as amounts distributed by the REMICs to the Class I-X and Class II-X Certificateholders. The
Paying Agent shall keep records that accurately reflect the funds on deposit in the Yield
Maintenance Account.
The Paying Agent will invest funds deposited in the Yield Maintenance Account as
directed by the Class I-X and Class II-X Certificateholders in writing in Permitted Investments
with a maturity date (i) no later than the Business Day immediately preceding the date on which
such funds are required to be withdrawn from the Yield Maintenance Account pursuant to this
Agreement, if a Person other than the Paying Agent or an Affiliate of the Paying Agent manages
or advises such Permitted Investment, or (ii) no later than the date on which such funds are
required to be withdrawn from the Yield Maintenance Account pursuant to this Agreement, if the
Paying Agent or an Affiliate of the Paying Agent manages or advises such Permitted Investment.
If no written direction with respect to such Permitted Investment shall be received by the Paying
Agent from the Class I-X and Class II-X Certificateholders, then funds in the Yield Maintenance
Account shall remain uninvested. All income and gain realized from investment of funds
deposited in the Yield Maintenance Account shall be for the sole and exclusive benefit of the
ny-srv01\COHENS\1053167v07\83772.010800

73
conﬁdential

Attachment F - Page 129

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 82 of 230
conﬁdential
A 432
Class I-X and Class II-X Certificateholders and shall be remitted by the Paying Agent pro rata to
the Class I-X and Class II-X Certificateholders no later than the first Business Day following
receipt of such income and gain by the Paying Agent. The Class I-X and Class II-X
Certificateholders shall deposit in the Yield Maintenance Account their pro rata share of the
amount of any net loss incurred in respect of any such Permitted Investment immediately upon
realization of such loss, without any right of reimbursement therefor.
Any Yield Maintenance Payments made by the Yield Maintenance Provider pursuant to
the Yield Maintenance Agreement with respect to a Distribution Date shall be deposited by the
Paying Agent into the Yield Maintenance Account and distributed by the Paying Agent on the
related Distribution Date to the Class I-A-l, Class I-A-2, Class II-A-1, Class II-A-2 and Class IIA-3 Certificateholders, on a pro rata basis, in an amount equal to the lesser of the respective
Class of Certificates’ pro rata share of (1) the amount of such Yield Maintenance Payment made
with respect to such Distribution Date, and (2) the Accrued Certificate Interest that the related
Class of Certificates would have been entitled to receive on such Distribution Date had the
applicable Pass-Through Rate on such Class of Certificates been calculated at One-Month
LIBOR for the related Distribution Date plus the related Margin for the related Interest Accrual
Period, to the extent that such Accrued Certificate Interest was not otherwise paid from Group I
or Group II Available Funds, as the case may be, on such Distribution Date to the related Class
of Certificates.
ARTICLE V
Certificates
Section 5.01 Certificates (a) The Depository and the Depositor have entered into a
Depository Agreement dated as of the Closing Date (the "Depository Agreement"). Except for
the Residual Certificates, the Private Certificates and the Individual Certificates and as provided
in Subsection 5.01(b), the Certificates shall at all times remain registered in the name of the
Depository or its nominee and at all times: (i) registration of such Certificates may not be
transferred by the Certificate Registrar except to a successor to the Depository; (ii) ownership
and transfers of registration of such Certificates on the books of the Depository shall be governed
by applicable rules established by the Depository; (iii) the Depository may collect its usual and
customary fees, charges and expenses from its Depository Participants; (iv) the Certificate
Registrar, as agent of the Depositor, shall deal with the Depository as representative of such
Certificate Owners of the respective Class of Certificates for purposes of exercising the rights of
Certificateholders under this Agreement, and requests and directions for and votes of such
representative shall not be deemed to be inconsistent if they are made with respect to different
Certificate Owners; and (v) the Certificate Registrar, as agent of the Depositor, may rely and
shall be fully protected in relying upon information furnished by the Depository with respect to
its Depository Participants.

The Residual Certificates and the Private Certificates are initially Physical Certificates.
If at any time the Holders of all of the Certificates of one or more such Classes request that the
Certificate Registrar cause such Class to become Global Certificates, the Certificate Registrar
and the Depositor will take such action as may be reasonably required to cause the Depository to
accept such Class or Classes of Certificates for trading if it may legally be so traded.

ny-srv01\COHENS\1053167v07\83772.010800

74
conﬁdential

Attachment F - Page 130

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 83 of 230
conﬁdential
A 433

All transfers by Certificate Owners of such respective Classes of Book-Entry Certificates
and any Global Certificates shall be made in accordance with the procedures established by the
Depository Participant or brokerage firm representing such Certificate Owners. Each Depository
Participant shall only transfer Book-Entry Certificates of Certificate Owners it represents or of
brokerage firms for which it acts as agent in accordance with the Depository’s normal
procedures.
(b) If (i)(A) the Depositor advises the Certificate Registrar in writing that the
Depository is no longer willing or able to properly discharge its responsibilities as Depository
and (B) the Certificate Registrar or the Depositor is unable to locate a qualified successor within
30 days or (ii) the Depositor at its option advises the Certificate Registrar, as agent of the
Depositor, in writing that it elects to terminate the book-entry system through the Depository, the
Certificate Registrar, as agent of the Depositor, shall request that the Depository notify all
Certificate Owners of the occurrence of any such event and of the availability of definitive, fully
registered Certificates to Certificate Owners requesting the same. Upon surrender to the
Certificate Registrar, as agent of the Depositor, of the Certificates by the Depository,
accompanied by registration instructions from the Depository for registration, the Certificate
Registrar shall issue the definitive Certificates.

In addition, if an Event of Default has occurred and is continuing, each Certificate Owner
materially adversely affected thereby may at its option request a definitive Certificate evidencing
such Certificate Owner’s interest in the related Class of Certificates. In order to make such
request, such Certificate Owner shall, subject to the rules and procedures of the Depository,
provide the Depository or the related Depository Participant with directions for the Certificate
Registrar to exchange or cause the exchange of the Certificate Owner’s interest in such Class of
Certificates for an equivalent interest in fully registered definitive form. Upon receipt by the
Certificate Registrar, as agent of the Depositor, of instructions from the Depository directing the
Certificate Registrar to effect such exchange (such instructions to contain information regarding
the Class of Certificates and the Current Principal Balance or Notional Amount, as applicable,
being exchanged, the registered holder of and delivery instructions for the definitive Certificate,
and any other information reasonably required by the Certificate Registrar), (i) the Certificate
Registrar shall execute and deliver, in accordance with the registration and delivery instructions
provided by the Depository, a Definitive Certificate evidencing such Certificate Owner’s interest
in such Class of Certificates and (ii) the Certificate Registrar shall execute a new Book-Entry
Certificate reflecting the reduction in the aggregate Current Principal Balance or Notional
Amount, as applicable, of such Class of Certificates by the amount of the definitive Certificates.
Neither the Depositor nor the Certificate Registrar shall be liable for any delay in the
delivery of any instructions required pursuant to this Section 5.01(b) and may conclusively rely
on, and shall be protected in relying on, such instructions.
(c) (i) REMIC I will be evidenced by (x) the REMIC I Regular Interests (designated
below), which will be uncertificated and non-transferable and are hereby designated as the
"regular interests" in REMIC I and have the principal balances and accrue interest at the PassThrough Rates equal to those set forth in this Section 5.01(c)(i) and (y) the Class R-I Certificates,
which are hereby designated as the single "residual interest" in REMIC I.

ny-srv0 I\COHENS\1053167v07\83772 010800

75
conﬁdential

Attachment F - Page 131

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 84 of 230
conﬁdential
A 434

The REMIC I Regular Interests and the Class R-I Certificate will have the following
designations, initial balances and pass-through rates:
REMIC I Interest
1A
1B
2A
2B
3A
3B
ZZZ
Class R-I

Initial Balance

Pass-Through
Rate
(1)
(2)
(1)
(3)
(1)
(4)
(1)
N/A

$2,213.92
$28,383.27
$3,229.99
$41,409.69
$934.32
$11,978.55
$817,626,889.26
$50.00

Related Group
Group I
Group I
Group II
Group II
Group III
Group III
N/A
Group I

The weighted average of the Net Ratesof the Mortgage Loans (as of the
(1)
second preceding Due Date)as adjusted to an effective rate reflecting the accrual of interest on an
actual/360 basis, weighted on the basis of the respective Scheduled Principal Balance of each
such Mortgage Loan as of the beginning of the Due Period immediately preceding the related
Distribution Date.
(2) The weighted average of the Net Rates of the Group I Mortgage Loans (as
of the second preceding Due Date) as adjusted to an effective rate reflecting the accrual of
interest on an actual/360 basis, weighted on the basis of the respective Scheduled Principal
Balance of each such Mortgage Loan as of the beginning of the Due Period immediately
preceding the related Distribution Date.
(3) The weighted average of the Net Rates of the Group II Mortgage Loans
(as of the second preceding Due Date) as adjusted to an effective rate reflecting the accrual of
interest on an actual/360 basis, weighted on the basis of the respective Scheduled Principal
Balance of each such Mortgage Loan as of the beginning of the Due Period immediately
preceding the related Distribution Date.

(4) The weighted average of the Net Rates of the Group III Mortgage Loans
(as of the second preceding Due Date) as adjusted to an effective rate reflecting the accrual of
interest on an actual/360 basis, weighted on the basis of the respective Scheduled Principal
Balance of each such Mortgage Loan as of the beginning of the Due Period immediately
preceding the related Distribution Date.
Distributions of principal shall be deemed to be made from amounts received on the
Mortgage Loans to the REMIC I Regular Interests, first, so as to keep the Uncertificated
Principal Balance of each REMIC I Regular Interest ending with the designation "B" equal to
0.01% of the aggregate Scheduled Principal Balance of the Mortgage Loans in the related Loan
Group; second, to each REMIC I Regular Interest ending with the designation "A," so that the
Uncertificated Principal Balance of each such REMIC I Regular Interest is equal to 0.01% of the
excess of (x) the aggregate Scheduled Principal Balance of the Mortgage Loans in the related
Loan Group over (y) the Current Principal Amount of the Senior Certificates (other than the
Residual Certificates) in the related Loan Group (except that if any such excess is a larger
number than in the preceding distribution period, the least amount of principal shall be
distributed to such REMIC I Regular Interests such that the REMIC I Subordinated Balance

ny-srv0 I\COHENS\1053167v07\83772.010800

76
conﬁdential

Attachment F - Page 132

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 85 of 230
conﬁdential
A 435
Ratio is maintained); and third, any remaining principal to REMIC I Regular Interest ZZZ.
Realized Losses on the Mortgage Loans shall be applied after all distributions have been made
on each Distribution Date first, so as to keep the Uncertificated Principal Balance of each
REMIC I Regular Interest ending with the designation "B" equal to 0.01% of the aggregate
Scheduled Principal Balance of the Mortgage Loans in the related Loan Group; second, to each
REMIC I Regular Interest ending with the designation "A," so that the Uncertificated Principal
Balance of each such REMIC I Regular Interest is equal to 0.01% of the excess of (x) the
aggregate Scheduled Principal Balance of the Mortgage Loans in the related Loan Group over
(y) the Current Principal Amount of the Senior Certificates (other than the Residual Certificates)
in the related Loan Group (except that if any such excess is a larger number than in the preceding
distribution period, the least amount of Realized Losses on the Mortgage Loans shall be applied
to such REMIC I Regular Interests such that the REMIC I Subordinated Balance Ratio is
maintained); and third, any remaining Realized Losses on the Mortgage Loans shall be allocated
to REMIC I Regular Interest ZZZ.

(ii) REMIC II will be evidenced by (x) the REMIC II Regular Interests
(designated below), which will be uncertificated and non-transferable and are hereby
designated as the "regular interests" in REMIC II and have the principal balances and
accrue interest at the Pass-Through Rates equal to those set forth in this Section
5.01(c)(ii) and (y) the Class R-II Certificate, which is hereby designated as the single
"residual interest" in REMIC II.
The REMIC II Regular Interests and the Class R-II Certificate will have the following
designations, initial balances and pass-through rates:
REMIC II Interest
I-A- 1
I-A-2
II-A- 1
II-A-2
II-A-3
III-A- 1
III-A-2
MT-R
M- 1
M-2
M-3
M-4
M-5
M-6
M-7
B-1
B-2
B-3
B-4
B-5
B-6
R-II

Initial Balance
$222,439,500
$39,254,000
$229,078,300
$95,449,200
$57,269,500
$105,411,300
$5,031,000
$50
$10,630,200
$9,403,800
$5,724,100
$6,950,600
$3,270,900
$3,270,900
$3,270,900
$4,088,600
$1,635,500
$2,453,100
$4,497,500
$4,906,300
$3,679,839
$50

Pass-Through Rate
(1)
(1)
(2)
(2)
(2)
(3)
(3)
N/A
(4)
(4)
(4)
(4)
(4)
(4)
(4)
(4)
(4)
(4)
(4)
(4)
(4)
N/A

Related Group
Group I
Group I
Group II
Group II
Group II
Group III
Group III
Group I
N/A
N/A
N/A
N/A
N/A
N/A
N/A
N/A
N/A
N/A
N/A
N/A
N/A
Group I

The weighted average of the Net Rates of the Group I Mortgage Loans (as
(1)
of the second preceding Due Date) as adjusted to an effective rate reflecting the accrual of
interest on an actual/360 basis, weighted on the basis of the respective Scheduled Principal

ny-srv0 I\COHENS\1053167v07\83772.010800

77
conﬁdential

Attachment F - Page 133

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 86 of 230
conﬁdential
A 436

Balance of each such Mortgage Loan as of the beginning of the Due Period immediately
preceding the related Distribution Date.
(2) The weighted average of the Net Rates of the Group II Mortgage Loans
(as of the second preceding Due Date) as adjusted to an effective rate reflecting the accrual of
interest on an actual/360 basis, weighted on the basis of the respective Scheduled Principal
Balance of each such Mortgage Loan as of the beginning of the Due Period immediately
preceding the related Distribution Date.
(3) The weighted average of the Net Rates of the Group III Mortgage Loans
(as of the second preceding Due Date) as adjusted to an effective rate reflecting the accrual of
interest on an actual/360 basis, weighted on the basis of the respective Scheduled Principal
Balance of each such Mortgage Loan as of the beginning of the Due Period immediately
preceding the related Distribution Date.
(4) A variable Pass-Through Rate equal to the weighted average of the PassThrough Rates on REMIC I Regular Interests 1A, 2A and 3A, weighted on the basis of the
Uncertificated Principal Balance of each such REMIC I Regular Interest immediately preceding
the related Distribution Date, provided that for purposes of that weighted average, the PassThrough Rate of each such REMIC I Regular Interest shall be subject to a cap and a floor equal
to the Pass-Through Rate of the REMIC I Regular Interest from the related Group ending with
the designation "B".

Principal shall be payable to, and shortfalls, losses and prepayments are allocable to, the
REMIC II Regular Interests as such amounts are payable and allocable to the Corresponding
Certificates.
(iii) The Classes of the Certificates shall have the following designations,
initial principal amounts and Pass-Through Rates:
Designation
I-A-1
I-A-2
II-A-1
II-A-2
II-A-3
III-A-1
III-A-2
I-X
II-X
M-X
R-I

R-II

R-Ill

Initial Principal/
Notional Amount
$222,439,500
$39,254,000
$229,078,300
$95,449,200
$57,269,500
$105,411,300
$5,031,000
$261,693,500
$381,797,000
$63,782,239
$50

(1)
(2)
(3)
(4)
(5)
(6)
(7)
(8)
(9)
(10)
(11)

$50

(11 )

$50

M-1
M-2
M-3

$10,630,200
$9,403,800
$5,724,100

M-5
M-6
M-7

$3,270,900
$3,270,900
$3,270,900

M-4

ny-srv0 l\COHENS\1053167v07\83772.010800

Pass-Through Rate

$6,950,600

78
conﬁdential

(11)

(11)
(12)
(13)

(14)

(15)
(16)
(17)

Attachment F - Page 134

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 87 of 230
conﬁdential
A 437
B-1
B-2
B-3
B-4
B-5
B-6

$4,088,600
$1,635,500
$2,453,100
$4,497,500
$4,906,300
$3,679,839

(18)
(19)
(20)
(21)
(21)
(21)

(1) The Class I-A-1 Certificates will bear interest at a variable Pass-Through
Rate equal to the least of (i) One-Month LIBOR plus a margin initially equal to 0.230%, (ii)
10.50% per annum and (iii) the weighted average of the Net Rates of the Group I Mortgage
Loans (as of the second preceding Due Date) as adjusted to an effective rate reflecting the
accrual of interest on an actual/360 basis, weighted on the basis of the respective Scheduled
Principal Balances of each such Mortgage Loan as of the beginning of the Due Period
immediately preceding the related Distribution Date; provided that, on such Distribution Dates,
for federal income tax purposes such Certificates will bear interest at a rate equivalent to the
foregoing, with the weighted average of the Net Rates of the Group I Mortgage Loans expressed
as the weighted average of the Pass-Through Rate on REMIC II Regular Interest I-A-1, weighted
on the basis of the Uncertificated Principal Balance of such REMIC II Regular Interest
immediately preceding the related Distribution Date. The Pass-Through Rate for the Class I-A-1
Certificates with respect to the first Interest Accrual Period is 3.331% per annum.
(2) The Class I-A-2 Certificates will bear interest at a variable Pass-Through
Rate equal to the least of (i) One-Month LIBOR plus a margin initially equal to 0.300%, (ii)
10.50% per annum and (iii) the weighted average of the Net Rates of the Group I Mortgage
Loans (as of the second preceding Due Date) as adjusted to an effective rate reflecting the
accrual of interest on an actual/360 basis, weighted on the basis of the respective Scheduled
Principal Balances of each such Mortgage Loan as of the beginning of the Due Period
immediately preceding the related Distribution Date; provided that, on such Distribution Dates,
for federal income tax purposes such Certificates will bear interest at a rate equivalent to the
foregoing, with the weighted average of the Net Rates of the Group I Mortgage Loans expressed
as the weighted average of the Pass-Through Rate on REMIC II Regular Interest I-A-2, weighted
on the basis of the Uncertificated Principal Balance of such REMIC II Regular Interest
immediately preceding the related Distribution Date. The Pass-Through Rate for the Class I-A-2
Certificates with respect to the first Interest Accrual Period is 3.401% per annum.
(3) The Class II-A-1 Certificates will bear interest at a variable Pass-Through
Rate equal to the least of (i) One-Month LIBOR plus a margin initially equal to 0.230% per
annum (ii) 10.50% per annum and (iii) the weighted average of the Net Rates of the Group II
Mortgage Loans (as of the second preceding Due Date) as adjusted to an effective rate reflecting
the accrual of interest on an actual/360 basis, weighted on the basis of the respective Scheduled
Principal Balances of each such Mortgage Loan as of the beginning of the Due Period
immediately preceding the related Distribution Date; provided that, on such Distribution Dates,
for federal income tax purposes such Certificates will bear interest at a rate equivalent to the
foregoing, with the weighted average of the Net Rates of the Group II Mortgage Loans expressed
as the weighted average of the Pass-Through Rate on REMIC II Regular Interest II-A-1,
weighted on the basis of the Uncertificated Principal Balance of such REMIC II Regular Interest
immediately preceding the related Distribution Date. The Pass-Through Rate for the Class II-A-1
Certificates with respect to the first Interest Accrual Period is 3.331% per annum.
ny-srv0 I\COHENS\1053167v07\83772 010800

79
conﬁdential

Attachment F - Page 135

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 88 of 230
conﬁdential
A 438
(4) The Class II-A-2 Certificates will bear interest at a variable Pass-Through
Rate equal to the least of (i) One-Month LIBOR plus a margin initially equal to 2.280% per
annum (ii) 10.50% per annum and (iii) the weighted average of the Net Rates of the Group II
Mortgage Loans (as of the second preceding Due Date) as adjusted to an effective rate reflecting
the accrual of interest on an actual/360 basis, weighted on the basis of the respective Scheduled
Principal Balances of each such Mortgage Loan as of the beginning of the Due Period
immediately preceding the related Distribution Date; provided that, on such Distribution Dates,
for federal income tax purposes such Certificates will bear interest at a rate equivalent to the
foregoing, with the weighted average of the Net Rates of the Group II Mortgage Loans expressed
as the weighted average of the Pass-Through Rate on REMIC II Regular Interest II-A-2,
weighted on the basis of the Uncertificated Principal Balance of such REMIC II Regular Interest
immediately preceding the related Distribution Date. The Pass-Through Rate for the Class II-A-2
Certificates with respect to the first Interest Accrual Period is 3.381% per annum.
(5) The Class II-A-3 Certificates will bear interest at a variable Pass-Through
Rate equal to the least of (i) One-Month LIBOR plus a margin initially equal to 0.320% per
annum (ii) 10.50% per annum and (iii) the weighted average of the Net Rates of the Group II
Mortgage Loans (as of the second preceding Due Date) as adjusted to an effective rate reflecting
the accrual of interest on an actual/360 basis, weighted on the basis of the respective Scheduled
Principal Balances of each such Mortgage Loan as of the beginning of the Due Period
immediately preceding the related Distribution Date; provided that, on such Distribution Dates,
for federal income tax purposes such Certificates will bear interest at a rate equivalent to the
foregoing, with the weighted average of the Net Rates of the Group II Mortgage Loans expressed
as the weighted average of the Pass-Through Rate on REMIC II Regular Interest II-A-3,
weighted on the basis of the Uncertificated Principal Balance of such REMIC II Regular Interest
immediately preceding the related Distribution Date. The Pass-Through Rate for the Class II-A-3
Certificates with respect to the first Interest Accrual Period is 3.421% per annum.

(6) The Class III-A-1 Certificates will bear interest at a variable Pass-Through
Rate equal to the weighted average of the Net Rates of the Group III Mortgage Loans (as of the
second preceding Due Date), weighted on the basis of the respective Scheduled Principal
Balances of each such Mortgage Loan as of the beginning of the Due Period immediately
preceding the related Distribution Date; provided that, on such Distribution Dates, for federal
income tax purposes such Certificates will bear interest at a rate equivalent to the foregoing, with
the weighted average of the Net Rates of the Group III Mortgage Loans expressed as the
weighted average of the Pass-Through Rate on REMIC II Regular Interest III-A-1, weighted on
the basis of the Uncertificated Principal Balance of such REMIC II Regular Interest immediately
preceding the related Distribution Date. The Pass-Through Rate for the Class III-A-1 Certificates
with respect to the first Interest Accrual Period is 4.5 51% per annum.
(7) The Class III-A-2 Certificates will bear interest at a variable Pass-Through
Rate equal to the weighted average of the Net Rates of the Group III Mortgage Loans (as of the
second preceding Due Date), weighted on the basis of the respective Scheduled Principal
Balances of each such Mortgage Loan as of the beginning of the Due Period immediately
preceding the related Distribution Date; provided that, on such Distribution Dates, for federal
income tax purposes such Certificates will bear interest at a rate equivalent to the foregoing, with
the weighted average of the Net Rates of the Group III Mortgage Loans expressed as the
ny-srv0 I\COHENS\1053167v07\83772.010800

80
conﬁdential

Attachment F - Page 136

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 89 of 230
conﬁdential
A 439

weighted average of the Pass-Through Rate on REMIC II Regular Interest III-A-2, weighted on
the basis of the Uncertificated Principal Balance of such REMIC II Regular Interest immediately
preceding the related Distribution Date. The Pass-Through Rate for the Class III-A-2 Certificates
with respect to the first Interest Accrual Period is 4.551% per annum.
(8) The Class I-X Certificates will bear interest at a variable Pass-Through
Rate equal to the greater of (i) zero and (ii) the excess of (x) the weighted average of the Net
Rates of the Group I Mortgage Loans (as of the second preceding Due Date), over (y) the
weighted average of the Pass-Through Rates on the Class I-A-1 Certificates and the Class I-A-2
Certificates, based on a Notional Amount equal to the aggregate Current Principal Amount of the
Class I-A-1 Certificates, the Class I-A-2 Certificates and the Class I-X Certificates and
calculated on the basis of a year of 360 days with twelve 30-day months. The amount of interest
payable to the Class I-X Certificates on a Distribution Date will be reduced by any amounts
necessary to fund the Group I Carryover Shortfall Reserve Fund on such Distribution Date to pay
any Group I Carryover Shortfall Amounts to the relating to such Distribution Date and the
Class I-A-1 Certificates and the Class I-A-2 Certificates.
(9) The Class II-X Certificates will bear interest at a variable Pass-Through
Rate equal to the greater of (i) zero and (ii) the excess of (x) the weighted average of the Net
Rates of the Group II Mortgage Loans (as of the second preceding Due Date), over (y) the
weighted average of the Pass-Through Rates on the Class II-A-1 Certificates, the Class I-A-2
Certificates and the Class II-A-3 Certificates, based on a Notional Amount equal to the aggregate
Current Principal Amount of the Class II-A-1 Certificates, the Class II-A-2 Certificates, the
Class II-A-3 Certificates and the Class II-X Certificates and calculated on the basis of a year of
360 days with twelve 30-day months. The amount of interest payable to the Class II-X
Certificates on a Distribution Date will be reduced by any amounts necessary to fund the
Group II Carryover Shortfall Reserve Fund on such Distribution Date to pay any Group II
Carryover Shortfall Amounts relating to such Distribution Date and the Class II-A-1 Certificates,
the Class II-A-2 Certificates and the Class II-A-3 Certificates.
(10) The Class M-X Certificates will bear interest at a variable Pass-Through
Rate equal to the greater of (i) zero and (ii) the excess of (x) the weighted average of the Net
Rates of each Loan Group (as of the second preceding Due Date), weighted in proportion to the
results of subtracting from the aggregate Principal Balance of each Loan Group the aggregate
Current Principal Amount of the related Classes of Senior Certificates (other than the Residual
Certificates) immediately prior to the related Distribution Date, over (y) the weighted average of
the Pass-Through Rates on the Subordinate Certificates, based on a Notional Amount equal to
the aggregate Current Principal Amount of the Subordinate Certificates. The amount of interest
payable to the Class M-X Certificates on a Distribution Date will be reduced by any amounts
necessary to fund the Subordinate Carryover Shortfall Reserve Fund on such Distribution Date to
pay any Subordinate Carryover Shortfall Amounts relating to such Distribution Date and the
Subordinate Certificates.
(11) The Class R-I, Class R-II and Class R-III Certificates do not have a PassThrough Rate and will not bear interest.

ny-srv0 I\COHENS\1053167v07\83772.010800

81
conﬁdential

Attachment F - Page 137

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 90 of 230
conﬁdential
A 440

(12) The Class M-1 Certificates will bear interest at a variable Pass-Through
Rate equal to the least of (i) One-Month LIBOR plus a margin initially equal to 0.450%, (ii)
10.50% per annum and (iii) the weighted average of the Net Rates of each Loan Group (as of the
second preceding Due Date) as adjusted to an effective rate reflecting the accrual of interest on
an actual/360 basis, weighted in proportion to the results of subtracting from the aggregate
principal balance of each Loan Group the aggregate Current Principal Amount of the related
Classes of Senior Certificates (other than the Residual Certificates) immediately prior to the
related Distribution Date; provided that for federal income tax purposes such Certificates will
bear interest at a rate equivalent to the foregoing, with the weighted average of the Net Rates of
each Loan Group expressed as the weighted average of the Pass-Through Rates on REMIC II
Regular Interests M-l, M-2, M-3, M-4, M-5, M-6, M-7, B-l, B-2, B-3, B-4, B-5 and B-6,
weighted on the basis of the Uncertificated Principal Balance of each such REMIC II Regular
Interest immediately preceding the related Distribution Date. The Pass-Through Rate for the
Class M-1 Certificates with respect to the first Interest Accrual Period is 3.551% per annum.
(13) The Class M-2 Certificates will bear interest at a variable Pass-Through
Rate equal to the least of (i) One-Month LIBOR plus a margin initially equal to 0.480%, (ii)
10.50% per annum and (iii) the weighted average of the Net Rates of each Loan Group (as of the
second preceding Due Date) as adjusted to an effective rate reflecting the accrual of interest on
an actual/360 basis, weighted in proportion to the results of subtracting from the aggregate
principal balance of each Loan Group the aggregate Current Principal Amount of the related
Classes of Senior Certificates (other than the Residual Certificates) immediately prior to the
related Distribution Date; provided that for federal income tax purposes such Certificates will
bear interest at a rate equivalent to the foregoing, with the weighted average of the Net Rates of
each Loan Group expressed as the weighted average of the Pass-Through Rates on REMIC II
Regular Interests M-l, M-2, M-3, M-4, M-5, M-6, M-7, B-l, B-2, B-3, B-4, B-5 and B-6,
weighted on the basis of the Uncertificated Principal Balance of each such REMIC II Regular
Interest immediately preceding the related Distribution Date. The Pass-Through Rate for the
Class M-1 Certificates with respect to the first Interest Accrual Period is 3.581% per annum.
(14) The Class M-3 Certificates will bear interest at a variable Pass-Through
Rate equal to the least of (i) One-Month LIBOR plus a margin initially equal to 0.500%, (ii)
10.50% per annum and (iii) the weighted average of the Net Rates of each Loan Group (as of the
second preceding Due Date) as adjusted to an effective rate reflecting the accrual of interest on
an actual/360 basis, weighted in proportion to the results of subtracting from the aggregate
principal balance of each Loan Group the aggregate Current Principal Amount of the related
Classes of Senior Certificates (other than the Residual Certificates) immediately prior to the
related Distribution Date; provided that for federal income tax purposes such Certificates will
bear interest at a rate equivalent to the foregoing, with the weighted average of the Net Rates of
each Loan Group expressed as the weighted average of the Pass-Through Rates on REMIC II
Regular Interests M-l, M-2, M-3, M-4, M-5, M-6, M-7, B-l, B-2, B-3, B-4, B-5 and B-6,
weighted on the basis of the Uncertificated Principal Balance of each such REMIC II Regular
Interest immediately preceding the related Distribution Date. The Pass-Through Rate for the
Class M-3 Certificates with respect to the first Interest Accrual Period is 3.601% per annum.
(15) The Class M-4 Certificates will bear interest at a variable Pass-Through
Rate equal to the least of (i) One-Month LIBOR plus a margin initially equal to 0.680%, (ii)
ny-srv01\COHENS\1053167v07\83772 010800

82
conﬁdential

Attachment F - Page 138

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 91 of 230
conﬁdential
A 441

10.50% per annum and (iii) the weighted average of the Net Rates of each Loan Group (as of the
second preceding Due Date) as adjusted to an effective rate reflecting the accrual of interest on
an actual/360 basis, weighted in proportion to the results of subtracting from the aggregate
principal balance of each Loan Group the aggregate Current Principal Amount of the related
Classes of Senior Certificates (other than the Residual Certificates) immediately prior to the
related Distribution Date; provided that for federal income tax purposes such Certificates will
bear interest at a rate equivalent to the foregoing, with the weighted average of the Net Rates of
each Loan Group expressed as the weighted average of the Pass-Through Rates on REMIC II
Regular Interests M-l, M-2, M-3, M-4, M-5, M-6, M-7, B-l, B-2, B-3, B-4, B-5 and B-6,
weighted on the basis of the Uncertificated Principal Balance of each such REMIC II Regular
Interest immediately preceding the related Distribution Date. The Pass-Through Rate for the
Class M-4 Certificates with respect to the first Interest Accrual Period is 3.781% per annum.
(16) The Class M-5 Certificates will bear interest at a variable Pass-Through
Rate equal to the least of (i) One-Month LIBOR plus a margin initially equal to 0.740%, (ii)
10.50% per annum and (iii) the weighted average of the Net Rates of each Loan Group (as of the
second preceding Due Date) as adjusted to an effective rate reflecting the accrual of interest on
an actual/360 basis, weighted in proportion to the results of subtracting from the aggregate
principal balance of each Loan Group the aggregate Current Principal Amount of the related
Classes of Senior Certificates (other than the Residual Certificates) immediately prior to the
related Distribution Date; provided that for federal income tax purposes such Certificates will
bear interest at a rate equivalent to the foregoing, with the weighted average of the Net Rates of
each Loan Group expressed as the weighted average of the Pass-Through Rates on REMIC II
Regular Interests M-l, M-2, M-3, M-4, M-5, M-6, M-7, B-l, B-2, B-3, B-4, B-5 and B-6,
weighted on the basis of the Uncertificated Principal Balance of each such REMIC II Regular
Interest immediately preceding the related Distribution Date. The Pass-Through Rate for the
Class M-5 Certificates with respect to the first Interest Accrual Period is 3.841% per annum.
(17) The Class M-6 Certificates will bear interest at a variable Pass-Through
Rate equal to the least of (i) One-Month LIBOR plus a margin initially equal to 0.760%, (ii)
10.50% per annum and (iii) the weighted average of the Net Rates of each Loan Group (as of the
second preceding Due Date) as adjusted to an effective rate reflecting the accrual of interest on
an actual/360 basis, weighted in proportion to the results of subtracting from the aggregate
principal balance of each Loan Group the aggregate Current Principal Amount of the related
Classes of Senior Certificates (other than the Residual Certificates) immediately prior to the
related Distribution Date; provided that for federal income tax purposes such Certificates will
bear interest at a rate equivalent to the foregoing, with the weighted average of the Net Rates of
each Loan Group expressed as the weighted average of the Pass-Through Rates on REMIC II
Regular Interests M-l, M-2, M-3, M-4, M-5, M-6, M-7, B-l, B-2, B-3, B-4, B-5 and B-6,
weighted on the basis of the Uncertificated Principal Balance of each such REMIC II Regular
Interest immediately preceding the related Distribution Date. The Pass-Through Rate for the
Class M-6 Certificates with respect to the first Interest Accrual Period is 3.861% per annum.
(18) The Class M-7 Certificates will bear interest at a variable Pass-Through
Rate equal to the least of (i) One-Month LIBOR plus a margin initially equal to 1.250%, (ii)
10.50% per annum and (iii) the weighted average of the Net Rates of each Loan Group (as of the
second preceding Due Date) as adjusted to an effective rate reflecting the accrual of interest on
ny-srv0 l\COHENS\1053167v07\83772.010800

83
conﬁdential

Attachment F - Page 139

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 92 of 230
conﬁdential
A 442

an actual/360 basis, weighted in proportion to the results of subtracting from the aggregate
principal balance of each Loan Group the aggregate Current Principal Amount of the related
Classes of Senior Certificates (other than the Residual Certificates) immediately prior to the
related Distribution Date; provided that for federal income tax purposes such Certificates will
bear interest at a rate equivalent to the foregoing, with the weighted average of the Net Rates of
each Loan Group expressed as the weighted average of the Pass-Through Rates on REMIC II
Regular Interests M-l, M-2, M-3, M-4, M-5, M-6, M-7, B-l, B-2, B-3, B-4, B-5 and B-6,
weighted on the basis of the Uncertificated Principal Balance of each such REMIC II Regular
Interest immediately preceding the related Distribution Date. The Pass-Through Rate for the
Class M-7 Certificates with respect to the first Interest Accrual Period is 4.351% per annum.
(19) The Class B-1 Certificates will bear interest at a variable Pass-Through
Rate equal to the least of (i) One-Month LIBOR plus a margin initially equal to 1.350%, (ii)
10.50% per annum and (iii) the weighted average of the Net Rates of each Loan Group (as of the
second preceding Due Date) as adjusted to an effective rate reflecting the accrual of interest on
an actual/360 basis, weighted in proportion to the results of subtracting from the aggregate
Scheduled Principal Balance of each Loan Group, the aggregate Current Principal Amount of the
related Classes of Senior Certificates (other than the Residual Certificates) immediately prior to
the related Distribution Date; provided that for federal income tax purposes such Certificates will
bear interest at a rate equivalent to the foregoing, with the weighted average of the Net Rates of
each Loan Group expressed as the weighted average of the Pass-Through Rates on REMIC II
Regular Interests M-I, M-2, M-3, M-4, M-5, M-6, M-7, B-I, B-2, B-3, B-4, B-5 and B-6,
weighted on the basis of the Uncertificated Principal Balance of each such REMIC II Regular
Interest immediately preceding the related Distribution Date. The Pass-Through Rate for the
Class B-1 Certificates with respect to the first Interest Accrual Period is 4.451% per annum.
(20) The Class B-2 Certificates will bear interest at a variable Pass-Through
Rate equal to the least of (i) One-Month LIBOR plus a margin initially equal to 1.700%, (ii)
10.50% per annum and (iii) the weighted average of the Net Rates of each Loan Group (as of the
second preceding Due Date) as adjusted to an effective rate reflecting the accrual of interest on
an actual/360 basis, weighted in proportion to the results of subtracting from the aggregate
Scheduled Principal Balance of each Loan Group, the aggregate Current Principal Amount of the
related Classes of Senior Certificates (other than the Residual Certificates) immediately prior to
the related Distribution Date; provided that for federal income tax purposes such Certificates will
bear interest at a rate equivalent to the foregoing, with the weighted average of the Net Rates of
each Loan Group expressed as the weighted average of the Pass-Through Rates on REMIC II
Regular Interests M-l, M-2, M-3, M-4, M-5, M-6, M-7, B-I, B-2, B-3, B-4, B-5 and B-6,
weighted on the basis of the Uncertificated Principal Balance of each such REMIC II Regular
Interest immediately preceding the related Distribution Date. The Pass-Through Rate with
respect to the first Interest Accrual Period is 4.801% per annum.
(21) The Class B-3 Certificates will bear interest at a variable Pass-Through
Rate equal to the least of (i) One-Month LIBOR plus a margin initially equal to 1.800%, (ii)
10.50% per annum and (iii) the weighted average of the Net Rates of each Loan Group (as of the
second preceding Due Date) as adjusted to an effective rate reflecting the accrual of interest on
an actual/360 basis, weighted in proportion to the results of subtracting from the aggregate
Scheduled Principal Balance of each Loan Group, the aggregate Current Principal Amount of the
ny-srv0 I\COHENS\1053167v07\83772.010800

84
conﬁdential

Attachment F - Page 140

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 93 of 230
conﬁdential
A 443

related Classes of Senior Certificates (other than the Residual Certificates) immediately prior to
the related Distribution Date; provided that for federal income tax purposes such Certificates will
bear interest at a rate equivalent to the foregoing, with the weighted average of the Net Rates of
each Loan Group expressed as the weighted average of the Pass-Through Rate on REMIC II
Regular Interests M-l, M-2, M-3, M-4, M-5, M-6, M-7, B-l, B-2, B-3, B-4, B-5 and B-6,
weighted on the basis of the Uncertificated Principal Balance of each such REMIC II Regular
Interest immediately preceding the related Distribution Date. The Pass-Through Rate with
respect to the first Interest Accrual Period is 4.851% per annum.
(22) The Class B-4, Class B-5 and Class B-6 Certificates will bear interest at a
variable Pass-Through Rate equal to the least of (i) One-Month LIBOR plus a margin initially
equal to 1.800%, (ii) 10.50% per annum and (iii) the weighted average of the Net Rates of each
Loan Group (as of the second preceding Due Date) as adjusted to an effective rate reflecting the
accrual of interest on an actual/360 basis, weighted in proportion to the results of subtracting
from the aggregate Scheduled Principal Balance of each Loan Group, the aggregate Current
Principal Amount of the related Classes of Senior Certificates (other than the Residual
Certificates) immediately prior to the related Distribution Date; provided that for federal income
tax purposes such Certificates will bear interest at a rate equivalent to the foregoing, expressed as
the weighted average of the Pass-Through Rates on REMIC II Regular Interests M-l, M-2, M-3,
M-4, M-5, M-6, M-7, B-l, B-2, B-3, B-4, B-5 and B-6, weighted on the basis of the
Uncertificated Principal Balance of each such REMIC II Regular Interest immediately preceding
the related Distribution Date. The Pass-Through Rate for the Class B-4, Class B-5 and Class B-6
Certificates with respect to the first Interest Accrual Period is 4.901% per annum.
Principal shall be payable to, and shortfalls, losses and prepayments are allocable to, the
REMIC I Regular Interests as such amounts are payable and allocable to the Corresponding
Certificates.

(d) Solely for purposes of Section 1.860G-1(a)(4)(iii) of the Treasury regulations, the
Distribution Date immediately following the maturity date for the Mortgage Loan with the latest
maturity date in the Trust Fund has been designated as the "latest possible maturity date" for the
REMIC I Regular Interests, REMIC II Regular Interests and the Certificates.
(e) With respect to each Distribution Date, each Class of Certificates (other than the
Residual Certificates) shall accrue interest during the related Interest Accrual Period. With
respect to each Distribution Date and each such Class of Certificates (other than the Residual
Certificates, the Interest Only Certificates and the Group III Senior Certificates), interest shall be
calculated on the basis of a 360-day year and the actual number of days elapsed in the related
Interest Accrual Period, and with respect to each Distribution Date and the Interest Only
Certificates and the Group III Senior Certificates, interest is calculated on the basis of a 360-day
year consisting of twelve 30 day months, based upon the respective Pass-Through Rate set forth,
or determined as provided, above and the Current Principal Amount (or Notional Amount, in the
case of the Interest Only Certificates) of such Class of Certificates applicable to such
Distribution Date. The Residual Certificates do not have a Pass-Through Rate and shall not bear
interest.

ny-srv01\COHENS\1053167v07\83772 010800

85
conﬁdential

Attachment F - Page 141

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 94 of 230
conﬁdential
A 444
(f) The Certificates shall be substantially in the forms set forth in Exhibits A-l, A-2,
A-3 and A-4. On original issuance, the Trustee shall sign, and the Certificate Registrar shall
countersign and deliver the Certificates at the direction of the Depositor. Pending the
preparation of definitive Certificates of any Class, the Trustee may sign and the Certificate
Registrar may countersign temporary Certificates that are printed, lithographed or typewritten, in
authorized denominations for Certificates of such Class, substantially of the tenor of the
definitive Certificates in lieu of which they are issued and with such appropriate insertions,
omissions, substitutions and other variations as the officers or authorized signatories executing
such Certificates may determine, as evidenced by their execution of such Certificates. If
temporary Certificates are issued, the Depositor will cause definitive Certificates to be prepared
without unreasonable delay. After the preparation of definitive Certificates, the temporary
Certificates shall be exchangeable for definitive Certificates upon surrender of the temporary
Certificates at the Certificate Registrar Office, without charge to the Holder. Upon surrender for
cancellation of any one or more temporary Certificates, the Trustee shall sign and the Certificate
Registrar shall countersign and deliver in exchange therefor a like aggregate principal amount, in
authorized denominations for such Class, of definitive Certificates of the same Class. Until so
exchanged, such temporary Certificates shall in all respects be entitled to the same benefits as
definitive Certificates.

(g) Each Class of Book-Entry Certificates will be registered as a single Certificate of
such Class held by a nominee of the Depository or the DTC Custodian, and beneficial interests
will be held by investors through the book-entry facilities of the Depository in minimum
denominations of (i) in the case of the Senior Certificates (other than the Residual Certificates),
$1,000 and in each case increments of $1.00 in excess thereof, and (ii) in the case of the Offered
Subordinate Certificates, $25,000 and increments of $1.00 in excess thereof, except that one
Certificate of each such Class may be issued in a different amount so that the sum of the
denominations of all outstanding Certificates of such Class shall equal the Current Principal
Amount or Notional Amount, as the case may be, of such Class of Certificates on the Closing
Date.
On the Closing Date, the Trustee shall execute, and the Certificate Registrar shall
countersign, Physical Certificates all in an aggregate principal amount that shall equal the
Current Principal Amount or Notional Amount, as the case may be, of such Class of Certificates
on the Closing Date. The Private Certificates shall be issued in certificated fully-registered form
in minimum dollar denominations of $25,000 and integral multiples of $1.00 in excess thereof,
except that one Private Certificate of each such Class may be issued in a different amount so that
the sum of the denominations of all outstanding Private Certificates of such Class shall equal the
Current Principal Amount or Notional Amount, as the case may be, of such Class of Certificates
on the Closing Date. The Residual Certificates shall each be issued in certificated fullyregistered form in the denomination of $50, $50 and $50, respectively. Each Class of Global
Certificates, if any, shall be issued in fully registered form in minimum dollar denominations of
$50,000 and integral multiples of $1.00 in excess thereof, except that one Certificate of each
Class may be in a different denomination so that the sum of the denominations of all outstanding
Certificates of such Class shall equal the Current Principal Amount or Notional Amount, as the
case may be, of such Class of Certificates on the Closing Date.

ny-srv0 l\COHENS\I053167v07\83772.010800

86
conﬁdential

Attachment F - Page 142

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 95 of 230
conﬁdential
A 445

On the Closing Date, the Trustee shall execute and the Certificate Registrar shall
countersign (i) in the case of each Class of Offered Certificates, the Certificate in the entire
Current Principal Amount or Notional Amount, as the case may be, of the respective Class of
Certificates and (ii) in the case of each Class of Private Certificates, Individual Certificates all in
an aggregate principal amount or notional amount, as the case may be, that shall equal the
Current Principal Amount or Notional Amount, as the case may be, of each such respective Class
of Certificates on the Closing Date. The Certificates referred to in clause (i) and, if at any time
there are to be Global Certificates, the Global Certificates, shall be delivered by the Depositor to
the Depository or, pursuant to the Depository’s instructions, shall be delivered by the Depositor
on behalf of the Depository to and deposited with the DTC Custodian. The Trustee shall sign the
Certificates by facsimile or manual signature and the Certificate Registrar shall countersign them
by manual signature on behalf of the Trustee by one or more authorized signatories, each of
whom shall be Responsible Officers of the Trustee or its agent and the Certificate Registrar or its
agent, as applicable. A Certificate bearing the manual and facsimile signatures of individuals
who were the authorized signatories of the Trustee or its agent or the Certificate Registrar or its
agent, as applicable, at the time of issuance shall bind the Trustee and the Certificate Registrar,
notwithstanding that such individuals or any of them have ceased to hold such positions prior to
the delivery of such Certificate.
(h) No Certificate shall be entitled to any benefit under this Agreement, or be valid
for any purpose, unless there appears on such Certificate the manually executed countersignature
of the Certificate Registrar or its agent, and such countersignature upon any Certificate shall be
conclusive evidence, and the only evidence, that such Certificate has been duly executed and
delivered hereunder. All Certificates issued on the Closing Date shall be dated the Closing Date.
All Certificates issued thereafter shall be dated the date of their countersignature.
(i) The Closing Date is hereby designated as the "startup" day of each REMIC within
the meaning of Section 860G(a)(9) of the Code.
(j) For federal income tax purposes, each REMIC shall have a tax year that is a
calendar year and shall report income on an accrual basis.
(k) The Trustee on behalf of the Trust shall cause each REMIC to timely elect to be
treated as a REMIC under Section 860D of the Code. Any inconsistencies or ambiguities in this
Agreement or in the administration of any Trust established hereby shall be resolved in a manner
that preserves the validity of such elections.
(1) The following legend shall be placed on the Residual Certificates, whether upon
original issuance or upon issuance of any other Certificate of any such Class In exchange
therefor or upon transfer thereof:
THIS CERTIFICATE MAY NOT BE ACQUIRED DIRECTLY OR INDIRECTLY BY,
OR ON BEHALF OF, AN EMPLOYEE BENEFIT PLAN OR OTHER RETIREMENT
ARRANGEMENT WHICH IS SUBJECT TO TITLE I OF THE EMPLOYEE RETIREMENT
INCOME SECURITY ACT OF 1974, AS AMENDED, OR SECTION 4975 OF THE
INTERNAL REVENUE CODE OF 1986, AS AMENDED, UNLESS THE PROPOSED
TRANSFEREE PROVIDES THE TRUSTEE WITH AN OPINION OF COUNSEL

ny-srv0 I\COHENS\1053167v07\83772.010800

87
conﬁdential

Attachment F - Page 143

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 96 of 230
conﬁdential
A 446
ADDRESSED TO THE TRUSTEE, THE CERTIFICATE REGISTRAR, THE MASTER
SERVICER AND THE SECURITIES ADMINISTRATOR AND ON WHICH THEY MAY
RELY THAT IS SATISFACTORY TO THE TRUSTEE THAT THE PURCHASE OF
CERTIFICATES ON BEHALF OF SUCH PERSON WILL NOT RESULT IN OR
CONSTITUTE A NONEXEMPT PROHIBITED TRANSACTION, IS PERMISSIBLE UNDER
APPLICABLE LAW AND WILL NOT GIVE RISE TO ANY ADDITIONAL OBLIGATIONS
ON THE PART OF THE DEPOSITOR, THE CERTIFICATE REGISTRAR, THE MASTER
SERVICER, THE SECURITIES ADMINISTRATOR OR THE TRUSTEE.

The following legend shall be placed upon the Private Certificates, whether upon original
issuance or upon issuance of any other Certificate of any such Class In exchange therefor or
upon transfer thereof:
THIS CERTIFICATE MAY NOT BE ACQUIRED DIRECTLY OR
INDIRECTLY BY, OR ON BEHALF OF, AN EMPLOYEE BENEFIT PLAN OR OTHER
RETIREMENT ARRANGEMENT WHICH IS SUBJECT TO TITLE I OF THE EMPLOYEE
RETIREMENT INCOME SECURITY ACT OF 1974, AS AMENDED, OR SECTION 4975 OF
THE INTERNAL REVENUE CODE OF 1986, AS AMENDED, UNLESS THE PROPOSED
TRANSFEREE CERTIFIES OR REPRESENTS THAT THE PROPOSED TRANSFER AND
HOLDING OF A CERTIFICATE AND THE SERVICING, MANAGEMENT AND
OPERATION OF THE TRUST AND ITS ASSETS: (I) WILL NOT RESULT IN ANY
PROHIBITED TRANSACTION WHICH IS NOT COVERED UNDER AN INDIVIDUAL OR
CLASS PROHIBITED TRANSACTION EXEMPTION, INCLUDING, BUT NOT LIMITED
TO, PROHIBITED TRANSACTION EXEMPTION ("PTCE") 84-14, PTE 91-38, PTE 90-1,
PTE 95-60 OR PTE 96-23 AND (II) WILL NOT GIVE RISE TO ANY ADDITIONAL
OBLIGATIONS ON THE PART OF THE DEPOSITOR, THE SECURITIES
ADMINISTRATOR, THE MASTER SERVICER OR THE TRUSTEE, WHICH WILL BE
DEEMED REPRESENTED BY AN OWNER OF A BOOK-ENTRY CERTIFICATE OR A
GLOBAL CERTIFICATE OR UNLESS THE OPINION SPECIFIED IN SECTION 5.07 OF
THE AGREEMENT IS PROVIDED.

Section 5.02 Registration of Transfer and Exchange of Certificates (a) The Certificate
Registrar shall maintain at its Certificate Registrar Office a Certificate Register in which, subject
to such reasonable regulations as it may prescribe, the Certificate Registrar shall provide for the
registration of Certificates and of transfers and exchanges of Certificates as herein provided.
(b) Subject to Subsection 5.01(a) and, in the case of any Global Certificate or
Physical Certificate upon the satisfaction of the conditions set forth below, upon surrender for
registration of transfer of any Certificate at any office or agency of the Certificate Registrar
maintained for such purpose, the Trustee shall sign, and the Certificate Registrar shall
countersign and deliver, in the name of the designated transferee or transferees, a new Certificate
of a like Class and aggregate Fractional Undivided Interest, but bearing a different number.
(c) By acceptance of an Individual Certificate, whether upon original issuance or
subsequent transfer, each holder of such a Certificate acknowledges the restrictions on the
transfer of such Certificate set forth in the Securities Legend and agrees that it will transfer such
a Certificate only as provided herein. In addition to the provisions of Subsection 5.02(h), the
ny-srv0 l\COHENS\1053167v07\83772.010800

88
conﬁdential

Attachment F - Page 144

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 97 of 230
conﬁdential
A 447
following restrictions shall apply with respect to the transfer and registration of transfer of an
Individual Certificate to a transferee that takes delivery in the form of an Individual Certificate:

(i) The Certificate Registrar shall register the transfer of an Individual
Certificate if the requested transfer is being made to a transferee who has provided the
Certificate Registrar with a Rule 144A Certificate or comparable evidence as to its QIB
status.
(ii) The Certificate Registrar shall register the transfer of any Individual
Certificate if (x) the transferor has advised the Certificate Registrar in writing that the
Certificate is being transferred to an Institutional Accredited Investor, and (y) prior to the
transfer the transferee furnishes to the Certificate Registrar an Investment Letter (and the
Certificate Registrar shall be fully protected in so doing), provided that, if based upon an
Opinion of Counsel to the effect that the delivery of (x) and (y) above are not sufficient to
confirm that the proposed transfer is being made pursuant to an exemption from, or in a
transaction not subject to, the registration requirements of the Securities Act and other
applicable laws, the Certificate Registrar shall as a condition of the registration of any
such transfer require the transferor to furnish such other certifications, legal opinions or
other information prior to registering the transfer of an Individual Certificate as shall be
set forth in such Opinion of Counsel.
(d) Subject to Subsection 5.02(h), so long as a Global Certificate of such Class Is
outstanding and is held by or on behalf of the Depository, transfers of beneficial interests in such
Global Certificate, or transfers by holders of Individual Certificates of such Class to transferees
that take delivery in the form of beneficial interests in the Global Certificate, may be made only
in accordance with this Subsection 5.02(d) and in accordance with the rules of the Depository:
(i) In the case of a beneficial interest in the Global Certificate being
transferred to an Institutional Accredited Investor, such transferee shall be required to
take delivery in the form of an Individual Certificate or Certificates and the Certificate
Registrar shall register such transfer only upon compliance with the provisions of
Subsection 5.02(c)(ii).
(ii) In the case of a beneficial interest in a Class of Global Certificates being
transferred to a transferee that takes delivery in the form of an Individual Certificate or
Certificates of such Class, except as set forth in clause (i) above, the Certificate Registrar
shall register such transfer only upon compliance with the provisions of Subsection
5.02(c)(i).

(iii) In the case of an Individual Certificate of a Class being transferred to a
transferee that takes delivery in the form of a beneficial interest in a Global Certificate of
such Class, the Certificate Registrar shall register such transfer if the transferee has
provided the Trustee with a Rule 144A Certificate or comparable evidence as to its QIB
status.
(iv) No restrictions shall apply with respect to the transfer or registration of
transfer of a beneficial interest in the Global Certificate of a Class to a transferee that

ny-srv0 I\COHENS\1053167v07\83772.010800

89
conﬁdential

Attachment F - Page 145

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 98 of 230
conﬁdential
A 448

takes delivery in the form of a beneficial interest in the Global Certificate of such Class;
provided that each such transferee shall be deemed to have made such representations
and warranties contained in the Rule 144A Certificate as are sufficient to establish that it
is a QIB.
(e) Subject to Subsection 5.02(h), an exchange of a beneficial interest in a Global
Certificate of a Class for an Individual Certificate or Certificates of such Class, an exchange of
an Individual Certificate or Certificates of a Class for a beneficial interest in the Global
Certificate of such Class and an exchange of an Individual Certificate or Certificates of a Class
for another Individual Certificate or Certificates of such Class (in each case, whether or not such
exchange is made in anticipation of subsequent transfer, and, in the case of the Global Certificate
of such Class, so long as such Certificate is outstanding and is held by or on behalf of the
Depository) may be made only in accordance with this Subsection 5.02(e) and in accordance
with the rules of the Depository:
(i) A holder of a beneficial interest in a Global Certificate of a Class may at
any time exchange such beneficial interest for an Individual Certificate or Certificates of
such Class.
(ii) A holder of an Individual Certificate or Certificates of a Class may
exchange such Certificate or Certificates for a beneficial interest in the Global Certificate
of such Class If such holder furnishes to the Certificate Registrar a Rule 144A Certificate
or comparable evidence as to its QIB status.
(iii) A holder of an Individual Certificate of a Class may exchange such
Certificate for an equal aggregate principal amount of Individual Certificates of such
Class In different authorized denominations without any certification.

(f) (i) Upon acceptance for exchange or transfer of an Individual Certificate of a
Class for a beneficial interest in a Global Certificate of such Class as provided herein, the
Certificate Registrar shall cancel such Individual Certificate and shall (or shall request the
Depository to) endorse on the schedule affixed to the applicable Global Certificate (or on a
continuation of such schedule affixed to the Global Certificate and made a part thereof) or
otherwise make in its books and records an appropriate notation evidencing the date of such
exchange or transfer and an increase in the certificate balance of the Global Certificate equal to
the certificate balance of such Individual Certificate exchanged or transferred therefor.
(ii) Upon acceptance for exchange or transfer of a beneficial interest in a
Global Certificate of a Class for an Individual Certificate of such Class as provided
herein, the Certificate Registrar shall (or shall request the Depository to) endorse on the
schedule affixed to such Global Certificate (or on a continuation of such schedule affixed
to such Global Certificate and made a part thereof) or otherwise make in its books and
records an appropriate notation evidencing the date of such exchange or transfer and a
decrease in the certificate balance of such Global Certificate equal to the certificate
balance of such Individual Certificate issued in exchange therefor or upon transfer
thereof.

ny-srv0 I\COHENS\1053167v07\83772.010800

90
conﬁdential

Attachment F - Page 146

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 99 of 230
conﬁdential
A 449

(g) The Securities Legend shall be placed on any Individual Certificate issued in
exchange for or upon transfer of another Individual Certificate or of a beneficial interest in a
Global Certificate.
(h) Subject to the restrictions on transfer and exchange set forth in this Section 5.02,
the holder of any Individual Certificate may transfer or exchange the same in whole or in part (in
an initial certificate balance equal to the minimum authorized denomination set forth in Section
5.01(g) above or any integral multiple of $1.00 in excess thereof) by surrendering such
Certificate at the Certificate Registrar Office, or at the office of any transfer agent, together with
an executed instrument of assignment and transfer satisfactory in form and substance to the
Certificate Registrar in the case of transfer and a written request for exchange in the case of
exchange. The holder of a beneficial interest in a Global Certificate may, subject to the rules and
procedures of the Depository, cause the Depository (or its nominee) to notify the Certificate
Registrar (as agent of the Depositor) in writing of a request for transfer or exchange of such
beneficial interest for an Individual Certificate or Certificates. Following a proper request for
transfer or exchange, the Certificate Registrar shall, within five Business Days of such request
made at such the Certificate Registrar Office, sign, countersign and deliver at the Certificate
Registrar Office, to the transferee (in the case of transfer) or holder (in the case of exchange) or
send by first class mail at the risk of the transferee (in the case of transfer) or holder (in the case
of exchange) to such address as the transferee or holder, as applicable, may request, an
Individual Certificate or Certificates, as the case may require, for a like aggregate Fractional
Undivided Interest and in such authorized denomination or denominations as may be requested.
The presentation for transfer or exchange of any Individual Certificate shall not be valid unless
made at the Certificate Registrar Office by the registered holder in person, or by a duly
authorized attorney-in-fact.
(i) At the option of the Certificateholders, Certificates may be exchanged for other
Certificates of authorized denominations of a like Class and aggregate Fractional Undivided
Interest, upon surrender of the Certificates to be exchanged at any such office or agency;
provided, however, that no Certificate may be exchanged for new Certificates unless the original
Fractional Undivided Interest represented by each such new Certificate (i) is at least equal to the
minimum authorized denomination or (ii) is acceptable to the Depositor as indicated to the
Trustee in writing. Whenever any Certificates are so surrendered for exchange, the Trustee shall
sign and the Certificate Registrar shall countersign and deliver the Certificates which the
Certificateholder making the exchange is entitled to receive.
(j) If the Certificate Registrar so requires, every Certificate presented or surrendered
for transfer or exchange shall be duly endorsed by, or be accompanied by a written instrument of
transfer, with a signature guarantee, in form satisfactory to the Certificate Registrar, duly
executed by the holder thereof or his or her attorney duly authorized in writing.
(k) No service charge shall be made for any transfer or exchange of Certificates, but
the Certificate Registrar may require payment of a sum sufficient to cover any tax or
governmental charge that may be imposed in connection with any transfer or exchange of
Certificates.

ny-srv01 \COHENS\ 1053167v07\83772.010800

91
conﬁdential

Attachment F - Page 147

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 100 of 230
conﬁdential
A 450

(1) The Certificate Registrar shall cancel all Certificates surrendered for transfer or
exchange but shall retain such Certificates in accordance with its standard retention policy or for
such further time as is required by the record retention requirements of the Exchange Act, and
thereafter may destroy such Certificates.
Section 5.03 Mutilated, Destroyed, Lost or Stolen Certificates. (a) If (i) any mutilated
Certificate is surrendered to the Certificate Registrar, or the Certificate Registrar receives
evidence to its satisfaction of the destruction, loss or theft of any Certificate, and (ii) there is
delivered to the Certificate Registrar, the Master Servicer, the Securities Administrator and the
Trustee such security or indemnity as it may require to save it harmless, and (iii) the Certificate
Registrar has not received notice that such Certificate has been acquired by a third Person, the
Trustee shall sign and the Certificate Registrar shall countersign and deliver, in exchange for or
in lieu of any such mutilated, destroyed, lost or stolen Certificate, a new Certificate of like tenor
and Fractional Undivided Interest but in each case bearing a different number. The mutilated,
destroyed, lost or stolen Certificate shall thereupon be canceled of record by the Certificate
Registrar and shall be of no further effect and evidence no rights.
(a) Upon the issuance of any new Certificate under this Section 5.03, the Certificate
Registrar may require the payment of a sum sufficient to cover any tax or other governmental
charge that may be imposed in relation thereto and any other expenses (including the fees and
expenses of the Certificate Registrar) connected therewith. Any duplicate Certificate issued
pursuant to this Section 5.03 shall constitute complete and indefeasible evidence of ownership in
the Trust Fund, as if originally issued, whether or not the lost, stolen or destroyed Certificate
shall be found at any time.
Section 5.04 Persons Deemed Owners. Prior to due presentation of a Certificate for
registration of transfer, the Depositor, the Paying Agent, the Certificate Registrar, the Trustee
and any agent of the Depositor, the Paying Agent, the Certificate Registrar, or the Trustee may
treat the Person in whose name any Certificate is registered as the owner of such Certificate for
the purpose of receiving distributions pursuant to Section 6.01 and for all other purposes
whatsoever. Neither the Depositor, the Paying Agent, the Certificate Registrar the Trustee nor
any agent of the Depositor, the Paying Agent, the Certificate Registrar or the Trustee shall be
affected by notice to the contrary. No Certificate shall be deemed duly presented for a transfer
effective on any Record Date unless the Certificate to be transferred is presented no later than the
close of business on the third Business Day preceding such Record Date.

Section 5.05 Transfer Restrictions on Residual Certificates. (a) Residual Certificates,
or interests therein, may not be transferred without the prior express written consent of the Tax
Matters Person and the Depositor. As a prerequisite to such consent, the proposed transferee
must provide the Tax Matters Person, the Depositor, the Certificate Registrar and the Trustee
with an affidavit that the proposed transferee is a Permitted Transferee (and, unless the Tax
Matters Person and the Depositor consent to the transfer to a person who is not a U.S. Person, an
affidavit that it is a U.S. Person) as provided in Subsection 5.05(b).
(b) No transfer, sale or other disposition of a Residual Certificate (including a
beneficial interest therein) may be made unless, prior to the transfer, sale or other disposition of a
Residual Certificate, the proposed transferee (including the initial purchasers thereof) delivers to
ny-srv0 I\COHENS\1053167v07\83772.010800

92
conﬁdential

Attachment F - Page 148

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 101 of 230
conﬁdential
A 451

the Tax Matters Person, the Certificate Registrar, the Trustee and the Depositor an affidavit in
the form attached hereto as Exhibit E stating, among other things, that as of the date of such
transfer (i) such transferee is a Permitted Transferee and that (ii) such transferee is not acquiring
such Residual Certificate for the account of any person who is not a Permitted Transferee. The
Tax Matters Person shall not consent to a transfer of a Residual Certificate if it has actual
knowledge that any statement made in the affidavit issued pursuant to the preceding sentence is
not true. Notwithstanding any transfer, sale or other disposition of a Residual Certificate to any
Person who is not a Permitted Transferee, such transfer, sale or other disposition shall be deemed
to be of no legal force or effect whatsoever and such Person shall not be deemed to be a Holder
of a Residual Certificate for any purpose hereunder, including, but not limited to, the receipt of
distributions thereon. If any purported transfer shall be in violation of the provisions of this
Subsection 5.05(b), then the prior Holder thereof shall, upon discovery that the transfer of such
Residual Certificate was not in fact permitted by this Subsection 5.05(b), be restored to all rights
as a Holder thereof retroactive to the date of the purported transfer. None of the Trustee, the
Certificate Registrar, the Tax Matters Person or the Depositor shall be under any liability to any
Person for any registration or transfer of a Residual Certificate that is not permitted by this
Subsection 5.05(b) or for making payments due on such Residual Certificate to the purported
Holder thereof or taking any other action with respect to such purported Holder under the
provisions of this Agreement so long as the written affidavit referred to above was received with
respect to such transfer, and the Tax Matters Person, the Trustee and the Depositor, as
applicable, had no knowledge that it was untrue. The prior Holder shall be entitled to recover
from any purported Holder of a Residual Certificate that was in fact not a Permitted Transferee
under this Subsection 5.05(b) at the time it became a Holder all payments made on such Residual
Certificate. Each Holder of a Residual Certificate, by acceptance thereof, shall be deemed for all
purposes to have consented to the provisions of this Subsection 5.05(b) and to any amendment of
this Agreement deemed necessary (whether as a result of new legislation or otherwise) by
counsel of the Tax Matters Person or the Depositor to ensure that the Residual Certificates are
not transferred to any Person who is not a Permitted Transferee and that any transfer of such
Residual Certificates will not cause the imposition of a tax upon the Trust or cause any REMIC
to fail to qualify as a REMIC.
(c) Unless the Tax Matters Person and the Depositor shall have consented in writing
(which consent may be withheld in the Tax Matters Person’s or the Depositor’s sole discretion),
the Residual Certificates (including a beneficial interest therein) may not be purchased by or
transferred to any person who is not a United States Person.
(d) By accepting a Residual Certificate, the purchaser thereof agrees to be a Tax
Matters Person, and appoints the Securities Administrator to act as its agent with respect to all
matters concerning the tax obligations of the Trust.
Section 5.06 Restrictions on Transferability of Certificates. (a) No offer, sale, transfer
or other disposition (including pledge) of any Certificate shall be made by any Holder thereof
unless registered under the Securities Act, or an exemption from the registration requirements of
the Securities Act and any applicable state securities or "Blue Sky" laws is available and the
prospective transferee (other than the Depositor) of such Certificate signs and delivers to the
Certificate Registrar an Investment Letter, if the transferee is an Institutional Accredited
Investor, in the form set forth as Exhibit F-1 hereto, or a Rule 144A Certificate, if the transferee
ny-srv0 I\COHENS\1053167v07\83772.010800

93
conﬁdential

Attachment F - Page 149

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 102 of 230
conﬁdential
A 452

is a QIB, in the form set forth as Exhibit F-2 hereto. Notwithstanding the provisions of the
immediately preceding sentence, no restrictions shall apply with respect to the transfer or
registration of transfer of a beneficial interest in any Certificate that is a Global Certificate of a
Class to a transferee that takes delivery in the form of a beneficial interest in the Global
Certificate of such Class, provided that each such transferee shall be deemed to have made such
representations and warranties contained in the Rule 144A Certificate as are sufficient to
establish that it is a QIB. In the case of a proposed transfer of any Certificate to a transferee
other than a QIB, the Certificate Registrar may require an Opinion of Counsel that such
transaction is exempt from the registration requirements of the Securities Act. The cost of such
opinion shall not be an expense of the Trustee or the Trust Fund.
(b) The Private Certificates shall each bear a Securities Legend. The Trustee and the
Securities Administrator shall comply with the requirements of Treasury Regulations § § 1.860D1 (b)(5) and 1.860E-2(a)(5) with respect to the furnishing of information.
Section 5.07 ERISA Restrictions. (a) Subject to the provisions of Subsection 5.07(b),
no Residual Certificates or Private Certificates may be acquired directly or indirectly by, or on
behalf of, an employee benefit plan or other retirement arrangement which is subject to Title I of
ERISA and/or Section 4975 of the Code, unless the proposed transferee provides either (i) the
Trustee, the Certificate Registrar, the Master Servicer and the Securities Administrator with an
Opinion of Counsel satisfactory to the Trustee, the Certificate Registrar, the Master Servicer and
the Securities Administrator, which opinion will not be at the expense of the Trustee, the Master
Servicer or the Securities Administrator, that the purchase of such Certificates by or on behalf of
such Plan is permissible under applicable law, will not constitute or result in the assets of the
Trust being deemed to be "plan assets" subject to the prohibited transaction provisions of ERISA
or Section 4975 of the Code, will not result in a non-exempt prohibited transaction under Section
406 of ERISA or Section 4975 of the Code and will not subject the Trustee, the Certificate
Registrar, the Master Servicer, the Depositor, any Servicer or the Securities Administrator to any
obligation in addition to those undertaken in the Agreement or (ii) in the case of the Class B-4,
Class B-5 and Class B-6 Certificates, a representation or certification to the Trustee and the
Certificate Registrar (upon which each of the Trustee and the Certificate Registrar is authorized
to rely) to the effect that the proposed transfer and/or holding of such a Certificate and the
servicing, management and operation of the Trust: (I) will not result in a prohibited transaction
under Section 406 of ERISA or Section 4975 of the Code unless it is covered under an individual
or class prohibited transaction exemption, including but not limited to Department of Labor
Prohibited Transaction Class Exemption ("PTCE") 84-14 (Class Exemption for Plan Asset
Transactions Determined by Independent Qualified Professional Asset Managers); PTCE 91-38
(Class Exemption for Certain Transactions Involving Bank Collective Investment Funds); PTCE
90-1 (Class Exemption for Certain Transactions Involving Insurance Company Pooled Separate
Accounts), PTCE 95-60 (Class Exemption for Certain Transactions Involving Insurance
Company General Accounts), and PTCE 96-23 (Class Exemption for Plan Asset Transactions
Determined by In-House Asset Managers), or Section 401(c) of ERISA and the regulations
promulgated thereunder; (II) will not constitute or result in the assets of the Trust being deemed
to be "plan assets" subject to the prohibited transaction provisions of ERISA or Section 4975 of
the Code; and (III) will not subject the Depositor, the Certificate Registrar, the Securities
Administrator, any Servicer, the Master Servicer or the Trustee to any obligation in addition to
those undertaken in the Agreement.
ny-srv0 I\COHENS\1053167v07\83772.010800

94
conﬁdential

Attachment F - Page 150

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 103 of 230
conﬁdential
A 453

(b) Each beneficial owner of a Class M, Class B-l, Class B-2 or Class B-3 Certificate
or any interest therein shall be deemed to have represented, by virtue of its acquisition or holding
of that certificate or interest therein, that either (i) it is not a Plan or investing with "Plan Assets",
(ii) it has acquired and is holding such Certificate in reliance on Prohibited Transaction
Exemption 97-34, as amended (the "Exemption"), and that it understands that there are certain
conditions to the availability of the Exemption, including that the certificate must be rated, at the
time of purchase, not lower than "BBB-" (or its equivalent) by S&P, Fitch or Moody’s Investors
Service, Inc., and the certificate is so rated or (iii) (1) it is an insurance company, (2) the source
of funds used to acquire or hold the certificate or interest therein is an "insurance company
general account," as such term is defined in Prohibited Transaction Class Exemption ("PTCE")
95-60, and (3) the applicable conditions of PTCE 95-60 have been satisfied.
(c) Any Person acquiring an interest in a Global Certificate which is a Private
Certificate, by acquisition of such Certificate, shall be deemed to have represented to the Trustee
that, in the case of the Class B-4, Class B-5 and Class B-6 Certificates, either: (i) it is not
acquiring an interest in such Certificate directly or indirectly by, or on behalf of, an employee
benefit plan or other retirement arrangement which is subject to Title I of ERISA and/or Section
4975 of the Code, or (ii) the transfer and/or holding of an interest in such Certificate to that
Person and the subsequent servicing, management and/or operation of the Trust and its assets:
(I) will not result in any prohibited transaction unless it is covered under an individual or class
prohibited transaction exemption, including, but not limited to, PTCE 84-14, PTCE 91-38, PTCE
90-1, PTCE 95-60 or PTCE 96-23, or Section 401(c) of ERISA and the regulations promulgated
thereunder; (II) will not constitute or result in the assets of the Trust being deemed to be "plan
assets" subject to the prohibited transaction provisions of ERISA or Section 4975 of the Code;
and (III) will not subject the Depositor, the Certificate Registrar, the Securities Administrator,
any Servicer, the Master Servicer or the Trustee to any obligation in addition to those undertaken
in the Agreement.
(d) Neither the Trustee, the Certificate Registrar, the Master Servicer nor the
Securities Administrator will be required to monitor, determine or inquire as to compliance with
the transfer restrictions with respect to the Global Certificates or any Book-Entry Certificate.
Any attempted or purported transfer of any Certificate in violation of the provisions of
Subsections (a) or (b) above shall be void ab initio and such Certificate shall be considered to
have been held continuously by the prior permitted Certificateholder. Any transferor of any
Certificate in violation of such provisions, shall indemnify and hold harmless the Trustee, the
Certificate Registrar, the Securities Administrator and the Master Servicer from and against any
and all liabilities, claims, costs or expenses incurred by the Trustee, the Certificate Registrar, the
Securities Administrator or the Master Servicer as a result of such attempted or purported
transfer. Neither the Trustee nor the Certificate Registrar shall have any liability for transfer of
any such Global Certificates or any Book-Entry Certificates in or through book-entry facilities of
any Depository or between or among Depository Participants or Certificate Owners made in
violation of the transfer restrictions set forth herein.
Section 5.08 Rule 144A Information. For so long as any Certificates are outstanding
and are "restricted securities" within the meaning of Rule 144(a)(3) of the Securities Act: (1) the
Depositor will provide or cause to be provided to any holder of such Certificates and any
prospective purchaser thereof designated by such a holder, upon the request of such holder or
ny-srv0 l\COHENS\1053167v07\83772.010800

95
conﬁdential

Attachment F - Page 151

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 104 of 230
conﬁdential
A 454

prospective purchaser, the information required to be provided to such holder or prospective
purchaser by Rule 144A(d)(4) under the Securities Act; and (2) the Depositor shall update such
information from time to time in order to prevent such information from becoming false and
misleading and will take such other actions as are necessary to ensure that the safe harbor
exemption from the registration requirements of the Securities Act under Rule 144A is and will
be available for resales of such Certificates conducted in accordance with Rule 144A.
Section 5.09 Appointment of Paying Agent and Certificate Registrar. Wells Fargo
Bank, National Association, as Securities Administrator, shall act as the initial Paying Agent and
Certificate Registrar for so long as it is also the Master Servicer. Each of the Paying Agent and
the Certificate Registrar may resign upon thirty (30) days’ prior written notice to the Trustee;
provided hereto that no such resignation shall be effective until the appointment of a successor
paying agent or certificate registrar. In the event the Paying Agent and/or the Certificate
Registrar resigns or is removed by the Trustee for cause, the Trustee may appoint a successor
paying agent or certificate registrar, as applicable. The Trustee shall cause such successor
paying agent, if other than the Trustee or the Master Servicer or the Securities Administrator, to
execute and deliver to the Trustee an instrument in which such paying agent shall agree with the
Trustee that such paying agent will hold all sums held by it for the payment to Certificateholders
in trust for the benefit of the Certificateholders entitled thereto until such sums have been paid to
the Certificateholders.
ARTICLE VI
Payments to Certificateholders

Section 6.01 Distributions on the Certificates. (a) Interest and (as applicable) principal
on the Certificates (other than the Residual Certificates) will be distributed monthly on each
Distribution Date, commencing in June 2005, in an aggregate amount equal to the Available
Funds for such Distribution Date.
On the first Distribution Date, an amount equal to the Deposit Amount shall be
distributed to the Residual Certificates, pro rata, in reduction of their Current Principal Amounts,
until their respective Current Principal Amounts are reduced to zero.
(A) On each Distribution Date, the Group I Available Funds will be distributed to the
Group I Senior Certificates (other than the Residual Certificates) and the Class M-X Certificates
as follows:
first, to the Class I-A-1 Certificates, the Class I-A-2 Certificates and the Class I-X
Certificates, the Accrued Certificate Interest on each such Class of Certificates for such
Distribution Date, pro rata, and then to the Class M-X Certificates, the Group I Allocation
Fraction of Accrued Certificate Interest on such Class of Certificates for such Distribution Date,
in each case based on the Accrued Certificate Interest owed to each such Class of Certificates;
provided, however, that the amount of Accrued Certificate Interest paid to the Class I-X
Certificates pursuant to this clause will be reduced by the aggregate amount of any Group I
Carryover Shortfall Amounts on the Class I-A-1 Certificates and the Class I-A-2 Certificates,
which amount will be deposited on such Distribution Date in the Group I Carryover Shortfall
Reserve Fund for distribution to the Class I-A-1 Certificates and the Class I-A-2 Certificates, as
ny-srv0 I\COHENS\1053167v07\83772.010800

96
conﬁdential

Attachment F - Page 152

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 105 of 230
conﬁdential
A 455

set forth in subparagraph second below and in clause (G) below, and that the amount of Accrued
Certificate Interest paid to the Class M-X Certificates pursuant to this clause on each Distribution
Date will be reduced by the Group I Allocation Fraction of any Subordinate Carryover Shortfall
Amounts on the Subordinate Certificates (other than the Class M-X Certificates), which amount
will be deposited on such Distribution Date into the Subordinate Carryover Reserve Fund for
distribution as set forth in Section 6.01(a)(I) below. In addition, Accrued Certificate Interest on
the Class I-A-1 Certificates, the Class I-A-2 Certificates, the Class I-X Certificates and the Class
M-X Certificates is subject to reduction in the event of certain Net Interest Shortfalls and Net
Deferred Interest allocable thereto. Any Net Interest Shortfalls and Net Deferred Interest shall
be allocated among such Class I-A-1 Certificates, the Class I-A-2 Certificates, the Class I-X
Certificates and the Class M-X Certificates in accordance with the provisions of Section 6.02(g);
second, to the Class I-A-1 Certificates and the Class I-A-2 Certificates, any Group I
Carryover Shortfall Amounts due to such Certificates (in accordance with Section 6.01(a)(G)
below) to the extent such amount was deducted from the Accrued Certificate Interest on the
Class I-X Certificates for such Distribution Date;
third, to the extent of remaining Group I Available Funds, to the Class I-A-1 Certificates,
the Class I-A-2 Certificates and the Class I-X Certificates, any Accrued Certificate Interest
thereon pursuant to clause first remaining undistributed from previous Distribution Dates (other
than, with respect to the Class I-X Certificates, any amounts pursuant to clause first deposited
into the Group I Carryover Shortfall Reserve), pro rata, and then to the Class M-X Certificates,
the Accrued Certificate Interest thereon pursuant to clause first remaining undistributed from
previous Distribution Dates (other than any amounts pursuant to clause first deposited into the
Subordinate Carryover Shortfall Reserve Fund), in each case based on the undistributed Accrued
Certificate Interest owed to each such Class of Certificates; and

fourth, to the extent of remaining" Group I Available Funds, to the Class I-A-1
Certificates, the Class I-A-2 Certificates and the Class I-X Certificates, in reduction of the
respective Current Principal Amount thereof, the remaining Group I Senior Optimal Principal
Amount for such Distribution Date, until the respective Current Principal Amount of each such
Class of Certificates has been reduced to zero.
(B) On each Distribution Date, the Group II Available Funds will be distributed to the
Class II-A-1 Certificates, the Class II-A-2 Certificates, the Class II-A-3 Certificates, the Class IIX Certificates and the Class M-X Certificates as follows:

first, to the Class II-A-1 Certificates, the Class II-A-2 Certificates, the Class II-A-3
Certificates and the Class II-X Certificates, the Accrued Certificate Interest on each such Class
of Certificates for such Distribution Date, pro rata, and then to the Class M-X Certificates, the
Group II Allocation Fraction of Accrued Certificate Interest on such Class of Certificates for
such Distribution Date, in each case based on the Accrued Certificate Interest owed to each such
Class of Certificates, provided, however, that the amount of Accrued Certificate Interest paid to
the Class II-X Certificates pursuant to this clause will be reduced by the aggregate amount of any
Group II Carryover Shortfall Amounts for that Distribution Date on the Class II-A-1 Certificates,
the Class II-A-2 Certificates and the Class II-A-3 Certificates, which amount will be deposited
on such Distribution Date into the Group II Carryover Shortfall Reserve Fund for distribution to
ny-srv0 I\COHENS\1053167v07\83772.010800

97
conﬁdential

Attachment F - Page 153

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 106 of 230
conﬁdential
A 456

the Class II-A-1 Certificates, the Class II-A-2 Certificates and the Class II-A-3 Certificates as set
forth in subparagraph second below and in clause (H) below; and provided further, that the
amount of Accrued Certificate Interest paid to the Class M-X certificates pursuant to this clause
on each Distribution Date will be reduced by the Group II Allocation Fraction of any
Subordinate Carryover Shortfall Amounts on the Subordinate Certificates (other than the Class
M-X Certificates), which amount will be deposited on such Distribution Date in the Subordinate
Carryover Shortfall Reserve Fund for distribution to the Subordinate Certificates (other than the
Class M-X Certificates) as set forth in clause (I) below. In addition, as described below,
Accrued Certificate Interest on the Class II-A-1 Certificates, the Class II-A-2 Certificates, the
Class II-A-3 Certificates, the Class II-X Certificates and the Class M-X Certificates is subject to
reduction in the event of certain Net Interest Shortfalls and Net Deferred Interest allocable
thereto. Any Net Interest Shortfalls and Net Deferred Interest shall be allocated among the Class
II-A-1 Certificates, the Class II-A-2 Certificates, the Class II-A-3 Certificates, the Class II-X
Certificates and the Class M-X Certificates in accordance with the provisions of Section 6.02(g);

third, to the extent of remaining Group II Available Funds, to the Class II-A-1
Certificates, the Class II-A-2 Certificates, the Class II-A-3 Certificates and the Class II-X
Certificates, any Accrued Certificate Interest thereon pursuant to clause first remaining
undistributed from previous Distribution Dates (other than, with respect to the Class II-X
Certificates, any amounts pursuant to clause first deposited into the Group II Carryover Shortfall
Reserve Fund), pro rata, and then to the Class M-X Certificates, the Group II Allocation Fraction
of Accrued Certificate Interest on such Class of Certificates for such Distribution Date, in each
case based on the undistributed Accrued Certificate Interest owed to each such Class of
Certificates; and
fourth, to the extent of remaining Group II Available Funds, to the Class II-A-1
Certificates, the Class II-A-2 Certificates, the Class II-A-3 Certificates and the Class II-X
Certificates, pro rata, in reduction of the respective Current Principal Amount thereof, the
Group II Senior Optimal Principal Amount for such Distribution Date, until the respective
Current Principal Amount of each such Class of Certificates has been reduced to zero.

(C) On each Distribution Date, the Group III Available Funds will be distributed to
the Group III Senior Certificates and the Class M-X Certificates in the following order:
first, to the Group III Senior Certificates, the Accrued Certificate Interest on each such
Class of Certificates for such Distribution Date, pro rata, and then to the Class M-X Certificates,
the Group III Allocation Fraction of Accrued Certificate Interest on such Class of Certificates for
such Distribution Date, in each case based on the Accrued Certificate Interest owed to each such
Class of Certificates ; provided, however, that the amount of Accrued Certificate Interest paid to
the Class M-X Certificates pursuant to this clause will be reduced by the Group III Allocation
Fraction of any Subordinate Carryover Shortfall Amounts on the Subordinate Certificates (other
than the Class M-X Certificates), which amount will be deposited on such Distribution Date in
the Subordinate Carryover Shortfall Reserve Fund for distribution to the Subordinate Certificates
(other than the Class M-X Certificates) as set forth in clause (I) below. As described below,
Accrued Certificate Interest on the Group III Senior Certificates and the Class M-X Certificates
is subject to reduction in the event of certain Net Interest Shortfalls and Net Deferred Interest

ny-srv01\COHENS\1053167v07\83772.010800

98
conﬁdential

Attachment F - Page 154

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 107 of 230
conﬁdential
A 457

allocable thereto. Any Net Interest Shortfalls and Net Deferred Interest shall be allocated among
the Group III Senior Certificates and the Class M-X Certificates as described below;
second, to the extent of remaining Group III Available Funds, to the Group III Senior
Certificates, any Accrued Certificate Interest thereon pursuant to clause first remaining
undistributed from previous Distribution Dates, pro rata, and then to the Class M-X Certificates,
the Group III Allocation Fraction of Accrued Certificate Interest on such Class of Certificates for
such Distribution Date, in each case based on the undistributed Accrued Certificate Interest owed
to each such Class of Certificates; and

third, to the extent of remaining Group III Available Funds, to the Group III Senior
Certificates, pro rata, in reduction of the respective Current Principal Amount thereof, the
Group III Senior Optimal Principal Amount for such Distribution Date, until the respective
Current Principal Amount of each such Class of Certificates has been reduced to zero.
(D) Except as provided in paragraphs (E) and (F) below, on each Distribution Date on
or prior to the Cross-Over Date, an amount equal to the sum of the remaining Group I Available
Funds, Group II Available Funds and Group III Available Funds after the distributions in (A),
(B) and (C) above will be distributed sequentially, in the following order, to the Class M-l, Class
M-2, Class M-3, Class M-4, Class M-5, Class M-6, Class M-7, Class B-l, Class B-2, Class B-3,
Class B-4, Class B-5 and Class B-6 Certificates, in each case up to an amount equal to and in the
following order: (a) the Accrued Certificate Interest thereon for such Distribution Date, (b) any
Accrued Certificate Interest thereon remaining undistributed from previous Distribution Dates,
(c) in reduction of the Current Principal Amount of the Class M-X Certificates, in an amount not
to exceed the Subordinate Optimal Principal Amount for such Distribution Date, until the
Current Principal Amount of such Class of Certificates has been reduced to zero and (d) such
Class’s Allocable Share for such Distribution Date, in each case, to the extent of the remaining
Group I Available Funds, Group II Available Funds and Group III Available Funds.
(E) On each Distribution Date prior to the Cross-Over Date but after the reduction of
the respective Current Principal Amount of any of the Group I Senior Certificates (other than the
Residual Certificates), the Group II Senior Certificates or the Group III Senior Certificates to
zero, the remaining Class or Classes of Senior Certificates (other than the Residual Certificates),
as the case may be, will be entitled to receive on a pro rata basis in reduction of their Current
Principal Amounts, in addition to any Principal Prepayments related to such remaining Class of
Senior Certificates’ respective Loan Group allocated to such Senior Certificates, 100% of the
Principal Prepayments on any Mortgage Loan in the Loan Group relating to such fully repaid
Class or Classes of Group I Senior Certificates, Group II Senior Certificates or Group III Senior
Certificates; provided, however, that if (A) the weighted average of the Subordinate Percentages
on such Distribution Date equals or exceeds two times the initial weighted average of the
Subordinate Percentages and (B) the aggregate Scheduled Principal Balance of the Mortgage
Loans delinquent 60 days or more (including for this purpose any such Mortgage Loans in
foreclosure and Mortgage Loans with respect to which the related Mortgaged Property has been
acquired by the Trust), averaged over the last six months, as a percentage of the sum of the
aggregate Current Principal Amount of the Subordinate Certificates, does not exceed 100%, then
the additional allocation of Principal Prepayments to such Group I Senior Certificates, Group II
Senior Certificates or Group III Senior Certificates in accordance with this clause (E) will not be
ny-srv0 I\COHENS\1053167v07\83772.010800

99
conﬁdential

Attachment F - Page 155

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 108 of 230
conﬁdential
A 458

made and 100% of the Principal Prepayments on any Mortgage Loan in the Loan Group relating
to such fully prepaid Class or Classes of Group I Senior Certificates, Group II Senior Certificates
or Group III Senior Certificates will be allocated on a pro rata basis to the Subordinate
Certificates.
(F) If on any Distribution Date the aggregate Current Principal Amount of the
Group I Senior Certificates (other than the Residual Certificates), the Group II Senior
Certificates or the Group III Senior Certificates would be greater than the aggregate Scheduled
Principal Balance of the Mortgage Loans in the related Loan Group and any Subordinate
Certificates are still outstanding, in each case after giving effect to distributions to be made on
such Distribution Date, then (i) 100% of amounts otherwise allocable to the Subordinate
Certificates in respect of principal collections on the Mortgage Loans will be distributed to the
Group I Senior Certificates, the Group II Senior Certificates or to the Group III Senior
Certificates (other than the Residual Certificates), on a pro rata basis, in reduction of the
respective Current Principal Amount thereof, until the aggregate Current Principal Amount of
such Class or Classes of Senior Certificates, as applicable, is an amount equal to the aggregate
Scheduled Principal Balance of the Mortgage Loans in the related Loan Group, and (ii) the
Accrued Certificate Interest otherwise allocable to the Subordinate Certificates on such
Distribution Date will be reduced, if necessary, and distributed on a pro rata basis to such Class
or Classes of Senior Certificates in an amount equal to the Accrued Certificate Interest for such
Distribution Date on the excess of (x) the aggregate Current Principal Amount of such Class or
Classes of Senior Certificates over (y) the aggregate Scheduled Principal Balance of the
Mortgage Loans in the related Loan Group. Any such reduction in the Accrued Certificate
Interest on the Subordinate Certificates will be allocated on a pro rata basis in reverse order of
the payment priority of the Subordinate Certificates, commencing with the Class B-6
Certificates.
(G) On each Distribution Date, any amounts in the Group I Carryover Shortfall
Reserve Fund will be distributed to the Class I-A-1 Certificates and the Class I-A-2 Certificates,
pro rata based on unpaid Group I Carryover Shortfall Amounts on each such Class of
Certificates, up to an amount equal to any unpaid Group I Carryover Shortfall Amounts with
respect to the respective Classes of Certificates.
(H) On each Distribution Date, any amounts in the Group II Carryover Shortfall
Reserve Fund will be distributed to the Class II-A-1 Certificates, the Class II-A-2 Certificates
and the Class II-A-3 Certificates, pro rata based on unpaid Group II Carryover Shortfall
Amounts on each such Class of Certificates, up to an amount equal to any unpaid Group II
Carryover Shortfall Amounts with respect to the respective Classes of Certificates.
(I) (i) On each Distribution Date on which all distributions set forth in paragraphs
(A), (B), (C) and (D) above to be made on such Distribution Date have been made, any amounts
in the Subordinate Carryover Shortfall Reserve Fund will be distributed sequentially to the Class
M-l, Class M-2, Class M-3, Class M-4, Class M-5, Class M-6, Class M-7, Class B-l, Class B-2,
Class B-3, Class B-4, Class B-5 and Class B-6 certificates, in each case up to an amount equal to
any unpaid Subordinate Carryover Shortfall Amounts with respect to such Class or Classes of
Certificates.

ny-srv0 I\COHENS\1053167v07\83772.010800

1 00
conﬁdential

Attachment F - Page 156

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 109 of 230
conﬁdential
A 459

(a) If, after distributions have been made pursuant to priorities first, second and third
of clause (A) above, priorities first, second and third of clause (B) above or priorities first and
second of clause (C) above, as the case may be, on any Distribution Date, the remaining Group I
Available Funds, Group II Available Funds or Group III Available Funds, respectively, are less
than the Group I Senior Optimal Principal Amount, Group II Senior Optimal Principal Amount
and Group III Senior Optimal Principal Amount, respectively, then such respective amounts shall
be reduced, and such remaining funds will be distributed to the related Senior Certificates (other
than the Residual Certificates) on the basis of such reduced amounts.
(b) "Pro rata" principal distributions among Classes of Certificates will be made in
proportion to the then Current Principal Amounts of such Classes of Certificates. "Pro rata"
interest distributions among Classes of Certificates that bear interest on any Distribution Date
will be made in proportion to the Accrued Certificate Interest payable on such Distribution Date.
(c) On each Distribution Date, any Available Funds remaining after payment of
interest and principal to the Classes of Certificates entitled thereto, as described above, will be
distributed to the Class R-III Certificates; provided that if on any Distribution Date there are any
Group I Available Funds, Group II Available Funds or Group III Available Funds remaining
after payment of interest and principal to a Class or Classes of Certificates entitled thereto, such
amounts will be distributed to the other Classes of Senior Certificates (other than the Residual
Certificates), pro rata, based upon their Current Principal Amounts, until all amounts due to all
such Classes of Senior Certificates (other than the Residual Certificates) have been paid in full,
before any amounts are distributed to the Class R-III Certificates.
(d)

[Reserved.]

(e) No Accrued Certificate Interest will be payable with respect to any Class or
Classes of Certificates that bears interest after the Distribution Date on which the Current
Principal Amount of such Certificate or Certificates or Notional Amount of such Certificate or
Certificates has been reduced to zero.
(f) (i) If on any Distribution Date the Group I Available Funds, Group II Available
Funds, or Group III Available Funds for the Group I Senior Certificates (other than the Residual
Certificates), Group II Senior Certificates and Group III Senior Certificates, respectively, in any
Certificate Group are less than the Accrued Certificate Interest on the related Senior Certificates
for such Distribution Date prior to reduction for Net Interest Shortfalls and the interest portion of
Realized Losses on the related Mortgage Loans, the shortfall will be allocated among the holders
of each Class of related Senior Certificates (other than the Residual Certificates) in such
Certificate Group and related Interest Only Certificates (as applicable) in proportion to the
respective amounts of Accrued Certificate Interest for such Distribution Date that would have
been allocated thereto in the absence of such Net Interest Shortfall and/or Realized Losses on the
related Mortgage Loans for such Distribution Date. In addition, the amount of any interest
shortfalls (not including Interest Shortfalls) will constitute unpaid Accrued Certificate Interest
and will be distributable to holders of the Certificates of the related Classes (other than the
Residual Certificates) entitled to such amounts on subsequent Distribution Dates, to the extent of
the related Certificate Group’s Available Funds after current interest distributions as required
herein. Any such amounts so carried forward will not bear interest. Any interest shortfalls will
ny-srv01 \COHENS\1053167v07\83772.010800

101
conﬁdential

Attachment F - Page 157

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 110 of 230
conﬁdential
A 460

not be offset by a reduction in the servicing compensation of the Master Servicer, the Servicers
or otherwise, except to the extent of applicable Compensating Interest Payments.
(g) The expenses and fees of the Trust shall be paid by each of the REMICs, to the
extent that such expenses relate to the assets of each of such respective REMICs, and all other
expenses and fees of the Trust shall be paid pro rata by each of the REMICs.
Section 6.02 Allocation of Losses and Subsequent Recoveries. (a) On or prior to each
Determination Date, the Master Servicer shall determine the amount of any Realized Loss in
respect of each Mortgage Loan that occurred during the immediately preceding calendar month.
(a) With respect to any Certificates (other than the Residual Certificates) on any
Distribution Date, the principal portion of each Realized Loss on a Mortgage Loan shall be
allocated as follows:
Section 6.03 first, to the Class B-6 Certificates until the Current Principal Amount
thereof has been reduced to zero;
second, to the Class B-5 Certificates until the Current Principal Amount thereof has been
reduced to zero;
third, to the Class B-4 Certificates until the Current Principal Amount thereof has been
reduced to zero;
fourth, to the Class B-3 Certificates until the Current Principal Amount thereof has been
reduced to zero;
fifth, to the Class B-2 Certificates until the Current Principal Amount thereof has been
reduced to zero;
sixth, to the Class B-1 Certificates until the Current Principal Amount thereof has been
reduced to zero;
seventh, to the Class M-7 Certificates until the Current Principal Amount thereof has
been reduced to zero;
eighth, to the Class M-6 Certificates until the Current Principal Amount thereof has been
reduced to zero;
ninth, to the Class M-5 Certificates until the Current Principal Amount thereof has been
reduced to zero;

tenth, to the Class M-4 Certificates until the Current Principal Amount thereof has been
reduced to zero;
eleventh, to the Class M-3 Certificates until the Current Principal Amount thereof has
been reduced to zero;

ny-srv0 I\COHENS\1053167v07\83772.010800

102
conﬁdential

Attachment F - Page 158

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 111 of 230
conﬁdential
A 461

twelfth, to the Class M-2 Certificates until the Current Principal Amount thereof has been
reduced to zero;
thirteenth, to the Class M-1 Certificates until the Current Principal Amount thereof has
been reduced to zero; and
fourteenth, after the Cross-over Date, (i) the principal portion of Realized Losses on the
Mortgage Loans in Loan Group I will be allocated on any Distribution Date after the Cross-over
Date first to the Class I-A-2 Certificates until the Current Principal Amount thereof has been
reduced to zero, and then to the Class I-A-1 Certificates until the Current Principal Amount
thereof has been reduced to zero, (ii) the principal portion of Realized Losses on the Mortgage
Loans in Loan Group II will be allocated on any Distribution Date after the Cross-over Date first
to the Class II-A-3 Certificates until the Current Principal Amount thereof has been reduced to
zero, and then to the Class II-A-2 Certificates until the Current Principal Amount thereof has
been reduced to zero, and then to the Class II-A-1 Certificates until the Current Principal
Amount thereof has been reduced to zero, and (iii) the principal portion of Realized Losses on
the Mortgage Loans in Loan Group III will be allocated on any Distribution Date after the Crossover Date first to the Class III-A-2 Certificates until the Current Principal Amount thereof has
been reduced to zero, and then to the Class III-A-1 Certificates until the Current Principal
Amount thereof has been reduced to zero.

(a) Notwithstanding the foregoing clause (b), (i) no such allocation of any Realized
Loss on the Group I Mortgage Loans, Group II Mortgage Loans or Group III Mortgage Loans, as
the case may be, shall be made on a Distribution Date to any Class or Classes of Group I Senior
Certificates (other than the Residual Certificates), Group II Senior Certificates or Group III
Senior Certificates, respectively, to the extent that such allocation would result in the reduction
of the aggregate Current Principal Amounts of all Certificates (other than the Residual
Certificates) in the related Certificate Group as of such Distribution Date, after giving effect to
all distributions and prior allocations of Realized Losses on the Mortgage Loans in the related
Loan Group on such date, to an amount less than the aggregate Scheduled Principal Balance of
all of the Mortgage Loans in the related Loan Group as of the first day of the month of such
Distribution Date , and (ii) no reduction of the Current Principal Amount of any Class of
Subordinate Certificates shall be made on any Distribution Date on account of Realized Losses
on the Mortgage Loans to the extent that such reduction would have the effect of reducing the
aggregate Current Principal Amount of all Certificates as of such Distribution Date, after giving
effect to all distributions and prior allocations of Realized Losses on the Mortgage Loans on such
date, to an amount less than the aggregate Scheduled Principal Balance of all of the Mortgage
Loans as of the first day of the month during which such Distribution Date occurs (the
limitations set forth in such clauses (i) and (ii), the "Loss Allocation Limitation").
(b) The principal portion of any Realized Losses on the Mortgage Loans allocated to
a Class of Certificates (other than the Residual Certificates) shall be allocated among the
Certificates of such Class (other than the Residual Certificates) in proportion to their respective
Current Principal Amounts. Once the Senior Certificates (other than, as applicable, the Residual
Certificates) of a Certificate Group have been reduced to zero, the principal portion of Realized
Losses on the Mortgage Loans in the related Loan Group (if any) will be allocated on a pro rata
basis to the remaining Senior Certificates (other than, as applicable, the Residual Certificates) of
ny-srv0 I\COHENS\ 1053167v07\83772 010800

10 3
conﬁdential

Attachment F - Page 159

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 112 of 230
conﬁdential
A 462

the other Certificate Groups. Within each Certificate Group, the principal portion of Realized
Losses on the related Mortgage Loans will be allocated to each Certificate (other than, as
applicable, the Residual Certificates) pro rata based upon the respective Current Principal
Amount of such Certificate. The principal portion of any allocation of Realized Losses on the
Mortgage Loans shall be accomplished by reducing the Current Principal Amount of the related
Certificates on the related Distribution Date.
(c) Realized Losses on the Mortgage Loans shall be allocated on the Distribution
Date in the month following the month in which such loss was incurred and, in the case of the
principal portion thereof, after giving effect to distributions made on such Distribution Date.
(d) On each Distribution Date, the Securities Administrator shall determine and
notify the Paying Agent of the Subordinate Certificate Writedown Amount. Any such
Subordinate Certificate Writedown Amount shall effect a corresponding reduction in the Current
Principal Amount of (i) with respect to the Subordinate Certificate Writedown Amount, if prior
to the Cross-Over Date, the Subordinate Certificates, in the reverse order of their numerical Class
designations and (ii) from and after the Cross-Over Date, the Senior Certificates (other than the
Residual Certificates), which reduction shall occur on such Distribution Date after giving effect
to distributions made on such Distribution Date.
(e) (i) The applicable Senior Percentage of any Prepayment Interest Shortfalls and
interest shortfalls resulting from the application of the Relief Act or similar state law will be
allocated among the Senior Certificates (other than the Residual Certificates) in proportion to the
amount of Accrued Certificate Interest that would have been allocated thereto in the absence of
such shortfalls. The applicable Subordinate Percentage of any Prepayment Interest Shortfalls and
interest shortfalls resulting from the application of the Relief Act or similar state law will be
allocated sequentially to the Subordinate Certificates, beginning with the Subordinate
Certificates with the highest payment priority, in proportion to the respective amounts of
Accrued Certificate Interest that would have been allocated thereto in the absence of such
shortfalls. The principal portion of any Realized Losses with respect to the Group I Mortgage
Loans, Group II Mortgage Loans or Group III Mortgage Loans occurring on or prior to the
Cross-Over Date will not be allocated among any Senior Certificates, but will reduce the amount
of Group I Available Funds, Group II Available Funds or Group III Available Funds,
respectively, available for distribution on the related Distribution Date. As a result of the
subordination of the Subordinate Certificates in right of distribution, such Realized Losses on the
Mortgage Loans will be borne by the Subordinate Certificates in inverse order of their payment
priority. Following the Cross-Over Date, the principal portion of Realized Losses on the
Mortgage Loans will be allocated as set forth in Section 6.02(d) above.

(ii) The principal portion of Debt Service Reductions will not be allocated in
reduction of the Current Principal Amount of any Class of Certificates. However, after
the Cross-over Date, the amounts distributable to the Senior Certificates (other than the
Residual Certificates) under clause (1) of the definition of Senior Optimal Principal
Amount for the Senior Certificates (other than the Residual Certificates) of each
Certificate Group and distributable to the Subordinate Certificates under clause (1) of the
definition of Subordinate Optimal Principal Amount will be reduced by the amount of
any Debt Service Reductions applicable to the Mortgage Loans of the related Loan
ny-srv01\COHENS\1053167v07\83772.010800

104
conﬁdential

Attachment F - Page 160

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 113 of 230
conﬁdential
A 463

Group. Any Debt Service Reductions relating to the Mortgage Loans prior to the Crossover Date will be bome by the Subordinate Certificates (to the extent then outstanding) in
inverse order of priority.
(f) In addition, in the event that the Paying Agent receives any Subsequent
Recoveries on the Mortgage Loans from a Servicer, the Paying Agent shall deposit such funds
into the Distribution Account pursuant to Section 4.01(c)(ii). If, after taking into account such
Subsequent Recoveries on the Mortgage Loans, the amount of a Realized Loss on a Mortgage
Loan is reduced, the amount of such Subsequent Recoveries will be applied to increase the
Current Principal Amount of the Class or Classes of Subordinate Certificates with the highest
payment priority, to which Realized Losses on the Mortgage Loans have been allocated, but not
by more than the amount of Realized Losses on the Mortgage Loans previously allocated to that
Class or Classes of Subordinate Certificates pursuant to Section 6.02. The amount of any
Subsequent Recoveries on the Mortgage Loans following the application set forth in the
immediately preceding sentence will be applied to sequentially increase the Current Principal
Amount of the Subordinate Certificates, beginning with the Class of Subordinate Certificates
with the next highest payment priority, up to the amount of such Realized Losses on the
Mortgage Loans previously allocated to such Class or Classes of Certificates pursuant to this
Section 6.02. Holders of such Certificates will not be entitled to any payments in respect of
Accrued Certificate Interest on the amount of such increases for any Interest Accrual Period
preceding the Distribution Date on which such increase occurs. Any such increases shall be
applied to the Current Principal Amount of each Subordinate Certificate of such Class of
Certificates, in accordance with its respective Fractional Undivided Interest.
Section 6.04 Payments (a) On each Distribution Date, other than the final Distribution
Date, the Paying Agent shall distribute, to the extent of funds then on deposit in the Distribution
Account, to each Certificateholder of record on the directly preceding Record Date (other than
each Certificateholder of record of the Residual Certificates) the Certificateholder’s pro rata
share of its Class of Certificates (based on the aggregate Fractional Undivided Interest
represented by such Holder’s Certificates) of all amounts required to be distributed on such
Distribution Date to such Class of Certificates, based on information provided to the Securities
Administrator by the Master Servicer. The Securities Administrator shall calculate the amount to
be distributed to each Class of Certificates and, based on such amounts, the Securities
Administrator shall determine the amount to be distributed to each Certificateholder. All of the
Securities Administrator’s calculations of payments shall be based solely on information
provided to the Securities Administrator by the Master Servicer. The Securities Administrator
shall not be required to confirm, verify or recompute any such information but shall be entitled to
rely conclusively on such information.
(b) Payment of the above amounts to each Certificateholder shall be made (i) by
check mailed to each Certificateholder entitled thereto at the address appearing in the Certificate
Register or (ii) upon receipt by the Paying Agent on or before the fifth Business Day preceding
the Record Date of written instructions from a Certificateholder by wire transfer to a United
States dollar account maintained by the payee at any United States depository institution with
appropriate facilities for receiving such a wire transfer; provided, however, that the final
payment in respect of each Class of Certificates will be made only upon presentation and

ny-srv0 I\COHENS\1053167v07\83772 010800

105
conﬁdential

Attachment F - Page 161

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 114 of 230
conﬁdential
A 464

surrender of such respective Certificates at the office or agency of the Paying Agent specified in
the notice to Certificateholders of such final payment.
Section 6.05 Statements to Certificateholders. (a) Concurrently with each distribution
to Certificateholders, the Securities Administrator shall make available to the parties hereto and
each Certificateholder via the Securities Administrator’s internet website as set forth below, the
following information, expressed with respect to clauses (i) through (vii) in the aggregate and as
a Fractional Undivided Interest representing an initial Current Principal Amount of $1,000, in the
case of the Interest Only Certificates, a Notional Amount of $1,000, or in the case of the
Residual Certificates, an initial Current Principal Amount of $50:
(i) the Current Principal Amount or Notional Amount, as applicable, of each
Class of Certificates immediately prior to such Distribution Date;

(ii) the amount of the distribution allocable to principal on each applicable
Class of Certificates;
(iii) the aggregate amount of interest accrued at the related Pass-Through Rate
with respect to each Class during the related Interest Accrual Period;
(iv) any Carryover Shortfall, any Carryover Shortfall Amounts, the Net
Interest Shortfall and any other adjustments to interest at the related Pass-Through Rate
necessary to account for any difference between interest accrued and aggregate interest
distributed with respect to each Class of Certificates (other than the Residual
Certificates);
(v) the amount of the distribution allocable to interest on each Class of
Certificates that bears interest;

(vi) the Pass-Through Rates for each Class of Certificates with respect to such
Distribution Date;
(vii) the Current Principal Amount or Notional Amount of each Class of
Certificates after such Distribution Date;
(viii) the amount of any Monthly Advances, Compensating Interest Payments
and outstanding unreimbursed advances by the Master Servicer or the Trustee included in
such distribution, separately stated for each Loan Group;
(ix) the aggregate amount of any Realized Losses on the Mortgage Loans
(listed separately for each category of Realized Loss and for each Loan Group) and
Subsequent Recoveries on the Mortgage Loans during the related Prepayment Period and
cumulatively since the Cut-off Date with respect to the Mortgage Loans, and the amount
and source (separately identified) of any distribution in respect thereof included in such
distribution;
(x) with respect to each Mortgage Loan which incurred a Realized Loss
during the related Prepayment Period, (i) the loan number, (ii) the Scheduled Principal
ny-srv0 I\COHENS\1053167v07\83772.010800

106
conﬁdential

Attachment F - Page 162

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 115 of 230
conﬁdential
A 465

Balance of such Mortgage Loan as of the Cut-off Date, (iii) the Scheduled Principal
Balance of such Mortgage Loan as of the beginning of the related Due Period, (iv) the
Net Liquidation Proceeds with respect to such Mortgage Loan and (v) the amount of the
Realized Loss with respect to such Mortgage Loan;
(xi) with respect to each Loan Group, the amount of Scheduled Principal and
Principal Prepayments (including but separately identifying the principal amount of
principal prepayments, Insurance Proceeds, the purchase price in connection with the
purchase of Mortgage Loans, cash deposits in connection with substitutions of Mortgage
Loans and Net Liquidation Proceeds) and the number and principal balance of Mortgage
Loans purchased or substituted for during the relevant period and cumulatively since the
Cut-off Date with respect to the Mortgage Loans;
(xii) the number of Mortgage Loans (excluding REO Property) in each Loan
Group remaining in the Trust Fund as of the end of the related Prepayment Period;
(xiii) information for each Loan Group and in the aggregate regarding any
Mortgage Loan delinquencies as of the end of the related Prepayment Period, including
the aggregate number and aggregate Outstanding Principal Balance of Mortgage Loans
(a) delinquent 30 to 59 days on a contractual basis, (b) delinquent 60 to 89 days on a
contractual basis, and (c) delinquent 90 or more days on a contractual basis, in each case
as of the close of business on the last day of the immediately preceding month;
(xiv) for each Loan Group, the number of Mortgage Loans in the foreclosure
process as of the end of the related Due Period and the aggregate Outstanding Principal
Balance of such Mortgage Loans;
(xv) for each Loan Group, the number and aggregate Outstanding Principal
Balance of all Mortgage Loans as to which the Mortgaged Property was REO Property as
of the end of the related Due Period;
(xvi) the book value (the sum of (A) the Outstanding Principal Balance of the
related Mortgage Loan and (B) accrued interest through the date of foreclosure, minus
(C) foreclosure expenses) of any REO Property in each Loan Group; provided that, in the
event that such information is not available to the Securities Administrator on the
Distribution Date, such information shall be furnished promptly after it becomes
available;
(xvii) the amount of Realized Losses on the Mortgage Loans allocated to each
Class of Certificates (other than the Residual Certificates) since the prior Distribution
Date and in the aggregate for all prior Distribution Dates;
(xviii) the Average Loss Severity Percentage for each Loan Group;
(xix) the then applicable Group I, Group II and Group III Senior Percentage,
Group I, Group II and Group III Senior Prepayment Percentage, Group I, Group II and
Group III Subordinate Percentage, and Group I, Group II and Group III Subordinate
Prepayment Percentage; and
ny-srv0 I\COHENS\1053167v07\83772.010800

107
conﬁdential

Attachment F - Page 163

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 116 of 230
conﬁdential
A 466

(xx) the amount of any Subsequent Recovery on the Mortgage Loans for such
Distribution Date, and the amount by which the Current Principal Amount of each Class
of Subordinate Certificates was increased as a result thereof.
The information set forth above shall be calculated or reported, as the case may be, by the
Securities Administrator, based solely on, and to the extent of, information provided to the
Securities Administrator by the Master Servicer. The Securities Administrator may conclusively
rely on such information and shall not be required to confirm, verify or recalculate any such
information.
The Securities Administrator may make available each month, to any interested party, the
monthly statement to Certificateholders via the Securities Administrator’s website initially
located at "www.ctslink.com." Assistance in using the website can be obtained by calling the
Securities Administrator’s customer service desk at (301) 815-6600. Parties that are unable to
use the above distribution option are entitled to have a paper copy mailed to them via first class
mail by calling the Securities Administrator’s customer service desk and indicating such. The
Securities Administrator shall have the right to change the way such reports are distributed in
order to make such distribution more convenient and/or more accessible to the parties, and the
Securities Administrator shall provide timely and adequate notification to all parties regarding
any such change.
To the extent timely received from the Securities Administrator, the Trustee will also
make monthly statements available each month to certificateholders via the Trustee’s internet
website. The Trustee’s internet website will initially be located at www.jpmorgan.com/sfr.
Assistance in using the Trustee’s website service can be obtained by calling the Trustee’s
customer service desk at (877) 722-1095.
(b) By March 31 of each year beginning in 2006, the Trustee will furnish such report
to each Holder of the Certificates of record at any time during the prior calendar year as to the
aggregate of amounts reported pursuant to subclauses (a)(ii) and (a)(v) above with respect to the
Certificates, plus information with respect to the amount of servicing compensation and such
other customary information as the Securities Administrator may determine and advise the
Trustee to be necessary and/or to be required by the Internal Revenue Service or by a federal or
state law or rules or regulations to enable such Holders to prepare their tax returns for such
calendar year. Such obligations shall be deemed to have been satisfied to the extent that
substantially comparable information shall be provided by the Securities Administrator pursuant
to the requirements of the Code.
Section 6.06 Monthly Advances. Pursuant to the related Servicing Agreement, each
Servicer will make Monthly Advances. Each such Monthly Advance shall be remitted to the
Distribution Account no later than 1:00 p.m. Eastern time on the Distribution Account Deposit
Date in immediately available funds. Subject to the Master Servicer’s recoverability
determination, in the event that the related Servicer fails to make a required Monthly Advance,
the Master Servicer shall be required to remit the amount of such Monthly Advance to the
Distribution Account. The Master Servicer shall be obligated to make any such Monthly
Advance only to the extent that such advance would not be a Nonrecoverable Advance. If the
Master Servicer shall have determined that it has made a Nonrecoverable Advance or that a
ny-srv0 I\COHENS\1053167v07\83772.010800

108
conﬁdential

Attachment F - Page 164

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 117 of 230
conﬁdential
A 467
proposed Monthly Advance or a lesser portion of such Monthly Advance would constitute a
Nonrecoverable Advance, on the related Distribution Account Deposit Date the Master Servicer
shall deliver (i) to the Paying Agent for the benefit of the Certificateholders funds constituting
the remaining portion of such Monthly Advance, if applicable, and (ii) to the Trustee an
Officer’s Certificate setting forth the basis for such determination.
The Master Servicer and each Servicer shall be entitled to be reimbursed from the
Distribution Account for all Monthly Advances of its own funds made pursuant to this Section as
provided in Section 4.03. The obligation to make Monthly Advances with respect to any
Mortgage Loan shall continue until such Mortgage Loan is paid in full or the related Mortgaged
Property or related REO Property has been liquidated or until the purchase or repurchase thereof
(or substitution therefor) from the Trust Fund pursuant to any applicable provision of this
Agreement, except as otherwise provided in this Section 6.05.

Subject to and in accordance with the provisions of Article VIII hereof, in the event the
Master Servicer fails to make such Monthly Advance, then the Trustee, as the successor Master
Servicer, shall be obligated to make such Monthly Advance, subject to the provisions of this
Section 6.05.
Section 6.07 Compensating Interest Payments. Upon timely notice by the Paying
Agent, the Master Servicer shall deposit in the Distribution Account not later than each
Distribution Account Deposit Date an amount equal to the lesser of (i) the sum of the amounts
required to be paid by each Servicer under the related Servicing Agreement with respect to
subclauses (a) and (b) of the definition of Interest Shortfall with respect to the Mortgage Loans
for the related Distribution Date, and not so paid by such Servicers and (ii) the Master Servicing
Compensation for such Distribution Date (such amount, the "Compensating Interest Payment").
The Master Servicer shall not be entitled to any reimbursement of any Compensating Interest
Payment.
ARTICLE VII
The Master Servicer

Section 7.01 Liabilities of the Master Servicer. The Master Servicer shall be liable in
accordance herewith only to the extent of the obligations specifically imposed upon and
undertaken by it herein.
Section 7.02 Merger or Consolidation of the Master Servicer.

(a) The Master Servicer will keep in full force and effect its existence, rights and
franchises as a corporation under the laws of the state of its incorporation, and will obtain and
preserve its qualification to do business as a foreign corporation in each jurisdiction in which
such qualification is or shall be necessary to protect the validity and enforceability of this
Agreement, the Certificates or any of the Mortgage Loans and to perform its duties under this
Agreement.
(b) Any Person into which the Master Servicer may be merged or consolidated, or
any corporation resulting from any merger or consolidation to which the Master Servicer shall be
a party, or any Person succeeding to the business of the Master Servicer, shall be the successor of
ny-srv0 I\COHENS\1053167v07\83772.010800

109
conﬁdential

Attachment F - Page 165

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 118 of 230
conﬁdential
A 468
the Master Servicer hereunder, without the execution or filing of any paper or further act on the
part of any of the parties hereto, anything~herein to the contrary notwithstanding.

Section7.03 Indemnification of the Trustee, the Custodian and the Securities
Administrator. (a) The Master Servicer agrees to indemnify the Indemnified Persons for, and to
hold them harmless against, any loss, liability or expense (including reasonable legal fees and
disbursements of counsel) incurred on their part that may be sustained in connection with, arising
out of, or relating to, any claim or legal action (including any pending or threatened claim or
legal action) relating to this Agreement or the Certificates (i) related to the Master Servicer’s
failure to perform its duties in compliance with this Agreement (except as any such loss, liability
or expense shall be otherwise reimbursable pursuant to this Agreement) or (ii) incurred by reason
of the Master Servicer’s willful misfeasance, bad faith or gross negligence in the performance of
duties hereunder or by reason of reckless disregard of obligations and duties hereunder,
provided, in each case, that with respect to any such claim or legal action (or pending or
threatened claim or legal action), the Indemnified Person shall have given the Master Servicer
and the Depositor written notice thereof promptly after the Indemnified Person shall have, with
respect to such claim or legal action, knowledge thereof. The Indemnified Person’s failure to
give such notice shall not affect the Indemnified Person’s right to indemnification hereunder,
except to the extent that the Master Servicer is materially prejudiced by such failure to give
notice. This indemnity shall survive the resignation or removal of the Trustee, the Master
Servicer, the Custodian or the Securities Administrator and the termination of this Agreement.
(b) The Depositor will indemnify any Indemnified Person for any loss, liability or
expense of any Indemnified Person not otherwise covered by the Master Servicer’s
indemnification pursuant to Subsection (a) above.
(c) The Securities Administrator agrees to indemnify the Indemnified Persons (other
than the Securities Administrator) for, and to hold them harmless against, any loss, liability or
expense (including reasonable legal fees and disbursements of counsel) incurred on their part (i)
in connection with, arising out of, or relating to the Securities Administrator’s failure to prepare
and file a Form 10-K in accordance with Section 3.18, (ii) by reason of the Securities
Administrator’s willful misfeasance, bad faith or gross negligence in the performance of its
obligations pursuant to Section 3.18 or (iii) by reason of the Securities Administrator’s reckless
disregard of its obligations pursuant to Section 3.18 (including, without limitation, in respect of
any powers of attorney furnished to the Securities Administrator), provided, in each case, that
with respect to any such claim or legal action (or pending or threatened claim or legal action), an
Indemnified Person shall have given the Securities Administrator written notice thereof promptly
after such Indemnified Person shall have knowledge with respect to such claim or legal action.
The Indemnified Person’s failure to give such notice shall not affect the Indemnified Person’s
right to indemnification hereunder. This indemnity shall survive the resignation or removal of
the Trustee, the Master Servicer or the Securities Administrator and the termination of this
Agreement.
Section 7.05 Limitations on Liability of the Master Servicer and Others. Subject to the
obligation of the Master Servicer to indemnify the Indemnified Persons pursuant to Section 7.03:

ny-srv0 I\COHENS\1053167v07\83772 010800

110
conﬁdential

Attachment F - Page 166

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 119 of 230
conﬁdential
A 469

(a) Neither the Master Servicer nor any of the directors, officers, employees or agents
of the Master Servicer shall be under any liability to the Indemnified Persons, the Depositor, the
Trust Fund or the Certificateholders for taking any action or for refraining from taking any action
in good faith pursuant to this Agreement, or for errors in judgment; provided, however, that this
provision shall not protect the Master Servicer or any such Person against any breach of
warranties or representations made herein or any liability which would otherwise be imposed by
reason of such Person’s willful misfeasance, bad faith or gross negligence in the performance of
duties or by reason of reckless disregard of obligations and duties hereunder.
(b) The Master Servicer and any director, officer, employee or agent of the Master
Servicer may rely in good faith on any document of any kind prima facie properly executed and
submitted by any Person respecting any matters arising hereunder.
(c) The Master Servicer, the Custodian and any director, officer, employee or agent
of the Master Servicer or the Custodian shall be indemnified by the Trust and held harmless
thereby against any loss, liability or expense (including reasonable legal fees and disbursements
of counsel) incurred on their part that may be sustained in connection with, arising out of, or
related to, any claim or legal action (including any pending or threatened claim or legal action)
relating to this Agreement, the Certificates or the Servicing Agreements (except to the extent that
the Master Servicer is indemnified by the related Servicer thereunder), other than (i) any such
loss, liability or expense related to the Master Servicer’s failure to perform its duties in
compliance with this Agreement (except as any such loss, liability or expense shall be otherwise
reimbursable pursuant to this Agreement), or to the Custodian’s failure to perform its duties
under the Custodial Agreement, respectively, or (ii) any such loss, liability or expense incurred
by reason of the Master Servicer’s or the Custodian’s willful misfeasance, bad faith or gross
negligence in the performance of duties hereunder or under the Custodial Agreement, as
applicable, or by reason of reckless disregard of obligations and duties hereunder or under the
Custodial Agreement, as applicable.
(d) The Master Servicer shall not be under any obligation to appear in, prosecute or
defend any legal action that is not incidental to its duties under this Agreement and that in its
opinion may involve it in any expense or liability; provided, however, the Master Servicer may
in its discretion, with the consent of the Trustee (which consent shall not be unreasonably
withheld), undertake any such action which it may deem necessary or desirable with respect to
this Agreement and the rights and duties of the parties hereto and the interests of the
Certificateholders hereunder. In such event, the legal expenses and costs of such action and any
liability resulting therefrom shall be expenses, costs and liabilities of the Trust Fund, and the
Master Servicer shall be entitled to be reimbursed therefor out of the Distribution Account as
provided by Section 4.03. Nothing in this Subsection 7.04(d) shall affect the Master Servicer’s
obligation to supervise, or to take such actions as are necessary to ensure, the servicing and
administration of the Mortgage Loans pursuant to Section 3.01.
(e) In taking or recommending any course of action pursuant to this Agreement,
unless specifically required to do so pursuant to this Agreement, the Master Servicer shall not be
required to investigate or make recommendations concerning potential liabilities which the Trust
might incur as a result of such course of action by reason of the condition of the Mortgaged
Properties but shall give notice to the Trustee if it has notice of such potential liabilities.
ny-srv01\COHENS\1053167v07\83772.010800

111
conﬁdential

Attachment F - Page 167

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 120 of 230
conﬁdential
A 470

(f) The Master Servicer shall not be liable for any acts or omissions of any Servicer,
except as otherwise expressly provided herein.
Section 7.06 Master Servicer Not to Resign. Except as provided in Section 7.07, the
Master Servicer shall not resign from the obligations and duties hereby imposed on it except
upon a determination that any such duties hereunder are no longer permissible under applicable
law and such impermissibility cannot be cured. Any such determination permitting the
resignation of the Master Servicer shall be evidenced by an Opinion of Independent Counsel to
such effect delivered to the Trustee. No such resignation by the Master Servicer shall become
effective until EMC or the Trustee or a successor to the Master Servicer reasonably satisfactory
to the Trustee shall have assumed the responsibilities and obligations of the Master Servicer in
accordance with Section 8.02 hereof. The Trustee shall notify the Rating Agencies of the
resignation of the Master Servicer.
Section 7.07 Successor Master Servicer. In connection with the appointment of any
successor Master Servicer or the assumption of the duties of the Master Servicer, EMC or the
Trustee may make such arrangements for the compensation of such successor Master Servicer
out of payments on the Mortgage Loans as EMC or the Trustee and such successor Master
Servicer shall agree. If the successor Master Servicer does not agree that such market value is a
fair price, such successor Master Servicer shall obtain two quotations of market value from third
parties actively engaged in the servicing of single-family Mortgage Loans. Notwithstanding the
foregoing, the compensation payable to a successor master servicer may not exceed the
compensation which the Master Servicer would have been entitled to retain if the Master
Servicer had continued to act as Master Servicer hereunder.

Section 7.08 Sale and Assignment of Master Servicing. The Master Servicer may sell
and assign its rights and delegate its duties and obligations in its entirety as Master Servicer
under this Agreement and EMC may terminate the Master Servicer without cause and select a
new Master Servicer; provided, however, that: (i) the purchaser or transferee accepting such
assignment and delegation (a) shall be a Person or shall be an Affiliate of a Person which shall be
qualified to service Mortgage Loans for Fannie Mae or Freddie Mac; (b) shall have a net worth
of not less than $10,000,000 (unless otherwise approved by each Rating Agency pursuant to
clause (ii) below); (c) shall be reasonably satisfactory to the Trustee (as evidenced in a writing
signed by the Trustee); and (d) shall execute and deliver to the Trustee an agreement, in form and
substance reasonably satisfactory to the Trustee, which contains an assumption by such Person of
the due and punctual performance and observance of each covenant and condition to be
performed or observed by it as Master Servicer under this Agreement and any custodial
agreement from and after the effective date of such agreement; (ii) each Rating Agency shall be
given prior written notice of the identity of the proposed successor to the Master Servicer and
each Rating Agency’s rating of the Certificates in effect immediately prior to such assignment,
sale and delegation will not be downgraded, qualified or withdrawn as a result of such
assignment, sale and delegation, as evidenced by a letter to such effect delivered to the Master
Servicer and the Trustee; (iii) the Master Servicer assigning and delegating its rights and
obligations hereunder shall deliver to the Trustee an Officer’s Certificate and an Opinion of
Independent Counsel, each stating that all conditions precedent to such action under this
Agreement have been completed and such action is permitted by and complies with the terms of
this Agreement; and (iv) in the event the Master Servicer is terminated without cause by EMC,
ny-srv0 I\COHENS\1053167v07\83772.010800

1 12
conﬁdential

Attachment F - Page 168

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 121 of 230
conﬁdential
A 471

EMC shall pay the terminated Master Servicer a termination fee equal to 0.25% of the aggregate
Scheduled Principal Balance of the Mortgage Loans at the time the master servicing of the
Mortgage Loans is transferred to the successor Master Servicer. No such assignment or
delegation shall affect any liability of the Master Servicer arising prior to the effective date
thereof.
ARTICLE VIII
Default
Section 8.01 "Event of Default" wherever used herein, means any one of the following
events (whatever the reason for such Event of Default and whether it shall be voluntary or
involuntary or be effected by operation of law or pursuant to any judgment, decree or order of
any court or any order, rule or regulation of any administrative or governmental body) and only
with respect to the defaulting Master Servicer:
(i) The Master Servicer fails to deposit in the Distribution Account any
amount so required by it to be deposited pursuant to this Agreement (other than any
Monthly Advance), and such failure continues unremedied for a period of three Business
Days after the date upon which written notice of such failure, requiring the same to be
remedied, shall have been given to the Master Servicer; or
(ii) The Master Servicer fails to observe or perform in any material respect
any other material covenants and agreements set forth in this Agreement to be performed
by it, which covenants and agreements materially affect the rights of Certificateholders,
and such failure continues unremedied for a period of 60 days (or, in the case of a breach
of its obligation to provide a Master Servicer Certification pursuant to Section 3.18, for a
period of five days) after the date on which written notice of such failure, requiring the
same to be remedied, shall have been given to the Master Servicer by the Trustee or to
the Master Servicer and the Trustee by the Holders of Certificates evidencing Fractional
Undivided Interests aggregating not less than 25% of the Trust Fund; or
(iii) There is entered against the Master Servicer a decree or order by a court or
agency or supervisory authority having jurisdiction in the premises for the appointment of
a conservator, receiver or liquidator in any insolvency, readjustment of debt, marshaling
of assets and liabilities or similar proceedings, or for the winding up or liquidation of its
affairs, and the continuance of any such decree or order is unstayed and in effect for a
period of 60 consecutive days, or an involuntary case is commenced against the Master
Servicer under any applicable insolvency or reorganization statute and the petition is not
dismissed within 60 days after the commencement of the case; or
(iv) The Master Servicer consents to the appointment of a conservator or
receiver or liquidator in any insolvency, readjustment of debt, marshaling of assets and
liabilities or similar proceedings of or relating to the Master Servicer or substantially all
of its property; or the Master Servicer admits in writing its inability to pay its debts
generally as they become due, files a petition to take advantage of any applicable
insolvency or reorganization statute, makes an assignment for the benefit of its creditors,
or voluntarily suspends payment of its obligations; or
ny-srv01 \COHENS\ 1053167v07\83772.010800

113
conﬁdential

Attachment F - Page 169

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 122 of 230
conﬁdential
A 472

(v) The Master Servicer assigns or delegates its duties or rights under this
Agreement in contravention of the provisions permitting such assignment or delegation
under Sections 7.05 or 7.07; or
(vi) The Master Servicer fails to deposit, or cause to be deposited, on the
Distribution Date in the Distribution Account any Monthly Advance (other than a
Nonrecoverable Advance) required to be made with respect to such Distribution Date.
In each and every such case, so long as such Event of Default with respect to the Master Servicer
shall not have been remedied, either the Trustee or the Holders of Certificates evidencing
Fractional Undivided Interests aggregating not less than 51% of the principal of the Trust Fund,
by notice in writing to the Master Servicer (and to the Trustee, if given by such
Certificateholders), with a copy to the Rating Agencies, and with the consent of EMC, may
terminate all of the rights and obligations (but not the liabilities) of the Master Servicer under
this Agreement and in and to the Mortgage Loans and/or the REO Property serviced by the
Master Servicer and the proceeds thereof. Upon the receipt by the Master Servicer of such
written notice, all authority and power of the Master Servicer under this Agreement, whether
with respect to the Certificates, the Mortgage Loans, REO Property or under any other related
agreements (but only to the extent that such other agreements relate to the Mortgage Loans or
related REO Property) shall, subject to Section 8.02 and to bankruptcy, insolvency or similar
laws, if applicable, automatically and without further action pass to and be vested in the Trustee
pursuant to this Section 8.01; and, without limitation, the Trustee is hereby authorized and
empowered to execute and deliver, on behalf of the Master Servicer as attorney-in-fact or
otherwise, any and all documents and other instruments and to do or accomplish all other acts or
things necessary or appropriate to effect the purposes of such notice of termination, whether to
complete the transfer and endorsement or assignment of the Mortgage Loans and related
documents, or otherwise. The Master Servicer agrees to cooperate with the Trustee in effecting
the termination of the Master Servicer’s rights and obligations hereunder, including, without
limitation, the transfer to the Trustee of (i) the property and amounts which are then or should be
part of the Trust or which thereafter become part of the Trust, and (ii) originals or copies of all
documents of the Master Servicer reasonably requested by the Trustee to enable it to assume the
Master Servicer’s duties hereunder. In addition to any other amounts which are then, or,
notwithstanding the termination of its activities under this Agreement, may become payable to
the Master Servicer under this Agreement, the Master Servicer shall be entitled to receive, out of
any amount received on account of a Mortgage Loan or related REO Property, that portion of
such payments which it would have received as reimbursement under this Agreement if notice of
termination had not been given. The termination of the rights and obligations of the Master
Servicer shall not affect any obligations incurred by the Master Servicer prior to such
termination.
Notwithstanding the foregoing, if an Event of Default described in clause (vi) of this Section
8.01 shall occur, the Trustee shall, by notice in writing to the Master Servicer, which may be
delivered by telecopy, immediately terminate all of the rights and obligations of the Master
Servicer thereafter arising under this Agreement, but without prejudice to any rights it may have
as a Certificateholder or to reimbursement of Monthly Advances and other advances of its own
funds, and the Trustee shall act as provided in Section 8.02 to carry out the duties of the Master
Servicer, including the obligation to make any Monthly Advance the nonpayment of which was
ny-srv0 I\COHENS\1053167v07\83772 010800

114
conﬁdential

Attachment F - Page 170

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 123 of 230
conﬁdential
A 473
an Event of Default described in clause (vi) of this Section 8.01. Any such action taken by the
Trustee must be taken prior to the distribution on the relevant Distribution Date.
Section 8.02 Trustee to Act; Appointment of Successor. (a) Upon the receipt by the
Master Servicer of a notice of termination pursuant to Section 8.01 or an Opinion of Independent
Counsel pursuant to Section 7.05 to the effect that the Master Servicer is legally unable to act or
to delegate its duties to a Person which is legally able to act, the Trustee shall automatically
become the succesgor in all respects to the Master Servicer in its capacity under this Agreement
and the transactions set forth or provided for herein and shall thereafter be subject to all the
responsibilities, duties, liabilities and limitations on liabilities relating thereto placed on the
Master Servicer by the terms and provisions hereof; provided, however, that EMC shall have the
right to either (a) immediately assume the duties of the Master Servicer or (b) select a successor
Master Servicer; provided, further, however, that the Trustee shall have no obligation whatsoever
with respect to any liability (other than advances deemed recoverable and not previously made)
incurred by the Master Servicer at or prior to the time of termination. As compensation therefor,
but subject to Section 7.06, the Trustee shall be entitled to all funds relating to the Mortgage
Loans which the Master Servicer would have been entitled to retain if the Master Servicer had
continued to act hereunder, except for those amounts due the Master Servicer as reimbursement
permitted under this Agreement for advances previously made or expenses previously incurred.
Notwithstanding the above, the Trustee may, if it shall be unwilling so to act, or shall, if it is
legally unable so to act, appoint or petition a court of competent jurisdiction to appoint any
established housing and home finance institution which is a Fannie Mae- or Freddie Macapproved servicer, and with respect to a successor to the Master Servicer only having a net worth
of not less than $10,000,000, as the successor to the Master Servicer hereunder in the assumption
of all or any part of the responsibilities, duties or liabilities of the Master Servicer hereunder;
provided, that the Trustee shall obtain a letter from each Rating Agency that the ratings, if any,
of such Rating Agency on each of the Certificates will not be downgraded, qualified or
withdrawn as a result of the selection of the successor to the Master Servicer. Pending
appointment of a successor to the Master Servicer hereunder, the Trustee shall act in such
capacity as hereinabove provided. In connection with such appointment and assumption, the
Trustee may make such arrangements for the compensation of such successor out of payments on
the Mortgage Loans as it and such successor shall agree; provided, however, that the provisions
of Section 7.06 shall apply, no such compensation shall be in excess of that permitted the Trustee
under this Subsection 8.02(a), and that such successor shall undertake and assume the obligations
of the Trustee to pay compensation to any third Person acting as an agent or independent
contractor in the performance of master servicing responsibilities hereunder. The Trustee and
such successor shall take such action, consistent with this Agreement, as shall be necessary to
effectuate any such succession.

(b) If the Trustee shall succeed to any duties of the Master Servicer respecting the
Mortgage Loans as provided herein, it shall do so in a separate capacity and not in its capacity as
Trustee and, accordingly, the provisions of Article IX shall be inapplicable to the Trustee in its
duties as the successor to the Master Servicer in the servicing of the Mortgage Loans (although
such provisions shall continue to apply to the Trustee in its capacity as Trustee); the provisions
of all other provisions of this Agreement and the respective Servicing Agreements relating to the
Master Servicer, including the provisions of Article VII, however, shall apply to it in its capacity
as successor Master Servicer.
ny-srv01\COHENS\1053167v07\83772.010800

115
conﬁdential

Attachment F - Page 171

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 124 of 230
conﬁdential
A 474

Section 8.03 Notifcation to Certificateholders. Upon any termination or appointment
of a successor to the Master Servicer, the Trustee shall give prompt written notice thereof to
Certificateholders at their respective addresses appearing in the Certificate Register, and to the
Rating Agencies.
Section8.04 Waiver of Defaults. The Trustee shall transmit by mail to all
Certificateholders, within 60 days after the occurrence of any Event of Default known to the
Trustee, unless such Event of Default shall have been cured, notice of each such Event of Default
hereunder known to the Trustee. The Holders of Certificates evidencing Fractional Undivided
Interests aggregating not less than 51% of the Trust Fund may, on behalf of all
Certificateholders, waive any default by the Master Servicer in the performance of its obligations
hereunder and the consequences thereof, except a default in the making of or the causing to be
made of any required distribution on the Certificates, which default may only be waived by
Holders of Certificates evidencing Fractional Undivided Interests aggregating 100% of the Trust
Fund. Upon any such waiver of a past default, such default shall be deemed to cease to exist,
and any Event of Default arising therefrom shall be deemed to have been timely remedied for
every purpose of this Agreement. No such waiver shall extend to any subsequent or other
default or impair any right consequent thereon except to the extent expressly so waived. The
Trustee shall give notice of any such waiver to the Rating Agencies.
Section 8.05 List of Certificateholders. Upon written request of three or more
Certificateholders of record, for purposes of communicating with other Certificateholders with
respect to their rights under this Agreement, the Trustee will afford such Certificateholders
access during business hours to the most recent list of Certificateholders held by the Trustee.
ARTICLE IX
Concerning the Trustee and the Securities Administrator
Section 9.01 Duties of Trustee. (a) The Trustee, prior to the occurrence of an Event of
Default and after the curing or waiver of all Events of Default which may have occurred, and the
Securities Administrator each undertake to perform such duties and only such duties as are
specifically set forth in this Agreement as duties of the Trustee and the Securities Administrator,
respectively. If an Event of Default has occurred and has not been cured or waived, the Trustee
shall exercise such of the rights and powers vested in it by this Agreement, and subject to
Section 8.02(b) use the same degree of care and skill in their exercise, as a prudent person would
exercise under the circumstances in the conduct of his own affairs.
(b) Upon receipt of all resolutions, certificates, statements, opinions, reports,
documents, orders or other instruments which are specifically required to be furnished to the
Trustee and the Securities Administrator pursuant to any provision of this Agreement, the
Trustee and the Securities Administrator, respectively, shall examine them to determine whether
they are in the form required by this Agreement; provided, however, that neither the Trustee nor
the Securities Administrator shall be responsible for the accuracy or content of any resolution,
certificate, statement, opinion, report, document, order or other instrument furnished by the
Master Servicer; and provided, further, that neither the Trustee nor the Securities Administrator
shall be responsible for the accuracy or verification of any calculation provided to it pursuant to
this Agreement.
ny-srv0 I\COHENS\1053167v07\83772.010800

116
conﬁdential

Attachment F - Page 172

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 125 of 230
conﬁdential
A 475
(c) On each Distribution Date, the Paying Agent shall make monthly distributions
and the final distribution to the Certificateholders from funds in the Distribution Account as
provided in Sections 6.01 and 10.01 herein based on the report of the Securities Administrator.
(d) No provision of this Agreement shall be construed to relieve the Trustee or the
Securities Administrator from liability for its own negligent action, its own negligent failure to
act or its own willful misconduct; provided, however, that:
(i) Prior to the occurrence of an Event of Default, and after the curing or
waiver of all such Events of Default which may have occurred, the duties and obligations
of the Trustee and the Securities Administrator shall be determined solely by the express
provisions of this Agreement, neither the Trustee nor the Securities Administrator shall
be liable except for the performance of their respective duties and obligations as are
specifically set forth in this Agreement, no implied covenants or obligations shall be read
into this Agreement against the Trustee or the Securities Administrator and, in the
absence of bad faith on the part of the Trustee or the Securities Administrator,
respectively, the Trustee or the Securities Administrator, respectively, may conclusively
rely, as to the truth of the statements and the correctness of the opinions expressed
therein, upon any certificates or opinions furnished to the Trustee or the Securities
Administrator, respectively, and conforming to the requirements of this Agreement;

(ii) Neither the Trustee nor the Securities Administrator shall be liable in its
individual capacity for an error of judgment made in good faith by a Responsible Officer
or Responsible Officers of the Trustee or an officer of the Securities Administrator,
respectively, unless it shall be proved that the Trustee or the Securities Administrator,
respectively, was negligent in ascertaining the pertinent facts;
(iii) Neither the Trustee nor the Securities Administrator shall be liable with
respect to any action taken, suffered or omitted to be taken by it in good faith in
accordance with the directions of the Holders of Certificates evidencing Fractional
Undivided Interests aggregating not less than 25% of the Trust Fund, if such action or
non-action relates to the time, method and place of conducting any proceeding for any
remedy available to the Trustee or the Securities Administrator, respectively, or
exercising any trust or other power conferred upon the Trustee or the Securities
Administrator, respectively, under this Agreement;
(iv) The Trustee shall not be required to take notice or be deemed to have
notice or knowledge of any default or Event of Default unless a Responsible Officer of
the Trustee’s Corporate Trust Office shall have actual knowledge thereof. In the absence
of such notice, the Trustee may conclusively assume there is no such default or Event of
Default;
(v) The Trustee shall not in any way be liable by reason of any insufficiency
in any Account held by or in the name of Trustee unless it is determined by a court of
competent jurisdiction that the Trustee’s gross negligence or willful misconduct was the
primary cause of such insufficiency (except to the extent that the Trustee is obligor and
has defaulted thereon);
ny-srv01\COHENS\1053167v07\83772.010800

117
conﬁdential

Attachment F - Page 173

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 126 of 230
conﬁdential
A 476
(vi) Anything in this Agreement to the contrary notwithstanding, in no event
shall the Trustee or the Securities Administrator be liable for special, indirect or
consequential loss or damage of any kind whatsoever (including but not limited to lost
profits), even if the Trustee or the Securities Administrator, respectively, has been
advised of the likelihood of such loss or damage and regardless of the form of action; and

(vii) None of the Securities Administrator, EMC or the Trustee shall be
responsible for the acts or omissions of the other, the Master Servicer or any Servicer, it
being understood that this Agreement shall not be construed to render them partners, joint
venturers or agents of one another.
Neither the Trustee nor the Securities Administrator shall be required to expend or risk its
own funds or otherwise incur financial liability in the performance of any of its duties hereunder,
or in the exercise of any of its rights or powers, if there is reasonable ground for believing that
the repayment of such funds or adequate indemnity against such risk or liability is not reasonably
assured to it, and none of the provisions contained in this Agreement shall in any event require
the Trustee or the Securities Administrator to perform, or be responsible for the manner of
performance of, any of the obligations of the Master Servicer under the Servicing Agreements,
except during such time, if any, as the Trustee shall be the successor to, and be vested with the
rights, duties, powers and privileges of, the Master Servicer in accordance with the terms of this
Agreement.
(e) All funds received by the Master Servicer and the Paying Agent and required to
be deposited in the Distribution Account pursuant to this Agreement will be promptly so
deposited by the Master Servicer or the Paying Agent, as applicable.
(f) Except for those actions that the Trustee or the Securities Administrator is
required to take hereunder, neither the Trustee nor the Securities Administrator shall have any
obligation or liability to take any action or to refrain from taking any action hereunder in the
absence of written direction as provided hereunder.

Section 9.02 Certain Matters Affecting the Trustee and the Securities Administrator.
Except as otherwise provided in Section 9.01:
(i) The Trustee and the Securities Administrator may rely and shall be
protected in acting or refraining from acting in reliance on any resolution, certificate of a
Depositor, Master Servicer or Servicer, certificate of auditors or any other certificate,
statement, instrument, opinion, report, notice, request, consent, order, appraisal, bond or
other paper or document believed by it to be genuine and to have been signed or
presented by the proper party or parties;

(ii) The Trustee and the Securities Administrator may consult with counsel,
and any advice of such counsel or any Opinion of Counsel shall be full and complete
authorization and protection with respect to any action taken or suffered or omitted by it
hereunder in good faith and in accordance with such advice or Opinion of Counsel:
(iii) Neither the Trustee nor the Securities Administrator shall be under any
obligation to exercise any of the trusts or powers vested in it by this Agreement, other
ny-srv0 I\COHENS\1053167v07\83772 010800

118
conﬁdential

Attachment F - Page 174

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 127 of 230
conﬁdential
A 477

than its obligation to give notices pursuant to this Agreement, or to institute, conduct or
defend any litigation hereunder or in relation hereto at the request, order or direction of
any of the Certificateholders pursuant to the provisions of this Agreement, unless such
Certificateholders shall have offered to the Trustee reasonable security or indemnity
against the costs, expenses and liabilities which may be incurred therein or thereby.
Nothing contained herein shall, however, relieve the Trustee of the obligation, upon the
occurrence of an Event of Default of which a Responsible Officer of the Trustee’s
Corporate Trust Office has actual knowledge (which has not been cured or waived),
subject to Section 8.02(b), to exercise such of the rights and powers vested in it by this
Agreement, and to use the same degree of care and skill in their exercise, as a prudent
person would exercise under the circumstances in the conduct of his own affairs;
(iv) Prior to the occurrence of an Event of Default hereunder and after the
curing or waiver of all Events of Default which may have occurred, neither the Trustee
nor the Securities Administrator shall be liable in its individual capacity for any action
taken, suffered or omitted by it in good faith and believed by it to be authorized or within
the discretion or rights or powers conferred upon it by this Agreement;
(v) Neither the Trustee nor the Securities Administrator shall be bound to
make any investigation into the facts or matters stated in any resolution, certificate,
statement, instrument, opinion, report, notice, request, consent, order, approval, bond or
other paper or document, unless requested in writing to do so by Holders of Certificates
evidencing Fractional Undivided Interests aggregating not less than 25% of the Trust
Fund, and provided that the payment within a reasonable time to the Trustee or the
Securities Administrator, as applicable, of the costs, expenses or liabilities likely to be
incurred by it in the making of such investigation is, in the opinion of the Trustee or the
Securities Administrator, as applicable, reasonably assured to the Trustee or the
Securities Administrator, as applicable, by the security afforded to it by the terms of this
Agreement. The Trustee or the Securities Administrator may require reasonable
indemnity against such expense or liability as a condition to taking any such action. The
reasonable expense of every such examination shall be paid by the Certificateholders
requesting the investigation;
(vi) The Trustee and the Securities Administrator may execute any of the trusts
or powers hereunder or perform any duties hereunder either directly or through Affiliates,
agents or attorneys; provided, however, that the Trustee may not appoint any agent to
perform its custodial functions with respect to the Mortgage Files or paying agent
functions under this Agreement without the express written consent of the Master
Servicer, which consent will not be unreasonably withheld or delayed. Neither the
Trustee nor the Securities Administrator shall be liable or responsible for the misconduct
or negligence of any of the Trustee’s or the Securities Administrator’s agents or attorneys
or a custodian or paying agent appointed hereunder by the Trustee or the Securities
Administrator with due care and, when required, with the consent of the Master Servicer;
(vii) Should the Trustee or the Securities Administrator deem the nature of any
action required on its part, other than a payment or transfer under Subsection 4.01(b) or
Section 4.02, to be unclear, the Trustee or the Securities Administrator, respectively,
ny-srv0 I\COHENS\1053167v07\83772 010800

l 19
conﬁdential

Attachment F - Page 175

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 128 of 230
conﬁdential
A 478

may require prior to such action that it be provided by the Depositor with reasonable
further instructions;
(viii) The right of the Trustee or the Securities Administrator to perform any
discretionary act enumerated in this Agreement shall not be construed as a duty, and
neither the Trustee nor the Securities Administrator shall be accountable for other than its
negligence, negligent failure to act or willful misconduct in the performance of any such
act;

(ix) Neither the Trustee nor the Securities Administrator shall be required to
give any bond or surety with respect to the execution of the trust created hereby or the
powers granted hereunder, except as provided in Subsection 9.07; and
(x) Neither the Trustee nor the Securities Administrator shall have any duty to
conduct any affirmative investigation as to the occurrence of any condition requiring the
repurchase of any Mortgage Loan by the Seller pursuant to this Agreement, the Mortgage
Loan Purchase Agreement or the eligibility of any Mortgage Loan for purposes of this
Agreement.
Section9.03 Trustee and Securities Administrator Not Liable for Certificates or
Mortgage Loans. The recitals contained herein and in the Certificates (other than the signature
of the Trustee, and the countersignature of the Certificate Registrar, on the Certificates) shall be
taken as the statements of the Depositor, and neither the Trustee nor the Securities Administrator
shall have any responsibility for their correctness. Neither the Trustee nor the Securities
Administrator makes any representation as to the validity or sufficiency of the Certificates (other
than the signature of the Trustee on the Certificates) or of any Mortgage Loan except as
expressly provided in Sections 2.02 and 2.05 hereof; provided, however, that the foregoing shall
not relieve the Trustee of the obligation to review the Mortgage Files pursuant to Sections 2.02
and 2.04. The Trustee’s signature on the Certificates shall be solely in its capacity as Trustee
and shall not constitute the Certificates an obligation of the Trustee in any other capacity.
Neither the Trustee or the Securities Administrator shall be accountable for the use or application
by the Depositor of any of the Certificates or of the proceeds of such Certificates, or for the use
or application of any funds paid to the Depositor with respect to the Mortgage Loans. Subject to
the provisions of Section 2.05, neither the Trustee nor the Securities Administrator shall be
responsible for the legality or validity of this Agreement or any document or instrument relating
to this Agreement, the validity of the execution of this Agreement or of any supplement hereto or
instrument of further assurance, or the validity, priority, perfection or sufficiency of the security
for the Certificates issued hereunder or intended to be issued hereunder. Neither the Trustee nor
the Securities Administrator shall at any time have any responsibility or liability for or with
respect to the legality, validity and enforceability of any Mortgage or any Mortgage Loan, or the
perfection and priority of any Mortgage or the maintenance of any such perfection and priority,
or for or with respect to the sufficiency of the Trust Fund or its ability to generate the payments
to be distributed to Certificateholders, under this Agreement. Neither the Trustee nor the
Securities Administrator shall have any responsibility for filing any financing or continuation
statement in any public office at any time or to otherwise perfect or maintain the perfection of
any security interest or lien granted to it hereunder or to record this Agreement, other than any
continuation statements required to be filed by the Trustee pursuant to Section 3.20.
ny-srv0 I\COHENS\1053167v07\83772.010800

120
conﬁdential

Attachment F - Page 176

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 129 of 230
conﬁdential
A 479

Section 9.04 Trustee and Securities Administrator May Own Certificates. Each of the
Trustee and the Securities Administrator, in its individual capacity or in any capacity other than
as Trustee or Securities Administrator hereunder, may become the owner or pledgee of any
Certificates with the same rights it would have if it were not the Trustee or the Securities
Administrator, as applicable, and may otherwise deal with the parties hereto.
Section 9.05 Trustee’s and Securities Administrator’s Fees and Expenses. The fees and
expenses of the Trustee and the Securities Administrator shall be paid in accordance with a side
letter agreement. In addition, the Trustee and the Securities Administrator will be entitled to
recover from the Distribution Account pursuant to Section 4.03 all reasonable out-of-pocket
expenses, disbursements and advances and the expenses of the Trustee and the Securities
Administrator, respectively, or any of their respective directors, officers, employees or agents in
connection with any Event of Default, any breach of this Agreement or any claim or legal action
(including any pending or threatened claim or legal action) incurred or made by the Trustee or
the Securities Administrator, respectively, or any of their respective directors, officers,
employees or agents in the administration of the trusts hereunder (including the reasonable
compensation, expenses and disbursements of its counsel) except any such expense,
disbursement or advance as may arise from its or their negligence, negligent failure to act or
intentional misconduct or which is the responsibility of the Certificateholders or the Trust Fund
hereunder. If funds in the Distribution Account are insufficient therefor, the Trustee and the
Securities Administrator shall recover such expenses from the Depositor. Such compensation
and reimbursement obligation shall not be limited by any provision of law in regard to the
compensation of a trustee of an express trust.
Section9.06 Eligibility Requirements for Trustee, Paying Agent and Securities
Administrator. The Trustee and any successor Trustee, the Paying Agent and any successor
Paying Agent and the Securities Administrator and any successor Securities Administrator shall
during the entire duration of this Agreement be a state bank or trust company or a national
banking association organized and doing business under the laws of such state or the United
States of America, authorized under such laws to exercise corporate trust powers, having a
combined capital and surplus and undivided profits of at least $40,000,000 or, in the case of a
successor Trustee, $50,000,000, subject to supervision or examination by federal or state
authority and, in the case of the Trustee, rated "BBB" or higher by S&P with respect to their
long-term rating and rated "BBB" or higher by S&P and "Baa2" or higher by Moody’s with
respect to any outstanding long-term unsecured unsubordinated debt, and, in the case of a
successor Trustee, successor Paying Agent or successor Securities Administrator other than
pursuant to Section 9.10, rated in one of the two highest long-term debt categories of, or
otherwise acceptable to, each of the Rating Agencies. If the Trustee publishes reports of
condition at least annually, pursuant to law or to the requirements of the aforesaid supervising or
examining authority, then for the purposes of this Section 9.06 the combined capital and surplus
of such corporation shall be deemed to be its total equity capital (combined capital and surplus)
as set forth in its most recent report of condition so published. In case at any time the Trustee,
the Paying Agent or the Securities Administrator shall cease to be eligible in accordance with the
provisions of this Section 9.06, the Trustee, the Paying Agent or the Securities Administrator, as
applicable, shall resign immediately in the manner and with the effect specified in Section 9.08.

ny-srv0 I\COHENS\ 1053167v07\83772 010800

121
conﬁdential

Attachment F - Page 177

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 130 of 230
conﬁdential
A 480

Section9.07 Insurance. The Trustee, the Paying Agent and the Securities
Administrator, at their own expense, shall at all times maintain and keep in full force and effect:
(i) fidelity insurance, (ii) theft of documents insurance and (iii) forgery insurance (which may be
collectively satisfied by a "Financial Institution Bond" and/or a "Bankers’ Blanket Bond"). All
such insurance shall be in amounts, with standard coverage and subject to deductibles, as are
customary for insurance typically maintained by banks or their affiliates which act as custodians
for investor-owned mortgage pools. A certificate of an officer of the Trustee, the Paying Agent
or the Securities Administrator as to the Trustee’s, the Paying Agent’s or the Securities
Administrator’s, respectively, compliance with this Section 9.07 shall be furnished to any
Certificateholder upon reasonable written request.
Section 9.08 Resignation and Removal of the Trustee and Securities Administrator. (a)
The Trustee and the Securities Administrator may at any time resign and be discharged from the
Trust hereby created by giving written notice thereof to the Depositor and the Master Servicer,
with a copy to the Rating Agencies. Upon receiving such notice of resignation, the Depositor
shall promptly appoint a successor Trustee or successor Securities Administrator, as applicable,
by written instrument, in triplicate, one copy of which instrument shall be delivered to each of
the resigning Trustee or Securities Administrator, as applicable, and the successor Trustee or
Securities Administrator, as applicable. If no successor Trustee or Securities Administrator shall
have been so appointed and have accepted appointment within 30 days after the giving of such
notice of resignation, the resigning Trustee or Securities Administrator may petition any court of
competent jurisdiction for the appointment of a successor Trustee or Securities Administrator.
(b) If at any time (i) the Trustee, the Paying Agent or the Securities Administrator
shall cease to be eligible in accordance with the provisions of Section 9.06 and shall fail to resign
after written request therefor by the Depositor, (ii) the Trustee, the Paying Agent or the
Securities Administrator shall become incapable of acting, or shall be adjudged bankrupt or
insolvent, or a receiver of the Trustee, the Paying Agent or the Securities Administrator, as
applicable, or of its property shall be appointed, or any public officer shall take charge or control
of the Trustee, the Paying Agent or the Securities Administrator, as applicable, or of its property
or affairs for the purpose of rehabilitation, conservation or liquidation, or (iii)(A)a tax is
imposed with respect to the Trust Fund by any state in which the Trustee or the Securities
Administrator or the Trust Fund is located, and (B) the imposition of such tax would be avoided
by the appointment of a different trustee or securities administrator, then the Depositor shall
promptly remove the Trustee, or shall be entitled to remove the Paying Agent or the Securities
Administrator, as applicable, and appoint a successor Trustee, Paying Agent or Securities
Administrator, as applicable, by written instrument, in triplicate, one copy of which instrument
shall be delivered to each of the Master Servicer, the Trustee, the Paying Agent or Securities
Administrator, as applicable, so removed, and the successor Trustee, Paying Agent or Securities
Administrator, as applicable.

(c) The Holders of Certificates evidencing Fractional Undivided Interests aggregating
not less than 51% of the Trust Fund may at any time remove the Trustee, the Paying Agent or the
Securities Administrator and appoint a successor Trustee, Paying Agent or Securities
Administrator by written instrument or instruments, in sextuplicate, signed by such Holders or
their attorneys-in-fact duly authorized, one complete set of which instruments shall be delivered
to the Depositor, the Paying Agent, the Master Servicer, the Securities Administrator (if the
ny-srv01\COHENS\1053167v07\83772.010800

122
conﬁdential

Attachment F - Page 178

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 131 of 230
conﬁdential
A 481
Trustee is removed), the Trustee (if the Securities Administrator or the Paying Agent is
removed), and the Trustee, Paying Agent or Securities Administrator so removed and the
successor so appointed. Notice of any removal of the Trustee or the Securities Administrator
shall be given to each Rating Agency by the Master Servicer or the successor trustee, or by the
Securities Administrator or the successor securities administrator, as applicable. In the event that
the Trustee, the Paying Agent or the Securities Administrator is removed by the Holders of
Certificates in accordance with this Section 9.08(c), the Holders of such Certificates shall be
responsible for paying any compensation payable to a successor Trustee, successor Paying Agent
or successor Securities Administrator, in excess of the amount paid to the predecessor Trustee,
predecessor Paying Agent or predecessor Securities Administrator, as applicable.

(d) No resignation or removal of the Trustee, the Paying Agent or the Securities
Administrator and appointment of a successor Trustee, Paying Agent or Securities Administrator
pursuant to any of the provisions of this Section 9.08 shall become effective except upon
appointment of and acceptance of such appointment by the successor Trustee, Paying Agent or
Securities Administrator as provided in Section 9.09.
Section 9.09 Successor Trustee, Paying Agent and Successor Securities Administrator.
(a) Any successor Trustee, Paying Agent or Securities Administrator appointed as provided in
Section 9.08 shall execute, acknowledge and deliver to the Depositor and to its predecessor
Trustee, Paying Agent or Securities Administrator, as applicable, and the Master Servicer an
instrument accepting such appointment hereunder. The resignation or removal of the
predecessor Trustee, Paying Agent or Securities Administrator shall then become effective and
such successor Trustee, Paying Agent or Securities Administrator, without any further act, deed
or conveyance, shall become fully vested with all the rights, powers, duties and obligations of its
predecessor hereunder, with like effect as if originally named as Trustee, Paying Agent or
Securities Administrator herein. The predecessor Trustee, Paying Agent or Securities
Administrator shall, after its receipt of payment of its outstanding fees and expenses with respect
hereunder, promptly deliver to the successor Trustee, Paying Agent or Securities Administrator,
as applicable, all assets and records of the Trust held by it hereunder, and the Depositor and the
predecessor Trustee, Paying Agent or Securities Administrator, as applicable, shall execute and
deliver such instruments and do such other things as may reasonably be required for more fully
and certainly vesting and confirming in the successor Trustee, Paying Agent or Securities
Administrator, as applicable, all such rights, powers, duties and obligations.
(b) No successor Trustee, Paying Agent or Securities Administrator shall accept
appointment as provided in this Section 9.09 unless at the time of such acceptance such
successor Trustee, Paying Agent or Securities Administrator shall be eligible under the
provisions of Section 9.06.
(c) Upon acceptance of appointment by a successor Trustee, Paying Agent or
Securities Administrator as provided in this Section 9.09, the successor Trustee, Paying Agent or
Securities Administrator shall mail notice of the succession of such Trustee, Paying Agent or
Securities Administrator hereunder to all Certificateholders at their addresses as shown in the
Certificate Register and to the Rating Agencies. EMC shall pay the cost of any such mailing by
the successor Trustee, Paying Agent or Securities Administrator.

ny-srv0 I\COHENS\1053167v07\83772.010800

123
conﬁdential

Attachment F - Page 179

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 132 of 230
conﬁdential
A 482

Section9.10 Merger or Consolidation of Trustee, Paying Agent or Securities
Administrator. Any state bank or trust company or national banking association into which the
Trustee, the Paying Agent or the Securities Administrator may be merged or converted or with
which it may be consolidated, or any state bank or trust company or national banking association
resulting from any merger, conversion or consolidation to which the Trustee, the Paying Agent
or the Securities Administrator, respectively, shall be a party, or any state bank or trust company
or national banking association succeeding to all or substantially all of the corporate trust
business of the Trustee, the Paying Agent or the Securities Administrator, respectively, shall be
the successor of the Trustee, the Paying Agent or the Securities Administrator, respectively,
hereunder, provided such state bank or trust company or national banking association shall be
eligible under the provisions of Section 9.06. Such succession shall be valid without the
execution or filing of any paper or any further act on the part of any of the parties hereto,
anything herein to the contrary notwithstanding.
Section 9.12 Appointment of Co-Trustee or Separate Trustee. (a) Notwithstanding any
other provisions hereof, at any time, for the purpose of meeting any legal requirements of any
jurisdiction in which any part of the Trust or property constituting the same may at the time be
located, the Depositor and the Trustee acting jointly shall have the power and shall execute and
deliver all instruments to appoint one or more Persons approved by the Trustee and the Depositor
to act as co-trustee or co-trustees, jointly with the Trustee, or separate trustee or separate trustees,
of all or any part of the Trust, and to vest in such Person or Persons, in such capacity and for the
benefit of the Certificateholders such title to the Trust, or any part thereof, and, subject to the
other provisions of this Section 9.11, such powers, duties, obligations, rights and trusts as the
Depositor and the Trustee may consider necessary or desirable.
(a) If the Depositor shall not have joined in such appointment within 15 days after the
receipt by it of a written request so to do, the Trustee shall have the power to make such
appointment without the Depositor.

(b) No co-trustee or separate trustee hereunder shall be required to meet the terms of
eligibility as a successor Trustee under Section 9.06 hereunder and no notice to
Certificateholders of the appointment of co-trustee(s) or separate trustee(s) shall be required
under Section 9.08 hereof.
(c) In the case of any appointment of a co-trustee or separate trustee pursuant to this
Section 9.11, all rights, powers, duties and obligations conferred or imposed upon the Trustee
(except for the obligation of the Trustee under this Agreement to advance funds on behalf of the
Master Servicer) and required to be conferred on such co-trustee shall be conferred or imposed
upon and exercised or performed by the Trustee and such separate trustee or co-trustee jointly (it
being understood that such separate trustee or co-trustee is not authorized to act separately
without the Trustee joining in such act), except to the extent that under any law of any
jurisdiction in which any particular act or acts are to be performed (whether as Trustee hereunder
or as successor to the Master Servicer hereunder), the Trustee shall be incompetent or
unqualified to perform such act or acts, in which event such rights, powers, duties and
obligations (including the holding of title to the Trust or any portion thereof in any such
jurisdiction) shall be exercised and performed by such separate trustee or co-trustee at the
direction of the Trustee.
ny-srv0 I\COHENS\ 1053167v07\83772 010800

124
conﬁdential

Attachment F - Page 180

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 133 of 230
conﬁdential
A 483

(d) Any notice, request or other writing given to the Trustee shall be deemed to have
been given to each of the then separate trustees and co-trustees, as effectively as if given to each
of them. Every instrument appointing any separate trustee or co-trustee shall refer to this
Agreement and the conditions of this Article IX. Each separate trustee and co-trustee, upon its
acceptance of the trusts conferred, shall be vested with the estates or property specified in its
instrument of appointment, either jointly with the Trustee or separately, as may be provided
therein, subject to all the provisions of this Agreement, specifically including every provision of
this Agreement relating to the conduct of, affecting the liability of, or affording protection to, the
Trustee. Every such instrument shall be filed with the Trustee.
(e) To the extent not prohibited by law, any separate trustee or co-trustee may, at any
time, request the Trustee, or its agent or attorney-in-fact, with full power and authority, to do any
lawful act under or with respect to this Agreement on its behalf and in its name. If any separate
trustee or co-trustee shall die, become incapable of acting, resign or be removed, all of its estates,
properties, rights, remedies and trusts shall vest in and be exercised by the Trustee, to the extent
permitted by law, without the appointment of a new or successor Trustee.
(f) No trustee under this Agreement shall be personally liable by reason of any act or
omission of another trustee under this Agreement. The Depositor and the Trustee acting jointly
may at any time accept the resignation of or remove any separate trustee or co-trustee.
Section 9.13 Federal Information Returns and Reports to Certificateholders; REMIC
Administration. (a) For federal income tax purposes, the taxable year of each of REMIC I,
REMIC II and REMIC III shall be a calendar year and the Securities Administrator shall
maintain or cause the maintenance of the books of each such REMIC on the accrual method of
accounting.

(b) (i) The Securities Administrator shall prepare and file or cause to be filed with the
Internal Revenue Service, and the Trustee shall sign, Federal tax information returns or elections
required to be made hereunder with respect to each REMIC, the Trust Fund, if applicable, and
the Certificates, containing such information and at the times and in the manner as may be
required by the Code or applicable Treasury regulations, and shall furnish to each Holder of
Certificates at any time during the calendar year for which such returns or reports are made such
statements or information at the times and in the manner as may be required thereby, including,
without limitation, reports relating to interest, original issue discount and market discount or
premium (using a constant prepayment assumption of 25% CPR). The Securities Administrator
shall apply for an Employee Identification Number from the IRS under Form SS-4 or any other
acceptable method for all tax entities. In connection with the foregoing, the Securities
Administrator shall timely prepare and file, and the Trustee shall sign, IRS Form 8811, and
updated versions thereof, as required, which shall provide the name and address of the person
who can be contacted to obtain information required to be reported to the holders of regular
interests in each REMIC. The Trustee shall make elections to treat each REMIC hereunder as a
REMIC (which elections shall apply to the taxable period ending December 31, 2005 and each
calendar year thereafter) in such manner as the Code or applicable Treasury regulations may
prescribe (and, if applicable, under applicable state and local law), and as described by the
Securities Administrator. The Trustee shall sign all tax information returns filed pursuant to this
Section 9.12 and any other returns as may be required by the Code. The Holder of the largest
ny-srv0 l\COHENS\I053167v07\83772.010800

125
conﬁdential

Attachment F - Page 181

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 134 of 230
conﬁdential
A 484

percentage interest of the Class R-I Certificate is hereby designated as the "Tax Matters Person"
(within the meaning of Treas. Reg. §l.860F-4(d)) for REMIC I, the Holder of the largest
percentage interest of the Class R-II Certificate is hereby designated as the "Tax Matters Person"
(within the meaning of Treas. Reg. § 1.860F-4(d)) for REMIC II, and the Holder of the largest
percentage interest of the Class R-III Certificate is hereby designated as the "Tax Matters
Person" (within the meaning of Treas. Reg. § 1.860F-4(d)) for REMIC III. The Securities
Administrator is hereby designated and appointed as the agent of each such Tax Matters Person.
Any Holder of a Residual Certificate will by acceptance thereof appoint the Securities
Administrator as agent and attorney-in-fact for the purpose of acting as Tax Matters Person for
each REMIC during such time as the Securities Administrator does not own any such Residual
Certificate. In the event that the Code or applicable Treasury regulations prohibit the Trustee
from signing tax or information returns or other statements, or the Securities Administrator from
acting as agent for the Tax Matters Person, each of the Trustee and the Securities Administrator
shall take whatever action that in its sole good faith judgment is necessary for the proper filing of
such information returns or for the provision of a Tax Matters Person for each REMIC, including
designation of the Holder of a Residual Certificate to sign such returns or act as Tax Matters
Person for each REMIC. Each Holder of a Residual Certificate shall be bound by this Section.
(ii) The Securities Administrator shall, to the extent that they are under its
control, conduct matters relating to the assets of any REMIC hereunder at all times that
any Certificates are outstanding so as to maintain its status as a REMIC under the
REMIC Provisions. The Securities Administrator shall not knowingly or intentionally
take any action or omit to take any action that would cause the termination of the REMIC
status of any REMIC hereunder. The Securities Administrator shall not permit the
creation of any interests in REMIC III other than the Certificates. The Securities
Administrator shall not receive any amount representing a fee or other compensation for
services (except as otherwise permitted by this Agreement). The Securities
Administrator shall not receive any income attributable to any asset which is neither a
"qualified mortgage" nor a "permitted investment" within the meaning of the REMIC
Provisions. The Securities Administrator shall not receive any contributions to any
REMIC hereunder after the Startup Day that would be subject to tax under Section
860G(d) of the Code. The Securities Administrator shall not dispose of any assets of any
REMIC hereunder at a gain if such disposition would be a "prohibited transaction" within
the meaning of Section 860F(a)(2) of the Code. As agent of each Tax Matters Person, the
Securities Administrator shall, as and when necessary and appropriate, represent the
related REMIC in any administrative or judicial proceedings relating to an examination
or audit by any governmental taxing authority, request an administrative adjustment as to
any taxable year of such REMIC, enter into settlement agreements with any
governmental taxing agency, extend any statute of limitations relating to any tax item of
such REMIC, and otherwise act on behalf of such REMIC in relation to any tax matter or
controversy involving it.
(c) The Securities Administrator shall provide, upon request and receipt of reasonable
compensation, such information as required in Section 860D(a)(6)(B) of the Code to the Internal
Revenue Service, to any Person purporting to transfer a Residual Certificate to a Person other
than a transferee permitted by Section 5.05(b), and to any regulated investment company, real
estate investment trust, common trust fund, partnership, trust, estate, organization described in
ny-srv0 I\COHENS\1053167v07\83772 010800

126
conﬁdential

Attachment F - Page 182

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 135 of 230
conﬁdential
A 485
Section 1381 of the Code, or nominee holding an interest in a pass-through entity described in
Section 860E(e)(6) of the Code, or any record holder of which is not a transferee permitted by
Section 5.05(b) (or which is deemed by statute to be an entity with a disqualified member) and
otherwise shall comply with all of the requirements of Section 860E(e) of the Code.

(d) The Securities Administrator shall prepare and file or cause to be filed, and the
Trustee shall sign, any state income tax returns required under Applicable State Law with respect
to each REMIC or the Trust Fund.
(e) Notwithstanding any other provision of this Agreement, the Trustee and the
Securities Administrator shall comply with all federal withholding requirements respecting
payments to Certificateholders of interest or original issue discount on the Mortgage Loans, that
the Trustee or the Securities Administrator reasonably believes are applicable under the Code.
The consent of Certificateholders shall not be required for such withholding. In the event the
Trustee or the Securities Administrator withholds any amount from interest or original issue
discount payments or advances thereof to any Certificateholder pursuant to federal withholding
requirements, the Trustee or the Securities Administrator shall, together with its monthly report
to such Certificateholders, indicate such amount withheld.

(f) The Trustee and the Securities Administrator agree to indemnify the Trust Fund
and the Depositor for any taxes and costs, including, without limitation, any reasonable attorneys
fees, imposed on or incurred by the Trust Fund, the Depositor or the Master Servicer as a result
of a breach of the Trustee’s covenants or the Securities Administrator’s covenants, respectively,
set forth in this Section 9.12; provided, however, such liability and obligation to indemnify in
this paragraph shall not be joint and several and neither the Trustee nor the Securities
Administrator shall be liable or be obligated to indemnify the Trust Fund for the failure by the
other to perform any duty under this Agreement or the breach by the other of any covenant in
this Agreement.
ARTICLE X
Termination
Section 10.01 Termination Upon Repurchase by the Depositor or its Designee or
Liquidation of the Mortgage Loans. (a) Subject to Section 10.02, the respective obligations and
responsibilities of the Depositor, the Trustee, the Paying Agent, the Master Servicer, EMC and
the Securities Administrator created hereby, other than the obligation of the Paying Agent to
make payments to Certificateholders as hereinafter set forth, shall terminate upon the earlier of:
(i) in accordance with Section 10.01(c), the repurchase by or at the direction
of the Depositor or its designee of all of the Mortgage Loans and all related REO
Property remaining in the Trust at a price (the "Termination Purchase Price") equal to the
sum of (a) 100% of the Outstanding Principal Balance of each Mortgage Loan (other than
a Mortgage Loan related to REO Property) as of the date of repurchase, net of the
principal portion of any unreimbursed Monthly Advances made by the purchaser,
together with interest at the applicable Mortgage Interest Rate accrued but unpaid to, but
not including, the first day of the month of repurchase, (b) the appraised value of any
related REO Property, less the good faith estimate of the Depositor of liquidation
ny-srv0 l\COHENS\I053167v07\83772.010800

127
conﬁdential

Attachment F - Page 183

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 136 of 230
conﬁdential
A 486

expenses to be incurred in connection with its disposal thereof (but not more than the
Outstanding Principal Balance of the related Mortgage Loan, together with interest at the
applicable Mortgage Interest Rate accrued on that balance but unpaid to, but not
including, the first day of the month of repurchase), such appraisal to be calculated by an
appraiser mutually agreed upon by the Depositor and the Trustee at the expense of the
Depositor, (c) unreimbursed out-of pocket costs of the related Servicer and the Master
Servicer, including, unreimbursed servicing advances and the principal portion of any
unreimbursed Monthly Advances, made on the Mortgage Loans prior to the exercise of
such repurchase right, (d) any costs and damages incurred by the Trust in connection with
any violation of such Mortgage Loan of any predatory or abusive lending laws and (e)
any unreimbursed costs and expenses of the Trustee and the Securities Administrator
payable pursuant to Section 9.05; or
(ii) the later of (A) the making of the final payment or other liquidation, or
any advance with respect thereto, of the last Mortgage Loan remaining in the Trust Fund
and (B) the disposition of all property acquired with respect to any Mortgage Loan;
provided, however, that in the event that an advance has been made, but not yet
recovered, at the time of such termination, the Person having made such advance shall be
entitled to receive, notwithstanding such termination, any payments received subsequent
thereto with respect to which such advance was made; or
(iii) the payment to Certificateholders of all amounts required to be paid to
them pursuant to this Agreement.
(b) In no event, however, shall the Trust created hereby continue beyond the
expiration of 21 years from the death of the last survivor of the descendants of Joseph P.
Kennedy, the late Ambassador of the United States to the Court of St. James’s, living on the date
of this Agreement.
(c) The right of the Depositor or its designee to repurchase all of the assets of the
Trust Fund pursuant to Subsection 10.01 (a)(i) above shall be exercisable only if (i) the aggregate
Scheduled Principal Balance of the Mortgage Loans at the time of any such repurchase is less
than or equal to 10% of the Cut-off Date Balance, or (ii) the Depositor, based upon an Opinion of
Counsel addressed to the Depositor, the Trustee and the Securities Administrator, has determined
that the REMIC status of a REMIC hereunder has been lost or that a substantial risk exists that
such REMIC status will be lost for the then-current taxable year. At any time thereafter, in the
case of (i) or (ii) above, the Depositor may elect to terminate REMIC I, REMIC II or REMIC III
at any time, and upon such election, the Depositor or its designee shall repurchase all of the
assets of the Trust Fund as described in Subsection 10.01 (a)(i) above.
(d) The Paying Agent shall give notice of any termination to the Certificateholders,
with a copy to the Master Servicer, the Securities Administrator and the Rating Agencies, upon
which the Certificateholders shall surrender their Certificates to the Paying Agent for payment of
the final distribution and cancellation. Such notice shall be given by letter, mailed not earlier
than the 15th day and not later than the 25th day of the month next preceding the month of such
final distribution, and shall specify (i) the Distribution Date upon which final payment of the
Certificates will be made upon presentation and surrender of the Certificates at the office of the
ny-srv01 \COHENS\ 1053167v07\83772.010800

128
conﬁdential

Attachment F - Page 184

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 137 of 230
conﬁdential
A 487
Paying Agent therein designated, (ii) the amount of any such final payment and (iii) that the
Record Date otherwise applicable to such Distribution Date is not applicable, payments being
made only upon presentation and surrender of the Certificates at the office of the Paying Agent
therein specified.

(e) If the option of the Depositor to repurchase or cause the repurchase of all of the
assets of the Trust Fund as described in Subsection 10.01 (a)(i) above is exercised, the Depositor
and/or its designee shall deliver to the Paying Agent for deposit in the Distribution Account, by
the Business Day prior to the applicable Distribution Date, an amount equal to the Termination
Purchase Price. Upon presentation and surrender of the Certificates by the Certificateholders,
the Paying Agent shall distribute to the Certificateholders, as directed by the Securities
Administrator in writing, an amount determined as follows: with respect to each Certificate
(other than the Class R Certificates), the outstanding Current Principal Amount, plus with respect
to each Certificate (other than the Class R Certificates), one month’s interest thereon at the
applicable Pass-Through Rate; and with respect to the Class R Certificates, the percentage
interest evidenced thereby multiplied by the difference, if any, between the above described
repurchase price and the aggregate amount to be distributed to the Holders of the Certificates
(other than the Class R Certificates). If the proceeds with respect to the Group I Mortgage Loans
are not sufficient to pay all of the Group I Senior Certificates (other than the Residual
Certificates) in full, any such deficiency will be allocated first, to the Subordinate Certificates, in
inverse order of their payment priority, and then to the Group I Senior Certificates (other than the
Residual Certificates), in each case on a pro rata basis. If the proceeds with respect to the
Group II Mortgage Loans are not sufficient to pay all of the Group II Senior Certificates in full,
any such deficiency will be allocated first, to the Subordinate Certificates, in inverse order of
their payment priority, and then to the Group II Senior Certificates, in each case on a pro rata
basis. If the proceeds with respect to the Group III Mortgage Loans are not sufficient to pay all
of the Group III Senior Certificates in full, any such deficiency will be allocated first, to the
Subordinate Certificates, in inverse order of their payment priority, and then to the Group III
Senior Certificates, in each case on a pro rata basis. Upon deposit of the required repurchase
price and following such final Distribution Date relating thereto, the Trustee shall release
promptly to the Depositor and/or its designee the Mortgage Files for the remaining applicable
Mortgage Loans, and the Accounts with respect thereto shall terminate, subject to the Paying
Agent’s obligation to hold any amounts payable to Certificateholders in trust without interest
pending final distributions pursuant to Subsection 10.01(f) and (g). After final distributions
pursuant to Section 10.01 (f) and (g) to all Certificateholders, any other amounts remaining in the
Accounts will belong to the Depositor.
(f) Upon the presentation and surrender of the Certificates, the Paying Agent shall
distribute to the remaining Certificateholders, pursuant to the written direction of the Securities
Administrator and in accordance with their respective interests, all distributable amounts
remaining in the Distribution Account.

(g) If not all of the Certificateholders shall surrender their Certificates for
cancellation within six months after the time specified in the above-mentioned written notice, the
Paying Agent shall give a second written notice to the remaining Certificateholders to surrender
their Certificates for cancellation and receive the final distribution with respect thereto. If within
six months after the second notice not all the Certificates shall have been surrendered for
ny-srv0 I\COHENS\1053167v07\83772.010800

129
conﬁdential

Attachment F - Page 185

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 138 of 230
conﬁdential
A 488
cancellation, the Paying Agent may take appropriate steps, or appoint any agent to take
appropriate steps, to contact the remaining Certificateholders concerning surrender of their
Certificates, and the cost thereof shall be paid out of the funds and other assets which remain
subject to this Agreement.
Section 10.03 Additional Termination Requirements. (a) If the option of the Depositor
to repurchase all the Mortgage Loans under Subsection 10.01(a)(i) above is exercised, the Trust
Fund and each of REMIC I, REMIC II and REMIC III shall be terminated in accordance with the
following additional requirements, unless the Trustee has been furnished with an Opinion of
Counsel to the effect that the failure of the Trust to comply with the requirements of this Section
10.02 will not (i) result in the imposition of taxes on "prohibited transactions" as defined in
Section 860F of the Code on REMIC I, REMIC II or REMIC III or (ii) cause any REMIC to fail
to qualify as a REMIC at any time that any Certificates are outstanding:
(i) within 90 days prior to the final Distribution Date, at the written direction
of the Depositor, the Trustee, as agent for the respective Tax Matters Persons, shall adopt
a plan of complete liquidation of REMIC I, REMIC II and REMIC III provided to it by
the Depositor meeting the requirements of a "qualified liquidation" under Section 860F
of the Code and any regulations thereunder;

(ii) the Depositor shall notify the Trustee at the commencement of such 90day liquidation period and, at or prior to the time of making of the final payment on the
Certificates, the Trustee shall sell or otherwise dispose of all of the remaining assets of
the Trust Fund in accordance with the terms hereof; and
(iii) at or after the time of adoption of such a plan of complete liquidation of
any of REMIC I, REMIC II and REMIC III and at or prior to the final Distribution Date
relating thereto, the Trustee shall sell for cash all of the assets of the Trust to or at the
direction of the Depositor, and REMIC I, REMIC II and REMIC III, as applicable, shall
terminate at such time.

(b) By their acceptance of the Residual Certificates, the Holders thereof hereby (i)
agree to adopt such a plan of complete liquidation of the related REMIC upon the written request
of the Depositor and to take such action in connection therewith as may be reasonably requested
by the Depositor and (ii)appoint the Depositor as their attorney-in-fact, with full power of
substitution, for purposes of adopting such a plan of complete liquidation. The Trustee shall
adopt such plan of liquidation by filing the appropriate statement on the final tax return of each
REMIC. Upon complete liquidation or final distribution of all of the assets of the Trust Fund,
the Trust Fund and each of REMIC I, REMIC II and REMIC III shall terminate.
ARTICLE XI
Miscellaneous Provisions
Section 11.01 Intent of Parties. The parties intend that each of REMIC I, REMIC II and
REMIC III shall be treated as a REMIC for federal income tax purposes and that the provisions
of this Agreement should be construed in furtherance of this intent.

ny-srv0 I\COHENS\1053167v07\83772.010800

130
conﬁdential

Attachment F - Page 186

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 139 of 230
conﬁdential
A 489
It is the express intent of the parties hereto that the conveyance of the Mortgage Notes,
Mortgages, assignments of Mortgages, title insurance policies and any modifications, extensions
and/or assumption agreements and private mortgage insurance policies relating to the Mortgage
Loans by the Seller to the Depositor, and by the Depositor to the Trust be, and be construed as,
an absolute sale thereof to the Depositor or the Trust, as applicable. It is, further, not the
intention of the parties that such conveyance be deemed a pledge thereof by the Seller to the
Depositor, or by the Depositor to the Trust. However, in the event that, notwithstanding the
intent of the parties, such assets are held to be the property of the Seller or the Depositor, as
applicable, or if for any other reason this Agreement is held or deemed to create a security
interest in such assets, then (i) this Agreement shall be deemed to be a security agreement within
the meaning of the Uniform Commercial Code of the State of New York, (ii) each conveyance
provided for in this Agreement shall be deemed to be an assignment and a grant by the Seller or
the Depositor, as applicable, for the benefit of the Certificateholders, of a security interest in all
of the assets that constitute the Trust Fund, whether now owned or hereafter acquired, (iii) the
possession by the Trustee or the Custodian of the Mortgage Notes and such other items of
property as may be perfected by possession pursuant to Section 9-313 (or comparable provision)
of the applicable Uniform Commercial Code shall be deemed to be "possession by the secured
party" for purposes of effecting the security interest pursuant to such section of the applicable
Uniform Commercial Code and other applicable law. Any assignment of the Seller and the
Depositor shall also be deemed to be an assignment of any security interest created hereby.
Each of the Seller and the Depositor for the benefit of the Certificateholders shall, to the
extent consistent with this Agreement, take such actions as may be necessary to ensure that, if
this Agreement were deemed to create a security interest in the assets of the Trust Fund, such
security interest would be deemed to be a perfected security interest of first priority under
applicable law and will be maintained as such throughout the term of the Agreement.
Section 11.02 Amendment. (a) This Agreement may be amended from time to time by
EMC, the Depositor, the Master Servicer, the Securities Administrator and the Trustee, and the
Servicing Agreements may be amended from time to time by EMC, the Master Servicer and the
Trustee, without notice to or the consent of any of the Certificateholders, to (i) cure any
ambiguity, (ii) conform the terms hereof to the disclosure in the Prospectus or the Prospectus
Supplement, (iii) correct or supplement any provisions herein that may be defective or
inconsistent with any other provisions herein, (iv) comply with any changes in the Code or (v)
make any other provisions with respect to matters or questions arising under this Agreement or
the Servicing Agreements which shall not be inconsistent with the provisions of this Agreement;
provided, however, that with regard to clauses (iv) and (v) of this Section 11.02(a), such action
shall not, as evidenced by an Opinion of Independent Counsel, addressed to the Trustee,
adversely affect in any material respect the interests of any Certificateholder.
(b) This Agreement may also be amended from time to time by EMC, the Master
Servicer, the Depositor, the Securities Administrator and the Trustee, and the Servicing
Agreements may also be amended from time to time by the Master Servicer and the Trustee,
with the consent of the Holders of Certificates evidencing Fractional Undivided Interests
aggregating not less than 51% of the Trust Fund or of the applicable Class or Classes of
Certificates, if such amendment affects only such Class or Classes of Certificates, for the purpose
of adding any provisions to or changing in any manner or eliminating any of the provisions of

ny-srv01\COHENS\1053167v07\83772.010800

131
conﬁdential

Attachment F - Page 187

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 140 of 230
conﬁdential
A 490

this Agreement or the Servicing Agreements or of modifying in any manner the rights of the
Certificateholders; provided, however, that no such amendment shall (i) reduce in any manner
the amount of, or delay the timing of, payments received on Mortgage Loans which are required
to be distributed on any Certificate without the consent of the Holder of such Certificate, (ii)
reduce the aforesaid percentage of Certificates the Holders of which are required to consent to
any such amendment, without the consent of the Holders of all Certificates then outstanding, or
(iii) cause REMIC I, REMIC II or REMIC III to fail to qualify as a REMIC for federal income
tax purposes, as evidenced by an Opinion of Independent Counsel which shall be provided to the
Trustee other than at the Trustee’s expense. Notwithstanding any other provision of this
Agreement, for purposes of the giving or withholding of consents pursuant to Section 11.02(b),
Certificates registered in the name of or held for the benefit of the Depositor, the Securities
Administrator, the Master Servicer, or the Trustee or any Affiliate thereof shall be entitled to
vote their Fractional Undivided Interests with respect to matters affecting such Certificates.
(c) Promptly after the execution of any such amendment, the Trustee shall furnish a
copy of such amendment or written notification of the substance of such amendment to each
Certificateholder, with a copy to the Rating Agencies.
(d) In the case of an amendment under Subsection 11.02(b) above, it shall not be
necessary for the Certificateholders to approve the particular form of such an amendment.
Rather, it shall be sufficient if the Certificateholders approve the substance of the amendment.
The manner of obtaining such consents and of evidencing the authorization of the execution
thereof by Certificateholders shall be subject to such reasonable regulations as the Trustee may
prescribe.
(e) Prior to the execution of any amendment to this Agreement, the Trustee shall be
entitled to receive and rely upon an Opinion of Counsel stating that the execution of such
amendment is authorized or permitted by this Agreement. The Trustee and the Securities
Administrator may, but shall not be obligated to, enter into any such amendment which affects
the Trustee’s or the Securities Administrator’s own respective rights, duties or immunities under
this Agreement.
Section 11.03 Recordation of Agreement. To the extent permitted by applicable law,
this Agreement is subject to recordation in all appropriate public offices for real property records
in all the counties or other comparable jurisdictions in which any or all of the Mortgaged
Properties are situated, and in any other appropriate public recording office or elsewhere. The
Depositor shall effect such recordation at the expense of the Trust upon the request in writing of
a Certificateholder, but only if such direction is accompanied by an Opinion of Counsel
(provided at the expense of the Certificateholder requesting recordation) to the effect that such
recordation would materially and beneficially affect the interests of the Certificateholders or is
required by law.
Section 11.04 Limitation on Rights of Certificateholders. (a) The death or incapacity of
any Certificateholder shall not terminate this Agreement or the Trust, nor entitle such
Certificateholder’s legal representatives or heirs to claim an accounting or to take any action or
proceeding in any court for a partition or winding up of the Trust, nor otherwise affect the rights,
obligations and liabilities of the parties hereto or any of them.
ny-srv01\COHENS\1053167v07\83772.010800

132
conﬁdential

Attachment F - Page 188

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 141 of 230
conﬁdential
A 491

(b) Except as expressly provided in this Agreement, no Certificateholders shall have
any right to vote or in any manner otherwise control the operation and management of the Trust,
or the obligations of the parties hereto, nor shall anything herein set forth, or contained in the
terms of the Certificates, be construed so as to establish the Certificateholders from time to time
as partners or members of an association; nor shall any Certificateholders be under any liability
to any third Person by reason of any action taken by the parties to this Agreement pursuant to
any provision hereof.
(c) No Certificateholder shall have any right by virtue of any provision of this
Agreement to institute any suit, action or proceeding in equity or at law upon, under or with
respect to this Agreement against the Depositor, the Securities Administrator, the Master
Servicer or any successor to any such parties unless (i) such Certificateholder previously shall
have given to the Trustee a written notice of a continuing default, as herein provided, (ii) the
Holders of Certificates evidencing Fractional Undivided Interests aggregating not less than 51%
of the Trust Fund shall have made written request upon the Trustee to institute such action, suit
or proceeding in its own name as Trustee hereunder and shall have offered to the Trustee such
reasonable indemnity as it may require against the costs and expenses and liabilities to be
incurred therein or thereby, and (iii) the Trustee, for 60 days after its receipt of such notice,
request and offer of indemnity, shall have neglected or refused to institute any such action, suit
or proceeding.
(d) No one or more Certificateholders shall have any right by virtue of any provision
of this Agreement to affect the rights of any other Certificateholders or to obtain or seek to
obtain priority or preference over any other such Certificateholder, or to enforce any right under
this Agreement, except in the manner herein provided and for the equal, ratable and common
benefit of all Certificateholders. For the protection and enforcement of the provisions of this
Section 11.04, each and every Certificateholder and the Trustee shall be entitled to such relief as
can be given either at law or in equity.
Section 11.05 Acts of Certificateholders. (a) Any request, demand, authorization,
direction, notice, consent, waiver or other action provided by this Agreement to be given or taken
by Certificateholders may be embodied in and evidenced by one or more instruments of
substantially similar tenor signed by such Certificateholders in person or by an agent duly
appointed in writing. Except as herein otherwise expressly provided, such action shall become
effective when such instrument or instruments are delivered to the Trustee and, where it is
expressly required, to the Depositor. Proof of execution of any such instrument or of a writing
appointing any such agent shall be sufficient for any purpose of this Agreement and conclusive
in favor of the Trustee and the Depositor, if made in the manner provided in this Section 11.05.
(b) The fact and date of the execution by any Person of any such instrument or
writing may be proved by the affidavit of a witness of such execution or by a certificate of a
notary public or other officer authorized by law to take acknowledgments of deeds, certifying
that the individual signing such instrument or writing acknowledged to him the execution
thereof. Where such execution is by a signer acting in a capacity other than his or her individual
capacity, such certificate or affidavit shall also constitute sufficient proof of his or her authority.
The fact and date of the execution of any such instrument or writing, or the authority of the

ny-srv0 I\COHENS\1053167v07\83772.010800

1 33
conﬁdential

Attachment F - Page 189

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 142 of 230
conﬁdential
A 492

individual executing the same, may also be proved in any other manner which the Trustee deems
sufficient.
(c) The ownership of Certificates (notwithstanding any notation of ownership or
other writing on such Certificates, except an endorsement in accordance with Section 5.02 made
on a Certificate presented in accordance with Section 5.04) shall be proved by the Certificate
Register, and neither the Trustee, the Depositor, the Securities Administrator, the Master
Servicer nor any successor to any such parties shall be affected by any notice to the contrary.
(d) Any request, demand, authorization, direction, notice, consent, waiver or other
action of the holder of any Certificate shall bind every future holder of the same Certificate and
the holder of every Certificate issued upon the registration of transfer or exchange thereof, if
applicable, or in lieu thereof with respect to anything done, omitted or suffered to be done by the
Trustee, the Securities Administrator, the Depositor, the Master Servicer or any successor to any
such party in reliance thereon, whether or not notation of such action is made upon such
Certificates.
(e) In determining whether the Holders of the requisite percentage of Certificates
evidencing Fractional Undivided Interests have given any request, demand, authorization,
direction, notice, consent or waiver hereunder, Certificates owned by the Trustee, the Securities
Administrator, the Depositor, the Master Servicer or any Affiliate thereof shall be disregarded,
except as otherwise provided in Section 11.02(b) and except that, in determining whether the
Trustee shall be protected in relying upon any such request, demand, authorization, direction,
notice, consent or waiver, only Certificates which the Trustee knows to be so owned shall be so
disregarded. Certificates which have been pledged in good faith to the Trustee, the Securities
Administrator, the Depositor, the Master Servicer or any Affiliate thereof may be regarded as
outstanding if the pledgor establishes to the satisfaction of the Trustee the pledgor’s right to act
with respect to such Certificates and that the pledgor is not an Affiliate of the Trustee, the
Securities Administrator, the Depositor, or the Master Servicer, as the case may be.
Section 11.06 GOVERNING LAW. THIS AGREEMENT AND THE CERTIFICATES
SHALL BE CONSTRUED IN ACCORDANCE WITH THE LAWS OF THE STATE OF NEW
YORK WITHOUT REFERENCE TO ITS CONFLICT OF LAWS RULES (OTHER THAN
SECTION 5-1401 OF THE GENERAL OBLIGATIONS LAW, WHICH THE PARTIES
HERETO EXPRESSLY RELY UPON IN THE CHOICE OF SUCH LAW AS THE
GOVERNING LAW HEREUNDER) AND THE OBLIGATIONS, RIGHTS AND REMEDIES
OF THE PARTIES HEREUNDER SHALL BE DETERMINED IN ACCORDANCE WITH
SUCH LAWS.

Section 11.07 Notices. All demands and notices hereunder shall be in writing and shall
be deemed given when delivered at (including delivery by facsimile) or mailed by registered
mail, return receipt requested, postage prepaid, or by recognized overnight courier, to (i) in the
case of the Depositor, 383 Madison Avenue, New York, New York 10179, Attention: Vice
President-Servicing, telecopier number: (212) 272-5591, or to such other address as may
hereafter be furnished to the other parties hereto in writing; (ii) in the case of the Trustee, at its
Corporate Trust Office, or such other address as may hereafter be furnished to the other parties
hereto in writing; (iii) in the case of EMC Mortgage Corporation, EMC Mortgage Corporation,
ny-srv0 l\COHENS\1053167v07\83772.010800

134
conﬁdential

Attachment F - Page 190

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 143 of 230
conﬁdential
A 493
383 Madison Avenue, New York, New York 10179, Attention: Vice President - Servicing,
telecopier number (212) 272-5591, or to such other address as may hereafter be furnished to the
other parties hereto in writing; (iv) in the case of the Master Servicer, Paying Agent or Securities
Administrator, Wells Fargo Bank, National Association, P.O. Box 98, Columbia, Maryland
21046 and for overnight delivery to 9062 Old Annapolis Road, Columbia, Maryland 21045
(Attention: SAMI II 2005-AR2), telecopier no.: (410) 715-2380, or such other address as may
hereafter be furnished to the other parties hereto in writing; (v) in the case of the Certificate
Registrar, the Certificate Registrar Office; or (vi) in the case of the Rating Agencies, Moody’s
Investors Service, Inc., 99 Church Street, 4th Floor, New York, New York 10007, and Standard
& Poor’s, a division of The McGraw-Hill Companies, Inc., 55 Water Street, 41st Floor, New
York, New York, 10041, Attention: Residential Mortgage Surveillance, or such other address as
may be furnished to the parties hereto in writing. Any notice delivered to the Depositor, the
Master Servicer, the Securities Administrator, EMC or the Trustee under this Agreement shall be
effective only upon receipt. Any notice required or permitted to be mailed to a Certificateholder,
unless otherwise provided herein, shall be given by first-class mail, postage prepaid, at the
address of such Certificateholder as shown in the Certificate Register. Any notice so mailed
within the time prescribed in this Agreement shall be conclusively presumed to have been duly
given when mailed, whether or not the Certificateholder receives such notice.

Section 11.08 Severability of Provisions. If any one or more of the covenants,
agreements, provisions or terms of this Agreement shall be for any reason whatsoever held
invalid, then such covenants, agreements, provisions or terms shall be deemed severed from the
remaining covenants, agreements, provisions or terms of this Agreement and shall in no way
affect the validity or enforceability of the other provisions of this Agreement or of the
Certificates or the rights of the holders thereof.
Section 11.09 Successors and Assigns. The provisions of this Agreement shall be
binding upon and inure to the benefit of the respective successors and assigns of the parties
hereto.

Section 11.1 0 Article and Section Headings. The article and section headings herein are
for convenience of reference only, and shall not limit or otherwise affect the meaning hereof.
Section 11.11 Counterparts. This Agreement may be executed in two or more
counterparts, each of which when so executed and delivered shall be an original but all of which
together shall constitute one and the same instrument.

Section 11.12 Notice to Rating Agencies. The Trustee shall promptly provide notice to
each Rating Agency with respect to each of the following of which it has actual knowledge:
1.

Any material change or amendment to this Agreement or a Servicing Agreement;

2.

The occurrence of any Event of Default that has not been cured;

3. The resignation or termination of the Master Servicer, the Trustee or the
Securities Administrator;
4.

The repurchase or substitution of Mortgage Loans;

ny-srv0 l\COHENS\1053167v07\83772.010800

13 5
conﬁdential

Attachment F - Page 191

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 144 of 230
conﬁdential
A 494
,

6.

The final payment to Certificateholders; and
Any change in the location of the Distribution Account.
[Signature page follows]

ny-srv0 I\COHENS\1053167v07\83772 010800

13 6
conﬁdential

Attachment F - Page 192

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 145 of 230
conﬁdential
A 495

IN WITNESS WHEREOF, the Depositor, the Trustee, the Master Servicer, the Securities
Administrator and EMC Mortgage Corporation have caused their names to be signed hereto by
their respective officers thereunto duly authorized as of the day and year first above written.
STRUCTURED ASSET MORTGAGE INVESTMENTS II
INC., as Depositor

JPMORGAN CHASE BANK, N.A., as Trustee
By:
Name:
Title:
WELLS FARGO BANK, NATIONAL ASSOCIATION, as
Master Servicer
By:
Name:
Title:

WELLS FARGO BANK, NATIONAL ASSOCIATION, as
Securities Administrator
By:

Name:
Title:

EMC MORTGAGE CORPORATION
By:
Name:
Title:

Attachment F - Page 193
conﬁdential

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 146 of 230
conﬁdential
A 496
IN WITNESS WHEREOF, the Seller. the Trustee, the Master Servicer, the Securities
Administrator and EMC Mortgage Corporation have caused their names to be signed hereto by
their respective officers thereunto duly authorized as of the day and year first above written.
STRUCTURED ASSET MORTGAGE INVESTMENTS II
INC., as Seller
By:
Name:
Title:

WELLS FARGO BANK, NATIONAL ASSOCIATION, as
Master Servicer
By:
Name:
Title:

WELLS FARGO BANK, NATIONAL ASSOCIATION, as
Securities Administrator
By:
Name
Title:
EMC MORTGAGE CORPORATION

By:
Name:
Title:

Attachment F - Page 194
conﬁdential

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 147 of 230
conﬁdential
A 497

IN WITNESS WHEREOF, the Depositor, the Trustee, the Master Servicer, the Securities
Administrator and EMC Mortgage Corporation have caused their names to be signed hereto by
their respective officers thereunto duly authorized as of the day and year first above written.
STRUCTURED ASSET MORTGAGE INVESTMENTS II
INC., as Depositor
By:

Name:
Title:

JPMORGAN CHASE BANK, N.A., as Trustee
By:

Name:
Title:

WELLS FARGO BANK, NATIONAL ASSOCIATION, as
Master Se~,icer _
By:
’.~ .......... """
Name;
Title.
WELLS FARGO BANK, NATIONAL ASSOCIATION, as
Securities Adn]inistr~7or
Y:

N ......

ntie: Vlc
EMC MORTGAGE CORPORATION
By:

Name:
Title:

Attachment F - Page 195
conﬁdential

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 148 of 230
conﬁdential
A 498

IN WITNESS WHEREOF, the Depositor, the Trustee, the Master Servicer, the Securities
Administrator and EMC Mortgage Corporation have caused their names to be signed hereto by
their respective officers thereunto duly authorized as of the day and year first above written.
STRUCTURED ASSET MORTGAGE INVESTMENTS II
INC., as Depositor
By:

Name:
Title:

JPMORGAN CHASE BANK, N.A., as Trustee
By:
Name:
Title:

WELLS FARGO BANK, NATIONAL ASSOCIATION, as
Master Servicer
By:

Name:
Title:

WELLS FARGO BANK, NATIONAL ASSOCIATION, as
Securities Administrator

By:
Name:
Title:
EMC M(

Title:

Attachment F - Page 196
conﬁdential

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 149 of 230
conﬁdential
A 499
Accepted and Agreed as to
Sections 2.01, 2.02, 2.03, 2.04, 2.07 and 9.09(c)
in its capacity as Seller
EMC M(

as Seller

Notary Public

~"

"~..~ .’,.,~
State of Texas
~:~,..,,;,,;,,..,,,~
.... NotaryMyPubUc.
Com~ssion Expires 12-07- 6 U

Attachment F - Page 197
conﬁdential

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 150 of 230
conﬁdential
A 500

STATE OF NEW YORK
COUNTY OF NEW YORK

)
) SS.:

)

On t}l~ 31st day of May,. 2005 bcfore~ me, a notary public in and for said State, personally
appearedi(,,, O’f’00’1 ~,~(t]~gi~ae6~n to me to be a Mlt,~./:~’t)!_t~. + of Structured
Asset Mortgage Investments II Inc., the corporation that executed the within instrument, and also
known to me to be the person who executed it on behalf of said corporation, and acknowledged
to me that such corporation executed the within instrument.
IN WITNESS WHEREOF, I have hereunto set my hand and affixed my official s e/al the
day and year in this certificate first above written,
/iJ
N(
[Notarial Seal]

Attachment F - Page 198
conﬁdential

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 151 of 230
conﬁdential
A 501
STATE OF NEW YORK

)

COUNTY OF NEW YORK

)

) SS.:

On the 31 st day of May, 2005 before me, a notary public in and for said State, personally
appeared
n ..... t DAmv , known to me to be ~$~iat~nfVir~.Pm.~id~n! of
JPMorgan Cha~[k,"N’..7~,’i~ae banking association that executed "i’lae"within instrument, and
also known to me to be the person who executed it on behalf of said banking association, and
acknowledged to me that such banking association executed the within instrument.
IN WITNESS WHEREOF, I have hereunto set my hand and affixed my official seal the
day and year in this certificate first above written.

IRENE SIEGEL
Notary Public, State of New York
No. 24-4927894
Qualified in Kings County /’)/A

~otaria] Seal]

Commission Expires Aori! 25, __

Attachment F - Page 199
conﬁdential

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 152 of 230
conﬁdential
A 502

STATE OF MARYLAND

)
) SS.:

COUNTY OF BALTIMORE )

On the 31 st d a..y o£May, 2005 before me, a notary ~Dubliff’t’n and ~r s~id State, personally
appeared c.~,\(I:~CI2A/0%2 ,knowntometobea’~J~.~’f~.-.-~(,~...+ of WellsFargo
Bank, National AssOciatiOn, the banking association that executed the within instrument, and
also known to me to be the person who executed it on behalf of said banking association, and
acknowledged to me that such banking association executed the within instrument.
IN WITNESS WHEREOF, I have hereunto set my hand and affixed my official seal the
day and year in this certificate first above written.
DARRON C. WOOl)US
NOTARY PUBLIC

BALTIMORE COUNTY
MARYLAND

Notary Public

MY COMMISSION EXPIRES DECEMBER 6, 2008

[Notarial Seal]

Attachment F - Page 200
conﬁdential

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 153 of 230
conﬁdential
A 503
STATE OF TEXAS
COUNTY OF DALLAS

)
) SS.:

)

On the 31st day of May, 2005 before me, a notary public in and for said State, personally
appeared D~aDillatfl
, known to me to be a Sa.~.~r~empr~t
of EMC
Mortgage Corporation, the corporation that executed the within instrument, and also known to
me to be the person who executed it on behalf of said corporation, and acknowledged to me that
such corporation executed the within instrument.
IN WITNESS WHEREOF, I have hereunto set my hand and affixed my official seal the
day and year in this certificate first above written.

Notary Public

[Notarial Seal]

Attachment F - Page 201
conﬁdential

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 154 of 230
conﬁdential
A 504

EXHIBIT A-1
FORM OF CLASS L-A-._] [__-X] CERTIFICATES
SOLELY FOR U.S. FEDERAL INCOME TAX PURPOSES, THIS CERTIFICATE
IS A "REGULAR INTEREST" IN A "REAL ESTATE MORTGAGE INVESTMENT
CONDUIT," AS THOSE TERMS ARE DEFINED, RESPECTIVELY, IN SECTIONS
860G AND 860D OF THE INTERNAL REVENUE CODE OF 1986, AS AMENDED (THE
"CODE").
THE [CURRENT PRINCIPAL] [NOTIONAL] AMOUNT OF THIS
CERTIFICATE WILL BE DECREASED BY THE PRINCIPAL PAYMENTS [HEREON]
AND REALIZED LOSSES [ON THE MORTGAGE LOANS AS SET FORTH IN THE
AGREEMENT (AS DEFINED BELOW)] [ALLOCABLE HERETO] . ACCORDINGLY,
FOLLOWING THE INITIAL ISSUANCE OF THE CERTIFICATES, THE [CURRENT
PRINCIPAL] [NOTIONAL] AMOUNT OF THIS CERTIFICATE WILL BE
DIFFERENT FROM THE DENOMINATION SHOWN BELOW. ANYONE
ACQUIRING THIS CERTIFICATE MAY ASCERTAIN ITS [CURRENT PRINCIPAL]
[NOTIONAL] AMOUNT BY INQUIRY OF WELLS FARGO BANK, NATIONAL
ASSOCIATION, AS CERTIFICATE REGISTRAR (THE "CERTIFICATE
REGISTRAR") WITH RESPECT HERETO.
BY AN AUTHORIZED
[UNLESS THIS CERTIFICATE IS PRESENTED
COMPANY TO THE
REPRESENTATIVE OF THE DEPOSITORY TRUST
CERTIFICATE REGISTRAR OR ITS AGENT FOR REGISTRATION OF TRANSFER,
EXCHANGE OR PAYMENT, AND ANY CERTIFICATE ISSUED IS REGISTERED IN
THE NAME OF CEDE & CO. OR SUCH OTHER NAME AS REQUESTED BY AN
AUTHORIZED REPRESENTATIVE OF THE DEPOSITORY TRUST COMPANY AND
ANY PAYMENT IS MADE TO CEDE & CO., ANY TRANSFER, PLEDGE OR OTHER
USE HEREOF FOR VALUE OR OTHERWISE BY OR TO ANY PERSON IS
WRONGFUL SINCE THE REGISTERED OWNER HEREOF, CEDE & CO., HAS AN
INTEREST HEREIN.]

Attachment F - Page 202
conﬁdential

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 155 of 230
conﬁdential
A 505
Certificate No.

Pass-Through Rate: Variable

Class L-A- _] L-X] [Senior]
Date of Pooling and Servicing Agreement andAggregate Initial [Current Principal]
Cut-off Date:
[Notional] Amount of this Class of Certificates
May 1, 2005
as of the Cut-offDate:

$

First Distribution Date:
June 27, 2005

Initial [Current Principal] [Notional Amount]
of this Certificate as of the Cut-offDate:
$

Master Servicer:
Wells Fargo Bank, National Association

CUSIP: 86359L

Assumed Finn Distribution D~e:
May25,2045

MORTGAGE PASS-THROUGH CERTIFICATE
SERIES 2005-AR2
evidencing a fractional undivided interest in the distributions
allocable to the Class L-A-__] L-X] Certificates with respect to
a Trust Fund consisting primarily of a pool of one- to four-family
adjustable rate negative amortization mortgage loans sold by
STRUCTURED ASSET MORTGAGE INVESTMENTS II INC.
This Certificate is payable solely from the assets of the Trust Fund, and does not
represent an obligation of or interest in Structured Asset Mortgage Investments II Inc., the
Master Servicer, the Certificate Registrar or the Trustee referred to below or any of their
affiliates or any other person. Neither this Certificate nor the underlying Mortgage Loans are
guaranteed or insured by any governmental entity or by Structured Asset Mortgage Investments
II Inc., the Master Servicer, the Certificate Registrar or the Trustee or any of their affiliates or
any other person. None of Structured Asset Mortgage Investments II Inc., the Master Servicer or
any of their affiliates will have any obligation with respect to any certificate or other obligation
secured by or payable from payments on the Certificates.

This certifies that Cede & Co. is the registered owner of the Fractional Undivided Interest
evidenced hereby in the beneficial ownership interest of Certificates of the same Class as this
Certificate in a trust (the "Trust Fund") generally consisting of first lien, adjustable rate negative
amortization mortgage loans secured by one- to four-family residences and individual
A-1-2
conﬁdential

Attachment F - Page 203

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 156 of 230
conﬁdential
A 506
condominium units (collectively, the "Mortgage Loans") sold by Structured Asset Mortgage
Investments II Inc. ("SAMI II"). The Mortgage Loans were sold on the Closing Date by EMC
Mortgage Corporation ("EMC") to SAMI II. Wells Fargo Bank, National Association ("Wells
Fargo") will act as master servicer of the Mortgage Loans (the "Master Servicer," which term
includes any successors thereto under the Agreement referred to below). The Trust Fund was
created pursuant to the Pooling and Servicing Agreement, dated as of the Cut-off Date specified
above (the "Agreement"), among SAMI II, as depositor (the "Depositor"), EMC Mortgage
Corporation, Wells Fargo, as Master Servicer and securities administrator and JPMorgan Chase
Bank, N.A., as trustee (the "Trustee"), a summary of certain of the pertinent provisions of which
is set forth hereafter. To the extent not defined herein, capitalized terms used herein shall have
the meaning ascribed to them in the Agreement. This Certificate is issued under and is subject to
the terms, provisions and conditions of the Agreement, to which Agreement the Holder of this
Certificate by virtue of its acceptance hereof assents and by which such Holder is bound.

[Interest on this Certificate will accrue during the month prior to the month in which a
Distribution Date (as hereinafter defined) occurs on the Current Principal Amount hereof at the
per annum Pass-Through Rate set forth in the Agreement.]
[Interest on this Certificate will accrue during the month prior to the month in which a
Distribution Date (as defined below) occurs on the Notional Amount hereof at a per-annum PassThrough Rate equal to the greater of (i) zero and (ii) the excess of (x) the weighted average of
the Net Rates of the Mortgage Loans in the related Loan Group or Loan Groups (as of the second
preceding Due Date), [weighted in proportion to the results of subtracting from the aggregate
Principal Balance of each Loan Group the aggregate Current Principal Amount of the related
Classes of Senior Certificates (other than the Residual Certificates) immediately prior to the
related Distribution Date,] over (y) the weighted average of the Pass-Through Rates on the
related Classes of Certificates, based on a Notional Amount equal to the aggregate Current
Principal Amount of the related Classes of Certificates and calculated on the basis of a year of
360 days with twelve 30-day months.]

The Paying Agent will distribute on the 25th day of each month, or, if such 25th day is
not a Business Day, the immediately following Business Day (each, a "Distribution Date"),
commencing on the First Distribution Date specified above, to the Person in whose name this
Certificate is registered [at the close of business on the last Business Day of the calendar month
preceding the month] [on the 24th day of the month] of such Distribution Date, an amount equal
to the product of the Fractional Undivided Interest evidenced by this Certificate and the amount
(of interest and principal, if any) required to be distributed to the Holders of Certificates of the
same Class as this Certificate. The Assumed Final Distribution Date is the first Distribution Date
in the month immediately following the month of the latest scheduled maturity date of any
Mortgage Loan and is not likely to be the date on which the [Current Principal] [Notional]
Amount of this Class of Certificates will be reduced to zero.
Distributions on this Certificate will be made by the Paying Agent by check mailed to the
address of the Person entitled thereto as such name and address shall appear on the Certificate
Register or, if such Person so requests, by notifying the Paying Agent in writing as specified in
the Agreement. Notwithstanding the above, the final distribution on this Certificate will be made
after due notice by the Paying Agent of the pendency of such distribution and only upon
A-1-3
conﬁdential

Attachment F - Page 204

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 157 of 230
conﬁdential
A 507

presentation and surrender of this Certificate at the office or agency appointed by the Paying
Agent for that purpose and designated in such notice. The Initial [Current Principal] [Notional]
Amount of this Certificate is set forth above. The Current [Principal] [Notional] Amount hereof
will be reduced to the extent of distributions allocable to principal hereon and any Realized
Losses allocable hereto as set forth in the Agreement.
This Certificate is one of a duly authorized issue of Certificates designated as set forth on
the face hereof (the "Certificates"), issued in twenty-six Classes. The Certificates, in the
aggregate, evidence the entire beneficial ownership interest in the Trust Fund formed pursuant to
the Agreement.
The Certificateholder, by its acceptance of this Certificate, agrees that it will look solely
to the Trust Fund for payment hereunder and that neither the Trustee, the Master Servicer nor the
Certificate Registrar is liable to the Certificateholders for any amount payable under this
Certificate or the Agreement or, except as expressly provided in the Agreement, subject to any
liability under the Agreement.
This Certificate does not purport to summarize the Agreement and reference is made to
the Agreement for the interests, rights and limitations of rights, benefits, obligations and duties
evidenced hereby, and the rights, duties and immunities of the Trustee, the Master Servicer and
the Certificate Registrar.
The Agreement permits, with certain exceptions therein provided, the amendment thereof
and the modification of the rights and obligations of the Depositor and the rights of the
Certificateholders under the Agreement from time to time by the Depositor and the Trustee with
the consent of the Holders of Certificates evidencing Fractional Undivided Interests aggregating
not less than 51% of the Trust Fund (or in certain cases, Holders of Certificates of affected
Classes evidencing such percentage of the Fractional Undivided Interests thereof). Any such
consent by the Holder of this Certificate shall be conclusive and binding on such Holder and
upon all future Holders of this Certificate and of any Certificate issued upon the transfer hereof
or in lieu hereof whether or not notation of such action is made upon this Certificate. The
Agreement also permits the amendment thereof, in certain limited circumstances, without the
consent of the Holders of any of the Certificates.
As provided in the Agreement and subject to certain limitations therein set forth, the
transfer of this Certificate is registrable with the Certificate Registrar upon surrender of this
Certificate for registration of transfer at the offices or agencies maintained by the Certificate
Registrar for such purposes, duly endorsed by, or accompanied by a written instrument of
transfer in form satisfactory to the Certificate Registrar duly executed by the Holder hereof or
such Holder’s attorney duly authorized in writing, and thereupon one or more new Certificates in
authorized denominations representing a like aggregate Fractional Undivided Interest will be
issued to the designated transferee.
The Certificates are issuable only as registered Certificates without coupons in the
Classes and denominations specified in the Agreement. As provided in the Agreement and
subject to certain limitations therein set forth, this Certificate is exchangeable for one or more

A-l-4
conﬁdential

Attachment F - Page 205

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 158 of 230
conﬁdential
A 508

new Certificates evidencing the same Class and in the same aggregate Fractional Undivided
Interest, as requested by the Holder surrendering the same.
No service charge will be made to the Certificateholders for any such registration of
transfer, but the Certificate Registrar may require payment of a sum sufficient to cover any tax or
other governmental charge payable in connection therewith. The Depositor, the Master Servicer,
the Trustee, the Certificate Registrar and any agent of any of them may treat the Person in whose
name this Certificate is registered as the owner hereof for all purposes, and none of Depositor,
the Master Servicer, the Trustee, the Certificate Registrar or any such agent shall be affected by
notice to the contrary.
The obligations created by the Agreement and the Trust Fund created thereby (other than
the obligations to make payments to Certificateholders with respect to the termination of the
Agreement) shall terminate upon (i) the later of the (A) final payment or other liquidation (or
Advance with respect thereto) of the last Mortgage Loan remaining in the Trust Fund and (B)
disposition of all property acquired with respect to any Mortgage Loan, (ii)the payment to
Certificateholders of all amounts required to be paid to them under the Agreement, or (iii) the
optional repurchase by the party named in the Agreement of all the Mortgage Loans and other
assets of the Trust Fund in accordance with the terms of the Agreement. Such optional
repurchase may be made only (A)if (i)the aggregate Scheduled Principal Balance of the
Mortgage Loans at the time of any such repurchase is less than or equal to 10% of the Cut-off
Date Balance, or (ii) the Depositor, based upon an Opinion of Counsel, has determined that the
REMIC status of any REMIC under the Agreement has been lost or a substantial risk exists that
such REMIC status will be lost for the then-current taxable year, and (B) following the
satisfaction of certain additional termination requirements specified in the Agreement. The
exercise of such right will effect the early retirement of the Certificates. In no event, however,
will the Trust Fund created by the Agreement continue beyond the expiration of 21 years after
the death of certain persons identified in the Agreement.
Unless this Certificate has been countersigned by an authorized signatory of the
Certificate Registrar by manual signature, this Certificate shall not be entitled to any benefit
under the Agreement, or be valid for any purpose.
[Signature page follows]

A-1-5
conﬁdential

Attachment F - Page 206

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 159 of 230
conﬁdential
A 509

IN WITNESS WHEREOF, the Trustee has caused this Certificate to be duly executed.
Dated: May 31, 2005

JPMORGAN CHASE BANK, N.A.,
not in its individual capacity but solely as
Trustee
By:

Authorized Signatory

CERTIFICATE OF AUTHENTICATION
This is one of the Class L-A-__] L-X] Certificates referred to in the within-mentioned
Agreement.
WELLS FARGO BANK,
NATIONAL ASSOCIATION, as Certificate
Registrar
By:

A-l-6
conﬁdential

Authorized Signatory

Attachment F - Page 207

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 160 of 230
conﬁdential
A 510

ASSIGNMENT
FOR VALUE RECEIVED, the undersigned hereby sell(s), assign(s) and transfer(s) unto
(Please print or typewrite name and address including
postal zip code of assignee) a Fractional Undivided Interest evidenced by the within Mortgage
Pass-Through Certificate and hereby authorizes the transfer of registration of such interest to
assignee on the Certificate Register of the Trust Fund.

I (We) further direct the Certificate Registrar to issue a new Certificate of a like
denomination and Class, to the above named assignee and deliver such Certificate to the
following address:
Dated:

Signature by or on behalf of assignor

Signature Guaranteed
DISTRIBUTION INSTRUCTIONS
The assignee should include the following for purposes of distribution:
Distributions shall be made, by wire transfer or otherwise, in immediately available funds
for the account of
to
if
mailed
by
check,
to
account
number
.,
or,
Applicable statements should be mailed to

or

This information is provided by
, as its agent.

A-l-7
conﬁdential

, the assignee named above,

Attachment F - Page 208

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 161 of 230
conﬁdential
A 511

EXHIBIT A-2
CLASS [M-__] CERTIFICATE
THIS CERTIFICATE IS SUBORDINATED IN RIGHT OF PAYMENT TO THE
SENIOR CERTIFICATES [AND][,] THE CLASS M-X CERTIFICATES [AND THE
CLASS M- CERTIFICATES] ASDESCRIBED IN THE AGREEMENT (AS
DEFINED HEREIN).
SOLELY FOR U.S. FEDERAL INCOME TAX PURPOSES, THIS CERTIFICATE
IS A "REGULAR INTEREST" IN A "REAL ESTATE MORTGAGE INVESTMENT
CONDUIT," AS THOSE TERMS ARE DEFINED, RESPECTIVELY, IN SECTIONS
860G AND 860D OF THE INTERNAL REVENUE CODE OF 1986, AS AMENDED (THE
"CODE").
THE CURRENT PRINCIPAL AMOUNT OF THIS CERTIFICATE WILL BE
DECREASED BY THE PRINCIPAL PAYMENTS HEREON AND ANY REALIZED
LOSSES ALLOCABLE HERETO. ACCORDINGLY, FOLLOWING THE INITIAL
ISSUANCE OF THE CERTIFICATES, THE CURRENT PRINCIPAL AMOUNT OF
THIS CERTIFICATE WILL BE DIFFERENT FROM THE DENOMINATION SHOWN
BELOW. ANYONE ACQUIRING THIS CERTIFICATE MAY ASCERTAIN ITS
CURRENT PRINCIPAL AMOUNT BY INQUIRY OF WELLS FARGO BANK,
NATIONAL ASSOCIATION, AS CERTIFICATE REGISTRAR (THE "CERTIFICATE
REGISTRAR") WITH RESPECT HERETO.
UNLESS THIS CERTIFICATE IS PRESENTED BY AN AUTHORIZED
REPRESENTATIVE OF THE DEPOSITORY TRUST COMPANY TO THE
CERTIFICATE REGISTRAR OR ITS AGENT FOR REGISTRATION OF TRANSFER,
EXCHANGE OR PAYMENT, AND ANY CERTIFICATE ISSUED IS REGISTERED IN
THE NAME OF CEDE & CO. OR SUCH OTHER NAME AS REQUESTED BY AN
AUTHORIZED REPRESENTATIVE OF THE DEPOSITORY TRUST COMPANY AND
ANY PAYMENT IS MADE TO CEDE & CO., ANY TRANSFER, PLEDGE OR OTHER
USE HEREOF FOR VALUE OR OTHERWISE BY OR TO ANY PERSON IS
WRONGFUL SINCE THE REGISTERED OWNER HEREOF, CEDE & CO., HAS AN
INTEREST HEREIN.
EACH BENEFICIAL OWNER OF THIS CERTIFICATE OR ANY INTEREST
HEREIN SHALL BE DEEMED TO HAVE REPRESENTED, BY VIRTUE OF ITS
ACQUISITION OR HOLDING OF THIS CERTIFICATE OR INTEREST HEREIN,
THAT EITHER (I) IT IS NOT AN EMPLOYEE BENEFIT PLAN SUBJECT TO THE
EMPLOYEE RETIREMENT INCOME SECURITY ACT OF 1974, AS AMENDED OR
SECTION 4975 OF THE INTERNAL REVENUE CODE OF 1986, AS AMENDED
("PLAN"), OR INVESTING WITH ASSETS OF A PLAN OR (ii) IT HAS ACQUIRED
AND IS HOLDING SUCH CERTIFICATE IN RELIANCE ON PROHIBITED
TRANSACTION EXEMPTION 90-30, AS AMENDED FROM TIME TO TIME
("EXEMPTION"), AND THAT IT UNDERSTANDS THAT THERE ARE CERTAIN
CONDITIONS TO THE AVAILABILITY OF THE EXEMPTION, INCLUDING THAT
A-2-1
conﬁdential

Attachment F - Page 209

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 162 of 230
conﬁdential
A 512

THE CERTIFICATE MUST BE RATED, AT THE TIME OF PURCHASE, NOT
LOWER THAN "BBB-" (OR ITS EQUIVALENT) BY STANDARD & Poor’s, FITCH,
INC. OR MOODY’S INVESTORS SERVICE, INC., AND THE CERTIFICATE IS SO
RATED OR (III) (1) IT IS AN INSURANCE COMPANY, (2) THE SOURCE OF FUNDS
USED TO ACQUIRE OR HOLD THE CERTIFICATE OR INTEREST HEREIN IS AN
"INSURANCE COMPANY GENERAL ACCOUNT", AS SUCH TERM IS DEFINED IN
PROHIBITED TRANSACTION CLASS EXEMPTION ("PTCE") 95-50, AND (3) THE
CONDITIONS IN SECTIONS I AND III OF PTCE 95-60 HAVE BEEN SATISFIED.

A-2-2
conﬁdential

Attachment F - Page 210

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 163 of 230
conﬁdential
A 513

Certificate No.
Pass-Through Rate: Variable

Class [M-__] Subordinate
Date of Pooling and Servicing Agreement andAggregate Initial Current Principal Amount of
Cut-off Date:
this Class of Certificates as of the Cut-off
May 1, 2005
Date:

$
First Distribution Date:
June 27, 2005

Initial Current Principal Amount of this
Certificate as of the Cut-off Date:

Master Servicer:
Wells Fargo Bank, National Association

CUSIP: 86359L

Assumed Final Distribution Date:
May 25, 2045

MORTGAGE PASS-THROUGH CERTIFICATE
SERIES 2005-AR2
evidencing a fractional undivided interest in the distributions
allocable to the Class [M-j Certificates with respect to a Trust
Fund consisting primarily of a pool of one- to four-family
adjustable interest rate negative amortization mortgage loans sold
by STRUCTURED ASSET MORTGAGE INVESTMENTS II
INC.
This Certificate is payable solely from the assets of the Trust Fund, and does not
represent an obligation of or interest in Structured Asset Mortgage Investments II Inc., the
Master Servicer or the Certificate Registrar referred to below or any of their affiliates or any
other person. Neither this Certificate nor the underlying Mortgage Loans are guaranteed or
insured by any governmental entity or by Structured Asset Mortgage Investments II Inc., the
Master Servicer or the Certificate Registrar or any of their affiliates or any other person. None of
Structured Asset Mortgage Investments II Inc., the Master Servicer, the Certificate Registrar or
any of their affiliates will have any obligation with respect to any certificate or other obligation
secured by or payable from payments on the Certificates.
This certifies that Cede & Co. is the registered owner of the Fractional Undivided Interest
evidenced hereby in the beneficial ownership interest of Certificates of the same Class as this
A-2-3
conﬁdential

Attachment F - Page 211

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 164 of 230
conﬁdential
A 514

Certificate in a trust (the "Trust Fund") generally consisting of first lien, adjustable rate negative
amortization mortgage loans secured by one- to four-family residences and individual
condominium units (collectively, the "Mortgage Loans") sold by Structured Asset Mortgage
Investments II Inc. ("SAMI II"). The Mortgage Loans were sold on the Closing Date by EMC
Mortgage Corporation ("EMC") to SAMI II. Wells Fargo Bank, National Association ("Wells
Fargo") will act as master servicer of the Mortgage Loans (the "Master Servicer," which term
includes any successors thereto under the Agreement referred to below). The Trust Fund was
created pursuant to the Pooling and Servicing Agreement, dated as of the Cut-off Date specified
above (the "Agreement"), among SAMI II, as depositor (the "Depositor"), EMC Mortgage
Corporation, Wells Fargo, as Master Servicer and securities administrator and JPMorgan Chase
Bank, N.A., as trustee (the "Trustee"), a summary of certain of the pertinent provisions of which
is set forth hereafter. To the extent not defined herein, capitalized terms used herein shall have
the meaning ascribed to them in the Agreement. This Certificate is issued under and is subject to
the terms, provisions and conditions of the Agreement, to which Agreement the Holder of this
Certificate by virtue of its acceptance hereof assents and by which such Holder is bound.
Interest on this Certificate will accrue during the month prior to the month in which a
Distribution Date (as hereinafter defined) occurs on the Current Principal Amount hereof at a per
annum Pass-Through Rate set forth in the Agreement.

The Paying Agent will distribute on the 25th day of each month, or, if such 25th day is
not a Business Day, the immediately following Business Day (each, a "Distribution Date"),
commencing on the First Distribution Date specified above, to the Person in whose name this
Certificate is registered on the 24th day of the month of such Distribution Date, an amount equal
to the product of the Fractional Undivided Interest evidenced by this Certificate and the amount
(of interest and principal, if any) required to be distributed to the Holders of Certificates of the
same Class as this Certificate. The Assumed Final Distribution Date is the first Distribution Date
in the month immediately following the month of the latest scheduled maturity date of any
Mortgage Loan and is not likely to be the date on which the Current Principal Amount of this
Class of Certificates will be reduced to zero.
Distributions on this Certificate will be made by the Paying Agent by check mailed to the
address of the Person entitled thereto as such name and address shall appear on the Certificate
Register or, if such Person so requests, by notifying the Paying Agent in writing as specified in
the Agreement. Notwithstanding the above, the final distribution on this Certificate will be made
after due notice by the Paying Agent of the pendency of such distribution and only upon
presentation and surrender of this Certificate at the office or agency appointed by the Paying
Agent for that purpose and designated in such notice. The Initial Current Principal Amount of
this Certificate is set forth above. The Current Principal Amount hereof will be reduced to the
extent of distributions allocable to principal hereon and any Realized Losses allocable hereto.

This Certificate is one of a duly authorized issue of Certificates designated as set forth on
the face hereof (the "Certificates"), issued in twenty-six Classes. The Certificates, in the
aggregate, evidence the entire beneficial ownership interest in the Trust Fund formed pursuant to
the Agreement.

A-2-4
conﬁdential

Attachment F - Page 212

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 165 of 230
conﬁdential
A 515

The Certificateholder, by its acceptance of this Certificate, agrees that it will look solely
to the Trust Fund for payment hereunder and that neither the Trustee nor the Certificate Registrar
is liable to the Certificateholders for any amount payable under this Certificate or the Agreement
or, except as expressly provided in the Agreement, subject to any liability under the Agreement.
This Certificate does not purport to summarize the Agreement and reference is made to
the Agreement for the interests, rights and limitations of rights, benefits, obligations and duties
evidenced hereby, and the rights, duties and immunities of the Trustee and the Certificate
Registrar.
The Agreement permits, with certain exceptions therein provided, the amendment thereof
and the modification of the rights and obligations of the Depositor and the rights of the
Certificateholders under the Agreement from time to time by the Depositor and the Trustee with
the consent of the Holders of Certificates evidencing Fractional Undivided Interests aggregating
not less than 51% of the Trust Fund (or in certain cases, Holders of Certificates of affected
Classes evidencing such percentage of the Fractional Undivided Interests thereof). Any such
consent by the Holder of this Certificate shall be conclusive and binding on such Holder and
upon all future Holders of this Certificate and of any Certificate issued upon the transfer hereof
or in lieu hereof, whether or not notation of such consent is made upon this Certificate. The
Agreement also permits the amendment thereof, in certain limited circumstances, without the
consent of the Holders of any of the Certificates.
As provided in the Agreement and subject to certain limitations therein set forth, the
transfer of this Certificate is registrable with the Certificate Registrar upon surrender of this
Certificate for registration of transfer at the offices or agencies maintained by the Certificate
Registrar for such purposes, duly endorsed by, or accompanied by a written instrument of
transfer in form satisfactory to the Certificate Registrar duly executed by the Holder hereof or
such Holder’s attorney duly authorized in writing, and thereupon one or more new Certificates in
authorized denominations representing a like aggregate Fractional Undivided Interest will be
issued to the designated transferee.
The Certificates are issuable only as registered Certificates without coupons in the
Classes and denominations specified in the Agreement. As provided in the Agreement and
subject to certain limitations therein set forth, this Certificate is exchangeable for one or more
new Certificates evidencing the same Class and in the same aggregate Fractional Undivided
Interest, as requested by the Holder surrendering the same.
No service charge will be made to the Certificateholders for any such registration of
transfer, but the Certificate Registrar may require payment of a sum sufficient to cover any tax or
other governmental charge payable in connection therewith. The Depositor, the Master Servicer,
the Trustee, the Certificate Registrar and any agent of any of them may treat the Person in whose
name this Certificate is registered as the owner hereof for all purposes, and none of the
Depositor, the Master Servicer, the Trustee, the Certificate Registrar or any such agent shall be
affected by notice to the contrary.
The obligations created by the Agreement and the Trust Fund created thereby (other than
the obligations to make payments to Certificateholders with respect to the termination of the
A-2-5
conﬁdential

Attachment F - Page 213

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 166 of 230
conﬁdential
A 516

Agreement) shall terminate upon (i) the later of the (A) final payment or other liquidation (or
Advance with respect thereto) of the last Mortgage Loan remaining in the Trust Fund and (B)
disposition of all property acquired with respect to any Mortgage Loan, (ii) the payment to
Certificateholders of all amounts required to be paid to them under the Agreement, or (iii) the
optional repurchase by the party named in the Agreement of all the Mortgage Loans and other
assets of the Trust Fund in accordance with the terms of the Agreement. Such optional
repurchase may be made only (A) if (i) the aggregate Scheduled Principal Balance of the
Mortgage Loans at the time of any such repurchase is less than or equal to 10% of the Cut-off
Date Balance, or (ii) the Depositor, based upon an Opinion of Counsel, has determined that the
REMIC status of any REMIC under the Agreement has been lost or a substantial risk exists that
such REMIC status will be lost for the then-current taxable year, and (B) following the
satisfaction of certain additional termination requirements specified in the Agreement. The
exercise of such right will effect the early retirement of the Certificates. In no event, however,
will the Trust Fund created by the Agreement continue beyond the expiration of 21 years after
the death of certain persons identified in the Agreement.
Unless this Certificate has been countersigned by an authorized signatory of the
Certificate Registrar by manual signature, this Certificate shall not be entitled to any benefit
under the Agreement, or be valid for any purpose.
[Signature page follows]

A-2-6
conﬁdential

Attachment F - Page 214

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 167 of 230
conﬁdential
A 517

IN WITNESS WHEREOF, the Trustee has caused this Certificate to be duly executed.
Dated: May 31, 2005
JPMORGAN CHASE BANK, N.A., not in
its individual capacity but solely as Trustee
By:

Authorized Signatory

CERTIFICATE OF AUTHENTICATION

This is one of the Class [M-j Certificates referred to in the within-mentioned
Agreement.
WELLS FARGO BANK,
NATIONAL ASSOCIATION, as Certificate
Registrar
By:

A-2-7
conﬁdential

Authorized Signatory

Attachment F - Page 215

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 168 of 230
conﬁdential
A 518

ASSIGNMENT
FOR VALUE RECEIVED, the undersigned hereby sell(s), assign(s) and transfer(s) unto
(Please print or typewrite name and address including
postal zip code of assignee) a Fractional Undivided Interest evidenced by the within Mortgage
Pass-Through Certificate and hereby authorizes the transfer of registration of such interest to
assignee on the Certificate Register of the Trust Fund.
I (We) further direct the Certificate Registrar to issue a new Certificate of a like
denomination and Class, to the above named assignee and deliver such Certificate to the
following address:
Dated:
Signature by or on behalf of assignor

Signature Guaranteed

DISTRIBUTION INSTRUCTIONS
The assignee should include the following for purposes of distribution:

Distributions shall be made, by wire transfer or otherwise, in immediately available funds
for the account of
to
by
check,
to
number
,
or,
if mailed
account
Applicable statements should be mailed to
This information is provided by
, as its agent.

., the assignee named above, or

A-2-8
conﬁdential

Attachment F - Page 216

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 169 of 230
conﬁdential
A 519
EXHIBIT A-3

CLASS B- CERTIFICATE
THIS CERTIFICATE IS SUBORDINATED IN RIGHT OF PAYMENT TO THE
M-1
SENIOR CERTIFICATES, THE CLASS
M-X CERTIFICATES, THE CLASS
CERTIFICATES, THE CLASS M-2CERTIFICATES, THE CLASSM-3
CERTIFICATES, THE CLASS M-4CERTIFICATES, THE CLASSM-5
CERTIFICATES, THE CLASS M-6 CERTIFICATES AND THE M-7 CERTIFICATES
[AND THE CLASS B-_ CERTIFICATES] AS DESCRIBED IN THE AGREEMENT (AS
DEFINED HEREIN).
SOLELY FOR U.S. FEDERAL INCOME TAX PURPOSES, THIS CERTIFICATE
IS A "REGULAR INTEREST" IN A "REAL ESTATE MORTGAGE INVESTMENT
CONDUIT," AS THOSE TERMS ARE DEFINED, RESPECTIVELY, IN SECTIONS
860G AND 860D OF THE INTERNAL REVENUE CODE OF 1986, AS AMENDED (THE
"CODE").
THE CURRENT PRINCIPAL AMOUNT OF THIS CERTIFICATE WILL BE
DECREASED BY THE PRINCIPAL PAYMENTS HEREON AND ANY REALIZED
LOSSES ALLOCABLE HERETO. ACCORDINGLY, FOLLOWING THE INITIAL
ISSUANCE OF THE CERTIFICATES, THE CURRENT PRINCIPAL AMOUNT OF
THIS CERTIFICATE WILL BE DIFFERENT FROM THE DENOMINATION SHOWN
BELOW. ANYONE ACQUIRING THIS CERTIFICATE MAY ASCERTAIN ITS
CURRENT PRINCIPAL AMOUNT BY INQUIRY OF WELLS FARGO BANK,
NATIONAL ASSOCIATION, AS CERTIFICATE REGISTRAR (THE "CERTIFICATE
REGISTRAR") WITH RESPECT HERETO.

[For Class B-l, Class B-2 And Class B-3 Certificates] [UNLESS THIS
CERTIFICATE IS PRESENTED BY AN AUTHORIZED REPRESENTATIVE OF THE
DEPOSITORY TRUST COMPANY TO THE CERTIFICATE REGISTRAR OR ITS
AGENT FOR REGISTRATION OF TRANSFER, EXCHANGE OR PAYMENT, AND
ANY CERTIFICATE ISSUED IS REGISTERED IN THE NAME OF CEDE & CO. OR
SUCH OTHER NAME AS REQUESTED BY AN AUTHORIZED REPRESENTATIVE
OF THE DEPOSITORY TRUST COMPANY AND ANY PAYMENT IS MADE TO
CEDE & CO., ANY TRANSFER, PLEDGE OR OTHER USE HEREOF FOR VALUE OR
OTHERWISE BY OR TO ANY PERSON IS WRONGFUL SINCE THE REGISTERED
OWNER HEREOF, CEDE & CO., HAS AN INTEREST HEREIN.]
[For Class B-l, Class B-2 And Class B-3 Certificates] [EACH BENEFICIAL
OWNER OF THIS CERTIFICATE OR ANY INTEREST HEREIN SHALL BE DEEMED
TO HAVE REPRESENTED, BY VIRTUE OF ITS ACQUISITION OR HOLDING OF
THIS CERTIFICATE OR INTEREST HEREIN, THAT EITHER (I) IT IS NOT AN
EMPLOYEE BENEFIT PLAN SUBJECT TO THE EMPLOYEE RETIREMENT
INCOME SECURITY ACT OF 1974, AS AMENDED OR SECTION 4975 OF THE
INTERNAL REVENUE CODE OF 1986, AS AMENDED ("PLAN"), OR INVESTING
WITH ASSETS OF A PLAN OR (II) IT HAS ACQUIRED AND IS HOLDING SUCH
A-3-1
conﬁdential

Attachment F - Page 217

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 170 of 230
conﬁdential
A 520

CERTIFICATE IN RELIANCE ON PROHIBITED TRANSACTION EXEMPTION 9030, AS AMENDED FROM TIME TO TIME ("EXEMPTION"), AND THAT IT
UNDERSTANDS THAT THERE ARE CERTAIN CONDITIONS TO THE
AVAILABILITY OF THE EXEMPTION, INCLUDING THAT THE CERTIFICATE
MUST BE RATED, AT THE TIME OF PURCHASE, NOT LOWER THAN "BBB-" (OR
ITS EQUIVALENT) BY STANDARD & POOR’S, FITCH, INC. OR MOODY’S
INVESTORS SERVICE, INC., AND THE CERTIFICATE IS SO RATED OR (III) (1) IT
IS AN INSURANCE COMPANY, (2) THE SOURCE OF FUNDS USED TO ACQUIRE
OR HOLD THE CERTIFICATE OR INTEREST HEREIN IS AN "INSURANCE
COMPANY GENERAL ACCOUNT", AS SUCH TERM IS DEFINED IN PROHIBITED
TRANSACTION CLASS EXEMPTION ("PTCE") 95-60, AND (3) THE CONDITIONS IN
SECTIONS I AND III OF PTCE 95-60 HAVE BEEN SATISFIED.]
[For Class B-4, Class B-5 And Class B-6 Certificates] [THIS CERTIFICATE HAS
NOT BEEN AND WILL NOT BE REGISTERED UNDER THE SECURITIES ACT OF
1933, AS AMENDED (THE "SECURITIES ACT"), OR UNDER ANY STATE
SECURITIES LAWS. THE HOLDER HEREOF, BY PURCHASING THIS
CERTIFICATE, AGREES THAT THIS CERTIFICATE MAY BE REOFFERED,
RESOLD, PLEDGED OR OTHERWISE TRANSFERRED ONLY IN COMPLIANCE
WITH THE SECURITIES ACT AND OTHER APPLICABLE LAWS AND ONLY (1)
PURSUANT TO RULE 144A UNDER THE SECURITIES ACT ("RULE 144A") TO A
PERSON THAT THE HOLDER REASONABLY BELIEVES IS A QUALIFIED
INSTITUTIONAL BUYER WITHIN THE MEANING OF RULE 144A (A "QIB"),
PURCHASING FOR ITS OWN ACCOUNT OR A QIB PURCHASING FOR THE
ACCOUNT OF A QIB, WHOM THE HOLDER HAS INFORMED, IN EACH CASE,
THAT THE REOFFER, RESALE, PLEDGE OR OTHER TRANSFER IS BEING MADE
IN RELIANCE ON RULE 144A, (2) PURSUANT TO AN EXEMPTION FROM
REGISTRATION PROVIDED BY RULE 144 UNDER THE SECURITIES ACT (IF
AVAILABLE) OR (3) IN CERTIFICATED FORM TO AN "INSTITUTIONAL
ACCREDITED INVESTOR" WITHIN THE MEANING THEREOF IN RULE 501(a)(1),
(2), (3) or (7) OF REGULATION D UNDER THE SECURITIES ACT OR ANY ENTITY
IN WHICH ALL OF THE EQUITY OWNERS COME WITHIN SUCH PARAGRAPHS
PURCHASING NOT FOR DISTRIBUTION IN VIOLATION OF THE SECURITIES
ACT, SUBJECT TO (A) THE RECEIPT BY THE TRUSTEE AND THE CERTIFICATE
REGISTRAR OF A LETTER SUBSTANTIALLY IN THE FORM PROVIDED IN THE
AGREEMENT AND (B) THE RECEIPT BY THE TRUSTEE AND THE CERTIFICATE
REGISTRAR OF SUCH OTHER EVIDENCE ACCEPTABLE TO THE TRUSTEE AND
THE CERTIFICATE REGISTRAR THAT SUCH REOFFER, RESALE, PLEDGE OR
TRANSFER IS IN COMPLIANCE WITH THE SECURITIES ACT AND OTHER
APPLICABLE LAWS OR IN EACH CASE IN ACCORDANCE WITH ALL
APPLICABLE SECURITIES LAWS OF THE UNITED STATES AND ANY OTHER
APPLICABLE JURISDICTION.]
[For Class B-4, Class B-5 And Class B-6 Certificates] [THIS CERTIFICATE MAY
NOT BE ACQUIRED DIRECTLY OR INDIRECTLY BY, OR ON BEHALF OF, AN
EMPLOYEE BENEFIT PLAN OR OTHER RETIREMENT ARRANGEMENT WHICH
IS SUBJECT TO TITLE I OF THE EMPLOYEE RETIREMENT INCOME SECURITY
A-3-2
conﬁdential

Attachment F - Page 218

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 171 of 230
conﬁdential
A 521

ACT OF 1974, AS AMENDED, OR SECTION 4975 OF THE INTERNAL REVENUE
CODE OF 1986, AS AMENDED, UNLESS THE TRANSFEREE CERTIFIES OR
REPRESENTS THAT THE PROPOSED TRANSFER AND HOLDING OF A
CERTIFICATE AND THE SERVICING, MANAGEMENT AND OPERATION OF THE
TRUST AND ITS ASSETS: (I) WILL NOT RESULT IN ANY PROHIBITED
TRANSACTION WHICH IS NOT COVERED UNDER AN INDIVIDUAL OR CLASS
PROHIBITED TRANSACTION EXEMPTION, INCLUDING, BUT NOT LIMITED TO,
PROHIBITED TRANSACTION CLASS EXEMPTION ("PTCE") 84-14, PTCE 91-38,
PTCE 90-1, PTCE 95-60 OR PTCE 96-23 AND (II) WILL NOT GIVE RISE TO ANY
ADDITIONAL OBLIGATIONS ON THE PART OF THE DEPOSITOR, THE
SECURITIES ADMINISTRATOR, THE MASTER SERVICER, THE CERTIFICATE
REGISTRAR, ANY SERVICER OR THE TRUSTEE, WHICH WILL BE DEEMED
REPRESENTED BY AN OWNER OF A BOOK-ENTRY CERTIFICATE OR A
GLOBAL CERTIFICATE, OR UNLESS THE OPINION SPECIFIED IN SECTION 5.07
OF THE AGREEMENT IS PROVIDED.]

A-3-3
conﬁdential

Attachment F - Page 219

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 172 of 230
conﬁdential
A 522

Pass-Through Rate: Variable

Class B- Subordinate
Date of Pooling and Servicing Agreement andAggregate Initial Current Principal Amount of
Cut-off Date:
this Class of Certificates as of the Cut-off
May 1, 2005
Date:

$

First Distribution Date:
June 27, 2005

Initial Current Principal Amount of this
Certificate as of the Cut-off Date:
$

Master Servicer:
Wells Fargo Bank, National Association

CUSIP: 86359L

Assumed Final Distribution Date:
May 25, 2045

MORTGAGE PASS-THROUGH CERTIFICATE
SERIES 2005-AR2
evidencing a fractional undivided interest in the distributions
allocable to the Class B- Certificates with respect to a Trust
Fund consisting primarily of a pool of one- to four-family
adjustable interest rate negative amortization mortgage loans sold
by STRUCTURED ASSET MORTGAGE INVESTMENTS II
INC.
This Certificate is payable solely from the assets of the Trust Fund, and does not
represent an obligation of or interest in Structured Asset Mortgage Investments II Inc., the
Master Servicer, the Certificate Registrar or the Trustee referred to below or any of their
affiliates or any other person. Neither this Certificate nor the underlying Mortgage Loans are
guaranteed or insured by any governmental entity or by Structured Asset Mortgage Investments
II Inc., the Master Servicer, the Certificate Registrar or the Trustee or any of their affiliates or
any other person. None of Structured Asset Mortgage Investments II Inc., the Master Servicer or
any of their affiliates will have any obligation with respect to any certificate or other obligation
secured by or payable from payments on the Certificates.
This certifies that [Cede & Co.] [Bear, Steams Securities Corp.] is the registered owner
of the Fractional Undivided Interest evidenced hereby in the beneficial ownership interest of
Certificates of the same Class as this Certificate in a trust (the "Trust Fund") generally consisting
A-3-4
conﬁdential

Attachment F - Page 220

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 173 of 230
conﬁdential
A 523
of first lien, adjustable rate negative amortization mortgage loans secured by one- to four-family
residences and individual condominium units (collectively, the "Mortgage Loans") sold by
Structured Asset Mortgage Investments II Inc. ("SAMI II"). The Mortgage Loans were sold on
the Closing Date by EMC Mortgage Corporation ("EMC") to SAMI II. Wells Fargo Bank,
National Association ("Wells Fargo") will act as master servicer of the Mortgage Loans (the
"Master Servicer," which term includes any successors thereto under the Agreement referred to
below). The Trust Fund was created pursuant to the Pooling and Servicing Agreement, dated as
of the Cut-off Date specified above (the "Agreement"), among SAMI II, as depositor (the
"Depositor"), EMC Mortgage Corporation, Wells Fargo, as Master Servicer and securities
administrator and JPMorgan Chase Bank, N.A., as trustee (the "Trustee"), a summary of certain
of the pertinent provisions of which is set forth hereafter. To the extent not defined herein,
capitalized terms used herein shall have the meaning ascribed to them in the Agreement. This
Certificate is issued under and is subject to the terms, provisions and conditions of the
Agreement, to which Agreement the Holder of this Certificate by virtue of its acceptance hereof
assents and by which such Holder is bound.
Interest on this Certificate will accrue during the month prior to the month in which a
Distribution Date (as hereinafter defined) occurs on the Current Principal Amount hereof at the
per annum Pass-Through Rate set forth in the Agreement. The Paying Agent will distribute on
the 25th day of each month, or, if such 25th day is not a Business Day, the immediately
following Business Day (each, a "Distribution Date"), commencing on the First Distribution
Date specified above, to the Person in whose name this Certificate is registered [on the last
Business Day of the month next preceding] [on the 24th day of] the month of such Distribution
Date, an amount equal to the product of the Fractional Undivided Interest evidenced by this
Certificate and the amount (of interest and principal, if any) required to be distributed to the
Holders of Certificates of the same Class as this Certificate. The Assumed Final Distribution
Date is the first Distribution Date in the month immediately following the month of the latest
scheduled maturity date of any Mortgage Loan and is not likely to be the date on which the
Current Principal Amount of this Class of Certificates will be reduced to zero.
Distributions on this Certificate will be made by the Paying Agent by check mailed to the
address of the Person entitled thereto as such name and address shall appear on the Certificate
Register or, if such Person so requests, by notifying the Paying Agent in writing as specified in
the Agreement. Notwithstanding the above, the final distribution on this Certificate will be made
after due notice by the Paying Agent of the pendency of such distribution and only upon
presentation and surrender of this Certificate at the office or agency appointed by the Paying
Agent for that purpose and designated in such notice. The Initial Current Principal Amount of
this Certificate is set forth above. The Current Principal Amount hereof will be reduced to the
extent of distributions allocable to principal hereon and any Realized Losses allocable hereto.
[For Class B-l, Class B-2 and Class B-3 Certificates] [Each beneficial owner of this
Certificate or any interest herein shall be deemed to have represented, by virtue of its acquisition
or holding of this certificate or interest herein, that either (i) it is not an employee benefit plan
subject to the Employee Retirement Income Security Act of 1974, as amended or section 4975 of
the Internal Revenue Code of 1986, as amended ("Plan"), or investing with assets of a Plan or
(ii) it has acquired and is holding such certificate in reliance on Prohibited Transaction
Exemption 90-30, as amended from time to time ("Exemption"), and that it understands that
A-3-5
conﬁdential

Attachment F - Page 221

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 174 of 230
conﬁdential
A 524

there are certain conditions to the availability of the Exemption, including that the certificate
must be rated, at the time of purchase, not lower than "BBB-" (or its equivalent) by Standard &
Poor’s, Fitch, Inc. or Moody’s Investors Service, Inc., and the certificate is so rated or (iii) (1) it
is an insurance company, (2) the source of funds used to acquire or hold the certificate or interest
therein is an "insurance company general account", as such term is defined in Prohibited
Transaction Class Exemption ("PTCE") 95-60, and (3) the conditions in Sections I and III of
PTCE 95-60 have been satisfied.]
[For Class B-4, Class B-5 and Class B-6 Certificates] [No transfer of this Certificate shall
be made unless the transfer is made pursuant to an effective registration statement under the
Securities Act of 1933, as amended (the "Securities Act"), and an effective registration or
qualification under applicable state securities laws, or is made in a transaction that does not
require such registration or qualification, and is made in accordance with Section 5.02 of the
Agreement. In the event that such transfer is to be made the Certificate Registrar shall register
such transfer if: (i) made to a transferee who has provided the Certificate Registrar and the
Trustee with evidence as to its QIB status; or (ii) (A) the transferor has advised the Trustee and
the Certificate Registrar in writing that the Certificate is being transferred to an Institutional
Accredited Investor and (B) prior to such transfer the transferee furnishes to the Trustee and the
Certificate Registrar an Investment Letter; or (iii) based upon an Opinion of Counsel to the effect
that (A) and (B) above are met sufficient to confirm that such transfer is being made pursuant to
an exemption from, or in a transaction not subject to, the registration requirements of the
Securities Act and other applicable laws.]
Neither the Depositor nor the Certificate Registrar nor the Trustee is obligated to register
or qualify the Class of Certificates specified on the face hereof under the Securities Act or any
other securities law or to take any action not otherwise required under the Agreement to permit
the transfer of such Certificates without registration or qualification. Any Holder desiring to
effect a transfer of this Certificate shall be required to indemnify the Trustee, the Certificate
Registrar, the Securities Administrator, the Depositor, EMC and the Master Servicer against any
liability that may result if the transfer is not so exempt or is not made in accordance with such
federal and state laws.
[For Class B-4, Class B-5 and Class B-6 Certificates] [This Certificate may not be
acquired directly or indirectly by, or on behalf of, an employee benefit plan or other retirement
arrangement which is subject to Title I of the Employee Retirement Income Security Act of
1974, as amended, or Section 4975 of the Internal Revenue Code of 1986, as amended, unless
the transferee certifies or represents that the proposed transfer and holding of this Certificate and
the servicing, management and operation of the Trust and its assets: (i) will not result in any
prohibited transaction under Section 406 of ERISA or Section 4975 of the Code which is not
covered under an individual or class prohibited transaction exemption, including, but not limited
to Department of Labor Prohibited Transaction Class Exemption ("PTCE") 84-14 (Class
Exemption for Plan Asset Transactions Determined by Independent Qualified Professional Asset
Managers); PTCE 91-38 (Class Exemption for Certain Transactions Involving Bank Collective
Investment Funds); PTCE 90-1 (Class Exemption for Certain Transactions Involving Insurance
Company Pooled Separate Accounts); PTCE 95-60 (Class Exemption for Certain Transactions
Involving Insurance Company General Accounts); and PTCE 96-23 (Class Exemption for Plan
Asset Transactions Determined by In-House Asset Managers), or Section 401(c) of ERISA and
A-3-6
conﬁdential

Attachment F - Page 222

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 175 of 230
conﬁdential
A 525

the regulations promulgated thereunder; (ii) will not constitute or result in the assets of the Trust
being deemed to be "plan assets" subject to the prohibited transaction provisions of ERISA or
Section 4975 of the Code; and (iii) will not give rise to any additional obligations on the part of
the Depositor, the Securities Administrator, any Servicer, the Master Servicer, the Certificate
Registrar or the Trustee in addition to those undertaken in the Agreement, which will be deemed
represented by an owner of a Book-Entry Certificate or a Global Certificate, or unless the
opinion specified in Section 5.07 of the Agreement is provided.]
This Certificate is one of a duly authorized issue of Certificates designated as set forth on
the face hereof (the "Certificates"), issued in twenty-six Classes. The Certificates, in the
aggregate, evidence the entire beneficial ownership interest in the Trust Fund formed pursuant to
the Agreement.

The Certificateholder, by its acceptance of this Certificate, agrees that it will look solely
to the Trust Fund for payment hereunder and that neither the Trustee nor the Certificate Registrar
is liable to the Certificateholders for any amount payable under this Certificate or the Agreement
or, except as expressly provided in the Agreement, subject to any liability under the Agreement.
This Certificate does not purport to summarize the Agreement and reference is made to
the Agreement for the interests, rights and limitations of rights, benefits, obligations and duties
evidenced hereby, and the rights, duties and immunities of the Trustee and the Certificate
Registrar.

The Agreement permits, with certain exceptions therein provided, the amendment thereof
and the modification of the rights and obligations of the Depositor and the rights of the
Certificateholders under the Agreement from time to time by the Depositor and the Trustee with
the consent of the Holders of Certificates evidencing Fractional Undivided Interests aggregating
not less than 51% of the Trust Fund (or in certain cases, Holders of Certificates of affected
Classes evidencing such percentage of the Fractional Undivided Interests thereof). Any such
consent by the Holder of this Certificate shall be conclusive and binding on such Holder and
upon all future Holders of this Certificate and of any Certificate issued upon the transfer hereof
or in lieu hereof, whether or not notation of such consent is made upon this Certificate. The
Agreement also permits the amendment thereof, in certain limited circumstances, without the
consent of the Holders of any of the Certificates.
As provided in the Agreement and subject to certain limitations therein set forth, the
transfer of this Certificate is registrable with the Certificate Registrar upon surrender of this
Certificate for registration of transfer at the offices or agencies maintained by the Certificate
Registrar for such purposes, duly endorsed by, or accompanied by a written instrument of
transfer in form satisfactory to the Certificate Registrar duly executed by the Holder hereof or
such Holder’s attorney duly authorized in writing, and thereupon one or more new Certificates in
authorized denominations representing a like aggregate Fractional Undivided Interest will be
issued to the designated transferee.
The Certificates are issuable only as registered Certificates without coupons in the
Classes and denominations specified in the Agreement. As provided in the Agreement and
subject to certain limitations therein set forth, this Certificate is exchangeable for one or more
A-3-7
conﬁdential

Attachment F - Page 223

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 176 of 230
conﬁdential
A 526

new Certificates evidencing the same Class and in the same aggregate Fractional Undivided
Interest, as requested by the Holder surrendering the same.
No service charge will be made to the Certificateholders for any such registration of
transfer, but the Certificate Registrar may require payment of a sum sufficient to cover any tax or
other governmental charge payable in connection therewith. The Depositor, the Master Servicer,
the Certificate Registrar, the Trustee and any agent of any of them may treat the Person in whose
name this Certificate is registered as the owner hereof for all purposes, and none of the
Depositor, the Master Servicer, the Certificate Registrar, the Trustee or any such agent shall be
affected by notice to the contrary.
The obligations created by the Agreement and the Trust Fund created thereby (other than
the obligations to make payments to Certificateholders with respect to the termination of the
Agreement) shall terminate upon (i) the later of the (A) final payment or other liquidation (or
Advance with respect thereto) of the last Mortgage Loan remaining in the Trust Fund and (B)
disposition of all property acquired with respect to any Mortgage Loan, (ii) the payment to
Certificateholders of all amounts required to be paid to them under the Agreement, or (iii) the
optional repurchase by the party named in the Agreement of all the Mortgage Loans and other
assets of the Trust Fund in accordance with the terms of the Agreement. Such optional
repurchase may be made only (A) if (i) the aggregate Scheduled Principal Balance of the
Mortgage Loans at the time of any such repurchase is less than or equal to 10% of the Cut-off
Date Balance, or (ii) the Depositor, based upon an Opinion of Counsel, has determined that the
REMIC status of any REMIC under the Agreement has been lost or a substantial risk exists that
such REMIC status will be lost for the then-current taxable year, and (B) following the
satisfaction of certain additional termination requirements specified in the Agreement. The
exercise of such right will effect the early retirement of the Certificates. In no event, however,
will the Trust Fund created by the Agreement continue beyond the expiration of 21 years after
the death of certain persons identified in the Agreement.
Unless this Certificate has been countersigned by an authorized signatory of the
Certificate Registrar by manual signature, this Certificate shall not be entitled to any benefit
under the Agreement, or be valid for any purpose.
[Signature page follows]

A-3-8
conﬁdential

Attachment F - Page 224

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 177 of 230
conﬁdential
A 527

IN WITNESS WHEREOF, the Trustee has caused this Certificate to be duly executed.
Dated: May 31, 2005

JPMORGAN CHASE BANK, N.A., not in
its individual capacity but solely as Trustee
By:

Authorized Signatory

CERTIFICATE OF AUTHENTICATION
This is one of the Class B- Certificates referred to in the within-mentioned Agreement.
WELLS FARGO BANK,
NATIONAL ASSOCIATION, as Certificate
Registrar
By:

A-3-9
conﬁdential

Authorized Signatory

Attachment F - Page 225

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 178 of 230
conﬁdential
A 528

ASSIGNMENT
FOR VALUE RECEIVED, the undersigned hereby sell(s), assign(s) and transfer(s) unto
(Please print or typewrite name and address including
postal zip code of assignee) a Fractional Undivided Interest evidenced by the within Mortgage
Pass-Through Certificate and hereby authorizes the transfer of registration of such interest to
assignee on the Certificate Register of the Trust Fund.
I (We) further direct the Certificate Registrar to issue a new Certificate of a like
denomination and Class, to the above named assignee and deliver such Certificate to the
following address:
Dated:

Signature by or on behalf of assignor

Signature Guaranteed
DISTRIBUTION INSTRUCTIONS
The assignee should include the following for purposes of distribution:

Distributions shall be made, by wire transfer or otherwise, in immediately available funds
for the account of
to
by
check,
to
number
.,
or,
if mailed
account
Applicable statements should be mailed to
, the assignee named above, or

This information is provided by
., as its agent.

A-3-10
conﬁdential

Attachment F - Page 226

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 179 of 230
conﬁdential
A 529
EXHIBIT A-4

CLASS R- CERTIFICATE
THIS CERTIFICATE MAY NOT BE HELD BY OR TRANSFERRED TO A NONUNITED STATES PERSON, A PUBLICLY TRADED PARTNERSHIP OR A
DISQUALIFIED ORGANIZATION (AS DEFINED BELOW).
SOLELY FOR U.S. FEDERAL INCOME TAX PURPOSES, THIS CERTIFICATE
IS A "RESIDUAL INTEREST" IN A "REAL ESTATE MORTGAGE INVESTMENT
CONDUIT" AS THOSE TERMS ARE DEFINED, RESPECTIVELY, IN SECTIONS
860G AND 860D OF THE INTERNAL REVENUE CODE OF 1986, AS AMENDED (THE
"CODE").
THIS CERTIFICATE MAY NOT BE ACQUIRED DIRECTLY OR INDIRECTLY
BY, OR ON BEHALF OF, AN EMPLOYEE BENEFIT PLAN OR OTHER
RETIREMENT ARRANGEMENT WHICH IS SUBJECT TO TITLE I OF THE
EMPLOYEE RETIREMENT INCOME SECURITY ACT OF 1974, AS AMENDED,
AND/OR SECTION 4975 OF THE INTERNAL REVENUE CODE OF 1986, AS
AMENDED, UNLESS THE PROPOSED TRANSFEREE PROVIDES THE
CERTIFICATE REGISTRAR AND THE TRUSTEE WITH AN OPINION OF COUNSEL
ADDRESSED TO THE TRUSTEE, THE DEPOSITOR, THE MASTER SERVICER, THE
CERTIFICATE REGISTRAR AND THE SECURITIES ADMINISTRATOR, AND ON
WHICH THEY MAY RELY, IN A FORM SATISFACTORY TO THE TRUSTEE AND
THE CERTIFICATE REGISTRAR, THAT THE PROPOSED TRANSFER AND
HOLDING OF A CERTIFICATE AND THE SERVICING, MANAGEMENT AND
OPERATION OF THE TRUST AND ITS ASSETS: (I) WILL NOT CONSTITUTE OR
RESULT IN THE ASSETS OF THE TRUST BEING DEEMED TO BE "PLAN ASSETS"
SUBJECT TO THE PROHIBITED TRANSACTION PROVISIONS OF ERISA OR
SECTION 4975 OF THE CODE; (II) WILL NOT RESULT IN A NON-EXEMPT
PROHIBITED TRANSACTION UNDER SECTION 406 OF ERISA OR SECTION 4975
OF THE CODE; (III) IS PERMISSIBLE UNDER APPLICABLE LAW; AND (IV) WILL
NOT SUBJECT THE DEPOSITOR, THE SECURITIES ADMINISTRATOR, THE
MASTER SERVICER, THE CERTIFICATE REGISTRAR, ANY SERVICER OR THE
TRUSTEE TO ANY OBLIGATION IN ADDITION TO THOSE UNDERTAKEN IN THE
AGREEMENT (AS DEFINED HEREIN).
ANY RESALE, TRANSFER OR OTHER DISPOSITION OF THIS
CERTIFICATE MAY BE MADE ONLY IF THE PROPOSED TRANSFEREE OBTAINS
THE PRIOR WRITTEN CONSENT OF STRUCTURED ASSET MORTGAGE
INVESTMENTS II INC. AND THE SECURITIES ADMINISTRATOR AND PROVIDES
A TRANSFER AFFIDAVIT TO THE TAX MATTERS PERSON, THE SELLER, THE
CERTIFICATE REGISTRAR AND THE TRUSTEE THAT (1) SUCH TRANSFEREE IS
NOT (A) THE UNITED STATES (AS DEFINED IN SECTION 7701 OF THE CODE),
ANY STATE (AS DEFINED IN SECTION 7701 OF THE CODE) OR POLITICAL
SUBDIVISION THEREOF, ANY POSSESSION OF THE UNITED STATES, OR ANY
AGENCY OR INSTRUMENTALITY OF ANY OF THE FOREGOING (OTHER THAN
A-4-1
conﬁdential

Attachment F - Page 227

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 180 of 230
conﬁdential
A 530

AN INSTRUMENTALITY WHICH IS A CORPORATION IF ALL OF ITS ACTIVITIES
ARE SUBJECT TO TAX AND, EXCEPT FOR FREDDIE MAC OR ANY SUCCESSOR
THERETO, A MAJORITY OF ITS BOARD OF DIRECTORS IS NOT SELECTED BY
SUCH GOVERNMENTAL UNIT), (B) ANY FOREIGN GOVERNMENT, ANY
INTERNATIONAL ORGANIZATION (AS DEFINED IN SECTION 7701 OF THE
CODE), OR ANY AGENCY OR INSTRUMENTALITY OF ANY OF THE FOREGOING,
(C) ANY ORGANIZATION (OTHER THAN CERTAIN FARMERS’ COOPERATIVES
DESCRIBED IN SECTION 521 OF THE CODE) WHICH IS EXEMPT FROM THE TAX
IMPOSED BY CHAPTER 1 OF THE CODE (INCLUDING THE TAX IMPOSED BY
SECTION 511 OF THE CODE ON UNRELATED BUSINESS TAXABLE INCOME),
(D) ANY ORGANIZATION DESCRIBED IN SECTION 1381(a)(2)(C) OF THE CODE
(ANY SUCH PERSON DESCRIBED IN THE FOREGOING CLAUSES (A), (B), (C) OR
(D) BEING HEREIN REFERRED TO AS A "DISQUALIFIED ORGANIZATION") OR
(E) AN AGENT OF A DISQUALIFIED ORGANIZATION, (2) NO PURPOSE OF SUCH
TRANSFER IS TO IMPEDE THE ASSESSMENT OR COLLECTION OF TAX AND (3)
SUCH
TRANSFEREE
SATISFIES
CERTAIN ADDITIONAL
CONDITIONS
RELATING TO THE FINANCIAL CONDITION OF THE PROPOSED TRANSFEREE.
NOTWITHSTANDING THE REGISTRATION IN THE CERTIFICATE REGISTER OR
ANY TRANSFER, SALE OR OTHER DISPOSITION OF THIS CERTIFICATE TO A
DISQUALIFIED ORGANIZATION OR AN AGENT OF A DISQUALIFIED
ORGANIZATION, SUCH REGISTRATION SHALL BE DEEMED TO BE OF NO
LEGAL FORCE OR EFFECT WHATSOEVER AND SUCH PERSON SHALL NOT BE
DEEMED TO BE A CERTIFICATEHOLDER FOR ANY PURPOSE HEREUNDER,
INCLUDING, BUT NOT LIMITED TO, THE RECEIPT OF DISTRIBUTIONS ON THIS
CERTIFICATE. EACH HOLDER OF THIS CERTIFICATE BY ACCEPTANCE OF
THIS CERTIFICATE SHALL BE DEEMED TO HAVE CONSENTED TO THE
PROVISIONS OF THIS PARAGRAPH.

A-4-2
conﬁdential

Attachment F - Page 228

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 181 of 230
conﬁdential
A 531
Certificate No. 1

Pass-Through Rate: N/A

Class R- Senior
Date of Pooling and Servicing Agreement andAggregate Initial Current Principal Amount of
this Class of Certificates as of the Cut-off
Cut-off Date:
Mayl, 2005
Date: $50.00

First Distribution Date:
June 27, 2005

Initial Current Principal Amount of this
Certificate as of the Cut-off Date: $50.00

Master Servicer:
Wells Fargo Bank, National Association

CUSIP: 86359L

Assumed Final Distribution Date:
May 29, 2045

MORTGAGE PASS-THROUGH CERTIFICATE
SERIES 2005-AR2
evidencing a fractional undivided interest in the distributions
allocable to the Class R- Certificates with respect to a Trust
Fund consisting primarily of a pool of one- to four-family
adjustable interest rate negative amortization mortgage loans sold
by STRUCTURED ASSET MORTGAGE INVESTMENTS II
INC.
This Certificate is payable solely from the assets of the Trust Fund, and does not
represent an obligation of or interest in Structured Asset Mortgage Investments II Inc., the
Master Servicer, the Certificate Registrar or the Trustee referred to below or any of their
affiliates or any other person. Neither this Certificate nor the underlying Mortgage Loans are
guaranteed or insured by any governmental entity or by Structured Asset Mortgage Investments
II Inc., the Master Servicer, the Certificate Registrar or the Trustee or any of their affiliates or
any other person. None of Structured Asset Mortgage Investments II Inc., the Master Servicer or
any of their affiliates will have any obligation with respect to any certificate or other obligation
secured by or payable from payments on the Certificates.
This certifies that Bear, Steams Securities Corp. is the registered owner of the Fractional
Undivided Interest evidenced hereby in the beneficial ownership interest of Certificates of the
same Class as this Certificate in a trust (the "Trust Fund") generally consisting of first lien,
adjustable rate negative amortization mortgage loans secured by one- to four-family residences
and individual condominium units (collectively, the "Mortgage Loans") sold by Structured Asset

A-4-3
conﬁdential

Attachment F - Page 229

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 182 of 230
conﬁdential
A 532

Mortgage Investments II Inc. ("SAMI II"). The Mortgage Loans were sold on the Closing Date
by EMC Mortgage Corporation ("EMC") to SAMI II. Wells Fargo Bank, National Association
("Wells Fargo") will act as master servicer of the Mortgage Loans (the "Master Servicer," which
term includes any successors thereto under the Agreement referred to below). The Trust Fund
was created pursuant to the Pooling and Servicing Agreement, dated as of the Cut-off Date
specified above (the "Agreement"), among SAMI II, as depositor (the "Depositor"), EMC
Mortgage Corporation, Wells Fargo, as Master Servicer and securities administrator and
JPMorgan Chase Bank, N.A., as trustee (the "Trustee"), a summary of certain of the pertinent
provisions of which is set forth hereafter. To the extent not defined herein, capitalized terms used
herein shall have the meaning ascribed to them in the Agreement. This Certificate is issued under
and is subject to the terms, provisions and conditions of the Agreement, to which Agreement the
Holder of this Certificate by virtue of its acceptance hereof assents and by which such Holder is
bound.
No Interest will accrue or be payable on this Certificate. On the First Distribution Date
specified above, the Paying Agent will distribute to the Class R- Certificates $50 from the
Deposit Amount deposited by the Depositor on the Closing Date in the Distribution Account,
thereby reducing the Current Principal Amount of this Class of Certificates to zero.
Distributions on this Certificate will be made by the Paying Agent by check mailed to the
address of the Person entitled thereto as such name and address shall appear on the Certificate
Register or, if such Person so requests, by notifying the Paying Agent in writing as specified in
the Agreement. Notwithstanding the above, the final distribution on this Certificate will be made
after due notice by the Paying Agent of the pendency of such distribution and only upon
presentation and surrender of this Certificate at the office or agency appointed by the Paying
Agent for that purpose and designated in such notice.

Each Holder of this Certificate will be deemed to have agreed to be bound by the
restrictions set forth in the Agreement to the effect that (i) each person holding or acquiring any
ownership interest in this Certificate must be a United States Person and a Permitted Transferee,
(ii) the transfer of any ownership interest in this Certificate will be conditioned upon the delivery
to SAMI II, the Securities Administrator, the Trustee and the Certificate Registrar of, among °
other things, an affidavit to the effect that it is a United States Person and Permitted Transferee,
(iii) any attempted or purported transfer of any ownership interest in this Certificate in violation
of such restrictions will be absolutely null and void and will vest no rights in the purported
transferee, and (iv) if any person other than a person that is a United States Person and a
Permitted Transferee acquires any ownership interest in this Certificate in violation of such
restrictions, then the Depositor will have the right, in its sole discretion and without notice to the
Holder of this Certificate, to sell this Certificate to a purchaser selected by the Depositor, or any
affiliate of the Depositor, on such terms and conditions as the Depositor may impose.
This Certificate may not be acquired directly or indirectly by, or on behalf of, an
employee benefit plan or other retirement arrangement which is subject to title I of the Employee
Retirement Income Security Act of 1974, as amended, and/or Section 4975 of the Internal
Revenue Code of 1986, as amended, unless the proposed transferee provides the Certificate
Registrar and the Trustee with an opinion of counsel addressed to the Trustee, the Certificate
Registrar, the Master Servicer and the Securities Administrator and on which they may rely
A-4-4
conﬁdential

Attachment F - Page 230

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 183 of 230
conﬁdential
A 533

(which shall not be at the expense of the Trustee, the Certificate Registrar, the Master Servicer or
the Securities Administrator) which is acceptable to the Certificate Registrar and the Trustee, that
the purchase of this Certificate will not result in or constitute a nonexempt prohibited transaction,
is permissible under applicable law and will not give rise to any additional fiduciary obligations
on the part of the Depositor, the Master Servicer, the Securities Administrator, the Certificate
Registrar or the Trustee.
This Certificate is one of a duly authorized issue of Certificates designated as set forth on
the face hereof (the "Certificates"), issued in twenty-six Classes. The Certificates, in the
aggregate, evidence the entire beneficial ownership interest in the Trust Fund formed pursuant to
the Agreement.
The Certificateholder, by its acceptance of this Certificate, agrees that it will look solely
to the Trust Fund for payment hereunder and that neither the Trustee nor the Certificate Registrar
is liable to the Certificateholders for any amount payable under this Certificate or the Agreement
or, except as expressly provided in the Agreement, subject to any liability under the Agreement.
This Certificate does not purport to summarize the Agreement and reference is made to
the Agreement for the interests, rights and limitations of rights, benefits, obligations and duties
evidenced hereby, and the rights, duties and immunities of the Trustee and the Certificate
Registrar.
The Agreement permits, with certain exceptions therein provided, the amendment thereof
and the modification of the rights and obligations of the Depositor, the Master Servicer and the
Trustee and the rights of the Certificateholders under the Agreement from time to time by the
Depositor and the Trustee with the consent of the Holders of Certificates evidencing Fractional
Undivided Interests aggregating not less than 51% of the Trust Fund (or in certain cases, Holders
of Certificates of affected Classes evidencing such percentage of the Fractional Undivided
Interests thereof). Any such consent by the Holder of this Certificate shall be conclusive and
binding on such Holder and upon all future Holders of this Certificate and of any Certificate
issued upon the transfer hereof or in lieu hereof whether or not notation of such consent is made
upon this Certificate. The Agreement also permits the amendment thereof, in certain limited
circumstances, without the consent of the Holders of any of the Certificates.
As provided in the Agreement and subject to certain limitations therein set forth, the
transfer of this Certificate is registrable with the Certificate Registrar upon surrender of this
Certificate for registration of transfer at the offices or agencies maintained by the Certificate
Registrar for such purposes, duly endorsed by, or accompanied by a written instrument of
transfer in form satisfactory to the Certificate Registrar duly executed by the Holder hereof or
such Holder’s attorney duly authorized in writing, and thereupon one or more new Certificates in
authorized denominations representing a like aggregate Fractional Undivided Interest will be
issued to the designated transferee.
By accepting this Certificate, the purchaser hereof agrees to be a Tax Matters Person and
appoints the Securities Administrator to act as its agent with respect to all matters concerning the
tax obligations of the Trust.

A-4-5
conﬁdential

Attachment F - Page 231

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 184 of 230
conﬁdential
A 534

The Certificates are issuable only as registered Certificates without coupons in the
Classes and denominations specified in the Agreement. As provided in the Agreement and
subject to certain limitations therein set forth, this Certificate is exchangeable for one or more
new Certificates evidencing the same Class and in the same aggregate Fractional Undivided
Interest, as requested by the Holder surrendering the same.
No service charge will be made to the Certificateholders for any such registration of
transfer, but the Certificate Registrar may require payment of a sum sufficient to cover any tax or
other governmental charge payable in connection therewith. The Depositor, the Master Servicer,
the Certificate Registrar, the Trustee and any agent of any of them may treat the Person in whose
name this Certificate is registered as the owner hereof for all purposes, and none of the
Depositor, the Master Servicer, the Certificate Registrar, the Trustee or any such agent shall be
affected by notice to the contrary.
The obligations created by the Agreement and the Trust Fund created thereby (other than
the obligations to make payments to Certificateholders with respect to the termination of the
Agreement) shall terminate upon (i) the later of the (A) final payment or other liquidation (or
Advance with respect thereto) of the last Mortgage Loan remaining in the Trust Fund and (B)
disposition of all property acquired with respect to any Mortgage Loan, (ii) the payment to
Certificateholders of all amounts required to be paid to them under the Agreement, or (iii) the
optional repurchase by the party named in the Agreement of all the Mortgage Loans and other
assets of the Trust Fund in accordance with the terms of the Agreement. Such optional
repurchase may be made only (A) if (i) the aggregate Scheduled Principal Balance of the
Mortgage Loans at the time of any such repurchase is less than or equal to 10% of the Cut-off
Date Balance, or (ii) the Depositor, based upon an Opinion of Counsel, has determined that the
REMIC status of any REMIC under the Agreement has been lost or a substantial risk exists that
such REMIC status will be lost for the then-current taxable year, and (B) following the
satisfaction of certain additional termination requirements specified in the Agreement. The
exercise of such right will effect the early retirement of the Certificates. In no event, however,
will the Trust Fund created by the Agreement continue beyond the expiration of 21 years after
the death of certain persons identified in the Agreement.
Unless this Certificate has been countersigned by an authorized signatory of the
Certificate Registrar by manual signature, this Certificate shall not be entitled to any benefit
under the Agreement, or be valid for any purpose.
[Signature page follows]

A-4-6
conﬁdential

Attachment F - Page 232

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 185 of 230
conﬁdential
A 535

IN WITNESS WHEREOF, the Trustee has caused this Certificate to be duly executed.
Dated: May 31, 2005

JPMORGAN CHASE BANK, N.A.,
not in its individual capacity but solely as
Trustee
By:

Authorized Signatory

CERTIFICATE OF AUTHENTICATION
This is one of the Class R- Certificates referred to in the within-mentioned Agreement.
WELLS FARGO BANK,
NATIONAL ASSOCIATION, as Certificate
Registrar

By:

A-4-7
conﬁdential

Authorized Signatory

Attachment F - Page 233

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 186 of 230
conﬁdential
A 536

ASSIGNMENT
FOR VALUE RECEIVED, the undersigned hereby sell(s), assign(s) and transfer(s) unto
(Please print or typewrite name and address including
postal zip code of assignee) a Fractional Undivided Interest evidenced by the within Mortgage
Pass-Through Certificate and hereby authorizes the transfer of registration of such interest to
assignee on the Certificate Register of the Trust Fund.
I (We) further direct the Certificate Registrar to issue a new Certificate of a like
denomination and Class, to the above named assignee and deliver such Certificate to the
following address:
Dated:
Signature by or on behalf of assignor
Signature Guaranteed
DISTRIBUTION INSTRUCTIONS

The assignee should include the following for purposes of distribution:
Distributions shall be made, by wire transfer or otherwise, in immediately available funds
for the account of
to
mailed
by
check,
to
account
number
or,
if
Applicable statements should be mailed to
, the assignee named above, or

This information is provided by
, as its agent.

A-4-8
conﬁdential

Attachment F - Page 234

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 187 of 230
conﬁdential
A 537

EXHIBIT B
MORTGAGE LOAN SCHEDULE
[PROVIDED UPON REQUEST]

Attachment F - Page 235
conﬁdential

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 188 of 230
conﬁdential
A 538
EXHIBIT C
[RESERVED]

Attachment F - Page 236
conﬁdential

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 189 of 230
conﬁdential
A 539
EXHIBIT D

REQUEST FOR RELEASE OF DOCUMENTS
JPMorgan Chase Bank, N.A.
4 New York Plaza, 6th Floor
New York, New York 10004
Wells Fargo Bank, National Association
as Custodian
9062 Old Annapolis Road
Columbia, MD 21045
Attn: SAMI II 2005-AR2
RE:

Pooling and Servicing Agreement dated as of
May 1, 2005, among Structured Asset Mortgage Investments II Inc.,
EMC Mortgage Corporation, Wells Fargo
Bank, National Association and
JPMorgan Chase Bank, N.A.
as Trustee

In connection with the administration of the Mortgage Loans (as defined in the
Agreement) held by you pursuant to the above-captioned Pooling and Servicing Agreement (the
"Agreement"), we request the release, and hereby acknowledge receipt, of the Mortgage File (as
defined in the Agreement) for the Mortgage Loan described below, for the reason indicated. The
release of such Mortgage File will not invalidate any insurance coverage provided in respect of
such Mortgage Loan under any of the Insurance Policies (as defined in the Agreement).
Mortgage Loan Number:
Mortgagor Name, Address & Zip Code:
Reason for Requesting Documents (check one):
1.

Mortgage paid in full and proceeds have been deposited into the Custodial
Account

2.

Foreclosure

3.

Substitution

.

Other Liquidation

5.

Nonliquidation

Reason:

6.

California Mortgage Loan paid in full
By:

Attachment F - Page 237
conﬁdential

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 190 of 230
conﬁdential
A 540

(authorized signer)
Issuer:
Address:
Date:

Attachment F - Page 238
conﬁdential

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 191 of 230
conﬁdential
A 541
EXHIBIT E

Form of Affidavit pursuant to Section 860E(e)(4)
Affidavit pursuant to Section
860E(e)(4) of the Internal Revenue
Code of 1986, as amended, and for
other purposes
STATE OF
COUNTY OF
[NAME OF OFFICER], being first duly swom, deposes and says:
1. That he is [Title of Officer] of [Name of Investor] (the "Investor"), a [savings
institution] [corporation] duly organized and existing under the laws of [the State of ] [the
United States], on behalf of which he makes this affidavit.

2. That (i) the Investor is not a "disqualified organization" as defined in Section
860E(e)(5) of the Internal Revenue Code of 1986, as amended (the "Code"), and will not be a
disqualified organization as of [Closing Date] [date of purchase]; (ii) it is not acquiring the
Structured Asset Mortgage Investments II Trust 2005-AR2, Mortgage Pass-Through Certificates,
Series 2005-AR2, Class R-I, Class R-II and Class R-III Certificates (the "Residual Certificates")
for the account of a disqualified organization; (iii) it consents to any amendment of the Pooling
and Servicing Agreement that shall be deemed necessary by Structured Asset Mortgage
Investments II Inc. (upon advice of counsel) to constitute a reasonable arrangement to ensure that
the Residual Certificates will not be owned directly or indirectly by a disqualified organization;
and (iv) it will not transfer such Residual Certificates unless (a) it has received from the
transferee an affidavit in substantially the same form as this affidavit containing these same four
representations and (b) as of the time of the transfer, it does not have actual knowledge that such
affidavit is false.
3. That the Investor is one of the following: (i) a citizen or resident of the United
States, (ii) a corporation or partnership (including an entity treated as a corporation or
partnership for federal income tax purposes) created or organized in, or under the laws of, the
United States or any state thereof or the District of Columbia (except, in the case of a
partnership, to the extent provided in regulations), provided that no partnership or other entity
treated as a partnership for United States federal income tax purposes shall be treated as a United
States Person unless all persons that own an interest in such partnership, either directly or
through any entity that is not a corporation for United States federal income tax purposes, are
United States Persons, (iii) an estate whose income is subject to United States federal income tax
regardless of its source, or (iv) a trust other than a "foreign trust," as defined in Section 7701
(a)(31) of the Code.
4.

That the Investor’s taxpayer identification number is

Attachment F - Page 239
conﬁdential

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 192 of 230
conﬁdential
A 542

5. That no purpose of the acquisition of the Residual Certificates is to avoid or
impede the assessment or collection of tax.
6. That the Investor understands that, as the holder of the Residual Certificates, the
Investor may incur tax liabilities in excess of any cash flows generated by such Residual
Certificates.
7. That the Investor intends to pay taxes associated with holding the Residual
Certificates as they become due.
8.
The Investor is not an employee benefit plan or other plan subject to the
prohibited transaction provisions of the Employee Retirement Income Security Act of 1974, as
amended ("ERISA"), or Section 4975 of the Internal Revenue Code of 1986, as amended (the
"Code"), or an investment manager, named fiduciary or a trustee of any such plan, or any other
Person acting, directly or indirectly, on behalf of or purchasing any Certificate with "plan assets"
of any such plan.

IN WITNESS WHEREOF, the Investor has caused this instrument to be executed on its
behalf, pursuant to authority of its Board of Directors, by its [Title of Officer] this __ day of
,20 .
[NAME OF INVESTOR]
By:.

[Name of Officer]
[Title of Officer]
[Address of Investor for receipt of
distributions]
Address of Investor for receipt of tax
information:

E-2
conﬁdential

Attachment F - Page 240

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 193 of 230
conﬁdential
A 543

Personally appeared before me the above-named [Name of Officer], known or proved to
me to be the same person who executed the foregoing instrument and to be the [Title of Officer]
of the Investor, and acknowledged to me that he executed the same as his free act and deed and
the free act and deed of the Investor.
Subscribed and swom before me this __ day of

,2O

NOTARY PUBLIC
COUNTY OF
STATE OF

My commission expires the __ day of

,20

E-3
conﬁdential

Attachment F - Page 241

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 194 of 230
conﬁdential
A 544

EXHIBIT F-1
FORM OF INVESTMENT LETTER
[Date]
[DEPOSITOR]
JPMorgan Chase Bank, N.A.
4 New York Plaza, 6th Floor
New York, New York 10004
Wells Fargo Bank, National Association
Sixth Street and Marquette Avenue
Minneapolis, Minnesota 55479
Structured Asset Mortgage Investments II Inc.
383 Madison Avenue
New York, New York 10167
Structured Asset Mortgage Investments II Trust 2005-AR2, Mortgage PassThrough Certificates Series 2005-AR2 (the "Certificates"), including the [Class
B-4, Class B-5, Class B-6] Certificates (the "Privately Offered Certificates")
Dear Ladies and Gentlemen:
In connection with our purchase of Privately Offered Certificates, we confirm that:

(i) we understand that the Privately Offered Certificates are not being registered
under the Securities Act of 1933, as amended (the "Act"), or any applicable state securities or
"Blue Sky" laws, and are being sold to us in a transaction that is exempt from the registration
requirements of such laws;
(ii) any information we desired concerning the Certificates, including the Privately
Offered Certificates, the trust in which the Certificates represent the entire beneficial ownership
interest (the "Trust") or any other matter we deemed relevant to our decision to purchase
Privately Offered Certificates has been made available to us;
(iii) we are able to bear the economic risk of investment in Privately Offered
Certificates; we are an institutional "accredited investor" as defined in Section 501(a) of
Regulation D promulgated under the Act and a sophisticated institutional investor;
(iv) we are acquiring Privately Offered Certificates for our own account, not as
nominee for any other person, and not with a present view to any distribution or other disposition
of the Privately Offered Certificates;

Attachment F - Page 242
conﬁdential

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 195 of 230
conﬁdential
A 545

(v) we agree the Privately Offered Certificates must be held indefinitely by us (and
may not be sold, pledged, hypothecated or in any way disposed of) unless subsequently
registered under the Act and any applicable state securities or "Blue Sky" laws or an exemption
from the registration requirements of the Act and any applicable state securities or "Blue Sky"
laws is available;
(vi) we agree that in the event that at some future time we wish to dispose of or
exchange any of the Privately Offered Certificates (such disposition or exchange not being
currently foreseen or contemplated), we will not transfer or exchange any of the Privately
Offered Certificates unless:
(A) (1) the sale is to an Eligible Purchaser (as defined below), (2) if required by the
Pooling and Servicing Agreement (as defined below), a letter to substantially the same effect as
either this letter or, if the Eligible Purchaser is a Qualified Institutional Buyer as defined under
Rule 144A of the Act, the Rule 144A and Related Matters Certificate in the form attached as
Exhibit F-2 to the Pooling and Servicing Agreement (as defined below) (or such other
documentation as may be acceptable to the Trustee and the Certificate Registrar (each such term
as defined below)) is executed promptly by the purchaser and delivered to the addressees hereof
and (3) all offers or solicitations in connection with the sale, whether directly or through any
agent acting on our behalf, are limited only to Eligible Purchasers and are not made by means of
any form of general solicitation or general advertising whatsoever; and

(B) if the Privately Offered Certificate is not registered under the Act (as to which we
acknowledge you have no obligation), the Privately Offered Certificate is sold in a transaction
that does not require registration under the Act and any applicable state securities or "blue sky"
laws and, if JPMorgan Chase Bank, N.A. (the "Trustee") or Wells Fargo Bank, National
Association (the "Certificate Registrar") so requests, a satisfactory Opinion of Counsel (as
defined in the Pooling and Servicing Agreement) is furnished to such effect, which Opinion of
Counsel shall be an expense of the transferor or the transferee;
(vii) we agree to be bound by all of the terms (including those relating to restrictions
on transfer) of the Pooling and Servicing Agreement, pursuant to which the Trust was formed;
we have reviewed carefully and understand the terms of the Pooling and Servicing Agreement;

(viii) we either: (i) are not acquiring the Privately Offered Certificate directly or
indirectly by, or on behalf of, an employee benefit plan or other retirement arrangement which is
subject to Title I of the Employee Retirement Income Security Act of 1974, as amended, and/or
Section 4975 of the Internal Revenue Code of 1986, as amended, or (ii) are providing a
representation or an Opinion of Counsel to the effect that the proposed transfer and/or holding of
a Privately Offered Certificate and the servicing, management and/or operation of the Trust and
its assets: (I) will not result in any prohibited transaction unless it is covered under an individual
or prohibited transaction class exemption, including, but not limited to, Class Prohibited
Transaction Exemption ("PTCE") 84-14, PTCE 91-38, PTCE 90-1, PTCE 95-60, PTCE 96-23 or
Section 401(c) of ERISA and the regulations promulgated thereunder; (II) will not constitute or
result in the assets of the Trust being deemed to be "plan assets" subject to the prohibited
transaction provisions of ERISA or Section 4975 of the Code; and (III) will not give rise to any

F-l-2
conﬁdential

Attachment F - Page 243

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 196 of 230
conﬁdential
A 546

additional fiduciary duties on the part of the Seller, the Master Servicer, the Certificate Registrar,
the Securities Administrator, any Servicer or the Trustee.
(ix) We understand that each of the [Class B-4, Class B-5 and Class B-6] Certificates
bears, and will continue to bear, a legend to substantially the following effect: "THIS
CERTIFICATE HAS NOT BEEN AND WILL NOT BE REGISTERED UNDER THE
SECURITIES ACT OF 1933, AS AMENDED (THE "SECURITIES ACT"), OR UNDER ANY
STATE SECURITIES LAWS. THE HOLDER HEREOF, BY PURCHASING THIS
CERTIFICATE, AGREES THAT THIS CERTIFICATE MAY BE REOFFERED, RESOLD,
PLEDGED OR OTHERWISE TRANSFERRED ONLY IN COMPLIANCE WITH THE
SECURITIES ACT AND OTHER APPLICABLE LAWS AND ONLY (1) PURSUANT TO
RULE 144A UNDER THE SECURITIES ACT ("RULE 144A") TO A PERSON THAT THE
HOLDER REASONABLY BELIEVES IS A QUALIFIED INSTITUTIONAL BUYER
WITHIN THE MEANING OF RULE 144A (A "QIB"), PURCHASING FOR ITS OWN
ACCOUNT OR A QIB PURCHASING FOR THE ACCOUNT OF A QIB, WHOM THE
HOLDER HAS INFORMED, IN EACH CASE, THAT THE REOFFER, RESALE, PLEDGE
OR OTHER TRANSFER IS BEING MADE IN RELIANCE ON RULE 144A, (2) PURSUANT
TO AN EXEMPTION FROM REGISTRATION PROVIDED BY RULE 144 UNDER THE
SECURITIES ACT (IF AVAILABLE) OR (3) IN CERTIFICATED FORM TO AN
"INSTITUTIONAL ACCREDITED INVESTOR" WITHIN THE MEANING THEREOF IN
RULE 501(a)(1), (2), (3) or (7) OF REGULATION D UNDER THE SECURITIES ACT OR
ANY ENTITY IN WHICH ALL OF THE EQUITY OWNERS COME WITHIN SUCH
PARAGRAPHS PURCHASING NOT FOR DISTRIBUTION IN VIOLATION OF THE
SECURITIES ACT, SUBJECT TO (A) THE RECEIPT BY THE TRUSTEE AND THE
CERTIFICATE REGISTRAR OF A LETTER SUBSTANTIALLY IN THE FORM PROVIDED
IN THE AGREEMENT AND (B) THE RECEIPT BY THE TRUSTEE AND THE
CERTIFICATE REGISTRAR OF SUCH OTHER EVIDENCE ACCEPTABLE TO THE
TRUSTEE AND THE CERTIFICATE REGISTRAR THAT SUCH REOFFER, RESALE,
PLEDGE OR TRANSFER IS IN COMPLIANCE WITH THE SECURITIES ACT AND
OTHER APPLICABLE LAWS OR IN EACH CASE IN ACCORDANCE WITH ALL
APPLICABLE SECURITIES LAWS OF THE UNITED STATES AND ANY OTHER
APPLICABLE JURISDICTION. NO TRANSFER OF THIS CERTIFICATE MAY BE MADE
TO ANY PERSON, UNLESS THE TRANSFEREE PROVIDES EITHER A CERTIFICATION
PURSUANT TO SECTION 5.07 OF THE AGREEMENT OR ANY OPINION OR COUNSEL
SATISFACTORY TO THE MASTER SERVICER, THE TRUSTEE, THE CERTIFICATE
REGISTRAR AND THE SECURITIES ADMINISTRATOR THAT THE PURCHASE OF
THIS CERTIFICATE WILL NOT CONSTITUTE OR RESULT IN THE ASSETS OF THE
TRUST BEING DEEMED TO BE "PLAN ASSETS" SUBJECT TO THE PROHIBITED
TRANSACTION PROVISIONS OF THE EMPLOYEE RETIREMENT INCOME SECURITY
ACT OF 1974, AS AMENDED ("ERISA"), OR SECTION 4975 OF THE CODE, WILL NOT
RESULT IN A NON-EXEMPT PROHIBITED TRANSACTION UNDER ERISA OR
SECTION 4975 OF THE CODE AND WILL NOT SUBJECT THE MASTER SERVICER,
THE TRUSTEE, THE CERTIFICATE REGISTRAR, THE SELLER, ANY SERVICER OR
THE SECURITIES ADMINISTRATOR TO ANY OBLIGATION OR LIABILITY IN
ADDITION TO THOSE UNDERTAKEN IN THE AGREEMENT."

F-l-3
conﬁdential

Attachment F - Page 244

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 197 of 230
conﬁdential
A 547

"Eligible Purchaser" means a corporation, partnership or other entity which we have
reasonable grounds to believe and do believe (i) can make representations with respect to itself to
substantially the same effect as the representations set forth herein, and (ii) is either a Qualified
Institutional Buyer as defined under Rule 144A of the Act or an institutional "Accredited
Investor" as defined under Rule 501 of the Act.
Terms not otherwise defined herein shall have the meanings assigned to them in the
Pooling and Servicing Agreement, dated as of May 1, 2005, among Structured Asset Mortgage
Investments II Inc., EMC Mortgage Corporation, Wells Fargo Bank, National Association and
JPMorgan Chase Bank, N.A., as Trustee (the "Pooling and Servicing Agreement").
If the Purchaser proposes that its Certificates be registered in the name of a nominee on
its behalf, the Purchaser has identified such nominee below, and has caused such nominee to
complete the Nominee Acknowledgment at the end of this letter.
Name of Nominee (if any):

IN WITNESS WHEREOF, this document has been executed by the undersigned who is
duly authorized to do so on behalf of the undersigned Eligible Purchaser on the __ day of
,20
Very truly yours,
[PURCHASER]
By:
[By:

F-l-4
conﬁdential

(Authorized Officer)
Attorney-in-fact]

Attachment F - Page 245

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 198 of 230
conﬁdential
A 548

Nominee Acknowledgment
The undersigned hereby acknowledges and agrees that as to the Certificates being
registered in its name, the sole beneficial owner thereof is and shall be the Purchaser identified
above, for whom the undersigned is acting as nominee.
[NAME OF NOMINEE]
By:

[By:

F-l-5
conﬁdential

(Authorized Officer)

Attomey-in-fact]

Attachment F - Page 246

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 199 of 230
conﬁdential
A 549

EXHIBIT F-2
FORM OF RULE 144A AND RELATED MATTERS CERTIFICATE
[Date]
[DEPOSITOR]
JPMorgan Chase Bank, N.A.
4 New York Plaza, 6th Floor
New York, New York 10004
Wells Fargo Bank, National Association
Sixth Street and Marquette Avenue
Minneapolis, Minnesota 55479

Structured Asset Mortgage Investments II Inc.
383 Madison Avenue
New York, New York 10179
Structured Asset Mortgage Investments II Trust 2005-AR2,
Mortgage Pass-Through Certificates, Series 2005-AR2
Class B-4, Class B-5 and Class B-6 Certificates
(the "Privately Offered Certificates")
Dear Ladies and Gentlemen:
In connection with our purchase of Privately Offered Certificates, the undersigned
certifies to each of the parties to whom this letter is addressed that it is a qualified institutional
buyer (as defined in Rule 144A under the Securities Act of 1933, as amended (the "Act")) as
follows:
1. It owned and/or invested on a discretionary basis eligible securities (excluding
affiliate’s securities, bank deposit notes and CD’s, loan participations, repurchase agreements,
securities owned but subject to a repurchase agreement and swaps), as described below:

Date:

,20 (must be on or after the close of its most recent fiscal year)

Amount: $

; and

2.

The dollar amount set forth above is:

a.

greater than $100 million and the undersigned is one of the following entities:

F-2-1
conﬁdential

Attachment F - Page 247

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 200 of 230
conﬁdential
A 550

(i)

an insurance company as defined in Section 2(a)(13) of the Act1; or

(ii) an investment company registered under the Investment Company Act of
1940, as amended (the "Investment Company Act"), or any "business development
company" as defined in Section 2(a)(48) of the Investment Company Act; or
(iii) a Small Business Investment Company licensed by the U.S. Small
Business Administration under Section 301(c) or (d) of the Small Business Investment
Act of 1958; or
(iv) a plan (i) established and maintained by a state, its political subdivisions,
or any agency or instrumentality of a state or its political subdivisions, the laws of which
permit the purchase of securities of this type, for the benefit of its employees and (ii) the
governing investment guidelines of which permit the purchase of securities of this type;
or

(v) a "business development company" as defined in Section 202(a)(22) of the
Investment Advisers Act of 1940; or
(vi) a corporation (other than a U.S. bank, savings and loan association or
equivalent foreign institution), partnership, Massachusetts or similar business trust, or an
organization described in Section 501(c)(3) of the Intemal Revenue Code of 1986, as
amended; or
(vii) a U.S. bank, savings and loan association or equivalent foreign institution,
which has an audited net worth of at least $25 million as demonstrated in its latest annual
financial statements; or
(viii) an investment adviser registered under the Investment Advisers Act; or
b. greater than $10 million, and the undersigned is a broker-dealer registered with
the Securities and Exchange Commission ("SEC"); or

c. less than $10 million, and the undersigned is a broker-dealer registered with the
SEC and will only purchase Rule 144A securities in transactions in which it acts as a riskless
principal (as defined in Rule 144A); or
d. less than $100 million, and the undersigned is an investment company registered
under the Investment Company Act of 1940, which, together with one or more registered
investment companies having the same or an affiliated investment adviser, owns at least $100
million of eligible securities; or
e. less than $100 million, and the undersigned is an entity, all the equity owners of
which are "qualified institutional buyers."
1 A purchase by an insurance company for one or more of its "separate accounts", as defined by Section
2(a)(37) of the InvesWnent Company Act of 1940, as amended, which are neither registered nor required to be
registered thereunder, shall be deemed to be a purchase for the account of such insurance company.

F-2-2
conﬁdential

Attachment F - Page 248

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 201 of 230
conﬁdential
A 551

The undersigned further certifies that it is purchasing a Privately Offered Certificate for
its own account or for the account of others that independently qualify as "Qualified Institutional
Buyers" as defined in Rule 144A. It is aware that the sale of the Privately Offered Certificates is
being made in reliance on its continued compliance with Rule 144A. It is aware that the
transferor may rely on the exemption from the provisions of Section 5 of the Act provided by
Rule 144A. The undersigned understands that the Privately Offered Certificates may be resold,
pledged or transferred only to (i) a person reasonably believed to be a Qualified Institutional
Buyer that purchases for its own account or for the account of a Qualified Institutional Buyer to
whom notice is given that the resale, pledge or transfer is being made in reliance in Rule 144A,
or (ii) an institutional "accredited investor," as such term is defined under Rule 50 l(a) of the Act,
in a transaction that otherwise does not constitute a public offering.
The undersigned agrees that if at some future time it wishes to dispose of or exchange
any of the Privately Offered Certificates, it will not transfer or exchange any of the Privately
Offered Certificates to a Qualified Institutional Buyer without first obtaining a Rule 144A and
Related Matters Certificate in the form hereof from the transferee and delivering such certificate
to the addressees hereof. Prior to making any transfer of Privately Offered Certificates, if the
proposed transferee is an institutional "accredited investor," the transferor shall obtain from the
transferee and deliver to the addressees hereof an Investment Letter in the form attached as
Exhibit F-1 to the Pooling and Servicing Agreement, dated as of May 1, 2005, among Structured
Asset Mortgage Investments II Inc., EMC Mortgage Corporation, Wells Fargo Bank, National
Association and JPMorgan Chase Bank, N.A., as Trustee, pursuant to Certificates were issued.

The undersigned certifies that it either: (i) is not acquiring the Privately Offered
Certificate directly or indirectly by, or on behalf of, an employee benefit plan or other retirement
arrangement which is subject to Title I of the Employee Retirement Income Security Act of
1974, as amended, and/or Section 4975 of the Internal Revenue Code of 1986, as amended, or
(ii) is providing a representation or an opinion of counsel to the effect that the proposed transfer
and/or holding of a Privately Offered Certificate and the servicing, management and/or operation
of the Trust and its assets: (I) will not result in any prohibited transaction unless it is covered
under an individual or class prohibited transaction exemption, including, but not limited to, Class
Prohibited Transaction Exemption ("PTCE") 84-14, PTCE 91-38, PTCE 90-1, PTCE 95-60,
PTCE 96-23 or Section 401(c) of ERISA and the regulations to be promulgated thereunder; (II)
will not constitute or result in the assets of the Trust being deemed to be "plan assets" subject to
the prohibited transaction provisions of ERISA or Section 4975 of the Code; and (III) will not
give rise to any additional fiduciary duties on the part of the Depositor, the Master Servicer, the
Certificate Registrar, the Securities Administrator, any Servicer or the Trustee.
If the Purchaser proposes that its Certificates be registered in the name of a nominee on
its behalf, the Purchaser has identified such nominee below, and has caused such nominee to
complete the Nominee Acknowledgment at the end of this letter.
Name of Nominee (if any):
IN WITNESS WHEREOF, this document has been executed by the undersigned who is
duly authorized to do so on behalf of the undersigned purchaser (the "Purchaser") on the __
day of
,20
F-2-3
conﬁdential

Attachment F - Page 249

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 202 of 230
conﬁdential
A 552

Very truly yours,
[PURCHASER]
By:
(Authorized Officer)
[By:

F-2-4
conﬁdential

Attorney-in-fact]

Attachment F - Page 250

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 203 of 230
conﬁdential
A 553
Nominee Acknowledgment

The undersigned hereby acknowledges and agrees that as to the Certificates being
registered in its name, the sole beneficial owner thereof is and shall be the Purchaser identified
above, for whom the undersigned is acting as nominee.
[NAME OF NOMINEE]
By:
[By:

F-2-5
conﬁdential

(Authorized Officer)
Attorney-in-fact]

Attachment F - Page 251

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 204 of 230
conﬁdential
A 554
EXHIBIT G

FORM OF CUSTODIAL AGREEMENT
THIS CUSTODIAL AGREEMENT (as amended and supplemented from time to time,
the "Agreement"), dated as of May 1, 2005, by and among JPMORGAN CHASE BANK, N.A.,
as trustee (including its successors under the Pooling and Servicing Agreement defined below,
the "Trustee"), STRUCTURED ASSET MORTGAGE INVESTMENTS II INC., as depositor
(together with any successor in interest, the "Depositor"), WELLS FARGO BANK, NATIONAL
ASSOCIATION, as master servicer and securities administrator (together with any successor in
interest or successor under the Pooling and Servicing Agreement referred to below, the "Master
Servicer") and WELLS FARGO BANK, NATIONAL ASSOCIATION, as custodian (together
with any successor in interest or any successor appointed hereunder, the "Custodian").

WITNESSETH THAT:
WHEREAS, the Depositor, the Master Servicer, the Trustee and EMC Mortgage
Corporation (the "Seller") have entered into a Pooling and Servicing Agreement, dated as of
May 1, 2005, relating to the issuance of Structured Asset Mortgage Investments II Trust 2005AR2, Mortgage Pass-Through Certificates, Series 2005-AR2 (as in effect on the date of this
agreement, the "Original Pooling and Servicing Agreement," and as amended and supplemented
from time to time, the "Pooling and Servicing Agreement"); and
WHEREAS, the Custodian has agreed to act as agent for the Trustee for the purposes of
receiving and holding certain documents and other instruments delivered by (i) the Depositor or
the Master Servicer under the Pooling and Servicing Agreement and (ii) the related Servicer
under their respective Servicing Agreements, all upon the terms and conditions and subject to the
limitations hereinafter set forth;

NOW, THEREFORE, in consideration of the premises and the mutual covenants and
agreements hereinafter set forth, the Trustee, the Depositor, the Master Servicer and the
Custodian hereby agree as follows:
ARTICLE I
DEFINITIONS
Capitalized terms used in this Agreement and not defined herein shall have the
meanings assigned in the Original Pooling and Servicing Agreement, unless otherwise required
by the context herein.
ARTICLE II
CUSTODY OF MORTGAGE DOCUMENTS
Section2.1 Custodian to Act as Agent: Acceptance of Mortgage Files. The
Custodian, as the duly appointed agent of the Trustee for these purposes, acknowledges (subject
to any exceptions noted in the Initial Certification referred to in Section 2.3(a)) receipt of the
Mortgage Files relating to the Mortgage Loans identified on Schedule 1 attached hereto (as such
Schedule shall be updated from time to time) (the "Mortgage Files") and declares that it holds

Attachment F - Page 252
conﬁdential

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 205 of 230
conﬁdential
A 555

and will hold such Mortgage Files as agent for the Trustee, in trust, for the use and benefit of all
present and future Certificateholders.
Section 2.2 Recordation of Assignments. If any Mortgage File includes one or more
assignments of Mortgage to the Trustee in a state which is specifically excluded from the
Opinion of Counsel delivered by the Seller to the Trustee and the Custodian pursuant to the
provisions of Section 2.01 of the Pooling and Servicing Agreement, each such assignment shall
be delivered by the Custodian to the Depositor for the purpose of recording it in the appropriate
public office for real property records, and the Depositor, at no expense to the Custodian, shall
promptly cause to be recorded in the appropriate public office for real property records each such
assignment of Mortgage and, upon receipt thereof from such public office, shall return each such
assignment of Mortgage to the Custodian.
Section 2.3

Review of Mortgage Files.

On or prior to the Closing Date, in accordance with Section 2.02 of the
(a)
Pooling and Servicing Agreement, the Custodian shall deliver to the Depositor and the Trustee
an Initial Certification in the form annexed hereto as Exhibit One evidencing receipt (subject to
any exceptions noted therein) of a Mortgage File for each of the Mortgage Loans listed on
Schedule 1 attached hereto (the "Mortgage Loan Schedule").
(b) Within 90 days of the Closing Date (or, with respect to any Substitute
Mortgage Loans, within 5 Business Days after the receipt by the Custodian thereof), the
Custodian agrees, for the benefit of Certificateholders, to review, in accordance with the
provisions of Section 2.02 of the Pooling and Servicing Agreement, each such document, and
shall execute and deliver to the Depositor and the Trustee an Interim Certification in the form
annexed hereto as Exhibit Two to the effect that all such documents have been executed and
received and that such documents relate to the Mortgage Loans identified on the Mortgage Loan
Schedule, except for any exceptions listed on Schedule A attached to such Interim Certification.
The Custodian shall be under no duty or obligation to inspect, review or examine said
documents, instruments, certificates or other papers to determine that the same are genuine,
enforceable, or appropriate for the represented purpose or that they have actually been recorded
or that they are other than what they purport to be on their face.
(c) Not later than 180 days after the Closing Date or, with respect to any
Substitute Mortgage Loans, within 5 Business Days after the receipt by the Custodian thereof),
the Custodian shall review the Mortgage Files as provided in Section 2.02 of the Pooling and
Servicing Agreement and execute and deliver to the Depositor and the Trustee (and if the
Custodian is not also the Master Servicer, then to the Master Servicer) a Final Certification in the
form annexed hereto as Exhibit Three evidencing the completeness of the Mortgage Files.
(d) In reviewing the Mortgage Files as provided herein and in the Pooling and
Servicing Agreement, the Custodian shall make no representation as to and shall not be
responsible to verify (i) the validity, legality, enforceability, due authorization, recordability,
sufficiency or genuineness of any of the documents included in any Mortgage File or (ii) the
collectibility, insurability, effectiveness or suitability of any of the documents in any Mortgage
File.
G-2
conﬁdential

Attachment F - Page 253

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 206 of 230
conﬁdential
A 556

Upon receipt of written request from the Trustee, the Custodian shall as soon as
practicable supply the Trustee with a list of all of the documents relating to the Mortgage Loans
then contained in the Mortgage Files.
Section2.4 Notification of Breaches of Representations and Warranties. Upon
discovery by the Custodian of a breach of any representation or warranty made by the Depositor
as set forth in the Pooling and Servicing Agreement with respect to a Mortgage Loan relating to
a Mortgage File, the Custodian shall give prompt written notice to the Company, the applicable
Servicer and the Trustee.
Section2.5 Custodian to Cooperate: Release of Mortgage Files. Upon receipt of
written notice from the Trustee that the Mortgage Loan Seller has repurchased a Mortgage Loan
pursuant to Article II of the Pooling and Servicing Agreement, and that the Repurchase Price
therefor has been deposited in the Distribution Account, and a Request for Release (as defined
below), the Custodian agrees to promptly release to the Mortgage Loan Seller the related
Mortgage File.
Upon the Custodian’s receipt of a request for release (a "Request for Release")
substantially in the form of Exhibit D to the Pooling and Servicing Agreement signed by a
Servicing Officer of the related Servicer stating that it has received payment in full of a
Mortgage Loan or that payment in full will be escrowed in a manner customary for such
purposes, the Custodian agrees to promptly release to such Servicer the related Mortgage File.
The Depositor shall deliver to the Custodian, and the Custodian agrees to accept, the Mortgage
Note and other documents constituting the Mortgage File with respect to any Substitute
Mortgage Loan, which documents the Custodian will review to the extent provided in Article II
of the Pooling and Servicing Agreement.
From time to time as is appropriate for the seryicing or foreclosure of any Mortgage
Loan, including, for this purpose, collection under any Primary Mortgage Insurance Policy, the
related Servicer shall (or, if the related Servicer does not, then the Master Servicer may) deliver
to the Custodian a Request for Release signed by a Servicing Officer requesting that possession
of all of the related Mortgage File be released to such Servicer and certifying as to the reason for
such release and that such release will not invalidate any insurance coverage provided in respect
of the related Mortgage Loan under any of the Insurance Policies. Upon receipt of the foregoing,
the Custodian shall deliver such Mortgage File to the related Servicer. The related Servicer shall
cause each Mortgage File or any document therein so released to be returned to the Custodian
when the need therefor by such Servicer no longer exists, Unless (i) such Mortgage Loan has
been liquidated and the Liquidation Proceeds relating to the related Mortgage Loan have been
deposited in the Distribution Account or (ii) such Mortgage File or such document has been
delivered to an attorney, or to a public trustee or other public official as required by law, for
purposes of initiating or pursuing legal action or other proceedings for the foreclosure of the
related Mortgaged Property either judicially or non-judicially, and the related Servicer has
delivered to the Custodian a certificate of a Servicing Officer certifying as to the name and
address of the Person to which such Mortgage File or such document was delivered and the
purpose or purposes of such delivery.

G-3
conﬁdential

Attachment F - Page 254

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 207 of 230
conﬁdential
A 557

At any time that a Servicer or the Master Servicer is required to deliver to the Custodian a
Request for Release, such Servicer or the Master Servicer shall deliver two copies of the Request
for Release if delivered in hard copy or such Servicer or the Master Servicer may furnish such
Request for Release electronically to the Custodian, in which event the Servicing Officer
transmitting the same shall be deemed to have signed such Request for Release. In connection
with any Request for Release of a Mortgage File because of a repurchase of a Mortgage Loan,
the assignment of mortgage and the related Mortgage Note shall be returned to the related
Servicer or the Master Servicer, as applicable, for execution and endorsement, respectively,
pursuant to a power of attorney from the Trustee and for delivery to the Seller. If the related
Servicer or the Master Servicer does not have a power of attorney from the Trustee to execute
the applicable assignment and to endorse the related Mortgage Note, such Request for Release
shall be accompanied by an assignment of mortgage, without recourse, executed by the Trustee
to the Seller and the related Mortgage Note shall be endorsed without recourse by the Trustee (if
not in blank) and be returned to the related Servicer or the Master Servicer, as applicable, for
delivery to the Seller; provided, however, that in the case of a Mortgage Loan that is registered
on the MERS® System, no assignment of mortgage or endorsement of the Mortgage Note by the
Trustee, or by the related Servicer or the Master Servicer pursuant to a power of attorney from
the Trustee, shall be required. In connection with any Request for Release of a Mortgage File
because of the payment in full of a Mortgage Loan and if the related Servicer or the Master
Servicer does not have a power of attorney from the Trustee to execute the applicable certificate
of satisfaction or similar instrument, such Request for Release shall be accompanied by a
certificate of satisfaction or other similar instrument to be executed by or on behalf of the Trustee
and returned to the related Servicer or the Master Servicer, as applicable.
Section 2.6 Assumption Agreements. In the event that any assumption agreement,
substitution of liability agreement or sale of servicing agreement is entered into with respect to
any Mortgage Loan subject to this Agreement in accordance with the terms and provisions of the
Pooling and Servicing Agreement, the Master Servicer, to the extent provided in the related
Servicing Agreement, shall cause the related Servicer to notify the Custodian that such
assumption agreement, substitution of liability agreement or sale of servicing agreement has
been completed by forwarding to the Custodian the original of such assumption agreement,
substitution of liability agreement or sale of servicing agreement, which shall be added to the
related Mortgage File and, for all purposes, shall be considered a part of such Mortgage File to
the same extent as all other documents and instruments constituting parts thereof.
ARTICLE III
CONCERNING THE CUSTODIAN
Section 3.1 Custodian a Bailee and Agent of the Trustee. With respect to each
Mortgage Note and other documents constituting each Mortgage File which are delivered to the
Custodian, the Custodian is exclusively the bailee and agent of the Trustee and has no
instructions to hold any Mortgage Note or Mortgage File for the benefit of any person other than
the Trustee and the Certificateholders and undertakes to perform such duties and only such duties
as are specifically set forth in this Agreement. Except upon compliance with the provisions of
Section 2.5 of this Agreement, no Mortgage Note or Mortgage File shall be delivered by the
Custodian to the Depositor, the Seller, any Servicer or the Master Servicer or otherwise released
from the possession of the Custodian.

G-4
conﬁdential

Attachment F - Page 255

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 208 of 230
conﬁdential
A 558
Section 3.2 Reserved.

Section 3.3 Custodian May Own Certificates. The Custodian in its individual or any
other capacity may become the owner or pledgee of Certificates with the same rights it would
have if it were not Custodian.
Section 3.4 Master Servicer to Pay Custodian’s Fees and Expenses. The Master
Servicer covenants and agrees to pay to the Custodian from time to time, and the Custodian shall
be entitled to, reasonable compensation for all services rendered by it in the exercise and
performance of any of the powers and duties hereunder of the Custodian, and the Master Servicer
will pay or reimburse the Custodian upon its request for all reasonable expenses, disbursements
and advances incurred or made by the Custodian in accordance with any of the provisions of this
Agreement (including the reasonable compensation and the expenses and disbursements of its
counsel and of all persons not regularly in its employ), except any such expense, disbursement or
advance as may arise from its negligence or bad faith, to the extent that such cost or expense is
indemnified by the Depositor pursuant to the Pooling and Servicing Agreement.
Section 3.5 Custodian May Resign; Trustee May Remove Custodian. The Custodian
may resign from the obligations and duties hereby imposed upon it as such obligations and duties
relate to its acting as Custodian of the Mortgage Loans. Upon receiving such notice of
resignation, the Trustee shall either take custody of the Mortgage Files itself and give prompt
notice thereof to the Depositor, the Master Servicer, the Servicers and the Custodian, or promptly
appoint a successor Custodian by written instrument, in duplicate, one copy of which instrument
shall be delivered to the resigning Custodian and one copy to the successor Custodian. If the
Trustee shall not have taken custody of the Mortgage Files and no successor Custodian shall
have been so appointed and have accepted appointment within 30 days after the giving of such
notice of resignation, the resigning Custodian may petition any court of competent jurisdiction
for the appointment of a successor Custodian.
The Trustee may remove the Custodian at any time with the consent of the Master
Servicer. In such event, the Trustee shall appoint, or petition a court of competent jurisdiction to
appoint, a successor Custodian hereunder. Any successor Custodian shall be a depository
institution subject to supervision or examination by federal or state authority, shall be able to
satisfy the other requirements contained in Section 3.7 and shall be unaffiliated with any Servicer
or the Depositor.
Any resignation or removal of the Custodian and appointment of a successor Custodian
pursuant to any of the provisions of this Section 3.5 shall become effective upon acceptance of
appointment by the successor Custodian. The Trustee shall give prompt notice to the Depositor
and the Master Servicer of the appointment of any successor Custodian. No successor Custodian
shall be appointed by the Trustee without the prior approval of the Depositor and the Master
Servicer.
Section 3.6 Merger or Consolidation of Custodian. Any Person into which the
Custodian may be merged or converted or with which it may be consolidated, or any Person
resulting from any merger, conversion or consolidation to which the Custodian shall be a party,
or any Person succeeding to the business of the Custodian, shall be the successor of the
G-5
conﬁdential

Attachment F - Page 256

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 209 of 230
conﬁdential
A 559
Custodian hereunder (provided such Person shall satisfy the requirements set forth in Section
3.7), without the execution or filing of any paper or any further act on the part of any of the
parties hereto, anything herein to the contrary notwithstanding.
Section 3.7 Representations of the Custodian. The Custodian hereby represents, and
any successor Custodian hereunder shall represent, that it is a depository institution subject to
supervision or examination by a federal or state authority, has a combined capital and surplus of
at least $15,000,000 and is qualified to do business in the jurisdictions in which it will hold any
Mortgage File.

ARTICLE IV
MISCELLANEOUS PROVISIONS
Section4.1 Notices. All notices, requests, consents and demands and other
communications required under this Agreement or pursuant to any other instrument or document
delivered hereunder shall be in writing and, unless otherwise specifically provided, may be
delivered personally, by telegram or telex, or by registered or certified mail, postage prepaid,
return receipt requested, at the addresses specified on the signature page hereof (unless changed
by the particular party whose address is stated herein by similar notice in writing), in which case
the notice will be deemed delivered when received.
Section 4.2 Amendments. No modification or amendment of or supplement to this
Agreement shall be valid or effective unless the same is in writing and signed by all parties
hereto, and neither the Depositor, the Master Servicer nor the Trustee shall enter into any
amendment hereof except as permitted by the Pooling and Servicing Agreement. The Trustee
shall give prompt notice to the Custodian of any amendment or supplement to the Pooling and
Servicing Agreement and furnish the Custodian with written copies thereof.
Section 4.3 GOVERNING LAW. THIS AGREEMENT SHALL BE DEEMED A
CONTRACT MADE UNDER THE LAWS OF THE STATE OF NEW YORK AND SHALL
BE CONSTRUED AND ENFORCED IN ACCORDANCE WITH AND GOVERNED BY THE
LAWS OF THE STATE OF NEW YORK WITHOUT REFERENCE TO ITS CONFLICT OF
LAWS RULES (OTHER THAN SECTION 5-1401 OF THE NEW YORK GENERAL
OBLIGATIONS LAW, WHICH SHALL APPLY HERETO).
Section 4.4 Recordation of Agreement. To the extent permitted by applicable law, this
Agreement is subject to recordation in all appropriate public offices for real property records in
all the counties or other comparable jurisdictions in which any or all of the properties subject to
the Mortgages are situated, and in any other appropriate public recording office or elsewhere,
such recordation to be effected by the Depositor and at the Trust’s expense on direction by the
Trustee, but only upon direction accompanied by an Opinion of Counsel reasonably satisfactory
to the Depositor to the effect that the failure to effect such recordation is likely to materially and
adversely affect the interests of the Certificateholders.
For the purpose of facilitating the recordation of this Agreement as herein provided and
for other purposes, this Agreement may be executed simultaneously in any number of

G-6
conﬁdential

Attachment F - Page 257

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 210 of 230
conﬁdential
A 560

counterparts, each of which counterparts shall be deemed to be an original, and such counterparts
shall constitute but one and the same instrument.
Section4.5 Severability of Provisions. If any one or more of the covenants,
agreements, provisions or terms of this Agreement shall be for any reason whatsoever held
invalid, then such covenants, agreements, provisions or terms shall be deemed severable from the
remaining covenants, agreements, provisions or terms of this Agreement and shall in no way
affect the validity or enforceability of the other provisions of this Agreement or of the
Certificates or the rights of the holders thereof.
[Signature page follows]

G-7
conﬁdential

Attachment F - Page 258

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 211 of 230
conﬁdential
A 561

IN WITNESS WHEREOF, this Agreement is executed as of the date first above written.
Address:
4 New York Plaza, 6th Floor
New York, New York 10004
Attention: Worldwide Securities ServicesGlobal Debt
SAMI II Series 2005-AR2
Telecopy: (212) 623-5930
Address:

383 Madison Avenue
New York, New York 10179

Address:
9062 Old Annapolis Road
Columbia, Maryland 21045

JPMORGAN CHASE BANK, N.A., as
Trustee
By:
Name:
Title:

STRUCTURED ASSET MORTGAGE
INVESTMENTS II INC.
By:.
Name:
Title:
WELLS FARGO BANK,
NATIONAL ASSOCIATION, as Master
Servicer
By:
Name:
Title:

Address:
9062 Old Annapolis Road
Columbia, Maryland 21045

WELLS FARGO BANK,
NATIONAL ASSOCIATION, as Custodian
By:
Name:
Title:

G-8
conﬁdential

Attachment F - Page 259

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 212 of 230
conﬁdential
A 562

STATE OF NEW YORK )
: SS:

COUNTY OF NEW YORK)

On the 31 st day of May 2005 before me, a notary public in and for said State, personally
appeared
, known to me to be a
of JPMorgan Chase
Bank, N.A., a banking association organized under the laws of the United States of America that
executed the within instrument, and also known to me to be the person who executed it on behalf
of said banking association and acknowledged to me that such banking association executed the
within instrument.
IN WITNESS WHEREOF, I have hereunto set my hand and affixed my official seal the
day and year in this certificate first above written.
Notary Public
[SEAL]

G-9
conﬁdential

Attachment F - Page 260

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 213 of 230
conﬁdential
A 563
STATE OF MARYLAND )
COUNTY OF HOWARD )

SS:

On the 31 st day of May 2005 before me, a notary public in and for said State, personally
appeared
, known to me to be an
of Wells Fargo Bank, National
Association, a national banking association that executed the within instrument, and also known
to me to be the person who executed it on behalf of said national banking association, and
acknowledged to me that such national banking association executed the within instrument.
IN WITNESS WHEREOF, I have hereunto set my hand and affixed my official seal the
day and year in this certificate first above written.
Notary Public
[SEAL]

G-10
conﬁdential

Attachment F - Page 261

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 214 of 230
conﬁdential
A 564
STATE OF NEW YORK )
: SS:

COUNTY OF NEW YORK )

On the 31 st day of May 2005 before me, a notary public in and for said State, personally
appeared
., known to me to be a
of Structured Asset
Mortgage Investments II Inc., one of the corporations that executed the within instrument, and
also known to me to be the person who executed it on behalf of said corporation, and
acknowledged to me that such corporation executed the within instrument.
IN WITNESS WHEREOF, I have hereunto set my hand and affixed my official seal the
day and year in this certificate first above written.
Notary Public

[Notarial Seal]

G-11
conﬁdential

Attachment F - Page 262

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 215 of 230
conﬁdential
A 565

STATE OF MARYLAND )

: SS:

COUNTY OF HOWARD )

On the 31 st day of May 2005 before me, a notary public in and for said State, personally
appeared
, known to me to be a
of Wells Fargo Bank, National
Association, one of the corporations that executed the within instrument, and also known to me
to be the person who executed it on behalf of said corporation, and acknowledged to me that
such corporation executed the within instrument.
IN WITNESS WHEREOF, I have hereunto set my hand and affixed my official seal the
day and year in this certificate first above written.
Notary Public

[Notarial Seal]

G-12
conﬁdential

Attachment F - Page 263

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 216 of 230
conﬁdential
A 566

SCHEDULE 1
Mortgage Loans

G-13
conﬁdential

Attachment F - Page 264

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 217 of 230
conﬁdential
A 567
EXHIBIT ONE
FORM OF CUSTODIAN INITIAL CERTIFICATION
May 31, 2005
JPMorgan Chase Bank, N.A.
4 New York Plaza, 6th Floor
New York, New York 10004
Structured Asset Mortgage Investments II Inc.
383 Madison Avenue
New York, New York 10179
Attention: Structured Asset Mortgage Investments II Inc., Series 2005-AR2
Custodial Agreement, dated as of May 31, 2005, by and among
JPMorgan Chase Bank, N.A., Structured Asset Mortgage
Investments II Inc. and Wells Fargo Bank, National Association
relating to Structured Asset Mortgage Investments II Trust 2005AR2, Mortgage Pass-Through Certificates, Series 2005-AR2
Ladies and Gentlemen:

In accordance with Section 2.3 of the above-captioned Custodial Agreement, and
subject to Section 2.02 of the Pooling and Servicing Agreement, the undersigned, as Custodian,
hereby certifies that it has received a Mortgage File (which contains an original Mortgage Note
or lost note affidavit) to the extent required in Section 2.01 of the Pooling and Servicing
Agreement with respect to each Mortgage Loan listed in the Mortgage Loan Schedule, with any
exceptions listed on Schedule A attached hereto.
Capitalized words and phrases used herein shall have the respective meanings
assigned to them in the above-captioned Custodial Agreement.
WELLS FARGO BANK, NATIONAL
ASSOCIATION
By:
Name:
Title:

G-14
conﬁdential

Attachment F - Page 265

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 218 of 230
conﬁdential
A 568

Schedule A to Exhibit One
Exceptions

G-15
conﬁdential

Attachment F - Page 266

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 219 of 230
conﬁdential
A 569
EXHIBIT TWO
FORM OF CUSTODIAN INTERIM CERTIFICATION
,20
JPMorgan Chase Bank, N.A.
4 New York Plaza, 6th Floor
New York, New York 10004
Structured Asset Mortgage Investments II Inc.
383 Madison Avenue
New York, New York 10179
Attention: Structured Asset Mortgage Investments II Inc., Series 2005-AR2
Custodial Agreement, dated as of May 31, 2005, by and among
JPMorgan Chase Bank, N.A., Structured Asset Mortgage
Investments II Inc. and Wells Fargo Bank, National Association
relating to Structured Asset Mortgage Investments II Trust 2005AR2, Mortgage Pass-Through Certificates, Series 2005-AR2

Ladies and Gentlemen:
In accordance with Section 2.3 of the above-captioned Custodial Agreement, the
undersigned, as Custodian, hereby certifies that it has received a Mortgage File to the extent
required pursuant to Section 2.01 of the Pooling and Servicing Agreement with respect to each
Mortgage Loan listed in the Mortgage Loan Schedule, and it has reviewed the Mortgage File and
the Mortgage Loan Schedule and has determined that: all required documents have been
executed and received and that such documents related to the Mortgage Loans identified on the
Mortgage Loan Schedule, with any exceptions listed on Schedule A attached hereto.

Capitalized words and phrases used herein shall have the respective meanings
assigned to them in the above-captioned Custodial Agreement.
WELLS FARGO BANK, NATIONAL
ASSOCIATION
By:
Name:
Title:

G-16
conﬁdential

Attachment F - Page 267

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 220 of 230
conﬁdential
A 570
Schedule A to Exhibit Two
Exceptions

G-17
conﬁdential

Attachment F - Page 268

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 221 of 230
conﬁdential
A 571
EXHIBIT THREE
FORM OF CUSTODIAN FINAL CERTIFICATION
,20
JPMorgan Chase Bank, N.A.
4 New York Plaza, 6th Floor
New York, New York 10004
Structured Asset Mortgage Investments II Inc.
383 Madison Avenue
New York, New York 10179
Attention: Structured Asset Mortgage Investments II Inc., Series 2005-AR2
Custodial Agreement, dated as of May 31, 2005, by and among
JPMorgan Chase Bank, N.A., Structured Asset Mortgage
Investments II Inc. and Wells Fargo Bank, National Association
relating to Structured Asset Mortgage Investments II Trust 2005AR2, Mortgage Pass-Through Certificates, Series 2005-AR2
Ladies and Gentlemen:

In accordance with Section 2.3 of the above-captioned Custodial Agreement, the
undersigned, as Custodian, hereby certifies that it has received a Mortgage File to the extent
required pursuant to the Pooling and Servicing Agreement with respect to each Mortgage Loan
listed in the Mortgage Loan Schedule, and it has reviewed the Mortgage File and the Mortgage
Loan Schedule and has determined that an original of each document related thereto required to
be recorded has been returned from the related recording office with evidence of recording
thereon, or a certified copy has been obtained from the related recording office, with any
exceptions listed on Schedule A attached hereto.
Capitalized words and phrases used herein shall have the respective meanings
assigned to them in the above-captioned Custodial Agreement.
WELLS FARGO BANK, NATIONAL
ASSOCIATION
By:
Name:
Title:

G-18
conﬁdential

Attachment F - Page 269

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 222 of 230
conﬁdential
A 572
EXHIBIT H-1

EMC MORTGAGE CORPORATION
AND
EVERHOME MORTGAGE COMPANY
SUBSERVICING AGREEMENT
DATED AS OF AUGUST 1, 2002

Attachment F - Page 270
conﬁdential

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 223 of 230
conﬁdential
A 573

EXHIBIT H-2
COUNTRYWIDE HOME LOANS, INC.
AND
EMC MORTGAGE CORPORATION
SELLER’S WARRANTIES AND SERVICING AGREEMENT,
DATED SEPTEMBER 1, 2002 AS AMENDED

Attachment F - Page 271
conﬁdential

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 224 of 230
conﬁdential
A 574
EXHIBIT H-3

WASHINGTON MUTUAL BANK
AND
EMC MORTGAGE CORPORATION
SERVICING AGREEMENT
DATED AS OF APRIL 1, 2005

Attachment F - Page 272
conﬁdential

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 225 of 230
conﬁdential
A 575

EXHIBIT H-4
EMC MORTGAGE CORPORATION
AND
STRUCTURED ASSET MORTGAGE INVESTMENTS II INC.
SERVICING AGREEMENT
DATED AS OF MAY 31, 2005

Attachment F - Page 273
conﬁdential

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 226 of 230
conﬁdential
A 576
EXHIBIT I
ASSIGNMENT AGREEMENTS
(Available upon request)

Attachment F - Page 274
conﬁdential

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 227 of 230
conﬁdential
A 577
EXHIBIT J

MORTGAGE LOAN PURCHASE AGREEMENT
(Available upon request)

Attachment F - Page 275
conﬁdential

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 228 of 230
conﬁdential
A 578
EXHIBIT K

FORM OF TRUSTEE LIMITED POWER OF ATTORNEY
KNOW ALL MEN BY THESE PRESENTS, that JPMorgan Chase Bank, N.A., a banking
association organized under the laws of the United States of America, having a place of
business at 4 New York Plaza, 6th Floor, New York, N.Y. 10004, as Trustee (and in no
personal or other representative capacity) under the Pooling and Servicing Agreement,
dated as of May 1, 2005, by and among Structured Asset Mortgage Investments II Inc.,
the Trustee, Wells Fargo Bank, National Association and EMC Mortgage Corporation (as
amended, restated, supplemented or otherwise modified from time to time, the
"Agreement"; capitalized terms not defined herein have the definitions assigned to such
terms in the Agreement), relating to the Structured Asset Mortgage Investments II Trust
2005-AR2, Mortgage Pass-Through Certificates, Series 2005-AR2, hereby appoints
, in its capacity as a Servicer under the Agreement, as the Trustee’s
true and lawful Special Attorney-in-Fact, in the Trustee’s name, place and stead and for
the Trustee’s benefit, but only in its capacity as Trustee aforesaid, to perform all acts and
execute all documents as may be customary, necessary and appropriate to effectuate the
following enumerated transactions in respect of any mortgage, deed of trust, promissory
note or real estate owned from time to time owned (beneficially or in title, whether the
Trustee is named therein as mortgagee or beneficiary or has become mortgagee or
beneficiary by virtue of endorsement, assignment or other conveyance) or held by or
registered to the Trustee (directly or through custodians or nominees), or in respect of
which the Trustee has a security interest or other lien, all as provided under the applicable
Agreement and only to the extent the respective Trustee has an interest therein under the
Agreement, and in respect of which the Servicer is acting as servicer pursuant to the
Agreement (the "Mortgage Documents").
This appointment shall apply to the following enumerated transactions under the Agreement
only:

1. The modification or re-recording of any Mortgage Document for the purpose of
correcting it to conform to the original intent of the parties thereto or to correct title errors
discovered after title insurance was issued and where such modification or re-recording does not
adversely affect the lien under the Mortgage Document as insured.
2. The subordination of the lien under a Mortgage Document to an easement in favor of a
public utility company or a state or federal agency or unit with powers of eminent domain
including, without limitation, the execution of partial satisfactions/releases, partial
reconveyances and the execution of requests to trustees to accomplish same.
3. The conveyance of the properties subject to a Mortgage Document to the applicable
mortgage insurer, or the closing of the title to the property to be acquired as real estate so owned,
or conveyance of title to real estate so owned.

4. The completion of loan assumption and modification agreements in respect of Mortgage
Documents.

Attachment F - Page 276
conﬁdential

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 229 of 230
conﬁdential
A 579

5. The full or partial satisfaction/release of a Mortgage Document or full conveyance upon
payment and discharge of all sums secured thereby, including, without limitation, cancellation of
the related note.
6. The assignment of any Mortgage Document, in connection with the repurchase of the
mortgage loan secured and evidenced thereby.

7. The full assignment of a Mortgage Document upon payment and discharge of all sums
secured thereby in conjunction with the refinancing thereof, including, without limitation, the
assignment of the related note.
8. With respect to a Mortgage Document, the foreclosure, the taking of a deed in lieu of
foreclosure, or the completion of judicial or non-judicial foreclosure or termination, cancellation
or rescission of any such foreclosure, including, without limitation, any and all of the following
acts:
a.

the substitution of trustee(s) serving under a deed of trust, in accordance with state
law and the deed of trust;

b.

the preparation and issuance of statements of breach or non-performance;

c.

the preparation and filing of notices of default and/or notices of sale;

d.

the cancellation/rescission of notices of default and/or notices of sale;

e.

the taking of a deed in lieu of foreclosure; and

f.

the preparation and execution of such other documents and performance of such
other actions as may be necessary under the terms of the Mortgage Document or
state law to expeditiously complete said transactions in paragraphs 8(a) through
8(e), above.

9. Demand, sue for, recover, collection and receive each and every sum of money, debt,
account and interest (which now is, or hereafter shall become due and payable) belonging to or
claimed by the Trustee under the Mortgage Documents, and to use or take any lawful means for
recovery thereof by legal process or otherwise.
10. Endorse on behalf of the Trustee all checks, drafts and/or negotiable instruments made
payable to the Trustee in respect of the Mortgage Documents.

The Trustee gives the Special Attorney-in-Fact full power and authority to execute such
instruments and to do and perform all and every act and thing necessary and proper to carry into
effect the power or powers granted by this Limited Power of Attorney, subject to the terms and
conditions set forth in the Agreement including the standard of care applicable to servicers in the
Agreement, and hereby does ratify and confirm what such Special Attorney-in-Fact shall
lawfully do or cause to be done by authority hereof.

L-2
conﬁdential

Attachment F - Page 277

Case 2:16-cv-00077-TSZ Document
1-7 Filed 01/19/16 Page 230 of 230
conﬁdential
A 580

IN WITNESS WHEREOF, the Trustee has caused its corporate name and seal to be hereto
signed and affixed and these presents to be acknowledged by its duly elected and authorized
officer this __ day of, 2005.
JPMorgan Chase Bank, N.A., as Trustee

By:
Name:
Title:
WITNES S:

WITNESS:

Name:
Title:

Name:
Title:

STATE OF NEW YORK

SS
COUNTY OF NEW YORK
On
,2005, before me, the undersigned, a Notary Public in and for said
state, personally appeared
, personally known to me to be the person
whose name is subscribed to the within instrument and to be a duly authorized and acting Senior
Vice President of JPMorgan Chase Bank, N.A., and such person acknowledged to me that such
person executed the within instrument in such person’s authorized capacity as a Senior Vice
President of JPMorgan Chase Bank, N.A., and that by such signature on the within instrument
the entity upon behalf of which such person acted executed the instrument.
WITNESS my hand and official seal.

Notary Public

L-3
conﬁdential

Attachment F - Page 278

APPENDIX 54
A 581

A 582

A 583

A 584

A 585

A 586

A 587

A 588

A 589

A 590

A 591

A 592

A 593

A 594

A 595

A 596

A 597

Case 2:16-cv-00077-TSZ Document 55 Filed 07/22/16 Page 1 of 15
APPENDIX 55
A 598
1

THE HONORABLE THOMAS S. ZILLY

2
3
4
5
6
7

UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

8
9
10
11
12
13
14
15
16

BANK OF NEW YORK MELLON, a Delaware corporation, as trustee for
STRUCTURED ASSET MORTGAGE
INVESTMENTS II TRUST, MORTGAGE
PASS-THROUGH CERTIFICATES SERIES
2005-AR2,

17

PLAINTIFF,
v.

18
19
20

CASE NO. 2:16-cv-00077-TSZ

DEFENDANT SCOTT STAFNE’S REPLY
TO DAVIS, WRIGHT TREMAIN’S
OPPOSITION TO STAFNE’S 2ND FRCP
12(b)(1) MOTION

SCOTT STAFNE, an individual; TODD
STAFNE, an individual; and REAL TIME
RESOLUTIONS, Inc., a Texas corporation,

21

DEFENDANTS.
22
23
24
25
26

DEFENDANT SCOTT STAFNE’S REPLY TO DAVIS,
WRIGHT TREMAIN’S OPPOSITION TO STAFNE’S 2ND
FRCP 12(b)(1) MOTION
Page - 1

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 55 Filed 07/22/16 Page 2 of 15
A 599
1
2
3

I.

Introduction

Scott Stafne will establish in Part II of this Reply that the Fed. R. Civ. Pro 12(b)(1) motion
presently before this Court involves a “factual attack” on the complaint which must be resolved

4

pursuant to summary judgment standards based on the admissible evidence in the record.
5
6

Part III will demonstrate Davis Wright Tremaine (DWT) and Nationstar have not established

7

by a preponderance of the evidence that this Court has subject matter jurisdiction of this action.

8

Section A will substantiate there is no admissible evidence that any BNY Mellon entity has standing

9

to bring this action. Section B will demonstrate Nationstar is the only entity which has an economic

10
11

interest in this case sufficient to confer standing to bring this action against Stafne. Section C will
explain why Nationstar cannot bring this action against Stafne pursuant to this Court’s 28 USC 1332

12
13
14

and 1359.
In Part IV Stafne will document neither DWT nor Nationstar has presented any evidence or

15

law to rebut the presumption the POA in this case is being improperly or collusively used by DWT

16

and Nationstar to invoke the jurisdiction of this Court.

17
18

Finally, Stafne will explain in Section V why this Court must first determine whether it has
jurisdiction, rather than resolve the currently pending motions before it on a piecemeal basis.

19
20
21
22

II. Stafne’s motion under Fed. R. Civ. Pro. 12(b)(1) involves a factual attack on this Court’s
jurisdiction which must be resolved pursuant to summary judgment standards.
DWT erroneously argues Stafne’s Fed. R. Civ. Pro. 12(b)(1) motion is a facial attack which
“assumes the allegations alleged in the complaint are true.” Dkt. 53, 2:24-3:4. Stafne’s motion

23

indicates it is a factual attack on the complaint based on referenced pleadings, evidence, and admis24
25
26

sions which were before this Court when his 12(b)(1) motion was filed. See Dkt. 42, 2:12-16. 8:9-20
(defining evidence which Stafne relied upon in making his 12(b)(1) factual challenge.); see also 8:910:17 (explaining the distinction between a facial and factual attack).

DEFENDANT SCOTT STAFNE’S REPLY TO DAVIS,
WRIGHT TREMAIN’S OPPOSITION TO STAFNE’S 2ND
FRCP 12(b)(1) MOTION
Page - 2

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 55 Filed 07/22/16 Page 3 of 15

1

A 600
This reply continues Stafne’s factual attack on this Court’s subject matter jurisdiction over

2

DWT’s complaint and hereby incorporates all the pleadings and declarations submitted since

3

Stafne’s 12(b)(1) motion was filed, including Docket entries 43, 44, 45 46, 47, 48, 49, 50, 51 and

4

52. Additionally Stafne relies upon the declaration of Cyndee Rae Estrada and his own declaration

5
6

in support of this reply as part of his factual challenge.
In response to Stafne’s factual attack, DWT must support its jurisdictional allegations with

7

“competent proof,” Hertz Corp. v. Friend, 559 U.S. 77, 96–97, 130 S.Ct. 1181, 175 L.Ed.2d 1029
8
9

(2010), under the same evidentiary standard that governs in the summary judgment context. Leite v.

10

Crane Co., 749 F.3d 1117, 1121 (9th Cir. 2014), cert. denied, 135 S. Ct. 361, 190 L. Ed. 2d 252

11

(2014). Accordingly, DWT bears the burden of proving by a preponderance of the evidence pursu-

12

ant to summary judgment standards that each of the requirements for subject-matter jurisdiction has

13

been met. Cabalce v. Thomas E. Blanchard & Associates, Inc., 797 F.3d 720, 732-33 (9th Cir.

14

2015); Harris v. Rand, 682 F.3d 846, 850–51 (9th Cir.2012). DWT concedes it must establish
15

jurisdiction by a preponderance of the evidence. Dkt. 53, 4:3-4.
16
17

III. DWT has not Proved by a Preponderance of the Evidence that BONY has Standing and is
the Real Party in Interest to Bring this Action Against Stafne

18

A. There is no admissible evidence any BNY Mellon entity has standing.
19
20
21
22

i. BNY Mellon states if has no interest in Stafne’s Property

Stafne asked a housing counselor to contact BNY Mellon to obtain information about any
“debt” he may owe to BNY Mellon as trustee. BNY Mellon includes The Bank of New York

23
24
25
26

Mellon Corporation and its consolidated subsidiaries. Dkt. 38. BNY Mellon responded:
After researching our database, we do not show any record of the address(es) listed in your
email. If you have documents which show we are the Trustee, please send it to this mailbox
so that it can be researched further. All applicable documents should be sent to me via email.
However, please note that BNY Mellon is solely the trustee and any property preservation,
release, assignment, etc. would be handled by the applicable servicer. If you know the appliDEFENDANT SCOTT STAFNE’S REPLY TO DAVIS,
WRIGHT TREMAIN’S OPPOSITION TO STAFNE’S 2ND
FRCP 12(b)(1) MOTION
Page - 3

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 55 Filed 07/22/16 Page 4 of 15

1
2

A 601
cable servicer, please contact them directly. If not, please send any documentation you have
showing BNY Mellon as trustee so that we can direct your email to the appropriate party.
Declaration of Cyndee Rae Estrada in support of this Reply.

3
4
5

ii. DWT and Nationstar have not submitted admissible evidence that any BNY Mellon entity,
including “BONY,” owns Stafne’s mortgage loan for 17207 155th Ave. N.E. in Arlington,
Washington or that any POA was in effect when this action was filed.

6

After Stafne submitted substantial evidence that “Bank of New York Mellon, a Delaware

7

Corporation” did not owe his loan, see Dkt, 21, 29, & 34, DWT and Nationstar admitted this was

8

true. See Dkts. 36 & 38. DWT attorney Burnside’s declaration admitted (1) the purported plaintiff

9

originally identified in the complaint did not own Stafne’s loan as trustee and (2) that DWT, Burn-

10

side and Bugaighis did not represent any BNY Mellon entity. Dkt 38
11

In order to rebut Stafne’s evidence that there was nothing filed with the SEC showing that
12
13

Stafne’s loan had ever been transferred from JP Morgan as trustee, pursuant to terms set forth in the

14

Pooling and Servicing Agreement1 (PSA), DWT filed the declarations of “litigation analyst” Fay

15

Janati, who is employed by Nationstar. Dkt 39. It will be recalled that Janati is the same litigation

16

analyst who originally signed a judicial foreclosure notice which identified Bank of New York

17

Mellon as the trustee. Dkt. 34-1. Now she has changed her story. Paragraph 2 of Janati’s recently

18

filed declaration states: “I am duly authorized to make this declaration on behalf of Nationstar and

19
20

BONY, as successor trustee of the SAMI trust.” (Dkt 39) Stafne objects to this testimony because

21

BONY is not the name of any specific entity within BNY Mellon’s universe of consolidated subsid-

22

iaries. Further, Janati’s testimony that she is authorized to make this declaration on behalf of

23

“BONY” constitutes an impermissible legal conclusion and/or expert testimony by a lay person. See

24
25
26

1

Stafne produced a copy of an SEC disclosure form which documented that when trust status of another SAMI trust had changed
from JPMorgan Chase as trustee to Bank of New York as trustee (then its own entity not a part of BNY Mellon) in 2005 the
parties created an SEC filing documenting the change of transfer of trustees had been carried out in accordance with the PSA.
Dkt 34-6. Stafne showed there was no such filing in his case. Dkt 34. Further, Stafne argued JP Morgan Chase had no
authority to sell its trustee status, because it had no ownership interest in the trust. Id. & Dkt 33.

DEFENDANT SCOTT STAFNE’S REPLY TO DAVIS,
WRIGHT TREMAIN’S OPPOSITION TO STAFNE’S 2ND
FRCP 12(b)(1) MOTION
Page - 4

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 55 Filed 07/22/16 Page 5 of 15

1

A 602
FRE 702, 703, 705. Whether Janati has authority, what authority she has, and on whose behalf it can

2

be exercised are questions of New York law. See e.g. POA, Dkt. 39-1, p. 2 (“This agreement shall

3

be governed by, and construed in accordance with, the laws of New York without regards to its

4

conflict of laws principles.”)

5
6

Stafne also objects to Janati’s testimony that Exhibit A is a copy of “BONY’s operative limited power of attorney appointing Nationstar as its “Attorney-In-Fact” because the document speaks

7

for itself. (Dkt 39) Exhibit A states “Bank of New York Mellon, f/k/a the Bank of New York” is the
8
9

principal. BONY appears to be an acronym for the old bank, Bank of New York, which this POA

10

clearly indicates no longer exists and did not become a part of BNY Mellon until approximately

11

2008. Given that Janati testifies this same language refers to Bank of New York Mellon as the

12

principal in Dkt. 34-1 and to BONY as principal in Dkt. 39 there are both credibility and legal issues

13

with regard to Janati’s change in position. Stafne objects to Janati’s testimony that BONY is the

14

principal under the POA because this constitutes a legal conclusion, which she is not entitled to
15

make under the facts of this case. See FRE 702, 703, 705. Similarly, Stafne objects to Janati’s
16
17

testimony that she ratified “Bank of New York Mellon, a Delaware corporation” lawsuit against

18

Stafne on behalf of BONY because it impermissibly constitutes a legal conclusion the POA gives

19

her this power and with regard to POA’s meaning. Id.

20
21

Stafne also objects and moves to strike all of Janati’s testimony, particularly with regard to
her attempts to authenticate exhibits D, E, F, and G attached to her declaration, because she has not

22

established that she has the requisite personal knowledge necessary to testify. Although Janati
23
24
25
26

testifies she has “personal knowledge” she defines personal knowledge to include undefined hearsay:
Except as otherwise indicated, all facts set forth in this declaration are based on my personal knowledge, which is based on my experience, my review of relevant documents,

DEFENDANT SCOTT STAFNE’S REPLY TO DAVIS,
WRIGHT TREMAIN’S OPPOSITION TO STAFNE’S 2ND
FRCP 12(b)(1) MOTION
Page - 5

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 55 Filed 07/22/16 Page 6 of 15

1
2

A 603
including Nationstar's loan servicing records for Scott Stafne, and my discussions with
appropriate personnel.
Dkt 39.

3

Stafne also objects to paragraph 11 of Mr. Burnside’s declaration (Dkt 38) as constituting a
4
5

legal conclusion. See FRE 702, 703, 705; see also RPC 3.7(a)(1)2. Stafne does not object to this

6

Court’s consideration of Mr. Burnside’s declaration for purposes of substantiating he is an attorney

7

for Nationstar, who did not confirm any of the allegations of the original complaint he authored

8

pursuant to his appearance for Bank of New York Mellon with any BNY Mellon entity before filing

9

it with this Court. However, Stafne does object to Mr. Burnside’s declaration generally because it is

10

not based on personal knowledge. Additionally, it is inappropriate for Burnside to attempt to testify
11

as an expert witness in a case in which Burnside is acting as an attorney for Nationstar while claim12
13
14

ing to be appearing as counsel for various BNY Mellon entities. See FRE 702, 703, 705; see also
RPC 3.7(a)(1).

15

Under New York law even a true “agent/attorney” acting pursuant to a valid POA cannot offer

16

testimony on behalf of the principal based upon personal knowledge the attorney-in-fact does not

17
18

have. US Bank v. Zafar, 24 Misc. 3d 1210(A) (N.Y. Sup. Ct. 2009) (citing Cymbol v. Cymbol, 122
A.D.2d 771, 772, 505 N.Y.S.2d 657, 658-59 (1986)). “‘[A]n attorney in fact may not swear to the

19
20

truth of allegations which are made by a principal from the principal's own personal knowledge and

21

which are not personally known to the attorney in fact’ (1 N.Y. Jur 2d, Acknowledgments, Affidavits,

22

Oaths, Notaries, and Commissioners, § 41).” Id. There is nothing in Ms. Janati’s or Mr. Burnside’s

23

declarations to suggest they have personal knowledge of exhibits D, E, F, and G attached to Janati’s

24

declaration. Yes, DWT attorney Burnside states in his declaration (Dkt 38, 3:19-25) that he obtained

25
26

2

RPC 3.7(a)(1) which states in pertinent part: “(a) A lawyer shall not act as advocate at a trial in which the lawyer is likely to be
a necessary witness unless: (1) the testimony relates to an uncontested issue”. The question as to which, if any, BNY Mellon
entity, if any, is the trustee of a securitized trust owning Stafne’s loan is hotly disputed.

DEFENDANT SCOTT STAFNE’S REPLY TO DAVIS,
WRIGHT TREMAIN’S OPPOSITION TO STAFNE’S 2ND
FRCP 12(b)(1) MOTION
Page - 6

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 55 Filed 07/22/16 Page 7 of 15

1

A 604
the Assignment and Assumption Agreement effectuating the transfer of the Acquired Corporate

2

Trust Contracts from “Bank of New York’s legal department” (Burnside’s words) he understanda-

3

bly does not attach them to his declaration. The reason for this is most likely DWT wanted to plant

4

these records in Janati’s declaration so she could attempt to get them admitted into evidence based

5

on her “discussions with appropriate personnel3.” See Dkt. 39.

6

Black’s Law Dictionary defines personal knowledge to mean: “Knowledge gained through

7

firsthand observations or experience, as distinguished from a belief on what some else has said.”
8
9

Black's Law Dictionary, Ninth Edition, (2009). Accordingly, Stafne objects to the testimony of both

10

Janati and Burnside because neither has made the requisite showing personal knowledge upon

11

which to base their testimony.

12
13

Once exhibits D, E, F, and G are stricken there is no evidence that JP Morgan Chase as trustee transferred or sold Stafne’s loan to BONY in 2006. That such a transfer never occurred is con-

14

sistent with all the other evidence in the record before this Court, including, without limitation (1)
15

Bank of America’s recorded transfer of its interest in the Note and Deed of Trust to Nationstar in
16
17

2013, (Dkt 29, ¶ 11 & ex. 5); (2) Nationstar’s report to Stafne in 2014 that JP Morgan Chase was the

18

trustee (Dkt 21-2); (3) Nationstar’s recorded transfer to the note back to Bank of New York Mellon

19

in 2015 (Dkt. Dkt 29, ¶ 11 & ex. 6); and (4) BNY Mellon’s negative response to an inquiry as to

20

whether any of the entities in its universe owned Stafne’s loan. Estrada’s decl.

21
22

Finally Stafne objects and moves to strike the POA attached to DWT’s opposition as Exhibit
1. (Dkt 53, 3:19-21) Stafne asserted in his opening motion that Nationstar’s POA attached to the

23
24
25
26

3

The law in New York is that an a debt buyers records custodian "almost always lacks the requisite knowledge to lay the proper
foundation to establish the documents ... are business records of the original creditor." See also Midland Funding LLC v.
Valentin, 40 Misc.3d 266, 966 N.Y.S.2d 656, 659 (2013). Just this week Division One of Washington’s Court of Appeals
surveyed the law in Washington and other jurisdictions with regard to when the employees of debt buyers can testify with
regard to their predecessors business records. See Unifund, CCR, LLC v Elyse, No. 73510-1-1 note 14 (July 18, 2016) New
York law is in line with the majority of cases the Court of Appeals identified.

DEFENDANT SCOTT STAFNE’S REPLY TO DAVIS,
WRIGHT TREMAIN’S OPPOSITION TO STAFNE’S 2ND
FRCP 12(b)(1) MOTION
Page - 7

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 55 Filed 07/22/16 Page 8 of 15

1

A 605
complaint was limited to one year and not in effect when the complaint was filed against him. Dkt

2

42, 11:19-12:8. DWT and Nationstar did not dispute each POA is limited to a one year period;

3

rather they argued that Exhibit 1 attached to its response was in effect. However, because there is no

4

testimony to authenticate this exhibit, Stafne objects to its admission and moves to strike that POA.

5
6

C. Nationstar is the real party in interest but cannot bring this case pursuant to 28 USC 1332 and
1359 because both Nationstar and defendant Real Time resolutions are Texas citizens.
The Pooling and Servicing Agreement (PSA) attached to the complaint identifies JP Morgan

7
8

Chase as the trustee. Dkt. 1, Complaint, attachment F. The PSA requires the servicers to pay all of

9

Stafne’s payments under the loan to the trust as they become due. Dkt. 1-7, PSA, pp. 116-7, Section

10

6.06. See also Stafne’s decl. Thus, the PSA prevented the trust from sustaining any injury by reason

11

of Stafne failing to make payments because the servicers advanced those payments. Id.
12

In this case, the evidence demonstrates only the “servicers” are actually out of pocket the

13
14

advances they have made to the trust. Thus, Nationstar as the last servicer standing is the only entity

15

which has sustained any concrete economic injury sufficient to establish standing. In other words,

16

because Nationstar and previous servicers unwisely paid money into the trust notwithstanding

17

Stafne’s refusal to make payments to them because of his claim Countrywide’s force placed insur-

18

ance contracts insuring the full amount of the loan breached the Note and Deed, Dkt. 43, the trust
19
20

was not injured by this dispute. Thus, when Janati writes Stafne as of September 18, 2015 that he

21

owes $344,571.81 to the trust, see Dkt. 34-1, p. 3 (Janati’s Statement re: Judicial Foreclosure), this

22

is not true because the servicers had already paid most of this money into the trust for the benefit of

23

investors. It is only the servicers who have been damaged by not promptly bringing a breach of

24

contract action against Stafne when he breached the contract and refused to pay on the note and

25

deed.

26

DEFENDANT SCOTT STAFNE’S REPLY TO DAVIS,
WRIGHT TREMAIN’S OPPOSITION TO STAFNE’S 2ND
FRCP 12(b)(1) MOTION
Page - 8

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 55 Filed 07/22/16 Page 9 of 15

1

A 606
Given that Stafne’s property is appraised at less than $200,000 because of construction de-

2

fects, it is likely that Nationstar (not any trust or investors) will be the only entity which can recover

3

anything as a result of foreclosure because the property is worth far less than the servicing advances.

4

Dkt. 52, Ex. 1 (Snohomish County Appraisal of Stafne’s Property). In fact, the legal fees associated

5

with this litigation will likely exceed the value of Stafne’s property. So the only entities with an

6

actual economic stake in obtaining a recovery as a result of this controversy are Nationstar and

7

DWT. See Stafne declaration in support of this motion.
8
9

If Nationstar is the real party in interest with regard to this lawsuit, it cannot invoke this

10

Court’s diversity jurisdiction. This is because Nationstar is a citizen of Texas. So is defendant Real

11

Time Resolutions. Dkt. 1. Because the relief sought seeks to foreclose on Real Times Resolutions

12

interests in Stafne’s property it is a necessary party.

13

This case is much like Young v. Vrechek, CIV. 09-00403 SOM, 2013 WL 5532827, (D.

14

Haw. Oct. 7, 2013), aff'd, 615 Fed. Appx. 429 (9th Cir. 2015) and Zapata v. Flintco, Inc., 2:09-CV15

03555 GEB, 2011 WL 3583401, at *6-14 (E.D. Cal. Aug. 12, 2011), report and recommendation
16
17

adopted (Sept. 7, 2011). In those cases the plaintiffs entered into agreements in order to allow them

18

to bring state causes of action into federal court. Such agreements were found to be collusive and

19

improper. This issue will be further discussed in the context of this case in Part IV, infra.

20

IV. Nationstar has not presented any facts sufficient to rebut the presumption that the POA in
this case is being used to improperly or collusively invoke the jurisdiction of such court.”

21
22

DWT argued in reply to Stafne’s assertions in Dkt. 46 that Nationstar and DWT are

23

improperly utilizing the POA to create diversity jurisdiction as well as evidentiary and

24

procedural advantages inconsistent with Article III standing that:

25
26

Stafne’s authorities are distinguishable. A power of attorney is not an assignment of a claim. Thus,
Stafne’s citation to Dweck v Japan CBM Corp., 877 F 2d 790, 792-93 (9th Cir. 1989) and Dobyns v
Trautner, 552 F. Supp 2d 1150, 1153 (W.S. 2008) are inapposite.

DEFENDANT SCOTT STAFNE’S REPLY TO DAVIS,
WRIGHT TREMAIN’S OPPOSITION TO STAFNE’S 2ND
FRCP 12(b)(1) MOTION
Page - 9

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 55 Filed 07/22/16 Page 10 of 15
A 607
1
2

Dkt. 49, 6:5-12.
But 28 USC § 1359, which Dweck is based upon is not limited to Assignments. This statute

3

provides: “A district court shall not have jurisdiction of a civil action in which any party, by as-

4

signment or otherwise, has been improperly or collusively made or joined to invoke the jurisdiction

5

of such court.” 28 USC § 1359 (emphasis added); see e.g., W. Farm Credit Bank v. Hamakua Sugar

6

Co., Inc., 841 F. Supp 976, 980 (D.Haw.1994), aff'd, 87 F.3d 1326 (9th Cir.1996). This federal anti-

7

collusion statute is aimed at preventing parties from manufacturing diversity jurisdiction to inappro8
9

priately channel ordinary litigation over which the States usually have jurisdiction into the federal

10

courts. Yokeno v. Mafnas, 973 F.2d 803, 809 (9th Cir.1992) (citing Kramer v. Caribbean Mills, Inc.,

11

394 U.S. 823, 828–29 (1969)). “[T]he statute is to be construed broadly to bar any agreement whose

12

primary aim is to concoct federal diversity jurisdiction.” Zee Med. Distrib. Ass'n v. Zee Med., Inc.,

13

23 F.Supp.2d 1151, 1158 (N.D.Cal.1998). “A party may not create diversity jurisdiction by the use

14

of an improper or collusive assignment,” and “[t]he party asserting jurisdiction has the burden of

15

proof” in showing that jurisdiction has not been manufactured. Dweck, 877 F.2d at 792.
16
17

The Ninth Circuit Court of Appeals has held that certain types of agreements are presump-

18

tively ineffective to create diversity jurisdiction. See Yokeno, 973 F.2d at 809–10; see also Nike, Inc.

19

v. Comercial Iberica de Exclusivas Deportivas, S.A., 20 F.3d 987, 991 (9th Cir.1994). Included

20

among such arrangements are those where the real party in interest is not named as party to the

21
22

litigation and the named plaintiff is just a strawman, as appears to be the case here. See Attorneys
Trust v. Videotape Computer Prods., Inc., 93 F.3d 593, 597 (9th Cir.1996) ( “... is the assignee truly

23
24

a real party in interest or just a strawman for all practical purposes? If the latter, an assignment

25

which creates jurisdiction will be dubbed improper.) “To overcome this presumption, the party

26

asserting diversity must show a legitimate business reason for the transfer.” Yokeno, 973 F.2d at 810
(“Simply articulating a business reason is insufficient; the burden of proof is with the party asserting
DEFENDANT SCOTT STAFNE’S REPLY TO DAVIS,
WRIGHT TREMAIN’S OPPOSITION TO STAFNE’S 2ND
FRCP 12(b)(1) MOTION
Page - 10

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 55 Filed 07/22/16 Page 11 of 15

1
2
3

A 608
diversity to establish that the reason is legitimate and not pretextual.”); accord Dweck, 877 F.2d at
792.
This court should consider several factors in determining whether the party attempting to

4

support the assignment has met his or her burden to demonstrate a sufficient business purpose under

5

the “totality of the circumstances.” See Yokeno, 973 F.2d at 810. These factors include: “(1) did the

6

assignee have a prior interest in the item or was the assignment timed to coincide with the com-

7

mencement of litigation; (2) was any consideration given by the assignee; (3) was there an admis8
9

sion that the motive was to create jurisdiction; (4) was the assignment partial or complete; and (5)

10

were there good business reasons for the assignment.” Dae Poong Co. v. Deiss, No. C–05–01470

11

RMW, 2005 WL 2000936, at *2 (N.D.Cal. Aug. 16, 2005) (unpublished) (citing Attorneys Trust, 93

12

F.3d at 595–96). Also relevant in this inquiry are factors such as the assignor's continued involve-

13

ment in the litigation, the assignor's contemplation of instituting a lawsuit prior to assignment, and

14

the advantages of gaining a federal forum. See Yokeno, 973 F.2d at 810. This Court cannot perform
15

these inquiries because DWT has not provided this Court or Stafne with any evidence related to
16
17
18

these standards.
Notwithstanding evidence Bank of America recorded an interest selling Stafne’s note and

19

deed of trust to Nationstar in 2013 (Dkt 29-5) and Nationstar recorded an assignment of its interest

20

in Stafne’s land to the Bank of New York Mellon as trustee in 2015, Dkt 29-6, DWT and Nationstar

21

have chosen not to offer any evidence of any legitimate business purpose for these transfers and

22

this POA, which allows Nationstar, the real party in interest, to bring this action in the name of
23
24

BNY Mellon entities which claim they have no interest in the loan.

25

The evidence in the record substantiates the POA between Nationstar and “Bank of New York

26

Mellon” is not between any properly named entity in the BNY Mellon universe, i.e. The Bank of
New York Mellon Corporation and its consolidated subsidiaries. This allows Nationstar to pick and
DEFENDANT SCOTT STAFNE’S REPLY TO DAVIS,
WRIGHT TREMAIN’S OPPOSITION TO STAFNE’S 2ND
FRCP 12(b)(1) MOTION
Page - 11

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 55 Filed 07/22/16 Page 12 of 15

1

A 609
choose the entity it claims has standing without any consideration of anything but what is best for

2

Nationstar, without regard to the truth and/or interests of the trustee and trust. Further, Nationstar

3

asserts (but Stafne disputes) the POA gives it authority to decide without consultation with Bank of

4

New York Mellon (an entity which does not exist or any of those BNY Mellon entities, which

5
6

actually do exist) whether it wants to assert diversity jurisdiction (or in the Robertson case consents
to removal jurisdiction, see Dkt 45 & 46.) Further, Nationstar asserts (but Stafne disputes) the POA

7

gives Nationstar unfettered discretion to ratify Nationstar’s mistake in originally alleging that same
8
9

non-existent principal on the POA, i.e. Bank of New York, was the plaintiff in this action.

10

What is excruciatingly apparent from DWT’s silence in the face of Stafne’s evidence is

11

DWT’s expectation this Court will continue to allow them to manipulate this Court’s diversity

12

jurisdiction by simply making jurisdictional allegations on behalf of BNY Mellon without ever

13

having to verify with that entity whether such allegations are true. See e.g. Dkt. 21 & 21-8. DWT’s

14

inability or failure to access an BNY Mellon entity on behalf of which it has appeared raises the
15

same types of procedural and evidentiary concerns which led the courts in Smith v. Ayres, 977 F.2d
16
17

946, 949-50 (5th Cir. 1992) and In re BP, PLC Securities Litigation, 4:10-MD-2185, 2016 WL

18

29300, at 8 (S.D. Tex. Jan. 4, 2016) to deny standing. Dobyns v Trautner, 552 F. Supp 2d 1150,

19

1153 (W.D Wa. 2008) is also applicable here given the assertion that DWT and Nationstar are

20

dragging Stafne through Federal Court in order to punish him for representation of homeowners and

21

his political speech favoring homeowners. Dkt 47, 48, & 52.

22

New York law makes very clear that Limited POAs cannot be used when conflicts of inter23
24

est exist. In re Kover, 134 A.D.3d 64, 81, 19 N.Y.S.3d 228, 241 (N.Y. App. Div. 2015);In re Wat-

25

son, 121 A.D.3d 1158, 1158, 992 N.Y.S.2d 913 (N.Y. App. Div. 2014). See also Lasalle Bank N.A.

26

v. Smith, 26 Misc. 3d 1239(A), 907 N.Y.S.2d 438 (N.Y. Sup. Ct. 2010). DWT and Nationstar simply do not respond to Stafne’s arguments that inherent conflicts of interests between servicers and
DEFENDANT SCOTT STAFNE’S REPLY TO DAVIS,
WRIGHT TREMAIN’S OPPOSITION TO STAFNE’S 2ND
FRCP 12(b)(1) MOTION
Page - 12

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 55 Filed 07/22/16 Page 13 of 15

1

A 610
trustees make the use of the POA in this type of case inappropriate. Dkt 42. Here, the evidence

2

establishes a likely conflict between Nationstar, DWT, and the investors in any securitized trust

3

which may own Stafne’s loan. Stafne’s house is worth far less than the servicer’s advances. None-

4

theless DWT attempts to bring this action on behalf of its client Nationstar in the names of BNY

5

Mellon entities in order to recoup Nationstar’s servicing fees, expecting that its attorney fees will be

6

paid by the trust.

7

DWT and Nationstar also do not respond factually or legally to Stafne’s evidence and argu8
9

ment the limited POA does not grant Nationstar and/or DWT the power to invoke diversity jurisdic-

10

tion on behalf of BNY Mellon entities or with regard to ratifying a change of the real party in inter-

11

est pursuant to Fed. R. Civ. Pro. 17(a)(3). The failure to present any responsive argument in this

12

regard concedes this point. See Mariscal v. Graco, Inc., 52 F.Supp.3d 973, 984 (N.D. Cal. 2014).

13

V. This Court must decide whether it has jurisdiction first pursuant to Stafne’s factual challenge to the complaint because it has no authority to resolve any other motions until it concludes it has jurisdiction over this case pursuant to U.S. Const. Art III, § 2.

14
15

DWT urges this Court should resolve whether it has jurisdiction in the context of those other
16
17

motions which are currently pending before this Court. Stafne disagrees. This Court has a Constitu-

18

tional duty, as set forth Fed. R. Civ. Pro. 12(b)(1), see supra., and 12(h)(3) to review the pleadings,

19

evidence, and admissions Stafne has brought to this Court’s attention to determine if anyone has

20

standing to bring this case against Stafne in this Court. See Arbaugh v. Y&H Corp., 546 U.S. 500,

21

506-7 (2006) citing Fed. R. Civ Pro 12(h). This Court must perform this Constitutional inquiry

22

before it resolves any other merits or procedural issues. Steel Co. v. Citizens for a Better Env't, 523
23
24

U.S. 83, 93-95, 118 S. Ct. 1003, 1012-13, 140 L. Ed. 2d 210 (1998).

25

CONCLUSION

26

For the reasons states herein, this Court should grant Stafne’s 12(b)(1) motion.

DEFENDANT SCOTT STAFNE’S REPLY TO DAVIS,
WRIGHT TREMAIN’S OPPOSITION TO STAFNE’S 2ND
FRCP 12(b)(1) MOTION
Page - 13

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 55 Filed 07/22/16 Page 14 of 15

ND

1

DATED this 22

A 611
day of July 2016, at Arlington, Washington.

2
3

By:______/s Scott E. Stafne__________
SCOTT E. STAFNE, WSBA#6964

4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26

DEFENDANT SCOTT STAFNE’S REPLY TO DAVIS,
WRIGHT TREMAIN’S OPPOSITION TO STAFNE’S 2ND
FRCP 12(b)(1) MOTION
Page - 14

STAFNE LAW FIRM
239 NORTH OLYMPIC AVENUE
ARLINGTON, WA 98223

T EL . 360.403.8700 /F AX 360.386.4005

Case 2:16-cv-00077-TSZ Document 133 Filed 05/26/17 Page 1 of 3
APPENDIX 56
A 612
1

The Honorable Thomas S. Zilly

2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WASHINGTON
AT SEATTLE

9
10
11
12
13
14
15
16
17
18

THE BANK OF NEW YORK MELLON, a New )
York corporation, as trustee for Structured Asset )
Mortgage Investments II Trust, Mortgage Pass- )
)
Through Certificates Series 2005-AR2,
)
)
Plaintiff,
)
)
)
v.
)
)
SCOTT STAFNE, an individual; TODD
)
STAFNE, an individual,
)
)
Defendants.
)
)
)

No. 2:16-cv-00077 TSZ
REPLY TO TODD STAFNE’S
RESPONSE TO THE PROPOSED
AMENDED PARTIAL
JUDGMENT

19
20
21
22
23
24
25
26
27
REPLY RESPONSE RE:
MOTION TO AMEND THE JUDGMENT
(2:16-cv-00077-TSZ)

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

Case 2:16-cv-00077-TSZ Document 133 Filed 05/26/17 Page 2 of 3
A 613
I.

1

Defendant Todd Stafne’s response to Plaintiff The Bank of New York Mellon’s (“BONY”)

2
3
4
5
6
7
8
9
10

RESPONSE

proposed amended judgment is prolix, but makes one, short argument—the abbreviated legal
description in the proposed amended judgment refers to different boundaries than the full legal
description in the Deed of Trust and proposed amended judgment. BONY concedes that this may
be true—Todd and Scott Stafne have changed the boundary lines enough times that it is unclear if
the abbreviated legal description and the full legal description are the same.1 BONY stipulates
that the Court can revise the abbreviated legal description in the proposed amended judgment to
repeat the full legal description contained in the Deed of Trust, which is senior (and thus
controlling) as to any subsequent boundary line adjustments:
LOT 11, SURVEY FOR TWIN FALLS, INC., AS RECORDED UNDER
RECORDING NO. 200110105002, RE-RECORDED TO CORRECT
SURVEY RECORDED UNDER RECORDING NO. 200111275007,
RECORDS OF SNOHOMISH COUNTY, BEING A PORTION OF THE
SOUTHEAST QUARTER OF SECTION 22 AND A PORTION OF THE
NORTHEAST QUARTER OF SECTION 27 ALL IN TOWNSHIP 31 NORTH,
RANGE 6 EAST, W.M.; (ALSO KNOWNS AS LOT 11, THE PLAT OF
TWIN FALLS), TOGETHER WITH A NON EXCLUSIVE EASMENT FOR
INGRESS, EGRESS AND UTILITIES AS ESTABLISHED BY
INSTRUMENT RECORDED UNDER RECORDING NO. 9212160154;
SITUATE IN THE COUNTY OF SNOHOMISH, STATE OF WASHINGTON.

11
12
13
14
15
16

17 APN 31062200400400.
18
DATED this 26th day of May, 2017.

19

Davis Wright Tremaine LLP
Attorneys for Bank of New York Mellon

20

By s/Fred B. Burnside
Fred B. Burnside, WSBA #32491
Zana Z. Bugaighis, WSBA #43614
E-mail: fredburnside@dwt.com
E-mail: zanabugaighis@dwt.com

21
22
23
24
25
1

BONY obtained the abbreviated legal description from the Snohomish County On-line Property
26 Information website.
https://www.snoco.org/proptax/(el5rlabqrvjqet45gkpfgx2i)/search.aspx?parcel_number=3106220
27 0400400
REPLY RESPONSE RE:
MOTION TO AMEND THE JUDGMENT
(2:16-cv-00077-TSZ) - 1

Davis Wright Tremaine LLP
L AW O F FI CE S
Suite 2200
1201 Third Avenue
Seattle, WA 98101-3045
206.622.3150 main · 206.757.7700 fax

